<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-154]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-154
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

=======================================================================






                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2985

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2006, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                          Capitol Guide Board
                          Capitol Police Board
                      Congressional Budget Office
                    Government Accountability Office
                       Government Printing Office
                      Joint Committee on Taxation
                        Joint Economic Committee
                          Library of Congress
                       Nondepartmental Witnesses
                          Office of Compliance
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


    deg.Available via the World Wide Web: http://www.gpoaccess.gov/
                          congress/index.html

                               __________



                 U.S. GOVERNMENT PRINTING OFFICE

99-872                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001












                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                    WAYNE ALLARD, Colorado, Chairman
THAD COCHRAN, Mississippi            RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                     Terrence E. Sauvain (Minority)
                        Drew Willison (Minority)
                       Nancy Olkewicz (Minority)

                         Administrative Support

                            Christen Taylor
































                            C O N T E N T S

                              ----------                              

                       Wednesday, April 13, 2005

                                                                   Page
U.S. Senate: Office of the Secretary.............................     1
Architect of the Capitol.........................................    71

                        Tuesday, April 19, 2005

Library of Congress..............................................   121
Government Accountability Office.................................   169

                       Wednesday, April 27, 2005

U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......   209
Capitol Police Board.............................................   241
Capitol Guide Board..............................................   261

                        Wednesday, May 11, 2005

Government Printing Office.......................................   265
Congressional Budget Office......................................   285
Office of Compliance.............................................   293

    Material Submitted by Agencies not Appearing for Formal Hearings

Joint Committee on Taxation......................................   303
Joint Economic Committee.........................................   314
Nondepartmental Witnesses........................................   317
  





























         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 13, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard, Cochran, and Durbin.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF EMILY REYNOLDS, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY OF THE SENATE
        TIM WINEMAN, FINANCIAL CLERK OF THE SENATE


               opening statement of senator wayne allard


    Senator Allard. The Subcommittee on the Legislative Branch, 
Committee on Appropriations, will come to order. We meet today 
to hear testimony from the Secretary of the Senate and the 
Architect of the Capitol on the fiscal year 2006 budget 
requests.
    It's my first hearing as chairman of this subcommittee, and 
I look forward to learning about the key issues and budget 
priorities within each of the legislative branch agencies.
    Overall, the request for the legislative branch totals 
$4.03 billion, an increase of $482 million, or a 13.5 percent 
increase over the fiscal year 2005 level. Clearly, in the 
constrained budget environment in which we will be operating, 
an increase of this level will be difficult, if not impossible 
to provide, so we will be seeking to ensure that all agencies 
have prioritized their budget requests, are taking steps to 
operate as cost effectively as possible, and are eliminating 
wasteful or unnecessary spending.
    Welcome to our witnesses this morning. We will hear first 
from Emily Reynolds, Secretary of the Senate, who's accompanied 
by the Assistant Secretary of the Senate, Mary Suit Jones, and 
the Financial Clerk of the Senate, Tim Wineman.
    Ms. Reynolds, your budget request totals almost $23 
million, an increase of about 7 percent over fiscal year 2005, 
primarily to accommodate routine pay and inflation-related 
increases, as well as to make some upgrades in a few areas.
    Following the Secretary of the Senate, we will take 
testimony from Mr. Alan Hantman, Architect of the Capitol. The 
AOC budget request totals $506 million, an increase of $157 
million over the current fiscal year. The increase is largely 
associated with several construction projects, including 
completion of the Capitol Visitor Center (CVC), construction of 
the Library of Congress storage modules at Fort Meade, 
Maryland, and a new offsite delivery facility for the Capitol 
Police, as well as startup costs and new personnel for the CVC.
    Your budget office is to be commended for putting together 
a budget justification which is transparent and thorough and 
explains all increases concisely, and we certainly appreciate 
that effort.
    There are a number of issues I'd like to explore with you 
today. Most important, of course, is the schedule and budget 
for completion of the Capitol Visitor Center. As I understand 
it, while much progress has been made, there's still a long way 
to go before the facility can be opened to the public, and the 
schedule remains unclear. There have been significant 
difficulties with this project, including coordinating two 
major construction contractors, weather-related delays, 
unforeseen site conditions, and, frankly, serious management 
problems. While it is too late to make major changes to how the 
project is being run, it is my expectation that you will make 
every effort to demand the best from your contractors, provide 
the Congress with a balanced assessment of progress as the 
project continues, and accept the counsel of the Government 
Accountability Office (GAO), which has been monitoring the 
project, providing recommendations from the start. GAO has done 
a very professional job in this oversight effort, and we 
appreciate this. Their projections on cost and schedule have 
been accurate, and their recommendations have been good.
    In addition to the CVC, there continues to be much 
construction activity around this campus. One of the primary 
reasons is security-related work that will continue even after 
the CVC is complete. All of us have construction fatigue and 
look forward to when this complex can be returned to a state 
that we can all be proud of, free of construction activity, 
dump trucks, jersey barriers, and torn-up streets. So we will 
be urging you to accelerate these efforts, which have been in 
the works for many years now.
    The perimeter security project and the visitor center seem 
to be emblematic of problems this agency continues to have with 
project management. As I understand it, about half of the major 
projects AOC has underway at this time are behind schedule, and 
too many are over budget, as well. We look forward to hearing 
what you're doing to improve project management.
    There are also concerns with the morale of your workforce. 
Highlighted in an article a few weeks back in The Hill 
newspaper, it seems that communication with employees is not as 
good as it should be. So we look forward to an update on how 
you're improving communication and employee morale.
    Finally, the AOC has been working to develop a long-range 
master plan for the Capitol complex, as well as condition 
assessments of each of the buildings. This should lead to a 
plan for prioritizing spending for both capital projects and 
deferred maintenance over the next 5 years. The master planning 
effort has been underway for some time, so we look forward to 
understanding when we will have a final product and a roadmap 
for future budget requirements.
    We will now turn to the Secretary of the Senate. I welcome 
you to the subcommittee and look forward to your testimony, Ms. 
Reynolds. And you may proceed.


                  opening statement of emily reynolds


    Ms. Reynolds. Thank you very much, Mr. Chairman. And we 
look forward to working with you, as our legislative branch 
subcommittee chairman.
    I would ask, of course, that my full statement, which 
includes our complete Department reports, be submitted for the 
record. And today I'd like to take just a few minutes to give 
you a brief overview of the Secretary's operation and, of 
course, as you referenced, our budget request for fiscal year 
2006.
    Along with Mary Suit Jones and Tim Wineman, who, as you 
said, are here today, we have a good representation of our some 
26 department heads, an able team and a tremendous group of 
individuals who serve the Senate.
    Our budget request, as you said, is right at $23 million, 
representing almost $21 million in salary costs and $1.9 
million in operating costs. This is a slight increase from 
fiscal year 2005, mostly in COLA and merit increases, so that 
we can continue to attract and retain the kind of talent the 
Senate requires and, indeed, deserves for its operations. We 
also have a small increase of $200,000 in that operating budget 
to prepare specifically for a specialized and much-needed 
storage space for our curator and upcoming relocations for 
Senate security and our closed-captioning services operation. 
We also anticipate some additional costs for the support and 
maintenance of systems that are currently underway--systems 
upgrades that are currently underway in both the gift shop and 
the stationery room.
    Since the first Secretary was elected by the Senate in 
1789, our office has served the Senate in three principal ways; 
that is, to provide legislative, financial, and administrative 
support. And I'd like to briefly highlight some our 
accomplishments from last year in each of these areas.
    The legislative department, of course, consists of nine 
offices dedicated to ensuring that the Senate can carry out its 
constitutional responsibilities. And, to that end, one of our 
priorities remains the crosstraining among their specialties. 
In election years, our parliamentarians play a key and perhaps 
even little-known role. Following the elections, the 
parliamentarian must attest to the accuracy of each State's 
certificate of election for Senate races, a process that we 
have to have completed, obviously, before our Members can be 
sworn in. The parliamentarian also reviews the electoral 
ballots for the President and Vice President, and assists the 
Vice President and his staff in preparation for the joint 
session of Congress to count those electoral ballots.
    On the financial side, our disbursing office pays the 
Senate community every 2 weeks, of roughly 6,500 individuals, 
and we process over 125,000 bills each year. Of course, as you 
well know, this office also administers health insurance, life 
insurance, and all of the retirement programs for our Members 
and staff.
    We continue to make significant progress on the 
implementation of the financial management information system 
(FMIS), a 5-year strategic plan which this subcommittee 
generously provided the funding for now 3 years ago. Of course, 
FMIS' high priority is to provide efficiency, accountability, 
and ease of use for the 140 Senate offices that rely on the 
disbursing operation.
    On the administrative side of our operation, there were 
several noteworthy accomplishments from last year. With the 
assistance of our Senate curator, late next month we will 
unveil the portrait of former Majority Leader George Mitchell, 
and, soon after, we will add to our collection the portrait of 
another Maine Senator, Margaret Chase Smith. We have underway a 
commission to add to the Senate reception room a portrait to 
commemorate the authors of the Connecticut Compromise, Senators 
Ellsworth and Sherman.
    You might well have seen the ``Catalogue of Fine Art'', 
which we released last year, a beautiful piece of work. We hope 
to add a companion piece this Congress, the Senate ``Catalogue 
of Graphic Art'', which will be a compilation of our collection 
of 900 historic engravings and lithographs.
    And one of the most exciting initiatives we have underway, 
which this subcommittee has generously supported, is our work 
with the Senate Curatorial Advisory Board, which has now 
completed its second meeting. The board provides us with expert 
advice regarding our collections and preservation program. It's 
a group of 12 highly knowledgeable and esteemed experts in 
their fields of art, preservation, architecture, and they are 
giving generously of their time and talent to the Senate.
    In addition, our newly formed Senate Preservation Board of 
Trustees will meet next month. This group will supplement the 
work of the Curatorial Advisory Board and assist us in 
acquisitions and to facilitate preservation projects for the 
Senate. You may recall that your former colleague from 
Colorado, Senator Campbell, sent us on a search for a chair 
that was given to Vice President Charles Curtis to celebrate 
his Native American heritage. And that chair, now on loan to 
us--the search was victorious--and the chair now resides in the 
Vice President's ceremonial office.
    Since that acquisition, I'm pleased to report we've made 
progress on other fronts, as well. We have subsequently 
acquired a Brumidi oil sketch, which was a preliminary 
treatment for the signing of the first Treaty of Peace with 
Great Britain, which, of course, in its finished form, is on 
the first floor of the Capitol, in the Brumidi corridors. And I 
would add, just coincidentally, this year happens to mark the 
200th anniversary of Brumidi's birth. We are working with the 
Architect of the Capitol on several ways that we can 
commemorate that historic occasion in the Capitol this summer.
    Our historical office also came into possession, this last 
year, of a wonderful treasure of scrapbooks that contain 
photographs of nearly 900 Senators, from the Senate's early 
days up to the early 20th century. Many of these were from 
Members for whom we had no prior photograph or record. Some we 
believe may even be the photographs done by Matthew Brady, the 
very famous Civil War photographer. This treasure actually came 
to us from a lifelong Washington resident. He grew up on 
Capitol Hill, and one of his fondest memories is that he was 
often walked to school by Chief Justice Taft. Thanks to his 
generosity, our historical office is now putting together, for 
the first time ever, a pictorial directory of the images of all 
Senators who have served since 1789, by State and class.
    While we focus on the rich history and tradition of the 
Senate in the Secretary's office, we certainly don't ignore the 
fact that technology continues to dramatically change the way 
we deliver services to the Senate in this 21st century. The 
Senate Library, for example, just late last year completed an 
ambitious project to provide its entire catalog online through 
the Senate intranet, Webster, so you can now review our catalog 
of 158,000 items literally from your desk. In addition, the use 
of our public website, senate.gov, continues to grow, a 9 
percent increase last year, with almost 3.3 million visitors 
per month.
    The second of our two mandated systems, the Legislative 
Information System (LIS), is a technological achievement, in 
and of itself. I'm delighted to report that, already in this 
Congress, working in conjunction with the Office of Senate 
Legislative Counsel, we've used this system to draft 
legislation, and 75 percent of the introduced and reported 
bills have been created as XML documents through this project. 
Once again, this subcommittee has generously supported that 
initiative.
    And, quickly, there are two special projects I want to 
mention that don't necessarily fall tidily within our mission 
of legislative, financial, and administrative responsibilities, 
but they are two projects that we have the unique opportunity 
to work on in election and inaugural years. In November, we 
organized and executed the orientation program for our nine new 
Senators, their spouses, and staffs, and we were very fortunate 
to have the guidance of four of your colleagues, current 
Members, Senators Alexander, Carper, Pryor, and Voinovich, who 
wanted to set a new standard for orientation. And, thanks to 
their leadership, I believe we did, with an intensive 4-day 
program, with over two dozen Senators, on a bipartisan basis, 
serving as facilitators and instructors for their new 
colleagues.
    Our staff was also honored to assist the Joint 
Congressional Committee on Inaugural Ceremonies in the 
preparation and execution of the 55th inaugural. From the 
closed-captioners, who provided the captioning for the 
jumbotrons, to the curator and Historian serving on the JCCIC 
website design team, it was really our honor to take a small 
role in that presentation.
    Our operation, as you can see, is one that relies heavily 
on its human capital. While our operating budget is small, it 
is the teamwork, it is our employees, that make the Secretary's 
operation click. We are collaborative partners in so many ways, 
and in so many different levels within our departments 
themselves, within the office, also with disbursing, reaching 
out to administrative managers on the applications of FMIS. We 
work closely with Mr. Hantman and the entire team in the 
Architect's office, on the construction issues, and the 
planning of the CVC. And, finally, in so many ways, we're 
joined with the Sergeant at Arms in the ongoing important 
effort of continuity of Government planning and preparation.


                           prepared statement


    It's a real privilege to be part of that team and to serve 
as the Senate's 31st Secretary, to be part of that rich 
tradition and heritage of the Senate, but also to be planning 
and preparing for its future. On balance, I believe we've 
presented a budget for you today that will enable us to 
continue to provide the best possible legislative, financial, 
and administrative services to the United States Senate.
    I thank you for your time and look forward to any 
questions. Thank you, sir.
    [The statement follows:]
                Prepared Statement of Emily J. Reynolds
    Mr. Chairman, Senator Durbin and Members of the Subcommittee, thank 
you for your invitation to present testimony in support of the budget 
request of the Office of the Secretary of the Senate for fiscal year 
2006.
    Detailed information about the work of the 26 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the fiscal year 2006 budget 
request; implementing mandated systems: Financial Management 
Information System (FMIS) and Legislative Information System (LIS); 
Capitol Visitor Center; continuity of operations planning; and 
maintaining and improving current and historic legislative, financial 
and administrative services.
             presenting the fiscal year 2006 budget request
    I am requesting a total fiscal year 2006 budget of $22,766,000.
    The fiscal year 2006 budget request is comprised of $20,866,000 in 
salary costs and $1,900,000 for the operating budget of the Office of 
the Secretary. The salary budget represents an increase over the fiscal 
year 2005 budget as a result of (1) the costs associated with the 
annual Cost of Living Adjustment in the amount of $672,000 and (2) an 
additional $608,000 for merit increases and other staffing. The 
operating budget represents an increase for (1) costs to be incurred 
for the support and maintenance of systems upgrades for the gift shop 
and stationery room and (2) costs to be incurred for the Curator's 
storage space along with the relocation of Senate Security and 
Captioning Services.
    The net effect of my total budget request for fiscal year 2006 is 
an increase of $1,480,000.
    Our request in the operating budget is a sound one, enabling us to 
meet our operating needs and provide the necessary services to the 
United States Senate through our legislative, financial and 
administrative offices.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Item                                  fiscal year      estimate       Difference
                                                                   2005, Public     fiscal year
                                                                    Law 108-447        2006
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $525,000        $550,000        +$25,000
    Administrative services.....................................       1,135,000       1,290,000        +155,000
    Legislative services........................................          40,000          60,000         +20,000
                                                                 -----------------------------------------------
      Total operating budget....................................       1,700,000       1,900,000        +200,000
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 offices (100 Senators' offices, 20 Committees and 20 
Leadership and support offices). Consistent with our five year 
strategic plan, the Disbursing Office continues to modernize processes 
and applications to meet the continued demand by our Senate offices for 
efficiency, accountability and ease of use. Our goal is to move to a 
paperless voucher system, improve the Web-FMIS system, and make payroll 
and accounting system improvements.
    During fiscal year 2004 and the first half of fiscal year 2005, 
specific progress made on the FMIS project included:
  --Web FMIS has been completely rewritten as a ``zero-client'' 
        application accessed via a website, ``webfmis.senate.gov''. Our 
        implementation began in August 2004 with a pilot of 15 offices, 
        including Senators, Committees and Leadership & Support 
        offices. During the Fall, it continued for new office managers, 
        and in January the intranet version of Web FMIS was provided to 
        the new offices of the 109th Congress. As of the end of March, 
        it was in use by 60 offices. Roll out to the remaining offices 
        has been announced with a schedule of completion by the end of 
        April.
  --The new version of Web FMIS provides functionality desired by the 
        Web FMIS users group, which participated in the design process. 
        The functionality enjoyed most by users is the automatic 
        determination of funding year to which a payment is charged 
        based on the obligation start date. This seemingly small change 
        has improved efficiency and reduced mistakes substantially. 
        Additionally, it has no files on the users PC, which improves 
        our ability to function in a disaster recovery situation.
  --For the SAVI system, which enables Senate staff to create Expense 
        Summary Reports online and to check the status of reimbursement 
        payments, over a course of several upgrades, we provided 
        additional user functionality. Specifically, the upgrades 
        enabled users to prepare and submit Non-travel Expense Summary 
        Reports (in addition to Travel Expense Summary Reports), to 
        request e-mail notification of payments made via direct 
        deposit, to define their own log-on ids and to maintain their 
        own e-mail addresses; completed security enhancements; and 
        implemented a simplified web address ``savi.senate.gov'' and 
        architectural changes, which simplify disaster recovery 
        infrastructure at the ACF.
  --As a non-Treasury disbursing office, the Senate pays bills via 
        direct deposit and checks. During 2004, we made substantial 
        progress on both fronts.
    --In March 2004, we implemented use of laser checks. Staff and 
            vendors not receiving payments via direct deposit now 
            receive checks printed on a laser printer. This has several 
            benefits. Use of a standard laser printer enhances our 
            ability to work off-site, should the need arise, and 
            produces a higher quality print which prevents negotiation 
            of checks for an unintended dollar amount and helps the 
            Postal Service to deliver checks. Use of laser checks 
            required that the U.S. Treasury create a check and stub 
            form for use by the Senate.
    --In May 2004, we offered direct deposit payment to all external 
            vendors. In 2002, we began making reimbursements to Senate 
            staff via direct deposit and in June 2003 we made our first 
            direct deposit payments to external vendors on a pilot 
            basis. Of the approximately 6,000 non-payroll payments made 
            in February 2005, overall, 59 percent were made via direct 
            deposit; of the approximately 2,000 reimbursements to 
            Senate staff, 87 percent were made via direct deposit and 
            of the approximately 4,000 payments to external vendors, 47 
            percent were made via direct deposit.
  --The Sergeant at Arms staff use ADPICS and FAMIS, the mainframe 
        components of FMIS, for procurement activities. In 2004 we 
        contracted with Bearing Point to make system and reporting 
        enhancements to these systems that align system functionality 
        with SAA business practices. By the end of March 2005, the 
        requirements for the system enhancements were approved by the 
        SAA staff and the reports were delivered for testing.
  --One of the goals of FMIS is to implement paperless voucher 
        processing. This requires implementation of electronic 
        signatures, and imaging of supporting documentation, both of 
        which present complex and challenging issues. Our focus has 
        been on revising the requirements for these functions, 
        including a phased approach for implementation (i.e., a pilot 
        vs. long term). In addition, we assessed the risks associated 
        with paperless voucher processing, identified policy and 
        process issues to be resolved, and began to analyze the 
        appropriate hardware/software acquisition strategy.
  --Disaster operation services for FMIS are provided at the Alternate 
        Computer Facility. In December 2004, we conducted an intensive 
        two-day test of operating critical FMIS subsystems at this 
        location. Our tests of all mainframe systems (i.e., payroll, 
        ADPICS and FAMIS) were successful and we were able to simulate 
        making payroll and voucher payments via direct deposit and 
        check. Additionally, we were able to create, post, and print 
        documents via Web FMIS and ADPICS. Document printing has always 
        presented problems during past tests at other facilities; 
        however, the system configuration at the ACF has resolved this 
        problem.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms. Each year upgrades are made to the infrastructure 
        software. The major upgrade this year is implementation of a 
        new version of the mainframe operating system software, ``Z/
        OS'', scheduled for the end of April 2005. This required two 
        steps, installation of an upgrade to the current operating 
        system, OS390, which was completed in October 2004, and the 
        upcoming implementation of Z/OS. These upgrades require FMIS 
        testing, both before implementation to identify and resolve any 
        incompatibilities, and after implementation to verify that all 
        functions are working properly.
    During the remainder of fiscal year 2005 the following FMIS 
activities are anticipated:
  --Complete implementing the intranet version of Web FMIS in all 
        Senate offices.
  --Implementing the system and reporting enhancements for the Sergeant 
        at Arms.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, and imaging of 
        supporting documentation, and begin acquisition.
  --Conducting an additional test of FMIS functionality at the 
        Alternate Computing Facility, including testing two FMIS sub-
        systems, Web FMIS reports and SAVI, that were not previously 
        tested.
  --Implementing e-mail notification to vendors of payments made via 
        direct deposit.
    During fiscal year 2006 the following FMIS activities are 
anticipated:
  --Conducting a pilot of the technology for paperless payment. This 
        assumes identification of satisfactory hardware and software 
        for electronic signatures and imaging of supporting 
        documentation, and resolution of related policy and process 
        issues.
  --Developing requirements for integrating the Funds Advance Tracking 
        System (FATS system) into FMIS. The FATS system, a stand-alone 
        PC-based system, tracks election cycle information used in the 
        voucher-review process, and tracks travel advances and petty 
        cash advances against dollar maximum and total allocation 
        rules.
  --Implementing on-line distribution of payroll system reports.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.
Legislative Information System (LIS)
    The LISAP project team is developing the Senate's legislative 
editing XML application (LEXA), and the Office of the Senate 
Legislative Counsel (SLC) began using it last year to draft 
legislation. The SLC offered valuable feedback throughout the year 
regarding LEXA's continued development as existing features were 
enhanced and additional document types, such as amendments and reported 
bills, were added to LEXA. The use of LEXA by the SLC has gradually 
increased, and so far in the 109th Congress, approximately 75 percent 
of the introduced and reported bills have been created as XML 
documents. The LISAP project team is now working with the Office of the 
Enrolling Clerk toward preparing engrossed and enrolled bills in XML.
    The document management system (DMS) for the SLC will be 
implemented once the SLC has completed the transition from XyWrite to 
LEXA and a substantial number of drafts are created in XML. The SLC's 
DMS will be integrated with LEXA and will provide a powerful tracking, 
management, and delivery tool. The software used to convert locator 
documents to XML was updated to provide a more robust tool, and a joint 
project to convert the compilations of current law to an XML format is 
nearing completion.
    The Government Printing Office (GPO) also began using LEXA last 
year to prepare and print XML documents as requested and to provide 
support for LEXA as directed in the 2004 Legislative Branch 
Appropriations Act. GPO took over maintenance and support of the coding 
and style sheet portion of LEXA that converts an XML document to 
locator for printing through Microcomp. GPO also developed the style 
sheet that will be used to display XML documents on the LIS website 
(www.congress.gov) and on thomas.loc.gov in a format that more closely 
resembles the printed document (without page and line numbers).
                         capitol visitor center
    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operations of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee, to address the 
expansion space plans for the Senate and any issues with regard to the 
CVC's construction that may directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its educational benefits for our visitors will 
be tremendous.
      continuity of operations and emergency preparedness planning
    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its constitutional 
obligations under any circumstances. Plans are in place to support 
Senate floor operations both on and off Capitol Hill, and to permit 
each department within the Office of the Secretary to perform its 
essential functions during and after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, we have successfully implemented COOP plans during the 
anthrax and ricin incidents, and have conducted roughly one dozen 
drills and exercises to test and refine our plans. In conjunction with 
the Senate Sergeant at Arms, Capitol Police, the Office of the 
Attending Physician, and the Architect of the Capitol, we have 
established and exercised Emergency Operations Centers, Briefing 
Centers and Alternate Senate Chambers, both on and off Capitol Hill.
    In addition, we have identified equipment, supplies and other items 
critical to the conduct of essential functions, and have assembled 
``fly-away kits'' for the Senate Chamber, and for each department of 
the Office of the Secretary. Multiple copies of each fly-away kit have 
been produced. Some are stored in our offices, and back-up kits are 
stored nearby but off the main campus, as well as at other sites 
outside the District of Columbia. This approach will enable the Office 
of the Secretary to resume essential operations in 12 to 24 hours, even 
if there is no opportunity to retrieve anything from our offices.
    Today, the Office of the Secretary is prepared to do the following 
in the event of an emergency: support Senate Floor operations in an 
Alternate Senate Chamber within twelve hours on campus, and in 24 to 72 
hours off campus, depending upon location; support an emergency 
legislative session at a Briefing Center, if required; support Briefing 
Center Operations at any of three designated locations within one hour; 
and activate an Emergency Operations Center on campus or at Postal 
Square within one hour.
Activities in the Past Year
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following: Activated an 
Emergency Operations Center, Leadership Coordination Center and 
selected departmental COOP plans during the ricin incident response; 
participated in the Capitol Police Incident Command during the ricin 
incident response; provided supplies to temporary offices in the 
Capitol and Postal Square during the ricin incident response; conducted 
an offsite Alternate Chamber exercise and a Briefing Center exercise; 
and reviewed and updated the COOP plans of all departments of the 
Office of the Secretary.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our emergency preparedness programs are 
designed to ensure that the Senate can carry out its Constitutional 
functions under any circumstances. These programs are critical to our 
mission, and they are a permanent, integral part of the Secretary's 
ongoing operation.
 maintaining and improving current and historic legislative, financial 
                      and administrative services
                          legislative offices
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to perform their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices--the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates--all supervised by the Secretary through the Legislative Clerk. 
The Parliamentarian's office is also within the Legislative Department 
of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors is 20 years. There 
is not one supervisor with less than 14 years of service. The 
experience of these senior professional staff is a great asset for the 
Senate. As in previous years and in order to ensure continued well-
rounded expertise, the legislative team has cross-trained extensively 
among their specialties.
                             1. bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved. As a result, the Bill Clerk's Office is 
generally regarded as the most timely and most accurate source of 
legislative information.
    The Bill Clerk's Office continues to provide Senate offices and the 
public information on Senate legislative status with a high degree of 
accuracy and speed, both through the Senate LIS system (when questions 
on status concern legislation from prior days) and over the phone 
(mostly for same-day information).
Legislative Activity
    The Bill Clerk's Office processed less legislation and fewer roll 
call votes during the second session of the108th Congress compared to 
the first session of the 108th Congress. Below is a comparative summary 
of the second sessions of the 107th and the 108th congresses, as well 
as a comparative summary of both sessions of the 107th and the 108th 
congresses:

------------------------------------------------------------------------
                                               107th           108th
                                           Congress, 2nd   Congress, 2nd
                                              Session         Session
------------------------------------------------------------------------
Senate Bills............................           1,298           1,032
Senate Joint Resolutions................              23              16
Senate Concurrent Resolutions...........              67              66
Senate Resolutions......................             170             204
Amendments Submitted....................           2,287           1,857
House Bills.............................             298             322
House Joint Resolutions.................              12              12
House Concurrent Resolutions............              84              87
Measures Reported.......................             406             317
Written Reports.........................             219             208
                                         -------------------------------
      Total Legislation.................           4,864           4,121
                                         ===============================
Roll Call Votes.........................             253             216
------------------------------------------------------------------------

    For comparative purposes, here is a final cumulative summary of 
both sessions of the 107th and the 108th congresses:

------------------------------------------------------------------------
                                          107th Congress  108th Congress
------------------------------------------------------------------------
Senate Bills............................           3,181           3,035
Senate Joint Resolutions................              53              42
Senate Concurrent Resolutions...........             160             152
Senate Resolutions......................             368             487
Amendments Submitted....................           4,984           4,088
House Bills.............................             562             604
House Joint Resolutions.................              29              32
House Concurrent Resolutions............             175             165
Measures Reported.......................             653             659
Written Reports.........................             351             428
                                         -------------------------------
      Total Legislation.................          10,516           9,692
                                         ===============================
Roll Call Votes.........................             633             675
------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's office maintains a good working relationship with 
the Government Printing Office with a common goal to provide the best 
service possible to meet the needs of the Senate. Toward this end, the 
Government Printing Office continues to respond in a timely manner to 
the Secretary's request through the Bill Clerk's office for the 
printing of bills and reports, including the printing of priority 
matters for the Senate Chamber. Specifically, the Secretary requested, 
through the Bill Clerk, that GPO reprint (star print) roughly 40 
measures during the course of the Congress, and that GPO expedite the 
printing of slightly more than one hundred measures for consideration 
by the Senate.
Projects
    Amendment Tracking System (ATS).--Rules Committee staff approached 
our office with the task of scanning submitted amendments onto the 
Amendment Tracking System on LIS. The Rules Committee has identified a 
need for Senate staff, to have all amendments submitted in the Senate 
made available to them online shortly after being submitted, especially 
during cloture. The Rules Committee also requested that the Secretary 
through the Bill Clerk assess the feasibility of lifting the page 
limitation for scanning amendments onto the ATS Indexer. In response, 
the Bill Clerk contacted the Technology Development division of the 
Sergeant at Arms office to outline the technical requirements needed to 
implement such a request. A draft has now been completed. Once the 
final version is delivered, the Secretary through the Bill Clerk, in 
consultation with the Legislative Clerk, will ascertain the legislative 
requirements needed in order for the staff to implement this request. 
The system must be designed and implemented without sacrificing 
critical services to the functioning of the Senate Chamber, and 
specifically the amendment process.
    Electronic Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerk identified the need to have a electronic version of the official 
Senate ledgers in order to ensure the integrity of the information 
recorded in the ledgers. The electronic version will be portable for 
use during possible emergency scenarios. At the clerk's request, the 
Technology Development division of the Sergeant at Arms is working to 
develop two separate functions of this electronic ledger system. One is 
an electronic data entry system which will mimic the layout of the 
current Senate ledgers printed by the Government Printing Office; the 
other is a search function. Both of these programs will be housed on a 
separate server to maintain the integrity of the ledger data. The 
electronic ledger system is currently under development. To further 
advance the project, the ELS project team at Postal Square has spent 
much time updating and converting data.
                    2. office of captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices via the Senate Intranet.
    Accuracy remains the watchword of Captioning Services. Overall 
caption quality is monitored through translation data reports, 
monitoring the captions in realtime and reviewing the caption files on 
the Senate Intranet.
    A cooperative effort between the Senate Rules Committee, the 
Judiciary Committee, the Sergeant at Arms and the Secretary of the 
Senate in fiscal year 2002 to develop a Pilot Project to realtime 
caption Senate Committee Hearings resulted in a Judiciary Committee 
Captioning Committee Pilot Project.
    Voice recognition technology continues to improve and the Office of 
Captioning Services is on the cutting edge of testing and evaluating 
these products as they evolve. The Pilot Project to realtime caption 
Judiciary Committee hearings employed the newest hardware and software 
developed for voice recognition captioning.
    During fiscal year 2005, considerable energy was expended to update 
the hardware, software and documentation in our COOP flyway kit to 
enhance the ability to successfully caption from a remote location.
    The primary objective for fiscal year 2006 is to plan for the 
procurement and installation of equipment and relocation of the Office 
of Captioning Services to the Capitol Visitors Center.
                            3. daily digest
    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest.
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference.
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record.
  --To enter into the Senate's Legislative Information System all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties.
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law.
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes.
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.
Committee Activity
    Senate committees held a total of 787 meetings during the second 
session, as contrasted with 930 meetings during the second session, of 
the 107th Congress.
    As more specifically defined above, all hearings and business 
meetings (including joint meetings and conferences) are scheduled 
through the Office of the Senate Daily Digest and are published in the 
Congressional Record and entered in the web-based applications system 
(Legislative Information System). Meeting outcomes are also published 
by the Daily Digest in the Congressional Record each day.
Chamber Activity
    The Senate was in session a total of 133 days, for a total of 1,031 
hours and 31 minutes. There was one live quorum call and 216 recorded 
votes. (A 20-Year Comparison of Senate Legislative Activity follows).

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1985          1986          1987          1988          1989          1990          1991          1992          1993          1994
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3          1/21           1/6          1/25           1/3          1/23           1/3           1/3           1/5          1/25
Senate Adjourned....................................         12/20         10/18         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01
Days in Session.....................................           170           143           170           137           136           138           158           129           153           138
Hours in Session....................................      1,25231"      1,27815"      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"
Average Hours per Day...............................           7.4           8.9           7.1           8.2           7.4           9.1           7.6           8.5           8.3           9.0
Total Measures Passed...............................           583           747           616           814           605           716           626           651           473           465
Roll Call Votes.....................................           381           359           420           379           312           326           280           270           395           329
Quorum Calls........................................            20            16            36            26            11             3             3             5             2             6
Public Laws.........................................           240           424           240           473           240           244           243           347           210           255
Treaties Ratified...................................             6            12             3            15             9            15            15            32            20             8
Nominations Confirmed...............................        55,918        39,893        46,404        42,317        45,585        42,493        45,369        30,619        38,676        37,446
Average Voting Attendance...........................         94.64         95.72         94.03         91.58          98.0         97.47         97.16          95.4          97.6         97.02
Sessions Convened Before 12 Noon....................           119           117           131           120            95           116           126           112           128           120
Sessions Convened at 12 Noon........................            38            25            12            12            14             4             9  ............             6             9
Sessions Convened after 12 Noon.....................            13             1            25             5            27            17            23            10            15            17
Sessions Continued after 6 p.m......................           104            92            97            37            88           100           102            91           100           100
Sessions Continued after 12 Midnight................             7            15             6             7             9            13             6             4             9             7
Saturday Sessions...................................             3             2             3  ............             1             3             2             2             2             3
Sunday Sessions.....................................             1  ............             1  ............  ............             2  ............  ............  ............  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1995          1996          1997          1998          1999          2000          2001          2002          2003          2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/4           1/3           1/3          1/27           1/6          1/24           1/3          1/23           1/7          1/20
Senate Adjourned....................................        1/3/96          10/4         11/13         10/21         11/19         12/15         12/20         11/20          12/9          12/8
Days in Session.....................................           211           132           153           143           162           141           173           149           167           133
Hours in Session....................................      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"
Average Hours per Day...............................           8.7           7.8           7.1           7.7           7.3           7.2           7.1           7.0           8.7           7.7
Total Measures Passed...............................           346           476           386           506           549           696           425           523           590           663
Roll Call Votes.....................................           613           306           298           314           374           298           380           253           459           216
Quorum Calls........................................             3             2             6             4             7             6             3             2             3             1
Public Laws.........................................            88           245           153           241           170           410           136           241           198           300
Treaties Ratified...................................            10            28            15            53            13            39             3            17            11            15
Nominations Confirmed...............................        40,535        33,176        25,576        20,302        22,468        22,512        25,091        23,633        21,580        24,420
Average Voting Attendance...........................         98.07         98.22         98.68         97.47         98.02         96.99         98.29         96.36         96.07         95.54
Sessions Convened Before 12 Noon....................           184           113           115           109           118           107           140           119           133           104
Sessions Convened at 12 Noon........................             2            15            12            31            17            25            10            12             4             9
Sessions Convened after 12 Noon.....................            12             7             7             2            19            24            21            23            23            21
Sessions Continued after 6 p.m......................           158            88            96            93           113            94           108           103           134           129
Sessions Continued after 12 Midnight................             3             1  ............  ............  ............  ............             2             3             8             2
Saturday Sessions...................................             5             1             1             1             3             1             3  ............             1             2
Sunday Sessions.....................................             3  ............             1  ............  ............             1  ............  ............             1             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Technology Updates and Government Printing Office
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office electronically. The 
Editor, Assistant Editor, and Committee Scheduling Coordinator function 
solely within the framework of adaptability to preparing Digest copy on 
computers, storing and sharing information, permitting prompt editing, 
and the final transfer to floppy disc. The Digest continues the 
practice of sending a disc along with a duplicate hard copy to GPO, 
even though GPO receives the Digest copy by electronic transfer long 
before hand delivery is completed adding to the timeliness of 
publishing the Congressional Record. The Digest office continues to 
feel comfortable with this procedure, both to allow the Digest Editor 
to physically view what is being transmitted to GPO, and to allow GPO 
staff to have a comparable final product to cross reference.
    The Daily Digest continues the practice of discussing with the 
Government Printing Office problems encountered with the printing of 
the Digest, and are pleased to report that with the onset of electronic 
transfer of the Digest copy, occurrences of editing corrections or 
transcript errors are infrequent.
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS/DMS system, including further refinements to 
the Senate Committee Scheduling application which will improve the data 
entry process. The committee scheduling application was developed back 
in 1999 as a server-based web-enabled application that is browser 
accessible to all Senate offices on Capitol Hill. It was designed to 
replace the committee scheduling functions and reports that were 
supported by the mainframe-based Senate Legis System.
Office Summary
    The Daily Digest consults on a daily basis with the Senate 
Parliamentarians, Legislative, Executive, Journal, and Bill Clerks, the 
Official Reporters of Debates, as well as the staffs of the Policy 
Committees and other committee staffs, and is grateful for the 
continued support from these offices.
                           4. enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects and prints all 
legislation passed by the Senate prior to its transmittal to the House 
of Representatives, the White House, the National Archives, the 
Secretary or State and/or the United States Claims Court.
    In 2004, 86 enrolled bills (transmitted to the President) and 14 
concurrent resolutions (transmitted to Archives) were prepared, 
proofread, corrected and printed on parchment.
    A total of 673 additional pieces of legislation in one form or 
another were passed or agreed to by the Senate, requiring processing by 
the Enrolling Clerk.
                           5. executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President. Additionally, the Executive Clerk's 
office processes all executive communications, presidential messages 
and petitions and memorials.
Nominations
    During the second session of the 108th Congress, there were 340 
nomination messages sent to the Senate by the President, transmitting 
24,420 nominations to positions requiring Senate confirmation and 26 
messages withdrawing nominations previously sent to the Senate. Of the 
total nominations transmitted, 336 were for civilian positions other 
than lists in the Foreign Service, Coast Guard, NOAA, and Public Health 
Service. In addition, there were 4,077 nominees in the ``civilian 
list'' categories named above. Military nominations received this 
session totaled 20,003 (6,077--Air Force, 5,324--Army, 7,375--Navy and 
1,227--Marine Corps). The Senate confirmed 27,047 nominations this 
session. Pursuant to the provisions of paragraph six of Senate Rule 
XXXI, 4,129 nominations were returned to the President during the 
second session of the 108th Congress.
Treaties
    There were 14 treaties transmitted to the Senate by the President 
during the second session of the 108th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 108-15 through 108-28). The 
Senate gave its advice and consent to 18 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were 14 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
108th Congress (Executive Report 108-9 through 108-14). The Senate 
conducted 32 roll call votes in executive session, all on or in 
relation to nominations.
Executive Communications
    For the second session of the 108th Congress, 4,932 executive 
communications, 212 petitions and memorials and 39 Presidential 
messages were received and processed.
Legislative Information System (LIS) Update
    The staff consulted with the Senate Computer Center during the year 
concerning the ongoing improvements to the LIS concerning the 
processing of nominations, treaties, executive communications, 
presidential messages and petitions and memorials.
    The Senate Computer Center developed a new program for the 
Executive Calendar that has proved more efficient and error free. The 
SAA computer programming and systems design staff have were very 
helpful in consulting with our office concerning our requirements. The 
SAA also has underway a much needed redesign of a program for creating 
and publishing the Executive Journal.
                            6. journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year. In 
2004, the Journal Clerk completed the production of the 1,146 page 
Senate Journal for 2003.
    The Journal staff each take 90 minute turns at the rostrum in the 
Senate Chamber, noting by hand for inclusion in the Minute Book (i) all 
orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and roll call votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for publication.
    After extensive testing, the LIS Senate Journal Authoring System 
was completed in early 2004. The Journal staff utilized this system 
through all phases of production for the first time to successfully 
compile the 2004 Journal which was sent to the Government Printing 
Office for printing in mid-March.
                          7. legislative clerk
    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. 
This office prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. This office is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department providing a single line of communication to the 
Assistant Secretary and Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross training.
Summary of Activity
    The second session of the 108th Congress completed its legislative 
business and adjourned sine die on December 8, 2004. During 2004, the 
Senate was in session 133 days and conducted 216 roll call votes. There 
were 317 measures reported from committees, 663 total measures passed, 
and there were 296 items remaining on the Calendar at the time of 
adjournment. In addition, there were 1,857 amendments processed.
Cross-Training
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training is strongly emphasized among the Secretary's legislative 
staff. To ensure additional staff are trained to perform the basic 
floor responsibilities of the Legislative Clerk, as well as the various 
other floor-related responsibilities of the Secretary, approximately 
half of the legislative staff are currently involved or have recently 
been involved in cross-training.
Legislative Information System (LIS) Enhancement
    In an effort to monitor and improve the Legislative Information 
System (LIS), the Legislative Clerk acts as the liaison between 
legislative clerks and technical operations staff of the Sergeant at 
Arms by scheduling and conducting meetings when necessary. Also, the 
Legislative Clerk reviews, prioritizes, and forwards change requests 
from the clerks to the technical operations staff. Over the past year, 
45 change requests submitted by the clerks to improve the system have 
been implemented.
                    8. official reporters of debates
    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office (GPO).
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors.
    To further efficiency, the office provides guidelines on format for 
the Congressional Record. These provide a helpful tool to assure an 
accurate and timely printing of each day's Record.
    The office updated its ProCat transcription software at the 
beginning of last year. With the help of the Information Systems 
department, the office was able to make the necessary adjustments to 
accomplish the latest software update.
                           9. parliamentarian
    The Parliamentarian's Office continues its performance of normal 
legislative duties. These include advising the Chair, Senators and 
their staff, as well as committee staff, House members and their 
staffs, administration officials, the media and members of the general 
public, on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, unanimous consent 
agreements, as well as provisions of public law affecting the 
proceedings of the Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs to coordinate all of the business on 
the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. In this respect, the Parliamentarians 
reviewed more than 1,000 amendments during 2004 to determine if they 
met various procedural requirements, such as germaneness. The 
Parliamentarians also reviewed thousands of pages of conference reports 
to determine what provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2004, the Parliamentarian and his assistants referred 
1,271 measures and 5,183 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. The office continues to address the 
jurisdictional questions posed by the creation of the Department of 
Homeland Security, which now has responsibility for hundreds of issues 
previously in the jurisdiction of other Senate committees, by the 
adoption of S. Res. 445 reorganizing intelligence and homeland security 
jurisdiction in the Senate, and by the enactment of the Intelligence 
Reform and Terrorism Prevention Act of 2004. The Parliamentarians have 
made dozens of decisions about the committee referrals of nominations 
for new positions created in Homeland Security, nominations for 
positions which existed before the department was created but whose 
responsibilities have changed, and hundreds of legislative proposals 
concerning the department's responsibilities.
    The staff of the Parliamentarian's Office is also frequently called 
on to analyze and advise Senators on a great number of issues arising 
under the Congressional Budget Act of 1974. The decisions made by the 
Parliamentarians on these matters were a significant factor in the 
consideration of the President's budgetary proposals, and the overall 
Congressional approach to its budget.
    Additionally, in the last four years, rules relating to legislation 
on appropriations bills, and the scope of conference reports on all 
bills were reinstated. This has opened up hundreds of Senate amendments 
to renewed scrutiny by the Parliamentarians, and has meant that the 
Parliamentarians now have the responsibility of potentially reviewing 
every provision of every conference report considered by both houses of 
Congress.
    The Parliamentarians have taken the lead in the Senate in analyzing 
the need for emergency procedural authorities of Congress generally, 
and the Senate in particular. The Parliamentarians took the initiative 
that led to the adoption of S. Res. 296 on February 3, 2004, which 
granted certain emergency authorities to enable the Senate leadership 
to alter the Senate's schedule in certain emergency situations.
    In 2004, as in all election years, the Parliamentarians received 
all of the certificates of election of Senators elected or reelected to 
the Senate, and reviewed them for sufficiency and accuracy, returning 
those that were defective and reviewing their replacements. Also in 
2004, as in all Presidential election years, the Parliamentarians 
worked with other professional staff of the Secretary of the Senate and 
our House counterparts to prepare for the orderly conduct of the joint 
session of Congress to count the electoral ballots for President and 
Vice President. The Parliamentarians reviewed the electoral ballots for 
President and Vice President sent by all the states and the District of 
Columbia to the Vice President, and held several briefings with the 
Vice President and his staff and the House Parliamentarians regarding 
the Vice President's routine duties while presiding over the joint 
session of Congress to count the electoral ballots.
                financial operations: disbursing office
Disbursing Office Organization
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs. The DO provides responsive, personal attention to Members and 
employees on a non-biased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgement, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.
Deputy for Benefits and Financial Services
    The primary responsibility of this position is to provide expertise 
on Federal retirement and benefits, payroll, and front office 
processes. Coordination of the interaction between the Financial 
Services, Employee Benefits, and Payroll sections is also a major 
responsibility of the position. Planning and project management of new 
computer systems and programs is also a key function. Ensuring that job 
processes are efficient and up to date, modifying computer support 
systems, implementing regulatory and legislated changes, and designing 
and producing up to date forms for use in all three sections are 
additional areas of responsibility.
    In November 2003, it was determined that the new IBM Mainframe 
operating system being released would not support our payroll system. 
An accelerated system implementation was required, so instead of the 
normal eighteen-month window, this implementation had to be completed 
in only eight months. A team to address the situation was composed of 
Disbursing Office staff with the Deputy as the project lead, key 
Sergeant at Arms personnel and outside contractors. The system was 
successfully tested and implemented as planned on August 1, 2004. The 
payroll system was brought up to web accessible status, a myriad of 
small problems was corrected, and a number of new functions were added 
to enable payroll to more efficiently handle the Senate's needs.
    In January, final touches on the Document Imaging System were 
completed and the first documents, the 2003 W-2s, were loaded into it. 
The Front Office, Employee Benefits, Payroll and Administrative 
sections' personnel were trained in the use of the system and the old 
procedure for the reissue of W-2 copies was discontinued. During the 
next few months, copies of the W-2s going as far back as 1998 were 
added to the files.
    In March, many of the forms and procedures for the Student Loan 
Repayment Program were examined and revised to increase accuracy and 
efficiency of processing.
    In September, the monthly payroll data provided to the Accounting 
Section was converted to e-format for transmittal to the Office of 
Personnel Management.
    In November, reports and projections for Agency contributions to be 
uploaded into the Accounting system were addressed. Requirements were 
detailed, and during the month the payroll upload portion was completed 
and the Accounting group is now working on their portion of the 
project.
Front Counter--Administrative and Financial Services
    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate identification card. 
Advances are issued to Senate staff authorized for an advance for 
official Senate travel. Cash and check advances are entered and 
reconciled in the Funds Advance Tracking System (FATS). Repayment of 
travel advances is executed after processing of certified expenses is 
complete. Travelers' checks are available on a non-profit basis to 
assist the traveler. Numerous inquiries are handled daily, ranging from 
pay, benefits, taxes, voucher processing, reporting, laws, and Senate 
regulations, and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the Front Counter and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system.
            General Activities
    The Front Counter processed approximately 2,100 cash advances, 
totaling approximately $1.2 million and initialized 700 check/direct 
deposit advances, totaling approximately $780,000.
    Received and processed more than 27,000 checks, totaling over 
$3,450,000. Administered Oath and Personnel Affidavits to more than 
3,200 new Senate staff and advised them of their benefits.
    Maintained brochures for 10 Federal health carriers and distributed 
approximately 4,000 brochures to new and existing staff during the 
annual FEHB Open Season.
    Provided 36 training sessions to new Office Managers.
    The Front Office operations continued its daily reconciliation of 
operations without any auditable variation; continued to provide 
training and guidance to new Office Managers and business contacts; and 
spearheaded the advance processing of paperwork of the nine incoming 
offices resulting from the November elections. A major emphasis was 
placed on assisting employees in maximizing their Thrift Savings Plan 
contributions and making them aware of the Thrift Savings Plan catch up 
program when applicable. Front Office operations continued to provide 
the Senate community with prompt, courteous, and informative advice 
regarding Disbursing operations.
Payroll Section
    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; rectifying returns of student loan 
allowance payments, jointly maintaining the Automated Clearing House 
(ACH) FEDLINE facilities with the Accounts Payable Section for the 
normal transmittal of payroll deposits to the Federal Reserve; 
distributing the appropriate payroll expenditure and allowance reports 
to the individual offices; issuing the proper withholding and agency 
contributions reports to the Accounting Department; and transmitting 
the proper Thrift Savings Plan (TSP) information to the National 
Finance Center (NFC), while maintaining earnings records for 
distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W-2 statements, prepared by 
this section. The Payroll Section is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate.
            General Activities
    The Payroll Section processed a January 1, 2004 cost of living 
increase of 2.12 percent. This was a preliminary cost of living 
increase based on the President's recommended plan at the time. The 
payroll section later processed a second cost of living increase on 
March 1, 2004 when Congress set the final cost of living rate of 4.42 
percent. Payroll was able to offer the offices several scenarios to 
retroactively implement the COLA.
    The Payroll Section maintained the normal schedule of processing 
TSP open season forms.
    Employees took full advantage of the increase of TSP deductions 
making the most of the new 14 percent/$13,000.00 maximum. For those 
employees over 50 years of age the TSP catch-up programs provided them 
an opportunity to make additional contributions in excess of the 
standard program.
    January 2004 represented the first full year for the processing of 
Flexible Spending Accounts and Long Term Care Accounts. The section has 
found that the files received for each of the above items were 
challenging as the third party vendors had not done business with the 
Federal Government in the past and were unfamiliar with standard 
processing procedures.
    The section helped the SAA's Information Technology staff upgrade 
the Payroll/Personal System from 31 bit technology to 64 bit 
technology. This upgrade enabled better security and additional Web 
based access to Disbursing Office Data. Each member of the section 
assisted in the testing and evaluation of the new product. The upgraded 
system was successfully put into production August 1, 2004.
    The elections of 2004 focused the efforts of the Payroll Section on 
preparing the system for the opening of incoming members' offices and 
the closing of departing members' offices.
    The Payroll Section participated in the December disaster recovery 
testing at the Alternate Computer Facility (ACF). Members of the 
section were able to access and process data to the computer at ACF 
from several locations and various computer connections. Finally, set-
up of the ACH Fedline II system was completed. It established proper 
connections with the Federal Reserve to ensure that processed payrolls 
and vouchers could be transmitted from the ACF.
Employee Benefits Section
    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. In addition, the sectional work includes research and 
verification of all prior federal service and prior Senate service for 
new and returning appointees. EBS provides this information for payroll 
input and once Official Personnel Folders and Transcripts of Service 
are received, verifies the accuracy of the information provided and 
reconciles as necessary. Transcripts of Service including all official 
retirement and benefits documentation are provided to other federal 
agencies when Senate Members and staffers are hired elsewhere in the 
government. EBS processes employment verifications for loans, the Bar 
Exam, the FBI, OPM, and DOD, among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment. Designations of Beneficiary for FEGLI, 
CSRS, FERS, and unpaid compensation are filed and checked by EBS.
    In 2004 OPM announced that there would be a FEGLI Open Season for 
employees to elect new or additional life insurance coverage. EBS 
drafted Open Season informational flyers and notified employees 
electronically and via mail outs. An innovative step taken with this 
mail out was to have FEGLI send direct notification to Senate 
employees, which provided more timely notice and saved mailing expenses 
to the Senate. Numerous employees were counseled and approximately 350 
Senate employees made FEGLI changes during the Open Season.
    In 2003 as part of our COOP goals, EBS worked with the Deputy for 
Benefits and Financial Services, the Senate Computer Center and other 
DO staff to outline the needs and parameters required for development 
and implementation of a document imaging system for use in 
electronically reproducing employee personnel folders. During 2004 EBS 
redesigned the file room to accommodate a new employee hired to assist 
with the document scanning as well as the document imaging hardware. In 
mid-2004 implementation of the document imaging system was achieved. 
This required extensive training and modification of many procedures 
and the forms-flow from EBS and Payroll to the file room as well as the 
flow of forms within the file room. Modification of procedures will 
continue as warranted. This system will allow computer-based access to 
new employee personnel folders and documents as well as the ability to 
access them from an off-site facility. To complete our COOP readiness 
with respect to employee personnel folder access, one future goal is to 
contract out the scanning of all ``prior'' employee personnel folder 
documents that are housed in the DO file room.
    Shortly before the onset of the FEHB Open Season, OPM announced 
that it would offer a new type of health plan to employees: High 
Deductible Health Plans, which incorporate a Health Savings Account 
(HSA) and a Health Reimbursement Arrangement (HRA). As these plans are 
vastly different than those previously offered in the FEHB program, EBS 
worked diligently to become educated in all aspects of these plans and 
to understand the similarities and differences between HSAs, FSAs and 
HRAs. Many employees were counseled on the aspects of these new plans.
    The annual FEHB Open Season was held and approximately 500 
employees changed plans. These changes were processed and reported to 
carriers in record time. This year we were again able to offer an 
exciting tool for Senate employees. The Checkbook on-line Guide to 
Health Plans was made available to research and compare FEHB plans. 
This tool will remain available to staff throughout the year. As 
awareness and understanding of this valuable tool has increased, 
feedback is positive. Once again, the Disbursing Office hosted an FEHB 
Open Season Health Fair, which was attended by about 700 employees and 
as an additional service, it was open to all other federal employees on 
the Hill, including House, Capitol Police, Architect of the Capitol and 
Senate Restaurant employees. In addition to having health plan 
representatives available to provide information and answer questions, 
representatives from FSA Feds and Long Term Care Insurance were in 
attendance as well.
    While retirement case processing was about average for the year, 
retirement planning and counseling was brisk in the second half of 2004 
due to the impending retirement of 8 Senators, and the dissolution of 
their staffs and the potential changes to committee staffs. This 
resulted in the counseling of hundreds of employees including extensive 
research and calculation of Statements of Tentative Retirement 
Computations. Approximately 95 retirement cases were processed 
(including 8 death cases).
    Seminars were held for outgoing Members' staffs, as well as 
committees facing potential reorganization. Information disseminated 
spanned retirement, Thrift Savings Plan, health and life insurance, and 
unemployment compensation. Due to the large post-election turnover, EBS 
also hosted a seminar with the D.C. Office of Employment Services for 
outgoing staff who wished to apply for unemployment compensation. This 
opportunity for staff was well received.
    There was a great deal of turnover and rehire in 2004, as employees 
left staff to work on campaigns and then returned to the Senate after 
the elections. This caused an increase in appointments to be researched 
and processed, retirement records to be closed out, termination 
packages of benefits information to be compiled and mailed out, and 
health insurance registrations to be processed. Transcripts of service 
for employees going to other federal agencies, and other tasks 
associated with employees changing jobs remained constant this year. 
These required prior employment research and verification, new FEHB, 
FEGLI, CSRS, FERS and TSP enrollments, and the associated requests for 
backup verification.
    The government-wide CLER program for health insurance enrollment 
reconciliation, now in its third year, has finally become a usable and 
effective tool. Through much diligence and effective problem solving, 
EBS was able to assist with the improvements to this program.
    EBS continues to upgrade the information available on the DO 
Webster site and has added more downloadable forms. Newer video 
technologies and links are routinely used. In addition, EBS has been 
developing many computer-based forms and calculators for use in 
providing benefits information and estimates.
    Two detailed Power Point retirement seminars on CSRS and FERS were 
updated and conducted for interested Senate staff. The seminars were 
well attended and well received.
    Additionally EBS staff regularly provided a panel participant for 
the monthly New Staff Orientation seminars and quarterly Senate 
Services Fairs held by the Office of Education and Training.
    Interagency meetings were attended with time being spent on the 
FEGLI Open Season, guidance on the new FEHB plans, as well as 
continuing education and guidance on the FSA
    Program, LTCI, and the continuing TSP program changes and 
enhancements.
    Based on the continued operations in Iraq and the call to active 
duty of military reservists, the volume of Senate employees being 
placed in a Military Leave Without Pay (LWOP) status and subsequently 
returned to pay status continued to be elevated throughout 2004. 
Counseling and administration of their retirement and benefits was 
handled by EBS.
    Telephone inquiries, though not specifically tracked, continued at 
high levels, with the EBS staff of 7 pressed to answer calls 
thoroughly, yet quickly enough to keep lines open.
Disbursing Office Financial Management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities to process and 
pay expense vouchers within reasonable time frames, to work toward 
producing an auditable consolidated financial statement for the Senate 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
DOFM is segmented into three functional departments: Accounting, 
Accounts Payable, and Budget. The Accounts Payable Department is 
subdivided into three sections: The Audit group, the Disbursement group 
and the Vendor/SAVI group. The Deputy coordinates the activities of all 
three departments, establishes central financial policies and 
procedures, acts as the primary liaison to the Human Resources 
Administrator, and carries out the directives of the Financial Clerk 
and the Secretary of the Senate.
            Accounting Department
    During fiscal year 2004, the Accounting Department approved nearly 
48,000 expense reimbursement vouchers, processed 1,300 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's Revolving Funds, to canceled subscription refunds from 
Member Offices. The number of vouchers that the Accounting Department 
approved decreased compared to fiscal year 2003, due to the Senate 
Committee on Rules and Administration increasing the sanctioning 
authority delegated to the Financial Clerk of the Senate from $35.00 or 
less to $100.00 or less. General ledger maintenance also prompted the 
entry of thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, COLA (cost of living) budget 
uploads, stop payment requests, travel advances and repayments, and 
limited payability reimbursements.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement Web Release 9.0 and the upgrade to a 64 bit 
mainframe operating system. During January 2004, the Accounting 
Department, with assistance from a contractor, Bearing Point, completed 
the 2003 year-end process to close and reset revenue, expense and 
budgetary general ledger accounts to zero. During June 2004, we 
successfully tested and implemented in Federal FAMIS another document 
purge including the archiving of Web report data for lapsed years. 
Further, toward the end of the fiscal year, the financial file rollover 
was performed to update FAMIS' tables and create the new index codes 
needed to accommodate data for fiscal year 2005. With the September 
2004 closing and as a result of looking into ways to modernize the 
monthly reporting of checks written by reel tape, the Accounting 
Department tested and implemented (with assistance from the SAA and 
Bearing Point) the electronic transmission of check data to Treasury 
via a secure dial-up.
    The Department of the Treasury's monthly financial reporting 
requirements includes a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, on a monthly 
basis, reported to the Department of the Treasury is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of all monies 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of the Treasury on a monthly and annual basis. The 
annual reconciliation of the Treasury Combined Statement is also used 
in the reporting to the Office of Management and Budget (OMB) as part 
of the submission of the annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan. Starting in August, the Accounting Group 
began transmitting electronically all employee withholdings and agency 
contributions for life and health insurance, and federal retirement 
programs to the Office of Personnel Management (OPM).
    In addition to Treasury's external reporting deadlines there are 
some internal reporting requirements such as the monthly ledger 
statements for all Member offices and all other offices with payroll 
and non-payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. Monthly, it is the 
responsibility of the Accounting Department to review and verify the 
accuracy of the statements before Senate-wide distribution. During the 
course of this year, various table changes were made to the ledger 
extract to suppress lapsed fiscal years and appropriations that do not 
require the monthly reports.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, continues to work closely with the Sergeant at 
Arms Finance Department in completing the corrective actions that were 
identified during the pro-forma financial statements auditability 
assessment. Based on the results of this exercise, 23 corrective 
actions were suggested including an action plan and proposed schedule 
to have them corrected. Some of the actions were rather simple to 
implement while others will take significantly longer. Of the 23 
corrective actions noted, 14 have been completed and 9 are still in 
process. As part of this project, the Accounting Group continues to 
work with the SAA to complete the draft of the Senate-wide 
capitalization policy and is assisting with the reconciliation between 
FAMIS and the newly implemented asset management system, Asset Center. 
The Accounting Group also drafted and finalized state taxes, stop pays, 
EFT payments, vendor file and travel advance procedures and is in the 
process of updating various additional sections of the financial 
policies and procedures book.
    As part of the financial statement initiative, steps were taken 
this year to procure a software package to assist with the compilation 
of data and automate the process of preparing the Senate-wide financial 
statements. The financial statement software will facilitate the 
preparation of closing, elimination and reclassification entries as 
well as provide the appropriate audit trails. The software was up and 
running in March 2005. As part of this initiative, the Accounting Group 
drafted the first internally developed set of unaudited financial 
statements to be used as our baseline on the testing of the newly 
acquired software following the guidance provided by OMB Bulletin 01-
09, ``Form and Content of Agency Financial Statements.''
    On a consulting basis, the Deputy for Financial Management assisted 
the Senate Gift Shop on the implementation of their new accounting 
system and in the completion of their reconciliations for fiscal year 
2004. In addition, the Deputy was part of the task force to procure and 
acquire a new point-of-sale and accounting systems for the Senate 
Stationery Room.
    Toward the end of the calendar year, the Deputy for Financial 
Management also participated in successful disaster recovery testing at 
the ACF.
            Accounts Payable--Vendor/SAVI Section
    Created in the fall of 2003, the Vendor/SAVI section is responsible 
for maintaining the accuracy and integrity of the Senate's central 
vendor (payee) file, for the prompt completion of new vendor file 
requests, and service requests related to the DO's web-based payment 
tracking system known as SAVI. This section also assists the IT 
Department with periodic testing and monitoring of the performance of 
the SAVI system.
    Currently, there are more than 12,300 vendor records stored in the 
vendor file. Daily requests for new vendor addresses or updates to 
existing vendor information are processed within 24 hours of being 
received. In 2004, the A/P Department began paying vendors by 
electronic funds transfer (EFT). Besides updating mailing addresses, 
the Vendor/SAVI section facilitates the use of EFT by switching the 
method of payment requested by the vendor from check to EFT. Whenever a 
new remittance address is added to the vendor file, a standard letter 
is mailed to our vendors requesting tax and banking information. If a 
vendor responds to our letter and indicates they would like to receive 
EFT payments in the future, the method of payment will be changed. In 
August, this section coordinated a large mailing requesting EFT 
information from our home state office landlords and our largest 
commercial vendors. The mailing was a success. More than 40 percent of 
the targeted vendors responded to this mailing. Currently, more than 
650 vendors and over half of the home state office landlords are being 
paid by EFT.
    Service to Senate staff was significantly improved with the release 
of SAVI version 3.1 in late October. This version allows Senate staff 
to electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments made by 
DO. The most common service requests are requests for system user ids, 
system passwords and to reactivate accounts. Less common but more 
complicated are employee requests for an alternative expense payment 
method. An employee can choose to have their payroll set up for direct 
deposit but can have their vouchered expenses be reimbursed by paper 
check.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group resolving returned EFT issues. EFT payments are returned 
periodically for a variety of reasons. The reasons given have included 
incorrect account numbers, incorrect ABA routing numbers, and, in rare 
instances, a nonparticipating financial institution. Most EFT return 
issues are easy to resolve; however, there are some instances that 
result with a vendor being converted back to paper check payments. 
Currently, there are no unresolved return EFT issues.
    The Vendor/SAVI section continues to electronically scan and store 
supporting documentation of vendor file requests. In the near future, 
this section will assist the IT Department test an automatic email 
notification system which will alert vendors when an EFT payment has 
been made and will give them information on the payment made.
    This year, the Vendor/SAVI section processed over 2,800 vendor file 
requests, completed nearly 1,300 SAVI service requests and mailed 
nearly 2,000 vendor information letters.
            Accounts Payable--Disbursements Department
    In 2004, well over 100,000 expense claims were received and 
processed by the department. More than 35,000 expense checks were 
written and approximately 50,000 direct deposit reimbursements were 
transmitted. The department performed at a high level to ensure that 
all vendors and employees continued to receive timely and accurate 
payments.
    After vouchers are paid, they are sorted and filed by document 
number. The number is an alpha-numeric code beginning with the letters 
D, PADV, V, IV, or CV and followed by numbers representing the fiscal 
year in which they were created, and another series of numbers 
representing, in ordinal sequence, the actual document number. Vouchers 
are grouped in 6-month ``clusters'' to accommodate their retrieval for 
the semi-annual Report of the Secretary of the Senate. Currently, files 
are maintained for the current period and three prior periods. Filing 
is current and accurate as few problems are encountered retrieving 
documents.
    A major function of the Department is to prepare documents, 
internally classified as ``adjustments.'' Such adjustments are varied 
and include the following: preparation of Foreign Travel advances and 
vouchers, reimbursements for expenses incurred by Senate Leadership, 
reissuance of items held as accounts receivable collections, reissuance 
of payments for which non-receipt is claimed, and various supplemental 
adjustments received from the Payroll Department. Such adjustments are 
usually disbursed by check, but an increasing number are now handled 
electronically via the Automated Clearing House (ACH).
    The Disbursements Department is also responsible for researching 
returned checks as vendors request additional information relating to 
payment allocation. Fortunately, few checks are returned. This is a 
result of the use of a centralized vendor file and accurate 
certification of payments. There are currently no unresolved returned 
check issues.
    The Accounts Payable Disbursements Department prepares for the 
distribution of the monthly ledgers to the 140 accounting locations 
throughout the Senate. At month's end, they are printed and delivered 
to Disbursing, usually to the attention of the Accounting Department, 
and received in Disbursements. The statements are sorted and 
disseminated according to special handling instructions from the 
office. Offices expressing no preference have their statements sent to 
their respective offices marked ``Personal and Confidential.'' The main 
objective of this process is to have each office receive their ledger 
statements for the month just ended by the 10th of the following month.
    A/P Disbursements also prepares the quarterly state tax returns. 
The dollar amounts are provided by the Accounting Department, and 
payment coupons are prepared for the 43 state jurisdictions. The 
coupons are obtained from each jurisdiction either in hard copy or on-
line via the Internet. Vouchers are prepared electronically via an 
uploaded spreadsheet, which is used to generate check payments to the 
taxing authorities. Once the checks are written, letters of transmittal 
are prepared and mailed to the appropriate state jurisdictions and the 
District of Columbia.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement Supervisor and the Accounts Payable Manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
on-line stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides on-line access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via email. This process has been well received by 
Senate offices as well as vendors. This saves time and significantly 
reduces reliance on the Postal System. All Accounts Payable 
Disbursements staff have Treasury secure ID cards and are trained in 
the use of PACER. Given the time and money savings, as well as the 
overwhelmingly positive reception, large growth in the use of PACER for 
check retrieval purposes is anticipated.
    In October of 2004, the Accounts Payable Disbursements department 
began using laser checks. The tractor fed check writer system has been 
dismantled and a new, improved system was developed and implemented. 
The replacement was comprehensive in scope as new software, hardware, 
and new Treasury designed laser checks were introduced. The result is a 
user friendly, and more secure system. Accuracy has also improved as 
the new laser check printer font is much clearer than one from the old 
printer. This resulted in an immediate reduction in returned checks 
from the United States Postal System. It is anticipated that a new 
folder/inserter designed for our use will be purchased to eliminate 
manual hours spent on folding and hand stuffing checks into envelopes. 
Testing and demonstrations continue in efforts to find a machine which 
is both economical and efficient.
    A major project which has seen tremendous progress this year is the 
reconciliation of the replacement check account. A team was formed 
consisting of the Deputy for Financial Management, Accounts Payable 
Manager, Chief Accountant, Accounts Payable Disbursements Supervisor 
and Staff Accountants. There were over 250 unresolved items covering a 
variety of issues. Persistent and determined revenue collection 
procedures have resulted in the reduction of the unresolved items and 
fewer than 20 remain outstanding.
    The warehousing of documents has improved, and continues to evolve. 
Vouchers were housed at two facilities, but now all have been 
transferred to a single location. This location is larger, but there is 
need for expansion. Meetings with the Sergeant at Arms and consultants 
continue in an effort to provide state-of the-art warehousing. Plans 
call for current space requirements, anticipated space requirements, 
and the need for ``staging'' areas, telephone, copier, and fax access, 
climate control, and security.
            Accounts Payable--Audit Department
    The final section under the Accounts Payable Department is the 
Audit Section. The Accounts Payable Audit Section is responsible for 
auditing vouchers and answering questions regarding voucher preparation 
and the permissibility of expenses. This section provides advice and 
recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains new Office 
Managers and Chief Clerks about Senate financial practices, trains 
Office Managers in the use of the Senate's Financial Management 
Information System, and assists in the production of the Report of the 
Secretary of the Senate. The Section also monitors the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances are adjusted 
for reuse of the advance funds. An ``aging'' process is also performed 
to ensure that advances are repaid in the time specified by the advance 
travel regulations.
    The Accounts Payable Audit Section, currently a group of 12, has 
the responsibility for the daily processing of expense claims submitted 
by the 140 accounting locations of the Senate. The section processed 
approximately 133,000 expense vouchers in fiscal year 2004. The voucher 
processing ranged in scope from providing interpretation of Senate 
rules, regulations and statute, applying the same to expense claims, 
monitoring of contracts and direct involvement with the Senate's 
central vendor file. On average, vouchers greater than $100.00 that do 
not have any issues or questions are received, audited, sanctioned by 
Rules and paid by DO within 10 business days of receipt.
    During fiscal year 2004, the Chairman of the Committee on Rules and 
Administration increased the delegated sanctioning authority for 
vouchers from $35.00 or less to $100.00 or less. The workload within 
this group increased by almost 50 percent with the responsibility to 
sanction vouchers whose totals are less than or equal to $100.00. These 
vouchers comprise approximately 60 percent of all vouchers processed. 
The responsibility for sanctioning rests with the Certifying Accounts 
Payable Specialists and are being received, audited, and paid within 5 
business days of receipt. The increase in sanctioning authority came as 
a direct result of passing two post-payment audits performed by the 
Rules Committee.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. The increase in sanctioning responsibilities 
allowed for two staff promotions to Certifying Accounts Payable 
Specialist and for the creation of one additional A/P Specialist 
position. One staff member was promoted from the Disbursements section 
to the Audit section to fill this newly created position.
    The reduced flow of vouchers to the Rules Committee also brought 
that committee into the on-line sanctioning process. Initially, four 
Senators' offices and the Committees comprised the pilot group. 
Currently, all vouchers over $100.00 are sanctioned electronically by 
the Rules Committee using Web FAMIS.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section trained 15 new Administrative Managers and 
Chief Clerks and conducted 4 informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS).
    The Accounts Payable group also assisted the IT department and 
Vendor/SAVI group in the testing and implementation of the new on-line 
travel and non-travel expense summary reports (ESR). The new reports 
are not only available on-line, but they can be imported into a 
corresponding Web FMIS voucher, thus facilitating the preparation and 
accuracy of the voucher document. Routinely, during voucher processing, 
vendor information is verified against invoices, and corrections made 
as needed. The Audit Group has been fully trained in the new travel 
advance system and in the use of the four new WEB inquiries to assist 
offices with questions. Additionally the section provided testing 
support for the release of Web FMIS version 9 and is scheduled to 
assist in the testing of Version 10 this year.
    A cancellation process was established for advances in 2004. This 
was necessary to ensure repayment of advances systematically for 
canceled or postponed travel in accordance with Senate Travel 
Regulations. Advance procedures including cancellation were formally 
incorporated into the Policies and Procedures Manual. Cancellation 
procedures for other Web vouchers is scheduled for testing during a 
later system release. The A/P sections within the Policies and 
Procedures Manual are in the process of being updated and revised.
            Budget Department
    The third component of the Disbursing Office Financial Management 
Group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). In fiscal year 2004, the budget justification 
worksheets were mailed to the Senate accounting locations at the end of 
November, processed in December and reported the budget baseline 
estimates for fiscal year 2006 to OMB by mid-January, via the MAX 
database.
    This department is also responsible for the formulation, 
presentation and execution of the budget for the Senate and provides a 
wide range of analytical, technical and advisory functions related to 
the budget process. The Budget Department acts as the Budget Officer 
for the Office of the Secretary, assisting in the preparation of 
testimony for the hearings before the Committee on Appropriations and 
the Committee on Rules and Administration.
    During January, the Senate Budget Analyst is responsible for the 
preparation of 1099's and the prompt submission of forms to the IRS 
before the end of the month.
                disbursing office information technology
Financial Management Information System
    The Disbursing Office Information Technology (IT) Department, 
provides both functional and technical assistance for all Senate 
Financial Management activities. Activities revolve around support of 
the Senate's Financial Information System (FMIS) which is used by 
approximately 140 Senate accounting locations (i.e., 100 Senator's 
offices, 20 Committees, 20 Leadership & Support offices, the Rules 
Committee Audit section, and the Disbursing Office). Responsibilities 
include: Supporting current systems; testing infrastructure changes; 
managing and testing new system development; planning; managing the 
FMIS project, including contract management; administering the 
Disbursing Office's Local Area Network (LAN); and coordinating the 
Disbursing Office's Disaster Recovery activities.
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2004 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Technology staff, and contracts with 
Bearing Point.
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software (mainframe and servers), database software, 
and telecommunications; technical assistance for these components, 
including migration management, database administration and regular 
batch processing. Bearing Point is responsible, under the contract with 
the SAA, for operational support, and under contract with the 
Secretary, for application development. The DO is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work cooperatively.
    Highlights of the year include:
  --Implementation of three releases of Web FMIS including pilot 
        implementation of an intranet-based version;
  --Implementation of two releases of SAVI, including a release that 
        allows users to create Non-travel Expense Summary Reports in 
        addition to Travel Expense Summary Reports;
  --Implementation of laser check printing which substantially improves 
        the readability of checks by the postal service and banks;
  --Support of the Rules Committee's post payment audit for the Rules 
        Committee Audit staff whereby they can do a statistically valid 
        sample of vouchers of $100.00 and under (an increase from 
        $35.00 effective January 1, 2004) for which sanctioning was 
        delegated to the Financial Clerk;
  --Roll out of direct deposit payments to external vendors;
  --Coordinating and participating in the FMIS portion of a disaster 
        recovery exercise for the Alternate Computing Facility; and
  --Conducting monthly classes, seminars, and demonstrations on Web 
        FMIS.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that follows.

                                                     SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Subsystem                          Functionality                             Source                      Primary Users         Implementation
--------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)............  Financial general ledger................  Off the shelf federal system       Disbursing Office.........  October 1998
                               Vendor file                                purchased from Bearing Point.
                               Administrative functions
                               Security functions
ADPICS (Mainframe)...........  Preparation of requisition, purchase      Off the shelf federal system       Sergeant at Arms..........  October 1998
                                order, voucher from purchase order, and   purchased from Bearing Point.     Disbursing Office.........
                                direct voucher documents.                                                   Secretary of the Senate...
                               Electronic document review functions
                               Administrative functions
Checkwriter (Client-server)..  Prints checks and check registers as      Off the shelf state government     Disbursing Office.........  October 1998
                                well as ACH (Automated Clearing House)    system purchased from and
                                direct deposit payments.                  adapted to Senate's requirements
                                                                          by Bearing Point.
Web FMIS (Client-server and    Preparation of vouchers, travel           Custom software developed under    All Senators' offices.....  October 1999
 intranet).                     advances, vouchers from advance           Senate contract by Bearing Point. All Committee offices.....
                                documents, credit documents and simple                                      All Leadership & Support
                                commitment and obligation documents.                                         offices.
                               Entry of detailed budget                                                     Secretary of the Senate...
                               Reporting functions (described below)                                        Sergeant at Arms..........
                               Electronic document submission and                                           Disbursing Office.........
                                review functions.
                               Administrative functions
FATS (PC-based)..............  Tracks travel advances and petty cash     Developed by SAA Technology        Disbursing Office.........  Spring 1983
                                advances (available to Committees only).  Services.
                               Tracks election cycle information
Post Payment Voucher Audit     Selects a random sample of vouchers for   Excel spreadsheet developed by     Rules Committee...........  Spring 2003
 (PC-based).                    which sanctioning was delegated to the    Bearing Point.                    Disbursing Office.........
                                Financial Clerk for the Rules Committee
                                to use in conducting a post payment
                                audit.
SAVI (Intranet)..............  As currently implemented, provides self-  Off the shelf system purchased     Senate employees..........  Pilot--Spring
                                service access (via the Senate's          from Bearing Point.                                            2002
                                intranet) to payment information for                                                                    Senate-wide--
                                employees receiving reimbursements.                                                                      July 2002
                               Administrative functions
Online ESR (Intranet)........  A component of SAVI through which Senate  Custom software developed under    Senate employees..........  April 2003
                                employees can create on-line Travel/Non-  contract by Bearing Point.
                                Travel Expense Summary Reports and
                                submit them electronically to their
                                Office Manager/Chief Clerk for
                                processing.
Secretary's Report (Mainframe  Produces the Report of the Secretary of   Custom software developed under    Disbursing Office.........  Spring 1999
 extracts, crystal reports,     the Senate.                               contract by Bearing Point.
 and client-server ``tool
 box'').
Ledger Statements (Mainframe   Produces monthly reports from FAMIS that  Developed by SAA Technology        Disbursing Office Senate    Winter 1999
 database extracts, and         are sent to all Senate ``accounting       Services.                          Accounting Locations.
 crystal reports).              locations''.
Web FMIS Reports (mainframe    Produces a large number of reports from   Custom software developed under    Senate Accounting           October 1999
 database extracts, crystal     Web FMIS, FAMIS and ADPICS data at        contract by Bearing Point.         Locations.
 reports, client server, and    summary and detailed levels. Data is
 Intranet).                     updated as an overnight process and can
                                be updated through an on-line process
                                by accounting locations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Disbursements and 
Front Office Sections, and the Rules Committee Audit staff. The 
activities associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of phone calls a year; and meet with Chiefs of Staff, 
        Administrative Managers, Chief Clerks, and Directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Security--maintaining user rights for all ADPICS, FAMIS, SAVI, and 
        Web FMIS users;
  --System administration--design, test and make entries to tables that 
        are intrinsic to the system;
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities;
  --Support the Rules Committee post payment voucher audit process; and
  --Training--provide functional training to all Senate FMIS users.
    Of these, the post payment voucher audit deserves recognition. In 
December of 2002, the Rules Committee delegated to the Financial Clerk 
the authority for sanctioning vouchers of $35 and less; effective 
January 1, 2004 this threshold increased to $100.00. The authorization 
directed Rules and DO to establish a set of procedures for a semi-
annual audit of these vouchers. The two offices agreed that Rules would 
conduct a random sampling inspection of these vouchers based on 
industry statistical standards. Under the supervision of the IT Group, 
Bearing Point created tools to determine the sample size, to enable 
selecting the sample from the universe of vouchers of $100 and less, 
and to determine the acceptable number of discrepancies given the 
sample size and the desired confidence interval. Both audits conducted 
in 2004 resulted in a favorable finding of zero discrepancies. The 
audit conducted in April 2004 for the six-month period ending March 31, 
2004, covered 18,368 vouchers and the audit conducted in November 2004 
for the six-month period ending September 30, 2004, covered 25,853 
vouchers.
Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew and help-desk provider. During 2004 there was an 
upgrade of the mainframe operating system (OS390) in preparation for 
the implementation of the Z/OS operating system. This required that the 
Disbursing Office test all FMIS subsystems both in a testing 
environment and in the production environment.
Managing and Testing New System Development
    During 2004, development and extensive integration system testing 
was performed and implemented with changes to the following FMIS 
subsystems: Web FMIS; Senate Vendor Information (SAVI) and Online ESR; 
and Checkwriter.
            Web FMIS
    The goal for 2004 was to update and simplify the underlying 
technology of Web FMIS, basically replacing all Visual Basic Client/
Server and Cold Fusion Web technology with WebSphere web pages thereby 
creating a ``thin client'' application that can be accessed via an 
intranet browser. The Web FMIS Users Group worked closely with the team 
to rethink processes and redesign Web FMIS screens to maximize ease-of-
use. The transition included four releases of Web FMIS during 2004:
  --Web FMIS r8.0.--Implemented in March 2004, focused on the list 
        maintenance functions, and conducted a pilot of a new version 
        of the report generation software, Crystal Reports version 9;
  --Web FMIS r8.1.--Implemented in June 2004, upgraded the version of 
        the report generation software for all users, and concurrently 
        addressed obtaining reports from ``archived years'' (i.e., 
        fiscal year 1999 and 2000), the data for which was archived 
        from FAMIS. In addition, a ``report favorites'' function was 
        added;
  --Web FMIS r9.0.--Implemented for pilot offices in August 2004, was a 
        complete re-writing of the functions most used by offices, 
        Document Entry and Budget Entry. In addition, it allows the 
        start date to determine the funding year (thus eliminating the 
        need to select a funding year from which to pay a bill), added 
        the ability to import Non-travel Expense Summary Reports, and 
        revamps the user security function to be based on ``roles'' 
        which provide the Web FMIS system administrators more 
        flexibility in providing (or not providing) specific user 
        functionality.
  --Web FMIS r9.1.--Implemented for pilot offices in November 2004, 
        made system changes based on the pilot offices' use of Web FMIS 
        r9.
    At the end of 2004, testing was conducted on Web FMIS r10, which 
reduces the files required on the PC for printing reports, adds new 
reports for committees that show expenses in the format required for 
their biannual budget justification, rewrites the DO functions as 
WebSphere web pages and provides additional DO functions such as an 
online deposit (CD) log, standard text for notes, and additional 
inquiries. Web FMIS r9.1 will be given to all new 109th Congress 
offices and to all new office managers from existing offices. All other 
offices will be transferred to the WebSphere version of Web FMIS when 
Web FMIS r10 is implemented.
    During 2004 work was conducted with Bearing Point to define the 
requirements for adding electronic signature and documentation imaging 
functionality, two key components for paperless voucher processing. 
Additionally, appropriate technology is being explored to provide these 
functions.
            Senate Automated Vendor Inquiry (SAVI) and Online ESR
    SAVI enables Senate staff to check the status of reimbursements, 
whether via check or direct deposit and whether or not referencing an 
on-line ESR. The on-line ESR function enables Senate staff to create 
expense summary reports. These documents can be imported into Web FMIS, 
reducing the data entry tasks for voucher preparation. The SAVI system 
was upgraded three times in 2004. Release 2.2, implemented in March 
2004, completed several security enhancements. Release 3.0, implemented 
for pilot offices in June 2004 and 3.1 implemented for all offices in 
October 2004, allow users to prepare and submit Non-travel Expense 
Summary Reports and to define their own logon ID.
            Checkwriter
    The Disbursing Office makes payments via direct deposit and via 
check.
  --Direct Deposit.--In 2002 the Disbursing Office began making expense 
        reimbursements to Senate staff via direct deposit. In 2003 this 
        was expanded to include external vendors. The initial pilot 
        vendors provided materials to the Keeper of Stationery; and our 
        first payments to them were transmitted on June 3, 2003. After 
        a very successful initial pilot, the program was expanded 
        larger-volume vendors, such as FedEx. During 2004, direct 
        deposit was rolled out to all vendors.
  --Laser Checks.--In 2004 the printing of checks was switched from a 
        continuous-feed impact printer to a laser printer when 
        checkwriter version 5 was implemented in March 2004. The laser 
        version provides more flexibility for continuance of operations 
        by eliminating dependence on a harder-to-find printer. It also 
        produces a higher print quality, which will help the Postal 
        Service in the delivery of checks and will prevent checks from 
        being negotiated for an unintended dollar amount. Use of the 
        laser check printer required that Treasury create a 8.5 0A 10 
        inches check and stub form. A folder-inserter machine was used 
        for these checks, but the checks are incompatible with the 
        machine. During 2005, work continues to identify a machine that 
        will accept this heavy-grade check paper.
            Planning
    There are two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2004, two types of meetings were held among the DO, SAA and 
Bearing Point to co-ordinate schedules and activities:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings); and
  --Technical meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and Bearing Point to 
        discuss coordination among the active projects, including 
        scheduling activities and resolving issues.
            Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives formed the basis for the Secretary of the 
Senate's request for $5 million in multi-year funds for further work on 
the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        occur;
  --Web FMIS.--Requests from Accounting Locations--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System.--Requests from Accounting Locations--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Sub-system Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 and includes developing the task 
orders with contractors and overseeing their work. In 2004, three new 
task orders were executed: Web FMIS r10; Fiscal Year 2004 Extended 
Operational Support (September 2004-August 2005); and SAA Finance 
System and Reporting Enhancements.
    In addition, work continued under two task orders executed in 2003: 
Web FMIS Thin Client; and Web FMIS Imaging and Digital Signature Design 
and Electronic Invoicing and Remittance Enhancements.
Administering the Disbursing Office's Local Area Network (LAN)
    The DO administers its own Local Area Network (LAN), which is 
separate from the LAN for the rest of the Secretary's Office. Our LAN 
Administrator's activities included: Office-wide LAN Maintenance and 
Upgrade; Projects for the Accounting Section; and Projects for the 
Payroll and Benefits Section.
            Office-wide LAN maintenance and upgrade
    Existing workstations were maintained with appropriate upgrades 
including:
  --Configured and installed a new Windows 2000 server and transferred 
        all critical DO data to this server;
  --Implemented an automatic update for the virus scanning software on 
        each PC in the DO;
  --Selected and supervised installation of new printers for DO staff 
        and placed multi-purpose printer/scanner/copier machines in 
        strategic locations;
  --Installed new stand-alone PCs for communication with the Federal 
        Reserve's Fedline system in the DO and at the Alternate 
        Computing Facility; and
  --Maintained the Office Information Authorization form log which 
        provides easy access from DO staff desktops to up-to-date 
        information about the authorized contacts for each Senate 
        office.
            Projects for the Accounting Sections
    The activities of the Accounting Section were supported with the 
implementation of a direct connection to the Treasury Department. This 
eliminated creating and delivering a monthly magnetic tape.
            Projects for Payroll and Employee Benefits Sections
    Activities of the Payroll and Employee Benefits sections were 
supported with three specific projects:
  --Implemented a Payroll Imaging system, developed by SAA staff. This 
        system captures payroll documents turned in at the DO front 
        counter electronically;
  --Assisted Benefits staff on transferring data electronically to 
        other agencies; and
  --Training Payroll and Benefits staff on creating fillable PDF forms.
Coordinating the Disbursing Office's Disaster Recovery Activities
    During 2004, the Sergeant at Arms' office completed the build out 
of the Alternative Computing Facility. In December 2004, a two-day test 
was performed to operate FMIS subsystems from this location. The tests 
of all mainframe systems (i.e., payroll, ADPICS and FAMIS) were 
successful and payroll and voucher payments were made via direct 
deposit and check. Additionally, documents were created, posted, and 
printed via Web FMIS and ADPICS. Document printing has always presented 
problems during past tests; however, system configuration at the ACF 
has resolved this problem. The next test is planned for May 2005, when 
additional FMIS sub-systems will be tested.
            Disbursing Office COOP Activities
    The DO staff wrote a Continuity of Operations Plan (COOP) in 2001. 
This document addresses issues beyond the scope of disaster recovery. 
Normal maintenance is performed on this document to ensure that it 
remains up-to-date and viable. In addition to the success of the 
disaster recovery testing in December, the DO's most significant COOP 
related activity was the setup and pre-positioning of essential 
equipment and supplies in the dedicated space at the ACF. This 
accomplishment significantly improves the DO's ability to quickly 
respond to and complete its core responsibilities.
                         administrative offices
                    1. conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This office's initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate leadership.
    Over the past year the Office of Conservation and Preservation has 
embossed 275 books and matted and framed 525 items for the Senate 
leadership. The office is especially proud to be a part of a Senate 
tradition. For more than 23 years, the office has bound a copy of 
Washington's Farewell Address for the annual Washington's Farewell 
Address ceremony. In 2004, a volume was bound for and read by Senator 
John Breaux.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the Office of Conservation and Preservation continued to conduct an 
annual treatment of books identified by the survey as needing 
conservation or repair. In 2003, conservation treatments were completed 
for 65 volumes of a 7,000 volume collection of House Hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The Office of Conservation and 
Preservation will continue preservation of the remaining 4,100 volumes.
    This office assisted the Senate Library with 531 books sent to the 
Library Binding section of the Government Printing Office (GPO) for 
binding and with five exhibits located in the Senate Russell building 
basement corridor. The Office of Conservation and Preservation also 
assisted the Senate Curator's staff with special matting & framing 
required for the World War II exhibit located on the first floor of the 
Capitol.
    This office continues to assist Senate offices with conservation 
and preservation of documents, books, and various other items. For 
example, the office is currently monitoring the temperature and 
humidity in the Senate Library storage areas, the vault and warehouse 
for preservation and conservation purposes
                               2. curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art (``Commission''), develops and implements the museum and 
preservation programs for the United States Senate. The Office 
collects, preserves, and interprets the Senate's fine and decorative 
arts, historic objects, and specific architectural features; and 
exercises supervisory responsibility for the chambers in the Capitol 
under the jurisdiction of the Commission. Through exhibitions, 
publications, and other programs, the Office educates the public about 
the Senate and its collections.
Collections: Commissions, Acquisitions, and Management
    Portraits of Senators Arthur Vandenberg of Michigan and Robert 
Wagner of New York were officially unveiled on September 14, 2004 in 
the Senate Reception Room. The new paintings join portraits of the 
``Famous Five'' Senators commissioned for the room and installed in 
1959.
    The painting of Senator George Mitchell for the Senate Leadership 
Portrait Collection was completed and approved by the Commission on 
Art, and the portrait of Senator Margaret Chase Smith is in its final 
stage. Both will be unveiled in 2005. Another important commissioned 
work in progress is a portrait of Senator Bob Dole.
    S. Res. 177 directed the Commission to commission a mural 
commemorating the Connecticut Compromise. The Rules Committee directed 
that the mural be added to the Senate Reception Room, and the 
Commission empaneled an advisory board of experts in the field to 
select and recommend an appropriate scene and three potential artists. 
These artists developed proposals, and the advisory board reviewed 
these sketches and have recommended a final candidate to the Commission 
for consideration.
    Fourteen objects were accessioned into the Senate Collection, 
including a Senate Reception Room chair from the 1860's (private 
donation); a reproduction Senate Chamber desk used on the set of the 
movie ``Mr. Smith Goes to Washington and'' ``Advise and Consent'' (gift 
of the U.S. Capitol Historical Society); an 1870's cabinet card album 
attributed to the Mathew Brady studio (private donation); and several 
historic prints and political cartoons.
    At the direction of the Commission, the Curator's Office 
facilitated the acquisition of a Cornelius & Baker armorial chandelier 
owned by Tudor Place in Washington, D.C. The purchase of this rare 
historic fixture, which is similar to one that hung in the second floor 
corridor of the Senate wing, is an important addition to the Capitol's 
decorative and lighting history.
    Twenty-four new foreign gifts were reported to the Select Committee 
on Ethics and transferred to the Curator's Office. They were 
catalogued, and are maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Appropriate disposition of 12 
objects in the collection was completed following established 
procedures.
    As construction continued on the Capitol Visitor Center (CVC), the 
office worked with the Architect of the Capitol's CVC staff to plan the 
two storage rooms designated for Senate Collection objects, to ensure 
the highest level of preservation standards. A conservator specializing 
in museum facility planning reviewed the design drawings and provided 
recommendations, including outfitting the storage spaces. A detailed 
survey of the entire collection was completed, and the findings will be 
incorporated into a Collection Storage Plan.
    An off-site collection storage facility, made available for use 
through a lease arranged by the Senate Sergeant at Arms (SAA) in 2003, 
continued to provide much needed secure, climate controlled, museum 
quality storage for objects in the Senate Collection. An additional 18 
objects were transferred to the storage facility.
    The office has worked for several years with the SAA regarding 
plans for the construction of a warehouse space to meet the stringent 
requirements for storing fine and decorative art. In 2004 
specifications developed by the office were used by the SAA to create 
plans and begin construction on such a space, in association with the 
larger effort to build a new Senate warehouse.
    The Curator's Office initiated a comprehensive project to 
photograph the 102 historic Senate Chamber desks (which includes the 
100 on the Senate floor and two desks currently in storage). One set of 
transparencies will be stored off-site for emergency purposes, while a 
second working set will be used for the web, image requests, and future 
publications. Twenty desks were photographed in 2004; the project is 
scheduled to be completed in December 2007.
    In keeping with established procedures, all Senate Collection 
objects on display were inventoried noting any changes in location. As 
directed by S. Res. 178, the office submitted inventories of the art 
and historic furnishings in the Senate to the Rules Committee. The 
inventories, submitted every six months, are compiled by the Curator's 
Office with assistance from the SAA and the AOC's Senate 
Superintendent's office.
Conservation and Restoration
    A total of 24 objects received conservation treatment in 2004. 
These included 15 Senate Chamber desks, two large sculptures, three 
plaster reliefs, three oil on canvas paintings, and one manuscript 
collection.
    The initiative to conserve the 100 historic Senate Chamber desks 
began in 1999. Twice a year, during Senate recess periods, desks are 
removed from the Senate Chamber and sent out for restoration. Treatment 
is extensive, and follows a detailed protocol developed to address the 
wear and degradation of these historic desks due to continued heavy 
use. To date, 91 desks have been restored and the project is on track 
to be completed in 2005. A condition survey completed in 2003 stressed 
the necessity of installing rubber bumpers to the arms of the Senate 
Chamber chairs to protect the front of the desks from continued damage. 
Seventy-eight chairs are now modified with bumpers.
    Due to numerous construction projects in the Capitol, several works 
of art were relocated. The large sculpture, Justice and History, 
displayed in the Senate subway terminal, was moved in 2003 due to CVC 
construction. Work entailed separating the large sections of marble 
that comprise the sculpture and moving each half individually. 
Arrangements were made during January 2004 to restore the plaster 
surface by repairing the seam between the two halves and treating other 
minor damage and stains to the plaster coat. The conservator also 
performed treatment and cleaning on three plaster relief sculptures 
located nearby.
    In May 2004, the portrait, George Washington (Patriae Pater), and 
the sculpture, Eagle and Shield, were removed from display in the Old 
Senate Chamber to protect them from possible damage during construction 
on the roof above. A fine art handling company deinstalled and crated 
the art works. The office took the opportunity to have conservators 
assess the condition of the pieces and perform surface cleaning. The 
conservators also collected samples from the surface of the Eagle and 
Shield to document the historic finishes. Analysis of the samples will 
provide invaluable information to guide future restoration decisions.
    The Isaac Bassett Manuscript Collection will be microfilmed during 
2005. A conservator was hired to conduct an assessment of the 
collection, carry out necessary conservation treatment prior to 
microfilming, and rehouse the papers for preservation.
    The office initiated a detailed condition and identification survey 
of the nearly 100 historic mirrors in the Senate wing. A conservator 
was contracted to undertake the work, which will include extensive 
written and photo documentation for each piece. The project has 
significant benefits: the condition assessments will determine 
priorities for conservation and maintenance treatments; provide 
information on the age, origin, and importance of the frames; and 
furnish documentation for disaster planning. Half the mirrors have been 
surveyed, and the project will be completed in 2005.
    The Curator's staff participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate the housekeeping personnel on maintenance 
issues related to the fine and decorative art collections.
Historic Preservation
    Preservation work included extensive research, documentation, 
record keeping, and project review. The program emphasizes 
infrastructure development and oversight.
    The office worked with the AOC and the SAA to review, comment, and 
document Senate construction projects. In addition to offering 
direction in project development and methodology, the office maintains 
records on all known Senate wing projects. Documentation associated 
with those files varies in accordance with office involvement and 
impact on historic resources. Projects that required considerable 
review and assistance included: Brumidi corridor restoration phase 
VIII; window shutter refinishing; emergency strobe and horn 
installation; grand stairwell plaster replacement; marble step repair; 
plaster assessment program; Brumidi west corridor egress installation; 
and cell phone antenna installation. Additionally, the office is 
working closely with the AOC in the creation of an historic structures 
report for the Senate vestibule, adjacent stairwell, and small Senate 
rotunda. When completed, the report will provide critical documentation 
regarding the architectural history of these spaces, and will serve as 
the foundation for any future preservation work.
    The architectural chronology and social history databases 
established in 2003 were further refined, with new information entered 
as it became available and existing files systematically incorporated. 
While the office databases and files provide a significant resource for 
room and object histories, a project initiated in October will greatly 
increase the office's research capabilities. Currently, the historic 
preservation officer is working with the Senate Library to create an 
electronic database of all AOC, SAA, and Secretary of the Senate annual 
reports. Related to this effort, is a new initiative to photo document 
leadership suites during each Congress. This will allow the office to 
report on ``decorative'' changes in leadership rooms over time. With 
requests from Senate offices for information pertaining to room 
histories, architectural features, and historic images dramatically 
increasing, these initiatives allow for quick retrieval of necessary 
information.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the U.S. Capitol Police, the Old Senate 
Chamber was closed to visitors after September 11, 2001. However, 
during most Senate recesses in 2004, the historic room was opened to 
tours. Twenty-six requests were received from current Members of 
Congress for after hours access to the chamber. Of special significance 
was the filming of a documentary history on the Capitol by C-SPAN using 
high definition equipment. B-roll footage was also requested and 
provided to Lion Television in Scotland for a documentary on Charles 
Dickens in America. Twenty-one requests were received by current 
Members of Congress for admittance to the Old Supreme Court Chamber 
after hours. The office also coordinated with the AOC to install 
emergency strobe lights in each chamber as part of the life-safety 
upgrade program.
Loans To and From the Collection
    A total of 76 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and officials in 
the Capitol. The staff added loans of two portraits for leadership 
suites, returned 11 paintings and prints at the expiration of their 
loan periods to their respective owners, and renewed loan agreements 
for 18 other objects. In addition, the office coordinated the loan of 
six oil study sketches by Robert Chester La Follette of Senators Clay, 
Calhoun, Webster, La Follette, and Taft, which relate to the 1958 
commission for the Senate Reception Room portraits. The sketches are 
currently on loan from the daughter of the late artist, and have been 
approved for accession into the Senate Collection in 2005.
    The Curator's Office obtained an oil sketch by Constantino Brumidi 
for study and appraisal. The painting is a preparatory sketch completed 
around 1874 by the artist for his fresco mural, the Signing of the 
First Treaty of Peace with Great Britain, located above room S-118 in 
the Brumidi Corridors. The sketch has now been acquired for the Senate 
Collection.
    The office continued to work with CVC staff to assemble information 
on Senate Collection objects. Condition reports were conducted on those 
objects currently being considered for loan, and exhibit labels were 
written for all Senate-related artifacts planned for the exhibition. 
The office also assisted in developing a CVC Art Task Force, composed 
of prominent curators, architects, and designers, to recommend short- 
and long-term plans for art in the Visitor Center. The first meeting 
was held in December, and a white paper will be developed in the next 
few months.
    The Secretary's china was distributed and returned six times in 
2004. It was used for events including a dinner for the Senate spouses, 
and luncheons for the current First Lady and former First Lady Nancy 
Reagan. The official Senate china was inventoried and used at 28 
receptions for distinguished guests, both foreign and domestic.
Publications and Exhibitions
    Work continued on the United States Senate Catalogue of Graphic 
Art, to be published in 2005. The volume features the Senate's 
collection of more than 900 historic engravings and lithographs, and 
includes two full-length essays and almost 40 short essays discussing 
selected prints. The Senate Curator and Associate Senate Historian are 
co-authors of the publication. It is a companion volume to the United 
States Senate Catalogue of Fine Art published in 2003.
    In August 2004, the office de-installed the popular photographic 
exhibition, The United States Capitol: Photographs by Fred J. Maroon, 
and installed World War II: The Senate and the Nation's Capital, an 
exhibition of photographs exploring how the Senate ``went to war'' and 
how the war came to Washington, D.C. The Senate Historical Office and 
Curator's Office developed the exhibit, which is located on the first 
floor of the Senate wing.
    In association with the Office of Web Technology and a web design 
contractor, the office worked on developing and posting two interactive 
exhibits to the Senate web site. The exhibits, Take the Puck 
Challenge!, and Advise and Consent: The Drawings of Lily Spandorf, were 
originally produced for stand-alone kiosks in the Capitol. They are 
being translated into Flash presentations to become internet 
compatible. Take the Puck Challenge! features quizzes, games, and 
puzzles to introduce viewers to the political cartoons of the 
nineteenth-century satirical magazine, Puck. Advise and Consent 
explores the work of Lily Spandorf, an artist who sketched the filming 
of the Otto Preminger movie of the same name, filmed in and around the 
Capitol in 1962. Ms. Spandorf's drawings are owned by the Senate.
    The internet exhibit, ``I Do Solemnly Swear'': A Half Century of 
Inaugural Images, was developed for the Joint Congressional Committee 
on Inaugural Ceremonies (JCCIC), and features images from the Senate's 
Graphic Art Collection illustrating inaugural events from 1853 to 1905.
    Several brochures were reprinted in 2004, and one new publication 
produced, The U.S. Senate Appropriations Committee. The office also 
continued to be a significant contributor to Unum, the Secretary of the 
Senate's newsletter.
    As part of an ongoing program to provide information about the 
Capitol's art and historic spaces, new informational panels were 
installed for the paintings of George Washington at Princeton and 
Recall of Columbus.
Policies and Procedures
    In 2004, the Senate Curatorial Advisory Board was established by 
statute. Composed of respected scholars and curators, this board was 
established to (i) provide expert advice to the Commission regarding 
the Senate's art and historic collections and preservation program, and 
(ii) assist in the acquisition and review of new objects for the 
collections. During 2004, the 12-member board was empaneled and the 
first meeting was held.
    Additionally, the Commission established the Senate Preservation 
Board of Trustees. This board, composed of eminent citizens, was 
established to enable the acquisition of significant art works and 
historical objects and to facilitate preservation projects for the 
Commission. Currently, the Commission, through the Curator's office, is 
fielding nominations for the board from Commission members and an 
initial meeting will be held in the spring of 2005.
Collaborations, Educational Programs, and Events
    In preparation for the presidential inauguration, the JCCIC 
requested various assistance from the Curator's Office. The staff was 
responsible for handling all details regarding the historic painting 
and podium for display at the inaugural luncheon; assisting with the 
printed programs and gift portfolio; and developing a collecting plan 
to ensure appropriate material would be saved for the Senate 
Collection. The Curator's Administrator served on the JCCIC design team 
for the web site, while the Curatorial Assistant was assigned to the 
Committee, serving as its Deputy Capitol Coordinator.
Office Administration
    As part of the continuing effort to safeguard collections and 
records against possible disaster, work began to microfiche and 
digitize the collection object files. These files are the primary legal 
title, research, and management records for all art and historical 
objects in the Senate's collections. Copies of the fiche and digital 
records will be kept off site for disaster recovery and archival 
purposes. Additional copies will be used on site for research and 
public information in order to lessen the wear and tear on the original 
paper records.
Automation
    The office upgraded its electronic collection management database, 
allowing for more efficient and accurate conversion of collection 
information into web site applications. The staff is participating in a 
pilot program to introduce Groove project management software to the 
Secretary's Office.
    In 2004 a PDF version of the publication, United States Senate 
Catalogue of Fine Art, was posted on the web site, and work is 
proceeding to add the essays from that volume to the web pages for each 
piece of art. In addition, the office completed photographing and 
scanning the 980 historical engravings and political cartoons in the 
Graphic Art Collection; work on adding these to the site will begin 
shortly. Due to an increased presence of the Senate Collection on the 
Senate.gov web site, requests for collection images increased 
dramatically.
Objectives for 2005
    A major initiative in the upcoming year will be the creation of 
several new museum quality storage areas for the Senate Collection. At 
the end of 2004, a site was selected for a new Senate warehouse 
facility that will be outfitted to include a room with climate control, 
security, and equipment to house Senate Collection objects. Work will 
include research and review of appropriate museum storage equipment and 
monitoring systems, and planning the move of collections into the new 
facility. Additionally, planning for the Curator's storage spaces in 
the CVC will be guided by the results of the contract with the 
conservator specializing in collections storage.
    Conservation and preservation concerns continue to be a priority. 
Projects in 2005 will include the restoration of nine Senate Chamber 
desks--completing the seven year conservation treatment program; 
assessment and conservation of the painting, the First Reading of the 
Emancipation Proclamation by F.B. Carpenter; and restoration of the 
Senate's historic portrait of George Washington by Gilbert Stuart. Two 
conservators from the National Gallery of Art recently provided an 
assessment of the condition of paintings on display in the Senate wing, 
and provided recommendations for the conservation of the Stuart 
panting. Two recently commissioned paintings, of Blanche Kelso Bruce 
and James O. Eastland, will receive light cleaning and application of a 
varnish coat to enhance and protect the portraits now that the paint 
has properly cured.
    The Senate Preservation Board of Trustees will hold its first 
meeting. The Senate Curatorial Advisory Board will continue to meet 
semi-annually and address such issues as the Commission and the office 
of the Senate Curator may bring before it.
    Work on the United States Senate Catalogue of Graphic Art will be 
completed in 2005. Information panels for three paintings will be 
developed: The Florida Case before the Electoral Commission, The Battle 
of Lake Erie, and First Reading of the Emancipation Proclamation.
    Internet exhibits will include sites on Isaac Bassett and the 
Senate Chamber desks. The Isaac Bassett exhibit will feature art works, 
historic images, and objects from the Senate Collection, as well as 
portions of the Bassett manuscript, highlighting the 64-year career of 
this nineteenth-century Senate employee. The Senate Chamber desk 
exhibit will bring together all historical information on the desks, as 
well as discuss the conservation efforts. The site will prove 
invaluable to anyone seeking information on desk occupants, desk 
styles, and Senate floor seating configurations. Other web activities 
include increasing the art and historic information on the site, and 
posting new acquisitions.
    To streamline the process for adding new objects to the Senate 
Collection, a tracking system for potential accessions will be 
developed. The system will improve the collection of information and 
the availability of collection documentation. A thorough review and 
consideration of the Incoming Objects Register collection will commence 
with the development of the tracking system. Additionally, the 
Registration department will implement an electronic tracking system to 
improve the accuracy and efficiency of loan renewals.
    Collection activities will include efforts to locate and recover 
historic Senate pieces long associated with the institution. Work has 
begun to find an early Senate Chamber chair by Thomas Constantine, a 
Russell Office Building desk by George Cobb, and furnishings associated 
with the Old Supreme Court Chamber.
    The office will proceed with the Connecticut Compromise mural and 
the portrait of Senator Bob Dole. Unveilings will be held for the 
Senator George Mitchell and Senator Margaret Chase Smith paintings.
    An oral history program will be developed, based on the Senate 
Historical Office's successful format, to document the history of the 
Senate's collections. Artists, cabinetmakers, donors, and others will 
be interviewed, and appropriate information posted on the Senate web 
site.
    Microfiching of the fine art collection files and microfilming of 
the Isaac Bassett papers will be completed, as will the project to 
digitize the annual reports from the AOC, SAA, and Secretary of the 
Senate. The office will continue to photograph the Senate Chamber 
desks.
    The office plans to expand its use of Groove project management 
software. It is hoped that by the end of the year all staff will 
achieve a reasonable level of proficiency in the program and that many 
projects will be managed and their status reported to the Secretary 
using this application.
    With the recent acquisition of the Cornelius & Baker armorial 
chandelier, the office will oversee the transfer and storage of the 
fixture, and will work with the Senate Curatorial Advisory Board to 
review options for the future use of the fixture within the Senate 
wing.
    The office will undertake several major research initiatives. 
Research on the Old Senate Chamber Eagle and Shield will be conducted 
in conjunction with major decorative art museums and scholars, and it 
is hoped that it will result in determining the origin, maker, and 
original condition of this important symbolic image. Research will 
begin on the Senate Chamber chairs. No original 1819 chairs remain in 
the chamber, and as new chairs were constructed over the years, many 
design features and materials changed. Documenting these changes will 
help determine the authenticity and age of any chair that might appear 
for sale or donation; currently several such chairs are being 
considered for acquisition.
    Of importance is the development of a five year plan for the Senate 
Preservation Program. In creating the plan, the Curator's staff will 
further their knowledge of state capitol preservation efforts by 
visiting other sites and meeting with local and state preservationists, 
and will seek advice from the Senate Curatorial Advisory Board. This 
will be a major initiative in advancing the Preservation Program.
               3. joint office of education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff both in 
Washington D.C. and in the states. There are three branches within the 
department. The technical training branch is responsible for providing 
technical training support for approved software packages used in 
either Washington or the state offices. The computer training staff 
provides instructor-led classes; one-on-one coaching sessions; 
specialized training provided by vendors, computer based training; and 
informal training and support services. The professional training 
branch provides courses for all Senate staff in areas including 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health related and wellness issues. This branch also 
coordinates an annual Health Fair for all Senate employees and four 
blood drives each year.
Training Classes
    The Joint Office of Education and Training offered 581 classes in 
2004. 5,252 Senate employees participated in these classes. The 
registration desk handled 20,467 requests for training and 
documentation.
    Of the above total, in the Technical Training area 265 classes were 
held with a total attendance of 1,093 students. An additional 702 staff 
received coaching on various software packages and other computer 
related issues.
    In the Professional Development area 316 classes were held with a 
total attendance of 4,159 students. Individual managers and supervisors 
are also encouraged to request customized training for their offices on 
areas of need.
    The Office of Education and Training is available to work with 
teams on issues related to team performance, communication or conflict 
resolution. During 2004, 40 requests for special training or team 
building were met. Professional development staff also traveled to 
state offices to conduct specialized training and team building during 
the year. During the last quarter of the year, training was offered via 
video teleconferencing to two state offices.
    In the Health Promotion area, 708 Senate staff participated in 
Health Promotion activities throughout the year. These activities 
included cancer screening, bone density screening and seminars on 
health related topics. Additionally 1,310 staff participated in the 
Annual Health Fair held in September.
    The Joint Office of Education and Training has actively worked with 
the Office of Security and Emergency Preparedness to provide security 
training for Senate staff. In 2004, the Office of Education and 
Training coordinated 53 sessions of escape hood and other security 
related training for 1,683 Senate staff.
State Training
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2004, 
two sessions of this program were offered to state staff. This office 
also conducted our annual State Directors Forum for the second year. In 
addition, this office has implemented the ``Virtual Classroom'' which 
is an internet based training library of 300+ courses. To date, 396 
state office and DC staff have used this training option.
                    4. chief counsel for employment
Background
    The Office of the Senate Chief Counsel for Employment (``SCCE'') is 
a non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
became subject to the requirements, responsibilities and obligations of 
11 employment laws. The SCCE is charged with all legal defense of 
Senate offices in all employment law cases at both the administrative 
and court levels. Also, on a day-to-day basis, the office provides 
legal advice to Senate offices about their obligations under employment 
laws. Accordingly, each of the 180 offices of the Senate is an 
individual client of the SCCE, and each office maintains an attorney-
client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (Defending Senate Offices in Federal Court)
  --Mediations to Resolve Lawsuits
  --Court-Ordered Alternative Dispute Resolutions
  --Preventive Legal Advice
  --Union Drives, Negotiations and Unfair Labor Practice Charges
  --OSHA/Americans With Disability Act (``ADA'') Compliance
  --Layoffs and Office Closings In Compliance With the Law
  --Management Training Regarding Legal Responsibilities
  --Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states.
Union Drives, Negotiations And Unfair Labor Practice Charges
    In 2004, no employees attempted to unionize. Therefore, the SCCE 
handled no union drives.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices in 
complying with the applicable OSHA and ADA regulations; representing 
them during Office of Compliance inspections; advising state offices on 
the preparation of the Office of Compliance's Home State OSHA/ADA 
Inspection Questionnaires; assisting offices in the preparation of 
Emergency Action Plans; and advising and representing Senate offices 
when a complaint of an OSHA violation has been filed with the Office of 
Compliance or when a citation has been issued. In 2004, the SCCE 
assisted all Senate offices in preparing for OSHA/ADA inspections, pre-
inspected 12 offices, and gave 9 OSHA/ADA seminars.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws. In 2004, the SCCE 
gave 51 legal seminars to Senate offices. Among the topics covered 
were:
  --Preventing and Addressing Sexual Harassment in the Workplace;
  --The Congressional Accountability Act of 1995: What Managers Need to 
        Know About Their Legal Obligations;
  --Managers' Obligations Under the Family and Medical Leave Act;
  --The Legal Pitfalls of Hiring the Right Employee: Advertising, 
        Interviewing, Drug Testing and Background Checks;
  --Disciplining, Evaluating and Terminating an Employee Without 
        Violating Employment Laws;
  --Management's Obligations Under the Americans With Disabilities Act;
  --Equal Pay for Equal Work: Management's Obligations Under the Equal 
        Pay Act;
  --The Immigration Reform and Control Act of 1986 (IRCA): Steps Your 
        Office Must Take to Verify Employment Eligibility;
  --Enhancing Diversity and Avoiding Discrimination in the Workplace; 
        and
  --Workplace Violence.
Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating legal action, and the office will request the SCCE's 
legal advice and/or that the SCCE negotiate with the employee's 
attorney before the employee files a lawsuit.
    Also, the SCCE advises and meets with Members, Chiefs of Staff, 
Administrative Managers, Staff Directors, Chief Clerks and General 
Counsels at their request. The purpose is to prevent litigation and to 
minimize liability in the event of litigation. For example, on a daily 
basis, the SCCE advises Senate offices on matters such as disciplining 
or terminating employees in compliance with the law, handling and 
investigating sexual harassment complaints, accommodating the disabled, 
determining wage law requirements, meeting the requirements of the 
Family and Medical Leave Act, and management's rights and obligations 
under union laws and OSHA.
                          5. senate gift shop
    The Senate Gift Shop was established under administrative direction 
and supervision of the Secretary of the Senate (SOS) in October 1992, 
(United States Code, Title 2--Chapter 4). The Gift Shop provides 
services to Senators, their spouses, staffs, and constituents, and the 
many visitors to the U.S. Capitol complex. Products include a wide 
variety of souvenirs, collectibles and fine gift items created 
exclusively for the U.S. Senate. Services include special ordering of 
personalized products, custom framing, gold embossing, engraving and 
shipping.
Facilities
    For several years the services offered by the Senate Gift Shop were 
over-the-counter sales to walk-in customers at a single location. 
Today, after more than 10 years in operation, and as a result of 
extended services and continued growth, the Gift Shop now provides 
service from three different locations. Services from these locations 
include walk-in sales, telephone orders, fax orders, mail orders, and a 
variety of special order and catalog sales.
    Plans for the movement of inventory from the offsite warehouses to 
the soon-to-be completed SAA warehouse are currently being formulated. 
Plans include but are not limited to taking a physical inventory of 
Gift Shop merchandise stored at both offsite warehouses, devising 
methods for securing product on pallets and carts in preparation for 
transportation, transporting the merchandise, and the shelving of 
inventory upon delivery to the new warehouse.
    Operational procedures for the new location such as staffing 
requirements, receiving, shipping, and security are currently under 
consideration. These issues as well as other procedural considerations 
will be more clearly defined through a series of meetings and 
communications between SAA and SOS Gift Shop staff as the warehouse 
construction nears completion.
Sales Activity
    Sales recorded for fiscal year 2004 are $1,494,744.51. Cost of 
goods sold during this same period are $1,005,348.34, accounting for a 
gross profit of $489,396.17.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of on-hand inventory. As 
of October 1, 2004, the revolving fund balance was $1,683,079.32 and 
the on-hand inventory was valued at $2,090,474.06.
Additional Activity
    One of the most important objectives for 2003 and 2004 was 
replacing point-of-sale and accounting software, Basic Four, which was 
more than twenty years old and no longer meeting the increasingly 
unique needs of the Gift Shop.
    The company providing the hardware and performing the system 
installation of the new retail and financial management system, has 
completed the bulk of the contract work and is nearing completion of 
the last few deliverables of the contract. The deliverables that remain 
to be fulfilled include the ability to export and import financial data 
from the Senate Disbursing Office into the Gift Shop's Great Plains 
accounting system, the delivery of a basic Web Store/Kiosk database 
engine and the development of an e-commerce storefront.
    The selected software packages, Microsoft Retail Management System, 
Headquarters, Store Operations and Great Plains, are off-the-shelf 
products that required little modification to meet the specific 
requirements of Senate Gift Shop operations. Currently Gift Shop staff 
continue to modify and create databases that will serve as the 
foundation for the new retail system. Databases include inventory, 
financial data and other information required for detailed reports. 
Contractors are currently working to solve programming issues and are 
confident that they will be able to complete the contract obligations 
in the very near future.
    It is important to note that the new system not only will meet the 
Gift Shop's current and near-future requirements, but will also 
accommodate potential add-on features such as intranet and internet 
sales.
Accomplishments and New Products in Fiscal Year 2004
            Official Congressional Holiday Ornaments
    The year 2002 marked the beginning of the Gift Shop's third 
consecutive ``four-year ornament series.'' Each ornament in the 2002-
2005 series of unique collectibles features an architectural milestone 
of the United States Capitol and is packaged with corresponding 
historical text taken from the book, History of the United States 
Capitol: A Chronicle of Design, Construction, and Politics by William 
C. Allen, Architectural Historian in the office of the Architect of the 
Capitol.
    Our 11th annual ornament was released in 2004 and shows the Capitol 
enlarged with new marble wings and cast-iron dome designed by 
Philadelphia architect Thomas U. Walter who was appointed architect of 
the Capitol extension in 1851. Walter enlivened the foreground of his 
drawing with a spirited scene of carriages, horses and crowds of 
people. In keeping with a Gift Shop tradition, the authentic colors of 
the original drawing were reproduced onto a white porcelain stone and 
set with a brass frame finished in 24kt gold.
    Sales of the 2004 holiday ornament exceeded 33,000, of which more 
than 7,400 were personalized with engravings designed, proofed and 
etched by Gift Shop staff. Sales revenue from this year's ornament 
generated more than $40,000 in scholarship funds for the Senate Child 
Care Center.
            Pickard China Porcelain ``Executive Authority'' Box
    Executive Authority, released in 2004, is the third in a series of 
four porcelain boxes that display different images from the Constantino 
Brumidi fresco paintings on the ceiling of the President's Room in the 
Senate Wing of the United States Capitol. The first and second boxes in 
the series, Liberty and Legislation, were released in 2002 and 2003. 
The final piece of this series, Religion, will be released later this 
year.
            United States Senate Catalogue of Fine Art
    The Gift Shop purchased for resale the book, United States Senate 
Catalogue of Fine Art. In order to ensure availability of this 
publication for an extended period of time, a large quantity was 
secured.
Projects and New Ideas for 2005
            108th Congressional Plate
    The series of Official Congressional Plates will continue this year 
with the design, development and manufacture of the 108th and 109th 
Congressional Plates. The design stage for both plates has been 
completed and prototypes are being produced by Tiffany & Co.
    In addition to determining the design for the 108th and 109th 
Congressional Plates, final artwork is under development with Tiffany's 
for the 110th and 111th Congressional Plates.
            Constantino Brumidi Birthday Celebration
    This year marks the 200th Birthday of Constantino Brumidi, ``The 
Artist of the Capitol.'' In celebration of this special occasion, Gift 
Shop staff will work closely with the staff of the Curator's Office 
throughout 2005 on an initiative to add to our collection of Brumidi-
inspired merchandise.
            Intranet/Webster
    The Gift Shop actively continues to develop its website. Primary 
considerations include website policy, design and layout, content and 
products to be featured. It is the Gift Shop's intention to quickly 
include links to the offices of the Historian, Curator and Senate 
Library so the Senate community using Webster will have ready access to 
additional information pertaining to the product or subject of their 
interest.
                          6. historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public.
    The Office advises Senators, officers, and committees on cost-
effective disposition of their non-current office files and assists 
researchers in identifying Senate-related source materials. The Office 
keeps extensive biographical, bibliographical, photographic, and 
archival information on the 1,784 former Senators. It edits for 
publication historically significant transcripts and minutes of 
selected Senate committees and party organizations, and conducts oral 
history interviews with key Senate staff. The photo historian maintains 
a collection of approximately 40,000 still pictures that includes 
photographs and illustrations of Senate committees and most former 
Senators. The Office develops and maintains all historical material on 
the Senate web site.
Editorial Projects
    Biographical Directory of the U.S. Congress, 1774-2005.--In May 
2003, both Houses of Congress adopted H. Con. Res. 138, authorizing 
printing of the sixteenth edition of the Biographical Directory of the 
United States Congress, 1774-2005. The first edition of this 
indispensable reference source was published in 1859; the most recent 
edition appeared in 1989. Since 1989, the assistant historian has added 
many new biographical sketches, expanded bibliography entries, and 
revised and updated most of the database's 1,875 Senate entries. In 
preparation for the new print edition, scheduled for release in late 
spring/early summer of 2005, the assistant historian has updated the 
Congress-by-Congress listing of members through the 108th Congress, 
updated the listing of executive branch officers, and completed the 
editing and proofing of all Senate-related information. In addition, 
existing information has been edited to allow for expanded search 
capabilities on the online version at http://bioguide.congress.gov.
    Joint Congressional Committee on Inaugural Ceremonies (JCCIC).--In 
early 2004, the Office began consulting with the JCCIC to develop 
historical content for the JCCIC's web site. The Office conducted 
historical research and compiled files for every inauguration since 
1789. Based on the information collected, staff provided historical 
data for each inauguration, and wrote brief articles on all aspects of 
inauguration day, from the morning prayer service to the evening's ball 
(including the procession to the Capitol, the swearing-in ceremony, the 
inaugural luncheon, and the parade). The photo historian located and 
provided photographs and illustrations to accompany the inauguration 
profiles and articles. Office staff assisted JCCIC staff with 
publishing these materials to the Web site. In addition to the Web 
site, the Office assisted the JCCIC with developing the inaugural 
theme, and wrote and edited content for printed materials, including 
the platform program, luncheon program, and the luncheon portfolio.
    Capitol Visitor Center Exhibition Content Committee.--Staff 
historians continued to assist the Capitol Preservation Commission in 
drafting text for the exhibition gallery of the Capitol Visitor Center. 
During 2004, the Office worked with Donna Lawrence Productions to 
develop a script for a CVC visitor orientation film.
    Administrative History of the Senate.--During 2004, the assistant 
historian continued the research and writing of this historical account 
of the Senate's administrative evolution, taking advantage of newly 
discovered archival resources and improved search capabilities for 
contents of nineteenth-century newspapers and periodicals. This study 
traces the development of the offices of the Secretary of the Senate 
and Sergeant at Arms, considers nineteenth and twentieth-century reform 
efforts that resulted in reorganization and professionalization of 
Senate staff, and looks at how the Senate's administrative structure 
has grown and diversified over the past two centuries.
    ``Anchor of the Republic: The United States Senate, 1789-2006''.--
The Office began work on a one-volume illustrated history of the 
Senate, intended for publication in late 2006. This book will focus on 
the Senate's unique constitutional responsibilities, the development of 
its traditions and prerogatives, and the contributions of significant 
personalities.
    Rules of the United States Senate, 1774-1979.--This work in 
progress will present a narrative history of the evolution of the 
Senate's standing rules, from their antecedents in the Continental 
Congress through their most recent recodification in 1979. Following 
the narrative section, a documentary section will include the original 
text of all standing rules, beginning with those the Senate adopted on 
April 16, 1789. It will reprint each of the seven subsequent 
recodifications (1806, 1820, 1828, 1868, 1877, 1884, and 1979) along 
with changes adopted between each recodification. Appendices will 
contain rules of the Continental Congresses, the Senate of the 
Confederate States of America, and the abandoned joint rules of 
Congress.
Member Services
    Members' Records Management and Disposition Assistance.--The Senate 
archivist continued to assist members' offices with planning for the 
preservation of their permanently valuable records, with special 
emphasis on archiving electronic information from computer systems and 
transferring valuable records to a home state repository. The archivist 
updated the archival sections of the handbook, ``Closing a Senate 
Office'' and participated in meetings with all offices of retiring 
Senators to plan for the disposition of their records. The archivist 
worked with staff from all repositories receiving senatorial 
collections to ensure adequacy of documentation and the transfer of 
appropriate records with adequate finding aids. The archivist worked 
with the Committee on Rules and Administration to recommend a change in 
the source of Senate funding for shipment of members' official records 
to home-state archival repositories. Public Law 108-447 (December 8, 
2004) changed the funding from individual office accounts to the 
``Miscellaneous Items'' appropriations account within the contingent 
fund of the Senate. The archivist worked with the Sergeant at Arms to 
develop protocols for the use of an electronic document management 
system operated by the Office of Printing, Graphics, and Direct Mail. 
The system is available to all offices for scanning projects and it 
simultaneously produces a microfilm version suitable for archival 
preservation purposes. The Historical Office began using the system to 
produce security copies of its thirty years' accumulation of historical 
subject files. The archivist identified and worked with three pilot 
project members' offices to implement its use. The archivist conducted 
a seminar on records management for Senate offices.
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance on preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. Over 1,365 feet 
of Senate records were transferred to the Archives. The archivist 
updated and published Records Disposition Procedures for Offices of the 
Secretary of the Senate. The archival assistant continued to provide 
processing assistance to committees and administrative offices in need 
of basic help with noncurrent files. The archival assistant produced 
committee archiving reports in a database format covering records' 
transfers for the past five years. The archivist analyzed these reports 
to provide committees with suggestions for improvements. The archivist 
also worked with all committees to transfer a set of mark-up 
transcripts to the Archives for security purposes. The archivist 
continues revision of the Records Management Handbook for United States 
Senate Committees. Part of the revision entailed developing, with 
assistance from National Archives (NARA) staff, a protocol for transfer 
of electronic records to NARA's Center for Legislative Archives. The 
Committee on Governmental Affairs and its archivist developed and 
successfully implemented a project using this protocol. In the project, 
all electronic information pertaining to the development of homeland 
security legislation was appraised, organized, and sent to the 
archives.
    Senate Historical Minutes.--The Senate historian continued an 
eight-year series of ``Senate Historical Minutes,'' begun in 1997 at 
the request of the Senate Democratic Leader. In 2004, the historian 
prepared and delivered a ``Senate Historical Minute'' at twenty-four 
Senate Democratic Conference weekly meetings. These 400-word Minutes 
were designed to enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
More than 200 Minutes are available as a feature on the Senate Web 
site.
    Association of Centers for the Study of Congress.--In May, the 
Historical Office cosponsored the second annual meeting of the 
Association of Centers for the Study of Congress in Washington. Among 
the centers involved in this promising new organization are those 
associated with the public careers of former Senators Howard Baker, Bob 
Dole, Everett Dirksen, Margaret Chase Smith, George Aiken, Thomas Dodd, 
Wendell Ford, Hubert Humphrey, Richard Russell, John Stennis, and John 
Glenn. The Association elected Senate archivist Karen Paul as its 
secretary.
Oral History Program
    The Historical Office conducts a series of oral history interviews, 
which provide personal recollections of various Senate careers. This 
year, oral history interviews were completed with Chuck Ludlam, former 
staff member of the Separation of Powers Subcommittee; Arthur 
Rynearson, former deputy Senate Legislative Counsel; and Leonard Weiss, 
former staff director of the Governmental Affairs Committee. Several 
other interviews are currently in progress.
Photographic Collections
    The photo historian continued to catalog, digitize, and expand the 
Office's 40,000 item photographic collection. Photos and other images 
were added to the online collection of Senate Historical Minutes. A 
photographic exhibition (``Capitol Scenes: 1900-1950'') was developed 
for display on the Capitol's second floor, and a virtual exhibit was 
created of the same images for the Senate Web site. Working closely 
with the Senate Curator's Office and the Office of Conservation and 
Preservation, the photo historian helped to create and mount on the 
first floor of the Capitol's Senate wing a photographic exhibition 
entitled ``World War II: The U.S. Senate and the Nation's Capital.'' 
The office acquired a late 19th and early 20th century collection of 
scrapbooks containing the photographic images of nearly 900 Senators 
who served from the Senate's earliest years through the 1920s. The 
photo historian also began working on a pictorial directory that will 
include an image of every Senator who has ever served, organized by 
state and class. This first-of-its-kind publication will offer a unique 
visual representation of the collective Senate from its beginnings to 
the present.
Educational Outreach
    In coordination with the Joint Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, Senate committees, women Senators, and Senate floor leadership. 
Office staff also participated in seminars and briefings for specially 
scheduled groups. The historian and associate historian joined the 
Secretary of the Senate in making formal presentations at the June 2004 
Institute on Congress and American History at the Lyndon B. Johnson 
Library and Museum in Austin, Texas. Staff also made several 
international presentations. The historian addressed the ``Parliaments, 
Representation, and Society Seminar'' at the University of London's 
Institute of Historical Research and the associate historian was a 
featured speaker at a conference of the International Association of 
Oral History in Rome, Italy. Finally, on November 19, 2004, C-SPAN's 
``Washington Journal'' devoted an hour-long program to the history of 
the Senate and the work of the Senate Historical Office.
                           7. human resources
    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The Office develops and 
implements human resources policies, procedures, and programs for the 
Office of the Secretary of the Senate that not only fulfill the legal 
requirements of the workplace but which complement the organization's 
strategic goals.
    HR's responsibilities include recruiting and staffing; providing 
guidance to managers and staff; training; job analysis; compensation 
planning, design, and administration; leave administration; records 
management; employee handbooks and manuals; internal grievance 
procedures; employee relations and services; and organizational 
planning and development.
    The Human Resources Office also administers the Secretary's Public 
Transportation Subsidy program and the Summer Intern Program that 
offers college students the opportunity to gain valuable skills and 
experience in a variety of Senate support offices.
Ongoing projects for 2005
            Classification and Compensation Review Completed
    HR conducted a complete classification and compensation study. The 
classification study included a comprehensive collection of current job 
classifications and specifications for every position in the Office. 
For 2005 and beyond, HR will for maintain and update the entire system.
            Policies and Procedures
    The Secretary, through HR, will update and revise the Employee 
Handbook of the Office of the Secretary. With nuances in employment law 
and other advances, the policies will be reviewed, coordinated with 
counsel (if necessary), revised and updated annually.
    In regard to potential violations for said procedures, the 
Secretary, through HR and the Senate Chief Counsel for Employment, has 
developed an effective method to coordinate inquiries.
            Employee Self-Service (ESS)
    HR has implemented use of the Employee Self-Service system (ESS) 
which is a secure system enabling Secretary staff to review and update 
personnel information pertaining to addresses, phone numbers and 
emergency contact information. Employees are now able to review and 
correct information to their electronic personnel records kept by HR. 
Staff and managers can also access leave records and reports through 
this system. The ability to review and update this information is 
instrumental to maintain accurate contact lists for emergencies or 
other contingencies.
            New Leave Tracking System
    In the past, employees of the Secretary of the Senate had to 
maintain ``timesheets'' for each day of work throughout the year. This 
system was maintained by each employee and signed off on by the 
supervisor and/or department head. HR created a new leave tracking 
system whereby attendance is only recorded by the exception, or 
absence. Leave slips have been created for staff to complete and submit 
prior to needing to take leave. The supervisor approves the request and 
forwards it to HR to be entered into the system. Staff now have access 
to their leave balance which is maintained by HR. As a result of this 
new tracking system, directors and HR are able to generate a multitude 
of reports to analyze leave usage by department and organization-wide 
and to review leave balances.
            Attraction and Retention of Staff
    HR has the ongoing task of advertising new vacancies or positions, 
screening applicants, interviewing candidates and assisting with all 
phases of the hiring process.
            Outreach
    HR has initiated development of an Elder Care Fair that will be 
available for all Senate staff interested in learning more about local 
and nationwide services available to assist the elderly and those 
responsible for their care. HR is working closely with the Senate 
Office of Education and Training and the Employee Assistance Program to 
identify and contact agencies that may be of assistance to Senate 
staff. The goal is to conduct this one day event in the last quarter of 
2005.
            Training
    In conjunction with the Senate Chief Counsel for Employment, HR has 
worked on preparing training for department heads and staff. The 
training topics include Conducting Background Checks, Providing 
Feedback to Employees and Goal Setting. These skills will further 
enhance the ability to our staff to comply and succeed in the 
development of the staff of the Secretary of the Senate.
            Orienting New Staff
    Because first impressions make such a lasting impression, HR has 
developed a new consistent means of orienting new staff joining the 
Office of the Secretary. This new system allows for a seamless 
transition from the orientation of HR, policies, parking, and metro 
subsidy, to the particular department the staff member is joining.
            Interns and Fellows
    HR has been instrumental in the internship program and coordination 
of the Heinz Fellowship program. The next group of summer interns will 
begin in June 2005.
            Employee Feedback and Development
    A key to maintaining and improving performance standards, as well 
as ensuring completion of organizational objectives, is providing 
employee feedback. HR, in conjunction with the Executive Office and 
department heads, has established a new comprehensive tool to evaluate 
staff at all levels of the organization.
                         8. information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also work closely with the 
application and network development groups within the Senate Sergeant 
at Arms (SAA), the Government Printing Office (GPO), and outside 
vendors on technical issues and joint projects. The Department provides 
computer related support for the all LAN-based servers within the 
Office of the Secretary of the Senate. Information Systems staff 
provide direct application support for all software installed 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.
Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Secretary of the 
Senate's operation. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies, meeting Disbursing 
office financial responsibilities to the member offices, and office 
mandated and statutory obligations.
    Functional responsibilities for supporting other departments were 
expanded, as staffing levels were maintained. Information System staff 
functionality was expanded by moving the IT structure from a local LAN 
support structure to an enterprise IT support process. Improved 
diagnostic practices were adopted to stretch support across all 
Secretary departments. Several departments, namely Disbursing, Office 
of Public Records, Chief Counsel for Employment, Page School, Senate 
Security, and Stationery and Gift Shop have dedicated information 
technology staff within those offices. Public Records, Stationery, and 
Gift Shop remote support was added in 2004. Information Systems 
personnel continue to provide a multi-tiered escalated hardware and 
software support for these offices.
    For information security reasons, Secretary departments implement 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of inter-departmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.
Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software support provided by the Information Systems 
Department, and augment that support with assistance from the SAA 
whenever required. The Secretary's network supports approximately 300 
user accounts and patron accounts in the Capitol, Hart, Russell, 
Dirksen, and the Page School locations.
Continuity of Operations Plan (COOP)
    The Office of Information System began disaster planning for the 
Secretary's office in June, 1998. In January, 2001, this planning 
process had evolved to include other working groups within the Senate . 
Working with the Office of Senate Security, SAA, GSA, and GAO 
personnel, the Information System COOP plan was developed in March 
2001. Initial emphasis was placed on the continuation of legislative 
and financial business elements within the Senate.
    Beginning in January 2001, new product technology was implemented 
to migrate and store legislative data off-line. This success of the 
initial pilot project was used to facilitate solutions in other 
Secretary offices. The same technology was applied to provide the 
department of Public Records with off-line storage capabilities in July 
2001.
    Near-line server storage solutions augment the normal tape archival 
process. Individual server data continues to be backed up each night. 
At present snap servers are deployed in key locations and smaller units 
are located off-site and are rotated on a bimonthly basis.
Fiscal Year 2004 Highlights
            1. Active Directory and Message Infrastructure Project 
                    (ADMA)
    The original plan involved replacing all CC:MAIL servers and 
gateways with a decentralized Microsoft Outlook solution. The 
Secretary's office previously had six Post Offices in six different 
server domains. There was no central Public Address Book for all 
Secretary employees. Additionally, Secretary Mail requirements needed 
to be refined to insure the implemented solution was both cost-
effective and reliable for the Office of the Secretary.
    The Microsoft Outlook E-Mail client solution is referred to as the 
Messaging Architecture, and the replacement of the existing Windows NT 
server installed base is referred to as the Active Directory project. 
The initial plan outlined that all staff employees be enrolled in one 
central Active Directory Secretary enterprise. Each department (except 
the Disbursing and Employment Counsel office) is to be structured as a 
Organizational Unit within the new enterprise. In November 2004, the 
Office of Employment Counsel migrated to ADMA. Completion of the 
remaining offices will occur in fiscal year 2005.
            2. Office of Public Records (OPR) Upgrades
    Upgrades to all OPR hardware and software were implemented in 
fiscal year 2004. This involved replacing four (4) new servers at the 
PSQ location, and consolidating all OPR data to a new hardware platform 
in SH-232. Operating System software was ungraded and Database software 
was transferred to a Windows2000/SQL2000. During the February ricin 
event, OPR staff relocated and were able to operate and continue their 
scanning operation.
            3. Senate Library Catalog Project
    The existing Senate Library hardware and software server operation 
in SRB-20 was mirrored to facilitate access to the Library Web Catalog 
for all Senate offices on the Senate Intranet. Previously only 
workstations within SOS could access the catalog. Home and state 
offices can now take advantage of the numerous library resources. The 
mirrored server operation at another location provides a redundant data 
backup to the primary Russell location. Future migration of the catalog 
information to the Storage Area Network (SAN) located at the Alternate 
Computing Facility is now possible.
            4. Legislative Operation Upgrades
    The Journal Clerk hardware and software business applications was 
updated in fiscal year 2004. The previous version of software was last 
updated in 1997, and this new software application now takes advantage 
of the LIS repository located at PSQ. Composition of the Senate Journal 
is more accurate and takes advantage of the internal LIS architecture.
            5. Gift Shop Procurement
    A search began early in 2002 to investigate and find a solution for 
a replacement hardware and software system for the Senate Gift Shop and 
Stationery operations. A procurement was awarded in 2002. New hardware 
servers and Point-Of-Sale workstations were installed in January 2004, 
the older POS applications retired, and new system integration 
completed in February 2004. This is a long-term project which involves 
the creation of a new product database, an e-commerce point-of-sale 
application, inventory control software, and Disbursing Office reports 
generation package.
            6. Stationery Room Renovation Procurement
    Similar to the Gift Shop renovation project, the Stationery Room 
awarded a contract to replace the existing business method. This 
process had not been updated in over ten years. Additional hardware and 
software was installed in 2004 to support the new point-of-sale system.
    In May 2004, an enhancement to the Metro Subsidy system began which 
would allow Senate offices to request allotted subsidies in advance 
using a web-browser based connection. SAA provided the web-entry portal 
and the Secretary installed the necessary SQL database server. An 
additional hardware server and new workstations were installed in 
December 2004 to support the PTI solution.
            7. Curator Project Management Software
    In May 2004, the Curator's office desired a method to more 
efficiently create, edit, publish, and distribute information relative 
to numerous contracts and outside vendor projects. After evaluating 
these business requirements, the IT solution implemented now provides 
multi-user collaboration software (Groove) to track and monitor these 
numerous projects. In parallel, working with SAA Research & 
Development, this solution was deemed valuable to other Senate offices 
as this package allows staff to communicate and share files regardless 
of location.
                     9. interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
23rd year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; British-American 
Interparliamentary Group; United States-Russia Interparliamentary 
Group; and United States-China Interparliamentary Group.
    In June, the 45th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Idaho. Arrangements for this 
successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to individual Senators and staff 
traveling overseas. Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 44th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group, and the second meetings of both the U.S.-
Russia Interparliamentary Group and the U.S.-China Interparliamentary 
Group, all of which will be held in the United States in 2005. Advance 
work, including site inspection, will be undertaken for the 46th Annual 
Canada-U.S. Interparliamentary Group meeting to be held in the United 
States in 2006. Preparations are also underway for the spring and fall 
sessions of the NATO Parliamentary Assembly.
                              10. library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; and an extensive book collection on American 
politics, history, and biography. Other resources include a wide array 
of on-line systems used to provide nonpartisan, confidential, timely, 
and accurate information services to the Senate. The library also 
authors content for three Web sites: Legislative Information Service, 
Senate.gov, and Webster.
Notable Achievements
    Senate Library catalog available to all Senate staff via Webster.
    Web inquiries increased 73 percent and overall inquiries increased 
61 percent.
    Final design requirements for the off-site storage facility 
submitted to SAA.
    Adjourn time and vote information added to Floor Schedule on 
Senate.gov.
Information Services
            Research
    Legal, legislative, business, and general research is the library's 
primary mission. The complexity of research requests may require 
several hours of staff time and numerous resources, while working under 
strict deadlines. While these request totals are fewer than the Web-
based inquiries, they dominate daily library activity. This year the 
library answered 33,750 research inquiries that resulted in the 
delivery of 3,265 information packages. Activities supporting research 
requests included 2,747 faxes, 156,891 photocopies, and 6,945 pages 
printed from the microform collection. The library also loaned 2,165 
books and congressional documents to Senate offices. In addition, 371 
Senate staff established new borrowing accounts, bringing total 
accounts to 2,754.
    These research skills are critical in the librarians' ability to 
author material for three different Web sites. Since the 2002 redesign 
of senate.gov--the Senate's official public Internet site--the 
librarians have also become essential content providers, organizational 
consultants, and text editors. The 73 percent increase in visitors to 
library-authored online resources underscores the library's role in 
creating and delivering quality information products on the Web.
    Traditional inquires--which are telephone, fax, walk-in, and e-mail 
inquiries--plus visitors to library-authored Web resources increased 
total requests by 61 percent over last year.

                             TABLE 1.--SENATE LIBRARY INQUIRY HISTORY, 2000 TO 2004
                     [Traditional Requests and Visitors to Library-Authored Web Information]
----------------------------------------------------------------------------------------------------------------
                                                                                     Category
                                                                 -----------------------------------------------
                             Year(s)                                Traditional
                                                                  Phone, Fax, E-   Web See Table       Total
                                                                  mail & Walk-in   2 for details
----------------------------------------------------------------------------------------------------------------
2004............................................................          33,750         602,236         635,986
2003............................................................          46,234         348,198         394,432
2000-2002 Average...............................................          38,660           2,003          40,663
----------------------------------------------------------------------------------------------------------------

            Senate.gov
    The Senate Library's mission includes providing accurate, timely, 
and professionally organized information about the U.S. Senate on 
Senate.gov--the most widely read publication authored by the Office of 
the Secretary. The librarians' expert knowledge of the legislative 
process and sophisticated research skills are used to develop, 
customize, and deliver meaningful and relevant information. They are 
able to tailor information to meet the needs of various Web audiences 
and they possess the critical skills required to provide organized and 
meaningful content.
    Senate.gov accomplishments for 2004:
  --The Floor Schedule posted on the home page was enhanced this year 
        by including the adjournment time and a link to the day's 
        recorded votes, an expansion of the library's original 2003 
        mandate to publish the convene time and the Senate's daily 
        program. Prior to nightly posting of the interactive Schedule, 
        Senate staff were solely dependent upon cloakroom recorded 
        messages.
  --Librarians designed Statistics & Lists to provide easy access to 
        more than 80 lists of Senate information, including 28 that 
        detail senatorial biography and service records. Librarians 
        created a subject arrangement for quick access to the varied 
        lists. Topics range from Active Legislation (subject-organized 
        research aids providing bill numbers), to Senators who have 
        cast more than 10,000 votes, to books about art and 
        architecture in the U.S. Capitol.
  --Librarians researched and designed an historically important page 
        featuring links to the final Resume of Congressional Activity 
        for each year since the Resume was created in 1947. To maintain 
        currency, the latest monthly Resume is posted upon publication 
        in the Congressional Record. Web designers for both LIS and 
        THOMAS--the public site for legislative status information--
        quickly adopted the senate.gov Resume page to enhance their 
        existing content.
    The library's Web experience benefits offices under the Secretary 
needing to publish Internet information. The library designed a page 
for Senate Printing and Document Services that provides location, 
hours, and contact information, including an e-mail address for public 
document requests. The page also includes links to guides on 
identifying bill numbers and online texts of legislation, and provides 
definitions of the various categories of legislation. Librarians also 
coordinate with several Secretary's offices in the posting of monthly 
senate.gov articles, which complement Senate business. For instance, 
presidential cabinet nominations or an article announcing the United 
States Senate Catalogue of Fine Art, was prominently featured for Web 
visitors.
    The importance of long-range planning to meet the rapidly changing 
technical environment was the subject of a series of senate.gov vision 
meetings conducted this year. The meetings focused on four topics: the 
value of a taxonomy for site organization and content access; 
developing a structured workflow and standard editing style; acquiring 
appropriate software; and designating staff to support the expanding 
Web responsibilities.

   TABLE 2.--SENATE.GOV AND LIS VISITORS TO LIBRARY RESOURCES IN 2004
------------------------------------------------------------------------
                                                             Visitors
------------------------------------------------------------------------
Active Legislation on Senate.gov........................         213,014
Reference homepage on Senate.gov........................         281,836
Virtual Reference Desk on Senate.gov....................          86,637
Hot Bills List on LIS...................................          11,363
Appropriations Tables, Fiscal Year 1987-2005 on LIS.....           9,386
                                                         ---------------
      TOTAL.............................................         602,236
------------------------------------------------------------------------

            Legislative Information System (LIS)
    The Legislative Information System (LIS) serves as a gateway to 
electronic resources critical to the work of legislative branch staff. 
The Senate Library serves on an editorial committee with Congressional 
Research Service (CRS) staff tasked to meet the constantly changing 
information needs of legislative staff. The committee responds to 
congressional staff needs by adding features, reorganizing and 
improving content, and enhancing design elements. Among the library's 
most popular LIS products for Senate staff are the Hot Bills List and 
Appropriations Tables.
    The library is also working on improvements in LIS nomination and 
treaty chronologies. The project will ensure that all Senate hearing 
information is fully identified, regardless of when the hearing was 
conducted. The research and data entry strategies will be determined in 
2005.
            Webster
    A major accomplishment in 2004 was the establishment of Senate-wide 
access to the online library catalog via Webster--the Senate's 
Intranet--which required a coordinated effort by staff from the Office 
of the Secretary, the Sergeant at Arms, and the catalog vendor. On-site 
installation and reliability testing of the catalog began in January. 
The server was transferred to Postal Square in July, where subsequent 
security testing was completed before the October 25, 2004 official 
release. The catalog provides staff with desktop access to more than 
158,000 bibliographic records. These records include legislative 
materials dating from the 19th century, executive and judicial branch 
documents, and more than 35,000 books on the Senate, American history, 
politics, political biography, and legislative issues. Staff may 
request same-day book delivery via a catalog link. The catalog also 
provides full-text electronic access to selected congressional 
hearings, executive branch documents, and periodicals.
    The Webster home page announcement feature was successfully used to 
promote service seminars, National Library Week events, and the release 
of the library catalog. More than 150 staff attended the Webster-
announced events.
            Instructional Services
    The Information Services team serves as the Search Help Desk for 
the Front Page on Webster. Front Page is an information gateway to 
commercial databases such as LexisNexis, Westlaw, ProQuest, Leadership 
Directories, Congressional Quarterly, Bureau of National Affairs, 
National Journal, Federal Document Clearinghouse, Associated Press, and 
Reuters. This responsibility requires that each librarian maintain 
expert search skills and the ability to instruct staff in the use of 
these electronic resources.
    Library staff, in conjunction with the Joint Office of Education 
and Training (JOET), provide monthly LIS training sessions in which 
Senate staff are instructed in the latest electronic research 
strategies. Students learn efficient LIS search strategies for the 
Congressional Record, bill summary and status reports, roll call votes, 
and committee actions. As the LIS Help Desk, the library continues 
staff training by answering content and search strategy questions and 
providing personalized instruction. The JOET also requested the 
library's assistance in developing a survey to determine the best 
strategies for delivering information to Senate staff.
            Public Relations
    The library hosted 25 public relations events in 2004, including 
``Services of the Senate Library'' seminars, new staff and state staff 
orientations, Senate Page School seminars, and a Secretary of the 
Senate ``block party.'' The library also provided tours to several 
visiting groups, including Catholic University, University of Maryland, 
University of North Carolina, federal librarians, GPO staff, and a 
delegation from Japan.
Technical Services
            Acquisitions
    The library received 11,553 new acquisitions in 2004. Of this 
number, 7,523 were congressional documents, 3,314 were executive or 
judicial publications, and the remaining 716 items were books related 
to politics, American history, or biography. There were several major 
acquisitions in 2004, including 127 bound volumes of Senate and House 
bills from the 107th Congress; a 42-volume reprint of the Annals of 
Congress, containing the congressional debates from 1789-1824; and a 
significant portion of the 28 volumes of the John C. Calhoun papers.
    As a participant in the Federal Depository Library Program (FDLP), 
the library receives categories of legislative and executive and 
judicial branch publications from the Government Printing Office (GPO). 
In 2004, the library received 3,314 items through FDLP. The trend to 
distribute government publications electronically has significantly 
reduced the number of paper documents issued. GPO reports that 86 
percent of new government documents will only be distributed 
electronically. The library responded by adding more than 8,300 
government document links to the online catalog. The links provide 
Senate staff with immediate desktop access to the materials.
    A major project is the ongoing review of the items received through 
FDLP. During this fourth year of the project, 2,031 items were 
withdrawn from the collection and 1,660 (79 percent) of the items were 
donated to requesting federal libraries. The project's final phase 
improves document access by integrating executive branch documents with 
other collections under a single library classification system. This 
year the cataloging staff reclassified and integrated 326 government 
documents.
    The library's acquisitions committee meets monthly to review and 
approve all book purchases. The committee is composed of the Librarian, 
two reference librarians, and the acquisitions librarian. Library staff 
make recommendations to the committee through a Web-based selection 
tool that allows staff to suggest titles for possible purchase.
            Cataloging
    The library's highly productive cataloging staff draws on years of 
experience to produce and maintain a catalog of 158,111 items. During 
the year, 8,172 items were added to the catalog and an overall 8 
percent increase in titles cataloged was realized.
    Cataloging efforts in 2004 focused on historic treaties, Senate 
executive reports, and older Senate hearings. In many instances, the 
Senate's collection holds the only known copy of the document. This 
work contributed to a 33 percent increase over the previous year in 
cataloging historic material. As a result, the library contributed 636 
new personal and treaty name records through the Name Authorities 
Cooperative program (NACO), a total that exceeds that of many larger 
institutions. The privilege to participate in NACO recognizes the 
professional expertise of the library's catalogers.
            Offsite Storage and Collection Maintenance
    A warehouse facility, scheduled for completion in 2005, will 
provide the Senate with permanent, well-designed offsite storage. The 
facility will meet the library's long-term need to preserve the 
Senate's archival collections. The warehouse will provide storage for 
50,000 volumes, security and fire suppression, museum-standard humidity 
and temperature control, and air filtration. An archive of 20,000 
historic and rare congressional documents is scheduled for the initial 
transfer to the warehouse. To meet Continuity of Operations Plan (COOP) 
requirements, the warehouse will have access to the Senate network and 
telecommunications systems. Space for collections and equipment 
belonging to the Historical Office and Office of Conservation and 
Preservation will also be provided.
    An important preservation project in 2004 involved 19th century 
editions of the Annals of Congress--the official record of 
congressional debate from 1789-1824. Multiple sets were carefully 
examined to identify the best candidates for preservation. The selected 
sets were cleaned, wrapped, boxed, and labeled for eventual rebinding. 
Another aspect of collection maintenance is binding contemporary 
materials for permanent retention. These materials include the 
Congressional Record, Federal Register, and committee publications. In 
2004, five shipments of 685 volumes were processed for binding at GPO.
Administrative
            Budget
    Budget reductions in 2004 totaled $11,009.52. Eight years of 
aggressive budget monitoring has resulted in reductions totaling 
$70,940.37. Continual review of purchases has eliminated materials that 
do not meet the Senate's current information needs. This oversight is 
also critical in offsetting cost increases for core materials and for 
acquiring new materials. The goal is to provide the highest service 
level using the latest technologies and best resources in the most 
cost-effective way.
            Professional Staff Development
    During 2004, Library staff participated in 124 training sessions, 
workshops, conferences, tours, and professional development seminars. 
The emphasis on continuing education and training is necessary to 
maintain and upgrade skill levels, particularly in the ever-changing 
field of technology. In addition to classes on news and legal 
databases, staff attended technical training sessions that included Web 
design, Internet research, taxonomy construction, cataloging 
techniques, and book preservation. Senior staff also conducted several 
review sessions on the application of cataloging rules.
    Library staff toured the Senate Page School, the National Archives, 
and several Library of Congress divisions including Maps, Photographs 
and Prints, Loan, and Recorded Sound. Staff also attended several 
professional conferences including Computers in Libraries, Federal 
Depository Library, and the American Association of Law Libraries.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum staff coordinated a photo of the entire Secretary's staff, the 
first since April 1994. The photo was published in the Autumn 2004 
issue. The Secretary's quarterly newsletter, produced by Senate Library 
staff since May 2000, is a continued success. With distribution to 
approximately 1,200 readers, Unum serves as an historic record of 
accomplishments, events, and personnel in the Office of the Secretary 
of the Senate.
Major Library Goals for 2005
    Acquire an XML editing tool for Web publishing.
    Implement an organizational structure for the library's home page 
on Webster.
    Complete integration of library resources onto the Secretary's 
network.
    Implement an LIS standard for committee hearing data entry.
    Transfer 20,000 volumes to the new warehouse.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2004--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         25         67        275        103        192         15         74        113        839
February.............................................          5         30        176         76        204         14         68        112        680
March................................................         20         69        243        103        313         25        208        202      1,163
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         50        166        694        282        709         54        350        427      2,682
                                                      ==================================================================================================
April................................................         14         70        171         56        212         15        138        292        954
May..................................................         33         75        167          0        334         27         88        158        849
June.................................................         18         51        151          6        331         20        119        192        870
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         65        196        489         62        877         62        345        642      2,673
                                                      ==================================================================================================
July.................................................         16         62        237          0        281         32         77        295        984
August...............................................         12         37        134        166        392         23         80        316      1,148
September............................................         15         42        222        242        233         14         61        354      1,168
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................         43        141        593        408        906         69        218        965      3,300
                                                      ==================================================================================================
October..............................................         15         90        160         43        203         10        115        289        910
November.............................................         30         66        173         80        252         16         75        343      1,005
December.............................................         22         57        220        110        233          6         68        289        983
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         67        213        553        233        688         32        258        921      2,898
                                                      ==================================================================================================
      2004 Total.....................................        225        716      2,329        985      3,180        217      1,171      2,955     11,553
      2003 Total.....................................        355      1,034      2,484        992      3,171        266        596      3,155     11,698
                                                      ==================================================================================================
Percent Change.......................................     -36.62     -30.75      -6.24      -0.71      +0.28     -18.42     +96.48      -6.34      -1.24
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2004--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Bibliographic Records Cataloged
                                                                      S.    ------------------------------------------------------------------
                                                                   Hearing              Government Documents     Congressional Publications      Total
                                                                   Numbers             -------------------------------------------------------  Records
                                                                   Added to    Books                                                  Docs./   Cataloged
                                                                     LIS                  Paper      Fiche     Hearings    Prints     Pubs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.........................................................         21         97          5          0        327          7         20        456
February........................................................         39         16          1          0        188        108         60        373
March...........................................................         12         22          5          0        393          2         60        482
                                                                 ---------------------------------------------------------------------------------------
      1st Quarter...............................................         72        135         11          0        908        117        140      1,311
                                                                 =======================================================================================
April...........................................................          2         32          6          1        221          6         45        311
May.............................................................         15         30          4          0        267          0         65        366
June............................................................          5         33          2          0        284         19         65        403
                                                                 ---------------------------------------------------------------------------------------
      2nd Quarter...............................................         22         95         12          1        772         25        175      1,080
                                                                 =======================================================================================
July............................................................          3         24          8          0        338          2         35        407
August..........................................................         26         28          5          8        187          6         21        255
September.......................................................         24         81          5          0        277          4         75        442
                                                                 ---------------------------------------------------------------------------------------
      3rd Quarter...............................................         53        133         18          8        802         12        131      1,104
                                                                 =======================================================================================
October.........................................................         17         23          9          9        385          0         60        486
November........................................................         67         21         28          7        186          7         69        318
December........................................................          9         18         10         16        276          3         87        410
                                                                 ---------------------------------------------------------------------------------------
      4th Quarter...............................................         93         62         47         32        847         10        216      1,214
                                                                 =======================================================================================
      2004 Total................................................        240        425         88         41      3,329        164        662      4,709
      2003 Total                                                        221        618        159         81      2,713        490        294      4,355
                                                                 =======================================================================================
Percent Change..................................................      +8.60     -31.23     -44.65     -49.38     +22.71     -66.53    +125.17      +8.13
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2004--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                     Volumes  Materials  Facsimiles   Center Pages      Pages
                                                     Loaned   Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January...........................................       125        219        173           523         5,128
February..........................................       148        227         81           421         6,320
March.............................................       222        376        260           599         9,834
                                                   -------------------------------------------------------------
      1st Quarter.................................       495        822        514         1,543        21,282
                                                   =============================================================
April.............................................       152        288        160           318        11,705
May...............................................       210        283        158           143         8,444
June..............................................       195        308        208           707        12,818
                                                   -------------------------------------------------------------
      2nd Quarter.................................       557        879        526         1,168        32,967
                                                   -------------------------------------------------------------
July..............................................       193        322        235           640         5,435
August............................................       179        260        112           275         9,588
September                                                215        240        175           225         8,009
                                                   -------------------------------------------------------------
      3rd Quarter.................................       587        822        522         1,140        23,032
                                                   =============================================================
October...........................................       220        241        112           146         7,983
November..........................................       168        259        112           323         7,250
December..........................................       138        242        118           202         7,122
                                                   -------------------------------------------------------------
      4th Quarter.................................       526        742        342           671        22,355
                                                   =============================================================
      2004 Total..................................     2,165      3,265      1,904         4,522        99,636
      2003 Total..................................     1,664      4,078      2,747         6,945       156,891
                                                   =============================================================
Percent Change....................................    +30.11     -19.94     -30.69        -34.89        -36.49
----------------------------------------------------------------------------------------------------------------

                         11. senate page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues until December 31, 2008.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 4, 2004, and January 14, 
2005, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2004 and Fall 2004 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    Extended educational experiences were provided to pages. Twenty-one 
field trips, two guest speakers, opportunities to compete in writing 
and speaking contests, to play musical instruments and vocalize, and to 
continue foreign language study with the aid of tutors of four 
languages were all afforded pages. Nine field trips to educational 
sites were provided for summer pages as an extension of the page 
experience. National tests were administered for qualification in 
scholarship programs as well.
    Effective and efficient communication and coordination among SAA, 
Secretary, Party Secretaries, Page Program, and Page School continues.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel in Afghanistan, Iraq, and the USO in 
Frankfurt, Germany where distribution of the boxes to troops en route 
to war zones take place. Pages included letters of support to the 
troops serving in Operation Enduring Freedom. Several recipients of 
gift packages wrote letters to Pages expressing appreciation.
    The evacuation and COOP plans have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    Staff and pages participated in escape hood training.
    Tutors were trained in evacuation procedures.
    Updated materials/equipment were purchased. These included math 
software, ten graphing calculators, supplemental English textbooks, a 
chemistry textbook, and three pieces of equipment to provide for 
computer experiments in science.
    Faculty have pursued learning opportunities. The entire faculty and 
principal attended a Learning and the Brain conference. Michael Bowers, 
history instructor, participated in a seminar conducted in 
Williamsburg, VA: ``The Unpleasantness in the Colonies: The American 
Revolution From A British Perspective.'' Raymond Cwalina, math 
instructor, completed three graduate courses in mathematics and 
attended an Advanced Placement calculus seminar. He also attended the 
regional and national conventions of the National Council of Teachers 
of Mathematics.
    Facility re-design to maximize space was completed.
    Upgrading science laboratory equipment was accomplished which 
allows computer labs to be performed and reduces quantities of supplies 
used.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, and Latin.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --Staff development options will include attendance at a technology 
        conference, seminars conducted by the Joint Office of Education 
        and Training, and subject matter conferences conducted by 
        national organizations.
  --The community service project will continue.
                   12. printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering and preparing Senate 
legislation, hearings, documents, committee prints and miscellaneous 
publications for printing, and provides printed copies of all 
legislation and public laws to the Senate and the public. In addition, 
the office assigns publication numbers to all hearings, committee 
prints, documents and other publications; orders all blank paper, 
envelopes and letterhead for the Senate; and prepares page counts of 
all Senate hearings in order to compensate commercial reporting 
companies for the preparation of hearings.
Printing Services
    During fiscal year 2004, the OPDS prepared 4,515 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. Since the 
requisitioning done by the OPDS is central to the Senate's printing, 
the office is uniquely suited to perform invoice and bid reviewing 
responsibilities for Senate printing. As a result of this office's cost 
accounting duties, OPDS reviews and assures accurate GPO invoicing and 
plays an active role in providing the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling and job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices, from the 
Curator, Historian, Disbursing, Legislative Clerk, and Senate Library 
to the U.S. Botanic Garden, U.S. Capitol Police and Architect of the 
Capitol. These tasks include providing guidance for design, paper 
selection, and specifications for quotations, monitoring print quality 
and distribution. Last year's major printing projects included the 
Report of the Secretary of the Senate, the Semiannual Report of the 
Architect of the Capitol and a variety of printed materials required 
for the Presidential Inauguration including invitations, parking 
passes, maps, tickets and signage. The office also provided guidance 
and informational packets for new Senate office staff. Current major 
projects for the office include a full color version of the ``History 
of the U.S. Botanic Garden 1861-1991'' and the ``U.S. Senate Catalogue 
of Graphic Art'' a companion volume to the fine art catalogue produced 
by the Senate Curator's office in 2003.
Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. The OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate.
    During 2004, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 787 billing verifications of 
Senate hearings and business meetings. This translated to an average of 
41.4 hearings/meetings per committee, an eight percent decrease from 
2003, typical of an election year. Over 56,000 transcribed pages were 
processed at a total billing cost of approximately $367,000.
    The OPDS utilizes a program developed in conjunction with the 
Senate Sergeant at Arms Computer Division that provides more billing 
accuracy and greater information gathering capacity, and adheres to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services. During 2004 the office reached its goal of 
increasing efficiency and accuracy by processing all file transfers 
between committees and reporting companies electronically. Department 
staff continue training to apply today's expanding digital technology 
to improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                  Percent change
                                                       2002            2003            2004          2004/2003
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             953             975             787            -8.0
Average per Committee...........................              50            51.3            41.4            -8.0
Total Transcribed Pages.........................          71,558          70,532          56,262            -8.0
Average Pages/Committee.........................           3,766           3,712           2,961            -8.0
Transcribed Pages Cost..........................        $471,807        $461,807        $366,904            -8.0
Average Cost/Committee..........................         $24,832         $24,288         $19,311            -8.0
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within the OPDS is staffed by 
experienced GPO detailees that provide Senate committees and the 
Secretary of the Senate's Office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
Document Services Distribution, Inventory & On Demand Publication
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands. The Congressional Record, a printed record of Senate 
and House floor proceedings, Extension of Remarks, Daily Digest and 
miscellaneous pages, is one of the many printed documents provided by 
the office on a daily basis.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2002            2003            2004
----------------------------------------------------------------------------------------------------------------
Pages Printed:
    For the Senate..............................................          14,489          16,835          12,642
    For the House...............................................          15,201          16,259          14,243
                                                                 -----------------------------------------------
      Total Pages Printed.......................................          29,690          33,094          26,885
                                                                 ===============================================
Copies Printed & Distributed:
    To the Senate...............................................         439,953         307,917         227,192
    To the House................................................         301,383         441,735         331,165
    To the Executive Branch and the Public......................         532,813         449,750         323,957
                                                                 -----------------------------------------------
      Total Copies Printed & Distributed........................       1,268,603       1,199,402         882,314
                                                                 ===============================================
Production Costs:
    Senate Costs................................................      $6,339,539      $9,886,805      $7,961,741
    House Costs.................................................      $6,609,307      $9,563,592      $9,026,893
    Other.......................................................        $539,535        $693,141        $555,010
                                                                 -----------------------------------------------
      Total Production Costs....................................     $13,488,381     $20,143,538     $17,543,644
                                                                 ===============================================
Costs Per Copy Cost.............................................          $12.14          $16.79          $19.88
----------------------------------------------------------------------------------------------------------------

    Although accessing legislative documents through the Internet is 
popular, there is still a strong need for printed documents, especially 
for larger sized legislation like the omnibus conference reports. The 
OPDS continually tracks demand for all classifications of congressional 
legislation and twice yearly adjusts the number of documents ordered in 
each category to closely match demand. Document waste has decreased 
significantly over the past several years.
    The office supplements depleted legislative documents where needed 
by producing additional copies in the DocuTech Service Center which is 
staffed by experienced GPO detailees that provide Member offices and 
Senate committees with on-demand printing and binding of bills and 
reports. In March 2004, the office coordinated the installation of a 
new and improved DocuTech high speed digital copier and production 
publisher. This machine helps to decrease the quantities of documents 
printed directly from GPO and increases the ability to reprint 
documents on-demand on a larger scale. In 2004, the DocuTech Center 
produced 471 tasks for a total of 660,554 printed pages. The DocuTech 
is networked with GPO allowing print files to be sent back and forth 
electronically, which provides an advantage of quickly printing 
necessary legislation for the Senate floor and other offices in the 
event of a GPO COOP situation.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility and this 
office's dedication and assistance to the general public, the press, 
and other government agencies is virtually indistinguishable from the 
services provided to the Senate. Requests for material are received at 
the walk-in counter, through the mail, by fax, and online. In addition, 
the office handled over 20,000 phone calls in 2004 pertaining to 
document requests and legislative questions. Recorded messages, fax, 
and e-mail operate around the clock and are processed as they are 
received along with mail requests. The office stresses prompt, 
courteous and accurate answers to the various public and Senate 
requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                           Congress/    Public      FAX                 Counter
                      Calendar year                         session      mail     request     E-mail    request
----------------------------------------------------------------------------------------------------------------
2002.....................................................    107/2nd      3,637      1,866        662     55,930
2003.....................................................    108/1st      1,469      2,596        735     53,040
2004.....................................................    108/2nd      1,137      2,229        564     36,780
----------------------------------------------------------------------------------------------------------------

On-line Ordering
    The past year has brought significant changes in providing new 
services and improving existing ones. In 2004 many more Senate offices 
have taken advantage of the on-line blank paper ordering system 
implemented in 2003. With help from the Secretary's Office of Web 
Technology Department, OPDS expanded its content on senate.gov 
including new links to other sources of legislative information. The 
ability to order documents on-line, once reserved for staff only, has 
been opened for public use. The Legislative Hot List Link, where 
Members and staff can confirm arrival of printed copies of the most 
sought after legislative documents is still very popular. The site is 
updated several times daily--each time new documents arrive from GPO in 
the Document Room. The Office of Printing and Document Services 
continues to seek new ways to use technology to assist Members and 
staff with added services and improved access to information.
                      13. office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October 2003, through September 2004, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. Additional assistance 
was provided by telephone, and given to lobbyists attempting to comply 
with the provisions of the Lobbying Disclosure Act of 1995. A total of 
93,655 photocopies was sold in the period. In addition, the office 
works closely with the Federal Election Commission, the Senate Select 
Committee on Ethics and the Clerk of the U.S. House of Representatives 
concerning filing requirements.
Fiscal Year 2004 Accomplishments
    The Public Records office revised and improved the lobbying pages 
on senate.gov based upon recommendations of an independent survey of 
North American disclosure web sites. The office also completed 
transition to the next generation of server hardware. During the ricin 
incident, the office COOP plan was activated and operational in three 
hours.
Plans for Fiscal Year 2005
    The office intends to develop on-site redundancy in conjuncture 
with other offices under the Office of the Secretary that have scanning 
functions. The office also plans to modernize the on-site public access 
software.
Automation Activities
    During fiscal year 2004, the Senate Office of Public Records 
automated the Foreign Travel Reports filed under the Mutual Security 
Act of 1954. This is the first time that these records have been 
automated. The value to the Senate is that in the event of a COOP 
activation, they become easily accessible off-site.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports, and 
pre and post election reports in the case of candidates running for 
office in 2004. Filings totaled 4,677 documents containing 290,592 
pages.
Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2004, 6,231 registrants represented 19,758 
clients and employed 30,402 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports was 51,496.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 17, 
2004. The reports were available to the public and press by Friday, 
June 11th. Copies were provided to the Select Committee on Ethics and 
the appropriate state officials. A total of 2,692 reports and 
amendments were filed containing 15,695 pages. There were 328 requests 
to review or receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received over 1,392 reports 
during fiscal year 2004.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 519.
                          14. senate security
Introduction
    The Office of Senate Security (OSS) was established under the 
Secretary of the Senate by Senate Resolution 243 (100th Congress, 1st 
Session). The Office is responsible for the administration of 
classified information security programs in Senate offices and 
committees. In addition, OSS serves as the Senate's liaison to the 
Executive Branch in matters relating to the security of classified 
information in the Senate.
Personnel Security
    Five hundred twenty-three Senate employees held one or more 
security clearances at the end of 2004. This number does not include 
clearances for employees of the Architect of the Capitol nor does it 
include clearances for Congressional Fellows assigned to Senate 
offices. OSS also processes these clearances.
    In the past year, OSS processed 1,904 personnel security actions, a 
21.3 percent decrease from 2003. One hundred twenty-two investigations 
for new security clearances were initiated last year, and 61 security 
clearances were transferred from other agencies. Senate regulations, as 
well as some Executive Branch regulations, require that individuals 
granted Top Secret security clearances be reinvestigated at least every 
five years. Staff holding Secret security clearances are reinvestigated 
every ten years. During the past year, reinvestigations were initiated 
on 62 Senate employees. OSS processed 137 routine terminations of 
security clearances during the reporting period and transmitted 310 
outgoing visit requests. The remainder of the personnel security 
actions consisted of updating access authorizations and compartments.
    The length of time required for the Department of Defense (DOD) and 
the Federal Bureau of Investigation (FBI) to process Senate staff for 
security clearances has increased from 207 days to 260 days. The 
average time for investigations has increased by 25.6 percent relative 
to 2003. Since the previous increase for 2002 to 2003 was 66.7 percent, 
this represents a very significant increase in the last two years. The 
average time for an initial investigation conducted and adjudicated by 
the Department of Defense (DOD) is 256 days from the date that OSS 
requests the investigation until the letter from DOD granting the 
clearance is received in Senate Security. The average time for DOD 
initial investigations increased 30.6 percent. The periodic 
reinvestigation process averages 270 days, a increase of 2.7 percent 
relative to 2003. The average time for an initial investigation 
conducted by the Federal Bureau of Investigation (FBI) and adjudicated 
by DOD is 252 days while the periodic reinvestigation process averages 
264 days. The FBI times represent an decrease of 5.6 percent and 29.0 
percent respectively.
    Two hundred seven records checks were conducted at the request of 
the FBI. This represents a 4.0 percent increase in records checks 
completed by OSS.
Security Awareness
    OSS conducted or hosted 63 security briefings for Senate staff. 
Topics included information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 20.3 
percent decrease from 2003.
Document Control
    OSS received or generated 2,802 classified documents consisting of 
86,109 pages during calendar year 2003. This is a 5.0 percent increase 
in the number of documents received or generated in 2003. Additionally, 
63,750 pages from 2,670 classified documents no longer required for the 
conduct of official Senate business were destroyed. This represents an 
18.2 percent decrease in destruction. OSS transferred 1,185 documents 
consisting of 43,970 pages to Senate offices or external agencies, up 
57.2 percent from 2003. These figures do not include classified 
documents received directly by the Appropriations Committee, Armed 
Services Committee, Foreign Relations Committee, and Select Committee 
on Intelligence, in accordance with agreements between OSS and those 
Committees. Overall, Senate Security completed 6,657 document 
transactions and handled over 193,829 pages of classified material in 
2004, a decrease of 0.4 percent.
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of multiple storage areas throughout the Capitol 
and Senate office buildings, thereby affording greater security for 
classified material.
Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,145 occasions 
during 2004. Use of OSS conference facilities decreased 16.7 percent 
from 2003 levels. Six hundred seventy-three meetings, briefings, or 
hearings were conducted in OSS' three conference rooms. Of those, nine 
were ``All Senators'' briefings and five were hearings. OSS also 
provided to Senators and staff secure telephones, secure computers, 
secure facsimile machine, and secure areas for reading and production 
of classified material on 472 occasions.
                          15. stationery room
    The mission of the Keeper of the Stationery is:
  --To sell stationery items for use by Senate offices and other 
        authorized legislative organizations.
  --To select a variety of stationery items to meet the needs of the 
        Senate on a day-to-day basis and maintain a sufficient 
        inventory of these items.
  --To purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules.
  --To maintain individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate.
  --To render monthly expense statements.
  --To insure receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process.
  --To make payments to all vendors of record for supplies and services 
        in a timely manner and certify receipt of all supplies and 
        services.
  --To provide delivery of purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2004            2003
                                            Statistical     Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales.............................      $4,740,221      $4,843,716
Sales Transactions......................          58,682          61,140
Purchase Orders Issued..................           6,741           7,545
Vouchers Processed......................           7,485           8,689
Metro Fare Media Sold...................          67,836          52,279
    $20.00 Media........................          60,564          46,260
    $10.00 Media........................           4,124           3,023
    $5.00 Media.........................           3,148           2,996
                                         ===============================
Full Time Employees (FTE)...............              13              13
------------------------------------------------------------------------

Fiscal Year 2004 Highlights and Projects
    Communications.--The Stationery Room stressed communication with 
the Administrative Managers Steering Group to keep in touch with the 
customers' needs.
    Flag Modernization Project.--The Stationery Room was tasked to 
serve on a committee with the other three business unit owners of the 
flag process. This effort was facilitated by staff of the Senate 
Sergeant at Arms and a consultant. The consultant was contracted by the 
SAA to outline all of the processes involved and to identify how each 
user of the process interacted with the other business unit owners. The 
consultant was also tasked to make recommendations to streamline the 
process.
    Mass Transit Electronic FORM.--During the first quarter of the 
fiscal year, the Stationery Room began a pilot project to expedite and 
streamline the purchase processes of the Mass Transit Subsidy Program. 
Evolving from the pilot, the concept was to develop a Web-based 
application that could provide the same functionality and ease of use 
by the Program Administrators, yet be supported within the Senate 
community. In cooperation with the SAA IT Development Group, the 
application was written as a Web-based product. This electronic version 
is now being deployed through the use of the Senate's intranet server.
    Computer Modernization Project.--During the first half of fiscal 
year 2004, Stationery Room staff spent considerable time working with a 
consultant to develop a requirements document, to outline the 
technological needs of the Department in order to move from technology 
now two decades old to a more robust application. As a result of the 
requirements document, in May 2004, Stationery Room staff began working 
with key staff members of the Secretary's Executive Office and the SAA 
Procurement staff to develop a ``Statement of Work'' to be used for the 
Request for Proposal phase and awarding of a contract. In September 
2004, a contract was executed to provide software tailored to the needs 
of the Senate Stationery Room.
    Warehouse Project.--The Senate Stationery Room has been involved in 
this long-term SAA project. The project mission was to determine the 
warehouse needs by each business user and then find a facility to meet 
those needs. Current usage, along with future requirements were 
determined with the assistance of SAA staff and consultants. 
Additionally, the Stationery Room took the opportunity to factor in 
COOP requirements that could support this department should a 
displacement occur.
                           16. web technology
    The Office of Web Technology is responsible for web sites that fall 
under the purview of the Secretary of the Senate, including: the Senate 
Web site, www.senate.gov (except individual Senator and Committee 
pages); the Secretary web site on the Senate intranet, Webster; an 
intranet site currently used for file-sharing by Secretary staff only; 
and a LegBranch web server housing web sites and project materials 
which can be accessed by staff at other Legislative Branch agencies.
Senate Web Site (www.senate.gov)
    Senate Web site content is maintained by over 30 contributors from 
7 departments of the Secretary's Office and 3 departments of the 
Sergeant at Arms. Throughout 2004, senate.gov content providers focused 
on fine-tuning and reorganizing content for usability, based on 
personal experience and feedback from the public. Collaboration 
continued throughout the year resulting in the coordinated posting of 
monthly feature articles in the major areas of the site.
    Several new items were added to the site as well, including: A new 
subsection in the Reference Section called ``Statistics & Lists''; the 
Placement Office web page posting their brochure & employment bulletin; 
and a collection of several Classic Senate Speeches.
    Activities contemplated and/or underway at year's end include: A 
search feature, already available to Senate offices for use on their 
own sites; a redesign of the Homepage, bringing additional content up 
to the front page; several multimedia/animated presentations: The 
Political Cartoons of Puck--completed and soon to be posted; the 
Drawings of Lily Spandorf--75 percent complete; and Issac Bassett's 
papers Senate Desks Redesign and expansion of the Virtual Tour.
    The Senate Web site (www.senate.gov) content is managed using the 
Documentum Web Content Management System which allows content providers 
to create and post information to the web site without knowing the 
format language of the web, HTML. The Department of Web Site Technology 
completed several system-enhancing development projects in 2004.
  --Creation of a Java Servlet Page (JSP) Slideshow application
  --Development of templates for Statistical Tables
  --Authoring in XML--The Cloture Motions Project
  --Sending Graphic Art Prints Data to GPO
  --Upgrading Documentum 4i to Documentum 5i
  --Publishing to Webster from Documentum--the Library Catalogers 
        Project
    Below is a description of several projects and how specific 
problems were solved or the Documentum content management system was 
enhanced to provide more functionality for the content providers.
JSP Slideshow
    The Request: Several offices requested a slideshow application 
where images could be shown in an effective and interesting manner. The 
original template was designed for the Inaugural Print Objects the 
Curator's Office planned to exhibit for the inauguration.
    The Solution: All needed objects from the Curator's database were 
exported into an XML format. Then, using another style sheet, 
individual XML files and all associated files (five different-sized 
graphics for each print, and an XML file that contains descriptive 
information about the graphics and links the graphics to the CMS 
object) were created. This method was highly effective since it allows 
the Curator's Office to keep information only in one place and then 
offers unlimited repurposing of this information by sending the data in 
an XML format to the Content Management System.
    The Slideshow template makes an actual JSP, java servlet page, file 
that includes all necessary information about the slideshow. This 
project was the first time JSP technology was used on the Senate's 
central site, which was recently made possible through the upgrade of 
the Cold Fusion Application Server. Besides being able to offer users 
more interaction, and thus a more enjoyable web visit, using JSP 
technologies was also a proof of concept for using Java through Cold 
Fusion.
    Individual instances of the slideshow template were made for each 
inauguration in the exhibit, 1853-1905. The Curator's Office can easily 
modify the data in any part of the exhibit without knowledge of web 
technologies. The final aspect of this project was to make a slideshow 
of the slideshows, thus connecting each small slideshow into one large 
cohesive exhibit. This was done through the modification of the 
original slideshow template to allow seamless integration as users 
click through the exhibit.
            Moving Forward:
    The Curator's Office has already found other uses for the slideshow 
template, such as a timeline for the unveiling of two portraits in the 
Senate Reception Room and is now in the midst of an exhibit on Daniel 
Webster. The slideshow template has been enhanced in several different 
ways to allow for other purposes. The Historical Office used a simpler 
version for their Capitol Scenes: 1900-1950, on-line exhibit. The 
Historical Office also plans to use a slightly modified version of this 
same template for two upcoming online exhibits.
    Many more slideshows will be appearing on the Senate web site 
through the extension of the JSP Slideshow template.
            Examples:
    ``I Do Solemnly Swear'': A Half Century of Inaugural Images http://
www.senate.gov/artandhistory/art/common/image_collection/inauguration_
slideshow.htm
    Capitol Scenes: 1900-1950 RLINK"http://www.senate.gov/
artandhistory/history/common/slideshow/capitol_scenes.jsp" http://
www.senate.gov/artandhistory/history/common/slideshow/
capitol_scenes.jsp
    Vandenburg and Wagner Time Line http://www.senate.gov/
artandhistory/art/common/slideshow/vandenburg_wagner.jsp
    Daniel Webster Objects http://www.senate.gov/artandhistory/art/
common/slideshow/daniel_webster.jsp
Statistical Tables
    The Request: The Senate Library requested a way to post their 
statistical information online. None of the currently existing 
templates gave them the control they desired for their information.
    The Solution: New content templates were created specifically for 
tables. These ranged from two-column tables up to seven-column tables 
that offer controls to the content authors on how the information is 
displayed. For example, they can choose to have a print friendly 
version, if the information is applicable, or to include standard 
header information, which is encapsulated separately and thus reusable, 
or to display vertical lines to make the information more readable.
    This office worked very closely with the Senate Library to make 
these various table templates work for all their complex information 
needs. Through XML we are able to offer multiple renditions of the same 
information for different displays (i.e., viewing online, printing, or 
pdf formats). This solution greatly appealed to the librarians since it 
now enables them to update the information in just one file and have 
all the various presentations of this information updated automatically 
from their one source file.
            Moving Forward:
    The Senate Historical Office has plans to begin using these same 
templates to disseminate some of their data well suited for a table. 
Additionally, they would like to have more renditions made from the 
same data source, XML file, such as a rich text format (RTF) for 
internal use.
    The Senate Curator's Office has asked for the same abilities, 
arranging data in columns for some of their information. Pieces of the 
program for the original tables have been reused to accomplish their 
goals.
            Examples:
    Statistics & Lists Home Page (two-column) http://www.senate.gov/
pagelayout/reference/two_column_table/stats_and_lists.htm
    Measures Proposed to Amend the Constitution (three-column) http://
www.senate.gov/pagelayout/reference/three_column_table/
measures_proposed_ to_amend_constitution.htm
    Votes by Vice Presidents to Break Tie Votes in the Senate (four-
column) http://www.senate.gov/pagelayout/reference/four_column_table/
Tie_Votes.htm
    Sunday Sessions of the Senate (since 1861) (five-column) http://
www.senate.gov/pagelayout/reference/five_column_table/
Sunday_Sessions.htm
    George W. Bush Cabinet Nominations (six-column) http://
www.senate.gov/pagelayout/reference/six_column_table/Bush_cabinet.htm
    Inaugural Luncheons (Curator's Office) http://
wip.cmsprod.senate.gov/artandhistory/art/common/collection_list/
inaugural_luncheons.htm
Authoring in XML--The Cloture Motions Project:
    The Request: The Senate Library maintains statistical information 
on the various Cloture Motions filed during a Congress. This 
information is very complicated in terms of the special cases that 
occur with these proceedings. This statistical information is highly 
sought after and required in several different formats. Due to the 
complexity of this information none of the previously created table 
templates would suffice and a new solution was requested.
    The Solution: The seven-column table template was used as a base 
for the cloture motion tables. Using the advances made in the seven-
column table we were able to greatly reduce the development time of the 
cloture motion table template.
    One of the major obstacles to overcome was how to fit all the 
information within the normal width of the screen. We worked very 
closely with the Library Staff to find a solution acceptable to all. 
These solutions included using footnotes for certain sections, legends, 
hyperlinks to measures and bills, and customized codes for indenting 
and spacing issues. These are highly specialized tables that contain 
advanced business logic to most accurately display the information in a 
very useful manner.
    Since this information is so useful to a variety of organizations 
we also enabled the publishing of the XML document directly. This 
allows other groups to take the data maintained by the Senate 
librarians and to utilize the data in a manner most efficient for them 
(i.e., database querying and RSS feeds). Organizations can access this 
information online, so no files will need to be transferred through 
other means, and the most current information is always available.
    An additional advance accomplished through this project was the 
authoring of the XML data. Since many cloture motions may exist in a 
single Congress and each one can contain a great deal of information it 
became impractical to use the XML editor that came packaged with the 
Content Management System. We explored several other options for the 
librarians to edit the data and came up with two solutions that are 
acceptable to all offices involved.
            Moving Forward:
    Information that changes often, is displayed in several different 
formats, and that could possibly be used by other organizations is an 
excellent candidate for XML technologies. Creating the XML application 
that delivers Active Legislation/Hot Bills information to 
www.senate.gov and INK"http://webster"http://webster was a springboard 
for this application. As content authors experience the reduction of 
tedious work, updating the same information in many files, more and 
more of these types of XML applications will prove themselves 
invaluable. The Library is always adding additional categories of 
information they maintain that would be enhanced through these 
applications. Additionally, the Historical Office would like to keep 
similar information in a rich text format (RTF) to be used by word 
processors. This is a relatively simple extension of the already 
existing application.
            Examples:
    Cloture Motions--108th Congress http://wip.cmsprod.senate.gov/
pagelayout/reference/cloture_motions/test_108_2.htm
    Cloture Motions--108th Congress (Print Version) http://
wip.cmsprod.senate.gov/pagelayout/reference/cloture_motions/
test_108_2.shtml
    Cloture Motions--108th Congress (Raw XML Data) http://
wip.cmsprod.senate.gov/pagelayout/reference/cloture_motions/
test_108_2.xml
Graphic Art Prints to GPO
    The Request: The Curator's Office needed to provide to the 
Government Printing Office the information about their graphic art 
prints for the Senate Graphic Art Catalogue. All information about the 
graphic art objects is currently maintained in their database. The 
titles of each one of these objects are very specific and have many 
styles applied to them inside the database to ensure their proper 
presentation. Upon exporting this information all the style information 
was lost and would have needed to be reentered. This opened up the 
possibility of unnecessary additional work for the Curator.
    The Solution: An XML application was developed that was able to 
preserve the styles of the data, along with all other relevant 
information. The first step was to export the data into XML. Then, 
using FileMaker Pro's built-in website functionality, a web page 
displaying only the object titles was created. Using a product that 
automates computer keystrokes, a program was written to cycle through 
each title on the generated website, copying each title to a Word 
document (still preserving style data), advancing one record, and 
repeating the process until it traversed through all 1,000 Graphic 
Print Objects. The Word document containing the titles was converted to 
an XML file using a third-party product and was merged with the 
original XML data export, thus producing one XML file with all the 
style information preserved.
    The final XML file was transformed into a word document and a PDF 
file sent to GPO. Development of this automated conversion process 
greatly reduced the amount of work that needed to be performed, 
decreasing the time required to generate the necessary data and 
improving the quality of the data sent to GPO.
            Moving Forward:
    Since the Curator's Office uses a FileMaker Pro database, which 
produces XML reports, this was a great proof of concept of how we can 
manipulate the data into necessary forms. Some third party software was 
used due to the complexity of the project, but the knowledge gained of 
these add-on XML tools will assist toward solving complex formatting 
and printing needs in the future.
Library Catalogers Publishing to Webster
    The Request: The cataloging group in the Senate Library wished to 
have certain pdf files and graphics of book covers available to the 
Senate Community. They wanted something that was easy to use and thus 
did not require much training.
    The Solution: We added a new cabinet to the Content Management 
System just to be used by the catalogers. Next, we created a new web 
publishing configuration to push the content from the newly created 
cabinet to the Secretary's portion of http://webster. This required the 
installation of software on the Webster Server, which we accomplished 
by working closely with the developers and administrators of that 
server.
            Moving Forward:
    Establishing this link between http://webster and our Documentum 
Content Management System opens up many possibilities for the future. 
We now could utilize the same system to manage the Secretary's portion 
of Webster. This would enable non-technical employees to control the 
information disseminated to Senate Staff without involving a 
programmer. Additionally we can add more complexity for the catalogers 
as their needs grow.
Web Site Activity Statistics
            Senate Web Site Statistics
    In 2003, only 24 percent of visitors to the site saw the main 
Senate Homepage, the majority coming to the site via a bookmarked page 
(possibly directly to their Senator's site) or to a specific page from 
a search engine. That figure rose to 35 percent in 2004, as more people 
found the main Senate Homepage. Statistics on individual page activity 
show substantial increases in all areas of the main Senate site.
    In 2004 the number of visitors to the entire web site (Senators' 
and Committees' sites included) increased about 9 percent, however, the 
number of visitors to the Senate Homepage increased by 57 percent.

----------------------------------------------------------------------------------------------------------------
                                                                  2003 Visitors/  2004 Visitors/      Percent
                        Title of Web Page                              Month           Month         Increase
----------------------------------------------------------------------------------------------------------------
Visits--Entire Site.............................................       3,029,666       3,293,721               9
Senate Homepage.................................................         734,094       1,152,367              57
Senators Home...................................................         264,190         273,841               4
Legislation & Records Home......................................          65,904          84,765              29
Committees Home.................................................          60,747          73,147              20
Reference Home..................................................          20,593          23,486              14
Art & History Home..............................................          14,807          20,413              38
Visitors Home...................................................          12,095          16,123              33
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on web page usage help the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. The main Senate homepage and 
the homepages of the six subject areas (buckets) receive the most 
visits as people navigate around the site (see chart above). Within the 
buckets we find that visitors are consistently drawn to the following 
content items, listed in order of popularity.

----------------------------------------------------------------------------------------------------------------
                                                                                                      Percent
                          2004 Top Pages                          2003 Visitors/  2004 Visitors/  increase 2003-
                                                                       Month           Month           2004
----------------------------------------------------------------------------------------------------------------
Roll Call Votes.................................................          34,860          39,408              13
Leadership Page.................................................          12,789          17,469              37
Active Legislation List.........................................          12,311          17,751              44
Session Schedule for 2004.......................................          10,121          15,219              50
Organization Chart..............................................          11,405          14,140              24
Committee Hearing Schedule......................................          10,552          13,318              26
Bill and Resolutions Page.......................................           7,289          12,806              76
Statistics & Lists..............................................  ..............          12,005         ( \1\ )
Congressional Record Page.......................................           5,247          11,899             127
Virtual Tour of the Capitol.....................................           7,335          11,052              51
Individual States Page..........................................           5,437          10,139              86
Calendars & Schedules...........................................           7,425          10,081              36
Historical Office Page..........................................           5,341           9,608              80
Nominations Page................................................           6,682           8,813              32
Virtual Reference Desk..........................................           4,561           7,182              57
----------------------------------------------------------------------------------------------------------------
\1\ New in 2004.

Webster Statistics
    Statistics for the Secretary's web site on Webster, the Senate 
Intranet, show that the vast majority of visitors go directly to the 
Disbursing Office section. This section contains information on 
Employee Benefits (insurance, retirement, payroll, etc.) and provides 
access to the many forms employees need to complete to obtain or modify 
these benefits. Other popular items include the Office of Printing and 
Document Services Document Order and Print Order Forms, and the page 
that lists all Secretary of the Senate services.
E-Mail to the Webmaster
    The nature of e-mail to the webmaster has changed over the past two 
years. The improved site navigation has reduced, to only one or two a 
day, the number of questions regarding how to find information on the 
main site. In late 2003 improved error-handling was added to the site 
to prevent a visitor from getting the standard ``page not found'' error 
when a broken link was encountered. A message is now displayed that 
provides the Webmaster's e-mail address and the visitor is 
automatically directed back to the main Senate Homepage or the 
Senator's Homepage, depending on where the error occurred. Many 
visitors take the opportunity to write the Webmaster alerting us to 
broken links. This, in turn, has fostered more communication between 
this office and Senators' System Administrators as we work together to 
clean up the broken links on the entire site.
Search Engine Implementation
    In 2003 a search engine was installed, configured, and tested for 
senate.gov. In 2004 testing has continued, focusing on how to improve 
the search results by adding or editing metadata associated with the 
content items. It was hoped that more relevant and standardized 
keywords, and better descriptions and titles would improve the 
relevance ranking of the search results. Further research and 
investigation is required as to how to configure the search engine for 
best results. Meanwhile, the search engine has been made available to 
Senate offices for use on their own web sites.
Training
    In December 2004 the Web Site Technology staff and several content 
providers in the Secretary's office joined SAA staff in an onsite three 
day XML class. In addition to teaching valuable technical skills and 
familiarizing staff with XML tools, this class gave content providers a 
good understanding of the power and scope of XML.
              legislative information system (lis) project
    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.
Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January, 2000, the LIS Project Office shifted its focus to the 
data standards program and established the LIS Augmentation Project 
(LISAP). The over-arching goal of the LISAP is to provide a Senate-wide 
implementation and transition to XML for the authoring and exchange of 
legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC) and the 
Office of the Enrolling Clerk. The XML authoring application is called 
LEXA, an acronym for the Legislative Editing in XML Application. LEXA 
features many automated functions that provide a more efficient and 
consistent document authoring process. The LIS Project Office has 
worked very closely with the SLC to create an application that meets 
the needs for legislative drafting.
    In early January 2004, LEXA was installed throughout the SLC, and 
the 40-member office of attorneys and staff assistants participated in 
a two-day training course, designed by a contractor, to transition from 
XyWrite to LEXA and from locator codes to XML. It takes several months 
for a drafter to learn to use XyWrite and the locator formatting codes. 
Following the two-day LEXA training course, SLC staff immediately began 
producing XML documents using LEXA, and the first XML draft to become a 
bill was introduced on January 22, 2004. The SLC first used LEXA to 
draft short and simple bills and resolutions, gradually adding longer, 
more complex documents. The SLC also offered valuable feedback 
throughout the year regarding LEXA's continued development as existing 
features were enhanced and additional document types, such as 
amendments and reported bills, were added to LEXA. Following the 
January training course, the contractor also created a reference 
manual. As new features were added to LEXA, the LIS Project Office 
continued to update the manual. The updated, comprehensive manual was 
distributed in January 2005. The manual provides screen shots and step-
by-step instructions for all LEXA features. The Office also developed 
additional training materials and provided a one day training session 
in December for all SLC staff on new LEXA features, including a one-
click process to change a document prepared for the 108th Congress to 
one for the 109th Congress. The SLC intends to use LEXA for as many 
drafts as possible and will gradually increase the number throughout 
2005. Through April 1, 2005, 75 percent of the 770 introduced and 
reported bills and resolutions for the 109th Congress have been created 
as XML documents.
    The LIS Project Office worked closely with several key House, 
Library of Congress, and Government Printing Office (GPO) groups 
involved in the XML project to ensure that changes to the House and 
Senate XML authoring applications do not adversely affect the exchange 
of electronic documents among all organizations processing the 
documents. A new document type definition (DTD) change and approval 
process was developed so that all parties have an opportunity to test 
and comment on all proposed changes to the exchange DTDs before changes 
are made and distributed.
    Another important joint project of Senate and House offices 
involves the conversion of locator documents to XML. The locator 
conversion software was recently updated to provide a more robust tool, 
and a joint project is underway to convert the compilations of current 
law to an XML format. The compilations are updated by both the House 
and Senate Legislative Counsel Offices and are used as the basis for 
many legislative drafts. The compilations conversion project will be 
completed by July 2005.
    As LEXA becomes more widely used in the SLC and other offices, 
support of the application becomes increasingly important. The 2004 
Legislative Branch Appropriations Act directed the GPO to provide 
support for LEXA much as they have for XyWrite for many years, and GPO 
has made steps toward providing that support. GPO purchased Xmetal, the 
base software, and installed LEXA in late July. In August, the LIS 
Project Office conducted two evenings of LEXA training for the second 
shift of GPO staff who support the bill printing process. GPO now uses 
LEXA to update XML documents as requested via the Senate Bill Clerk, 
and the XML drafts are used to create the printed and locator versions 
of bills. In October, GPO took over maintenance and support of the 
coding and style sheet portion of LEXA that converts an XML document to 
locator for printing through Microcomp. GPO has also developed a style 
sheet that is used to display XML documents on the LIS website 
(www.congress.gov) and on thomas.loc.gov. The XML display more closely 
resembles the printed version (without page and line numbers). House 
XML bills are currently being tested, and once a majority of Senate 
bills are available in XML, the Senate XML versions will be posted on 
LIS as well.
    The LIS Project Office provides support for LEXA via the LEXA 
HelpLine and LEXA web site. The HelpLine is provided through a single 
phone number that rings on all the phones in the office, and the 
website is located on a server accessible by the legislative branch. 
The website, legbranch.senate.gov/lis/lexa, is used to distribute 
updates of the application to GPO and provides access to release notes, 
the reference manual, and other user aids.
    The document management system (DMS) for the SLC will be 
implemented once the SLC has completed the transition from XyWrite to 
LEXA and a substantial number of drafts are created in XML. Since mid-
2004, the Systems Development Services group of the Office of the 
Sergeant at Arms has been working on updating the DMS to the most 
recent release of Documentum which was a major change for the base 
software of the DMS. The Systems Development Services group provides 
support and maintenance for the LIS/DMS, and that group will also 
support the DMS for the SLC once it is deployed. The LIS Project Office 
has been monitoring the upgrade effort and will contract for transition 
training to be developed and delivered prior to implementation. The DMS 
will be integrated with LEXA and will provide a powerful tracking, 
management, and delivery tool.
    The LIS Project Office will continue to work with the SLC to refine 
and enhance LEXA, including developing software to create and print 
conference reports and to use and update the XML versions of the 
compilations of current law. The team will next address the specific 
needs of the Office of the Enrolling Clerk. Additional functionality to 
produce engrossed bills and amendments and enrolled bills will be added 
to LEXA, and that office will receive training. Other Senate offices 
that do drafting with XyWrite may follow, including the Committee on 
Appropriations.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and reverified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN HANTMAN, ARCHITECT OF THE CAPITOL
    Senator Allard. I think we'll start, Mr. Hantman, with your 
testimony, and we may have to interrupt it shortly, but let's 
go ahead and see.
    Mr. Hantman. Thank you, Mr. Chairman. I, too, look forward 
to working with you as the new Chair of the subcommittee. 
There's an awful lot for us to talk about, and I certainly look 
forward to that opportunity to do so.
    I want to thank the subcommittee for its support in the 
past, without which we could not have completed many critical 
projects, continued to provide exemplary services, and assured 
continuity of operations in the U.S. Capitol, Senate office 
buildings, and throughout the Capitol complex.
    Mr. Chairman, the AOC has served Congress since 1793, the 
year President Washington helped lower the cornerstone into 
place and construction of the Capitol began. Today, the AOC's 
responsibilities include the care and maintenance of nearly 300 
acres and approximately 15 million square feet of historic 
buildings, which will soon include the Capitol Visitor Center.

                ARCHITECT OF THE CAPITOL STRATEGIC PLAN

    When we implemented our strategic plan 2 years ago, we 
developed four goals that guide us in setting priorities when 
submitting budget requests, balancing our workload, and 
assessing and measuring our accomplishments. As we work to 
achieve these goals, we evaluate our efforts to improve and 
excel in growing as an organization; thereby, meeting and 
exceeding customer expectations. Accordingly, we're requesting 
$506 million across all AOC-managed appropriations to provide 
operations and renovation activities, while also focusing on 
security, upgrading fire and life-safety elements, and 
addressing customers' requests and priorities.

                    FISCAL YEAR 2006 MAJOR PROJECTS

    Major capital projects included in this budget are the 
construction of Library of Congress storage modules 3 and 4 
that you mentioned, the planned construction of the U.S. 
Capitol Police offsite delivery center, the installation 
upgrade of fire and life-safety and security measures, 
completion of additional fire egress and protection projects, 
and a variety of other renovations and upgrades throughout the 
Capitol complex.
    Noteworthy, of course, is the Capitol Visitor Center 
project, which is the largest addition to the U.S. Capitol in 
its history, increasing the size of the existing building by 
some 70 percent. Included in the 580,000 square foot center is 
the construction of 170,000 square feet of expansion space for 
the Senate and House. Construction completion of the visitor 
center portion of the project is scheduled for September 2006.
    With regard to the Senate office buildings, in fiscal year 
2004 we completed 45,892 work orders requested by Senators and 
their staffs. So far this fiscal year, we have completed some 
22,250 Senate work orders to date. In addition, we've been 
working on a number of priority projects, including modernizing 
elevators, upgrading public restrooms, opening and maintaining 
the Senate staff exercise facility, completing election year 
moves in record time, and renovating, restoring, and upgrading 
several committee rooms to accommodate state-of-the-art 
equipment.
    With the increased need for perimeter security measures, 
we're installing new security features throughout Capitol Hill. 
In addition to bollards and other features compatible with 
Senate building design installed to date along Constitution 
Avenue, we anticipate similar installations to complete the 
outer Senate perimeter over the next 2\1/2\ years.

                       EMPLOYEE FEEDBACK PROGRAM

    Our strategic plan contains two goals which focus on our 
employees, while providing the highest-quality services. One of 
our objectives was to develop a comprehensive employee feedback 
program. Accordingly, in September 2004, I invited more than 
300 employees from across the AOC to participate in 25 focus 
group sessions. We asked them to identify problems and 
challenges, to help us find ways to solve them, and to make 
improvements within the organization. In October 2004, the 
Human Resources Management Division surveyed all employees, 
asking them to pinpoint specific areas where we needed to 
improve customer satisfaction. Our employees spoke, and we are 
listening.
    Over the next several months, we will be rolling out action 
plans, meeting with our employees to address the issues they 
raised, and share concerns, ideas, and suggested solutions with 
one another to continuously improve the organization.
    In conclusion, over the past several years, the AOC has 
undergone significant change, and we have reaffirmed our 
commitment to providing superior services for the Congress and 
the American people. My team of 2,000 dedicated employees and I 
are committed to fulfilling our objective, to ensure our 
continuous improvement across all of our areas of 
responsibility.
    Our request for funds for fiscal year 2006 supports our 
activities as good stewards to maintain and preserve the 
national treasures under our care, as well as to respond to our 
customers' requests for priority projects and programs. In 
addition, we continue to strive to achieve the level of safety, 
security, preservation, and cleanliness expected across the 
Capitol complex.
    We have completed tens of thousands of work orders, to our 
clients' satisfaction, and have achieved many of our goals due 
to the hard work and dedication of AOC employees. I am very 
privileged and honored to lead such a professional team. The 
subcommittee's support in helping us achieve these goals is 
greatly appreciated.

                           PREPARED STATEMENT

    Once again, I thank you for this opportunity to testify 
today. I'd be happy to answer any questions you might have. And 
good morning, Senator Durbin. Thank you for your support.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, Senator Durbin, members of the Committee, thank you 
for this opportunity to testify today. I want to thank the Committee 
for its support, without which we could not have completed many 
critical projects, continued to provide exemplary services, and assured 
continuity of operations in the U.S. Capitol, in the Senate Office 
Buildings, and throughout the Capitol complex.
    The Office of the Architect of the Capitol (AOC) has served 
Congress since 1793--the year President George Washington helped 
tradesmen lower the cornerstone into place and construction of the U.S. 
Capitol began. Since that time, the men and women who make up the AOC's 
workforce have focused on preserving, maintaining, and enhancing the 
national treasures entrusted to us. Today our responsibilities include 
the care and maintenance of approximately 300 acres and nearly 15 
million square feet of historic buildings, with the newest increment of 
growth being the upcoming Capitol Visitor Center (CVC).
                           strategic planning
    When we implemented our Strategic Plan two years ago, we developed 
four goals that encompass the primary responsibilities of our 
organization. They are: Facilities Management, Project Management, 
Human Capital, and Organizational Excellence. These goals drive our 
day-to-day activities. They guide us in setting priorities with regard 
to submitting budget requests, balancing our workload, and assessing 
and measuring our accomplishments. As we work to achieve these goals, 
we evaluate our efforts so we continue to excel, meet and exceed 
expectations, and grow as an organization.
                       overview of budget request
    The AOC fiscal year 2006 budget incorporates the needs of our 
clients, including the Library of Congress and the U.S. Capitol Police. 
We believe we have met the challenge of building a budget that supports 
stewardship of our national treasures, while balancing fiscal 
responsibility and the needs of the Congress. Our fiscal year 2006 
budget was developed to continue to provide routine operations and 
renovation activities while also focusing on security, upgrading fire 
and life-safety elements, addressing clients' requests and priorities, 
and identifying operational, transitional, and cost-to-complete needs 
associated with the CVC.
    Accordingly, we are requesting $506 million across all AOC managed 
appropriations ($438 million not including items specific to the House) 
for fiscal year 2006 to support the maintenance, care, and operations 
of the buildings and grounds of the Capitol complex, which consists 
primarily of the Capitol, Senate and House Office Buildings, Library of 
Congress, U.S. Capitol Police headquarters, Botanic Garden, and Capitol 
Power Plant. This includes a request for an operating budget of $280 
million ($242 million not including operations specific to the House), 
$17 million for annually funded projects, $137 million for capital 
projects ($107 million not including items specific to the House), $37 
million for the completion of the construction of the CVC, and $35 
million to transition to operating the CVC.
                            operating budget
    The request for an operating budget of $280 million (less CVC 
operations) includes mandatory payroll increases; price level 
inflationary increases for materials, services, and utilities, and 
other general operations increases. Additional increases in our 
operating budget incorporate client-driven requirements for leases of 
facilities and related operations and maintenance costs.
                         annual projects budget
    The fiscal year 2006 budget for annually funded projects totals $17 
million. Noteworthy proposed annual projects include: Copyright Office 
Move/Reconfiguration for the Library of Congress Buildings ($5.5 
million); Conservatory Claim for the Botanic Garden ($3.5 million); 
Restoration of East Front Bronze Doors for the Capitol Building 
($702,000); and the Upgrade Filtration Efficiency Project for the 
Library of Congress Buildings ($700,000).
                        capital projects budget
    Two key elements used in preparing our capital budget are the 
Capitol Complex Master Plan and the Facility Condition Assessments 
(FCAs). The Capitol Complex Master Plan identifies preservation and 
maintenance requirements for proposed new facilities, while FCAs 
determine preservation and maintenance requirements for existing 
facilities. Based on the Capitol Complex Master Plan and FCAs, all 
proposed and existing facility requirements feed into the Capital 
Improvement Plan (CIP) which prioritizes and incorporates project needs 
over a five-year period (fiscal year 2006 through fiscal year 2010).
    Accordingly, the CIP process was utilized in determining the fiscal 
year 2006 Capital Projects multi-year request of $122 million, $72 
million of which directly addresses specific client needs. Noteworthy 
proposed capital projects include:
  --The Library of Congress Modules 3 & 4 ($40.7 million) entailing the 
        construction of two environmentally-controlled storage 
        buildings to be located in Fort Meade for the storage of 
        Library of Congress collections.
  --The U.S. Capitol Police Off-Site Delivery Center ($23 million) 
        which includes the acquisition of land, design, and 
        construction of an off-site delivery facility.
  --Life-safety and security projects ($14.5 million) which include 
        requirements for emergency exit signs and lighting upgrades, 
        upgrades to air filtration systems, and building upgrades to 
        address other life-safety issues.
  --Fire egress and protection projects ($12.6 million) which address 
        deficiencies in egress from buildings, stairwells, and fire 
        wall boundary protection.
  --Renovation projects ($24.7 million) to include renovations in 
        emergency electrical service, refinishing historic woodwork, 
        legislative call system upgrades, restroom upgrades, high-
        voltage switchgear replacement, and heating ventilation/air 
        conditioning replacement.
                     capitol visitor center budget
    The CVC project is the largest addition to the U.S. Capitol in its 
history. Included in the 580,000 square foot Visitor Center is the 
construction of 170,000 square feet of expansion space for the Senate 
and House. Building a major underground three-story facility, adjacent 
to the world's most recognizable symbol of democracy, which is a fully 
functioning office building, conference center, and museum, is truly a 
significant challenge. The project is now 55 percent done and scheduled 
for completion in fall 2006.
    Many obstacles have been faced since we broke ground in 2000. Yet, 
despite these challenges, our project team recently met a critical, 
major milestone. On January 20, 2005, President Bush exited the Capitol 
onto the Rotunda steps where he reviewed the troops marching across the 
new granite pavers installed across the East Front Plaza, thereby 
continuing an Inaugural tradition.
    The Sequence 1 contractor responsible for excavation and structural 
work has essentially completed its tasks. The Sequence 2 contractor has 
been working to install fireproofing, masonry block, interior wall 
stone, mechanical ductwork, and piping. The award of construction 
contracts is imminent for the exhibit space and the Senate expansion 
space.
    My budget request for the CVC consists of several major components, 
the most significant being the construction cost-to-complete of $36.9 
million. While no Congressional decision has been made regarding 
governance, startup and operational costs of $15.3 million are 
anticipated. Therefore, until such decision is reached, the AOC has 
included these expenses in its budget submission. This incorporates 
initial estimated costs associated with the daily care, maintenance 
activities, operation of the facility, and associated payroll and 
benefits costs. Additionally, the multi-year project budget of $20 
million supports the required activities and programs for the 
transitional and start-up costs for visitor services, exhibits, food 
services, gift shops, telecommunications, and information technology 
infrastructure support.
    Mr. Chairman, the progress made on the CVC in just the past 12 
months has been remarkable. At the same time, the Capitol building has 
been open, fully functional, and accommodating of Members and staff, as 
well as the visiting public throughout construction and during these 
times of heightened security. When the CVC opens, it will complement 
and support the U.S. Capitol as the ``People's House,'' offering free 
and open access for all people so they may learn about, and experience, 
our legislative process.
                  senate office building improvements
    In fiscal year 2004, we completed 45,892 work orders in the Senate 
Office Buildings. To date, we have completed nearly 22,250 work orders 
in fiscal year 2005. In addition, we have been working on a number of 
important projects including:
  --Modernizing elevators.--The Hart Office Building Elevator 
        Modernization Project was completed in December 2004, six 
        months ahead of schedule and on budget. The Russell Office 
        Building elevators have been completely modernized. The Dirksen 
        Office Building Elevators Cab Modernization Project will begin 
        this summer.
  --Upgrading public restrooms.--The Hart Office Building northwest 
        restroom stack and the Dirksen Office Building north stack was 
        completed last year. Currently, the Dirksen Office Building 
        basement level restrooms are under construction, which will be 
        followed by the ground floor restrooms, which will complete the 
        renovations in that building. There are two remaining stacks to 
        be completed in the Hart Office Building, which will begin this 
        year and be completed in fiscal year 2006.
  --Staff Exercise Facility.--In May 2004, our office opened the Senate 
        Staff Exercise facility.
  --Russell Office Building Basement Corridor Renovation.--The 
        renovation of the C Street corridor of the Russell Office 
        Building was completed and the Delaware Avenue corridor is 
        currently being renovated.
  --Renovation of the Dirksen Swing Suite Space.--The renovation of 
        this space provides for the consolidation of support functions 
        and adds two swing suite spaces thus improving the temporary 
        office conditions for newly-elected Senators and speeding the 
        Senate move process.
  --Election Year Moves.--Election year moves were completed on 
        February 26--the earliest we have ever accomplished this task.
  --Committee Room Renovations.--Room 106 in the Dirksen Building and 
        Agriculture Committee Hearing Room were completely renovated to 
        upgrade the infrastructure, and add state-of-the-art sound and 
        video capabilities, while at the same time, preserving the 
        historic architecture of the rooms. In fiscal year 2005, five 
        committee rooms will be renovated, followed by an additional 
        five in fiscal year 2006.
                            capitol building
    The U.S. Capitol has been the stage for several high-profile events 
this past year. In June 2004, the world's eyes turned to us as we bid 
farewell to President Ronald W. Reagan. Our employees, working together 
with Congressional leadership and other Legislative branch 
organizations, did a tremendous job to ready the building and grounds 
for the respectful and historic lying-in-state ceremonies.
    In January, the West Front of the Capitol was readied for the 55th 
Presidential Inaugural ceremony. Our team worked diligently to design, 
plan, and construct the platform; contract for the sound system, 
Jumbotron screens, and ramps and crossovers; install security fencing 
and crowd control features; set up 28,000 chairs; build the media 
platform; hang flags, draperies, and bunting; prepare Statuary Hall for 
the inaugural luncheon, and draft a contingency plan to move the 
ceremony to the Rotunda in case of inclement weather. Most importantly, 
on January 19, we worked throughout the night to remove all the snow 
from the Grounds, leaving a pristine setting for the Inaugural on the 
East and West Fronts of the Capitol.
    In fiscal year 2004, we completed more than 20,000 work orders in 
the Capitol Building. To date this fiscal year, we have completed more 
than 10,000.
                          capitol power plant
    An on-going project, designed to meet the current and future needs 
of the Capitol complex, is the expansion of the West Refrigeration 
Plant at the Capitol Power Plant. This project addresses the advancing 
age of the East Refrigeration Plant, and the need to reliably meet 
future cooling requirements of the expanding Capitol complex. The 
chilled water capacity will be online by November 2005, with the 
overall project scheduled for completion in April 2006. When finished, 
the expanded facility will enable the Capitol Power Plant to reliably 
meet cooling requirements through 2025 and will significantly increase 
overall plant efficiency.
    In addition to addressing future energy needs, the Power Plant 
staff is also working to beautify the facility and the grounds 
surrounding it. This month, we began efforts to install 20-foot-wide, 
brick-paved sidewalks, which will be shaded by two rows of trees, 
alongside the Plant's newly-created park area. In addition, a 
decorative wrought iron fence will be erected to replace the security 
fence now surrounding the Power Plant. The AOC has been working closely 
with the Ward 6B Advisory Neighborhood Committee, the National Capital 
Planning Commission (NCPC), and other agencies to improve and transform 
the South Capitol Street corridor into a grand urban boulevard.
                           perimeter security
    With the increased need for permanent security measures throughout 
the Capitol complex, we are installing effective, aesthetically-
pleasing, perimeter security features on Capitol Hill. Senate perimeter 
security efforts completed over the last year include the installation 
of bollards along Constitution Avenue, extending from the Russell, 
Dirksen, and Hart Senate Office Buildings. We also installed 14 
hydraulic vehicle barriers stations in Constitution Avenue. Over the 
next year, we anticipate installing the remaining bollards and vehicle 
barriers that complete the outer Senate perimeter.
                            project delivery
    We have taken several steps to improve our project delivery. Last 
September, we established a pilot Project Management organization 
comprised of project managers, construction managers, and construction 
inspectors. The proposed alignment establishes clear performance 
expectations for delivering projects on time and within budget now that 
the project and construction management functions reside, for the first 
time, within the same organization.
    A good design equals good construction. Construction management is 
intrinsically linked to project management. Through this new project 
management organization and process, we will ensure that the design and 
construction teams interact daily. This alignment is endorsed by the 
Government Accountability Office (GAO) to, ``align project management 
staff and resources with AOC's mission-critical goals.''
    In accordance with our Strategic Plan, an annual ``lessons 
learned'' exercise is conducted for projects identified by our clients. 
During this time a comprehensive assessment of each project is 
undertaken to apply lessons learned to future projects and facilitate 
continuous improvement.
                human capital/organizational excellence
    Our Strategic Plan contains Human Capital and Organizational 
Excellence goals which focus on employees and providing the highest 
quality services to both our internal and external clients through 
improved business programs, processes, and systems.
    One of our objectives under the Human Capital Strategic Plan goal 
was to develop a comprehensive employee feedback program that will 
utilize focus groups, surveys, and other related mechanisms. In 
September 2004, I invited more than 300 employees from across the AOC--
all divisions, levels, and shifts--to participate in 25 focus group 
sessions. We asked them to identify problems, help us to find ways to 
solve them, and make improvements within the organization. In October, 
the Human Resources Management Division (HRMD) asked all employees to 
share their opinions in a customer satisfaction survey. The questions 
focused on the services HRMD provides and how well they deliver those 
services.
    By coupling the feedback and the survey results, we were able to 
pinpoint specific areas where we needed to take action. In other words, 
our employees spoke and we listened.
    They told us that we needed to do a better job communicating, that 
we needed to provide clearer, easier-to-understand information, and 
that we needed to better explain work processes, policies, and 
procedures. They also indicated that we needed to provide clearer 
direction with regard to expectations and job performance, and 
recognize employee accomplishments more often. These issues also 
applied to setting internal standards so our employees receive 
satisfactory customer support from our Human Resources, EEO, and other 
service organizations.
    Over the next several months, we will be rolling out action plans 
and meeting with employees to address the issues they raised. This 
effort will help us to continue to foster an environment where we can 
share concerns and ideas with one another to continue to improve the 
organization.
                            employee safety
    One area we continue to make great strides in is our effort to 
reduce the injury and illness rate. I am pleased to report that for the 
fourth consecutive year, our rate decreased dramatically. During fiscal 
year 2004, we saw a 26 percent reduction in the injury and illness 
rate. Since fiscal year 2000, this rate has been reduced by 67 percent 
and is now below the Federal average.
    We attribute this reduction to a number of initiatives, including 
inspections of project worksites, daily safety discussions in our shops 
at the beginning of each shift, the posting of monthly safety messages 
throughout our shops and offices, active participation by employees in 
our Jurisdictional safety committees, and most importantly, to the 
constant diligence of each AOC employee and supervisor who is committed 
to doing their job safely and correctly. To assure that our employees 
have the requisite skills and equipment needed to do their jobs safely, 
I will continue to maintain robust training and safety budgets.
    While I am very proud of my workforce and our past accomplishments, 
I will not be satisfied until we achieve our ultimate goal of a 
workplace free of injury and illness. Toward this end, I have 
challenged my colleagues to reduce the injury rate by an additional 10 
percent. I look forward to reporting on our progress toward an injury- 
and illness-free workplace to this Committee next year.
                               conclusion
    Over the past several years, the AOC has undergone significant 
change, and we have reaffirmed our commitment to providing high-quality 
service to Congress and the American people. In its August 2004 report 
to Congress, the GAO indicated that:
  --``AOC has made progress in preparing agency-wide financial 
        statements; supporting an audit of its September 30, 2003, 
        balance sheet; and establishing related internal control 
        policies and procedures.''
  --``. . . AOC has made progress addressing employee communications by 
        developing a number of policies and procedures, such as a 
        strategic communications plan, a draft employee feedback 
        manual, a customer satisfaction survey manual, and a focus 
        group guide.''
  --``Our January 2003 report provided AOC with recommendations for 
        establishing and implementing an effective information security 
        program. In our January 2004 report, we noted that AOC had made 
        progress toward implementing these recommendations.''
  --``AOC has fulfilled our worker safety recommendation by developing 
        performance measures to assess the long-term impacts and trends 
        of workers' compensation injuries and costs.''
  --``During the six-month review period, AOC took steps to develop the 
        Capitol Complex Master Plan.''
  --``AOC made progress in the development of its environmental program 
        and its movement toward a more strategic approach. In 
        particular, AOC has completed the baseline assessment as well 
        as the waste stream analysis for its facilities and 
        operations.''
    Although we still have much more to accomplish as outlined in our 
Strategic Plan, GAO has noted, ``organizational transformation does not 
come quickly or easily and the changes underway at the AOC would 
require a long-term, concerted effort.'' My team and I are committed to 
fulfilling our responsibilities over the long-term to ensure that our 
transformation continues as planned.
    Our request for funds for fiscal year 2006 is in direct response to 
our responsibility to maintain and preserve the facilities under our 
care, as well as to respond to our customers' requests for priority 
projects and programs. In addition, we continue to strive to achieve 
the level of safety, security, preservation, and cleanliness expected 
across the Capitol complex. We have completed tens of thousands of work 
orders to our clients' satisfaction and have achieved many of our goals 
due to the hard work and dedication of AOC employees. I am very 
privileged and honored to lead such a professional team.
    The Committee's support in helping us achieve these goals is 
greatly appreciated. Once again, thank you for this opportunity to 
testify today. I'd be happy to answer any questions you might have.

    Senator Allard. I'd like to also welcome Senator Durbin. I 
had indicated earlier, Senator Durbin, that, when you arrived, 
we'd give you an opportunity to make some opening comments if 
you wish. And then, also, I just wanted to thank both Ms. 
Reynolds and Mr. Hantman for taking the time to testify here 
before us today.
    We're ready to move to a question and response period, but 
I wanted to give you an opportunity to present your opening 
statement first. So why don't you proceed?

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Mr. Chairman, first let me welcome you to 
the subcommittee.
    Senator Allard. Thank you.
    Senator Durbin. It's an honor to serve with you. I think 
you are the third Chair that I've served with on this 
subcommittee, and I'm looking forward to working with you. And 
in the interest of time, let me put my statement in the record, 
and you can go straight to questions, and I'll follow you.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, first of all I'd like to welcome you, 
Chairman Allard, to the Legislative Branch subcommittee. I had 
the pleasure of working with your former colleague from 
Colorado, Senator Campbell, as the last Chairman of this 
subcommittee and I look forward to working with you.
    Thank you, Mr. Chairman, for scheduling today's first 
budget oversight hearing of fiscal year 2006 where we will hear 
testimony on the budget requests of the Secretary of the Senate 
and the Architect of the Capitol.
    I want to join the Chairman in welcoming today's witnesses, 
Emily Reynolds, Secretary of the Senate, and Alan Hantman, 
Architect of the Capitol.
    Thanks to both of you for attending this morning.
    Ms. Reynolds, welcome back to the subcommittee for your 
third year as Secretary of the Senate. I think that you and 
your staff are doing a superb job and your budget request looks 
very straightforward.
    My staff and I greatly appreciate your guidance and 
leadership in the CVC decision-making progress. I realize that 
this is a long, difficult, and at times frustrating process. 
Your dedication and determination are very admirable.
    I would appreciate any comments you might wish to include 
with regard to the CVC.
    Mr. Hantman, good morning and welcome. Your budget request 
this year is $506 million, which is an increase of $156.5 
million or 44 percent over fiscal year 2005 enacted. I realize 
that a large portion of your request is for Library of Congress 
and Capitol Police project items. All in all, your operating 
budget request seems fairly straightforward.
    I was encouraged to read that the rate of accidents and 
injuries within the Architect's office continues to improve. 
This has been a major area of concern to me, as you know, and I 
am glad to see these numbers are coming down so dramatically.
    I hope you will talk a little about the Capitol Visitor 
Center project. I hope you will update the Subcommittee on when 
you believe the CVC will open and what the final cost will be. 
I realize that the project has grown in size and scope from the 
original design when we broke ground back in 2000, but I don't 
think those changes account for the magnitude of the delay and 
cost overruns.
    Last year, I asked you if you thought the spring 2006 
estimated completion date for the CVC was accurate. While I 
don't recall your answer off-hand, I think I know what your 
answer would be if I asked you the same question today. So now 
I'd like to ask you if you think the fall 2006 date is 
accurate. In your testimony you state that since breaking 
ground in 2000, the CVC is now 55 percent complete. I find it 
hard to believe that the remaining 45 percent of this project 
can be finished in the next 17 months.
    Mr. Hantman, as you know, this subcommittee is responsible 
for providing adequate funding to complete AOC projects such as 
the CVC. However, in order to do that, it is critical that we 
receive the most accurate information available from you and 
your staff. It appears that the Government Accountability 
Office has been far more effective than your office in 
providing accurate information to the members of this 
subcommittee and our staffs on your funding requests.
    I was very concerned to read a February 23, 2005 article 
from ``The Hill'' newspaper entitled, ``Fear and Loathing at 
the AOC,'' which addressed the results of a 22-page survey 
taken by 300 of your employees. I hope that you and your 
management team are making every effort to address the 
allegations of abuse and mismanagement alluded to by these 
employees. It troubles me that some long-standing issues at AOC 
continue to exist, such as poor communications and very low 
morale. You are responsible for 2,000 employees. It is critical 
that these employees feel they can trust you and your front 
office. Without the trust and confidence of your employees, you 
cannot effectively run this organization.
    Finally, Mr. Hantman, I'm eager for you to update the 
Subcommittee on your progress in making the Capitol complex a 
safer work environment.
    Thank you Mr. Chairman.

                       INAUGURAL ADDRESS EFFORTS

    Senator Allard. Very good, thank you.
    Ms. Reynolds, you did mention, in your testimony, that you 
did a lot of work on the inaugural, and I want to just thank 
you, your staff and the Architect of the Capitol, for your work 
during the Inaugural Address. I think it was a very successful 
effort, and I think most Members appreciate all the fine work 
that went into that. And I just think that's worth mentioning 
at this particular point in time.
    Which leads me into a question, Ms. Reynolds, what were all 
your responsibilities in coordinating that effort? I'd like to 
know some of the challenges you faced. We just had an election, 
and then we had the inaugural in January. And if you can share 
some challenges with us, we'd appreciate it, perhaps suggestion 
of what might be done differently at the next inaugural.
    Ms. Reynolds. No, I appreciate that. We certainly took our 
lead from the Joint Committee on the Inaugural, from Senator 
Lott and his team. And I think one thing that we found--
clearly, the Joint Committee did a beautiful job, and came, to 
us with the numerous things that were needed. I think, for us, 
one legacy I'd like to leave behind is a very distinct record 
of the precise things that the Secretary's office is involved 
with in that inaugural effort. For example, the official 
reporters of debates actually have a position on the platform 
so that they're there to transcribe the inaugural. For me, it's 
the first time I've been through that, while, again, the 
institutional memory, that important part of our staff that 
have been here for years, they know the things they do every 4 
years, but we found that it wasn't in our own operation in any 
sort of concise record.
    One thing I'd like to leave behind for the next Secretary 
is that concise record of exactly what expectations that a 
joint committee on the inaugural will have for us. The second 
piece of that is, we were delighted to work with the committee 
on the inaugural luncheon, which is staged in Statuary Hall. 
That was a huge effort on the part of our staff; again, taking 
the lead from Senator Lott and his team. But they did an 
extraordinary job in executing the lunch. And, most especially, 
the Curator's Office takes the lead in whichever historical 
painting is displayed at that luncheon, which is a reflection 
of the theme of the inaugural itself.
    So, we're involved in a variety of different levels, a 
variety of different ways. It was a learning experience for me, 
as well. And I would add, also, that many of our staff, and 
myself included, had the opportunity and the high honor to 
serve as escorts that day; again, assisting the Joint 
Committee.
    So, we play in this at a variety of different levels. Some, 
were well informed going in; others, learned along the way. But 
with the Joint Committee providing the leadership, I think 
we're even better prepared to step up to the plate in the next 
4 years and have that clear and concise knowledge, of precisely 
what our role is.

      CURATORIAL ADVISORY BOARD AND PRESERVATION BOARD OF TRUSTEES

    Senator Allard. You mentioned, in your testimony, the new 
boards, the Curatorial Advisory Board and the Preservation 
Board of Trustees. What, specifically, are you doing to promote 
the efforts to the Senate community and beyond that these two 
boards were set up to carry out?
    Ms. Reynolds. Thanks for asking that, because this is 
such--as I said, it's such an important initiative for all of 
us. And much of this really is an education process, it's a 
building process. The Curatorial Advisory Board, again, as I 
mentioned--12 really outstanding individuals, 13 counting our 
curator, who serves as its chair--they have already been a 
significant help to us in helping us identify possible 
acquisitions, in spreading the word, with all of them as 
professionals, whether it's from Monticello, Winterthur, the 
retired White House curator--their network of associates, 
people they've worked with through the years, has already been 
very helpful to us in identifying some possible acquisitions, 
and we've relied on their counsel very heavily already.
    The Preservation Board, which, as I said, will meet in 
May--I'm anxious for that meeting--again, an esteemed group of 
individuals, who will come at this from both a business 
perspective, a philanthropic perspective--so I'm interested in 
working with them, at their first meeting, to begin to paint 
that blank canvas, if you will, of what specific direction that 
board takes.
    Within our Senate community, we unveiled the Brumidi oil 
sketch that I mentioned, very recently, thanks to Senator 
Stevens, in the President pro tempore's office, and Roll Call 
covered that. We've done a feature in our Secretary newsletter 
of UNUM, which we do every quarter, and will continue to 
educate our own community about the efforts underway. And, 
again, through both of these boards, people who have a reach, 
not only within our Senate community, but certainly well 
beyond, I anticipate that we'll continue to see renewed 
interest in the possibility of both returning some historic 
artifacts to the Senate that perhaps we've lost through the 
years, and also pinpointing acquisitions that will reflect the 
history and the tradition of this institution.

                         CHANGING TECHNOLOGIES

    Senator Allard. Technology is changing all our lives 
rapidly, both at home and, I think, here in the Capitol. And 
I'll have to admit that I have a certain fixation for high 
technology, myself, and am not reluctant to step into some of 
the challenges of new technology in my own personal office. I'm 
curious to know how you stay on top of those advances, and 
then, once you decide to bring them in, how can we be assured 
that they're going to operate as advertised.
    Ms. Reynolds. Well, probably, to the latter portion of your 
question, the best way we're assured that they operate as 
advertised is the feedback from our own Senate community, and 
that's why having folks, for example, like the administrative 
managers involved with our FMIS, the various pilot projects 
that we roll out. Having folks involved early on to help us in 
knowing what works and what doesn't is key.
    But, quickly, I would say, in terms of how we stay abreast 
of technological developments, it's really threefold.
    First of all, we have, internally, a top-notch information 
systems department that's on the cutting edge and that helps 
us, across the board, in remaining there and providing that 
sort of service internally to the Secretary's office.
    Second of all, our department heads are all continually 
looking for better ways to do business, whether it's, as I 
said, working through the process of putting the library 
catalog online, to something as simple as providing an online 
service for individuals to order their paper through printing 
and document services, but, again, those simple things that now 
can be done with the click of button, if you will. And our 
department heads are very much involved in that process.
    And, finally, again, part of that collaborative effort, 
since our Sergeant at Arms takes the lead on technology in the 
Senate, we, again, work very closely with them on technological 
advances. They're a huge help to us in that regard.
    Senator Allard. Now I would like to go ahead and call on 
Senator Durbin. And Mr. Chairman, I'm glad that you're able to 
join us this morning, chairman of the Appropriations Committee, 
Senator Cochran.

                             SENATE CLERKS

    Senator Durbin. Thank you, Mr. Chairman.
    Ms. Reynolds, thank you for being here, and thank you for 
your service to the Senate.
    In your capacity, you're responsible for the professional 
staff that supports our legislative activity in the Senate. The 
clerks process the work we perform on the floor. What is the 
current status of that group, in terms of hires and 
qualifications and vacancies?
    Ms. Reynolds. Right now, we are fully staffed on that 
legislative team. And I appreciate you asking about them, 
because they are really, in so many ways, the quiet, unsung 
heroes of the Senate. You know, because you're there, the hours 
that they put in on a daily basis. And, at the end of the day, 
when the Senate adjourns, when those four bells go off, their 
work, in essence, really begins, in so many ways. They return 
to their offices to prepare the Calendar of Business, the 
Executive Calendar, to complete the transcriptions and send 
those to the Government Printing Office for the printing of the 
Congressional Record overnight, the completion of the Daily 
Digest, which, of course, is completed in that record. So it 
really is a remarkable team.
    But it's important, with that team, because of the 
importance of the Senate's constitutional responsibilities, to 
make sure that we have a balance of Senate professionals, many 
of whom have 20 plus years of experience in that team, and also 
constantly bring in fresh blood--younger people, if you will, 
folks who are here to serve the Senate in a nonpartisan way, 
and hopefully make it a career so that we have that continuity.
    It's so important on that team, when you look at--in the 
fact that, within the last two decades, there have been 11 
Secretaries, so you see the importance of that institutional 
memory, that constant learning process. For example, in one of 
our departments, where we knew we had a retirement coming in a 
very critical position, we began the transition process, if you 
will, the succession planning, 1 year in advance, so that we 
were assured, on the day that that individual departed, we 
weren't going to miss a beat; again, in that very critical 
service. So we try to look--we try to look to the future, we 
remain as constant as we possibly can; again, recognizing that 
your constitutional responsibilities are first and foremost in 
our minds.

                     STUDENT LOAN REPAYMENT PROGRAM

    Senator Durbin. And, of course, in addition to long hours 
and important job responsibilities, they face the cruel and 
unusual punishment of listening to our speeches all day, so 
they deserve some recognition and reward for that. How is the 
Student Loan Repayment Program coming along?
    Ms. Reynolds. It's coming along. It's growing.
    Senator Durbin. Tell me how you use it.
    Ms. Reynolds. The legislation specifies that the program be 
used for retention and recruitment; and, that, of course, is 
the byword for the Senate offices. As you well know, with each 
Member as his or her own employing office, it is up to each 
office, at the current time, to decide how they administer the 
program. And you and I have spoken about this before in--I 
think, at last year's hearing. We conducted a fairly in-depth 
survey now about 1 year ago. We had 60 something odd offices, 
out of the 140 in the Senate, respond. But we found, obviously, 
great support for the program. We found that folks--they set 
their parameters in different ways as to how they employ the 
program. Many require at least 6 months of service before the 
individual is eligible for the student loan. Some set various 
and different caps within the office as to how much they 
actually give for the loan. I think the amount is up to $500. 
But that will vary among offices. So the administration of it 
is actually driven by each individual office.
    What we are constantly looking for are ways to streamline 
the process, because it can be a cumbersome process. And, to be 
honest, you know, sometimes we're chasing up to as many as 100 
lenders, if you will, to make sure those payments are going to 
the right place. And, obviously, loans, of course, within the 
industry are constantly being sold and repackaged. That's a 
challenge for us. And within the course of the last few months, 
we've introduced a paperwork process that we hope will help 
both the disbursing office and the individual receiving the 
loan.
    We currently have just under 900 individuals participating 
in the program, at a cost of about just over $3 million to the 
Senate right now. And, at last report, Senator Durbin, we had 
about 126 offices participating. That's roughly the same number 
as the previous year.

                       RETENTION AND RECRUITMENT

    Senator Durbin. What has been your personal experience 
about the retention and recruitment angle? When I first brought 
this up, it was in the hopes that student loan repayment would 
be an incentive for good, talented graduates to come work here 
on Capitol Hill and not be discouraged by the, perhaps, lower 
startup pay than they might find in another place, or to retain 
those who enhance their education, and we'd like to keep on and 
use their talents. So what has your experience been in that?
    Ms. Reynolds. I think, again, I'm going to refer back to 
the surveys that we received, because that's one area that we 
specifically addressed in the surveys of the offices. Many 
offices--and, again, this is anecdotal evidence--but they 
mentioned to us instances where they wanted to hire--you know, 
an office wanted to hire a young lawyer, obviously who had 
significant bills from law school, and they said, frankly, that 
without the opportunity to use that as a recruitment tool, they 
might have lost that talent somewhere else; again, because of 
the pay structure here.
    So while much of this is anecdotal evidence, it was very 
strong anecdotal evidence that the offices take that retention 
and recruitment tool seriously, as do we in the Secretary's 
office, as well. So we employ the program, as well, and use it 
in the same ways.
    Statistical evidence, hard to come by on that; but the 
anecdotal evidence from the offices, very positive in using it 
as a tool.
    Senator Durbin. Mr. Chairman, I don't know, maybe it's been 
2 or 3 years since we've had this, and it kind of started in an 
odd way; let a thousand flowers bloom, we said to each office, 
``Here's what we're--here are the goals. See how they work with 
your policies, personnel policies.'' I'm hoping that we can 
gather this information and maybe harmonize some of this. I 
don't want a top-down rulemaking procedure, but if there are 
ways to put in some safeguards, to avoid abuses, to make sure 
there's no waste, to enhance the initial goals of the program, 
I'd like to do that, too.
    Thank you, Ms. Reynolds.
    Ms. Reynolds. We look forward to working with you on that. 
Thank you, sir.
    Senator Durbin. Thank you.
    Senator Allard. Well said. And I would note that we do have 
a lot of people here today that are part of the office of the 
secretary, the parliamentarian, enrolling clerk, Senate 
security, and they do a tremendous job. I don't know how they 
keep the place running sometimes, but they're able to do it, 
and with a good deal of grace and finesse, keeping a lot of big 
egos happy, and they're to be commended for their job.
    Mr. Chairman.
    Senator Cochran. Mr. Chairman, thank you very much. 
Congratulations to you are in order for----
    Senator Allard. Thank you.
    Senator Cochran [continuing]. Your assuming the 
chairmanship of this important subcommittee. We welcome you, 
not only to the Committee on Appropriations, but in your new 
undertaking as chairman of this subcommittee, and we look 
forward to working closely with you and trying to support you 
in every way.
    Senator Allard. Thank you.

          THE SENATE DISBURSING OFFICE, ``THE FRONT COUNTER''

    Senator Cochran. Welcome to the subcommittee, Ms. Reynolds 
and Mr. Hantman. We appreciate very much your cooperation with 
our Legislative Branch Appropriations Subcommittee and the good 
work that each of you do in carrying out your responsibilities.
    These are very important jobs. I am impressed. When I read 
the summary of your responsibilities, I always come across some 
item of information that surprises me. Today, for example--and 
I don't know why I had overlooked this in the past--I found out 
that the front counter is the place where the financial 
business of the Senate is handled, and that's under the 
jurisdiction of the Secretary. Could you tell us what the 
origin of the phrase ``the front counter'' is?
    Ms. Reynolds. That is a great question, and I'm going to 
defer to our financial clerk, Tim Wineman, to answer that.
    Mr. Wineman.
    Mr. Wineman. It is literally just that, a front counter. It 
kind of resembles an old banking organization. We used to be 
located in the second floor of the Capitol Building, right down 
from the Senate Chamber, and there was a huge counter that 
Senators and staff would come in to conduct daily business with 
the Disbursing Office, and we'd have staff behind the counter. 
And it's just evolved over the years as, kind of, the receiving 
point for the work that comes in from the Senate offices. 
General business is conducted there, inquiries, new staff are 
sworn in there, financial transactions, as far as issuing cash 
advances for travel. So it's kind of similar to a bank lobby 
atmosphere, and it literally is just that, there's a big 
counter there, and that's the term that's been used over the 
years.
    Senator Cochran. But it doesn't function as the House Bank 
used to.
    Mr. Wineman. No, sir.
    Senator Cochran. No.
    I just want to be sure that----
    Mr. Wineman. In fact, I'd like to be very clear on that.
    Having been here during that time, and there was a 
significant amount of publicity, no, it does not function as 
the House Bank.
    Senator Cochran. Right. Well, it is, obviously, an 
important responsibility, and the offices are physically 
located in the Hart Senate Office Building?
    Mr. Wineman. First floor of the Hart Building, yes, sir. We 
were asked to move a number of years ago, after spending a lot 
of time in the Capitol, when we--we literally outgrew the space 
that was in the Capitol building. And so, when the Hart 
Building was opened, in 1982, we moved over there and are 
located on the first floor, yes, sir.
    Senator Cochran. Well, we appreciate your good work in 
supervising that operation.
    Mr. Wineman. Thank you, sir.
    Senator Cochran. Is there sufficient request in the budget 
for the operation of the front counter?
    Mr. Wineman. Yes, sir. The Secretary has been very 
supportive of, not only the entire Disbursing Office, but our 
front-counter operation, as well.
    Senator Cochran. That's great. Well, we thank you for that 
explanation and information.
    Mr. Wineman. Yes, sir.
    Senator Cochran. Now, could I ask a question of the 
Architect?
    Senator Allard. You may, Mr.----
    Senator Durbin. Mr. Chairman, would you yield for a moment?
    Senator Cochran. Sure.
    Senator Durbin. I just wanted to make a record here that 
when I was elected to the Senate, in 1996, and came to sign up 
for my payroll, they said, ``You've worked here before,'' and I 
said, ``Yes, I was an intern here in 1966, 30 years ago.'' And 
they said, ``Yes, we kept your file,'' and they brought it out.
    So pretty good file work there.
    Senator Cochran. Very good, thank you.

                         CAPITOL VISITOR CENTER

    Mr. Hantman, thank you for being here and participating in 
this exercise, too. I think the biggest challenge you're facing 
is the new visitor center. I appreciate very much your taking 
time to take me on a tour recently and show me the work that 
was in progress. It is really quite an impressive undertaking. 
And, of course, it's very expensive, as well.
    What efforts are you making to try to hold down the costs? 
I hear rumors about overruns and schedule deadlines not being 
met. What are you personally trying to do to help get control 
over that project?
    Mr. Hantman. Mr. Chairman, it is, as you know, a very 
complex project. And perhaps what we can best explain it by 
using some things that I don't expect you to be able to 
visualize or see very clearly from the dais.
    If we could just set up a board or two over here.
    This project, as you know, Mr. Chairman, has evolved since 
its inception. The budget for the CVC was first set in 1998. We 
talked a little bit about the inaugural, with the Secretary a 
little while ago, and the inaugural that we just celebrated was 
really key to how the entire visitor center was framed.
    Before I get into that, if I may, I think I would be 
remiss, if I could----
    Senator Cochran. Well, I'd just rather for you to 
succinctly respond to the question that I asked, rather than go 
into the history and the description of the project in detail. 
That'll come later, I'm sure, when the chairman is asking 
questions.
    Mr. Hantman. Well, we have a full-time accountant on the 
job, Mr. Chairman. Every change order or any purchase order 
that comes on through is reviewed by our accounting group. Our 
project executive, Mr. Bob Hixon, who is behind me right now, 
reviews all of those, and we make sure that we pay only those 
that are really appropriate and that we authorized the work for 
in the first place.
    What we are trying to do is get the remaining contracts on 
the street and awarded as soon as we can, because the inflation 
rate continues to rise. And if we can award them, we can hold 
the rates that we currently have; otherwise, we might have to 
rebid areas such as the expansion spaces for the Senate, for 
the House, for the exhibition areas, for the tunnel under the 
House office--House Capitol side of the connector.
    So we're trying to move forward as quickly as we can to 
make sure that we lock in the prices and the bids that we have 
at this point in time, to make sure that the contractors 
understand that we're going to be holding them to their 
responsibilities, as well, and that we monitor that effectively 
on a day-to-day basis.
    Senator Cochran. Thank you very much.
    Thank you, Mr. Chairman, for the opportunity to be here and 
participate in the hearing.
    Senator Allard. Well, thank you, Mr. Chairman. And I 
appreciate you taking a personal interest in this. I had an 
opportunity to have a tour by Mr. Hantman.
    I thought it was a very good tour. I'm, like you, very 
impressed with the scope of the facility. I look forward as I 
think many members do, at getting into that facility. The 
sooner we can get there, the better I think everybody will 
feel.

           BUDGET AND CAPITAL IMPROVEMENTS PLAN (CIP) PROCESS

    I know that it's a particular challenge for you, Mr. 
Hantman. You are requesting a pretty sizeable increase--45 
percent--over the current budget. That type of increase does 
catch the attention of all of us. How have you scrubbed that 
budget? Have you tried to set priorities within the budget so 
that if we're unable to meet your request, where would you 
recommend that we make reductions?
    Mr. Hantman. Mr. Chairman, you alluded, in your opening 
statements, on the issues of project management and master 
planning, two very key areas, in terms of improving our control 
and our projections on what the costs will be going forward, 
not only on individual projects, but in budgets that we will be 
bringing forward to this subcommittee in years to come. So, we 
have a CIP process, which is a Capital Improvements Plan. In 
that process, we rank all of the proposed projects that come 
forward, on a strong basis. If we could put up that board, that 
would be pretty helpful, I think. But what we do is, first, we 
have to identify projects, we have to evaluate those projects, 
we have to rank them and rate them before going into the budget 
process. So this CIP process that we have used this year for 
the first time is something that gives us a prioritization of 
those projects based on fire and life-safety issues, based on 
physical security issues, historic preservation and stewardship 
issues, impact on our mission, and the economics of it. We rank 
all of these projects on a scale that gives a real value to 
each one of them as they relate to each other and to those five 
key areas.
    So, if we were told to cut back on our projects at this 
point, Mr. Chairman, what we would do is go back down to our 
list of elements we currently have been asking for, and start 
at the bottom. Those things that are ranked the lowest in the 
project budget, we would start eliminating, to the point at 
which you are willing to fund the rest of it.
    Senator Allard. And does our staff have this list and these 
rankings on these projects that we can look at, at some point 
in time?
    Mr. Hantman. We certainly could review all of those 
projects with a full background, in terms of how we prioritized 
them in the first place. And we'd be happy to sit down and 
review that. And certainly we wouldn't cut anything unless we 
specifically worked with you and your staff.
    Senator Allard. We could be facing a pretty tight budget 
here.
    Mr. Hantman. Yes.
    Senator Allard. And it would be nice if we could give it 
some thought ahead of time. And so, the sooner you could share 
where your priorities are with our staff, I think it would be 
very helpful to them, and helpful to members on this 
subcommittee, to see where you're thinking is on those 
reductions.
    Mr. Hantman. We have that prioritization, already, sir. 
It's how we established the budget request. We'd be more than 
happy to sit down and review it. We can start from the bottom 
up, and whatever we have to eliminate because of budget 
criteria, we'd be ready to do that.
    Senator Allard. Very good.
    [The information follows:]

                                   TABLE 2.--FISCAL YEAR 2006 LINE ITEM CONSTRUCTION PROGRAM SUBMITTED TO THE CONGRESS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          PROJECT EVALUATION SCORING
 PROJECT     PROJECT TITLE      PROGRAM AREA     JURISDICTION        PROJECT       PROJECT COST  --------------------------------------------    NOTES
 NUMBER                                                              MANAGER           \1\          A      B      C      D      E     TOTAL
--------------------------------------------------------------------------------------------------------------------------------------------------------
             SECTION 1--
              PROJECTS
         (EXCLUDING SUPREME
         COURT) ATTAINING A
           SCORE OF 90 OR
         HIGHER IN AT LEAST
           ONE EVALUATION
            CATEGORY \2\


 000231D Smoke Detector      BIM-SER.......  LOC.............  PRichards.....      $3,700,000      80     90     80     80     20      350  ..........
          Upgrades, JAB
 000231E Smoke Detector      BIM-SER.......  LOC.............  PRichards.....       3,700,000      80     90     80     80     20      350  ..........
          Upgrades, JMMB
  020188 Emergency           BIM-SER.......  USC.............  JScuderi......       2,980,000      40     90     60     80     60      330  ..........
          Electrical
          Service Upgrade,
          USC
 970711D High Voltage        BIM-SER.......  SOB.............  ZBajbor.......         540,000   .....     90     80     70     40      280  ..........
          Switchgear
          Replacement, HSOB
 970711E High Voltage        BIM-SER.......  HOB.............  ZBajbor.......       2,120,000   .....     90     80     70     40      280  ( \3\ )
          Switchgear
          Replacement, FHOB
          & RHOB
             Ford House      ..............  ................  ..............      (1,070,000)  .....  .....  .....  .....  .....  .......  ..........
              Office
              Building
              (FHOB)
             Rayburn House   ..............  ................  ..............      (1,050,000)  .....  .....  .....  .....  .....  .......  ..........
              Office
              Building
              (RHOB)
 970711F High Voltage        BIM-SER.......  LOC.............  ZBajbor.......       2,270,000   .....     90     80     70     40      280  ( \3\ )
          Switchgear
          Replacement, TJB
          & JMMB
             Thomas          ..............  ................  ..............      (1,090,000)  .....  .....  .....  .....  .....  .......  ..........
              Jefferson
              Building
              (TJB)
             James Madison   ..............  ................  ..............      (1,180,000)  .....  .....  .....  .....  .....  .......  ..........
              Memorial
              Building
              (JMMB)
970269GA Compartment         BIM-GEN.......  USC.............  KSchonbgr.....       2,630,000      50     90     40     60     30      270  ..........
          Barriers and
          Horizontal Exits,
          USC
970269GB West Terrace        REG-FIR.......  USC.............  KSchonbgr.....       1,700,000   .....     90     10  .....     20      120  ..........
          Egress Doors and
          Stairs, USC


             SECTION 2--
         REMAINING PROJECTS
         (EXCLUDING SUPREME
               COURT)


  020238 Book Storage        BIM-GEN.......  LOC.............  MVarga........      40,700,000      80     40     80     70     10      280  ..........
          Modules 3 & 4,
          Fort Meade, LOC
 000018A Emergency Lighting  REG-FIR.......  HOB.............  SSethi........       4,790,000   .....     80     40     10     40      170  ..........
          Upgrade, RHOB
 000018C Emergency Lighting  REGFIR........  HOB.............  SSethi........       2,700,000   .....     80     40     10     40      170  ..........
          Upgrade, LHOB
 000018D Emergency Lighting  REG-FIR.......  HOB.............  SSethi........       1,030,000   .....     80     40     10     40      170  ..........
          Upgrade, FHOB
 000207B Emergency Lighting  REG-FIR.......  SOB.............  RSoriente.....       3,600,000   .....     80     40     10     40      170  ..........
          Upgrade, HSOB
 020202A Emergency Exit      BIM-SER.......  USC.............  JScuderi......       1,000,000   .....     80     40     10     20      150  ( \4\ )
          Signs and
          Lighting, USC
  030293 East Front          BIM-SIT.......  CG..............  ACoulson......         740,000      80  .....     60  .....  .....      140  ..........
          Plantings, CG
  030130 Window              BIM-SHL.......  HOB.............  RIngram.......       3,710,000   .....     30     20     60     20      130  ..........
          Replacement, FHOB
 930281D Public Restrooms    BIM-INT.......  SOB.............  KOlmsted......       2,400,000      10     20     40     20  .....       90  ..........
          Upgrade, South
          Stack, HSOB
 020100B Public Restrooms    BIM-INT.......  HOB.............  KOlmsted......       1,500,000      10     20     40     20  .....       90  ..........
          Upgrade, Phase I,
          FHOB
  960043 Off-Site Delivery/  BIM-GEN.......  USCP............  WPerlenfn.....      23,000,000   .....  .....  .....  .....  .....  .......
          Screening
          Facility, USCP
                            ----------------------------------------------------------------------------------------------------------------
               SUBTOTAL--Se  ..............  ................  ..............     104,810,000   .....  .....  .....  .....  .....  .......  ..........
                ctions 1
                and 2


         SECTION 3--SUPREME
         COURT PROJECTS \2\


  030302 Building Security   BIM-SEC.......  SC..............  ACopeland.....       1,800,000   .....     20     30     20     90      160  ( \5\ )
          Upgrade, SC
                            ----------------------------------------------------------------------------------------------------------------
               SUBTOTAL--Se  ..............  ................  ..............       1,800,000   .....  .....  .....  .....  .....  .......  ..........
                ction 3
                            ================================================================================================================
               TOTAL--Secti  ..............  ................  ..............     106,610,000   .....  .....  .....  .....  .....  .......  ..........
                ons 1, 2
                and 3
--------------------------------------------------------------------------------------------------------------------------------------------------------
         \1\ ``Project Costs'' shown represent funding as identified in the fiscal year 2006 Budget Request; with the exception of the last three
           projects in Section 2, ``Project Costs'' are ``Final Project Estimates'' as developed by the AOC's Cost Estimating Group based on completed
           drawings and a completed Project Check List.
         \2\ Projects receiving a score of ``90'' or higher in one or more of the Project Evaluation Categories are considered highly desirable for
           accomplishment within the fiscal year identified.
         \3\ Project Nos. 970711E and 970711F have been separated into two parts so as to accommodate notation of costs associated with each building
           comprising the project.
         \4\ Original funding request in fiscal year 2005 was $2 million; only $1 million was approved; this project covers the additional $1 million
           still needed to accomplish the project.
         \5\ This is the Second Phase of a 2-phase project; the 1st phase was approved in the fiscal year 2005 LICP of the Supreme Court.

    Senator Allard. Senator Durbin.
    Senator Durbin. Thank you, Mr. Hantman. And, being a 
liberal arts major, I don't have a clue what that chart means, 
so I'm just going to ask you some general questions here. 
What's the final cost of the Capitol Visitor Center?

                  CAPITOL VISITOR CENTER COST CHANGES

    Mr. Hantman. The final cost of the visitor center, as being 
projected by GAO right now, is $517 million.
    Senator Durbin. Can you recall the first estimated cost and 
what the difference might be?
    Mr. Hantman. The original estimate for the visitor center, 
set back in 1998, was $265 million.
    Senator Durbin. And if you were asked, and you're about to 
be, how would you explain the difference?
    Mr. Hantman. I think that one of the charts we can put up 
right now is one--as the chairman mentioned earlier, the 
Government Accountability Office has been sitting with us since 
the inception of the job. This is basically, a report that they 
are just putting out right now, which talks about the summary 
of the construction cost increases.
    The first bullet talks about three-quarters of the $250 
million increase is due to ``factors beyond, or largely beyond, 
the AOC's control.'' Scope additions is the first item. The 
first is the House and the Senate expansion space. When the 
original project was designed, Mr. Durbin, we were going to be 
designing just shells, just the concrete floors, no electrical, 
no mechanical systems. There was no program to tell us what the 
Senate space might ultimately be, what the House space might 
ultimately be. After 9/11, we were given $70 million to finish 
off those spaces. That was without a program, without a design. 
As the design evolved, as the House and the Senate approved the 
programs and we went out to bid on those, that $70 million was 
found to be low, in terms of the quality of materials and the 
type of program that we were directed to do. So even that $70 
million was not inadequate, but that essentially added to the 
base of $265 million. New scope of work.
    The next bullet item is the security and life-safety 
enhancements. Mr. Chairman, Mr. Durbin, Mr. Cochran, this 
project has really lived through the same type of loss of 
innocence, if you could say, that our country has, due to the 
9/11 attacks and the anthrax attack on the Senate office 
buildings. We have seen multiple infusions of new dollars for 
new criteria go into this project.
    Another one of the changes, certainly after the anthrax 
incident, was, to redesign our mechanical room once again to 
incorporate major filtration systems to take care of the type 
of threats that we were facing.
    Security threats throughout the history of this project 
have been added to its costs, just as Homeland Security has 
been adding to their responsibilities. And the big challenge, 
Mr. Durbin, that we've had on this project has been that it's 
no longer the same project we started with. We're talking about 
adding $140 to $150 million of new work to the project that we 
had to do, while we were under contract. After the design was 
done, we had to try to get change orders and all of this new 
work incorporated and still try to meet a schedule for an 
inaugural in 2005. And that basically became fairly impossible 
to do with all the mechanical changes.
    So, these changes forced us, basically, to split what we 
anticipated originally as a single contract for the whole 
project into several pieces. First of all, we split it into a 
preconstruction contract so that our construction manager, 
Gilbane, could remove all of the utilities from inside the 
footprint of the project, so that we would not slow up the work 
of the major contractors, to come later. Then, because of the 
multiple redesigns of the mechanical spaces, we had to break 
out the excavation, the foundations, the structural work so 
that we could begin to work on that right away and try, still, 
to keep our schedule to complete this project within the 
parameters of the 2005 inaugural. So, that contract went ahead.
    In the next contract, which we were redesigning for the 
changed mechanical spaces, we gave a criteria to the bidders to 
meet the 2005 inaugural. Out of five bidders, three dropped 
out, saying that was impossible. And in order to change--to at 
least retain competitive bidding, we said, okay, we need to 
support the inaugural in 2005, we recognize we're not going to 
be finished, and we need to work on an extended schedule to be 
able to do that. And that's essentially what we did. We did a 
top-down construction, put on all the granite. The President 
actually stood on the central rotunda steps, as you know, and 
the troops passed in review. We got that work done.
    So the challenge has been----
    Senator Durbin. That was a pretty expensive review, wasn't 
it?
    Mr. Hantman. In terms----
    Senator Durbin. Never mind. We set that as your goal. And I 
know you were living up to it. And I'm glad we did it. It 
apparently called for additional work and expense. And you 
lived up to your responsibility there. The President--the 
inaugural went off, I think, flawlessly in that regard, except 
for the outcome of the election, which I won't get into.
    Let me ask you, when will the CVC be open to the public?
    Mr. Hantman. Our construction schedule calls for us to be 
completed in the fall of 2006. We're looking at--our contractor 
schedule talks about September 2006 right now.

                      CAPITOL VISITOR CENTER FTES

    Senator Durbin. So why would you have such a dramatic 
increase in a request for FTEs if we're--for this next fiscal 
year, when the CVC won't be open until the very end of that 
fiscal year?
    Mr. Hantman. We're actually phasing that in, Mr. Durbin. 
We're taking a look at--right now, our operations plan--and we 
have consultants, Zell Corporation, that came in, folks who are 
experts in visitor flow and operations of major spaces like 
this, and we've been meeting with Emily Reynolds and people 
from the Capitol Preservation Commission, 1\1/2\ years now, 
with the Zell group. What they're recommending is that we 
actually have an executive director for that group and a core 
staff. They should be onboard right now, basically, planning 
for the ultimate phasing in of the 260 people that Zell 
projects will need. And that executive director could certainly 
look at the Zell report and say that that number is off this 
way----
    Senator Durbin. These 260 are for the CVC exclusively.
    Mr. Hantman. That's correct.
    Senator Durbin. And you're asking for those FTEs in this 
year's fiscal appropriation, though the center will not be open 
until September of this next fiscal year?
    Mr. Hantman. We have authorization now, I believe, for 16 
of those 260 people. And of those 16, what we've started to do 
is actually hire--rather interview people--we can't hire them 
until we have an obligation plan signed for us--the people who 
are looking at the operations of the building. Potentially an 
assistant superintendent for the Capitol Building so that he or 
she could get together a staff that will make sure that the 
mechanical systems, the electrical systems, all of the things 
that are being installed correctly. They will be able to review 
that, be familiar with the systems when the building is 
essentially turned over. Those are the first people we want to 
bring on.

            CAPITOL VISITOR CENTER COMPLETION AND OPERATIONS

    Senator Durbin. Open to the public September 2006 is what 
you're saying?
    Mr. Hantman. From a construction perspective. From an 
operational perspective, Senator, the issue is, we have not yet 
hired that executive director. We've not been authorized to 
bring on any staff to do the operations side of it. We need 
that component, as well, so that whatever the operations group 
brings to the building, we'll be able to integrate it.
    And I don't know if, Ms. Reynolds, you have anything to say 
about that. We talked about this just this Monday evening.
    Senator Allard. If I might interrupt, Senator Durbin, and 
follow up on this, you're certain, from a construction aspect, 
that September 2006 would be when it's completed, open for 
occupancy.
    Mr. Hantman. That will depend, again, on the operations 
team, when they come on and what kind of work they can do early 
enough. In the best of all possible worlds, Mr. Chairman, this 
operations group would come on, and they would work in parallel 
with us, in terms of their programs--and the hiring that they 
need to do to get their staff together.

                         STRATEGIC PLAN NEEDED

    Senator Allard. Do you have a strategic plan in place 
where, when you reach this stage, we have some assurance that 
there's a step-by-step approach on how everybody's going to 
move into the offices and, a time schedule in which you 
anticipate that's going to happen? If you could elaborate 
further on whether you have the strategic plan.
    Mr. Hantman. Two points. First of all, let me clarify the 
September date again, in terms of construction. We have not 
gotten authority yet to award the expansion space for the 
House, for the Senate, for the exhibits.
    So I'm not sure. As soon as we can award that, we can 
assess what their completion date for those components of it 
will be. But in terms of the operations of the visitor center, 
the Congress has not yet determined who will be responsible for 
operating the visitor center, who they will report to, what 
committee they will report to; and, therefore, no decision has 
been made whether it will be an AOC responsibility or it will 
be another committee's responsibility, another group.
    Senator Allard. And why aren't those decisions being made?
    Ms. Reynolds. With your permission, let me just add a note 
here, Mr. Chairman.
    Those decisions have not been made. They are an ongoing 
discussion between Senate leadership, House leadership, and 
members of the Capitol Preservation Commission. They've been 
going on for several months now, most predominantly at the 
staff level, obviously with feedback to the respective members.
    I think, clearly, if we're looking at an 2006 opening date, 
clearly the need for those decisions is sooner, rather than 
later. Suffice it to say, we're working closely with the 
Architect on it, and it's--this is another one that's a team 
effort. We'd certainly appreciate your advice and counsel on 
this, as well, but, again, being done at the leadership level 
and with the Capitol Preservation Commission.
    Senator Durbin. Mr. Chairman, I just might say that we hold 
our witnesses and agencies accountable. Now we ought to hold 
ourselves accountable. I think the leadership on both sides of 
the Rotunda need to get together immediately and work this out. 
And I know it's contentious, and it hasn't been easy, but we 
can't blame them if the CVC doesn't open because we can't 
explain who's going to be in charge and make these key 
decisions. So, if you would like to reach out to Senator Frist, 
I'll reach out to Senator Reid, and let's see--Senator 
Cochran--maybe we can get some movement here on this.
    Senator Allard. I do think that we need to sit down with 
the leadership and put together some kind of strategic plan on 
how we're going to go through this and make these decisions, 
step by step. Has any kind of proposal been made to the 
leadership at all from your office? Have we suggested anything 
to them? Say, ``Look, we think this is realistic now. Can you 
agree to this?'' Have we taken that step?
    Ms. Reynolds. We took a step about 6 months ago, I think, 
and went back to the leadership with--not so much with an 
overall governance proposal, but we did provide to the 
leadership on both the Senate and the House side, really, more 
of an update, a working update, as a result of the operational 
meetings that have been held over the course of the last year 
with Zell, with this consultant, and really just looking 
broadly at the organization itself. As I said, the 
conversations have taken place over the last few months, with 
both Senate and House officers and staff. Obviously, this--
because it is an extension of the Capitol, this will be, 
presumably, a decision of the joint leadership and the CPC, of 
course, which has members from both sides.
    We've made progress. We are not yet prepared, I will say, 
at least at the staff level, with an overall recommendation. 
Again, we'd be--I'd love the opportunity to brief you all on 
the various and different proposals that have been made, the 
various and different discussions. And, you're absolutely 
right, this is one that needs our time and attention.

             CAPITOL VISITOR CENTER CONSTRUCTION MANAGEMENT

    Senator Allard. Mr. Hantman, I know when the project 
started out we had a couple of different contractors, and they 
didn't get along very well at the very start. Do we have an 
overall contractor that's in charge right now? It seems to me 
one of the things that needs to happen in a project, you need 
to have one contractor that's in charge, and you put incentives 
in place for them to perform and carry out what they say they 
will do. And it seems to me if we have one contractor who's in 
charge, he can be helpful to the staff in putting together some 
sort of strategy on how we can get this thing wrapped up in a 
timely manner, while holding down our costs.
    Mr. Hantman. Mr. Chairman, with the help of the General 
Services Administration, we conducted a nationwide search for a 
construction manager. We hired the Gilbane Corporation to be 
that construction manager and make sure that they coordinated 
the work of all of our contractors on the job. Our first-phase 
contractor for the excavation, for the structure, for all of 
that work, Centex Corporation, has completed their work. 
They're off the job. Our second-phase contractor, who is doing 
all the electro-mechanical and architectural finishes work, is 
Manhattan Corporation. And, in terms of coordination for the 
expansion spaces, to minimize complications, we're expecting 
that they, also, would be running the work, although we go for 
competitive bids on the expansion spaces, on the exhibit areas, 
things of that nature.
    So, yes, we do have people in place, both from Manhattan 
and the Gilbane side, and we are giving whatever advice that we 
possibly can to the Capitol Preservation Commission about 
what's going to be in place at what point in time, and how we 
can phase this work, so that we can get that center opened 
appropriately and in good order.
    Senator Allard. Well, then, who's ultimately accountable 
for getting this done on time? Is this Gilbane?
    Mr. Hantman. Our construction manager, Gilbane, is 
accountable to us. We have the fiduciary responsibility, 
certainly. And under our project executive, Bob Hixon, they 
report through to Bob Hixon, and Bob Hixon reports through to 
me.
    Senator Allard. Gilbane--are they doing their job? It seems 
to me this is their responsibility, to help you put together a 
strategic plan. Are they doing their job in that regard?
    Mr. Hantman. Well, in terms of strategic plan, relative to 
operations, that is not their responsibility. It is the 
construction side of it only, Mr. Chairman.
    Senator Allard. Go ahead, Senator Durbin.
    Senator Durbin. Are there any incentives or penalties in 
the contract with Gilbane, for performance?
    Mr. Hantman. For the contractors, we have liquidated 
damages. For Gilbane, they are a fee-based organization, and if 
they're not performing--it's up to us, basically, to make sure 
that they do perform or to take away work from them and give it 
to somebody else who can perform, when they don't.
    Senator Durbin. How much has Gilbane been paid?
    Mr. Hantman. I believe it's something like $15.5 million 
for the CVC Base and $2 million for the Senate shell.
    Senator Durbin. Okay.
    Mr. Hantman. I can verify that number.
    [The information follows:]

    As previously stated, I would like to verify the 
information referring to the amounts paid to Gilbane. In 
reference to the CVC base contract with Gilbane $15.5 million 
has been obligated and $13 million has been paid or expended. 
For the Senate shell space $2 million has been obligated and 
$1.6 million has been expended.

    Senator Durbin. But there are no incentives for them, as 
the management side of this. The incentives relate to the 
actual construction.
    Mr. Hantman. We have incentives for the contractors, in 
terms of--if they meet their schedules, they move ahead. We 
have awards for them, yes.
    Senator Allard. You know, it's not entirely clear to me who 
figures out the costs and the timeline schedule. Is that 
Gilbane, or is that your office or one of the contractors? Who 
puts that schedule together and says that it gets us to 
September, gets us to some kind of date after that, which we 
don't seem to be able to get specified.
    Mr. Hantman. Gilbane has the responsibilities for the 
master schedule. We have a schedule that came in from Manhattan 
Corporation, who is the contractor onsite now charged, 
basically, with all the work to finish the job. The issue, 
then, is--what Gilbane needs to do is take the schedules for 
the expansion space, for the exhibit areas, areas that we've 
not yet awarded, integrate them into a schedule, and make sure 
that we can all finish when we need to finish.
    Senator Allard. And why haven't those other spaces been 
awarded yet?
    Mr. Hantman. We need to have obligations plans signed by 
the House and the Senate to allow us to spend the dollars to do 
that, and we've not yet got those signatures.
    Senator Allard. I see. Okay.

                    CAPITOL VISITOR CENTER SCHEDULE

    Senator Durbin. Mr. Chairman?
    If I might ask Mr. Hantman--the GAO, when they took a look 
at this, agreed with your final cost figure, but disagreed with 
the occupancy--or maybe not disagreed, but said they felt that, 
by schedule, it wouldn't be completed until March 2007. Do you 
take issue with that date that they came up with?
    Mr. Hantman. Again, when we talk about the project, if we 
could define the nature of the project. The Capitol Visitor 
Center portion of it, the area that will welcome visitors, 
where people will walk down the entry ramps--and I'd welcome 
the opportunity to take you on a tour, Mr. Durbin--be screened, 
come into the great hall, go to the information booths, go see 
the orientation film, go on the tour, go to the cafeteria, go 
to the restrooms--all of that is projected in the current 
contracts that we have with Manhattan Corporation. The part 
that has not yet been awarded, and the part that will not be 
ready, at this point in time, in the fall of 2006, is, in fact, 
the expansion space, which has not yet been awarded. And that's 
where GAO is going and pushing that off. And until we get the 
contractor onboard and we work with them, we don't know what 
the schedule is for that work.
    Senator Durbin. And the contractor decision depends on 
leadership in Congress to decide responsibility----
    Mr. Hantman. We have bids on that now, Senator. The issue 
is--we can't award those bids, because we don't have the 
obligation plans signed to award them. Then we could move ahead 
and move with that contractor to nail down a completion time.
    Senator Durbin. Okay.

                CAPITOL VISITOR CENTER EXHIBITION SPACE

    Senator Allard. Well, are there other things, other than 
the expansion space, that could be causing a delay on this 
project?
    Mr. Hantman. The exhibit areas, Mr. Chairman. There's a 
wonderful exhibit area, which I showed you as we walked 
through--and, again, I'd welcome the opportunity for anybody 
who's not seen it, to take them through that again--we have not 
been able to award the contract for the construction of the 
exhibition areas. The Secretary of the Senate and the whole 
senior staff on the Capitol Preservation Commission, has the 
concern of, should we open the visitor center if the exhibition 
area is not ready to be opened, as well? And that's a debate 
that the Preservation Commission staff have been having. From 
my perspective, the best of all possible worlds, it should all 
be ready. We should be able to have full exhibits, have the 
air-conditioning system tested, so the original documents, 
amendments to the Declaration, amendments to the Constitution, 
all of those original documents that we're planning to put into 
the exhibition area, would safely be able to be installed 
there. We need to award the contract and move ahead and see 
just how we can shake it out. We still think we can make that.
    Senator Allard. I want to move on, but Ms. Reynolds, did 
you want to respond?
    Ms. Reynolds. I just wanted to add a word to what Mr. 
Hantman said, in terms of bringing the documents into the 
building and readying the exhibition space. And I certainly 
appreciate the commitment and the drive that the Architect has 
to get this facility up and running for all of us. It will be 
tremendous when it's done. But from an archival standpoint, 
both the Clerk of the House and I have the responsibility to 
work with the National Archives, who, of course, are the 
repository of the records of Congress. So one thing we would 
like very much to do--and I believe we have a meeting scheduled 
in this regard--is to have Mr. Hantman fully brief both the 
Archives and the Library of Congress, from whom we anticipate 
we will also borrow some documents, so that those 
preservationists, those archivists, can understand both the 
project in full, how the work will proceed, potentially, around 
the exhibition space, so that they have the assurance, before 
they loan precious documents to us, that they have the 
assurance and feel good about the prospect that those documents 
will be protected in this exhibition space if we still have 
ongoing work going on in other aspects of either the CVC or the 
expansion space itself.
    So, again, we'll keep you posted on that, but I think we 
have one additional important step to make, if you will, and I 
certainly didn't want to leave the impression that there's a 
delay, if you will, from our end. But we do have that 
responsibility, to protect the records of Congress, and need to 
make that one additional stop with those archival experts.
    Senator Allard. I think it would be helpful for this 
subcommittee if we can get some sort of timeline set down here 
with some estimated costs, and then we can check it off as we 
go along. And if for some reason AOC doesn't meet the timeline, 
we can ask why. And if you're under budget, we can have a 
celebration, when we reach those various milestones. I think a 
lot of Members in the Senate would feel more comfortable if we 
could have some sort of timeline out there to get things nailed 
down as best as we possibly can.
    Mr. Hantman. Absolutely.

                  ARCHITECT OF THE CAPITOL MANAGEMENT

    Senator Allard. I think it would make life much easier.
    The other thing that I would want to bring up, there's an 
article here about the AOC staff survey, and your staff 
expressed some dissatisfaction. I think you need to have 
workers that have bought into what you're doing. Noting some of 
the things several employees expressed concern about charges of 
favoritism and uneven and unfair work distribution, hire and 
promotions that were not necessarily based on qualifications 
and experience but based on personal connections. Those are the 
kind of comments that have been pulled out and that I have 
before me here. Is that a problem that you think truly exists? 
And even if it's a few employees, perhaps it is something to 
correct. I'd like to know what your suggestions are in that 
regard.
    Mr. Hantman. Mr. Chairman, we take those kind of charges 
very seriously, and we investigate every one of them. What we 
have tried to do, over the 8 years that I have been here, is to 
create a human resources division that is responsible, not only 
to external clients, but to internal clients. Our staff are the 
backbone of the agency. The AOC is a service agency, and the 
2,000 people we have essentially are our most valuable 
commodity. So, we are making sure that we have fair and open 
hiring practices, promotion practices, that we post jobs 
between jurisdictions, which never used to happen. Basically--
somebody who worked for the House office buildings wouldn't 
apply for a job in the Senate office buildings. They do that 
now. We make sure that the benefits are the same. If you're 
doing the same work, you get the same benefits. The 
classification of all jobs are just the same. So anytime that 
we hear something like that--and I hear it, I will talk to 
people, we will talk to our human resources folks and make sure 
that we get a full answer and that these people are treated as 
fairly as possible within the guidelines of the Federal 
Government-type regulations.
    Senator Allard. I do recognize there is a challenge----
    Mr. Hantman. There is.
    Senator Allard. But I'd encourage you to sit down and work 
with the employees and see if we can get it resolved. It sounds 
to me like maybe you've made some efforts in that regard, and I 
appreciate that.
    Mr. Hantman. If I could make a statement, Mr. Chairman, 
that was a very disturbing newspaper article. The headline was 
``Fear and Loathing in the AOC.'' Those are very, very heavy 
words. I had our folks go back to all the surveys. First of 
all, please be aware, we initiated 25 task groups; 300 people 
around our agency from all areas were invited in to talk, to 
give their points of view in an open manner, with an outside 
facilitator, impartial people, to talk about, what was wrong 
with their jobs. We wanted to know basically what the problems 
were, what the challenges were, how we can start addressing 
those challenges. We also conducted a survey that went across 
the entire agency, talking about the quality of services and 
how we can improve them.
    As a result of the surveys we've set up eight committees on 
communications--no question about that, we have to improve our 
communications--human resources, procurement, senior 
leadership, strategic planning, all of these issues. We have 
groups that have been set up to address these issues.
    But I think it's important to note that we went back to the 
surveys, and we studied these words that we saw. And the word 
``loathing,'' ``repercussions,'' ``payback,'' those with 
negative connotations did not appear in any of the surveys that 
came back from our employees. Ninety-six employees, out of 215 
participating, used the word ``fear.'' But the word ``fear'' 
was used regarding their concern about having their jobs 
outsourced following a study we're conducting as a 
congressional mandate. They did not use it in the context of 
fear in the workplace. I'm thinking that, clearly, there are 
some people who are not open enough or secure enough to express 
their opinions. We had a celebration for people who have 
Government service of, 30 to 35 years, last week. And I told 
the people in the labor division who were talking there that we 
want them to speak openly and talk about that. But I think it's 
important to note that that headline had nothing to do with 
what the surveys and the focus groups showed.
    So, basically, our conclusion really is, the journalist's 
choice of words were the journalist's choice of words. The fear 
was--related to outsourcing, not to the way people are treated. 
Most people stated that they liked their jobs. There was 
certainly room for improvement in communications and other 
areas, but it was a totally inappropriate headline.
    Senator Allard. I wanted to give you an opportunity to 
respond to that, because I think that you needed to have that 
opportunity.

     CAPITOL VISITOR CENTER GOVERNMENT ACCOUNTABILITY OFFICE REPORT

    Now, let me go on to the GAO report. And I know you have a 
chart over here. You just must be itching to use that chart.
    I want to give you an opportunity to respond to some of the 
criticism from the GAO report, and I think that's what that 
chart's all about. So why don't you go ahead and respond to 
those comments from the GAO report?
    Mr. Hantman. Mr. Chairman, the Capitol Visitor Center, I 
call it a magnificent challenge. It truly is that. As I 
indicated earlier Senator Durbin, the nature of the project has 
changed significantly since its inception, adding roughly $150 
million of new work to the project as it was under design and 
construction.
    If we could put the GAO summary of reasons back again, 
please.
    The GAO does talk about management. They talk about--we 
could have done a better job doing management. In retrospect, 
when you look at the issues that we have to deal with, managing 
all the changes, the multiple changes--from the security 
perspective, from the expansion perspective--we needed to 
manage them, and we could have managed them more effectively, 
but we have managed them very well right now.
    So where we talk about three-quarters of the $250 million 
increase due to factors, ``beyond, or largely beyond, AOC's 
control,'' that's GAO's language, ``77 percent of their $250 
million increase was beyond our control.'' The next line talks 
about design-to-budget items impacted by market conditions.
    The market volatility--since the budget for the House and 
the Senate expansion spaces was established in 2001, there have 
been material price increases. We have two estimates done for 
every piece of costs, Mr. Chairman. One of them is done by 
Gilbane, our construction manager; another is done by an 
outside firm, Hanscomb Corporation. We compared the two 
estimates for the work. With the escalating costs, the Hanscomb 
group indicates, in the Washington metropolitan area, some 22 
percent escalation has occurred within the last 12 months, 
alone. So when you've established a budget years ago, and you 
see that kind of escalation, the $35 million budget set for 
each of the expansion spaces for the House and the Senate did 
not conceive of that level of additional dollars. So that has 
impacted us tremendously.
    Limited competition due to a saturated construction market. 
You can see construction cranes all over the Washington 
metropolitan area. The pool of labor is down. The competitive 
bidding is down also, because there's enough work to go around, 
and contractors don't have to cut their prices; they can pick 
their jobs.
    Added costs to bidders due to security. As you know, Mr. 
Chairman, we have trucks being checked on The Mall. Thousands 
of trucks are being inspected by--and going through a big 
screening area--by the Capitol Police. They're double-checked 
when they come onto First Street, before they come on site. All 
of the workers that come onto our site are screened. They 
undergo retinal scans and police background checks. People in 
the construction industry who have a police record are not able 
to work on our job. That's a premium that contractors add to 
their contracts.
    Added--low estimates, and design not changed to meet the 
budget. When our numbers have come in higher than we 
anticipated, higher than our outside contractors and cost 
estimators have said, we come up with lists of things that 
could be eliminated from the project, could be changed. One of 
the things, which you may be aware of, we have a Buy America 
situation. If we had been able to bid our stone work on the 
international market, our contractors tell us, we could have 
saved $10 million. We have stone from Tennessee, from Ohio, 
from Pennsylvania. We fabricate in Wisconsin, in Vermont. All 
of this is American, and we're paying for that premium.
    So the issue is, we could cut out some of that stone, we 
can go to sheetrock, we can go to wood. What we're doing here, 
Mr. Chairman, is, we're building for the future. This is not a 
speculative office building. This is not a normal building. 
This is something that complements and supports the Capitol 
that's survived for 200 years; and, with the good Lord's grace, 
will survive for hundreds more. So this is a complement. It 
supplements what, in fact, is happening in the building. And 
the quality of the finishes--the stone, the bronze work, there 
is stone on the floor, there are quality woods, there are 
materials that make sense, and that your great-grandchildren 
will be proud to visit in future years. So, if we come up with 
lists of things to cut because our numbers come in high, we are 
told, no, we cannot cheapen the work. And I don't want to 
cheapen it, either.
    So the budget cannot be, as a normal job would be, one 
where you cut things out, you change it, you eliminate 
components of it. That is not an option open to us right now. 
So we are living with what the--essentially, the industry tells 
us the costs are going to be by those who choose to bid our 
projects.
    Senator Allard. Based on the GAO report and your experience 
up to this point, what have been your lessons learned? If you 
were to start back over with the project again, what would you 
do differently to make it a better project than what it is 
today?
    Mr. Hantman. Mr. Chairman, any architect or engineer who 
does a major project, and it's underway, under construction, 
has a tremendous fear of the words, ``While you're at it, why 
don't you''--add a piece to the exhibit areas, add new security 
criteria, change this, do a change order to your contract, 
because I don't like the way that's coming in. With the outside 
pressures we've had since 9/11, Mr. Chairman, nobody could have 
foreseen all the security issues that we have.
    As far as the expansion spaces are concerned, there's no 
doubt in my mind that those were meant to be future expansion 
spaces. When 9/11 hit, we got the money to finish them off, we 
made basic changes. We had to redesign our structure so that 
hearing rooms could have the long spans that they now have 
while they were under construction basically, this is in terms 
of the structure.
    So have your programs set on everything that you're going 
to do. Go to a single contractor--that was our original goal, 
but, because of the timeframe--and that was the timeframe that 
Senator Durbin referred to--we had this inaugural date to hit. 
It turned out to be impossible once all of these $150 million 
worth of changes were put in the project. Yet, we were still 
driving our contractors to do that, and we put out bids on that 
basis. We shouldn't have put out bids on that basis. We should 
have recognized earlier that that's a criteria that will lose 
us the bidders and the competitiveness of the bidding process.
    Senator Allard. I think that's a comment well made. As soon 
as you start changing the original order, you open up the 
contract, and it just becomes a blank check, and it's very 
difficult to control costs once you've done that. I've been in 
the position where I had a construction project. You know, I 
was building a veterinary hospital. And as soon as I started 
requesting a change here or there, you just open the whole 
thing up. And I can imagine, with this size of a project, 
that's a huge, huge issue. Do you think there might be any more 
major changes coming forward that could impact cost?
    Mr. Hantman. Well, as was indicated in your opening 
remarks, GAO, last time around, when we came before the 
subcommittees for costs, they said, ``There's further risk out 
there.'' GAO still indicates that there is further risk out 
there. Hopefully, not on the magnitude that we're talking about 
to date.
    We need to award the contracts that we have yet to award, 
and make sure that we can move ahead as expeditiously as 
possible. That's the best way to control the costs.
    Senator Allard. Mr. Chairman, do you have any questions or 
comments while we wrap this up?
    Senator Cochran. Mr. Chairman, I'm very glad that we've had 
an opportunity to have this exchange, and the question and 
answers have been very informative and helpful to our 
understanding of where we are with the visitor center project 
and the responsibilities of these fine individuals, who serve 
as Architect and Secretary of the Senate. We appreciate your 
service and your cooperation with our efforts to help make sure 
we're getting what we're paying for and we are not being frugal 
and living up to our responsibilities to the general public and 
to the Congress, itself, and the American people, in 
particular.
    Thank you, Mr. Chairman.
    Senator Allard. Mr. Chairman, I couldn't agree more with 
your comments, and I also understand the frustration when you 
have numerous bosses, like the Architect of the Capitol has. We 
all have our own views, and I understand the challenges of your 
position, but I do think the more we can get down as a plan, 
the better off we'd all be so we can understand that. So, 
again, I would encourage you to get something in writing to us, 
some kind of a plan. It would be helpful, I think, for the 
subcommittee.
    I agree with the chairman, this has been a very helpful 
hearing, from both of you. And I know there's a lot of 
dedicated people here that want to do the right thing for 
Congress, and want to do the right thing for the people. We do 
want this to be something we're all proud of, and I do see a 
lot of things in that visitor center that are just great. I 
want to make sure we can get through this with as few bumps as 
we possibly can toward completion.
    I want to thank all of you for your effort. Thank you.
    Mr. Hantman. Thank you, Mr. Chairman.
    Ms. Reynolds. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. And I would request, of the witnesses, 
that, within 1 week, if you could respond to additional 
questions in writing, then we'll make those a part of the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Offices for response subsequent to the 
hearing:]
                 Questions Submitted to Emily Reynolds
              Questions Submitted by Senator Wayne Allard
    Question. What are your recommendations for the closed captioning 
of Senate hearings based on the pilot project your office conducted in 
conjunction with the Judiciary Committee?
    Answer. In September, 2003, the Office of the Secretary, in 
coordination with the Judiciary Committee, agreed to implement a pilot 
program for the closed captioning of Senate committee hearings, based 
on language included in the fiscal year 2003 Legislative Branch 
Appropriations report.
    The pilot is summarized based on the request given to us by your 
committee to assess the feasibility, use and cost of the closed 
captioning pilot for committee hearings.
    The original plan called for the pilot to run for a period not to 
exceed 90 days with the Secretary's Office of Captioning Services to 
provide the hardware and software using voice recognition technology, a 
technology selected at the suggestion of the Judiciary Committee. The 
Judiciary Committee provided funding for the product contract.
    The Secretary's office invested almost $18,000 in support of the 
project, which included equipment and training. In addition, the 
director of captioning services served as the project manager and 
provided extensive counsel and training. A room on the mezzanine level 
of Hart 216 was prepared and furnished by the Architect of the Capitol 
and the Sergeant at Arms for the captioners' work given the need for a 
noise-free environment. The Senate Recording Studio also assisted in 
providing the necessary feed and encoding equipment.
    The project concluded on October 6, 2004, following the completion 
of two captioned hearings for the Judiciary Committee. Unfortunately, 
the project encountered delays involving both the contractor and the 
technology, which eventually led to the selection of a second 
contractor in order to complete the pilot.
    The first contractor began work on January 21, 2004, and conducted 
its first dry run on a committee hearing on February 25. A second dry 
run followed approximately one week later on March 3. The contractors 
were not familiar with the realtime captioning software, and on-site 
training was provided. In addition, software bugs with the technology 
had to be addressed and remedied. The contractors also experienced 
numerous hardware problems, making it difficult to determine at times 
whether the problems were software or hardware related. An overall lack 
of experience in the use of voice recognition technology led to a high 
error rate, so high the captions could not be understood.
    The Judiciary Committee opted to terminate their contract with the 
first contractor in mid-March, 2004, and proceeded to engage a second 
operator just over one month later. The second contractor began 
training in late August, and two dry runs of committee hearings were 
conducted in September.
    The contractor employed the voice recognition technology on 
September 22 and again on October 6 to cover two Judiciary Committee 
hearings that were broadcast on the Senate's internal television 
committee channel. In the first hearing, the average percentage of 
sentences with recognition errors was 55 percent. In the second 
hearing, the captioners showed improvement with the technology reducing 
the average percentage with recognition errors to 42 percent. (As a 
standard of comparison, captioning services for Senate broadcasts posts 
an accuracy rate of 99 percent).
    The second contractor's captioners continued to experience setbacks 
with both the software and hardware, and have rendered their opinion 
that at least currently, the realtime captioning project is not 
appropriate for Senate committee work, particularly given the unique 
language of the Senate and the requirement for accuracy.
    The Secretary's office provided a means for the Senate community to 
respond to the pilot, with comments, creating an e-mail address, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e48787948d888b90a4978187ca97818a859081ca838b92ca">[email&#160;protected]</a> Two e-mail notices were sent prior to the 
internal broadcasts of the two closed captioned hearings.
    Four responses were received at the e-mail address. One was an 
inquiry as to how to access the hearing; a second was from a committee 
staffer inquiring further about the pilot. Two responses came from a 
Congressional Research Service staffer who suggested transcript 
corrections.
    To the best of our knowledge, voice recognition technology has not 
yet been employed to realtime caption television programming. In 
addition, the availability of voice writers is minimal in the region, 
particularly those with captioning experience. While the technology may 
hold promise for the future, on the basis of the pilot project, it is 
not a feasible technology for the Senate's use at this time.
    Question. What information can your office provide to Senate 
offices on employment compensation, hiring and benefit practices, 
particularly for those newly-elected Senators who are in the process of 
setting up shop? Would it be useful for Senate offices to have an 
outside organization study compensation, hiring and benefit practices 
for Senate staff, and in your view, would it be appropriate for us to 
fund such a study?
    Answer. Two departments under the direction of the Secretary, the 
Disbursing Office and the Senate Chief Counsel for Employment (SCCE) 
can and do provide information to Senate offices, including newly-
elected Senators' offices, regarding compensation, hiring and benefit 
practices.
    With respect to hiring and benefit practices, the SCCE does the 
following: (1) informs offices about how and where to advertise job 
openings, how to interview candidates, how to conduct reference and 
background checks, how to establish appropriate criteria for selecting 
among job applicants, and how to finalize and document job offers; (2) 
provides each office with dozens of sample employee policies that are 
used across the Senate and assists the office with customizing the 
policies; (3) assists offices with preparing employee policy manuals 
and supervisors' manuals; (4) educates the offices about the range of 
benefits customarily offered by Senate offices, such as the number of 
days of paid leave, paid holidays, and paid FMLA leave, and assists 
offices in establishing their benefits; (5) educates the offices about 
all of their legal obligations and employees' legal rights under 
employment laws, which include compensation, hiring and benefit 
practices.
    Like the SCCE, the Disbursing Office provides extensive and 
detailed information to newly elected Senators' offices during the 
Senators-elect orientation program and in one-on-one training with all 
new offices. The training includes both written and verbal information 
on the budget structure and available funds by fiscal year for the 
office, the salary limitations for the office, the appointment and 
hiring procedures including the statutory prohibitions on when 
appointments and transfers can be effective, other employment 
restrictions, procedures and requirements for salary adjustments and 
termination processing, guidelines and procedures for processing 
overtime and paying for unused annual leave, and any other relevant 
employment and payroll procedures. Counseling on all federal benefits 
(retirement, Thrift Savings Plan, health insurance, life insurance, 
flexible spending accounts) is also provided to all new Senate 
employees.
    With respect to compensation, because each member's office is, by 
law, an individual employer, each office establishes its own salaries. 
Twice each fiscal year, the Report of the Secretary of the Senate is 
published in compliance with Section 105 of Public Law 88-454, approved 
August 20, 1964, as amended. The Report is a full and complete 
statement of the receipts and expenditures of the Senate.
    Based on the work of both the Disbursing Office and the Senate 
Chief Counsel for Employment, it would be neither useful or necessary 
to hire an outside organization to study compensation, hiring and 
benefit practices. Because each office is an individual employer, 
employee positions and job responsibilities are not the same across 
offices, and salaries and benefits often reflect issues unique to each 
state. To the extent policies and benefits are common across offices, 
that information is already shared across, and provided to, Senators' 
offices.
                                 ______
                                 
                  Questions Submitted to Alan Hantman
              Questions Submitted by Senator Wayne Allard
                                 budget
    Question. AOC is in the process of conducting a mid-year review of 
the current year budget. Based on this analysis, do you believe there 
will be any funding this year that could be reprogrammed to any 
projects AOC is requesting in the fiscal year 2006 budget? If there are 
savings, please explain why.
    Answer. The mid-year review resulted in satisfying some emerging 
fiscal year 2005 needs and a few fiscal year 2006 needs as well. The 
review identified potential sources of funding to pay the Botanic 
Garden claim, the closing costs for the ACF purchase and the Capitol 
Power Plant-Replace Ash Handling.
                             strategic plan
    Question. In December 2003, AOC issued a strategic plan for the 
agency. How is the implementation of that strategic plan specifically 
affecting your organizational structure and the resources you need for 
fiscal year 2006?
    Answer. Resources in terms of both dollars and FTEs are needed to 
continue to make progress in implementing improvements (outlined in our 
Performance Plan) in key areas such as project management, IT security, 
Enterprise Architecture, worker safety, financial controls, and 
employee communications. We have not requested additional FTEs to 
implement these improvements and have ensured that the dollars 
requested in our budget are aligned with our strategic action plans. As 
part of our internal process to develop our budget, we require each 
responsible manager to include discussion on how the requested budget 
is linked to accomplishing one or more of AOC's Strategic goals.
    In addition, the AOC proposed organizational structure would allow 
us to more effectively manage day-to-day operations and achieve our 
strategic goals. It will facilitate delegations of authority and 
clarify lines of communications by formally recognizing the official 
management structure of the agency.
    Question. In your testimony you say ``we are continuously 
evaluating our efforts so that we continue to excel, meet and exceed 
expectations.'' On what basis can you say AOC is excelling, meeting and 
exceeding expectations?
    Answer. The AOC is constantly reviewing our progress and looking 
for ways to improve our operations. Examples of improvements that allow 
us to excel, meet, and exceed expectations include:
  --Financial Management
    --Developed a Management Control Program Policy--currently in the 
            review and approval process. Implementation team is forging 
            ahead as the policy receives final approval. The team has 
            completed the initial review of the first two internal 
            control cycles: payroll and procure-to-pay.
  --Project Management
    --Implemented a ``pilot'' PM organization to align staff with 
            mission critical goals.
    --Continued to implement a Program Development Process that 
            includes the prioritization of projects by a senior-level 
            panel comprised of all jurisdictional superintendents. The 
            project prioritization process was most recently used in 
            the summer of 2004 in conjunction with determining the 
            fiscal year 2006 Line Item Construction Program (LICP) as 
            recently submitted to The Congress.
    --Developed tools to effectively communicate priorities and 
            progress of projects. Formal Program Development Process 
            procedures have been developed and communicated to all 
            parties through various means. Briefings have occurred. 
            Portions of these procedures, as appropriate, have been 
            included in AOC manuals. The process, to include its 
            specific application to the recommended fiscal year 2005 
            Line Item Construction Program (LICP), has further been 
            communicated through the AOC's Capital Improvement Plan 
            (CIP) prepared in February 2004. These procedures, to 
            include their application to the recommended fiscal year 
            2006 LICP, are similarly being captured and communicated 
            through the revised CIP currently nearing completion.
  --Created an employee feedback process manual (undergoing final 
        review of procedures for implementation).
  --Conducted Focus Groups and a Human Resources Management Division 
        Customer Satisfaction Survey--action plans are being developed 
        to address opportunities for improvement especially in the 
        areas of communication, on a wide variety of AOC issues, 
        policies and procedures.
  --Completed the 2004 Building Services Customer Satisfaction Survey 
        (BSCSS) and reported findings and action plans to stakeholders.
  --Linked senior executive and employee performance management systems 
        to our strategic goals and objectives.
  --Launched our workforce planning office which is currently 
        developing a workforce plan/strategy to outline the process for 
        AOC long-range workforce planning.
  --Continued to implement IT Investment Management, Enterprise 
        Architecture and Security programs.
    Question. What are the most significant challenges you face in 
meeting your strategic plan goals and how does your budget attempt to 
address these priorities?
    Answer. One of the biggest challenges we face, like many government 
agencies, is the aging of our workforce and the need to transfer 
knowledge to the next generation of skilled workers.
    Maintaining our aging and historic facilities is another challenge 
we face. This is why the Facility Condition Assessment (FCAs) are so 
critical to achieving our Facilities Management Goal. The funding 
request for a FCA of the Library of Congress is an example of this.
    In our fiscal year 2006 budget development process, we aligned the 
requests by budget line item to ensure our budget was consistent with 
the Strategic Plan goals and objectives. This was our first attempt to 
move towards a performance based budget. We are continuing to refine 
this process as we prepare future budgets.
    As outlined in our strategic plan, a significant impact on the 
achievement of these goals is the time and money spent responding to 
data calls, and meeting with various groups that are conducting reviews 
of the AOC. The AOC staff is devoted to ensuring these various groups 
have the most accurate and complete information available to support 
the reviews.
                    chief operating officer position
    Question. I understand you are working with a panel made up of the 
Public Printer, the Comptroller General, the Chief Administrative 
Officer of the House and someone yet to be appointed from the Senate 
Sergeant at Arms to select a new Deputy ACO/COO. Could you please 
explain to the committee the process you are using to review applicants 
and make a selection? Has the panel ever met to discuss and approve 
this selection process? Have criteria been established for use by the 
panel in evaluating candidates? Did the panel participate in the 
establishment of these criteria and approve them? When do you expect a 
selection to be made? How many people applied?
    Answer. As instructed by the Committees, in mid-December, 2004, we 
initiated contact with several executive employment search firms to 
identify and select one to conduct a nation-wide recruitment for a new 
COO. After a review of several executive employment search firms, we 
contracted with Korn/Ferry International on December 22, 2004.
  --Korn/Ferry initiated their recruitment search process and suggested 
        that AOC also initiate a recruitment announcement through the 
        Federal U.S.A. Jobs system.
  --AOC staff coordinated the vacancy announcement language with Korn/
        Ferry and the announcement was posted from January 21 through 
        March 4, 2005.
    On March 15, 2005, candidate review criteria, developed by Korn/
Ferry for their use to narrow the number of candidates to be referred 
to the panel, were submitted to the panel for review and input. 
Received input on the review criteria from each of the panel members, 
(last one dated March 30, 2005). In addition to the review criteria 
panel members also suggested steps they would like to follow in 
completing their review and interview of candidates.
    On April 5, 2005, the panel was provided with a matrix documenting 
their input on the review criteria to be used by Korn/Ferry in 
completing the candidate review process. The panel was also provided 
information on suggestions they submitted for ``next steps'', and on 
information they requested from Korn/Ferry for the panel's review and 
interview of candidates.
    On April 14, 2005, the Committees were sent an update on the 
process, including the matrix outlining the criteria that Korn/Ferry 
would use in their review of candidates; In addition, we have outlined 
the ``next steps'' that the panel wanted to follow for their review and 
interview of candidates.
    While Korn/Ferry was completing their review of the candidates, the 
AOC began to work with the panel members' staff to block out times when 
the panel could convene to review and interview the candidates. Based 
on the initial information received on the panel members' availability, 
the earliest date when all the members could convene is May 26, 2005.
    On April 28, 2005, I sent a letter to all the panel members asking 
that they review their calendars to see if they could meet before May 
26. From the information received to date, the panel will have their 
initial meeting on May 17. Based on the travel schedule of some of the 
panel members, it currently appears that the next date they can convene 
is May 26. I anticipate that the panel will likely need to convene 
several times to complete their review.
    On May 3, 2005, Korn/Ferry delivered the candidate books to the AOC 
and they in turn were delivered to the panel the next day.
    Next steps (as suggested by the panel):
  --The panel reviews the candidate information for the top 12 
        candidates that have been submitted to them.
  --The panel narrows the number of candidates to a short list of best 
        qualified.
  --The panel interviews the best qualified to determine the top 
        candidates (not less than three).
  --The panel refers (not less than three) candidates for my 
        consideration, interview and selection.
    Completion of my part of the review and interview of candidates is 
dependent on the panel completing its work. If they cannot complete 
their review until late in May or early June, we may need an extension 
of time. If it appears that this will be necessary, I will make such a 
request for the Committee's consideration as soon as we have that 
information.
                           project management
    Question. Project management was one of the areas cited by the 
Government Accountability Office as needing improvement in its 2003 
report on the AOC. What improvements have you made in this area and 
what specific examples can you cite of ``lessons learned?'' Over half 
of AOC's current construction projects over $250,000 are behind 
schedule. Why? What is AOC doing to control schedule overruns? I 
understand AOC established a pilot project management organization last 
September and that is an improvement over the old way of operating, 
including better accountability for managers. Why is it still a pilot 
and why are employees reporting to both their ``old'' boss and their 
``new'' boss? Isn't it time to move ahead with this and finalize the 
structure, as recommended by GAO?
    Answer. Organization Improvements: On September 1, 2004 the AOC 
implemented a ``pilot'' Project Management organization. This 
organization is comprised of Project Managers, Construction Managers, 
and Construction Inspectors. The proposed alignment establishes clear 
performance expectations for delivering high quality design and 
construction projects on time and within budget mainly because the 
project and construction management functions reside, for the first 
time, within the same organization. The alignment is based largely on 
recommendations and observations made by GAO, specifically to ``align 
project management staff and resources with AOC's mission-critical 
goals'' and that ``too many hats'' are being worn by those assigned 
project management responsibilities.
    The pilot Project Management organization is tasked with delivering 
the projects identified through our Program Development Process that 
leads to the development of Capitol Improvement Plans. Smaller projects 
are managed by staff in the Engineering and Architecture Divisions, and 
some projects are managed directly by staff in the Superintendent's 
offices. In addition, there are four projects that are being managed by 
dedicated teams hired specifically for these one-time capital 
improvements efforts: the Capitol Visitor Center, the West 
Refrigeration Plant expansion, the Supreme Court Modernization, and 
most recently, the Hill-wide Perimeter Security program. Decisions as 
to who manages which projects are made jointly by Project Management, 
Architecture and Engineering and Superintendent's management staff. The 
primary goal, however, is to have the Project Management organization 
manage CIP projects, with the remaining project work being managed by 
others. Since September 1, 2004, an effort has been made to transition 
the aligned organization and its assigned workload while ``bridging'' 
those projects in transition to avoid losing institutional knowledge.
    Lessons Learned: The AOC continues to show progress in using its 
best practices to successfully executing design and construction 
projects. Key findings from last year's Lessons Learned surveys (fiscal 
year 2004) concluded that the AOC needed to focus on project planning, 
scope development, and design coordination. In the ensuing months the 
AOC developed critical check lists and sign-off sheets to assure that 
all necessary project elements had been considered and appropriately 
addressed before proceeding. The Program Development Process leading to 
CIP development is serving as a gate-keeping mechanism to assure that 
inadequately-developed projects do not proceed forward in the funding 
request stream.
    In addition, development and publication of the Program of 
Requirements (Pre-design Manual) and assuring consistency with IDIQ 
design task Orders will also significantly improve project scoping and 
documentation before they are sent forward as part of developing the 
CIP.
    Schedule Overruns: One of the key components to creation of the 
pilot Project Management organization was to establish clear 
performance expectations for delivering projects on time and within 
budget. Success in achieving these performance indicators is 
anticipated because the project and construction management functions 
reside, for the first time, within the same organization. When 
variances with schedule, quality or budget arise, the project team is 
required to work together in an attempt to overcome the variance and 
keep the customer apprised accordingly.
    In addition, each of the jurisdictions at the AOC have been 
assigned a Jurisdictional Executive from the Project Management 
organization. Each Jurisdictional Executive acts as the liaison between 
the customer and the project-delivery organizations for resolution of 
project-related issues. The goal with this arrangement is to foster 
continuous communications and to keep projects moving forward on-time 
and within budget.
    Although the pilot organization has made several positive steps 
with respect to project delivery and reporting, it must be recognized 
that achieving an optimal goal for ``on schedule'' is a multi-step and 
multi-year endeavor. As noted previously, many measures and processes 
have been put in place, but the AOC has not yet delivered a CIP project 
developed with the benefit of the Pre-design Manual, and there are 
additional refinements to the Program Development Process that need to 
be defined, such as creating an Acquisition Strategy process. The 
expectation that a seven-month-old organization can overnight correct 
problems inherent in projects developed years ago without benefit of 
the new processes and organizational structured and accountability is 
overly optimistic. GAO pointed out in its original General Management 
Review that such changes take years to accomplish in an orderly and 
measured manner. The AOC is confident that it continues to make steady 
progress in project delivery and reporting.
    Pilot Organization Approval: On April 22, 2005, letters were sent 
by the Architect of the Capitol to both Appropriation's Committees, 
providing notification of his plan to implement a new organizational 
structure for the Agency. The proposed organizational chart delineated 
changes to the current, higher-level management structure, which in-
turn would modify the reporting structure for the Project Management 
organization, upon implementation. The letters indicated that the 
proposed organizational structure would be implemented in May, unless 
other feedback was provided by the Committees. It was thought prudent 
to await the implementation of the higher-level management structure, 
before implementing the pilot organization. Subsequent feedback to the 
letters has been received by the Committees and the requested follow-on 
information is being provided. Procedures for implementation of the 
pilot organization will commence immediately after implementation of 
the AOC organizational structure.
    When the pilot organization was established in September 2004, it 
was made clear to the impacted employees that their official management 
structure would remain unchanged and that supervisory actions such as 
performance evaluations would continue to be performed by their current 
supervisor. This direction has not changed. Communications between the 
Acting Director of Project Management and the management of the 
impacted employees are continuous in an attempt to minimize confusion 
and disruption to the staff. It is acknowledged that implementation of 
the pilot organization will eliminate any perceptions of a ``dual'' 
reporting structure for the employee.
                           perimeter security
    Question. Approximately $120 million has been appropriated for 
perimeter security since 1999. I understand on the Senate side, the 
work is at least a year behind the schedule that we were given last 
year, with completion now planned for fall of 2007. Why has it slipped 
by a year? Will additional funds be required to complete the overall 
perimeter security work around the Capitol complex? How much and when 
is it needed?
    Answer. Work was prioritized to complete those items necessary for 
the Inauguration. Completion of all remaining work presently funded is 
scheduled for fall of 2006, with the exception of First St., N.E., 
which will be complete in fall of 2007 and Maryland Avenue, N.E., which 
will be complete the fall of 2008. Additional funding will be required 
for the completion of perimeter security for the Capitol Complex. The 
total amount and date required, is needed as follows:

------------------------------------------------------------------------
                                        Funding
           Jurisdiction                Required         Date Required
------------------------------------------------------------------------
Senate Office Buildings...........      $5,985,000  2007 Budget
House Office Buildings............       4,319,000  August 2005
Supreme Court.....................       2,885,000  2007 Budget
Library of Congress (Phase 1).....       5,637,000  June 2005
Capitol Square \1\................       8,200,000  June 2005
                                   -------------------------------------
      TOTAL.......................      27,026,000  ....................
------------------------------------------------------------------------
\1\ Supplemental.

             master plan and facility condition assessment
    Question. In July 2001, this Committee directed AOC to develop a 
master plan for the Capitol complex since the existing master plan is 
25 years old. What is the status of the master plan? AOC has also been 
working to develop condition assessments for each of the buildings. 
What is the status of that effort and what are the most significant 
capital requirements should we expect over the next 5 years?
    Answer. In August 2004, a contract was awarded to a consulting team 
to undertake development of the Capitol Complex Master Plan. In 
December, a draft Vision Statement for the plan was completed and 
reviewed by an Expert Advisory Panel through meetings convened by the 
National Academies of Science and Engineering. Based on that meeting, 
the consultants moved forward with the development of various complex-
wide concept plans. A second meeting with the Expert Advisory Panel was 
convened by the National Academies during the week of March 7, 2005 for 
the purpose of reviewing the various concept plans. We are now entering 
the stage where more detailed facility plans are developed for each 
jurisdiction. This will involve extensive interaction and consultations 
so as to accommodate each jurisdiction's facility needs within an 
overall Concept Plan for the Capitol Complex. The Capitol Complex 
Master Plan initiative is on schedule for completion in late 2006, and 
remains within budget.
    Contracts for Facility Condition Assessments (FCAs) for the Capitol 
Building, House and Senate were completed in early 2005. Projects 
identified as a result of these studies will begin to appear with the 
AOC's submission of its fiscal year 2007 Budget Request. FCAs for all 
other jurisdictions, except for the Library of Congress, are ongoing 
with completion of the House, Senate, and Capitol scheduled for 
completion Spring 2005 and the remaining jurisdictions are scheduled 
for late 2005. Funding for the Library of Congress FCA was requested in 
the AOC's fiscal year 2006 Budget Submission and, subject to the 
receipt of funding, would start in the fall of 2005.
    Capital Projects are classified as one of four types with Deferred 
Maintenance (DM), Capital Improvement (CI), and Capital Renewal (CR) 
identified primarily through FCAs while Capital Construction (CC), 
which is new construction of a building or construction that enlarges 
and existing facility, identified primarily through the Capitol Complex 
Master Plan. Because the Capitol Complex Master Plan is ongoing, and 
because 7 of the 10 jurisdictions do not yet have completed Facility 
Condition Assessments, it will be 2 to 3 years before a comprehensive 
and complete list of Major Capital Projects, defined as those over $10 
million, will be available. In the interim, and based only on the three 
FCAs completed to date, the following Major Capital Projects, have been 
identified:

                          [Dollars in millions]
------------------------------------------------------------------------
  PROJ NO          PROJECT TITLE          COST RANGE         TYPE
------------------------------------------------------------------------
  HB05004A Cable TV System Upgrade,         $10-20  CI
            Phase I, HOB
    950042 Infrastructure                    10-20  CI
            Improvements, Phase I,
            DSOB
  SB05004A Cable TV System Upgrade,          10-20  CI
            Phase I, SOB
    000228 Fire Damper Installation,         10-15  CI
            FHOB, RHOB & LHOB
    990347 480V Switchgear and               10-20  CR
            Transformer Replacements,
            RHOB
   900265H Dome Rehabilitation, Phase        50-60  CR
            II, USC
    970280 Interior Renovations, HUGE        40-50  DM
            & HUGW
    970279 Domestic Hot and Cold             10-25  DM
            Water System Replacement,
            RHOB
    990364 Exterior Stone and Metal          30-50  DM
            Preservation, USC
    970351 Subway Upgrade, RSOB to           10-25  CI
            Capitol, RSOB
    030335 Emergency Evacuation and          10-25  CI
            Notification System
            Upgrade, USC
    990401 Window Restoration and            10-20  CR
            Replacement, USC
    970278 Heating System Conversion--       10-20  CR
            Steam to Hot Water, LHOB
    980298 House Chamber Renovation,         25-50  CR
            USC
    980050 HVAC System Upgrade, Phase        20-30  CR
            1, HOB
    980433 Garage Concrete                   20-40  DM
            Replacement , RHOB
    990402 Sprinkler System                  40-50  CI
            Installation, USC
   040234F Fire Alarm System Upgrade,        20-30  CI
            RHOB
    030320 Fire Damper Installation,         20-30  CI
            DSOB
    030319 Smoke Management System           20-30  CI
            Installation, HSOB
   030309B Enhanced Filtration for           70-90  CI
            Air Handling Systems,
            DSOB
   030309B Enhanced Filtration for           60-80  CI
            Air Handling Systems,
            RSOB
   030309B Enhanced Filtration for           30-40  CI
            Air Handling Systems,
            HSOB
   030309A Enhanced Filtration for           30-40  CI
            Air Handling Systems,
            LHOB
   030309A Enhanced Filtration for           25-35  CI
            AC1-15 & AC22-25, CHOB
   030309A Enhanced Filtration for           10-20  CI
            Air Handling Systems,
            FHOB
    000299 Smoke Management System           20-40  CI
            Installation, RSOB
    980050 HVAC System Upgrade, Phase        20-30  CR
            2, HOB
    030004 Parking Garage, Lot 9,            30-40  CC
            RHOB
------------------------------------------------------------------------

                          capitol power plant
    Question. GAO recently made recommendations to cut operating costs 
at the Power Plant. Do you have any plans to implement these 
recommendations in fiscal year 2006? How much funding might be saved by 
proceeding with GAO's recommendations?
    Answer. The start-up, testing, and post construction activities for 
the expansion of the West Refrigeration Plant and the new plant central 
control system will commence in the 1st quarter of fiscal year 2006 and 
tentatively complete in the 3rd quarter. Due to the nature of these 
manpower intensive activities, it is unlikely that we will implement 
manpower changes until fiscal year 2007. The major cost saving 
recommendation for the efficient use of fuel has been implemented and 
we expect to save approximately $3,000,000 in fiscal year 2006.
                     fire and life safety projects
    Question. AOC has been provided close to $190 million in the past 5 
years for fire and life safety projects to ensure the buildings in the 
Capitol complex meet appropriate codes and standards. How much more 
needs to be done and at what cost? What is the schedule for completion 
of all fire and life-safety related projects?
    Answer. Considerable improvements in Fire Protection and Life 
Safety of the buildings in the Capitol complex have been completed and 
implementation of others continue throughout the complex. As shown in 
the Capital Improvements Plan there are numerous additional projects 
including fire alarm, smoke detector and fire sprinkler upgrades, 
emergency lighting and exit light upgrades, firefighter telephone 
installations, audibility and intelligibility upgrades, kitchen exhaust 
system upgrades, and egress improvements which remain to be completed. 
For fiscal year 2006 there are nine projects totaling $24,850,000. The 
total projected cost for projects included in fiscal year 2007 through 
fiscal year 2010 in the CIP ranges from $264 million to $499 million. 
It will take approximately 8 years to complete all currently defined 
projects. In addition, there are several egress studies and designs 
which will be completed in fiscal year 2007 for which cost and schedule 
projections cannot be made at this time.
               capitol police off-site delivery facility
    Question. The pending supplemental appropriations bill in the 
Senate includes $23 million as requested by the Capitol Police Board 
for a new off-site delivery facility for the police. This project was 
first identified as a ``top 5 priority'' in the Capitol Police 1999 
Master Plan, yet the project has been very slow to gain momentum. It is 
now urgent with the new baseball stadium forcing USCP out of the 
current space within the year. Can you assure us that you will make 
this project a very high priority and obligate funds this fiscal year?
    Answer. The safety and well-being of those who work in and visit 
the Capitol and the ability to facilitate the legislative process are 
our top priorities. To ensure we achieve these objectives, all items, 
for use in the Capitol complex undergo an inspection process prior to 
entering the Capitol perimeter. Having an acceptable Capitol Police 
Off-site Delivery Facility is critical to the entire community and our 
goal is to obligate the funds this fiscal year.
                       fort meade storage modules
    Question. The budget includes $41 million for the construction of 
two additional storage modules for the Library of Congress at Fort 
Meade, MD. Could you explain the status of construction of the first 
and second modules at Fort Meade? I understand this is a long-term 
project, with many more modules to be constructed to meet the Library's 
storage needs. What is the total cost and timeframe for the Fort Meade 
storage modules project?
    Answer. The first Book Storage Module is complete and the building 
is occupied. The second Book Storage Module is 98 percent complete and 
should be occupied by the latter part of May, 2005. The Library of 
Congress currently plans to design and contract a total of 13 High 
Density Book Storage Module at Fort Meade. If Modules 3 and 4 are 
appropriated in fiscal year 2006, the Library of Congress desires to 
construct a new Book Storage Module every two years. At this pace, the 
thirteenth module will be complete and ready for use in 2026. The total 
cost in current year dollars, excluding design fees, is expected to be 
as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Book Storage Module 1...................................      $3,500,000
Water Tank..............................................       4,100,000
Book Storage Module 2...................................       9,500,000
Book Storage Modules 3 & 4..............................      40,700,000
Supporting Infrastructure...............................  \1\ 20,000,000
Book Storage Module 5...................................      11,000,000
Book Storage Modules 6-13 ($11,000,000 each)............      88,000,000
                                                         ---------------
      TOTAL.............................................     176,800,000
------------------------------------------------------------------------
\1\ To be split among all projects.

                             privatization
    Question. I understand GAO has been asked to look at whether 
privatizing any AOC functions would make sense. Do you have any 
suggestions as to whether consideration ought to be given to 
contracting-out any of AOC's in-house functions?
    Answer. We have been and will continue to look for areas that may 
be appropriate for consideration. We have outsourced a number of areas 
including trash and waste removal; shuttle bus service; pest control; 
some janitorial functions; a variety of A/E support functions; 
information resources help desk operation and most of IRM's server 
support; lawn mowing and snow removal; several audit and accounting 
functions; art work conservation; emergency elevator repair; equipment 
repair and maintenance (fork lifts, floor machines); kitchen exhaust 
hood/duct inspection, testing and cleaning; testing, inspection and 
certification of elevators; testing and certification of fire alarm 
systems; testing and certification of fire extinguishers; and window 
cleaning. We are considering options to outsource facilities management 
of the ACF (assuming purchase) and for Capitol Police Buildings and 
Grounds; and outsourcing of replacement of high efficiency HVAC 
filters.
                         gao management review
    Question. What is the status of AOC meeting GAO's recommendations 
from its 2003 review of the AOC relative to financial management 
improvements, including preparing auditable financial statements? What 
remains to be done in the financial management area? Are the resources, 
including staffing levels, in your budget request adequate to meet 
these requirements?
    Answer. August 2004 report (GAO-04-966) says the following in 
relation to Auditable Financial Statement and Related Internal 
Controls: ``The ability to prepare agencywide financial statements 
that, along with related internal controls, can be independently 
audited represents a key component of an organization's ability to 
institutionalize financial management best practices and establish a 
sound foundation of accountability and control. AOC has made progress 
in preparing agencywide financial statements; supporting an audit of 
its September 30, 2003, balance sheet; and establishing related 
internal control policies and procedures. As part of its efforts to 
prepare agencywide financial statements, AOC put in place internal 
control policies and procedures related to funds control, financial 
reporting, and inventory management, and is starting work on other 
actions to further enhance financial control and accountability.''
    Question. How has AOC improved its internal control framework, 
including establishing an environment in which management and employees 
maintain a positive and supportive attitude toward internal controls 
and conscientious management (see p. 41 of GAO/03/231)?
    Answer. For the past two years as a part of our financial audit, 
our auditors have conducted a review of internal controls. All of their 
stated concerns have either been addressed or are being addressed. We 
are in the process of establishing an Internal Control Program. This 
program will assist us in establishing an ``accountability'' framework 
that will include training of all management employees on their 
responsibilities with respect to internal controls.
    Question. What has AOC done to develop and communicate consistent 
human capital policies and procedures at all levels (p. 43 GAO/03/231), 
including provision of pay raises, bonuses, and awards?
    Answer. As part of its Human Capital Plan, AOC has continued to re-
write policies that need revision, or write new AOC wide policies that 
didn't previously exist. Listed below by fiscal year are the policies 
in supervisor's offices and available on AOC's intranet. For policies 
that have a direct impact on employees, hard copies are distributed to 
every AOC employee. To facilitate understanding of some policies, 
briefings are given to supervisors and/or employees where they are 
given an opportunity to ask questions. In addition, supervisors and 
managers use a variety of methods to communicate policies to their 
employees. As part of reviewing the focus group result findings, AOC 
management is currently considering other measures that should be 
taken.

------------------------------------------------------------------------
                                                       Date
------------------------------------------------------------------------
Fiscal Year 2003:
    Determining Eligibility for Sunday   6/15/03
     Premium Pay.
    Performance Review Plan for Exempt   7/1/03
     Personnel.
    Hours of Duty......................  9/2/03
Fiscal Year 2004:
    Holiday Pay........................  11/21/03
    Absence and Leave..................  12/5/03
    Awards.............................  12/19/03
    Leadership Development Program.....  6/14/04
    Clearance of Separating Employees..  7/19/04
Fiscal Year 2005:
    Avenues for Assistance.............  10/04
    Pay Under the Architect's Wage       3/1/05
     System.
    Career Staffing....................  Completed, awaiting approval
    Performance Communication and        Completed, awaiting approval
     Evaluation System.
Currently under development:
    Pay Under the General Schedule.....
    Employee Development...............
    Exempt Personnel...................
------------------------------------------------------------------------

    Question. Why did it take AOC 18 months from the time the GAO's 
report was issues, to initiate an employee survey, to begin to address 
GAO's recommendation to comprehensively collect and analyze data from 
employee relations groups?
    Answer. GAO made the following recommendation in their January 2004 
report ``Gather and analyze employee feedback from focus groups or 
surveys before fiscal year 2005, as well as communicate how it is 
taking actions to address any identified employee concerns.'' The AOC 
addressed this recommendation in September 2004 by conducting employee 
focus groups. This was completed ahead of the GAO recommended date and 
in line with our Performance Plan.
                         capitol visitor center
    Question. Several changes to the CVC contract appear to be due to a 
simple lack of coordination with both internal officials, such as the 
fire marshal, and other organizations including the Supreme Court. Why 
did this happen and what are you doing to prevent this in the future?
    Answer. Several changes such as stair pressurization and fire 
damper monitoring are a result of professional disagreements between 
the Fire Marshal and the designer of life safety systems for the CVC. 
The uniqueness of a below grade building and inherent conflicts between 
the desire for increased security and the often inflexible nature of 
building code contributes to areas of disagreement on how to best 
handle life safety issues. These differences came about during normal 
review of building life safety systems as the details were developed.
    The Supreme Court issue you are referring to is the requirement 
that the book tunnel between the Supreme Court and Library of Congress 
be undisturbed when the utility tunnel is constructed. Apparently the 
construction sequence requiring removal of the book tunnel for 
excavation of the utility tunnel and subsequent rebuilding was not 
known to Supreme Court security personnel, and could not be 
accommodated. We are proceeding to build the utility tunnel up to the 
book tunnel on both sides with minimal impact to the utility tunnel 
construction.
    Question. Why was the Government responsible for all of the CVC 
Sequence 1 delay when monthly CVC progress reports indicated that the 
Sequence 1 contractor was not devoting sufficient resources to keep the 
project on schedule?
    Answer. The CVC contract requires the government to compensate the 
contractor in time and money for delays cause by differing site 
conditions or owner changes that delay his work. Weather delay is 
compensable only with time. During negotiation with the Sequence 1 
contractor and all of the subcontractors, a portion of the delay was 
attributed to weather. However, most of the delay was due to differing 
site conditions and changes to the Sequence 1 contract for added scope. 
These problems created inefficiencies that kept the Sequence 1 
contractor from fully staffing the project while awaiting direction on 
corrective action.
    Question. GAO's risk-based cost and schedule estimates for the CVC 
to date have been much more accurate than the AOC's or that of their 
construction management firm. What is AOC doing to integrate risk 
assessment in its future estimates?
    Answer. The estimates prepared by AOC and our construction manager 
have been based on what was known at the time. We did not ask for 
additional funding beyond the needs that could be identified. The delay 
costs for Sequence 1 in Spring 2003 were based on the delay of a couple 
of months that had occurred to date, and did not contemplate an 
additional eight and a half months of delay to Sequence 1 that 
followed. There was also an expectation at that time that the delay 
impact on commencing Sequence 2 work would be minimal since it was felt 
the two contracts could be overlapped to make up most of the two month 
delay.
    Today the risk is reduced to the delay in award of the Expansion 
space contract, the Exhibit construction contract, the House Connector 
tunnel and the Jefferson Building work. Had these contracts been 
awarded in February or March 2005, the risk would be minimal; however 
with the current delay in awarding those contracts, the impact is 
uncertain. The risk of differing site conditions remains for the House 
Connector tunnel and Jefferson Building.
                        organizational structure
    Question. What steps is AOC taking to address concerns raised by 
the Comptroller General regarding AOC's organizational structure, in 
response to a letter (2/8/05) from the Architect seeking the CG's 
comments? Will AOC enable the CVC Project Director to report directly 
to the Architect?
    Answer. We developed and submitted for your information a revised 
organizational structure incorporating most of GAO's recommendations 
after follow up discussions with the Comptroller General. The CVC 
director reports directly to the Architect.
                 capitol visitor center utility tunnel
    Question. According to GAO, over $1 million in additional costs was 
incurred due to AOC's indecision on how to construct the utility 
tunnel. Why did this happen?
    Answer. The utility tunnel work in the Sequence 1 contract did not 
include new requirements by WASA for the tie-in of utilities at Second 
Street that was estimated to cost approximately $1 million. In order to 
reduce the cost for this work, a Bulletin G was created by the 
Architect to use precast concrete sections in lieu of poured in place 
concrete. Pricing received for Bulletin G was not as good as expected 
so other alternatives such as drilling, use of utility trench or direct 
burial were investigated. Ultimately, the Bulletin G scope of work was 
determined to be the best value to the government for first cost and 
long term maintenance. Pricing was available from both Sequence 1 and 
Sequence 2 for the work, and since Sequence 1 was nearly finished with 
their work and Sequence 2 was slightly lower in cost, the decision was 
made to award work to Sequence 2. During the period of tunnel 
evaluation, the cost of steel pipe and other metals, which were always 
in Sequence 2, went up significantly in cost. The Sequence 2 contractor 
could not order this material until a decision was made on the tunnel 
configuration, since that could affect the pipe required. The added 
cost for Sequence 2 materials escalation is $1 million.
                  capitol visitor center construction
    Question. In November 2004, GAO recommended AOC use incentives to 
keep CVC contractors on schedule, and rigorously track, document, and 
analyze the reasons for delays. What specific steps have you taken to 
implement these recommendations? The fiscal year 2006 budget request 
includes $36 million to complete the CVC. Are you confident this will 
be sufficient? Does this leave you with sufficient contingency? What 
steps are you taking to ensure the project stays within this new budget 
of $517 million? You say that delays in the job were due in part to a 
record year of bad weather--Why wasn't weather listed as one of the 
reasons for delay when the change order was settled?
    Answer. The Sequence 2 contract has an award fee of $1.2 million 
available to the contractor that is used as a positive incentive for 
good contractor performance including timely completion. The first 
portion of that award for $150,000 is currently being evaluated. The 
Sequence 2 contractor's schedule is being evaluated monthly to resolve 
any delay issues and track their progress against the schedule. In 
addition, the construction manager has developed a more integrated 
Master Schedule for the project that includes all those activities in 
addition to construction that are required to complete the CVC facility 
for opening. To date, aside from the 10 month delay for Sequence 1 to 
complete their work and allow Sequence 2 to begin, there have been no 
delays in the Sequence 2 contract. We believe the $36.9 million 
requested in fiscal year 2006, together with the reprogramming request 
of $26.3 million in fiscal year 2005, provides sufficient funds and 
contingency to complete the project, providing those funds are forth 
coming to avoid delays in Sequence 2 for award of contracts such as 
Exhibit construction and House and Senate Expansion space. This also 
assumes our estimate of $15 million is adequate to cover the 10 month 
delay for Sequence 2 to commence work while awaiting the completion of 
Sequence 1 work, that there are no significant added costs for the 
House Connector tunnel and no significant owner changes to the current 
project including the Jefferson Building work, the Expansion spaces or 
the CVC.
    Unusually severe weather is excusable time, but not compensable. 
Total delay was 235 working days. The sequence 1 contractor was 
compensated for a maximum of 217 days. (Some subcontractors experienced 
a greater weather impact than others, and their settlements were based 
on a lower number of compensable days).
    Question. Has AOC formally evaluated the performance of its CVC 
construction management firm? If not, why not? If so, when and with 
what results? What incentives or penalties are provided in their 
contract for performance?
    Answer. We have evaluated the construction managers' performance 
twice to date, in August 2004 and February 2005. The result indicated 
improvement was needed in schedule management, dispute resolution, and 
the preparation of change order packages. Since their last evaluation 
significant improvements have been made in dispute resolution and 
change order preparation, with schedule management currently being 
addressed. Their contract does not provide for either incentives or 
penalties, which has been normal for this type contract.
                           project management
    Question. AOC does not maintain consistent baseline data in its 
Project Information Center to track changes to project costs and 
schedules. What progress have you made developing information systems 
that quickly collect and roll up information on all ongoing capital 
projects to senior management and congressional committees? What still 
needs to be done?
    Answer. One of the greatest challenges the AOC has faced is how to 
satisfy the many demands to report project status both internally and 
externally. Each entity wants to know basically the same things: is a 
project within budget, is it on time, and will it meet the customer's 
needs? The challenge in the past has been that the various entities 
have asked for project performance indicators in many different ways. 
In the attempt to satisfy the many different but similar questions, the 
AOC has not done as good a job as it could have.
    In September 2004, when the pilot organization was initiated, 
project reporting through PIC was suspended pursuant to senior 
management's interest in reporting on contract status in lieu of 
project status. A manually-produced report was developed that clearly 
indicated contract status, and the data could easily be verified by 
comparison to financial and procurement documents. These so-called COTR 
reports have been kept internally for six months.
    Over the past few months, the AOC has been working closely with the 
Government Accountability Office during the current cycle of its 
General Management Review. The GAO had asked that the AOC provide yet 
another series of project performance indicators. On a parallel path, 
the AOC project management team had been developing a report format 
that would answer recurring questions asked over the past several 
years, as well as satisfy a requirement to report project status on a 
quarterly basis. The report format uses project performance indicators 
based on verifiable contract and financial data, but also includes a 
text status. The format has been reviewed by some of the 
Superintendents, who have given it favorable comments related to its 
ability to accurately portray project status. Together, the AOC and the 
GAO are working to assure that this format, along with definitions, 
will satisfy project reporting requirements. The AOC's published a 
manually produced version of this report at the end of March 2005. 
Feedback will be gathered before any attempt is made to make changes in 
PIC to produce the report from an automated system.
    Question. How will the new (pilot) project management organization 
improve your ability to manage projects? How will you determine if this 
new organization is a success?
    Answer. The pilot organization has established clear performance 
expectations for delivering high quality design and construction 
projects on time and within budget. Now that the project and 
construction management functions reside, for the first time, within 
the same organization, these expectations can be managed by recognizing 
success and poor performance. Internally, the AOC has developed 
customer satisfaction surveys to measure performance as viewed by the 
jurisdictions. External customer satisfaction feedback will be sought 
in the future.
    In its transitional state, only a few projects funded in fiscal 
year 2005 have begun the construction phase with the benefits of better 
planning and scope development. As the organization matures and 
delivers more design and construction projects, performance results are 
anticipated to improve.
    Question. You recently released to employees a set of manuals 
containing project management best practices that are to be followed. 
How will you ensure that AOC employees actually follow those best 
practices?
    Answer. Key components of the best practices manual processes are 
summarized in checklists that accompany project development through its 
scope development, design, construction, and closeout phases. These 
checklists serve as quick references to assure adherence to critical 
processes. Projects without completed checklists are not permitted to 
proceed without a senior level exemption being granted. However, due to 
the significant competition for funding resources, project managers and 
their clients, the Superintendents, are increasingly rigorous in 
developing project data to satisfy justification requirements. Project 
managers who utilize the manuals will be successful in completing their 
checklists.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                         organizational issues
    Question. In February, ``The Hill'' newspaper published an article 
entitled ``Fear and Loathing at AOC'', which reported on the results of 
a recent AOC employee feedback survey. According to the article, the 
survey showed that senior management at AOC is dysfunctional, 
inconsistent, and lacks leadership qualities. It also reiterated some 
long-standing issues at AOC, such as poor communications and very low 
morale. Why do these issues still persist? What actions are you taking 
to respond to employee concerns?
    Answer. The article stems from an initiative we took to solicit 
employee feedback to identify specific areas for improvement.
    In September we asked over 300 employees, from all organizations, 
divisions, levels, and shifts, to partake in 25 focus groups. The 
purpose of holding the focus groups was specifically to get employee 
feedback on areas for improvement. The participation and the outcome 
were beyond our expectations: 215 employees shared their opinions on 
our way of doing business. We also obtained very good feedback on 
opportunities for improvement.
    In addition to these focus groups, the Human Resources Management 
Division (HRMD) invited employees to share their opinions in a customer 
satisfaction survey in October. The questions focused on the services 
HRMD provides and how well they deliver those services. The findings 
from the HRMD survey were compiled and validated against the issues 
raised during the focus groups. This process took some time in that 
both electronic and paper copies of the survey had to be processed and 
analyzed. By coupling this information, the senior management team had 
a broader cross-section of employees' views, opinions, and suggestions 
to evaluate.
    Through our employees active participation in this feedback-
gathering process we identified the following areas where we need to do 
a better job:
  --Communicating (provide clearer, easier-to-understand information, 
        obtain more employee input, explain work processes, policies, 
        procedures, publish an organizational chart);
  --Providing clearer direction (explain internal procedures and 
        policies including job expectations, manage shifting 
        priorities, coordinate assignments, set service standards);
  --Recognizing employee accomplishments (more acknowledgment of 
        individual accomplishments by senior managers, use of awards);
  --Explaining our Mission and Vision;
  --Outlining customer service expectations (define the standards for 
        excellence, hold internal organizations accountable for quality 
        service, clearly communicate standards); and
  --Setting Agency standards that provide responsive customer support 
        to meet AOC employee needs from HR, Procurement, EEO and other 
        service organizations.
    Based on the information and feedback received, we have created 
eight cross-jurisdictional work teams that are taking each of the areas 
identified for improvement and they are developing action plans to 
address them as expeditiously as possible.
                         capitol visitor center
    Question. What do you expect the final cost of the CVC to be? What 
do you see as the major reasons for cost increases in this project and 
what are you doing to control costs during the remainder of the 
project?
    Answer. We expect the final cost for the construction of the CVC 
facility to be $517.6 million. The major reason for the cost increase 
to date is the addition of $141.8 million in budgeted added scope, and 
$29.1 million in delay costs due to the added scope and differing site 
conditions. Sequence 1 delay costs totaled $10.3 million, and $18.5 
million is expected to be required to fund Sequence 2 costs as a 
consequence of the 10 month delay while Sequence 2 waited for Sequence 
1 to complete their work. Controlling costs for the remainder of the 
project requires that there be no significant changes to the contract 
and Expansion space, no significant differing site conditions in the 
House Connector tunnel or Jefferson Building work, and timely release 
of the project funding so contracts can be awarded and change orders 
processed.
    Question. Without additional appropriations, when will the CVC 
project run out of money?
    Answer. The CVC project has 24 line items. We are already out of 
funding for the item to fund change orders for the Sequence 2 contract 
and will be out of authority for funding CVC Administration in mid May 
2005. Until we receive additional funding we cannot award the House and 
Senate Expansion space. We have funding available in other line items, 
but those funds are required for construction of the Exhibit area, $6.6 
million; security equipment, $4 million; perimeter security, $2 
million; House Connector tunnel, $2.5 million; and Jefferson Building 
work, $3.3 million.
    Question. GAO's risk-based cost and schedule estimates have been 
much more accurate that the AOC's or their construction management 
firm. What is AOC doing to integrate risk assessment in its future 
estimates?
    Answer. The risks remaining on the CVC project relate primarily to 
our complicated building systems, and those elements of work not yet 
under contract which includes the House Connector tunnel, the House and 
Senate Expansion space, and the Jefferson Building work. The systems 
include the filtration system since it involves a new technology, and a 
very complicated fire safety and smoke evacuation system. To minimize 
the above risk the entire team, including subcontractors, is working to 
ensure we understand all of the issues required to complete and turn 
over these systems.
    Question. According to GAO, over $1 million in additional costs was 
incurred due to AOC's indecision on how to construct the Utility 
tunnel. Why did this happen?
    Answer. The utility tunnel work in the Sequence 1 contract did not 
include new requirements by WASA for the tie-in of utilities at Second 
Street that was estimated to cost approximately $1 million. In order to 
reduce the cost for this work, a Bulletin G was created by the 
Architect to use precast concrete sections in lieu of poured in place 
concrete. Pricing received for Bulletin G was not as good as expected 
so other alternatives such as drilling, use of utility trench or direct 
burial were investigated. Ultimately, the Bulletin G scope of work was 
determined to be the best value to the government for first cost and 
long term maintenance. Pricing was available from both Sequence 1 and 
Sequence 2 for the work, and since Sequence 1 was nearly finished with 
their work and Sequence 2 was slightly lower in cost, the decision was 
made to award work to Sequence 2. During the period of tunnel 
evaluation, the cost of steel pipe and other metals, which were always 
in Sequence 2, went up significantly in cost. The Sequence 2 contractor 
could not order this material until a decision was made on the tunnel 
configuration, since that could affect the pipe required. The added 
cost for Sequence 2 materials escalation is $1 million.
    Question. When can we expect the CVC to be open to the public and 
will the Senate expansion space be ready for use at the same time? What 
are the liquidated damages for the CVC and are they the same for 
completion of the Senate expansion space?
    Answer. We expect the CVC portion of the project to be available 
for public use in September 2006. The Senate space will probably not be 
ready, especially since we still do not yet have the funding approved 
to make the award of the contract. The liquidated damages on the CVC 
are $16,000 a day and the liquidated damages for the House and Senate 
Expansion Space work is $4,750 per day.
    Question. Considering that the CVC will most likely not open until 
fiscal year 2007, why have you asked for so much in your fiscal year 
2006 operations budget for the CVC? Additionally, why have you 
requested so many FTE's?
    Answer. The operations and maintenance costs included in my fiscal 
year 2006 budget request were based on a June timeframe as opposed to 
September opening date. It is estimated that the costs for operations 
and maintenance will be $10.4 million rather than $15.3 million as 
originally requested. I have included these requirements in the AOC 
budget submission until a determination is made on who will have 
oversight of the facility. An additional $20 million was included for 
start-up and opening costs for gift shops, Visitor Center services, 
Capitol police furniture, fixtures and equipment, House recording 
studio, data network wiring and equipping of the House shell space. 
Since the House shell space estimate was also included in the fiscal 
year 2006 Budget request of the Chief Administrative Officer of the 
House, this request can be reduced to $9.1 million for this portion of 
the budget. As a result of the September opening date, the payroll 
estimate can be revised from $12 million to $7 million with an 
associated reduction in FTEs.
    Question. In November 2004, when GAO presented its most recent 
estimate of the cost to complete the project, it recommended that you 
immediately enhance the CVC project team's schedule management 
capacity, use incentives and other means to keep contractors on 
schedule, and rigorously track, document, and analyze the reasons for 
delays. What specific steps have you taken to implement these 
recommendations?
    Answer. The Construction Manager contracted with a scheduling 
consultant to help their field staff in schedule management. In 
addition, we have contracted with the firm that prepared the ``Cost to 
Complete'' in 2004 to review those efforts and offer recommendations. 
To date those efforts still require improvement and a senior official 
has assumed those responsibilities.
    We currently have a $1.2 million award fee that is used as an 
incentive for outstanding performance by the Sequence 2 construction 
contractor.
    Question. Who was responsible for ensuring that adequate contract 
and project summary schedules were developed, kept current, and adhered 
to and for documenting delays and their causes as they occurred? How 
well in your view, was this done over the course of the project?
    Answer. The construction manager has responsibility for ensuring 
that adequate contract and project summary schedules were developed, 
kept current, and adhered to as well as documenting delays and their 
causes as they occurred. That work has been marginal to date, and they 
are changing the personnel responsible for that effort to a senior 
official on site.
    Question. How much has AOC paid Gilbane to manage the CVC 
construction work and how well has Gilbane performed? Has AOC formally 
evaluated Gilbane's performance? If so, when and what were the results? 
If not, why not? What incentives or penalties are provided for in 
Gilbane's contract for performance?
    Answer. Gilbane's contract for construction management for the CVC 
portion totals $15.5 million. Payments to date total $12,772,847. We 
have evaluated the construction managers' performance twice to date, in 
August 2004 and February 2005. The results indicated improvement was 
needed in schedule management, dispute resolution, and the preparation 
of change order packages. Since their last evaluation significant 
improvements have been made in dispute resolution and change order 
preparation, with schedule management currently being addressed. Their 
contract does not provide for either incentives or penalties, which has 
been normal for this type contract.
    Question. In view of the cost and completion increases for this 
project, what incentives are there for your various consultants to 
control these items?
    Answer. The design and construction manager consultants' primarily 
incentive is the reputation they receive on projects such as this one. 
They are very concerned that this project be viewed in the end as a 
success, and that they personally are viewed as having successfully 
overcome huge scope additions and differing site conditions to complete 
the project in a timely and cost effective manner, in spite of the 
challenges imposed upon them.
    Question. What is the overall status of AOC's efforts to correct 
the internal control weaknesses reported from the fiscal year 2003 
audit?
    Answer. The AOC has approved a policy to establish an Internal 
Control program modeled after the program at the Library of Congress. 
It has been modified to comply with the intent of the Sarbanes Oxley 
Act of 2002 and OMB Circular A-123. Development of the policy is 
partially complete with a target implementation date of September 30, 
2005. The program's development is currently being handled by 
contractors. The program will require additional resources for its 
implementation.
    Question. When does the AOC expect the fiscal year 2004 audit to be 
completed?
    Answer. All field work has been completed. The final requirement to 
complete the audit is for AOC management to sign representation letters 
which we are in the process of accomplishing.
    Question. Could the AOC provide a copy of the fiscal year 2004 
audit report to this committee as soon as they receive it from their 
auditors?
    Answer. Yes.
    Question. Is the AOC expecting any new, significant internal 
control findings from the 2004 audit?
    Answer. The auditors have not yet provided us with a ranking of the 
audit findings as to significance. The answer though is clear, there 
are significant findings. The audit found 15 new findings not all of 
which were material. There were also 6 repeat findings from the 
previous year. Most of the significant internal controls findings were 
weaknesses in the Payroll, Personnel and Procurement areas.
    Question. The proposed AOC organization chart dated December 2004 
shows the Project Executive for the CVC directly reporting to the 
Architect of the Capitol. Has this reorganization taken place?
    Answer. Reorganization proposal has been submitted for Committee 
review and we propose to implement in May. CVC Project Executive 
reports to the Architect of the Capitol.
    Question. The proposed AOC organization chart dated December 2004 
shows a Chief of Staff reporting directly to the Architect of the 
Capitol. What are the duties of the person in this position? Will there 
be any overlap in the duties of the Chief of Staff and the Chief 
Operating Officer?
    Answer. The Chief of Staff assists both the Architect and COO in a 
variety of agency outreach communication and Congressional support 
needs. With the COO's extensive internal operational functions, on a 
strategic as well as day to day basis, the support of the Chief of 
Staff allows the COO to concentrate more fully on these 
responsibilities. Following are the duties of the COO and Chief of 
Staff.
    Duties of the Chief Operating Officer/Deputy:
  --Responsible for reviewing and directing the operational functions 
        of the Office of the Architect of the Capitol including: 
        facilities operation and maintenance; safety; design, 
        construction and project management; administration and 
        modernization of information technology systems employed by the 
        Office; productivity and cost-savings measures; strategic human 
        capital management, including performance management and 
        training and development initiatives; financial management, 
        including the integration of operational functions and 
        financial management to ensure that budgets, financial 
        information, and systems support the required strategic and 
        annual plans.
  --Serves as senior advisor to and representative of the Architect. 
        The individual will provide advice and assistance on all 
        aspects of the management and operations of the AOC; provides 
        advice on all operational aspects of AOC business functions 
        including facilities operation and maintenance; safety; design, 
        construction and project management; procurement and 
        contracting; budget and financial management; information 
        technology; human resources, and other administrative 
        management matters.
  --Assists the Architect in promoting reform and measuring results, 
        and is responsible to the Architect of the Capitol for the 
        direction, operation, and management of the Office of the 
        Architect of the Capitol. Additionally, the individual is 
        responsible for implementing the Office's mission and goals; 
        and providing organization management to improve the Office's 
        performance.
  --Responsible for developing, implementing, annually updating, and 
        maintaining a long-term strategic plan covering a period of not 
        less that 5 years.
  --Responsible for developing and implementing an annual performance 
        plan that includes annual performance goals covering each of 
        the general goals and objectives in the strategic plan and 
        including to the extent practicable quantifiable performance 
        measures for the annual goals.
  --Responsible for proposing organizational changes and new positions 
        needed to carry out the Office of the Architect of the 
        Capitol's mission and strategic and annual performance goal and 
        will ensure that the AOC's organizational structure promotes 
        efficiency and effectiveness.
    Duties of the Chief of Staff:
  --Assist the Architect and the COO in exploring and developing 
        program and management ideas, evaluating problems and 
        developing suggested course of action in program and policy 
        development and evaluation; conducts research and provides data 
        to assist the Architect and COO in their review and evaluation 
        or program and policy proposals from staff, incorporates the 
        perspective of Members and or Congressional staff in the 
        evaluation of AOC programs, operations and policy.
  --Assists the Architect and the COO in day-to-day information 
        management, priority initiatives, meetings and meeting 
        information, and may represent the Architect or the COO in 
        meetings with staff and stakeholders.
  --Manages legislative affairs; develops and nurtures relations with 
        Members and staff; tracks legislative mandates; facilitates 
        Congressional meetings for the Architect and COO; assists in 
        leading AOC outreach to Congressional staff to help ensure that 
        the Agency is addressing Congressional support needs.
  --Manages and coordinates Agency communications; assesses agency 
        internal and external communications processes and develops 
        appropriate improvement initiatives; develop proposals for 
        communications alternatives to address Agency communications 
        gaps or focused initiatives to meet identified needs.
                       procurement irregularities
    Question. Mr. Hantman, we understand in part from The Hill article 
titled ``Fear and Loathing at the AOC'' that your Focus Group findings 
noted the following customer service concerns with your entire 
Procurement Department:
  --Your process, roles, and responsibilities are either ill defined or 
        not defined at all;
  --There is a general lack of understanding of the businesses they are 
        procuring for; and
  --Procurement procedures are not applied consistently.
    We also understand that your fiscal year 2003 financial audit 
uncovered procurement irregularities at the CVC and in fiscal year 2004 
the auditors have found these same irregularities throughout the AOC.
    What steps have you taken to correct this serious situation of work 
being performed before a contract is awarded?
    Answer. In January 2004, the Procurement Division began requiring 
more information when an unauthorized procurement was discovered. This 
information includes a description and quantity of the unauthorized 
procurement, why it was needed, the benefit acquired, why a requisition 
was not prepared and a Contracting Officer allowed to place the order/
contract, the circumstances that led to the unauthorized procurement, 
the name of the vendor used, the vendor's invoice, how the vendor was 
selected, the basis for determining if the price was fair and 
reasonable, other vendors and prices considered, the date the service 
or supply was received and requested by the Government, documentation 
from the Budget Office that funds are available if the unauthorized 
procurement utilized prior year funds, actions taken to prevent future 
unauthorized procurements, and an explanation why the unauthorized 
procurement should be ratified rather than holding the individual who 
made it personally responsible. At the same time, a Standard Operating 
Procedure was established in the Procurement Division to provide policy 
and guidance to Procurement Division staff when they discover an 
unauthorized procurement. On June 21, 2004, the Deputy Chief of Staff, 
issued a memorandum to all Superintendents and Division Directors 
stating that the practice of unauthorized commitments was unacceptable. 
On March 14, 2005, the Deputy Chief of Staff issued a second memorandum 
requiring that the Superintendents and Division Directors who had 
issued unauthorized procurements since June 2004 meet with the Deputy 
Chief of Staff and the Director, Procurement Division regarding this 
issue. On March 22, 2005, Architect of the Capitol Order 34-01-01 
Ratifications of Unauthorized Procurements was signed by the Deputy 
Chief of Staff to establish AOC-wide policy and underscore the 
importance of complying with procurement regulations and the 
ratification process.
    Question. What processes does your Procurement Department have to 
detect and prevent these situations from recurring in the future?
    Answer. As previously stated, several processes were put in place 
to address and prevent unauthorized procurements. The implementation of 
these processes began January 2004 and culminated on March 22, 2005 
with the Architect of the Capitol Order 34-01-01 Ratifications of 
Unauthorized Procurements.
    The Procurement Division typically detects unauthorized 
procurements in three manners. First, an AOC employee may contact the 
Procurement Division directly to discuss a possible unauthorized 
procurement. Second, a contractor may contact the Procurement Division 
to inquire about recent and/or on-going work, at which time it becomes 
apparent that an unauthorized procurement has occurred. Third, the 
Procurement Division recently teamed with the Accounting Division to 
establish a notification process when an invoice is received that 
predates the contract or order. In all three instances, the Procurement 
Division responds by investigating to determine if the occurrence is 
actually an unauthorized procurement. If it is, then the appropriate 
Jurisdiction/Organization's official is required to submit the 
information required by the ratification process.
    Question. In the last year, how many times did your Procurement 
Department discover this situation where a contractor performed work 
prior to a valid contract being awarded?
    Answer. During the time frame of April 1, 2004-April 30, 2005, the 
Procurement Division discovered 28 situations where a contractor 
performed work prior to a valid contract being awarded.
    Question. How many times was the responsible AOC employee required 
to submit a statement for contract ratification?
    Answer. In all 28 situations that were discovered, the responsible 
AOC employee was requested to provide a sufficient explanation to 
determine if a ratification would be issued.
    Question. Who is the ratifying official if not you and what steps 
do they take to ensure these serious irregularities are prevented in 
the future?
    Answer. The March 22, 2005, Architect of the Capitol Order 34-01-04 
Ratifications of Unauthorized Procurements specifies that the ratifying 
official is the Architect of the Capitol, the Chief Operating Officer, 
the Deputy Chief of Staff, or their designee.
                           personnel controls
    Question. Mr. Hantman, your employees in the Focus Group findings, 
and your auditor, in the two audits (fiscal year 2003 and fiscal year 
2004) have identified numerous findings in the Personnel Office. The 
findings of the Focus Group and the auditor are similar in many ways, 
for example:
  --Focus Group--Employee questions receive either incorrect 
        information or no information at all, answers depend on who you 
        ask since not all staff is knowledgeable.
  --Audits--Information is not properly maintained for an employee, 
        official personnel files are not up-to-date, information is 
        routinely entered incorrectly into the payroll/personnel 
        system, and no checking and verification is performed.
    What are you doing to address the numerous serious Focus Group and 
Audit findings?
    Answer. As a result of preliminary findings from the financial 
audit, Human Resources requested an expert assessment of our Payroll 
and Personnel processing by the National Finance Center (NFC). The 
assessment was completed in March 2005, and we expect a final report at 
the beginning of May. Although checking and verification is performed, 
we have determined that it needs to be accomplished earlier in the 
process to prevent errors, rather than discovering errors and 
correcting them. Based on preliminary findings from both the Audit and 
NFC assessment, a number of internal controls have been instituted. In 
addition, Human Resources is considering a consolidation of personnel 
processing functions to provide greater internal controls, but we will 
review NFC's assessment report and recommendations before a final 
decision is made.
    As part of AOC's Human Capital Plan, Workforce Management and Human 
Resources are working jointly to review AOC's Human Resources 
competency model, management will assess employee's using the model, 
and developmental needs will be addressed.
    Question. When your Personnel Office's processes and systems lack 
fundamental internal controls, you open your agency to waste or worse, 
to fraud. Have any overpayments been made to AOC employees or has any 
fraud in the payroll area been brought to your attention? If so, what 
corrective action have you taken?
    Answer. Incorrect payments have been made to employees through both 
corrections to time and attendance records, and corrections to 
personnel records. In cases of underpayment, the corrected action 
properly pays the employee. In the case of overpayments, we follow a 
systematic process to collect monies due from employees. Only one case 
of potential fraud was identified, and we are currently investigating 
the specific case, which involves two employees. The investigation is 
complete for one employee, and appropriate disciplinary action is being 
initiated. We are still reviewing additional records for the second 
employee, and appropriate disciplinary action will be initiated if 
warranted.
                      financial management reforms
    Question. In the Senate Report on Legislative Branch 
Appropriations, 2002, I specifically sought the urgent need for a Chief 
Financial Officer at the AOC to begin essential financial management 
reforms. From every GAO General Management Review progress report, I 
have been pleased to learn that substantial progress has been made.
    Mr. Hantman, can I expect your commitment to continue in this most 
important area?
    Answer. Yes. We are examining the resource needs of the CFO's 
organization to ensure the people, tools and skills necessary to 
continue this process are in place. I am communicating to every 
employee especially our management employees that sound financial 
management is everyone's responsibility not just the CFO's.
    Agency Heads in the Executive Branch are now required (similar to 
the Sarbanes-Oxley Act of 2002) to lead by example and assert that 
their fiscal year 2006 financial controls will result in timely, 
accurate, and useful financial and management information.
    Question. Mr. Hantman, if you had the same requirement, when would 
you be able to make this same assertion?
    Answer. Our Internal Control Program is scheduled to be in place by 
September 30, 2005. The reality is that I would like the program to 
have been in place for one year, fiscal year 2006, before we 
implemented full assertion as I understand is required now by OMB 
Circular A-123 for executive branch agencies. I recognize that this may 
impact our Audit results, but request time to allow our internal 
control program to mature.

                          SUBCOMMITTEE RECESS

    Senator Allard. I want to thank you for your testimony. 
And, with that, we'll recess the subcommittee. Thank you.
    [Whereupon, at 11:55 a.m., Wednesday, April 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]














         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        TUESDAY, APRIL 19, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:27 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Johnson.

                          LIBRARY OF CONGRESS

STATEMENT OF JAMES H. BILLINGTON, Ph.D., THE LIBRARIAN 
            OF CONGRESS
ACCOMPANIED BY:
        GENERAL DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        MARY BETH PETERS, REGISTER OF COPYRIGHTS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The Legislative Subcommittee on 
Appropriations will come to order. We meet today to take 
testimony from the Librarian of Congress and the Comptroller 
General on the fiscal year 2006 budget request for the Library 
of Congress and the Government Accountability Office (GAO). We 
will also receive testimony for the record on the Open World 
Leadership Program.
    I welcome our witnesses this morning. We will hear from Dr. 
James Billington, the Librarian, who is accompanied by General 
Donald Scott, the Deputy. We will hear from Dan Mulhollan, 
Director of the Congressional Research Service, Mary Beth 
Peters, Register of Copyrights, and many others.
    The Library will be followed by Mr. David Walker, 
Comptroller General, who is accompanied by Gene Dodaro, GAO's 
Chief Operating Officer; Sallyann Harper, the Chief 
Administrative Officer; and Stan Czerwinski, the Controller.
    The Library is requesting a budget of $628 million, 7 
percent above the fiscal year 2005 level. The amount requested 
would support 4,365 employees and would accommodate all 
anticipated pay and price level increases, as well as continue 
some ongoing projects, such as the copyright reengineering 
effort and the completion of the National Audiovisual 
Conservation Center.
    While the areas for which the Library has requested 
additional resources are important, it will be very difficult 
for this subcommittee to approve large increases since it is 
very unlikely the overall level of discretionary spending will 
even keep up with the rate of inflation.
    Following the Library, we will hear from Mr. Walker on the 
Government Accountability Office's budget request, which totals 
$493.5 million over the current year, an increase of 4 percent. 
GAO's request is one of the more conservative ones we have seen 
in the legislative branch this year and we appreciate the fact 
that you have attempted to restrain programmatic increases.
    The budget would provide for 3,215 staff and would 
accommodate normal pay and inflation-related increases. GAO has 
been involved in a number of legislative branch assignments 
over the past few years, helping to oversee the Capitol Visitor 
Center construction project, making recommendations on 
management improvements within the Architect of the Capitol, 
and tracking Capitol Police administrative reforms to name a 
few. We appreciate these efforts and believe they are resulting 
in improvements to legislative branch operations.
    One of my interests will be to continue and even accelerate 
efforts to hold legislative branch agencies to the highest 
standards of performance and accountability.
    Finally, I would like to take this opportunity to recognize 
Stan Czerwinski, GAO's Controller. I was fortunate enough to 
work with Stan in his previous capacity as a managing director 
overseeing housing matters and I also found his insight 
helpful. I am looking forward to the opportunity of working 
with him once again as the legislative branch chairman. 
However, I understand that Stan will be going back to program 
work. While this is unfortunate for our work on this 
subcommittee, I look forward to regaining his expertise on 
program matters.
    Stan, thank you for your outstanding service as Controller.
    I would ask the witnesses to stick with the 5-minute rule. 
Go ahead and make your presentations so we will have plenty of 
time to get into questions and ask you questions that I may 
have or any member here of the subcommittee may have.
    So we will start this morning with Dr. Billington with the 
Library of Congress.

                   OPENING STATEMENT OF THE LIBRARIAN

    Dr. Billington. Thank you, Mr. Chairman. It is a pleasure 
and an honor to come before you today and first of all to thank 
the Congress for being for more than two centuries the greatest 
single patron of a library in the history in the world. The 
Library that Congress has created is the world's largest 
collection of human knowledge and the principal source of 
research support for the Congress itself.
    You know that the Library receives books and other works 
submitted for copyright registration to the Copyright Office, 
thus preserving the immense ongoing record of American 
creativity. We also collect and preserve materials in 486 
languages from abroad, thus adding to the wide scope of 
knowledge available to our citizens. The ways in which we 
perform these vital services are changing rapidly in response 
to digital technologies, which are also generating new kinds of 
resources. We collect films and recordings in addition to 
books, journals, manuscripts, maps; we must now collect digital 
audiovisual resources, digital documents, electronic databases, 
and even web sites.
    In 2004 our unique universal collection of 130 million 
items added 2.6 million new books and other artifacts and our 
richly stocked web site attracted more than 3.3 billion 
electronic hits. We are also leading a national program to 
archive materials that are unique, important, and dependable 
from the flood of digital material on the Internet, and we are 
moving our national service to the blind and physically 
handicapped into digital formats. We are now in fact in the 
advanced stages of converting almost all our processes from 
manual to digital and into electronic formats. At no other time 
has technology so directly affected how the Library performs 
its work.
    Beyond mandatory pay raises and unavoidable price 
increases, our request includes additional funds for the 
National Audiovisual Conservation Center, for copyright 
reengineering, for storage modules at Fort Meade, and for 
direct service to the Congress, a one-time adjustment to the 
Congressional Research Service's budget to sustain its staff 
capacity, and an adjustment to the CRS acquisition base, and 
funds to make accessible law library materials that are 
important for the Congress.

                            NAVCC--CULPEPER

    An unprecedentedly generous private donation from the 
Packard Humanities Institute is enabling us to create a 
facility that will provide state-of-the-art preservation at 
Culpeper, Virginia, for all of our massive and hitherto 
scattered audiovisual materials. We need 23 FTEs that will 
greatly increase production and meet the demands of this 
complex technical system.

                        COPYRIGHT REENGINEERING

    We are in the last year of the 7-year plan that Congress 
approved for copyright reengineering. We need one-time funds to 
keep our technical team united for the completion of this 
project, support for the move to an offsite location, and 
funding in the AOC budget for reconstructing space in the James 
Madison Building.

                           FORT MEADE PROJECT

    Congress has generously funded two modules at Fort Meade 
for storage of books and journals to address the long-delayed 
preservation needs of 26 million unique and often priceless 
special format materials. We request funds to begin building 
Modules 3 and 4.
    These and other requests illustrate the ways in which the 
Library must continue to change if we are to maintain in the 
electronic age our vital historic role as the preeminent 
steward of the world's knowledge and of America's creative 
heritage.

                           PREPARED STATEMENT

    We are deeply grateful for what Congress has already 
created and admirably sustained in this time of transition. The 
appropriations we request for fiscal year 2006 will enable us 
to continue providing you with comprehensive nonpartisan 
research and will provide future generations of your 
constituents with the wonderful learning resources that digital 
technology is making possible. You will be supporting more than 
just a great cultural repository. Appropriations for today's 
Library will be investments in tomorrow's minds.
    [The statement follows:]
               Prepared Statement of James H. Billington
    I appreciate the opportunity to appear before you today to discuss 
the past accomplishments and future goals of the Library of Congress in 
the context of our fiscal year 2006 budget request. This Committee has 
always supported the Library's programs and I ask for your help again 
in securing the investments we need to keep the Library as useful to 
the Congress in the new millennium as we have been in the nineteenth 
and twentieth centuries.
    For 205 years, the Congress of the United States has sustained the 
Library of Congress in its efforts to acquire, preserve, and make 
accessible the mint record of American creativity and the world's 
largest collection of human knowledge. We share this knowledge with the 
Congress, principally through the Congressional Research Service and 
the Law Library, and we protect the artistic and literary legacies of 
our citizens through our Copyright Office. We also serve your 
constituencies through our National Library for the Blind and 
Physically Handicapped, through our cataloging and other services to 
your local libraries and by offering rich educational content to your 
teachers and students through our acclaimed Internet site.
                           the library today
    The Library of Congress contains more than 130 million items in 
more than 470 languages and in virtually every media. Every workday the 
Library adds more than 10,000 new items to its collections and provides 
numerous specialized services. In fiscal year 2004, the Congressional 
Research Service performed exclusive public policy research and 
analysis for Congressional Members and Committees, covering more than 
200 active legislative issues, preparing and updating nearly 1,000 
reports and delivering nearly 900,000 responses to inquiries. Of 
particular note in fiscal year 2004, CRS experts responded with 
immediate support on matters that suddenly were on the Congressional 
agenda, including a comprehensive interdisciplinary response to the 9/
11 Commission Report that involved 70 written products; legal analysis 
related to the Abu Ghraib prison controversy; and an assessment of 
implementation issues of the new Medicare prescription drug benefits. 
The Copyright Office administered the U.S. copyright laws and acquired 
copyrighted works for the collections of the Library while registering 
more than 661,000 copyright claims in the past year. The Books for the 
Blind and Physically Handicapped program circulated more than 23 
million books and magazines free of charge, to the blind and disabled. 
The Library assisted the nation's local libraries by cataloging more 
than 300,000 books and serials, and providing the bibliographic records 
to libraries everywhere. Finally, the Library provided free internet 
access to more than 75 million records and recorded more than 3.3 
billion hits on its website in fiscal year 2004.
                            accomplishments
    Throughout fiscal year 2004 and into fiscal year 2005, the Library 
continued to reach important milestones. We moved forward with our 
massive film preservation facility in Culpeper, Virginia, slated to 
open in the Fall of 2006. Phase 1 of the project will be completed this 
year, allowing the initial transfer of the Motion Picture, 
Broadcasting, and Recorded Sound Division collections to Culpeper in 
August. Years of planning for off-site storage of other collections at 
Fort Meade, Maryland came to fruition when Module 1 opened in November 
2002. This facility represented the start of the Library's program to 
use custom-built offsite facilities to relieve overcrowding on Capitol 
Hill, and to ensure an excellent preservation environment. During 
fiscal year 2004, 567,000 items were transferred to the facility, 
bringing the total number of items transferred to Module 1 to 1.2 
million. This module is now completely full. Completion and commission 
of Module 2 is scheduled for Spring 2005.
    Under the mandate of the Congress's 2000 National Digital 
Information Infrastructure and Preservation (NDIIPP) Act, we continue 
to build a strong nationwide network of partners. We awarded nearly $14 
million to eight partner institutions who agreed to provide matching 
funds and to help collect and preserve a diverse range of important, 
at-risk digital material that could prove useful to current and future 
generations of researchers, scholars and lifelong learners. NDIIPP also 
partnered with the National Science Foundation to establish the first 
digital archiving grants program that will fund cutting-edge research 
to support the long-term management of digital information.
    In fiscal year 2004, the Library added approximately 2.6 million 
new items to its collections through all sources of acquisitions, 
including purchase, exchange, gift, federal transfer, and copyright 
deposit. Through the Federal Library and Information Network (FEDLINK), 
which makes available an array of print serials, books, electronic 
publications and preservation services, the Library contracted with 
more than 100 major vendors to provide services to approximately 1,200 
Federal offices participating in the program saving the offices an 
estimated $8.9 million in cost avoidance benefits and more than $11 
million in vendor volume discounts.
    The Copyright Office exceeded its 90-day target for processing of 
claims. The Office now processes claims on an average of 80 days; this 
is a 60 percent improvement since 2001. The Copyright Office also cut 
average recordation processing time in half, reaching 33 days at the 
end of 2004, an 85 percent improvement since 2001.
    The Library organized and sponsored, with the funds raised from the 
private sector, the third National Book Festival with 85,000 
attendees--the most ambitious National Book Festival to date. Through 
other fund raising activities this past year, the Library received a 
total of $11 million, representing 828 gifts from 713 donors. The 
Library awarded the first John W. Kluge Prize for Lifetime Achievement 
in the Human Sciences in fiscal year 2004. The $1 million prize--made 
possible by an endowment established by the Madison Council Chairman 
John W. Kluge--is given for lifetime achievement in the humanities and 
social sciences, areas of scholarship for which there are no Nobel 
Prizes. Finally, for the ninth consecutive year, the Library received 
an unqualified ``clean'' opinion on its fiscal year 2004 consolidated 
financial statements.
                    building a 21st century library
    Shifting media formats, the greatly increased flood of important 
material available only in perishable digital form, and increasingly 
complex data rights issues--have combined to create immense new 
challenges for the Library. At no other time has the emergence of 
technology so directly affected how the Library acquires, catalogs, 
preserves, serves and secures its vast collections and holdings.
    In order for the Library to continue fulfilling its historic 
mission, we must embrace the rapidly unfolding technology revolution, 
build and maintain an internal infrastructure and recruit, educate, and 
train a new staff of knowledge navigators able to sort out, prioritize, 
and help mediate to Congress and the Nation what is worth saving from 
the increasingly unfiltered information online.
                    library's fiscal year 2006 plan
    In preparing the fiscal year 2006 budget, the Library considered 
the areas that will be most changed by the transition from a largely 
print-on-paper collections to a hybrid collection that incorporates 
great numbers of digital materials. As we shape the Library of the 
future, we recognize the need to concentrate on three areas: 
technology, acquisition, and preservation. Specifically:
Technology
    Develop an infrastructure to support the digital library.
    Build a stronger connection between the Library and the wider 
library community to create a national digital library to make widely 
useful material locally available through the Internet, even if not 
always physically housed at the Library of Congress.
    Redefine the Library's leadership role in describing and organizing 
information--adjusting cataloging methods and setting standards for the 
digital environment.
Preservation
    Preserve at-risk ``born digital'' materials and work in partnership 
with educational and corporate partners to keep such materials 
available for subsequent generations.
Acquisition
    Reconceptualize our special collections development policies to 
include the creations of writers, artists, cartographers, 
photographers, and musicians that are available only online (or born 
digital).
                    fiscal year 2006 budget request
    Our fiscal year 2006 budget represents in many ways, a transition 
to closure on several multi-year projects that are essential for 
building a 21st century library.
    The Library is requesting a total budget of $628 million for fiscal 
year 2006. This includes $591 million in net appropriations and $37 
million in authority to use receipts, a net increase of $43 million or 
7 percent above the fiscal year 2005 level. This total includes $24.3 
million for mandatory pay and price level increases needed to maintain 
current services and to prevent a reduction in staff, which would 
severely impact the Library's ability to manage its diverse and complex 
programs.
    The requested funding will support 4,365 full-time equivalent 
(FTEs), a net increase of 74 FTEs above the fiscal year 2005 level of 
4,291, but still 355 FTEs short of the fiscal year 1992 total--despite 
the fact that we are doing far more work now than in fiscal year 1992.
                           unfunded mandates
    A total of $2.5 million and 3 FTEs is requested for two new and 
unfunded mandates: $1.2 million for the Administration's Department of 
State Capital Security Cost Sharing program, and $1.3 million and 3 
FTEs for the new Copyright Royalty Judges Program.
    Two years ago, the Department of State launched a 14-year program 
to finance the construction of approximately 150 embassy compounds. The 
Library was assessed $2.4 million for fiscal year 2006 based on the 
number of staff we have in overseas acquisition field offices attached 
to an embassy. The Library has argued for a reduction in the 
assessment, based on the services provided to the Library by the 
Department of State in diplomatic facilities, but the matter has not 
been resolved. We hope the amount requested by the Department of State 
will be less, but until a decision is reached, the Library must request 
full funding. It is essential that we not risk losing our overseas 
offices, which collect vast amounts of important and otherwise 
unavailable material for many of the world's trouble spots.
    The Copyright Royalty Distribution Reform Act of 2004 (Public Law 
108-419), signed into law on November 30, 2004, created a new program 
in the Library to replace most of the current statutory 
responsibilities of the Copyright Arbitration Royalty Panels (CARP) 
program. The new Copyright Royalty Judges (CRJ) program will determine 
distributions of royalties that are disputed and will set or adjust 
royalty rates, terms and conditions, except satellite carriers' 
compulsory licenses. The Satellite Home Viewer Extension and 
Reauthorization Act, signed into law on December 8, 2004, extends 
satellite compulsory licenses and requires CARPs, rather than CRJs, to 
set new rates for satellite retransmission. The CARPs will be funded by 
participants in the proceedings and/or by royalties. Unlike CARP, the 
new Copyright Royalty Judges program will be funded by new permanent 
net appropriations and nominal filing fees. Funding supports the 
salaries and related expenses of the three royalty judges and three 
administrative staff required by law to support this program.
                             major projects
    The Library is requesting $7.284 million and 45 FTEs for projects 
that are either in the last year of development or on a time-sensitive 
schedule that must be maintained if the entire project is to be 
successful. The projects support preservation, electronic delivery of 
services, acquisitions and access functions. The first of these 
projects is the National Audio-Visual Conservation Center (NAVCC) in 
Culpeper, Virginia.
    A gift of $120 million from the Packard Humanities Institute (PHI) 
three years ago launched the National AudioVisual Conservation Center, 
an unparalleled conservation facility for the special formats that are 
uniquely held by the Library of Congress. The construction project at 
Culpeper, Virginia is proceeding well, and the collections from five 
disparate storage collections will be moved to Culpeper during the 
summer, 2005. The staff will be relocated to Culpeper in 2006.
    During fiscal year 2006, the Library's ability to procure, deliver 
and install NAVCC furnishings, equipment and infrastructure must again 
be carefully managed in concert with PHI's schedule for finishing, 
testing and commissioning Phase 2 of the facility, slated for 
completion and move-in by April 2006. For this reason, no-year 
authority is again required to accommodate unforeseen fluctuations in 
the construction schedule. The Library is requesting a net decrease of 
$3 million and an increase of 23 new FTEs in fiscal year 2006. This 
request follows the original five-year plan submitted for Culpeper. 
Funding supports several components for which timing and funding 
flexibility will be especially desirable, including the bulk of the 
staff relocations, the completion of collections relocations (including 
nitrate film), and completing the design, procurement and integration 
of the complex digital preservation systems with the NAVCC's audio-
visual laboratories. Of the total amount requested for fiscal year 
2006, approximately $11 million reflects one-time costs. After the 
staff and collections have been relocated, the Culpeper budget will 
only require funding for ongoing operations.
    Fiscal year 2006 is the final year of the Copyright Office's 
reengineering initiative that requires new funding. The reengineering 
program is an extensive multi-year effort to redesign the Office's 
business processes, including the development of a new information 
technology infrastructure, new work flows, new job roles, and new 
facilities design. The new environment will support electronic delivery 
of copyright services, including electronic submissions of copyright 
registrations and receipt of digital deposits. During fiscal year 2006, 
the Copyright Office will relocate staff to a temporary off-site leased 
space, reconfigure its main facilities, and install new furniture and 
equipment. Final implementation is scheduled the first half of fiscal 
year 2007, after relocation of the staff to the reconfigured space in 
the Madison Building. A total of $4 million in one-time funding is 
requested in the Copyright Office's budget to fund the temporary 
offsite relocation of the staff. Completion of the reengineering 
initiative is contingent upon the Architect of the Capitol's budget 
request of $5.5 million to pay for construction costs to reconfigure 
existing Madison Building space. These requests will permit the 
Copyright Office to move forward on the facilities work so critical to 
the final implementation of the reengineering project.
    The Library is requesting a total of $2 million for the GENPAC 
program and $1 million for CRS to recover lost purchasing power of 
critically needed research materials. This funding will support the 
purchase of serial subscriptions and/or electronic resources--ensuring 
that the CRS analysts and other Library staff have access to the highly 
specialized research materials and data needed to support the work of 
the Congress and other Library customers.
    The boundaries of the world become ever smaller as information 
production increases across the globe. There are great opportunities to 
acquire new materials from parts of the world we had little knowledge 
of up until now. The Library collects little known and hard-to-find 
materials because it is in the national interest to have the resources 
that document other cultures and nations. We are interested in 
acquiring the emerging electronic publications from all parts of the 
world, including the Web sites for advocacy as well as education. In 
selecting the most important electronic resources, the Library places 
special emphasis on those databases and scholarly journals containing 
information to support the work of Congress in the development of 
public policy.
    Preservation is a unique responsibility of the Library of 
Congress--a library that all other libraries expect to keep materials 
in perpetuity. The Library requests $3.375 million and the retention of 
22 NTE FTEs to continue the preservation efforts required to place 4.5 
million items (most of them audio-visual materials or special 
collections) in proper storage containers and through proper 
transshipment to Fort Meade, Culpeper, or other off-site repositories.
    Other projects are critical to the Library's acquisition and 
preservation programs. Specifically, funding of $52 million is 
requested by the Architect of the Capitol (AOC) to support essential 
and long deferred projects specifically requested by the Library. This 
total includes $41 million for construction of Book Modules 3 and 4 at 
Fort Meade. These modules are already designed and will provide 
critically needed collections processing and storage space and cold 
vaults for unique and growing special format collections. This program 
is critical to providing relief to collections storage and resulting 
safety problems in the Library's Capitol Hill buildings. Of the 
remaining $11 million requested, $5.5 million supports the Copyright 
Re-engineering construction project and $5.5 million supports minor 
construction, design, and/or the operation and maintenance of the 
Library's Capitol Hill, Fort Meade, and Culpeper buildings.
                      major library-wide projects
    In addition to these major projects, the Library is requesting $5.5 
million and 7 FTEs for several Library-wide infrastructure projects 
that support all organizational entities within the Library and are key 
to performing the Library's mission efficiently and effectively. The 
first is in the all-important area of Information Technology (IT), 
where the Library is requesting a total of $3.3 million and 5 FTEs, 
needed to keep pace with rapid technological changes. Included in this 
total is $571,000 and 5 FTEs for the ITS Systems Engineering Group 
(SEG) to support a workload that has grown dramatically in recent 
years. The current staff of SEG operates with single individuals 
shouldering responsibilities without backup. This situation presents a 
high-level risk and places the Library in a serious and highly 
vulnerable position. The Library must mitigate this risk and protect 
itself against the potential loss of knowledge and breakdown of 
services in the event of illness or other unforeseen circumstances. The 
total also includes $1 million to support the increased costs 
associated with the IT service provider contract. Our IT staff is 
struggling with the vast increase in the Library's digital services and 
will have to either curtail services or decrease equipment purchases if 
funding is not provided. Finally, the total includes $720,000 for 
contract support for the certification and accreditation of the 
Library's IT systems as required by the Federal Information Security 
Management Act of 2002 and $1 million to implement the next phase of 
the Library's new financial management information system.
    The Library is requesting a total of $1.4 million and 2 FTEs to 
support space management of all the Library's buildings--the Madison 
Building alone is one of the largest in the Washington, DC area, with 
over 2 million square feet of space. With more shifts outside Capitol 
Hill to Fort Meade and Culpeper and resulting shifts on Capitol Hill as 
space utilization is redefined, the Library must have the ability to 
remap and maximize critical space needed for staff, collections and 
business operations and in a timely manner to ensure continuity of 
operations. The requested funding supports two additional in-house 
staff and the use of contracted staff support to supplement in-house 
resources with a full range of professional services, including project 
management, interior design, safety, engineering, construction 
administration and custodial support. Without the requested funding, 
valuable space will go unused or be used inefficiently, impacting the 
acquisition and preservation of the Library's collections, safety of 
its employees, and the operation of its programs.
    For those working on Capitol Hill, the value of emergency 
preparedness cannot be overstated. The Library is requesting $746,000 
to implement its Continuity of Operations and Shelter-in-Place plans, 
and to purchase medical supplies in the event of a large scale 
emergency that may affect Library personnel and visitors. We continue 
to work with our Capitol Hill counterparts to coordinate emergency 
planning efforts.
                       sustaining staff capacity
    Closely related to the mandatory and price level increases, the 
Library needs two critical payroll adjustments to maintain payroll 
purchasing power to sustain staff capacity. CRS is requesting a one-
time permanent base adjustment of $2.9 million to align its funding 
with the current staffing mix, level, and benefits costs to achieve a 
total capacity of 729 FTEs. This request will enable CRS to continue to 
fulfill effectively its mission by rebuilding and sustaining a level of 
research capacity that meets the changing needs of the Congress--needs 
which are increasingly more demanding and highly complex. CRS has 
proven to be a solid, long-term investment for the Congress with a high 
return on the investment through its shared pool of highly skilled 
experts who serve ``around-the-clock'' as the research arm of the 
Congress by assisting every Member and Committee of Congress in every 
phase of the legislative process.
    Because of the fiscal year 2005 rescission, the Library reduced pay 
in all offices by a total of $3 million. The Library is requesting 
restoration of the $3 million in fiscal year 2006 to maintain its 
future payroll purchasing power needed to sustain staff capacity. Over 
time, the Library will be forced to reduce staff in all offices, in 
spite of growing workloads and new challenges and responsibilities if 
the payroll budget is not restored.
                             other projects
    The Library is requesting $8 million and 52 FTEs for five other 
initiatives. Included in this amount is $493,000 and 7 FTEs to support 
the new Chinese acquisition strategy in which Chinese scholars identify 
unique materials to add to the Library's collections. The total also 
includes $445,000 to begin reclassifying one-third of the Law Library's 
legal collections from the obsolete ``Law'' shelving arrangements to 
the Library of Congress Class K international standard, to ensure 
retrievability of invaluable and unique legal materials.
    Of the $8 million total, $1.6 million in one-time funding is 
requested to procure and implement a comprehensive, new, web-based 
classification and staffing system that will track all human resources 
functions. Replacement of the current system is needed to add new 
functionalities and to allow the integration with the Library's 
emerging Human Resources Information System. Also included in the total 
is $1.5 million in no-year funding to continue the renovation and 
refurbishment work in the Thomas Jefferson and John Adams buildings. 
Maximizing available space on Capitol Hill is a priority for the 
Library and the restoration projects will provide much needed space for 
staff and programs. Finally, the total includes $4 million and 45 FTEs 
to continue addressing the police staffing shortfall of approximately 
77 FTEs.
                proposed changes to legislative language
    The Library has proposed language under the National Digital 
Information Infrastructure and Preservation Program (NDIIPP) Section, 
to set aside $25 million of the $75 million provided under the fiscal 
year 2001 appropriations act, and exempt the set-aside from the dollar-
to-dollar match requirement. The set-aside is to provide competitive 
grant funding for state governmental entities, who meet NDIIPP 
preservation partnership network building and digital content 
preservation grant guidelines, to preserve significant, at-risk, and 
born digital state and local government information.
    The Library has also proposed new appropriation language to address 
the new Copyright Royalty Judges program, authorized by the Copyright 
Royalty and Distribution Reform Act of 2004.
    The fiscal year 2005 administrative provision that limits the 
Library's assessment for embassy construction (to an amount equal to or 
less than the unreimbursed value of the services provided to the 
Library on State Department diplomatic facilities) is also maintained 
in fiscal year 2006.
                               conclusion
    The Library must continue to sustain and perform its traditional 
core mission for the Congress, the Nation, and the world of acquiring, 
preserving and making accessible its knowledge. At the same time, we 
must develop new ways to perform this historic mission in light of the 
plethora of digital information that must be harvested and cataloged. 
The fiscal year 2006 budget request will enable the Library to complete 
crucial projects of modernization, while laying the foundation for our 
future.
    I thank the Committee for its continued support of the Library's 
programs, projects, and people. Together, we can accomplish much today 
and more tomorrow.
                                 ______
                                 
               Prepared Statement of James H. Billington
                      open world leadership center
    Chairman Allard, Senator Durbin, and Members of the Subcommittee: 
The United States Congress initiated the Open World Russian Leadership 
Program as a pilot exchange program at the Library of Congress in 1999 
(Public Law 106-31). Congress in December 2000 established an 
independent Legislative Branch entity, the Open World Leadership 
Center, to conduct the Open World Program. The Center is governed by a 
Board of Trustees.
    The Open World Program was crafted in 1999 to bring emerging 
federal and local Russian political and civic leaders to the United 
States to meet their American counterparts and gain firsthand knowledge 
of American civil society. Program participants experience American 
political and community life and see democracy in action, from the 
workings of the U.S. Congress to debates in local city councils.
    A Government Accountability Office (GAO) report \1\ on the Open 
World Program concluded that ``Open World has exposed a large, broad, 
and diverse group of Russians to U.S. economic and political systems'' 
and stated that many of the alumni interviewed for the report said they 
have ``taken concrete actions to adapt what they learned from their 
U.S. visits to the Russian environment.'' GAO analysis indicates that 
Open World has achieved a remarkably high degree of proportional 
geographic representation, and that U.S. ambassadors and embassy 
officials consider Open World ``a valuable tool to complement U.S. 
mission activities and outreach efforts'' in Russia in part because of 
its unique place in the Legislative Branch.
---------------------------------------------------------------------------
    \1\ General Accounting Office, International Exchange Programs, 
Open World Achieves Broad Participation; Enhanced Planning and 
Accountability Could Strengthen Program, GAO-04-436, Washington, D.C., 
March 2004.
---------------------------------------------------------------------------
    Since July 1999, Open World has brought 8,900 current and future 
decision makers from all 89 regions of the Russian Federation to more 
than 1,300 communities in all 50 states. In 2003, as testament to the 
success of the Open World model, Congress expanded Open World to 
include cultural leaders in Russia and political leaders in the 11 
remaining Freedom Support Act countries and the Baltic republics 
(Public Law 108-7). The Open World Leadership Center Board of Trustees 
in 2003 approved pilot programs in Ukraine, Uzbekistan, and Lithuania 
and also approved a new cultural leaders program for Russia. From 
countries other than Russia, 370 young leaders have experienced the 
practice of American democracy and community life through Open World in 
the past two years. The Board has expressed concern that program 
expansion not jeopardize the strength of the Center's original and 
continuing commitment to the Russian Federation.
    In December 2004, Public Law 108-447 expanded Open World program 
eligibility to any other country that is designated by the Board of 
Trustees, provided that the Board notify the House and Senate 
Appropriations Committees of such a designation at least 90 days before 
it is to take effect. Over the life of the program, Congress has 
signaled its intention for Open World to function flexibly and 
strategically for U.S. interests around the globe. With key Members of 
Congress on its board, Open World has supported parliamentary 
relationships led by the Speaker of the House and Senate Majority 
Leader and remains a flexible and important tool for public diplomacy 
within the Legislative Branch.
                           board of trustees
    As Chairman of the Board of Trustees, I am honored to serve on the 
Board with several of your distinguished colleagues, as well as 
regional experts and private citizens. The Congressionally appointed 
members are Senate Majority Leader Bill Frist (TN), Senator Carl Levin 
(MI), and Representative Robert E. (Bud) Cramer (AL). Senator Ted 
Stevens (AK) is honorary chairman. Former Ambassador to Russia James F. 
Collins and Walter J. Scott, Jr., Chairman of Level 3 Communications, 
are the current citizen members. We are awaiting an appointment by the 
Speaker of the House to replace the seat held by retired House member 
Amo Houghton.
    Since its inception in 1999 in the Legislative Branch, the Open 
World Program has gained from the active interest and direction of this 
Committee. In accordance with a recommendation made by our Board of 
Trustees last year, Congress has added the Chair of this Committee and 
the Chair of the Senate Subcommittee on Legislative Branch to the 
Board. Your membership on the Board will greatly enhance our ability to 
provide effective direction for the future of the Open World Leadership 
Center.
                    fiscal year 2006 budget request
    The Center's fiscal year 2006 request of $14 million (Appendix A) 
will allow Open World to continue to operate the core Russian programs, 
including work with alumni and cultural leaders, and to continue 
funding for expansion programs in selected countries. The requested 4.5 
percent increase above fiscal year 2005 funding represents unavoidable 
price increases and the weakened purchasing power of the dollar abroad.
                           program objectives
    Open World was created by the Congress both to make a contribution 
to democratic developments in Russia and to combat negative and 
manipulated images of America fostered by long years of isolation from 
the West under Soviet power. Through Open World, emerging leaders in 
previously authoritarian countries experience short but intensive 
immersion in the reality of civil society and the rule of law in the 
United States. George F. Kennan summarized what an effective public-
diplomacy effort like Open World is about when he suggested that our 
system is most persuasive not when we talk about it, but ``when we show 
other people what can be done in a democracy, and nothing is more 
useful than that.''
    Open World was created to allow participation by non-English 
speakers, and, as a result, the program has successfully engaged a very 
broad sector of young political leadership in each participating 
country. Programs are matched carefully to participants' professional 
interests and responsibilities, and almost all include the following 
elements:
  --Meeting U.S. government, business, and community leaders at the 
        federal, regional and local levels;
  --Understanding the separation of powers, checks and balances, 
        freedom of the press, and the transparency and accountability 
        of democratic government;
  --Experiencing a free market economy;
  --Learning how U.S. citizens organize voluntary and nongovernmental 
        initiatives to address social and civic needs;
  --Building a continuing relationship with the U.S. hosts;
  --Sharing approaches to common challenges;
  --Participating in American family and community activities.
                            strategic goals
    As the Open World Program has matured from its six-month Russian 
pilot in 1999 to its current scale in four countries, the Board and 
staff have been guided by strategic goals that shape the annual budget 
submission and our year-round operations.
    Goal I: Improving U.S.-Open World program-country relations and 
mutual understanding.
    The Open World Program is located in the Legislative Branch, housed 
in and administratively supported by the Library of Congress, but its 
work abroad is shaped and implemented in cooperation with the embassies 
in each Open World country. All elements of the program--its focus, 
candidate nomination and selection, parliamentary delegations--are 
closely coordinated with the U.S. Embassy and such organizations as the 
Helsinki Commission.
    Goal II: Provide the highest caliber program within the United 
States so that Open World participants return with a good understanding 
of America's democracy, market economy, and civil society.
    Open World has improved the quality of its programs by continuous 
monitoring of programs, site visits, post-visit evaluations, and annual 
participant surveys. There is an annual review and evaluations of all 
program elements. The program has increasingly focused on a few key 
themes central to building democracy and the rule of law.
    Goal III: To extend the catalytic effect of a 10-day U.S. stay by 
fostering continued, post-visit communication among Open World 
participants, with alumni of other USG-sponsored exchange programs, and 
with their American hosts and counterparts.
    Open World's multilingual website maintains communication among 
participants, American hosts, and other interested parties. The visit 
to the United States is just the beginning of a Russian delegate's 
association with the Open World Program. Open World encourages 
continued contact with U.S. hosts and among participants themselves. In 
2004, Russian alumni participated in more than 250 workshops, 
interregional conferences, meetings, and professional seminars. An 
alumni bulletin and web forums are available to all 8,900 Russian 
participants.
    Many of Russia's larger cities now also boast Open World alumni 
associations and clubs organized by the alumni themselves--supporting 
special projects, such as support for orphanages or environmental 
efforts and career development seminars. Alumni-led activities in 2004 
included a youth health fair in Tver and a seminar for Novgorod 
educators on how to encourage volunteerism among high school students.
                          strategic decisions
Russian Federation
    The Chairman of the Senate Foreign Relations Committee, Senator 
Richard G. Lugar, at a recent hearing on ``Democracy in Retreat in 
Russia'' said, ``The states of the former Soviet Union present a 
special challenge to the advancement of democracy . . . The biggest 
concern in the region for democracy advocates is . . . Russia. Despite 
elections and the experience of post-Soviet personal freedoms . . . the 
fate of democracy in Russia is perhaps more ambiguous now than at any 
time since the collapse of the Communist system.'' Noting the decline 
in State Department funding for democracy programs, Senator Lugar 
commented: ``With so much at stake in Russia, this is not the time to 
diminish our funding in this area.''
    Despite the authoritarian direction of much recent Russian policy, 
Russia remains a key ally for the United States in antiterrorism and 
nonproliferation efforts. Open World's 8,900 alumni in all 89 regions 
are a strategic asset in the continuing struggle to secure a 
constitutional democracy in Russia. Assessments of Russia's current 
political state by the International Republican Institute (IRI) point 
to the dichotomy of suppression of democratic voices at the national 
level, but ``re-invigoration at the regional level.'' [Testimony of 
Stephen B. Nix, Director, Eurasia Programs, IRI; appearance before the 
Senate Foreign Relations Committee; February 17, 2005.] Open World's 
base of participation in Russia spans the entire country and is not 
concentrated in Moscow at the federal level.
Expansion Beyond Russia
    Meanwhile, Open World offers a unique and effective tool for 
Congress to respond to new realities and opportunities around the 
globe. The Open World Board's decision in 2003 to invest in a Ukraine 
pilot has yielded a broad-based program in operation before the Orange 
Revolution that brought the first delegations to the United States in 
the wake of the 2004 presidential elections. A pilot program in 
Lithuania focused on building regional government expertise and pointed 
the way toward important regional activity that Open World might 
undertake in Kaliningrad and Belarus. Similarly, Open World's prior 
experience in the largely Islamic regions of Russia helped shape a 
successful investment in Uzbekistan. Despite continuing and legitimate 
concerns about the repressive central government, Uzbekistan remains 
strategically important to the United States, and Open World delegates 
have returned to strengthen independent media and economic development 
and lead efforts to combat trafficking in the region.
    With a Congressional authorization to operate in any country in the 
world, Open World represents an asset that deserves continued 
investment to allow its continued development as an important tool of 
American public diplomacy, particularly in regions of the world that 
are not the principal focus of State Department efforts.
                    what the investment has yielded
Russia
            Russia Civic and Cultural Program
    The Open World Russia Program completed its fifth year in 2004. 
Open World's core exchange program--with the Russian Federation--
brought 1,567 young leaders in calendar year 2004, with wide regional 
representation (87 of the 89 Russian regions), diverse hosting 
experiences throughout the United States (44 states), a high percentage 
of women delegates (58 percent), and multiethnic representation. The 
selected themes for 2004--economic and social development, environment, 
health, rule of law, women as leaders, and youth issues--focus on key 
areas essential to democracy-building. The focus on rule of law, 
especially in the context of current evaluations of Russia's commitment 
to an independent judiciary and a constitutional democracy, deserves 
special mention.
    In 2004, Open World emphasized programs on the elections process 
and media coverage of the presidential and local elections process. 
Participants in all themes who traveled during the months leading up to 
the election came away with unique election-year experiences of 
watching the debates with their host families, seeing signs for 
presidential and local government candidates posted in front lawns, and 
observing volunteers of all ages as they supported their candidates at 
campaign headquarters.
    Eight delegations received an insider's view into Election Day in 
the United States. Three Russian delegations consisting of government 
officials and aides visited Baltimore, Maryland; Moorhead, Minnesota; 
and Saratoga Springs, New York. The delegations observed the activities 
of polling stations in their host communities, visited voter advocacy 
organizations, and witnessed firsthand the reactions of individual 
citizens as they watched television coverage of the voting results. 
Five delegations of print and television media professionals visited 
Atlanta, Georgia; Louisville, Kentucky; Portland, Oregon; Reno, Nevada; 
and Rochester, New York. These groups visited local news outlets to 
discuss and watch election coverage, interviewed election workers and 
voters, and even wrote on-the-spot news articles to be published in 
Russia.
    Additional examples of Open World's impact in Russia and elsewhere 
in our participants' own words are found in Appendix B.
Open World in Colorado
    As I speak to you today, four women leaders from Russia--a 
businesswoman, a president of a regional NGO, an education 
administrator, and a legislative staff assistant--are visiting 
Longmont, Colorado to examine women's leadership roles. Highlights of 
the delegation's agenda include a meeting with an NGO director; a 
discussion with senior women bankers on banking relationships with 
women-owned businesses; talks with Colorado senators and 
representatives about elections, government and the role of women in 
politics; and a panel discussion with a district attorney and chief 
district judge. Their visit is being conducted by the Longmont Rotary 
Club, a five-time Open World host organization that has helped make it 
possible for Colorado to welcome 200 other Open World participants.
Rule of Law Program
    Open World's specialized rule of law program is the largest U.S.-
Russia judicial exchange. Working in close cooperation with federal 
judges associated with the International Judicial Relations Committee 
of the Administrative Office of the U.S. Courts, and with a network of 
state judges, Open World sponsors intensive, 10-day U.S. professional 
visits for Russian judges, judicial branch officials, prosecutors, 
defense attorneys, legal educators, and court staff. Since its 
inception in 2001, the program has enabled prominent jurists from all 
over Russia to observe and participate in the U.S. judicial system and 
to form lasting working relationships with their American judicial 
hosts and counterparts.
    Just last month, Justice Anthony M. Kennedy hosted a high-level 
Open World delegation at the U.S. Supreme Court for two days of 
intensive working sessions on U.S.-Russian judicial cooperation and the 
status of judicial reform in Russia. Our distinguished delegates were 
Russian Supreme Court Chief Justice Vyacheslav M. Lebedev, Justice 
Yuriy I. Sidorenko, who chairs Russia's Council of Judges, and a top 
regional judge. Chief Justice William H. Rehnquist and Justices John 
Paul Stevens, Sandra Day O'Connor, Antonin Scalia, Ruth Bader Ginsburg, 
David Hackett Souter, and Stephen G. Breyer all participated in the 
Russians' Supreme Court visit, as did U.S. District Judge Michael M. 
Mihm of Peoria, Illinois, and other prominent U.S. judges. Not only did 
the Russians discuss jury trials, judicial independence, and the rule 
of law with the highest judges in the land, they also saw the U.S. 
judicial system in action by observing oral argument at the Supreme 
Court and attending proceedings at the federal courthouse in 
Alexandria, Virginia.
    As the Lebedev delegation visit illustrates, the Open World 
specialized rule of law program contributes to Russia's progress toward 
judicial reform by demonstrating the concepts and practices that 
underpin the United States' strong, independent judiciary. By observing 
and discussing the workings of the U.S. legal system with their 
American counterparts, participants have developed a better 
understanding of some of the new procedures that they are being 
required to adopt by Russia's judicial reform legislation, and they 
have demonstrated great enthusiasm for implementing many U.S. practices 
that are relevant to their own situations. Another important program 
outcome is the establishment and strengthening of a number of sister 
relationships between the courts of our U.S. host judges and those of 
their Open World participants. And American host judges have made 
return trips to Russia to participate in follow-up alumni work on the 
all-important issue of ethics.
    In 2004, 258 participants (43 delegations) visited 30 communities 
in 25 states and the District of Columbia on the specialized rule of 
law program. A total of 31 federal and state judges hosted for Open 
World in 2004. An illustrative example of Open World's work in this 
important area:
Cultural Leaders Program
    The late Academician Dmitri Sergeevich Likhachev was co-chairman of 
the original Russia-focused Open World Program in 1999. Likhachev was a 
lifelong advocate of the need for Russia to learn about and have 
contact with Western culture. The expansion of Open World to Russian 
cultural leaders is based on this principle.
    In 2004, 44 young folklorists, writers, and jazz musicians 
participated in Open World exchanges designed to foster an 
understanding of American culture and how it is sustained. The goal is 
to forge better understanding between the United States and Russia by 
enabling Russian cultural leaders to experience American cultural and 
community life, and to share their talents with American artists and 
audiences. Performances and readings are an essential component of the 
visit.
    The jazz musicians, creative writers, managers of folk arts 
institutions, and arts administrators who took part in the 2004 program 
were hosted by prominent arts organizations and educational 
institutions in five states. Each host community selected by Open World 
boasts rich cultural institutions and is the center of a flourishing 
arts scene.
    The cultural leaders program has continued in 2005. Currently, the 
University of Mississippi is hosting four young Russian authors who 
specialize in poetry, fiction writing, literary criticism, and 
translation. The delegation participated in the twelfth annual Oxford 
Conference for the Book, and is taking part in translation workshops 
with students and faculty in the Ole Miss creative writing program and 
panel discussions on Russian and American culture. The National 
Endowment for the Arts provided financial support for this hosting.
Pilot Programs
            Ukraine
    Ukraine was selected for an Open World pilot program in 2003 
because of its strategic position in Eurasia, its large and educated 
population, its mounting difficulties in democracy-building, and its 
important potential contribution to regional stability.
    Elections formed a central focus for the Open World Program's 2004 
Ukrainian exchange, which took place in August, when both the American 
and Ukrainian presidential campaigns were in full swing. The 50 
Ukrainian participants came from 19 of the country's 27 regions and 
represented a wide range of political views. Two delegations of 
Ukrainian party activists, NGO election monitors, and campaign experts 
participated in the ``electoral processes'' theme, and three 
delegations of print and broadcast journalists took part in the 
``independent media'' theme, which included a concentration on 
political and election coverage. The five Ukrainian delegations that 
visited under the NGO development theme also had opportunities to learn 
about campaign practices and citizen engagement in politics in the 
United States.
    In March, Open World held the first major post-Orange Revolution 
exchange in the United States, hosting 45 Ukrainian judges, 
journalists, elections experts, NGO leaders, and researchers. Their 
U.S. community visits, which had been rescheduled from December 2004 
(when the presidential election was still unresolved by the courts), 
focused on the rule of law, elections, and the role of an independent 
media.
    This exchange was very much a two-way learning process, as everyone 
the Ukrainians met with was interested to hear about the Orange 
Revolution and the current political climate. The Ukrainian delegates 
were here to strengthen ties to the United States and their own 
professional understanding of their role in a democracy. On arriving in 
Washington, delegates had frank and future-oriented discussions with 
Representative Marcy Kaptur of the Congressional Ukrainian Caucus, 
Supreme Court Justice David Souter, and two former U.S. ambassadors to 
Ukraine.
            Ukraine Program in Ohio
    The March exchange marked the debut of Open World's rule of law 
theme for the Ukraine program, and our highest-ranking judicial 
delegation was hosted in Columbus, Ohio, by state Supreme Court Chief 
Justice Thomas J. Moyer and Judge Robert Cupp of the Ohio Third 
District Court of Appeals. The visit began with a Ukrainian bread-and-
salt welcoming ceremony at the Ohio Judicial Center and concluded with 
a live television broadcast of a symposium on Ukrainian democracy with 
the Ukrainians and Chief Justice Moyer. In between, the delegation--
which included a Ukrainian Supreme Court justice--observed court 
proceedings, including a jury trial; took part in roundtables with Ohio 
judges; and met with Governor Bob Taft. Rule of law delegations 
simultaneously visiting Georgia, Minnesota, New York, and Pennsylvania 
had similar experiences.
            Lithuania
    Lithuania was selected for an Open World pilot because of its 
prospects for building a successful market economy and democracy and 
because of Congressional interest in including a Baltic country. 
Lithuania's independent parliament (Seimas) and historical ties with 
the United States made a legislative-based program very welcome.
    Open World launched its Lithuania pilot program in 2004, bringing 
mayors, journalists, business and NGO leaders, environmental experts, 
and youth activists from nine of the country's 10 administrative 
districts to the United States in February and September. Lithuanian 
Ambassador Vygaudas Usackas held receptions for both travel groups at 
his embassy during their Washington, D.C., orientations.
    Open World's newest program received high marks from the 100 
Lithuanians who participated. Higher education, lobbying, business 
associations, health care, Social Security, and citizen participation 
in local government were rated among the most useful topics studied. In 
a representative comment, a delegate on a Fort Collins, Colorado, 
program on youth issues stated, ``My best moments were when I realized 
that people in the United States work very hard in order to accomplish 
their goals, especially helping the youth. This motivates me to work 
harder in Lithuania.''
    Chicago, Illinois, hosted several of our inaugural Lithuanian 
delegations in 2004, with significant participation by the large 
Lithuanian-American community there. Among the highlights of the 
Chicago visits were a Q-and-A session for Lithuanian journalists at the 
Chicago Tribune, a fundraising workshop for NGO leaders at the Donors 
Forum, and, for a Lithuanian business-development delegation, a nuts-
and-bolts overview of how U.S. business incubators work at the 
Industrial Council of Nearwest Chicago.
            Uzbekistan
    Uzbekistan was chosen for an Open World pilot on the basis of its 
large population, its cultural and intellectual prominence among the 
new independent states of the former Soviet Union that are principally 
Islamic, and its strategic position in Central Asia. The Open World 
Board believed that furthering democracy and a market economy in 
Uzbekistan would promote stability in the entire region.
    Open World hosted its second Uzbek exchange in October 2004. The 
50-person group included senior representatives from Uzbekistan's 
ministries of economics, finance, and public health; Central Bank 
officials; judges; prominent journalists; agricultural experts; women 
entrepreneurs; and health advocates. Delegates came from 10 of 
Uzbekistan's 14 political subdivisions.
    Open World has received numerous reports on how participants have 
used the knowledge they gained while in the United States. A business 
consultant running for the Nukus City Council campaigned on themes 
inspired by her U.S. visit: creating favorable conditions for private 
business through legislation and defending the rights of female 
entrepreneurs. The head of the Agro-Industrial Stock Exchange in 
Tashkent reports that, as a result of his visit to the Kansas City 
Board of Trade, his exchange has now introduced electronic trading.
    A doctor who practices in the populous Fergana Valley conducted a 
workshop on premature infant care for 45 of her colleagues to share the 
neonatal techniques she had seen at Tampa General Hospital. And a 
Tashkent newspaper reporter is publishing two long articles, ``Two-
Story America'' and ``The White Stele [Monument] of Washington,'' that 
describe in detail how his impressions of America and Americans changed 
for the better as a result of his Open World visit to Chattanooga, 
Tennessee, and Washington, D.C. He writes, ``The one thing that really 
impressed me in the United States is the people. To tell the truth, 
having watched Hollywood films, I expected to see an undisciplined 
public where people did whatever they felt like. But already in 
Washington, I was sincerely surprised by the proper and polite 
Americans that I met. On the street, people were smiling . . . and no 
one looked at us with unfriendliness. At the end of my stay in the U.S. 
capital, I felt as though I were at home in Tashkent.''
            Future Directions
    In 2004 the Senate requested that Open World study the feasibility 
of expansion to Pakistan and Afghanistan. The Open World model, with 
appropriate U.S. in-country support, has demonstrated its suitability 
in a variety of environments. The key question for the Open World 
Board, which includes the Chairman of this Subcommittee, as well as the 
Chairman of the House Appropriations Committee, is to decide the 
allocation of available resources among the countries in which Open 
World is authorized. Recent concerns have been raised by Members of 
Congress about Belarus, Moldova, and Georgia. Congressional interest in 
Russia, Ukraine, Uzbekistan and Lithuania have remained strong. Yet 
Open World's annual budget has been modest since its inception. In the 
current budget environment, significant expansion is unlikely; 
therefore, decisions will be influenced by available resources.
    A regional approach, centered in Russia, the western NIS, and 
Central Asia, would allow Open World to respond flexibly to U.S. 
strategic interests but avoid the upfront investment devoted to setting 
up a new country-focused program. Open World might offer a cost-
effective means of delivering current exchange programs in a number of 
countries. If Congress so approves, the Board could request that a new 
regionally aimed model be developed for fiscal year 2007. The fiscal 
year 2006 budget request is based on the current country-specific 
model. The staff evaluation of the feasibility of pilot programs in 
Afghanistan and Pakistan is included as Appendix C.
                    fiscal year 2006 budget request
    The Center's budget request for fiscal year 2006 reflects an 
increase of $.612 million over fiscal year 2005, in order to continue 
the Center's proven mission of hosting young political and civic 
leaders from Russia and other countries of the region. The Board of 
Trustees believes that maintaining a robust Open World presence in 
Russia is necessary and important for future U.S.-Russia relations. 
Program capacity in fiscal year 2006 at the requested level remains far 
below the limitation of 3,000 set in the Center's authorizing 
legislation.
    The budget request maintains hosting and other programmatic 
activities at a level of approximately 1,400 participants total 
(continuing a decrease in hosting levels begun in fiscal year 2003), 
based on airfare and other travel increases above the overall inflation 
rate, and projected higher foreign exchange rates. The Department of 
State Capital Security Cost Sharing charge for the Center's two Foreign 
National Staff is also included. Actual participant allocations for 
individual countries will be based on Board of Trustees recommendations 
and on consultations with the Committee.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits ($.883 mil/11 FTEs)
  --Contracts ($8.435 mil)
    --Management of delegate nomination and vetting process
    --Visa and other document processing
    --Travel arrangements, including international and domestic air 
            travel
    --Management and coordination with grantees on delegate host 
            placement
    --Database maintenance and development
    --Information services
  --Grants ($4.354 mil) (U.S. host organizations)
    --Professional program development
    --Food and (limited) lodging
    --Cultural activities
    --Local transportation
    --Interpretation
    The requested funding support is also needed for anticipated fiscal 
year 2006 pay increases. Overall administrative costs remain at a low 6 
percent of the Center's annual expenditures.
                      other program contributions
    Major financial support to the Open World Program is contributed by 
American citizens who host program participants in their homes and 
communities. Private American citizens freely provide cultural 
activities, community-wide activities, and housing for one week, which 
often reduces the program's per diem expenses--by a substantial amount 
when estimated over the life of the program. During 2004, Open World 
also received financial support from The Russell Family Foundation for 
support of environmentally focused programming and from TNK-BP for 
general support of Open World programming and alumni activity in Russia 
and Ukraine.
                               conclusion
    The fiscal year 2006 budget request will enable the Open World 
Leadership Center to continue to make major contributions to an 
understanding of democracy, civil society, and free enterprise in a 
region of vital importance to the Congress and the Nation.
    I thank the Subcommittee for its continued support of the Open 
World Program.
                               appendix a

          OPEN WORLD LEADERSHIP CENTER BUDGET, FISCAL YEAR 2006
------------------------------------------------------------------------
                                                            Fiscal year
                       Description                        2006 estimated
                                                            obligations
------------------------------------------------------------------------
11.1 Personnel Compensation.............................        $702,000
12.1 Personnel Benefits.................................         181,000
21.0 Travel.............................................          80,000
22.0 Transportation.....................................           3,000
23.0 Rent, Comm., Utilities.............................         204,000
24.0 Printing...........................................          21,000
25.1 Other Services/Contracts...........................       8,435,000
26.0 Supplies...........................................           4,000
31.0 Equipment..........................................          16,000
41.0 Grants.............................................       4,354,000
                                                         ---------------
      Total, fiscal year 2006 budget request............      14,000,000
------------------------------------------------------------------------

                               appendix b
                     open world delegate quotations
Russia
    ``During my Open World visit to America I was struck by the well-
functioning educational system, social programs, and the people 
themselves, full of life and purpose, wanting to help others. Our mayor 
Aleksandr Yermoshin and vice-mayor for legislative relations Yuriy 
Sukhoruchenkov have also had the opportunity to travel to the U.S. on 
Open World. I consider that all that we saw and experienced has 
definitely influenced our work in municipal development. Key to our 
social policy are current programs for children, improving their health 
(infant mortality has decreased between 2002 and 2004), finding 
placement for orphans, providing therapy to children in dysfunctional 
families and those with disabilities, creating employment and 
activities for youth, and working with gifted children.''

                                   Yuriy Kostev
                                   First Vice-Mayor of Aleksin, Tula 
                                       Region
                                   San Diego, CA

    ``While visiting the United States on the Open World Program I 
became aware of the genuinely constructive interaction that can exist 
between government bodies and the community. Upon my return home, I 
decided to take action. I told the people of Voronezh how they can 
protect their right to adequate accommodations, and prevent unsuitable 
living conditions resulting from the inaction of local government. The 
`Citizen Inspection' project was born, providing information (letters) 
from local authorities on budgetary information and deadlines for the 
refurbishment of houses and buildings in the community. I received many 
letters and telephone calls informing me about what really goes on in 
housing and communal services. This information led to the creation of 
the Citizen Inspection television program. A second project called `My 
Rights' was also successful. This project provides information about 
property registration rights and opportunities. Our brochures describe 
the registration procedure, rates, and free services that the community 
can and must demand from the authorities.''

                                   Aleksandr Vladimirovich Sysoyev
                                   Deputy, Voronezh City Duma
                                   Milwaukee, WI

    ``A close working relationship exists between school and family in 
both Russia and the U.S. Parents and older classmates are actively 
recruited to work with children. Promoting a healthy lifestyle should 
begin with pre-schoolers.''

                                   Svetlana Safonova
                                   Psychologist/Nakhodka City 
                                       Department of General 
                                       Professional Education 
                                       Information and Curriculum 
                                       Development Center
                                   Denver, CO

    ``I became enamored with American crisis centers in Chicago where 
all resources--counselors, medical help, lawyers, etc.--are available 
in one place, unlike in Russia (where a child has to relive the horror 
of domestic abuse several times at several different agencies).''

                                   Sergey Vitalyevich Belashev
                                   Head/Children's Department Rostov-
                                       on-Don Psycho-Neurological 
                                       Center
                                   Chicago, IL

    ``It is clear that Americans rigorously defend their rights that 
are guaranteed by the Constitution. This also raised a sense of 
patriotism in us for our country and our Constitution. Order can be 
established through a set of laws in which all people are truly equal. 
This is one of the fundamental principles of civil society that we need 
to strive for. That is good enough reason to study the American 
example.''

                                   Alyuset Mezhmedinovich Azizkhanov
                                   Freelance radio journalist and 
                                       member of the Russian 
                                       Journalists Association
                                   Durham, NC

    ``These organizations [U.S. NGOs] have just a few paid workers. The 
vast majority spends it own time and effort and work without pay. We 
asked: `For what?' And they answered: `I need this, my children need 
this, my country needs this.' For us, volunteer efforts are surprising, 
for them it is the norm. What also surprised us is the belief of 
ordinary Americans that much depends on them in their personal lives as 
in the life of the city, state, and nation.''

                                   Mariya Abramova
                                   Public and International Relations 
                                       Specialist and Assistant to the 
                                       Deputy Governor of the Tomsk 
                                       Region Administration
                                   Baltimore, MD

    ``America showed me our different attitudes in our relations 
between man and government and man and society. I learned from my host 
that she believes that her participation in the life of her country, 
community, and government matters and that the future of America 
depends on the actions of every American. This lesson allowed me to 
take a fresh look at my work for the past ten years. I first met the 
parents of Down's Syndrome children in the early 1990s. The government 
considered these children unteachable. Parents united to deal with the 
situation themselves. This resulted in a decorative arts workshop where 
some of the adults and teens with Downs Syndrome now work, in a group 
that prepares athletes for Special Olympics, and another group that 
works with severely mentally retarded children. So we discovered that 
those with Down Syndrome are teachable and employable and that they 
should be taught and employed. I wanted to work with them, first as a 
volunteer and later as a professional art therapist. I now teach 
specialists how to teach the learning disabled. Never before was there 
such a demand for all my talents. Thank you, Fran Satina (OW host), I 
now know that I can change my country for the better.''

                                   Marina Rodkevich
                                   Moscow City Psychologist and Art 
                                       Director, ``Same as You'' 
                                       organization
                                   Akron, OH

    ``I was very impressed with the plans of Vicksburg, Tupelo, and 
Oxford, Mississippi. Although the population of Nizhniy Novgorod is 
more than one million people, much of the planning of these small towns 
could be applicable to Nizhniy Novgorod's own development. Strategic 
community planning at the city level is a new trend in economic 
development in the Russian Federation. As a new trend, it seems likely 
that we can adapt American experiences with such planning and 
effectively apply these principles in the development of Russian 
cities.''

                                   Galina Yuryevna Topnikova
                                   Head/Social-Economic Development 
                                       Projection Section, Nizhniy 
                                       Novgorod City Administration, 
                                       Economic Development and 
                                       Planning Department
                                   Oxford, MS
Ukraine
    ``I think it [his Open World visit] will expand all of my horizons, 
as well as everyone else's. I also have ambitions at some time in the 
future to help draft legislation for my country. I think these 
experiences will help that as well.''

                                   Judge Valentyn Paliy
                                   Judge/Kyiv Commercial Court
                                   Corvallis, OR

    ``We saw that Americans live in this democracy every day, but every 
day they create it. We realize more and more how difficult is the path 
ahead of us.''

                                   Maryna Bohdanova
                                   Deputy chief editor and columnist/
                                       Ria weekly newspaper
                                   Pittsburgh, PA

    ``The important thing about this program is that it will bring 
about change--change in the participants personally--and that it will 
serve as a stimulus for greater effort in Ukraine.''

                                   Olena Morhun
                                   Crises Prevention Program 
                                       Coordinator/Woman for Woman 
                                       Center
                                   Washington, DC

    ``I was impressed with the members of the group with which I worked 
over the past ten days because I realized their immense potential in 
Ukraine, thanks to the high level of their competence and experience. 
It is very important that we met in this group from Ukraine, and I 
expect that we will continue our work there together.''

                                   Valentyna Kyrylova
                                   Director/Osnovy Publishing House
                                   Washington, DC

    ``Especially useful for me was to see democracy in action, 
exercising its influence on the government, and the role of society in 
the decision-making process of government.''

                                   Lyudmyla Merlyan
                                   Head/Gender Committee of the Civil 
                                       Parliament of Ukrainian Women
                                   Washington, DC
Uzbekistan
    ``The one thing that really impressed me in the United States is 
the people. To tell the truth, having watched Hollywood films, I 
expected to see an undisciplined public where people did whatever they 
felt like. But already in Washington, I was sincerely surprised by the 
proper and polite Americans whom I met. On the street, people were 
smiling . . . and no one looked at us with unfriendliness. At the end 
of my stay in the U.S. capital, I felt as though I were at home in 
Tashkent.''

                                   Viktor Krymzalov
                                   Special Correspondent/Private 
                                       Property newspaper
                                   Chattanooga, TN

    ``It wasn't just a trip to America; it was a trip to the future, 
the future that I thought would never see in my lifetime or in my 
country. Owing to this opportunity, I now know what it is, and I will 
try to bring something from the future that I saw back home to 
Uzbekistan.''

                                   Zhumanazar Melikulov
                                   Deputy Editor-in-Chief/Fidokor 
                                       newspaper
                                   Chattanooga, TN

    ``I have unforgettable impressions of the Open World Program. My 
understanding of America as a country and Americans has completely 
changed. Before my trip, I had a very vague insight of what it is. My 
comprehension now: it is a great country, which is as it is owing to 
its free, honest and direct people. I was impressed by a high 
motivation and energy of American entrepreneurs and especially by the 
fact the legislation and the system as a whole support them. The 
significant result of my trip was elaboration of a new system for 
exchange trade--Internet--trading. I'm proud to say that we've 
implemented it successfully and today there is no analogy of it in CIS 
countries. I'd like to take this opportunity to express my gratitude to 
the organizers of the Open World Program.''

                                   Temur Valitov
                                   Chair/Agro-Industrial Exchange
                                   Kansas City, KS
Lithuania
    ``My best moments were when I realized that people in the United 
States work very hard in order to accomplish their goals, especially 
helping the youth. This motivates me to work harder in Lithuania.''

                                   Youth Issues program participant
                                   Fort Collins, CO

    ``Local grass-roots initiatives really left a big impression on me. 
I have both learned how to better communicate with city and village 
communities and realized the need to consult with them more regularly 
on policy issues.''

                                   Virgilijus Skulskis
                                   Head, Information and Analysis 
                                       Department/Institute of Agrarian 
                                       Economics
                                   Middlebury, VT

    ``In Vermont, much of your success depends on the trust you've 
built through working relationships. This is something that we need to 
improve among ourselves.''

                                   Linas Vainus
                                   Project Manager/Atgaja Green 
                                       Movement
                                   Middlebury, VT

    ``While we did not even know each other as recently as last week, 
it now feels like we have known each other for a long time--like 
classmates, and I know that we will be friends for a long time to 
come.''

                                   Algirdas Ronkus
                                   District Administrator/Klaipeda 
                                       District Municipality
                                   Omaha, NB

    ``I was surprised to find out that many NGOs in the United States 
work without any government support . . . Our NGOs should follow this 
example rather than expecting support from the government.''

                                   Women's Issues and NGOs program 
                                       participant
                                   Portland, OR

    ``At the Shelburne town meeting we understood that this was a 
useful way for a small community to influence local government's 
decision-making process . . . We were able to make new contacts and an 
idea for a project in Lithuania emerged.''

                                   NGO development program participant
                                   Burlington, VT
                               appendix c
   assessment of proposed open world expansion into afghanistan and 
                                pakistan
    Background.--In December 2004, Public Law 108-447 expanded Open 
World program eligibility to any other country that is designated by 
the Open World Leadership Center Board of Trustees, provided that the 
Board notify the House and Senate Appropriations Committees of such a 
designation at least 90 days before it is to take effect. During Senate 
floor consideration of the Open World legislation, Open World Board 
Chairman James Billington and Open World staff were requested explore 
the possibility of expanding the program to Afghanistan and Pakistan, 
two countries crucial to U.S. interests. (Congressional Record, Sept. 
21, 2004, S9425.)
    Summary of Assessment Efforts to Date.--Open World staff met with 
Congressional Research Service experts on the region, the Library of 
Congress Field Director at the U.S. Embassy in Islamabad and his staff, 
and Open World grantees with hosting experience in both target 
countries. Open World contractors conducted logistical assessments and 
contacted key State Department, embassy and AID personnel.
    Overall Comment.--Each country has different, overarching obstacles 
to applying the Open World model successfully. Afghanistan's societal 
structure and civil society have very little in common with what is 
found in the United States. Pakistan's population is so large and 
diverse that it is questionable how much impact a program involving 
only a few hundred delegates would have (details below).
Afghanistan
    Political Situation.--Afghanistan is stabilizing after more than 22 
years of warfare, and the successful presidential election appears to 
be accelerating political and economic reconstruction. The United 
States is committed to a secure and stable Afghanistan. Many observers 
are looking forward to the September 2005 parliamentary elections and 
the next major step toward stable governance.
    Viability of Open World Candidates/Themes.--Afghanistan currently 
has very few identifiable civic leaders because there are few 
identifiable elements of civil society, but small U.S. exchange 
programs have been implemented. (For example, in 2004, Meridian 
International, an Open World grantee, hosted 30 Afghans in themes such 
as civil society, local government, democracy building, cultural 
heritage, and civic education.) These exchanges do not have homestays, 
but do include visits to American homes. Women travel in all-female 
groups. Delegates do not have English-language capability.
    Embassy Support.--It would be very difficult for the U.S. Embassy 
to lend logistical support to an Open World program, both for security 
and workload reasons, but the embassy would need to handle the actual 
selection process and is willing to do so under the scenario given in 
the recommendation below.
    Visas.--All candidates must be flown to Islamabad for their visa 
interview. A minimum of six weeks is required from the time of the 
interview until a final decision is made on issuance or nonissuance of 
the visa. In 2004 there was a high incidence of nonissuance to Afghan 
exchange candidates.
    Costs.--The estimated cost is $18,000-$19,000 per person, almost 
150 percent above the cost for a Russia civic program delegate.
    Recommendation.--State Department officials have expressed support 
for an Open World pilot program for new Afghan parliamentarians that 
would bring them into direct contact with their American federal and 
state legislative counterparts. If Congress directs Open World to 
implement a pilot program, Open World staff would recommend hosting one 
pilot delegation of 8-10 parliamentarians and/or parliamentary staff 
following the September 2005 parliamentary elections.
Pakistan
    Political Situation.--Hopes that the October 2002 national 
elections would reverse Pakistan's history of unstable governance and 
military interference in democratic institutions were eroded by the 
actions of the Musharraf government. The United States has continued to 
express concern over lack of progress on political rights and civil 
liberties, but Pakistan's stability and cooperation in the war against 
terrorism are of vital importance to the United States.
    Viability of Open World Candidates/Themes.--Exchange programs in 
Pakistan are well established and growing. Several Open World grantees 
have extensive experience hosting Pakistani participants. Certain 
segments of urban Pakistani society are very well educated, know 
English, and are enthusiastic about interacting with Americans. We 
continue to assess whether this segment of society would benefit from 
Open World programs, which usually reach into the far regions of 
participating countries. Because of the current security situation in 
Pakistan, travel by State Department employees from the embassy and 
consulates is restricted. This limits their ability to identify 
qualified candidates for exchange programs outside Islamabad.
    Visas.--The visa application process takes a minimum of six weeks 
and there is a high rate of rejection, especially for males. The 
Library of Congress Field Office will report to us in late March on 
their discussions with the consular section to identify more 
specifically the level of support for Open World available under 
current staffing and security conditions.
    Costs.--$12,000 per person (nearly twice the cost for most Open 
World Russia delegates)
    Recommendation.--If Congress directs Open World to implement a 
pilot program, Open World staff would recommend hosting one or two 
delegations of 8-10 delegates each on Open World's Federalism or Women 
as Leaders themes.
                                 ______
                                 
                 Prepared Statement of Marybeth Peters
    Mr. Chairman and Members of the Committee:Thank you for the 
opportunity to present the Copyright Office's fiscal year 2006 budget 
request.
    For fiscal year 2006, the Copyright Office is seeking the 
Committee's approval of one major request for the Office and support 
for two of the Architect of the Capitol's (AOC) requests on behalf of 
the Copyright Office. First, in the BASIC appropriation we are 
requesting a $4.161 million increase in new net appropriation authority 
and a $500,000 decrease in offsetting collections authority. Four 
million dollars of the requested funds will be used for offsite lease 
costs to temporarily relocate the Office while its existing space in 
the Madison Building is under construction. I am pleased to report that 
we have made great progress on our Reengineering Program and expect 
full implementation in the first half of fiscal year 2007. The 
remaining $161,000 is a request for restoration of the fiscal year 2005 
rescission. Additionally, in recognition of new legislation that 
terminated funding, we are requesting a $1.872 million decrease in the 
CARP offsetting collections authority.
    As part of AOC's budget, we request your support to provide $5.5 
million for reconstruction of existing Copyright Office space in the 
Madison Building to accommodate the reengineered processes and new 
organizational structure. Also, as part of the AOC's budget, we request 
$800,000 to do a design study for construction of a Copyright Deposit 
Facility at Fort Meade. This facility will provide environmental 
conditions for copyright deposits that allow us to meet our legal 
requirements to retain, and be able to produce copies of, these works.
    I will review these requests in more detail, but first will provide 
an overview of the Office's work.
          review of copyright office work and accomplishments
    The Copyright Office's mission is to promote creativity by 
sustaining an effective national copyright system. We do this by 
administering the copyright law; providing policy and legal assistance 
to the Congress, the administration, and the judiciary; and by 
informing and educating the public about our nation's copyright system. 
The demands in these areas are growing and becoming more complex with 
the evolution and increased use of digital technology.
    I will briefly highlight some of the Office's current and past work 
and our plans for fiscal year 2006.
Policy and Legal Work
    We have continued to work closely with the Senate Committee on the 
Judiciary and its House counterpart. In July I testified on S. 2560, 
the Inducing Infringement of Copyrights Act of 2004, which would have 
created a new cause of action for intentionally inducing copyright 
infringement. After the hearing the bill's sponsors, Senators Hatch, 
Leahy, Frist, Daschle, Graham of S.C. and Boxer asked me to meet with 
the interested parties to discuss alternatives, evaluate whether these 
parties could reach consensus on an approach to this legislation, and 
to provide them with the Office's recommendations. The parties failed 
to reach consensus, and late in September I submitted our recommended 
approach which accommodated the legitimate concerns of all parties, 
provided a basis of moving forward, while at the same time meeting the 
goals of the bill's cosponsors. Unfortunately, there was not sufficient 
time to move this bill forward in the remaining days of the 108th 
Congress.
    The Office's general counsel testified on my behalf on the 
Satellite Home Viewer Extension Act of 2004, which was enacted as part 
of Public Law 108-447, and we assisted in reform of the Copyright 
Arbitration Royalty Panel System (the Copyright Royalty and 
Distribution Reform Act of 2004, enacted as Public Law 108-419).
    I testified in the House, and we worked closely and extensively 
with staff, on the proposed Family Movie Act, which is now part of S. 
167, the Family Entertainment and Copyright Act, passed by the Senate 
on February 1, 2005. H.R. 357, the House's companion bill, cleared the 
House Judiciary Committee on March 9, 2005. We have also worked 
extensively on issues concerning the existing compulsory license for 
the making and distribution of phonorecords of musical compositions, 
including digital phonorecord deliveries of music. Other issues 
included proposals to create criminal and civil penalties for 
camcording by individuals in theaters, providing statutory damages for 
``pre-release works,'' and creating a system of pre-registration for 
certain classes of ``pre-release works,'' which are included in S.167 
and H.R. 357, mentioned above.
    On January 5, 2005 Senators Hatch and Leahy asked me to study the 
issue of ``orphan works,'' copyrighted works whose owners are difficult 
or impossible to locate, and to report our findings and recommendations 
to them by the end of the year. We are in the process of seeking 
initial comments on the scope of the problem and possible solutions. 
The Office also intends to hold hearings during the year.
    During fiscal year 2006, the Office will initiate and conduct most 
of the required work on its triennial rulemaking on exceptions from the 
section 1201 prohibition on circumvention of technological measures 
that control access to copyrighted works. The purpose is to determine 
whether there are any particular classes of works as to which users 
are, or are likely to be, adversely affected in their ability to make 
noninfringing uses due to the prohibition. (In 2003, the Librarian of 
Congress, upon the recommendation of the Register, exempted four narrow 
classes until October 27, 2006.) Comments proposing exemptions will be 
solicited, comments on the proposals will be sought, and hearings will 
held.
    The Office has been extremely active in a number of important 
copyright cases, many of which challenged the constitutionality of 
various provisions of the Copyright Act. In these cases the Office 
assisted the Department of Justice in defending the law. The Office 
also assisted the Department of Justice in the government's Supreme 
Court amicus brief of the United States in MGM Studios v. Grokster, 
Ltd., on whether providers of ``file sharing'' network software can be 
held secondarily liable for copyright infringement when the vast 
majority of uses of the providers' network constitute copyright 
infringement. (Oral argument was heard on March 29, 2005.)
    As always, the Office continued to provide ongoing advice to 
executive branch agencies on international matters, particularly, the 
United States Trade Representative, the Department of Commerce and the 
Department of State, and participated in numerous multilateral, 
regional and bilateral negotiations.
Registration including Renewals and Recordation
    Registration of authors' and other copyright owners' claims to 
copyright, including claims in renewals, and recordation of documents, 
such as assignments, security interests, and mergers are important 
parts of the U.S. copyright system. The Office has significantly 
improved its delivery times for registration and recordation services 
since 2001.
    During fiscal year 2004, the Copyright Office received 614,235 
claims to copyright covering more than a million works and registered 
661,469 claims received during fiscal year 2003 and 2004. Registration 
is now two and a half times speedier than in 2001, when the average 
time between receipt of a claim and the issuance of a registration 
certificate was 200 days. At the end of fiscal year 2004, the Office 
has shortened the average time to process a claim to 80 days.
    The Copyright Office records documents relating to copyrighted 
works, mask works, and vessel hull designs and creates records of those 
documents. These documents frequently concern popular and economically 
significant works. The Office recorded 14,979 documents covering more 
than 470,000 titles of works in fiscal year 2004. At the end of the 
fiscal year, the average time to record a document was 33 days, more 
than six times faster than the average of 210 days in fiscal year 2001.
    These achievements took place during a period of increased security 
concerns. In early February 2004, ricin-contaminated mail was delivered 
to a Senate Office. This incident stopped the Office's postal mail 
delivery for an entire month while enhanced screening processes were 
put in place. The disruption affected mail processing until early June, 
when the last of the delayed mail was delivered. The Office worked to 
restore normal processing levels, and the improvement in timeliness 
reflects efforts to overcome the disruption.
    However, processing time for the creation and making available of 
online cataloging records increased in fiscal year 2004 because of the 
Office's focus on improving the efficiency of registration processing. 
The result was an increase in the Cataloging Division's work on hand. 
For the remainder of fiscal year 2005, the Office will concentrate on 
improving processing time for these records.
    With respect to renewal registrations, the Office is facing the 
fact that the number of renewal registrations will decrease 
significantly in fiscal year 2007. Renewal registrations only apply to 
works that were copyrighted before January 1, 1978, the effective date 
of the current copyright law. Before 1978, if a work was published with 
the required notice of copyright or an unpublished work was registered 
with the Copyright Office, it received an initial term of copyright 
protection of 28 years, and a renewal term that initially was 28 years 
and today is 67 years. To receive the renewal term, a renewal 
registration had to be made in the last year of the initial term, i.e., 
the 28th year. The last year for 28th year renewals is the end of this 
year, December 31, 2005.
    Additionally, the law was changed in 1992 to make renewal 
registration voluntary. There are certain benefits that are gained by 
renewing in the 28th year. However, if no renewal claim is registered 
in the 28th year of the term, renewal is automatically secured on the 
last day of that year. The 1992 law applies to works copyrighted 
between January 1, 1964 and December 31, 1977. However, even if renewal 
is automatically secured, i.e., no renewal application was submitted in 
the 28th year of the initial term of copyright, a renewal claim may be 
submitted after the 28th year and some benefits flow from such a 
registration. A number of such registrations are made each year.
    When renewal registration was required, the Office registered 
approximately 52,000 claims. Since the enactment of the automatic 
renewal provision in 1992, the number of renewal claims decreased each 
year. Last year the Office received approximately 17,000 renewal 
claims. We believe that between 1,500 and 2,000 renewal claims were 
post 28th year renewals. Our records show that approximately 5,500 
renewal claims were received in October, November and December, 2004. 
The renewals unit consists of a staff of five.
    The Office currently receives approximately $1 million a year for 
renewal services. We project that the Office will take in significantly 
less money in fiscal year 2006 for the 28th year renewals received in 
October, November, and December 2005 and for renewals submitted after 
the 28th year. During fiscal year 2006 we will assess the impact of 
this loss of revenue and the decreased workload. However, it is likely 
that in the fiscal year 2007 budget submission, the Office will request 
a permanent decrease in its offsetting collections authority and a 
reduction in FTEs.
Public Information and Education
    The Copyright Office responded to 381,845 requests for direct 
reference services and electronically published thirty issues of its 
electronic newsletter NewsNet a source that alerts subscribers to 
Congressional hearings, new and proposed regulations, deadlines for 
comments, new publications, other copyright-related subjects, and news 
about the Copyright Office to 5,297 subscribers.
    The Office website continued to play a key role in disseminating 
information to the copyright community and the general public. The 
Office logged 20 million hits by the public in fiscal year 2004, 
representing a 25 percent increase over the previous year. The Spanish 
language pages on its website received approximately 130,000 hits 
during the fiscal year.
    The website received an updated look to coincide with the January 
1, 2004, introduction of the new office seal, logo, and wordmark. The 
website displayed the new symbols along with new colors derived from 
those used in the Office's printed materials. The pages' appearance was 
also standardized, streamlined, and designed for faster loading. The 
Department of Health and Human Services selected the Copyright Office 
website as an example of a government site that meets user expectations 
with regard to navigation, content, and organization.
    The Copyright Office, with the Library's Office of Strategic 
Initiatives, initiated the Copyright Records Project to determine the 
feasibility of digitizing millions of Copyright Office paper records 
covering 1790-1977. In 2004, the project team researched and documented 
the various types of paper records, developed a strategy, and issued a 
Request for Information seeking expressions of interest. In early 
fiscal year 2005 three potential vendors conducted a test of their 
capabilities to digitize and index sample records and we expect a 
report on the results by the end of April 2005.
Licensing Activities
    The Copyright Office administers the copyright law's statutory 
licenses and obligations. The Licensing Division collects and 
distributes royalty fees from cable operators for retransmitting 
television and radio broadcasts, from satellite carriers for 
retransmitting ``superstation'' and network signals, and from importers 
and manufacturers of digital audio recording products for later 
distribution to copyright owners. In fiscal year 2004, the Office 
collected $212.9 million in royalty funds and distributed $154.1 
million to copyright owners.
    With the passage of the Copyright Royalty and Distribution Reform 
Act of 2004 (Public Law 108-419), a new program was established in the 
Library of Congress, the Copyright Royalty (CRJ) program, which assumed 
most of the functions of the Copyright Arbitration Royalty Panels 
(CARPs). The interim Chief Copyright Royalty Judge is submitting a 
separate statement to request funding for the new CRJ Program.
                    fiscal year 2006 budget request
Reengineering Program
    The Copyright Office's seven-year Reengineering Program initiative 
is to redesign delivery of its public services. This program is 
customer driven to prepare our Office for the future growth in 
electronic submissions. The Office had planned for the reengineering 
implementation to be fully funded and completed in fiscal year 2006, to 
include moving staff offsite so that its space in the Madison Building 
can be renovated in one phase. However, due to infrastructure and 
offsite lease requirements, the program cannot be completed until the 
first half of fiscal year 2007.
    The relocation of the Copyright Office staff and the Madison 
Building construction need to be done concurrently. Because of the 
complexity and integrated nature of the various steps in the 
registration and recordation processes, they must be located in one 
place. The Library of Congress does not have sufficient swing space to 
accommodate such a large group of staff and operations; therefore, 
there is no choice but to relocate most staff to leased offsite space.
    The $4 million request for new one time funding is to cover most of 
the fiscal year 2006 expenses associated with moving staff offsite, 
specifically lease and utilities, furniture rental, security guards, 
and voice and data line leases. With the committee's support for the 
new fiscal year 2006 funding, the Office will relocate staff to leased 
offsite space, reconfigure its main facilities, install new equipment 
and staff workstations, and bring the new IT systems infrastructure 
online. In late 2006, staff will move back from the leased offsite 
location to a new organizational structure to begin reengineered 
operations. This represents the fourth and last net appropriations 
increase to the Copyright Office BASIC appropriation base to complete 
the Reengineering Program. The project will be fully implemented in 
fiscal year 2007 with no new funding requested for fiscal year 2007. 
Rather, the Office plans to reduce its net appropriation base in fiscal 
year 2007 and return non-recurring Reengineering Program funds.
    The reengineering initiative is contingent upon the AOC receiving 
its fiscal year 2006 request for $5.5 million to undertake the 
construction of the current Copyright Office space in the Madison 
Building.
Sustaining Staff Capacity
    Because of the fiscal year 2005 rescission, the Copyright Basic 
fund reduced pay by $161,000. The Library is requesting the restoration 
of the $161,000 in fiscal year 2006 to maintain payroll purchasing 
power needed to sustain staff capacity.
Copyright Deposit Facility at Fort Meade
    The Copyright Office is required by law (title 17) to retain 
unpublished copyright deposits for the full-term of copyright, which is 
life of the author plus 70 years, and published deposits for the 
longest period considered practicable and desirable by the Register of 
Copyright. A retention period of 120 years has been established for the 
unpublished deposits and 20 years for the published deposits. A 
certified copy of a copyright deposit may be used in legal proceedings 
as evidence of the scope of copyright in a work.
    Currently, the Copyright Office archives more than 800,000 
copyright deposits annually in a variety of media as part of the 
registration process which results in an annual storage increase of 
approximately 3,500 cubic feet of published deposits and records and 
3,500 cubic feet of unpublished deposits. From fiscal year 2007 through 
2020, the storage requirement is projected to expand to a total of 
approximately 245,000 cubic feet.
    Copyright deposits are currently stored at two locations: leased 
space in Landover, Maryland, a GSA facility, and at a commercial 
records management facility in Sterling, Virginia, managed by Iron 
Mountain. Both facilities are subject to wide temperature variances and 
high humidity levels, and therefore fail to provide the appropriate 
environmental conditions necessary to ensure the longevity of the 
deposit materials. According to the Library of Congress Conservation 
Division, continued storage under present substandard environmental 
conditions will accelerate the aging of the deposit material and reduce 
the useful life span by 75 percent, placing these deposits at risk, 
especially after 25 years.
    In 1994, the U.S. Army transferred a 100-acre site at Fort Meade, 
Maryland, to the Architect of the Capitol (AOC) for use by the 
legislative branch for the construction of storage modules. The master 
plan envisioned 13 buildings for the Library of Congress of which one 
was dedicated to the storage of copyright deposits. Both the design and 
construction documents were completed in August 2003. In recognition of 
the tight budgetary environment, the Copyright Office is recommending 
that the Fort Meade facility be redesigned for modular construction so 
that the facility can be built in phases in order to spread out the 
costs over multiple funding cycles. The AOC is requesting $800,000 in 
fiscal year 2006 funds for this redesign effort with construction of 
the initial phase being deferred until fiscal year 2008. We ask your 
support for this request.
CARP offsetting collections authority
    The Copyright Arbitration Royalty Panels (CARP) system funded by 
royalty fees and by participants is being replaced by the Copyright 
Royalty Judges (CRJ) Program, created by the Copyright Royalty and 
Distribution Reform Act of 2004, signed into law on November 30, 2004. 
However, there are still some proceedings that will or may operate 
under the old CARP system during fiscal year 2006. In accordance with 
the Satellite Home Viewer Extension and Reauthorization Act of 2004, 
signed into law on December 7, 2004, the satellite carrier statutory 
license rate setting procedures will be conducted by CARPs. Therefore, 
the cost of the arbitrators for the CARP proceedings will be paid for 
by the participants, and staff and other expenses will be funded from 
the royalty pools. The Office is requesting a $1.872 million decrease 
in the CARP offsetting collections authority, leaving $300,000 to fund 
the fiscal year 2006 program.
                               conclusion
    Mr. Chairman, I ask that you support the fiscal year 2006 Copyright 
Basic budget request for a one time $4 million increase in net 
appropriations and a $500,000 decrease in offsetting collections for 
the BASIC appropriation to implement the Reengineering Program, and a 
$1.872 million decrease in offsetting collections authority in the CARP 
appropriation. Your support is also requested to approve the $5.5 
million in the AOC budget for reengineering costs to construct the 
redesigned facilities.
    Our fiscal year 2006 request permits us to move forward on the 
facilities work critical to the final implementation of our 
Reengineering Program. We appreciate the past support you have given us 
for this project. We are now at the point that we cannot turn back, 
and, with your continued support, we look forward to bringing the 
Office into the electronic environment that is so prevalent today.
    I thank the Committee for its past support of the Copyright Office 
requests and for your consideration of this request in this challenging 
time of transition and progress.
                                 ______
                                 
 Prepared Statement of Bruce Forrest, Interim Chief Copyright Royalty 
                                 Judge
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the Copyright Royalty Judge program fiscal year 
2006 budget request.
    The Copyright Royalty Judge (CRJ) system was created by the 
Copyright Royalty and Distribution Reform Act of 2004, Public Law 108-
419, signed into law on November 30, 2004 (``Reform Act''). The 
Copyright Royalty Judges will assume the duties formerly carried out by 
the Copyright Arbitration Royalty Panels and the Librarian of Congress 
with respect to setting rates for the statutory copyright licenses 
(with the exception of certain rate-setting proceedings being conducted 
this year for the satellite television license under 17 U.S.C. 
Sec. 119, which remain under the CARP system) and distributing 
royalties from the royalty pools maintained by the Copyright Office. 
The CRJ program will provide an important improvement over the CARP 
system because it lowers the cost to the participants, requires 
decision makers to have certain subject matter expertise, and makes use 
of institutional knowledge to render consistent decisions.
    The Reform Act specifies that the new CRJ system, which will be 
part of the Library of Congress, will have three Copyright Royalty 
Judges (CRJs) and three staff employees. The three judges will be 
responsible for setting the rates and terms for the statutory licenses 
that allow for: (1) the retransmission of copyrighted broadcast 
programming by cable systems and satellite carriers; (2) the making and 
distribution of phonorecords; (3) the reproduction and performance of 
sound recordings by means of digital audio transmissions; and (4) the 
use of certain copyrighted works in connection with noncommercial 
broadcasting. In addition, the judges will conduct distribution 
proceedings for the cable and satellite royalty fees deposited with the 
Copyright Office and the fees collected for the making and distribution 
of digital audio recording devices and media. The CRJs will have 
authority, unlike the CARPs, to determine the status of a digital audio 
recording device or digital audio interface device under chapter 10 of 
the Copyright Act. The CRJ program also vests the judges with the 
continuing authority to correct any technical or clerical errors, or to 
modify any terms in response to unforeseen circumstances, and grants 
them authority to promulgate notice and recordkeeping requirements for 
use of certain licenses.
    Congress took care to insure that the Copyright Royalty Judges 
would have adequate qualifications to perform these highly technical 
and difficult tasks. Under the Reform Act, each Copyright Royalty Judge 
must be an attorney with at least 7 years of legal experience, and the 
Chief CRJ must have at least 5 years of experience in adjudications, 
arbitrations, or court trials. Of the other two Judges, one must have a 
significant knowledge of copyright law and the other must have a 
significant knowledge of economics.
          review of copyright office work and accomplishments
    In fiscal year 2005, you approved the Library's request to 
reprogram $540,000 and three FTEs from the Copyright Arbitration 
Royalty Panels (CARP) to the Copyright Royalty Judge program, since the 
Library's fiscal year 2005 budget did not include funds to cover the 
costs of the new program. This allowed the Library to use existing 
offsetting collections authority funded by royalties to cover the 
personal and nonpersonal costs of the new CRJ program during the 
transition phase of the program, as provided for under the Act. As 
required by the Act, one interim CRJ has been sworn in to draft new 
regulations to govern the rate setting and distribution proceedings 
under the new statutory guidelines and to initiate immediately a rate 
setting proceeding to establish rates for the statutory licenses that 
allow for the public performance of sound recordings by means of 
digital transmissions, e.g., webcasting.
                    fiscal year 2006 budget request
    This fiscal year 2006 budget, which is the first budget request for 
Copyright Royalty Judge (CRJ) operations and proceedings under the 
Reform Act, requests new permanent funding ($1.3 million) in 
appropriations with no-year authority. The level of funding is 
essentially ordained by the requirements of the Reform Act. The funding 
will support three full-time Copyright Royalty Judges and three staff 
positions, whose salary levels are specified in the Reform Act, and 
other non-personal expenses. The CRJs' primary task will be to set 
rates and terms for the various statutory licenses and to determine the 
distribution of royalty fees collected by the Copyright Office.
    In summary, I ask that you support the fiscal year 2006 Copyright 
Royalty Judge Program budget request for new permanent $1.3 million 
increase in total appropriations.
                               conclusion
    I thank the Committee for its consideration of this request.

    Senator Allard. Thank you very much, Dr. Billington.
    General Scott, do you have any additional comments for the 
committee?
    General Scott. No, sir, I do not.
    Senator Allard. Okay, thank you.
    Now I will recognize Senator Johnson for his opening 
comments.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Well, thank you, Mr. Chairman. I will 
forego opening statements. I have a statement I can submit. I 
simply want to welcome Dr. Billington and Mr. Walker to the 
hearing today and thank them for their leadership. I look 
forward to working with you as well as ranking member Durbin as 
we wind our way through the appropriations process in a year 
that is going to be a difficult one for all of us.
    Thank you, Mr. Chairman, and thank you again to our panel 
today.
    [The statement follows:]

               Prepared Statement of Senator Tim Johnson

    Thank you, Mr. Chairman, for calling today's hearing to 
examine the budget requests for the Library of Congress and the 
Government Accountability Office. I want to first welcome you, 
Mr. Chairman, to the Appropriations Committee and as the 
chairman of the Legislative Branch Subcommittee. I look forward 
to working with you and Ranking Member Durbin as we work on the 
Legislative Branch appropriations bill this year.
    I also want to welcome Dr. Billington and Mr. Walker to the 
hearing today. So much of what we do here in Congress is made 
easier and better because of the work done by the Library of 
Congress and Government Accountability Office. The Library, 
with such a unique array of collections, is truly a national 
treasure. I enjoyed visiting the Library to see the Lewis and 
Clark exhibit that was on display in the Jefferson Building. I 
had a particular interest since the Lewis and Clark expedition 
came through South Dakota and reportedly first saw the vast 
buffalo herds of the Great Plains from Spirit Mound near my 
hometown of Vermillion, South Dakota.
    The Library's Congressional Research Service continues to 
be one of the best sources of information and analysis provided 
to members and our staffs on even the most obscure subjects. I 
want to publicly thank the dedicated staff at CRS for their 
timely and thorough responses to inquiries from our offices.
    Mr. Walker, I also want to thank you and everyone at GAO 
for the professional work done under what can sometimes be 
extraordinary circumstances. Without GAO's investigative 
abilities, Congress would be hard pressed to fulfill its 
oversight role. My staff and I have relied upon GAO to look 
into matters ranging from country of origin meat labeling to No 
Child Left Behind Act implementation in rural states. Thank you 
for the work GAO does to assist us in Congress, especially 
GAO's ongoing assistance to this Subcommittee on the Capitol 
Visitor Center.
    I look forward to your testimony and to working with both 
of you in the coming months as we move through the 
appropriations process. Obviously, we find ourselves in a very 
difficult budget situation, so funding will be tight across the 
board. However, the roles the Library of Congress and GAO play 
are vital to helping Congress meet its constitutional 
responsibilities.
    Thank you again, Mr. Chairman.

                   FUNDING PRIORITIES AND CHALLENGES

    Senator Allard. Thank you, Senator Johnson. Just for your 
information, we are going to use the 5-minute rule and we will 
rotate around a little. If we have to have several rounds of 
questioning, we will do that. My hope is that we will get out 
this morning about 11:45 or so, when we have scheduled votes on 
the floor.
    Let me start with you, Dr. Billington. You talked a little 
bit about the budget priorities. The Library's budget request 
is an increase of $45 million or 7 percent over the current 
year budget. In the event we are unable to provide the full 
amount requested, please explain what your highest budget 
priorities will be?
    Dr. Billington. Well, our budget request basically supports 
every aspect of our basic historic mission and enables us to 
continue, hopefully, our transition to the new digital world. 
That mission is, as I have indicated, acquiring, preserving, 
making accessible this enormous collection.
    The business of acquisition and preservation cannot be 
deferred. Maintenance cannot be deferred for very long, and 
basic services I do not think should be curtailed, although 
that is ultimately for the Congress to determine. But to 
maintain our historic role in knowledge management, the 
traditional key to the investments we seek are to maintain our 
construction schedule, long delayed, for storage and 
preservation at Fort Meade and Culpeper, to regain some of our 
purchasing power for acquisitions, which has been seriously 
eroded over the last 10 years for acquisitions and for CRS 
research materials. Of course reengineering our business 
processes for outdated manual systems, particularly this last 
year of the copyright program, is important. And of course the 
whole question of revitalizing our human capital resources and 
infrastructure, particularly information technology, is of 
central importance.

                            NAVCC--CULPEPER

    Senator Allard. Thank you, Dr. Billington.
    I also want to just take a moment here and thank the 
Packard Foundation for their generous support of the National 
Audiovisual Conservation Center. Hopefully, later on in the 
year I would like to have an opportunity to go out there and 
take a look at that facility.
    The Library's budget requests $16 million and 47 FTEs, an 
increase of 23 new positions, for the National Audiovisual 
Conservation Center, which is scheduled to open next year. Why 
are these additional staff needed now and what will be the 
total annual operating cost for the NAVCC once it is fully 
operational?
    Dr. Billington. Well, the increase is 23 FTEs. First of 
all, the Packard donation is a capital donation that is almost 
unprecedented.
    Senator Allard. It is.
    Dr. Billington. It is somewhere between $120 and $130 
million. So the building is basically being built with private 
funds. The increase of FTEs, first of all, is consistent with 
the 5-year plan we submitted and was approved by the Congress 3 
years ago. But the point is that we are not simply relocating 
people and materials to a new facility. We are creating a 
national conservation center, which we have never really had, 
with a new digital preservation system for audiovisual 
materials that will allow the Library to preserve the 
collection for at least 100 years, the same standard that we 
have for paper.
    So this is a totally new achievement that will be made 
possible. The new technical system and the enhanced capacities 
of the conservation center require additional and more 
technically qualified staff. Even with the increase in 
staffing, total funding requested in the Federal budget for 
this year for the Culpeper center is $3 million less than the 
funding was last year.
    Our new restoration lab that we are setting up there will 
operate 24 hours a day and the new system will allow us to 
increase preservation productivity 10 times the current rate. 
So this is a fundamental revolutionary escalation of our 
capacity to exercise and realize the congressional mandate of 
1976 to create a real national archive for the preservation of 
radio and television, as well as recorded sound, film, and 
other audiovisual materials.
    So it is a major undertaking. I cannot give you today the 
exact projection figures for what the operating costs will be. 
I do not want to just guess at that. But a good deal of what we 
have been asking the last couple of years for the appropriation 
are one-time things to get us in there, to get us established. 
So I think we have to get over that bump. But that is a small 
bump compared to the mountain that the Packard Foundation is 
contributing.
    Senator Allard. Well, we would appreciate that response. We 
will be looking forward to getting those figures and showing 
some more detail on that.
    [The information follows:]

    The Library's five-year request to Congress to acquire the 
new equipment and staff resources necessary to operate the 
NAVCC concludes in fiscal year 2008. Full initial operations, 
using existing base funds and new resources will start in 
fiscal year 2009, with ongoing annual operating costs beginning 
that year of $22.5 million. This figure includes $6 million for 
preservation digitization, $3.5 million for storage, $1.5 
million for facilities management, and $11.5 million for staff. 
It includes existing base funds and staff from the Motion 
Picture, Broadcasting and Recorded Sound Division. The 
operating capacities reflected in these costs were established 
based on our urgent need to preserve at-risk national heritage 
collections dating back nearly 120 years, as well as the need 
to begin ingesting significant new born-digital works. 
Fortunately, the proven technologies to achieve this have 
recently become available, and the Packard Humanities Institute 
gift of the state-of-the-art NAVCC facility will allow us to 
take advantage of these technologies for the first time.

    Senator Allard. Senator Johnson.
    Senator Johnson. I do not have any questions.

                           FORT MEADE STORAGE

    Senator Allard. Senator Johnson indicates he does not have 
any more questions, so I will move on to Fort Meade storage 
modules. The Architect's budget includes $40 million for 
additional storage modules at Fort Meade. I would like to have 
you explain the importance of these storage modules and what 
the future requirements the Library expects to have at the Fort 
Meade location. My understanding is that there will be a 
considerable number of modules that are being projected out 
over the years to bring into that Fort Meade location.
    Dr. Billington. Well, let me just say briefly, and I can 
let General Scott speak mainly to this, but the purpose of the 
two modules, Modules 3 and 4, is to house 26 million special 
format collections, including maps, prints, photographs, 
microfilm, manuscripts, things of a special nature, almost all 
of which are one of a kind.
    Senator Allard. Excuse me for interrupting you, Dr. 
Billington. Are they refrigerated or special humidity 
controlled?
    Dr. Billington. Modules 1 and 2 are for book storage. The 
beauty of these new modules is that they are really not simply 
storage, they are--for instance, from Module 1, we have had a 
100 percent retrieval rate on all things; it happens within 24 
hours. So they are very efficient for storing and retrieving. 
But most important of all the collections to be stored in 
Modules 3 and 4 are practically all one of a kind items of 
which there are no other copies. They will be in state-of-the-
art preservation conditions, which is important, as with the 
Culpeper audiovisual collections. So the creation of these 
Modules is an investment simply prolonging the lifespan of 
priceless things, of which we are the custodian of so many, in 
this case 26 million items in the special format collections, 
which cannot be just stacked the way books are, but have to be 
handled in a special manner.
    So that is it. But I will let General Scott speak further 
to the whole project, except to say that we submitted a 
detailed plan for the various modules quite some time ago with 
the Congress. So we are on schedule, even though we were 5 
years behind getting construction started according to the 
original plans and are already 1 more year delayed beyond the 5 
years for these important modules for these special 
collections.
    Senator Allard. And you do not see any change on those 
plans that were submitted, any modifications or anything? The 
time line is the same; it is just the total time line has been 
moved back?
    Dr. Billington. That is right, that is right.
    Senator Allard. Okay. General?
    General Scott. Yes, sir. You had asked about future storage 
needs for the Library. We do have a complete plan that 
envisions having 13 buildings out at Fort Meade that would 
carry us up through the year 2027. Module 1, which was 
completed in 2002, is completely filled. It was at capacity in 
about 2\1/2\ years with some 1.5 million items.
    Module No. 2, which is slated to open very soon, has a 
capacity of 2 million items and similarly it too will house 
books. Our projection is that Module 2 will also be filled 
within 2 years once it opens.
    The 13 modules that are either in design or construction 
will hold books and special format collections as well as other 
treasures from the Library. To date, funding has been provided 
for Modules 1 and 2. We are requesting funding for Modules 3 
and 4.
    We would be happy to submit for the record a table that 
highlights our future storage and capital requirements.
    Senator Allard. I wonder if you would do that, General 
Scott. I think that would be helpful for the committee.
    [The information follows:]

                                                           LIBRARY OF CONGRESS FUTURE FORT MEADE CAMPUS STORAGE (CAPITAL) REQUIREMENTS
                                                                                      [Dollars in millions]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                        Fiscal Year Plans
        Storage Requirement         ---------------------------------------------------------------------------------------- Projected                   Materials To Be Stored
                                                 Design                       Construction                  Occupancy          Costs
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fort Meade Module 2................  Completed....................  Fiscal year 2005...............  Fiscal year 2005......         NA  General collections (2M items)
Fort Meade Modules 3 & 4...........  Completed....................  Requested fiscal year 2006.....  ......................      $40.7  Special format collections: maps, prints, photographs,
                                                                                                                                         manuscripts, microfilm (26M items)
Fort Meade Copyright Deposits \1\..  Requested fiscal year 2006     Requested fiscal year 2008.....  ......................        $45  $800,000 re-design funding requested fiscal year 2006
                                      ($800,000).                                                                                        will permit modular, phased construction. Will house
                                                                                                                                         Published and Un-Published Copyright Materials.
Fort Meade Logistics Warehouse.....  Completed....................  Requested fiscal year 2007.....  ......................        $56  Preservation materials, Exhibit Cabinets, Office
                                                                                                                                         supplies, equipment, computers, business records,
                                                                                                                                         Library publications, and material staging
Fort Meade Modules 5...............  Completed....................  Requested fiscal year 2007.....  ......................        $11  General collections (2M items)
Fort Meade Modules 6-13............  Module.......................  ...............................  Through 2026..........    \2\ $88  General collections. Eight additional modules planned
                                                                                                                                         through 2027.
                                                                                                                            -----------
      Total........................  .............................  ...............................  ......................     $240.4  Through Year 2027
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Note: As a result of the fiscal year 2005 construction request of $59 million for the Copyright Deposit, the committee requested that the Library research other options. The options
  included an analysis of the second building at the Alternate Computer Facility in Massases, VA. The re-designed facility will introduce a modular approach with a goal of reducing the cost to
  $45 million.
\2\ $11 million each.

    Dr. Billington. Excuse me, Mr. Chairman. I must just say 
that as far as Culpeper is concerned, the beauty of that 
facility is that it is very capacious and we will not need any 
supplementing of that for a very long period.

                             POLICE MERGER

    Senator Allard. I want to talk a little bit about merging 
the Library police force with the Capitol Police Force. As I 
understand it, this effort was to try and streamline and unify 
the security for the Capitol complex. The Congress authorized 
in fiscal year 2004 any new Library police positions to be 
filled by the Capitol Police officers. Late last year the 
Library and Capitol Police entered into an memorandum of 
understanding (MOU) to enable 23 Capitol Police officers to be 
assigned to the Library.
    How would you assess the effectiveness of this merger to 
this point, Dr. Billington?
    Dr. Billington. I will let General Scott speak to that.
    Senator Allard. That would be fine. General.
    General Scott. As you indicated, the Congress did approve 
23 police FTEs for the Library back in the 2004 budget. To set 
that in context, the Library had indicated in the 2004 budget 
that we would need at least 100 FTEs spread over a 3-year 
period. In 2004, we received an appropriation for 23 of those 
FTEs with the directive that the Capitol Police hire those 
officers for the Library.
    To facilitate the hiring, the Library and Capitol Police 
entered into a memorandum of understanding. The MOU laid out 
the procedures through which we would receive the 23 officers 
who came on board in December 2004. The augmentation was 
seamless and it is working well.
    However, the Library still needs to continue building 
toward the 100 FTEs and is therefore asking for 45 new police 
officers in fiscal year 2006. The MOU does not provide the 
Capitol Police the authority to hire those 45. Additionally, we 
think that the MOU does not resolve our long-range police 
staffing requirements as we will still need to have 32 more to 
round out the 100 that we requested in 2004.
    Finally, the MOU does not address or protect the 
fundamental authority of the Librarian to protect the 
buildings, the staff, and the collections of the Library.
    Dr. Billington. Could I just add that if the hiring of the 
45 additional police officers, which we are requesting in this 
budget, continues to go through the U.S. Capitol Police, that 
what we are in fact seeing is a de facto police merger taking 
place without authorization from the appropriate congressional 
committees and without their knowledge of the full fundamental 
change that will be made in the Librarian's historic and 
statutory responsibilities.
    Senator Allard. Now, you have requested 45 police officers. 
Did you consult with the Capitol Police on this request?
    General Scott. Yes, sir, we did.
    Senator Allard. You did?
    General Scott. Right.
    Senator Allard. And this is a number that they felt they 
needed to have? Here is the issue and the reason I structure it 
this way. My understanding is that right now there is no 
authorization for more police officers as far as the Library is 
concerned, that has been passed over then. So I am a little 
perplexed why you make that request under this budget here and 
why we did not get the request through the Capitol Police 
budget. I wonder if you can respond to that.
    General Scott. Yes, sir. We have been consulting with the 
Chief of the Capitol Police over the staffing issues, as well 
as other police issues. The 45 that we are asking for is based 
on the staffing model and the guide that the Capitol Police 
have. We are asking for officers that would augment our current 
force, and make us consistent in our entrance and exit posts 
with the staffing of the Capitol Police.
    Senator Allard. I hope that we can have some uniformity. 
During my tour of the Capitol Visitor Center we had a good look 
at the tunnel and everything, which I am excited about, the 
direct access over to the Library. But not only do we increase 
access to the Library, but we also increase access back into 
the Capitol. I think if we have not given any thought to that, 
I think we have to think about that in the process, because we 
have a security issue coming back into the Capitol from the 
other side.
    So it is something that I just made note of here and I want 
to check out a little further. I appreciate your response on 
this. I understand that Roll Call had an article on this. 
Apparently they talked to Library employees and I think it was 
an anecdotal type of story. But anyhow, they viewed the Library 
as a possible weak link on the Hill, as far as security.
    Do you agree with that article? Do you think that is 
something to be concerned about?
    General Scott. I cannot comment about the article, Senator. 
I had not read the article. But I can say this, that we are in 
complete agreement that security on Capitol Hill is our highest 
priority and we are determined to meet all the security 
requirements. We want to mirror the Capitol Police augmentation 
on our posts.
    I would also add that the inspector, who is in charge of 
the Library's police and an employee of the Capitol Police, has 
made significant improvements in the liaison role that we now 
have with the Capitol Police.
    Senator Allard. I tell you what. I do have a copy of that 
article that staff has just handed me. What I thought I would 
do is I will give you a copy of it, I will make it a part of 
the record, and then you can maybe respond to any issues that 
are raised in this article if you will.
    General Scott. Yes, sir.
    Senator Allard. I think it would be helpful.
    General Scott. Okay.
    [The information follows:]

    The Library is not a weak link in the security of the 
Capitol complex, as depicted in the recent Roll Call article 
(April 5, 2005). We do agree that it is critical for the 
Library to maintain a level of security commensurate with the 
rest of Capitol Hill. The Library has been effectively 
addressing the protection of its employees, visitors, and 
assets for years, as well as contributing toward strengthening 
the security of the Capitol complex as a whole, with the goal 
of creating seamless security throughout the complex.
    Since the mid-1990s, the Library has aggressively 
implemented major security improvements consistent with the 
many security improvements that have been put in place 
throughout the Capitol complex. Examples of the Library's 
improvements include major perimeter security enhancements, 
implementation of full building entry screening, expanded 
emergency communications capabilities, and establishment of a 
robust emergency preparedness program.
    The Library Police are an integral component of the 
Library's steady progress toward strengthening Library security 
programs. Over the past several years, the Library Police have 
achieved major improvements in operations and personnel 
readiness. Although the Library Police force is comparatively 
small and does not have all the resources available to the 
Capitol Police, the Library Police work closely with the 
Capitol Police to maximize the level of support for daily 
operations and for emergency situations. There has been 
significant enhancement in the coordination efforts between the 
Library Police and the Capitol Police in those areas where the 
capabilities of the Library Police are limited because of 
resource considerations or to avoid costly duplication of 
effort. With the continued commitment and assistance of the 
Capitol Police, we see no discernable differences in response 
capabilities of either police force.
    The Library Police recently underwent an audit by the 
Library's Inspector General. The audit did not identify any 
significant systemic weaknesses or program vulnerabilities that 
would place any employee, visitor, facility, or any part of the 
collections at risk. The goal of the Library Police is to 
achieve cooperative parity with the Capitol Police. The Library 
Police have been working diligently for some time to ensure 
that the Library receives the same level of protection as the 
remainder of the Capitol complex.
    The unique security and enforcement requirements of the 
Library have developed a police culture having somewhat 
different responsibilities than most federal police agencies. 
The successful record of the Library Police in both detecting 
and deterring crimes against the facilities, personnel, or 
property of the Library demonstrates that the Library Police 
are fully capable of meeting their statutory requirements and, 
as demonstrated through the ongoing detail of Capitol Police 
officers, can work effectively with other agencies. There is no 
evidence that the Library Police constitute a weakness in 
meeting their law enforcement and security requirements, and 
the Library Police's aggressive implementation of the 
recommendations from the Inspector General's audit indicates 
their willingness to improve processes and procedures to 
enhance their capabilities and professionalism.
    In summary, Library management has confidence in the 
Library Police that they will continue to provide the required 
level of security and law enforcement to meet their statutory 
responsibilities in the ever-improving security climate on 
Capitol Hill.

                        COPYRIGHT REENGINEERING

    Senator Allard. The Library of Congress budget included $4 
million to complete the Copyright Office's reengineering 
initiative. It includes funds for the lease of temporary office 
space. Please explain how the copyright process will be 
improved through the reengineering effort, which I am pleased 
to see you doing, because if there is one criticism that I get 
it is the copyright procedure and how long it takes to get 
approval. My hope is that this will speed things up and it 
sounds like you are on that, and I want to compliment you on 
that.
    General Scott. Thank you, sir. Marybeth Peters, who is the 
Director, the Register of Copyrights, has had a visionary 
insight in recognizing that commerce and the digital network 
environment now demands that we meet customer expectations by 
electronically making it possible to receive copies of digital 
works, web sites, databases, and various filings, such as 
applications for registrations, and to process them 
electronically.
    Five years ago the Register of Copyrights announced a very 
well thought-out plan that would change the copyright processes 
to support our electronic environment. Fiscal year 2006 is the 
last year that new appropriated funds will be needed to 
complete this project.
    Deferring the project beyond 2006 will not only result in 
the loss of $19.7 million in past investments, but the Library 
will also lose the contract staff who built the new systems and 
the related expertise which is needed to complete this project. 
These resources, if we lost them, would not be available beyond 
2006 due to other commitments.
    The new system cannot be implemented without, of course, a 
reconfiguration of the Copyrights Office space since the 
current floor plans are not aligned with the flow of the new 
business processes. Without the 2006 funding, this project may 
never be implemented, that is why we are making this request.
    Dr. Billington. Don's basic point is that the registration 
will be much quicker, which has been a constant concern and 
complaint, and in the long run it will be much more economical 
because it can be done electronically.
    Senator Allard. Both of those are very worthy goals. I am 
just trying to think through the process. If you are an author, 
do you submit the book in written and electronic form? Your 
book then would go into storage and then you add the book to 
your electronic database?
    I would like you to clarify that for the subcommittee.
    General Scott. At this point I would really like to call 
upon Mary Beth because she is the expert in this, sir.
    Senator Allard. If you feel uncomfortable talking about 
that, we will be glad to put something in the record.
    Ms. Peters. No, I am not in the least bit uncomfortable 
talking about it.
    Dr. Billington. She has been dealing with this for 40 
years.
    Ms. Peters. That is right.
    Senator Allard. I notice I brought a smile to your face. 
You must enjoy it.
    Ms. Peters. The truth is I love it.

                     COPYRIGHT REGISTRATION PROCESS

    If you have authors today and they choose to register as 
soon as they write their books, before they send the manuscript 
to a publisher----
    Senator Allard. Then it gets a Library of Congress number, 
is that correct?
    Ms. Peters. Not if it is the submission of the author's 
manuscript and it is unpublished. If I write a book and I have 
not sent it to a publisher, I may want to get a registration 
before I send it out to publishers, I would send the copyright 
office a paper copy because today we are not equipped to take 
it in electronically.
    Starting this fall, we will be experimenting with taking in 
all types of material electronically and processing them 
electronically.
    Senator Allard. Would that not help your process if you 
expected the author to provide an electronic one when it goes 
to the publisher.
    Ms. Peters. Absolutely. When the publisher gets the 
author's manuscript, it is in electronic form. Then the 
publisher converts it to print form. The print copy is used to 
register the publisher's claim to copyright. The print copies 
usually go into the collections of the Library of Congress, and 
could end up at storage Module 1 or 2 at Fort Meade.
    Senator Allard. Depending on its perceived importance, is 
that right?
    Ms. Peters. Depending on the Library's acquisition 
policies.
    Senator Allard. I see, okay.
    Ms. Peters. So, we hope that we are able to provide all of 
our services within 2 weeks. Reengineering will totally 
revolutionize the way that we do business.
    Senator Allard. I was trying to visualize it. That is what 
I was visualizing, we are making it more efficient. We can also 
keep a hard copy in case something happens to the electronic 
one.
    Ms. Peters. Yes, a digital file will come in to the 
copyright office for registration. If the Library wants print 
copies of a literary work, the publisher will send two print 
copies for the use of the Library, but the copyright office 
will have a digital file of the work.
    Senator Allard. Very good, thank you.
    Ms. Peters. Thank you.

                         OPEN WORLD LEADERSHIP

    Senator Allard. I have just one question on the Open World 
program and then we will hear from the CRS.
    Your statement indicates that Russia alone has nearly 9,000 
Open World alumni, Dr. Billington, each of whom has visited a 
U.S. community for a 10-day stay under the program. I am 
curious as to what continuing communication is needed and 
desirable beyond the original introduction to America, which is 
a 10-day stay here with a host family as I understand the 
program.
    Dr. Billington. Well, this has been an extraordinary 
program in a lot of ways. One of the ways is that it has 
created a lot of sister relationships. For instance, we have 
been emphasizing the rule of law. We have had 800 judges and 
prosecutors. Many of them have established sister court 
relationships. That is a very common thing. Or there are 
oftentimes return visits that are at the invitation of the 
Russian visitor.
    The alumni of this program have set up an internal web site 
to communicate, giving a sense of identity and community among 
these people exchanging their own perceptions and ideas once 
they are there. They have had alumni meetings all over Russia. 
As you know, they have come from all 89 political districts of 
Russia, all 50 States of the Union. So there is a very 
substantial continuity. Recently, we had the first major 
Ukrainian visit for the Ukrainian program since the so-called 
Orange Revolution there and they established a lot of contacts 
that I am sure are going to be useful. One of the participants 
was then subsequently elected to higher office. This is a 
frequent phenomenon.
    There are all kinds of linkages. There is an upcoming 
alumni event in the Russian Far East, but I would like to give 
you a full itemization of the program. I am just speaking off 
the cuff here. Overall, 44 percent of the participants have 
been women with an average age of about 37, which is something 
totally new in Russia. Not a single one of the Russian 
participants has stayed in this country. That is almost unheard 
of in relations between Russia and America. As you know, people 
often want to stay when they come to America. The open world 
participants are tremendously impressed by the time they have 
because it is a total immersion. It is not a series of lectures 
or dialogues where people just give speeches to each other.
    We just had a delegation of their version of the Supreme 
Court and the top jurists, and our Supreme Court met with them 
here for a couple of days and it was really quite exciting. I 
believe some of the U.S. Justices will be returning the visit. 
So this is really the opening up of contacts with a new 
generation of Russian leaders, which is very much the hope of 
that country if it is going to make it as a functioning 
democracy.
    The one thing they all take back, the most important thing 
is the excitement over nongovernmental organizations, the 
extent to which many social services, many problems are dealt 
with at the community level.
    This is the biggest exchange program of its kind since the 
Marshal Plan. It is something that has been done entirely 
within the legislative branch of Government and it is having an 
extraordinary effect, even though it is a short period of time. 
The participants stay in homes. They see the real America. They 
shadow people, and the cooperation is extraordinary--we have 
many more volunteers across the country to take these people in 
than we are able to accommodate. So it is a good sign that the 
American people everywhere in all communities are really 
interested in getting better informed about what is going on in 
Russia.
    Senator Allard. There is follow-up, then, so that at some 
point in time we would like to be able to measure results. I 
hope that we have follow-up on the program. The only way I see 
us being able to measure results is to see what happens to 
these folks 5 years or 10 years down the road.
    Dr. Billington. Absolutely. It is a long-term investment 
because these people have to work their way up through the 
system. We can give you a lot of information on this.
    Senator Allard. Good.
    Dr. Billington. But we do follow up and they do have a 
continuing existence both as alumni, on their web site, and in 
answering to the host organizations in America.

                     CONGRESSIONAL RESEARCH SERVICE

    Senator Allard. Very good. Thank you.
    Now on the Congressional Research Service (CRS) increase, 
there is an increase of $9 million or 9 percent that is 
requested for CRS, for a total budget of $105 million. The 
budget request would provide for 729 staff compared to the 700 
staff you are now operating with. Now, why is that level not 
sufficient? I think Mr. Mulhollan is here to answer that 
question. Could you tell us why you think such an increase for 
CRS should be given preference over other legislative branch 
priorities? So you have got two questions there.

                    STATEMENT OF DANIEL P. MULHOLLAN

    Mr. Mulhollan. This is a question of why is CRS a priority 
for the Congress. I would argue that it is the fact that we are 
a cost-effective extension of congressional staff. In other 
words, we are a shared pool of experts that helps each Member 
and every committee. The Congress draws upon CRS to get 
thorough analysis, that are context-based, and provide a 
framework for considering and comprehending the issues and 
potential consequences of legislative options. CRS supports 
equally the majority, the minority, and each chamber. CRS is a 
shared resource, so each committee and office does not have to 
acquire such expertise because you have it available. CRS 
expertise and products are targeted to your needs. CRS 
guarantees the confidentiality of all our work for you.
    Given the need to sustain this shared pool of expertise, 
and recognizing the budget difficulty you face, half the 
request is for the mandatories and price level increases. The 
next $3.6 million is to keep us whole at the level of 729 FTEs. 
CRS is at a tipping point. Three major factors contribute to 
this request.
    One is that the level of expertise CRS must hire is greater 
than it has been in the past and costs more. Back in 1995 our 
average new hire was a GS-7 step 9. Today it is GS-13 step 9. 
You face more compelling, complex, and interrelated problems, 
such as terrorism and homeland security layered onto the 
massive domestic issues that the Nation faces. The nature of 
your work dictates that CRS hire individuals with high levels 
of formal education and specialized experience.
    Second is staff participation in the newer retirement 
system. The committee has been very supportive of CRS in our 
succession planning. To that end, we have been very thoughtful 
in identifying what kind of expertise the Congress needs and 
who we need to hire. As we lose our older employees, who for 
many years have participated in the older Federal retirement 
system where the employer-paid portion of the benefit is 13.5 
percent per employee. Virtually all those coming into CRS are 
under the newer Federal employee retirement system, FERS. Under 
FERS, the employer-paid benefit is 27 percent per employee, 
twice as much.
    The third element is that in the past 10 years, with one 
exception, 1998, we faced a gap between what we have 
anticipated and asked for with regard to the mandatory pay 
adjustments and what was enacted. For example, in fiscal year 
2004 the adjustment we anticipated was 3.7 percent. What the 
President signed into law was 4.42 percent. That caused a 
$400,000 shortfall in our budget and that is four FTEs.
    We are seeking a one-time catch-up to keep us whole on that 
staffing level.
    [The statement follows:]
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Committee: I appreciate the 
opportunity to appear before you today to present the fiscal year 2006 
budget request for the Congressional Research Service (CRS). I also 
wish to express my gratitude to the Committee for its support of the 
Service's budget requests in years past, as I am well aware of the 
fiscal environment and the difficult funding decisions you face.
    The Service's request for fiscal year 2006 represents not a 
workload increase but instead reflects our need to replenish the levels 
of staffing and resources required to enable us to meet our statutory 
mission of serving all Members of Congress with comprehensive, 
accurate, and timely research and analysis. As such, CRS' fiscal year 
2006 budget request is composed of two parts: funding for our mandatory 
pay- and inflation-related costs and two increases necessary to sustain 
our staff and resource capacities.
    These are challenging times for lawmakers. The environment within 
which the Congress works is fluid and dynamic, with multiple pressures 
vying every day for your attention and for the resources each Member is 
charged to manage. The major policy issues facing Congress, such as the 
ongoing war efforts, Social Security reform, tax reform, immigration 
and border control, homeland security, and issues relating to 
terrorism, are more complex, are politically charged, and have global 
consequences. These and many other issues are complicated and multi-
faceted. Congress is functioning under ever-increasing pressures and 
expectations to be conversant on all the issues and serve as an expert 
on virtually every topic as it deliberates these highly consequential 
issues.
    CRS assists every Member and committee. Our assistance responds to 
your full range of legislative needs, from identifying and evaluating 
authoritative, reliable sources of research and information to offering 
and analyzing legislative and policy options that might best address 
complex, high-stakes public policy problems. All of our work is 
confidential and focuses solely, directly, and specifically on the 
needs of the congressional community.
    Everyone at CRS takes seriously the trust that the Congress has in 
our work. I believe this trust is earned daily through the interactions 
CRS staff have with you and your staff. Each of us at CRS, no matter 
what role we play, strives to improve and excel in every aspect of the 
service that we provide.
                    fiscal year 2006 budget request
    Mr. Chairman, my fiscal year 2006 budget request presents to you 
only what CRS needs to achieve its statutory obligations. I am keenly 
aware of the budgetary pressures facing this Committee and the 
Congress. My responsibility as Director of CRS is to weigh these 
pressures against the basic needs of the Service and to offer you a 
fiscally responsible assessment of the condition of the Service.
    The 2006 request would fully fund our mandatory and price-level 
increases, our first and highest priority, along with two baseline 
adjustments that would enable us to recuperate from shortfalls that are 
straining our ability to acquire staff and research tools. 
Specifically, CRS is requesting a total of $105.289 million for fiscal 
year 2006, an increase of $9.171 million over fiscal year 2005. The 
increase is comprised of $5.097 million for mandatory and price-level 
increases and $4.619 million for increases to recover lost purchasing 
power. The request also includes a $544,000 reduction for the one-year 
funding provided last year to implement XML capacity.
                             staff capacity
    CRS' strength is its people: 88 percent of our budget is devoted to 
staffing. The remaining 12 percent of the CRS budget covers the non-
personals expenses, the day-to-day business operations of the Service, 
including the monthly phone bills, hardware and software maintenance 
agreements, technology refreshment, and permanently contracted 
operations. These non-personals costs offer little financial 
flexibility for adding to staff capacity. Because our work is dependent 
on the skills and abilities of the people, I am continually reviewing 
the composition of CRS' staff so that we have the right mix of 
individuals with the right expertise to assist the Congress as it 
frames and considers major policy problems. CRS staff are ready to meet 
today's needs and, at the same time, are anticipating and preparing for 
the major policy issues on the horizon.
    CRS is proposing a one-time budgetary adjustment of $3.6 million to 
sustain its staffing level of 729 full-time equivalents (FTEs). Without 
this additional funding the Service would have to reduce permanently 
down to about 700 FTEs. There are three factors contributing to the 
need for $3.6 million: CRS' need to sustain a higher level of staff 
expertise, the gap between the funding provided in the budget process 
and the federal pay raises enacted, and the impact of a workforce 
shifting from the old to the new federal retirement system.
    The first factor evolves from the change in CRS' workforce 
composition. The variety and range of expertise of CRS staff must match 
the expertise needed by the Congress as it develops and undertakes its 
legislative agendas, both current and anticipated. We routinely conduct 
two Service-wide examinations: to identify the major policy areas 
Congress is likely to address and to assess and forecast the 
availability of CRS experts to assist the Congress in those issue 
areas. The results of these assessments guide my decision-making in our 
annual staffing plan and subsequent staffing selections. The nature of 
your legislative work requires a higher level of CRS expertise. As we 
recruit and interview prospective employees, we are finding that the 
work competencies we need are best met by those seeking positions in 
the higher general schedule pay ranges. This is confirmed by CRS 
statistics on new hires: in the period from fiscal year 1995 to the 
present, the grade level of the average CRS hire has increased from a 
GS-7, Step 9 to a GS-13, Step 9. The complex and often technical nature 
of the policy problems you face requires us to ensure that we have the 
right expertise to correspond to the myriad sources having stakes in 
the policy outcomes of your work.
    The second factor contributing to the need for this baseline 
increase is the cumulative shortfall in funding that has resulted from 
pay raises enacted at a higher rate than provided for in the 
Legislative Branch annual appropriations, albeit you have provided what 
we asked for. Since 1995, with the exception of 1998, the Service's 
budget has been increased for staff salary and benefits costs in an 
amount less than what was ultimately required by law to be paid to the 
employees. For example, in fiscal year 2004, the budget process 
anticipated an annual rate increase of 3.7 percent; however, the actual 
enacted pay raise was 4.2 percent, costing CRS about $400,000 (or four 
FTEs) more to sustain the current staff. The cumulative impact over the 
past ten years contributes to the need for our current budget request 
for sustaining staff capacity.
    It is costing the Service more to subsidize retirement benefits. As 
of right now, about 42 percent of the CRS workforce participates in the 
Civil Service Retirement System (CSRS). Based on fiscal year 2004 data, 
a CSRS participant is costing the agency about 13.5 percent in 
employer-paid fringe benefits. This compares to the 27 percent in 
employer-paid benefits for a Federal Employee Retirement System (FERS) 
employee. For the past few years, virtually all of the CRS retirements 
are staff participating in CSRS, while the majority of new hires are 
eligible to participate only in the more expensive FERS. As the 
proportion of the FERS workforce continues to grow, the fiscal impact 
has been, and will continue to be a dramatic rate of increase in agency 
costs.
    The budget I am requesting will allow CRS to rebuild and replenish 
to its authorized ceiling of 729 FTEs, the staffing level needed to 
sustain current services. A single example will allow me to illustrate 
the level of service that I am committed to providing to the Congress 
and that the Congress has come to expect from this agency. When the 
congressional leadership last July identified the newly released 9/11 
Commission report as its top priority, CRS acted. Within one week over 
70 CRS analysts and information professionals came together to provide 
Members with thorough analyses of the report. Those analyses were 
context-based, providing a framework for considering and comprehending 
the report's contents in view of other relevant factors and their 
potential impact. Most importantly, we provided real-time, round-the-
clock analysis. We were ready when your deliberations began and 
remained at your side as you considered the Commission's 
recommendations and as you took steps to enact the policy changes 
deemed most appropriate.
    We were able to provide this kind of specialized and close support 
because our staff work collaboratively across disciplines, are experts 
in their fields, and are available on-demand to consult individually 
with Members and committees. Because of our proximity to the Congress, 
because of the close working relationship we enjoy with you and your 
staff, and because our experts prepare analyses that benefit the entire 
congressional audience, we were able to deliver the services Congress 
has mandated and come to expect. This is the kind of work the Congress 
has outlined for CRS in our organic statute. However, our ability to 
sustain this level of assistance, as you deliberate the wide range of 
policy problems facing the Nation, will be in jeopardy if our staffing 
capacity is reduced further.
    CRS is a cost-effective extension of congressional staff. As a 
shared pool of experts, CRS has the ability both to address high-
priority issues from a multi-disciplinary perspective and to provide a 
wide range of high-level, specialized expertise. Individual committees 
and Members could not retain such a valuable resource for their own 
offices, but CRS, as a centralized, shared pool, proves to be very 
cost-effective when meeting total congressional demand.
                         crs research materials
    The third component of my request is a one-time, $1 million 
baseline adjustment for research materials. There are a number of 
critical electronic materials continually requested by our subject-
matter experts that CRS is currently unable to procure.
    Annually, the Service carefully considers each subscription and 
database renewal to ensure that the available funding is used to 
acquire only the highest priority materials. Even with this close 
scrutiny and the elimination of lesser used items, CRS has barely been 
able to maintain a stable inventory of the resources most pertinent to 
our work, let alone add any newly requested resources. However, sound 
analysis depends on authoritative sources covering the full range of 
subject areas that the Congress may consider.
    CRS' work requires materials that are timely and authoritative, 
particularly in emerging public policy issue areas, such as homeland 
security and global terrorism. Your approval of our fiscal year 2006 
request would enable us to buy resources such as Oxford Analytica, 
Inside Washington publications, prescription-drug proprietary 
databases, and the PIERS database. These represent highly specialized 
and technical research resources and are not acquired by the Library of 
Congress for CRS use. These materials are, however, available to others 
who provide you information and who lobby for particular positions and 
policy outcomes. Without access to those resources, CRS experts' 
capacity to capture the range of knowledge available on an issue, to 
prepare you for challenges you may face in defending your position, and 
to provide you with the consequences of policy options is diminished.
                         management initiatives
    Congress holds me accountable for managing responsibly, and in the 
last 11 years I have gratefully undertaken that charge. I take 
seriously my responsibility to assure you that the budgetary support 
you give the Service results in a cost-effective organization that is 
dedicated to its statutory mission and that offers you the highest 
quality of service. I would like to take this opportunity to summarize 
briefly some actions I have and continue to take that reflect this 
commitment.
    We continually examine and adjust our organizational structure to 
maximize direct service to the Congress. We consolidated some CRS 
facilities in the House congressional buildings with the assistance of 
the Committee on House Administration. We made use of flexible hiring 
programs, such as the Presidential Management Fellows and Hispanic 
Association of Colleges and Universities (HACU) programs. We have taken 
advantage of the cost savings that can be achieved through outsourcing 
by implementing contracting services for our messenger service, copy 
operations, and technology help-desk, and continually seek out new 
opportunities.
    Another initiative affecting personnel and improving efficiency is 
the reorganization of our information professionals into a single 
organizational unit. The thrust behind this major re-engineering effort 
is to increase collaboration between information professionals and 
analysts, which in turn will maximize efficiencies. Through 
collaboration each functional unit can ensure that the work is handled 
by the individual with the appropriate expertise to accomplish that 
work.
    Earlier I noted that 88 percent of CRS' budget is salaries and 
benefits. The remaining 12 percent also merits close attention in my 
efforts to streamline. Although this 12 percent of the CRS budget 
represents our relatively fixed costs, we look carefully at those costs 
to see if any component of that expenditure can be reduced or 
eliminated. To achieve this we conduct an annual ``zero scrub'' of the 
entire CRS budget. We look at every single cost category from the 
ground up; we do not simply roll over the budget for these categories 
from one year to the next. Also, we have initiated audits of every on-
going activity within CRS. These comprehensive audits will help us to 
continue to secure a well-executed and cost-effective program, with the 
assurance that every dollar spent contributes to the Service's singular 
mission. I hope that you would contact me directly if you have any 
concerns about our management activities, processes, or direction.
                               conclusion
    In closing, Mr. Chairman, I appreciate the opportunity to inform 
the Committee about the state of CRS and the near-term challenges we 
face in our continuing ability to serve the Congress. As the first 
branch of government, the Congress must ensure that it maintains its 
independent capacity to analyze the complex challenges that the Nation 
confronts, especially during a time of war. I hope that you agree that 
CRS contributes significantly to this independent capacity and that we 
are fulfilling our mission in a way that warrants your ongoing support. 
I am, of course, always available to answer any questions that the 
Committee may have.

              CONGRESSIONAL RESEARCH SERVICE RESPONSE TIME

    Senator Allard. Thank you for your explanation.
    Are you measuring the length of time it takes you, or do 
you have some idea about the length of time it takes you to 
respond to the average Congressional request?
    Mr. Mulhollan. The majority of information requests are 
answered in 24 hours. But a significant amount of time can be 
spent on more complex questions--for instance, a study for a 
committee dealing with, let us say, prescription drug pricing 
and what changes are being considered in medicare benefits. The 
use and manipulation of the drug pricing database can take 
several months--and that could be considered one request.
    Meanwhile, let us say an LA calls and says, ``I have a 
Member who is looking at this language; can you explain this 
language to me? We have just gotten it and the subcommittee 
meeting is in a half hour.'' So it is also this kind of rapid-
response expertise that is drawn upon daily by the Congress.

                         PERFORMANCE MANAGEMENT

    Senator Allard. As you can tell, for those of you here at 
the table and in future testimony, I have a lot of interest in 
performance and measurement. We require that on executive 
branch agencies. We do not require it on the legislative 
branch. But I do think that we ought to set an example here in 
the legislative branch for the rest of the agencies. So I am 
going to request more and more definitive assessment through 
what we call GPRA, Government Performance and Results Act.
    I think it has been a good business tool. When I did my 
business, I set goals that were measurable, measured them, and 
then it helped me evaluate as a manager in my own business 
exactly whether we were meeting those goals or not.
    So some of my questions are being laid out to prepare you a 
little bit for when we get into the next year and then I will 
be asking questions about how you are doing setting down 
performance standards and then measuring the results. I think 
as administrators it helps us all understand what is going on 
and then we can focus on results and do not have to focus about 
the nitty-gritty of management, we will leave that to you, but 
we just look at results and then we have something that is 
measurable, hopefully.

                      CRS PERFORMANCE MEASUREMENT

    Mr. Mulhollan. Mr. Chairman, may I add for the 
Congressional Research Service, we welcome that. We have been 
spending a significant amount of time on considering meaningful 
performance measurements. You can look at the workload measures 
that we have identified. I think there are significant success 
stories. For example, in fiscal year 2002 we responded to a 
total of 811,000 requests, and in fiscal year 2004 we responded 
to almost 900,000 requests.
    We break that down further, for example to track hits on 
the CRS web site, which is solely for use by the Congress. No 
one else has the depth of expertise covering roughly 170 major 
public policy areas, where you can have it targeted to meet the 
needs of each chamber, whether in committee or on the floor, 
and where the analysis anticipates the consequence of your 
decisions there. We have now, almost 5,000 reports, continually 
updated on more than 300 issues and available for the Congress. 
Two years ago we had 4,000. So it is an additional 1,000 
reports that we are keeping updated along this line.
    Another measure is e-mail exchanges. Following up with a 
Congressional request we now have an encrypted e-mail exchange 
between the Senate and the House and ourselves. As a 
consequence of that effort, last year we counted 77,000 
exchanges. As of the first quarter of the current fiscal year, 
we have seen a 13 percent increase from last year.
    So our measures I think on our focused assistance are good 
and solid, and we are working to improve them.
    Senator Allard. Very good. Thank you.

              LIBRARY OF CONGRESS PERFORMANCE MEASUREMENT

    Dr. Billington. Mr. Chairman, let me just add----
    Senator Allard. Dr. Billington.
    Dr. Billington [continuing]. A point, that we are not 
actually required to use the Government Performance and Results 
Act, but we do use it as a guide.
    Senator Allard. I am glad to hear that.
    Dr. Billington. I would only say also that, as we were just 
saying with the Open World program, which actually is a 
separate line item but I happen to chair the board, so I am 
happy to answer for it and it is in the legislative branch as 
well, in that as in the Library as a whole performance has to 
be seen over a long period of time. One would have said that 
there was very little justification for keeping old German 
archaeological records. Every other library in the world 
discarded them. But when it came to verifying whether the tanks 
that did the flanking motion in southern Iraq would sink in the 
sand or be able to sustain them, it was that kind of material 
that enabled them to verify, because the Germans pedantically 
reported how much they dug and how long it took, with what kind 
of shovel, in Mesopotamia, which is where a lot of the 
archaeology was.
    So what I am saying is that having this extra margin, which 
is what we are talking about when we talk about the need for 
acquisitions and the use of our overseas offices--Islamabad, 
Cairo, all these places--where valuable information is gathered 
that really does not exist anywhere else, it is a long-term 
investment. You do not know when you are going to cash in the 
investment, but it is of incalculable value to have so much 
knowledge because you cannot possibly anticipate what kinds of 
questions are going to be essential for this country.
    Senator Allard. I recognize the complexities of getting 
measurable goals out there. It is not always easy. And I 
recognize the fact that you cannot look at it just on a short-
term basis, but you do need to collect this data on an annual 
basis and see over a trend line over several years, and then 
that gives you some idea of how your programs are operating.
    Dr. Billington. Oh, absolutely, and we welcome it. And as I 
say, we try to follow these guidelines.
    Senator Allard. That is one of the issues I am going to 
take a little time exploring with all the legislative agencies.
    Thank you, Dr. Billington. Thank you, General Scott. Dan, 
thank you, and Mr. Mulhollan. I appreciate your testimony. 
Thank you.
    General Scott. Thank you, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. Also, we will be making your full statement 
a part of the record.
    If there are any additional questions, they will be 
submitted to you for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
              Questions Submitted by Senator Wayne Allard
                          impact of technology
    Question. According to LOC's budget justification, ``To help 
researchers quickly find information that is relevant, authoritative 
and verifiable, the Library must adapt its traditional strengths of 
acquiring, describing, serving and preserving information to an 
environment that is not bound by time or physical space.'' How do you 
balance the Library's traditional mission with this new requirement? 
How does technology help streamline and make more cost-effective the 
Library's ability to meet its mission, and even reduce costs?
    Answer. The Library's traditional mission is being pushed by the 
expectations of users, who increasingly demand and rely on electronic 
resources in addition to the traditional reference, descriptive, and 
access services for physical collections that the Library provides. 
While the Library continues to make accessible and preserve its print 
and multimedia collections, it requires additional resources and new 
skill sets among staff to purchase and serve electronic resources such 
as subscription databases, which are the cornerstones of research in 
many academic disciplines today.
    Technology enables the Library to increase its services to the 
Congress and to its other constituencies in many ways:
  --Entire Library collections of primary source materials are 
        available online via American Memory and Global Gateway to be 
        shared in libraries and classrooms around the country and 
        around the world.
  --Reference questions are asked and responded to via the Web.
  --Guides to Library manuscript and other special format collections 
        are available online for researchers to peruse before they come 
        to the reading rooms, making their time in the Library more 
        productive.
  --Catalogers are pioneering Electronic Data Interchange (EDI) 
        applications to share bibliographic and authority control 
        records with other national libraries and library services 
        vendors.
  --Publishers share pre-publication galleys of books electronically 
        with the Cataloging in Publication (CIP) program to streamline 
        cataloging processes and shorten publication time.
    The Library offers direct services to Congress electronically as 
well. ``LCnet'' premiered this spring as an online portal devoted 
solely to Members of Congress and their staff to interact with the 
Library on a number of fronts--to reserve rooms and plan special 
events, to arrange tours for constituents, to receive customized 
calendars of Library events, and to fulfill other special services or 
information needs that arise.
                               cvc tunnel
    Question. The Capitol Visitor Center will include a tunnel to the 
Library of Congress' Jefferson Building. Do you have any estimate of 
how much visitation will increase? Will you need additional staff for 
tours or security? Do you plan any new activities that will necessitate 
additional resources?
    Answer. The number of visitors to the Library could triple to more 
than three million annually with the opening of the Capitol Visitor 
Center tunnel. Should the number of visitors exceed building safety 
requirements, the entrance through the tunnel to the Thomas Jefferson 
Building will be limited on an hourly basis or through a ticketing 
system. At present, we are assuming that security screening will take 
place on the Capitol Visitor Center side and that visitors entering the 
Library through the tunnel will not be re-screened.
    The Library is studying the impact the Capitol Visitor Center 
tunnel will have on the level of visits to the Thomas Jefferson 
Building in particular and to the Library and its services for visitors 
as a whole. Planning is underway to enhance the visitor experience, and 
it is not yet clear whether the experience will be largely self-guided 
and enhanced by interactive kiosks and audio tours, or whether it will 
be more traditionally led by staff and volunteer docents. Internal and 
external planning expertise is being deployed on this front, and the 
results of these consultations will determine whether additional 
resources will be necessary.
             books for the blind and physically handicapped
    Question. The Library has been working for several years to develop 
a design for a ``digital talking book'' to replace the current cassette 
tape system to make books available to the blind. When do you expect to 
need the funds necessary to begin the full conversion to the digital 
format? How much will be required in total?
    Answer. The National Library Service for the Blind and Physically 
Handicapped projects that a total of approximately $76.5 million will 
be required to fund the transition from analog cassette to a digital 
format over a period of four years. An initial request of approximately 
$19 million will be submitted in fiscal year 2007.
  national digital information infrastructure and preservation program
    Question. Library has been spearheading a $100 million effort aimed 
at preserving ``born-digital'' materials. There are now 8 NDIIP 
grantees/partners, who were awarded $14.5 million. What has been 
accomplished to date and what do you expect to accomplish in the year 
ahead? Why is the Library requesting a waiver for state government 
entities of the dollar-for-dollar match requirement? Do you anticipate 
additional funds will be needed in the future for this effort? Are 
other federal agencies, such as the National Archives, providing 
resources for this effort?
    Answer. NDIIPP Accomplishments to date and expected accomplishments 
include the following:
  --The goal of the NDIIPP is to build a national preservation program 
        for reliable digital content. The Library is following the plan 
        approved by Congress in 2002, executing three areas of 
        investment: building a network of partners to share in this 
        responsibility; developing the technical architecture to 
        support that network (standards and protocols); and creating 
        the tools for digital preservation. Continuing investment in 
        these three areas is expected in the coming years.
  --An 18-month test of 6 existing technical architectures was 
        completed with 4 other large research libraries. This work 
        advances the development of the architecture necessary support 
        a network of partners.
  --NDIIPP launched its first partners in January 2004--8 consortiums 
        with a total of 36 organizations to collect at risk digital 
        content in excess of 60 terabytes. The content is diverse and 
        consists of web sites, social science data sets, geo-spatial 
        materials, business history, and digital television 
        programming. These partners provided $15 million in pledged 
        matching funds over the next 3 years.
  --A Copyright Working Group, made up of representatives of the 
        content creator/distributor communities, libraries, and 
        archives, was just launched to examine Section 108 of the 
        copyright law dealing with libraries and archives. This work is 
        sponsored by NDIIPP working with the U.S. Copyright Office. The 
        working group will make recommendations to Congress about 
        revisions to the law.
  --Working with NSF, the Library is funding 7 advanced research grants 
        for developing tools and techniques for digital preservations.
  --The Library is working with E-Archives, the San Diego Super 
        Computer Center and the Los Alamos National Laboratories to 
        develop repository software for archiving different types of 
        digital content.
    In 2005, we are developing a program to bring state and local 
organizations into the preservation network. The request for a waiver 
results from the Library's experience in building collaborative NDIIPP 
relationships in the last few years. The Library recognizes that there 
are limited discretionary funds available, especially from state 
governmental entities, to meet common digital preservation challenges 
faced by all preserving institutions. Building sustainable preservation 
network partnerships is a long-term process. By requesting the state 
waiver, the Library plans to encourage the active building of broad 
collaborative relationships within and among state entities. By not 
subjecting these entities immediately to the match provision, the 
Library hopes to catalyze states to seek out building sustainable long-
term collaborative relationships during and after the grant period, and 
not before.
    The Library does not anticipate additional funds, beyond that which 
already has been authorized for NDIIPP, will be needed to execute the 
NDIIPP program by 2010.
    The Library works collaborative with other federal agencies through 
their participation in the National Digital Strategy Advisory Board 
(NDSAB), joint participation in developing technical digital 
preservation guidelines and best practices, and their work with the 
Library's collaborating partners in the NDIIPP program. Other federal 
agencies do not provide direct resources to the Library and its NDIIPP 
program.
                              outsourcing
    Question. Is the Library seeking opportunities to outsource any 
activities, as a way to reduce costs? Please explain.
    Answer. The Library outsourced a significant number of activities 
and continually seeks to identify additional activities that are 
appropriate for outsourcing in order to improve service, reduce cost, 
increase responsiveness, and promote efficiency in the agency. Some 
examples of activities that are currently outsourced include:
  --Infrastructure support services (custodial services, food services, 
        furniture and furnishings installations and maintenance, trash 
        removal and recycling pick-up, vehicle leases, secure mail 
        operations, messenger service, graphics and design services, 
        etc.)
  --Human Resource Services (employee assistance program, retirement 
        services, management of personnel records, job analysis, 
        selected training, etc.);
  --Information technology (help desk and user support);
  --Security (security within reading rooms, exhibit areas, and 
        outlying annexes, and ID card and finger printing functions);
  --Financial (payroll processing, travel services, implementation of 
        new financial systems, etc.); and
  --Program support (translation services, receptionist support).
    In addition, several of the Library's major programs are either 
outsourcing some of their work or investing in outsourcing pilots. For 
example:
  --Library Services has issued a contract to an Italian bookseller for 
        a pilot project in which Italian books bought for the 
        collection will also be cataloged by the bookseller. If this 
        pilot is successful, outsourcing the cataloging of some of the 
        foreign language collections is a possibility--both to reduce 
        costs and to gain language expertise that is not always 
        available on staff.
  --The Copyright Office outsourced its registration certificate 
        production (i.e., printing and quality checking for over half a 
        million copyright registration certificates per year). In 
        addition, data entry of titles from recorded copyright 
        documents, totaling anywhere from 300,000 to 500,000 titles per 
        year, and contracting for selected divisional IT technical 
        support are partially outsourced.
  --The Law Library outsourced work related to its Global Legal 
        Information Network (GLIN), including scanning of documents, 
        data input, and quality control of laws, regulations and other 
        legal sources that comprise the GLIN. The Law Library has also 
        outsourced a number of core services related to collection 
        management, such as processing new receipts, binding 
        preparation, loose leaf filing and shelving.
  --In addition to actions taken and planned within the Library, the 
        Congressional Research Service (CRS) has done a significant 
        amount of outsourcing and continues its efforts to seek out 
        additional opportunities. In response to the recent Legislative 
        Branch Agency Self-Certification Survey, CRS described a number 
        of activities that have been outsourced and for which the 
        tangible benefits have already been factored into the Service's 
        annual Operating Plan. Over the past eight to ten years, CRS 
        has permanently outsourced a number of on-going business 
        activities, including its messenger service; mail operations; 
        copy centers; technology help-desk and user support; foreign 
        language translations; receptionist positions; job analysis; 
        graphics design work; and general laborers/movers. CRS utilizes 
        contractors to produce specific deliverables within a limited 
        timeframe where securing in-house capability is not warranted 
        given the temporal nature of the need. Examples of this type of 
        outsourcing include library support functions; professional 
        librarians; on-site group training and staff development 
        services; assistance with developing a performance management 
        system; professional survey instruments; professional services 
        to help develop new authoring policies and procedures as well 
        as meeting federal archiving obligations under the Federal 
        Records Act; and cataloguing services.
    Savings gained through these outsourcing measures has provided CRS 
with some interim financial flexibility to absorb cost increases in 
other aspects of the Service's budget, e.g., software maintenance, 
research materials, employer-paid benefits costs for staff, and staff 
performance awards. While the Service believes that it has reached a 
level of critical mass with paring down its expenses and defraying 
unavoidable cost increases, CRS continually evaluates its programs, 
activities, and projects to determine the feasibility of undertaking 
them through outsourcing mechanisms.
    Further, CRS conducts in-depth program/financial audits of each of 
its on-going business activities every two years to ensure that the 
level of service is both appropriate for and contributes directly to 
meeting the mission and strategic objectives and performance targets 
set forth by the Director. In addition to the on-going activity 
reviews/audits, CRS conducts other internal studies to assess 
organizational structure or performance in comparison to the Service's 
total program needs. The results of these studies inform business 
decisions about the proper skills levels and mix needed throughout the 
Service, the right distribution of those skills and capacities, and the 
most cost effective way to deliver the skills and capacities--
specifically, via in-house staffing or by outsourcing. Using 
information gleaned from its quarterly/annual performance reviews and 
annual management control reviews, CRS is continually probing its own 
operation to ensure that every aspect of the day-to-day business is 
carried out in the most efficient and cost-effective way possible and 
contributes to the singular goal of meeting the analytic research and 
information needs of the Congress.
                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL OF 
            THE UNITED STATES
ACCOMPANIED BY:
        GENE DODARO, CHIEF OPERATING OFFICER
        SALLYANNE HARPER, CHIEF ADMINISTRATIVE OFFICER
        STAN CZERWINSKI, CONTROLLER

    Senator Allard. Now we will call the Government 
Accountability Office (GAO), please. We are having Mr. David 
Walker, Comptroller General; Gene Dodaro, Chief Operating 
Officer; and Sallyanne Harper, Chief Administrative Officer; 
and then Stan Czerwinski, who is our Controller.
    Mr. Walker, when you are ready you may proceed. We will ask 
that you limit your testimony to 5 minutes or so, and we will 
go into question and answer. We will make your full statement 
part of the record.

                            OPENING REMARKS

    Mr. Walker. Thank you, Mr. Chairman. It is a pleasure to be 
back before this subcommittee to talk about our fiscal 2006 
budget request. As you mentioned, accompanying me on my 
immediate right, Sallyanne Harper, our Chief Administrative 
Officer and Chief Financial Officer; on her right, Stan 
Czerwinski, about whom you had very kind comments, our 
Controller; on my left, Gene Dodaro, our Chief Operating 
Officer. We appreciate your having us before you, because all 
of these individuals and others have played an important part 
in putting together this budget submission.
    I respectfully request, Mr. Chairman, that my entire 
statement be included in the record. Therefore, I will 
summarize the highlights.
    Senator Allard. So ordered, without objection.
    Mr. Walker. Thank you very much.
    As you know, Mr. Chairman, GAO is the third largest agency 
in the legislative branch based upon budget authority. Our job 
is to help the Congress discharge its constitutional 
responsibilities, basically geared toward helping to improve 
the performance of Government and assure the accountability of 
Government for the benefit of the American people. I was 
encouraged and had a very favorable reaction to your 
conversation before about performance and results.
    I would note that we voluntarily comply with the Government 
Performance and Results Act. Our objective is not just to 
comply with the Act; it is to lead by example and to be the 
best in Government in anything that we do. I would respectfully 
suggest that when you have a chance you may want to take a look 
at GAO's Fiscal Year 2004 Performance and Accountability 
Highlights Report, because I think you will be proud of what it 
has to say.
    We have an important philosophy of leading by example, 
because we are the agency that audits, investigates, and 
evaluates others. Therefore, I believe we have a responsibility 
to be as good or better than the agencies we audit, investigate 
or evaluate. This adds to our effectiveness as well as our 
credibility. In fact, one of our four goals under our strategic 
plan for serving the Congress is to be a model Federal agency 
and a world class professional services organization.

                           MEASURING SUCCESS

    We have four key success measures: results that are outcome 
based, not activity based; the feedback we get from clients; 
what our most valuable asset, our employees, say about us; and 
what our partners within and outside of Government, say about 
us, namely whether we are a good partner.
    For fiscal year 2004 we had record results, all-time record 
results for GAO. For example, we achieved $44 billion in 
financial benefits, a $95 return for every dollar spent by 
GAO--an all-time record. Number one in the world, nobody is 
even close. Second, with regard to clients, a 97 percent client 
satisfaction rate. Also, an all-time record. With regard to 
employees' views on our overall operations and work 
environment, GAO will probably receive one of the highest 
ratings in the federal government based upon past reported 
activity. With regard to our partners, we get very positive 
feedback.
    With regard to our budget, we are very well aware that the 
federal government faces a large deficit and a long-range 
fiscal imbalance. Therefore, for several years we have tried to 
lead by example in this regard as well. We have had very modest 
budget requests, as is the case this year.
    There is some risk, Mr. Chairman, in trying to lead by 
example in this regard, because it means that we count on you, 
your capable staff, and others to make sure that there is a 
level playing field in scrubbing these budget requests before 
you make final decisions. For example, if this subcommittee 
were to approve the request of every legislative branch 
agency--and I know you are unable to do that because of the 
fiscal pressures--and if you were to see how much of a budget 
increase would have been achieved in the last 3 years, from 
fiscal years 2004 to 2006, versus the average for the 
legislative branch, GAO's increase if we got everything that we 
asked for, which is based on need versus want, would be a total 
of 7.4 percent. That is basically inflation. The average for 
the legislative branch would be 18.4 percent.
    So I would respectfully suggest, Mr. Chairman, that it is 
important not just to look at 1-year budget requests, but also 
to look, as you pointed out before, at the trendline of what 
has happened over the last several years, where do things stand 
on a relative basis as well as hopefully be able to look at 
return on investment. By having a modest budget request and a 
strong return on investment, we hope that puts us in a strong 
position to get our fair share.

                           PREPARED STATEMENT

    The last thing I would say, Mr. Chairman, is I appreciate 
this subcommittee's past support of GAO. I look forward to 
working with you. I congratulate you on your appointment to the 
chairmanship, and I know that it is going to be a tough year 
and series of years. But I think by focusing on minimizing 
budget requests, maximizing return on investment, and focusing 
on positive, outcome-based results, I hope that it will make 
your job a little bit easier.
    Thank you.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before you today in support of the fiscal year 2006 budget 
request for the U.S. Government Accountability Office (GAO). This 
request is necessary to help us continue to support the Congress in 
meeting its constitutional responsibilities and to help improve the 
performance and ensure the accountability of the federal government for 
the benefit of the American people.
    We are grateful to the Congress for providing us with the support 
and resources that have helped us in our quest to be a world-class 
professional services organization. I am proud of the work we 
accomplish as we continue to provide our congressional clients with 
professional, objective, fact-based, non-partisan, non-ideological, 
fair, balanced, and reliable information in a timely manner regarding 
how well government programs and policies are working and, when needed, 
recommendations to make government work better. We believe that 
investing in GAO produces a sound return and results in substantial 
benefits to the Congress and the American people. In the years ahead, 
our support to the Congress will likely prove even more critical 
because of the pressures created by our nation's current and projected 
budget deficit and long-term fiscal imbalance. These fiscal pressures 
will require the Congress to make tough choices regarding what the 
government should do, how it will do its work, who will help carry out 
its work in the future, and how government will be financed in the 
future.
    We summarized the larger challenges facing the federal government 
in our recently issued 21st Century Challenges report.\1\ In this 
report, we emphasize the critical need to bring the federal 
government's programs and policies into line with 21st century 
realities. Continuing on our current unsustainable fiscal path will 
gradually erode, if not suddenly damage, our economy, our standard of 
living, and ultimately our national security. We, therefore, must 
fundamentally reexamine major spending and tax policies and priorities 
in an effort to recapture our fiscal flexibility and ensure that our 
programs and priorities respond to emerging security, social, economic, 
and environmental changes and challenges in the years ahead. I believe 
that GAO can be of invaluable assistance in helping the Congress 
address these challenges.
---------------------------------------------------------------------------
    \1\ GAO, 21st Century Challenges: Reexamining the Base of the 
Federal Government, GAO-05-325SP (Washington, D.C.: February 2005).
---------------------------------------------------------------------------
    My testimony today will focus on our (1) performance and results 
with the funding you provided us in fiscal year 2004, (2) streamlining 
and management improvement efforts under way, and (3) budget request 
for fiscal year 2006 to support the Congress and serve the American 
people.
                                summary
    In summary:
  --The funding we received in fiscal year 2004 allowed us to audit and 
        evaluate a number of major topics of concern to the nation and, 
        in some cases, the world. For example, we reported on the 
        reconstruction efforts in Afghanistan and Iraq; important 
        concerns about pay and other support for the National Guard and 
        Reserve forces; numerous topics related to homeland and 
        national security, including improving operations of the 
        Departments of Homeland Security and Defense; curbing the use 
        of counterfeit identity documents; and making the nation's 
        transportation system safer from potential acts of terrorism. 
        We also continued to raise concerns about the nation's long-
        term fiscal imbalance, summarized key health care statistics 
        and published a proposed framework for related reforms, and 
        provided staff support for the 9/11 Commission. In fiscal year 
        2004, we exceeded or equaled our all-time record for six of our 
        seven key performance indicators while continuing to improve 
        our client and employee feedback results. I am especially 
        pleased to report that we documented $44 billion in financial 
        benefits--a return of $95 for every dollar spent, or $13.7 
        million per employee. In fiscal year 2004, we also recorded 
        1,197 other benefits that could not be measured in dollar terms 
        including benefits that helped to change laws, to improve 
        services to the public and to promote sound agency and 
        governmentwide management. Also, experts from our staff 
        testified at 217 congressional hearings covering a wide range 
        of important public policy issues during fiscal year 2004.
  --Shortly after I was appointed Comptroller General, I determined 
        that our agency would undertake a transformation effort. This 
        effort is consistent with the elements of House Report (H. 
        Rpt.) 108-577 that focus on improving the efficiency and 
        effectiveness of operations at legislative branch agencies. Our 
        transformation effort has enabled us to eliminate a management 
        layer, streamline our organization, reduce our overall 
        footprint, and centralize many of our support functions. 
        Currently, over 50 percent of our support staff are 
        contractors, allowing us to devote more of our staff resources 
        to our mission work. We recently surveyed managers of agency 
        support operations and identified additional activities that 
        potentially could be filled through alternative sourcing 
        strategies. In fiscal years 2005 and 2006, we will further 
        assess the feasibility of using alternative sourcing for these 
        activities. I would be pleased to brief you at a later date on 
        our preliminary analyses.
  --In developing our fiscal year 2006 budget, we have taken into 
        consideration the overall federal budget constraints and the 
        committee's desire to lead by example. Accordingly, we are 
        requesting $493.5 million which represents a modest increase of 
        4 percent over fiscal year 2005. This increase is primarily for 
        mandatory pay costs and price level changes. This budget 
        request will allow us to continue to maximize productivity, 
        operate more effectively and efficiently, and maintain the 
        progress we have made in technology and other areas, but it 
        does not allow us sufficient funding to support a staffing 
        level of 3,269--the staffing level that we requested in 
        previous years. Even as we are tempering our budget request, it 
        needs to be acknowledged that there are increasing demands on 
        GAO's resources. For example, the number of congressional 
        mandates for GAO studies, such as GAO reviews of executive 
        branch and legislative branch operations, has increased more 
        than 15 percent since fiscal year 2000. While we have reduced 
        our planned staffing level for fiscal years 2005 and 2006 in 
        order to keep our request modest, we believe that the staffing 
        level we requested in previous years is a more optimal staffing 
        level for GAO and would allow us to better meet the needs of 
        the Congress and provide the return on investment that both the 
        Congress and the American people expect. We will be seeking 
        your commitment and support to provide the funding needed to 
        rebuild our staffing levels over the next few fiscal years, 
        especially as we approach a point where we may be able to 
        express an opinion on the federal government's consolidated 
        financial statements.
                fiscal year 2004 performance and results
    In fiscal year 2004, much of our work examined the effectiveness of 
the federal government's day-to-day operations, such as administering 
benefits to the elderly and other needy populations, providing grants 
and loans to college students, and collecting taxes from businesses and 
individuals. Yet, we remained alert to emerging problems that demanded 
the attention of lawmakers and the public. For example, we continued to 
closely monitor developments affecting the Iraq war, defense 
transformation, homeland security, social security, health care, the 
U.S. Postal Service, civil service reform, and the nation's private 
pension system. We also informed policymakers about long-term 
challenges facing the nation, such as the federal government's 
financial condition and fiscal outlook, new security threats in the 
post-cold war world, the aging of America and its impact on our health 
care and retirement systems, changing economic conditions, and the 
increasing demands on our infrastructure--from highways to water 
systems. We provided congressional committees, members, and staff with 
up-to-date information in the form of reports, recommendations, 
testimonies, briefings, and expert comments on bills, laws, and other 
legal matters affecting the federal government. We performed this work 
in accordance with the GAO Strategic Plan for serving the Congress, 
consistent with our professional standards, and guided by our core 
values. See appendix I for our Strategic Plan Framework for serving the 
Congress and the nation.
Outcomes of Our Work
    In fiscal year 2004, our work generated $44 billion in financial 
benefits, primarily from recommendations we made to agencies and the 
Congress (see fig. 1). Of this amount, about $27 billion resulted from 
changes to laws or regulations, $11 billion resulted from agency 
actions based on our recommendations to improve services to the public, 
and $6 billion resulted from improvements to core business processes, 
both governmentwide and at specific agencies, resulting from our work 
(see fig. 2). Our findings and recommendations produce measurable 
financial benefits for the federal government when the Congress or 
agencies act on them. The funds that are saved can then be made 
available to reduce government expenditures or be reallocated to other 
areas. The monetary effect realized can be the result of changes in 
business operations and activities; the structure of federal programs; 
or entitlements, taxes, or user fees.




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For example, financial benefits could result if the Congress were 
able to reduce its annual cost of operating a federal program or lessen 
the cost of a multiyear program or entitlement. Financial benefits 
could also result from increases in federal revenues--due to changes in 
laws, user fees, or sales--that our work helped to produce. Financial 
benefits included in our performance measures are net benefits--that 
is, estimates of financial benefits that have been reduced by the costs 
associated with taking the action that we recommended. Figure 3 lists 
several of our major financial benefits for fiscal year 2004 and 
briefly describes some of our work contributing to financial benefits.

  FIGURE 3.--GAO'S SELECTED MAJOR FINANCIAL BENEFITS REPORTED IN FISCAL
                                YEAR 2004
------------------------------------------------------------------------
                        Description                             Amount
------------------------------------------------------------------------
Eliminated Medicaid's upper payment limit loophole. We           $10,073
 identified a weakness in Medicaid's upper payment limit
 methodology that allowed states to make excessive payments
 to local, government-owned nursing facilities and then
 have the facilities return the payments to the states,
 creating the illusion that they had made large Medicaid
 payments in order to generate federal matching payments.
 Closing the loophole prevented the federal government from
 making significant federal matching payments to states
 above those intended by Medicaid. The amount shown
 represents the net present value of estimated financial
 benefits for fiscal years 2005 and 2006--the final years
 for which benefits can be claimed.........................
Updated the Consumer Price Index (CPI). We recommended that       $5,074
 the Bureau of Labor Statistics periodically update the
 expenditure weights of its market basket of goods and
 services used to calculate the CPI to make it more timely
 and representative of consumer expenditures. The bureau
 agreed to do this every 2 years, and the CPI for January
 2002 reflected the new weights. For federal programs that
 use the CPI as an index for determining benefits, the
 adjustments have resulted in decreased federal
 expenditures (e.g., reduced Social Security cost-of-living
 adjustments) and increased federal revenues, such as
 reductions in the growth of personal exemptions for
 federal income taxes. The amount shown represents
 projected financial benefits for fiscal year 2007, the
 fifth and final year for which we will allow benefits to
 be claimed for this action................................
Reduced costs associated with Medicare spending on home           $4,661
 health care. We reported in 2002 that Medicare's payments
 for home health care episodes were, on average, about 35
 percent higher than the estimated costs of home health
 care provided in the first 6 months of 2001. Our report
 helped to ensure that the Congress did not delay or
 eliminate a scheduled reduction in Medicare home health
 payments that had risen rapidly from the late 1980s
 through the mid-1990s.....................................
Reduced the cost of federal housing programs. We determined       $3,638
 that the Department of Housing and Urban Development (HUD)
 did not have the information it needed to routinely
 calculate and track unexpended balances in its housing and
 community development programs. As a result of our work,
 the Congress required HUD to prepare quarterly reports on
 unexpended balances for each program, and HUD management
 committed to closely monitor these balances and identify
 amounts available for recapture...........................
Improved the use of the Iraqi Freedom Fund. We reported           $3,490
 that the military services may not obligate all of the
 funds appropriated for the global war on terrorism in
 fiscal year 2003 as required. Thus, the Congress rescinded
 $3.49 billion from the September 2003 balance remaining in
 the Iraqi Freedom Fund as part of the fiscal year 2004
 Department of Defense Appropriations Act. These funds were
 made available for other purposes.........................
Reduced costs associated with preparing the Department of         $2,057
 Defense's (DOD) financial statements. We determined that
 DOD's initial plans to obtain a favorable fiscal year 2004
 audit opinion were not feasible or cost-effective.
 Therefore, instead of moving $2.2 billion to fund the DOD
 components' efforts focused on a fiscal year 2004 audit
 opinion, the DOD Comptroller shifted $184 million to begin
 auditability assessments and audits, as applicable, as
 part of a long-term strategy to improve DOD's fiscal
 accountability. The Comptroller's decision not to
 reprogram the funds allowed DOD to use over $2 billion for
 other purposes during the fiscal year.....................
Modified the focus of funding for DOD's V-22 Osprey               $1,618
 aircraft program. We highlighted for DOD officials--before
 full production of the aircraft was scheduled to begin--
 numerous risks and unknowns that existed in the V-22
 Osprey program because of inadequate testing and
 evaluation. We reported these concerns to a blue-ribbon
 investigative panel established after a second fatal crash
 of the V-22. As a result of our work, the blue-ribbon
 panel recommended that DOD temporarily reduce the
 production of the V-22 to a minimum level to free up funds
 to better address the research and development issues we
 raised. The Congress reduced the procurement funding for
 purchasing V-22 aircraft from the planned 37 to 11 for
 each of fiscal years 2003 and 2004. This action allowed
 some funds to be used for development testing of the V-22
 aircraft, but the remaining funds were made available for
 other purposes............................................
Eliminated unnecessary military funding from the budget. We       $1,353
 recommended that requested fiscal year 2004 funds be
 eliminated for three terminated military operations
 involving Iraq's compliance with various United Nations
 resolutions, Operations Northern and Southern Watch and
 Operation Desert Spring. These funds were made available
 for other purposes........................................
Improved DOD's contracting and acquisition practices. We            $868
 developed a strategic framework--based on the best
 practices of leading private-sector companies--to guide
 DOD's services contracting reforms and recommended changes
 in DOD's organizational structure and approach to
 acquiring goods and services, such as using cross-
 functional teams and spend analyses to coordinate key
 purchases and leverage buying power for the agency. As a
 result of work done by us and others, the Congress cut
 DOD's budget in its fiscal year 2003 appropriation in
 anticipation of expected savings. This accomplishment
 amends a financial benefit we claimed in fiscal year 2002
 and represents an additional benefit in fiscal year 2004--
 the final year for which a benefit can be claimed.........
------------------------------------------------------------------------
Source: GAO.

    Many of the benefits that result from our work cannot be measured 
in dollar terms. During fiscal year 2004, we recorded a total of 1,197 
other benefits (see fig. 4). We documented 74 instances where 
information we provided to the Congress resulted in statutory or 
regulatory changes, 570 instances where federal agencies improved 
services to the public, and 553 instances where agencies improved core 
business processes or governmentwide reforms were advanced (see fig. 
5). These actions spanned the full spectrum of national issues, from 
ensuring the safety of commercial airline passengers to identifying 
abusive tax shelters. See figure 6 for examples of other benefits we 
claimed as accomplishments in fiscal year 2004.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              FIGURE 6.--GAO'S SELECTED OTHER (NONFINANCIAL) BENEFITS REPORTED IN FISCAL YEAR 2004
----------------------------------------------------------------------------------------------------------------
                                                                      Explanation
----------------------------------------------------------------------------------------------------------------
OTHER BENEFITS THAT HELPED TO CHANGE
                LAWS


Vision 100-Century of Aviation        We worked closely with the Congress to draft language that was included in
 Reauthorization Act, Public Law 108-  this law related to curriculum and certification requirements for
 176.                                  aviation mechanics. The language, which was based on recommendations we
                                       had made, included a requirement that the Federal Aviation Administration
                                       update and revise curriculum standards for aviation mechanics.
Medicare Prescription Drug,           Congress included six provisions in the law based on analyses and
 Improvement, and Modernization Act    recommendations we made. For example, our work found that Medicare's
 of 2003, Public Law 108-173.          method for establishing payment rates for drugs obtained under Medicare
                                       Part B--which covers doctors' services, outpatient hospital care, and
                                       some other nonhospital services--was flawed because it based payments on
                                       nonmarket-driven price estimates. The law addressed these issues by
                                       lowering payment rates in 2004 for drugs covered by Part B to more
                                       closely reflect acquisition costs and by changing the method for
                                       calculating these payment rates in 2005, basing these rates on a market-
                                       driven estimate. Also, partly on the basis of our work, the Congress
                                       modified the eligibility criteria for small rural hospitals to qualify as
                                       critical access hospitals under the Medicare program. This change
                                       provides flexibility for some additional hospitals to consider
                                       conversion. Because of Medicare's payment methodology, converting to a
                                       critical access hospital may help bolster a hospital's financial
                                       condition, allowing it to continue to provide services to patients.
Consolidated Appropriations Act,      We found that HUD could make more accurate eligibility decisions for
 2004, Public Law 108-199.             individuals seeking housing assistance if it had access to more timely
                                       income information available from the Department of Health and Human
                                       Service's Office of Child Support Enforcement's National Directory of New
                                       Hires. We recommended that HUD match applicants and current recipients of
                                       its rental housing assistance programs with the new hires database. This
                                       law gives HUD access to information from the database that will better
                                       ensure that only eligible individuals receive housing assistance.
National Defense Authorization Act    We testified that most existing federal performance appraisal systems,
 for Fiscal Year 2004, Public Law      including a vast majority of DOD's systems, are not designed to support a
 108-136.                              meaningful performance-based personnel system, and agencies should have
                                       to demonstrate that these systems are modern, effective, and valid in
                                       order to receive any additional performance-based flexibilities. We
                                       suggested that the Congress establish a governmentwide fund whereby
                                       agencies could apply for funds to modernize their performance management
                                       systems and ensure that those systems have adequate safeguards to prevent
                                       abuse. This law established the Human Capital Performance Fund to support
                                       all executive agencies as they plan for and carry out performance-based
                                       rewards for their civilian employees.


    OTHER BENEFITS THAT HELPED TO
   IMPROVE SERVICES TO THE PUBLIC


Helped to Ensure the Safety of        In July 2001, we reported that the Food and Drug Administration's (FDA)
 Shellfish.                            oversight of states' shellfish safety programs was not risk-based and
                                       thus FDA was not using its limited resources wisely. To better ensure
                                       shellfish safety, we recommended that FDA identify risk factors for each
                                       of its program elements (growing area classification, processing and
                                       shipping, and control of harvest). FDA developed a scoring system for
                                       these factors. FDA shellfish specialists compute a total risk score of
                                       high, medium, or low that determines the frequency of the evaluation of
                                       that program element. High-risk elements were to be evaluated every year
                                       beginning in fiscal year 2003, medium-risk elements every second year
                                       beginning in fiscal year 2004, and low-risk elements every third year
                                       beginning in fiscal year 2005.
Identified the Need for Better        Our report found that states did not have the information needed to
 Criteria to Determine Highly          determine whether teachers had met criteria to be considered highly
 Qualified Teachers.                   qualified, as required by the No Child Left Behind Act. Specifically,
                                       states did not have the information they needed to develop methods to
                                       evaluate the subject area knowledge of teachers. To help states determine
                                       the number of highly qualified teachers they have and the actions they
                                       need to take to meet the requirements for highly qualified teachers by
                                       the end of the 2005-2006 school year, we recommended that the Secretary
                                       of Education provide more information to states about methods to evaluate
                                       subject area knowledge of current teachers. In January 2004, Education
                                       issued a revised version of the guidance ``Improving Teacher Quality,''
                                       which contains more information on how to evaluate subject area knowledge
                                       to meet the federal definition of a highly qualified teacher.
                                       Specifically, the guidance includes a new section that, among other
                                       things, defines evaluation standards and factors to consider when
                                       developing them.
Encouraged VA to Clarify the Array    We recommended that the Department of Veterans Affairs (VA) specify in
 of Home Health Care Services          policy whether three home health services--home-based primary care,
 Available to Veterans.                homemaker/home health aide, and skilled home health care--are to be
                                       available to all enrolled veterans. In response, VA published an
                                       information letter on October 1, 2003, clarifying that, according to VA
                                       policy, the three home health services are to be available for all
                                       enrolled, eligible veterans in need of such services. The information
                                       letter was distributed to all facilities through e-mail and is available
                                       on the VA Web site.


    OTHER BENEFITS THAT HELPED TO
      PROMOTE SOUND AGENCY AND
      GOVERNMENTWIDE MANAGEMENT


Identified the Need for More          We found that the Internal Revenue Service (IRS) is investing more in
 Specific Criteria to Select for       audits of large corporations and getting less in return. To improve the
 Audit Tax Returns from Large          audits of tax returns filed by large corporations, we recommended that
 Corporations.                         IRS provide more specific objective criteria and procedures to guide the
                                       selection of large corporate tax returns and classification of tax issues
                                       with high audit potential across the districts. In March 2002, IRS
                                       implemented a process for scoring returns in order to fully implement a
                                       plan to place these returns in the field for audit. IRS has begun to
                                       identify high-risk returns from corporate and partnership tax returns
                                       using the Discriminant Analysis System.
Helped to Centralize the Oversight    We examined various DOD initiatives underway that are intended to better
 of Major DOD Contracts.               manage acquisition of services, including drafting policy to provide
                                       better oversight on purchases of high-dollar value services. In response
                                       to our work, the Under Secretary of Defense for Acquisition, Technology,
                                       and Logistics and each of the military departments now have a management
                                       structure in place and a process for reviewing major (i.e., large-dollar
                                       or program-critical) service acquisitions for adherence to performance
                                       and other contracting requirements. The new policy establishes a
                                       threshold of $500 million or more for selecting service purchases for
                                       review and approval by the military department and possibly DOD
                                       headquarters, allowing DOD to adequately plan major purchases before
                                       committing the government to major expenditures.
Helped to Reduce Fraud, Waste, and    In a series of reports and testimonies beginning in 2001, we highlighted
 Abuse of Agencies' Purchase Cards.    pervasive weaknesses in the government's $16 billion purchase card
                                       program. Our work identified numerous cases of fraud, waste, and abuse at
                                       DOD, HUD, and the Federal Aviation Administration. These agencies have
                                       taken significant steps to implement the hundreds of recommendations we
                                       made to upgrade their controls. Major improvement areas include enhanced
                                       controls over card issuance and cancellation, reduced span of control for
                                       approving officials, increased human capital resources and training, new
                                       performance measures and goals, required advance approval of purchases,
                                       and independent receiving and acceptance of goods and services. These
                                       efforts will substantially reduce the government's vulnerability to
                                       fraud, waste, and abuse in agencies' purchase card programs.
----------------------------------------------------------------------------------------------------------------
Source: GAO.

Recommendation Acceptance Rate
    At the end of fiscal year 2004, 83 percent of the recommendations 
we made in fiscal year 2000 had been implemented (see fig. 7), 
primarily by executive branch agencies. Putting these recommendations 
into practice is generating tangible benefits for the American people. 
As figure 8 indicates, agencies need time to act on our 
recommendations. Therefore, we assess recommendations implemented after 
4 years, the point at which experience has shown that, if a 
recommendation has not been implemented, it is not likely to be.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Testimonies That Serve the Congress
    During fiscal year 2004, experts from our staff testified at 217 
congressional hearings (see fig. 9) covering a wide range of complex 
issues. For example, our senior executives testified on the financial 
condition of the Pension Benefit Guaranty Corporation's single-employer 
program, the effects of various proposals to reform Social Security's 
benefit distributions, and enhancing federal accountability through 
inspectors general. Nearly half of our testimonies were related to 
high-risk areas and programs. See figure 10 for a summary of issues we 
testified on, by strategic goal, in fiscal year 2004.




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Figure 10.--Topics on Which GAO Testified During Fiscal Year 2004
Goal 1: Well-being and financial security of the American people
Student loan programs
Child welfare
Pension plan insurance programs
Energy Employees' Occupational Illness Compensation Program
Social Security reform's effect on benefits and taxes
Medicare spending
Intergovernmental Medicaid transfers
Private health insurance
Defense and veterans' health care
U.S. gasoline markets
Farm program payments
Security challenges at chemical facilities
Oil and gas activities on federal lands
Postal Service transformation
Rail security
Federal real property
Federal aviation management and modernization
Pipeline safety
Telecommunications
Goal 2: Changing security threats and challenges of globalization
Gulf War illnesses
International broadcasting
Border security
Terrorist financing
United Nations Oil-for-Food program
Oversight of government-sponsored enterprises
Securities and Exchange Commission operations
Mutual funds
Use of Reserve forces
Destruction of chemical weapons
Mail delivery to deployed troops
Defense personnel clearances
Unmanned aerial vehicles
Military base closures
Operations in Iraq
Challenges in inspecting oceangoing cargo containers
Homeland security advisory system
Security at nuclear facilities
Counterfeit identities
Information security
Critical infrastructure protection
International defense sales
U.S. Army combat systems
Military aircraft
Defense's space systems
National strategy for homeland security
Goal 3: Transforming the Federal Government's role
Army Reserve and Army National Guard pay
Defense contractor tax system abuses
Fraudulent diplomas
Illicit Internet pharmacies
Information technology management
Information technology continuity of operations
Electronic government
Border and transportation security
Electronic voting
Abusive tax shelters
Diversity among senior federal executives
Transformation of the federal government
Long-term federal budget issues
Office of Management and Budget's Program Assessment Rating Tool
The impact of the Government Performance and Results Act
District of Columbia government
Federal financial management and fiscal challenges
Federal purchase and travel cards
Excess Defense property
Space shuttle program
Defense contract management
GAO's High-Risk Program
    Issued to coincide with the start of each new Congress, our high-
risk update lists government programs and functions in need of special 
attention or transformation to ensure that the federal government 
functions in the most economical, efficient, and effective manner 
possible. Our latest report, released in January 2005, presents the 
status of high-risk areas identified in 2003 and lists new high-risk 
areas warranting attention by the Congress and the administration.\2\
---------------------------------------------------------------------------
    \2\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, D.C.: 
January 2005).
---------------------------------------------------------------------------
    In January 2003, we identified 25 high-risk areas; in July 2003, a 
twenty-sixth high-risk area was added to the list (see table 1). Since 
then, progress has been made in all areas, although the nature and 
significance of progress varies by area. Federal departments and 
agencies, as well as the Congress, have shown a continuing commitment 
to addressing these high-risk challenges and have taken various steps 
to help correct several of their root causes. GAO has determined that 
sufficient progress has been made to remove the high-risk designation 
from the following three areas: student financial aid programs, FAA 
financial management, and Forest Service financial management.
    Also, four areas related to IRS have been consolidated into two 
areas.
    This year, we designated four new high-risk areas. The first new 
area is establishing appropriate and effective information-sharing 
mechanisms to improve homeland security. Federal policy creates 
specific requirements for information-sharing efforts, including the 
development of processes and procedures for collaboration between 
federal, state, and local governments and the private sector. This area 
has received increased attention, but the federal government still 
faces formidable challenges sharing information among stakeholders in 
an appropriate and timely manner to minimize risk.
    The second and third new high-risk areas are, respectively, DOD's 
approach to business transformation and its personnel security 
clearance program. GAO has reported on inefficiencies and inadequate 
transparency and accountability across DOD's major business areas, 
resulting in billions of dollars of wasted resources. Senior leaders 
have shown commitment to business transformation through individual 
initiatives in acquisition reform, business modernization, and 
financial management, among others, but little tangible evidence of 
actual improvement has been seen to date in DOD's business operations. 
DOD needs to take stronger steps to achieve and sustain business reform 
on a departmentwide basis. Further, delays by DOD in completing 
background investigations and adjudications can affect the entire 
government because DOD performs this function for hundreds of thousands 
of industry personnel from 22 federal agencies, as well as its own 
service members, federal civilian employees, and industry personnel. 
The Office of Personnel Management (OPM) is to assume DOD's personnel 
security investigative function, but this change alone will not reduce 
the shortages of investigative personnel.
    The fourth high-risk area is management of interagency contracting. 
Interagency contracts can leverage the government's buying power and 
provide a simplified and expedited method of procurement. But several 
factors can pose risks, including the rapid growth of dollars involved 
combined with the limited expertise of some agencies in using these 
contracts as well as recent problems related to their management. 
Various improvement efforts have been initiated to address interagency 
contracting, but improved policies and processes, and their effective 
implementation, are needed to ensure that interagency contracting 
achieves its full potential in the most effective and efficient manner.
    Lasting solutions to high-risk problems offer the potential to save 
billions of dollars, dramatically improve service to the American 
public, strengthen public confidence and trust in the performance and 
accountability of our national government, and ensure the ability of 
government to deliver on its promises.

     TABLE 1.--THE YEAR THAT AREAS ON GAO'S 2005 HIGH-RISK LIST WERE
                         DESIGNATED AS HIGH RISK
------------------------------------------------------------------------
                                                               Year
                          Area                              designated
                                                             high risk
------------------------------------------------------------------------
Medicare Program........................................            1990
DOD Supply Chain Management.............................        \1\ 1990
DOD Weapon Systems Acquisition..........................            1990
DOE Contract Management.................................            1990
NASA Contract Management................................            1990
Enforcement of Tax Laws.................................        \2\ 1990
DOD Contract Management.................................            1992
HUD Single-Family Mortgage Insurance and Rental Housing             1994
 Assistance Programs....................................
DOD Financial Management................................            1995
DOD Business Systems Modernization......................            1995
IRS Business Systems Modernization......................        \3\ 1995
FAA Air Traffic Control Modernization...................            1995
Protecting the Federal Government's Information Systems             1997
 and the Nation's Critical Infrastructures..............
DOD Support Infrastructure Management...................            1997
Strategic Human Capital Management......................            2001
U.S. Postal Service Transformation Efforts and Long-Term            2001
 Outlook................................................
Medicaid Program........................................            2003
Managing Federal Real Property..........................            2003
Modernizing Federal Disability Programs.................            2003
Implementing and Transforming the Department of Homeland            2003
 Security...............................................
Pension Benefit Guaranty Corporation Single-Employer                2003
 Insurance Program......................................
Establishing Appropriate and Effective Information-                 2005
 Sharing Mechanisms to Improve Homeland Security........
DOD Approach to Business Transformation.................            2005
DOD Personnel Security Clearance Program................            2005
Management of Interagency Contracting...................            2005
------------------------------------------------------------------------
\1\ This area was formerly entitled DOD Inventory Management.
\2\ One of the two high-risk areas that were consolidated to make this
  area--Collection of Unpaid Taxes--was designated high risk in 1990.
  The other area--Earned Income Credit Noncompliance--was designated
  high risk in 1995.
\3\ IRS Financial Management has been incorporated into the IRS Business
  Systems Modernization high-risk area. Both areas were initially
  designated as high risk in 1995.

Source: GAO.

    In fiscal year 2004, we issued 218 reports and delivered 96 
testimonies related to our high-risk areas and programs, and our work 
involving these areas resulted in financial benefits totaling over $20 
billion. This work, for example, included 13 reports and 10 testimonies 
examining problems with DOD's financial management practices, such as 
weak internal controls over travel cards, inadequate management of 
payments to the Navy's telecommunications vendors, and abuses of the 
federal tax system by DOD contractors, resulting in $2.7 billion in 
financial benefits. In addition, we documented $700 million in 
financial benefits based on previous work and produced 7 reports and 4 
testimonies focusing on, for example, improving Social Security 
Administration and Department of Energy processes that result in 
inconsistent disability decisions and inconsistent benefit outcomes.
            streamlining and management improvement efforts
    Shortly after I was appointed in November 1998, I determined that 
GAO should undertake a major transformation effort to better enable it 
to ``lead by example'' and better support the Congress in the 21st 
century. This effort is consistent with the House Report 108-577 on the 
fiscal year 2005 legislative branch appropriation that focuses on 
improving the efficiency and effectiveness of operations at legislative 
branch agencies.

    ----------------------------------------------------------------

The Mandate:
    H. Rpt. 108-577 directed GAO to work closely with the head of each 
legislative branch agency to identify opportunities for streamlining, 
cross-servicing and outsourcing, leveraging existing technology, and 
applying management principles identified as ``best practices'' in 
comparable public and private sector enterprises. H. Rpt. 108-577 also 
directed the legislative branch agencies to be prepared to discuss 
recommended changes during the fiscal year 2006 appropriations hearing 
cycle.

    ----------------------------------------------------------------

    Our agency transformation effort has enabled GAO to become more 
results-oriented, partnerial, client-focused, and externally aware, and 
less hierarchical, process-oriented, ``siloed,'' and internally 
focused. The transformation resulted in reduced organizational layers, 
fewer field offices, the elimination of duplication in several areas, 
and improved our overall resource allocation. We began our 
transformation effort by using the GAO Strategic Plan as a framework to 
align our organization and its resources. On the basis of the strategic 
plan, we streamlined and realigned the agency to eliminate a management 
layer, consolidated 35 issue areas into 13 teams, and reduced our field 
offices from 16 to 11. We also eliminated the position of Regional 
Manager--a Senior Executive Service level position--in the individual 
field offices and consolidated the remaining field offices into three 
regions--the eastern region, the central region, and the western 
region, each headed by a single senior executive. Following the 
realignment of our mission organization and field offices, GAO's 
support organizations were restructured and centralized to eliminate 
duplication and to provide human capital, report production and 
processing, information systems desk-side support, budget and financial 
management, and other services more efficiently to agency staff. This 
has resulted in a 14 percent reduction in our support staff since 1998. 
As shown in figure 11, these and subsequent measures improved the 
``shape'' of the agency by decreasing the number of mid-level managers 
and by increasing the number of entry level and other staff with the 
skills and abilities to accomplish our work.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    During my tenure, GAO has outsourced and cross-serviced many 
administrative support activities, which has allowed GAO to devote more 
of its resources to mission work. In fiscal year 2004, about two-thirds 
of our nonhuman capital costs were spent to obtain critical mission 
support services for about 165 activities from the private and public 
sectors through outsourcing. Outsourcing contracts include a wide range 
of mission support activities, including information technology systems 
development, maintenance, and support; printing and dissemination of 
GAO products; operation and maintenance of the GAO Headquarters 
building; information, personnel, and industrial security activities; 
records management; operational support; and audit service support. GAO 
also meets many of its requirements through cross-servicing 
arrangements with other federal agencies. For example, GAO uses the 
Department of Agriculture's National Finance Center to process its 
personnel/payroll transactions. Also, GAO uses the legislative branch's 
long-distance telephone contract, which has resulted in continual 
reductions in long-distance rates. GAO also uses a wide range of 
contracting arrangements available in the executive branch for 
procuring major information technology (IT) services. GAO also uses the 
Library of Congress' Federal Library and Information Network to procure 
all of its commercial online databases.
    Currently, as shown in figure 12, over 50 percent of our staff 
resources in the support area are contractors, allowing us to devote 
more of our staff resources to our mission work. We recently surveyed 
managers of agency mission support operations and identified additional 
activities that potentially could be filled through alternative 
sourcing strategies. In fiscal years 2005 and 2006, we will assess the 
feasibility of alternative sourcing for these activities using an 
acquisition sourcing maturity model and cost-benefit analyses.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Utilizing IT effectively is critical to our productivity, success, 
and viability. We have applied IT best management practices to take 
advantage of a wide range of available technologies such as Web-based 
applications and Web-enabled information access, as well as modern, 
mobile computing devices such as notebook computers to facilitate our 
ability to carry out our work for the Congress more effectively. We 
make wide use of third-party reviews of our practices and have scored 
well in measurement efforts such as total cost of ownership, customer 
service, and application development. In fiscal year 2002, an 
independent study of GAO's IT processes and related costs revealed 
that, ``GAO is delivering superb IT application support and development 
services to the business units at 29 percent less than the cost it 
would take the Government peer group to deliver.'' In confirmation of 
these findings, in fiscal year 2003, GAO was one of only three federal 
agencies to receive the CIO Magazine 100 Award for excellence in 
effectively managing IT resources to obtain the most value for every IT 
dollar. We were named to the CIO Magazine's ``CIO 100'' for our 
excellence in managing IT resources in both 2003 and 2004.
    Because one of our strategic goals is to maximize our value by 
serving as a model agency for the federal government, we adopt best 
practices that we have suggested for other agencies, and we hold 
ourselves to the spirit of many laws that are applicable only to the 
executive branch. For example, we adhere to the best practices for 
results-oriented management outlined in the Government Performance and 
Results Act (GPRA). We have strengthened our financial management by 
centralizing authority in a Chief Financial Officer with functional 
responsibilities for financial management, long-range planning, 
accountability reporting, and the preparation of audited financial 
statements, as directed in the Chief Financial Officers Act (CFO Act). 
Also, for the eighteenth consecutive year, independent auditors gave 
GAO's financial statements an unqualified opinion with no material 
weaknesses and no major compliance problems.
    In the human capital area, we are clearly leading by example in 
modernizing our policies and procedures. For example, we have adopted a 
range of strategic workforce policies and practices as a result of a 
comprehensive workforce planning effort. Among other things, this 
effort has resulted in greatly upgrading our workforce capacity in both 
IT and health care policy. We also have updated our performance 
management and compensation systems and our training to maximize staff 
effectiveness and to fully develop the potential of our staff within 
both current and expected resource levels.
         gao's fiscal year 2006 request to support the congress
    We are requesting budget authority of $493.5 million for fiscal 
year 2006. This budget request will allow us to continue to maximize 
productivity, operate more effectively and efficiently, and maintain 
the progress we have made in technology and other areas. However, it 
does not allow us sufficient funding to support a staffing level of 
3,269--the staffing level that we requested in previous years. In 
preparing this request, we conducted a baseline review of our operating 
requirements and reduced them as much as we felt would be prudent. 
However, with about 80 percent of our budget composed of human capital 
costs, we needed to constrain hiring to keep our fiscal year 2006 
budget request modest. We plan to use recently enacted human capital 
flexibility from the GAO Human Capital Reform Act of 2004 as a 
framework to consider such cost savings options as conducting one or 
more voluntary early retirement programs and we also plan to review our 
total compensation policies and approaches.
    There are increasingly greater demands on GAO's resources. Since 
fiscal year 2000, we have experienced a 30 percent increase in the 
number of bid protest filings. We expect this workload to increase over 
the coming months because of a recent change in the law that expands 
the number of parties who are eligible to file protests. In addition, 
the number of congressional mandates for GAO studies, such as our 
reviews of executive branch and legislative branch operations, has 
increased more than 15 percent since fiscal year 2000. While we have 
reduced our planned staffing level for fiscal years 2005 and 2006, we 
believe that the staffing level we requested in previous years is a 
more optimal staffing level for GAO and would allow us to successfully 
meet the future needs of the Congress and provide the return on 
investment that the Congress and the American people expect. We will be 
seeking your commitment and support to provide the funding needed to 
rebuild our staffing levels over the next few fiscal years, especially 
as we approach a point where we may be able to express an opinion on 
the federal government's consolidated financial statements. Given 
current and projected deficits and the demands associated with managing 
a growing national debt, as well as challenges facing the Congress to 
restructure federal programs, reevaluate the role of government, and 
ensure accountability of federal agencies, a strong GAO will result in 
substantially greater benefits to the Congress and the American people.
    Table 2 summarizes the changes we are requesting in our fiscal year 
2006 budget.

                     TABLE 2.--FISCAL YEAR 2006 BUDGET REQUEST, SUMMARY OF REQUESTED CHANGES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Cumulative
                        Budget category                              FTEs            Amount         percentage
                                                                                                      change
----------------------------------------------------------------------------------------------------------------
Fiscal year 2005 budget authority to support GAO operations...           3,215        $474,565   ...............
Fiscal year 2006 requested changes:
    Nonrecurring fiscal year 2005 costs.......................  ..............          (4,122)            (0.9)
    Mandatory pay costs.......................................  ..............          20,778              3.5
    Price level changes.......................................  ..............           1,428              3.8
    Relatively controllable costs.............................  ..............             899   ...............
                                                               -------------------------------------------------
      Subtotal--requested changes.............................  ..............         $18,983              4.0
                                                               =================================================
      Total fiscal year 2006 budget authority required to                3,215        $493,548             4.0
       support GAO operations.................................
----------------------------------------------------------------------------------------------------------------
Source: GAO.

    Our budget request supports three broad program areas: Human 
Capital, Mission Operations, and Mission Support.
    In our Human Capital program, to ensure our ability to attract, 
retain, and reward high-quality staff and compete with other employers, 
we provide competitive salaries and benefits, student loan repayments, 
and transit subsidy benefits. We have undertaken reviews of our 
classification and compensation systems to consider ways to make them 
more market-based and performance-oriented and to take into 
consideration market data for comparable positions in organizations 
with which we compete for talent. Our rewards and recognition program 
recognizes significant contributions by GAO staff to the agency's 
accomplishments. As a knowledge-based, world-class, professional 
services organization in an environment of increasingly complex work 
and accelerating change, we maintain a strong commitment to staff 
training and development. We promote a workforce that continually 
improves its skills and knowledge.
    We plan to allocate funds to our Mission Operations program to 
conduct travel and contract for expert advice and assistance.
    Travel is critical to accomplishing our mission. Our work covers a 
wide range of subjects of congressional interest, plays a key role in 
congressional decision making, and can have profound implications and 
ramifications for national policy decisions. Our analyses and 
recommendations are based on original research, rather than reliance on 
third-party source materials. In addition, GAO is subject to 
professional standards and core values that uniquely position the 
agency to support the Congress in discharging its oversight and other 
responsibilities under the Constitution.
    We use contracts to obtain expert advice and or assistance not 
readily available within GAO, or when expertise is needed within 
compressed time frames for a particular project, audit, or engagement. 
Examples of contract services include obtaining consultant services, 
conducting broad-based studies in support of audit efforts, gathering 
key data on specific areas of audit interest, and obtaining technical 
assistance and expertise in highly specialized areas.
    Mission Support programs provide the critical infrastructure we 
need to conduct our work. Mission support activities include the 
following programs:
  --Information Technology.--Our IT plan provides a road map for 
        ensuring that IT activities are fully aligned with and enable 
        achievement of our strategic and business goals. The plan 
        focuses on improved client service, IT reliability, and 
        security; it promotes effectiveness, efficiency and cost 
        benefit concepts. In fiscal years 2005 and 2006, we plan to 
        continue to modernize outdated management information systems 
        to eliminate redundant tasks, automate repetitive tasks, and 
        increase staff productivity. We also will continue to modernize 
        or develop systems focusing on how analysts do their work. For 
        example, we enhanced the Weapons Systems Database that we 
        created to provide the Congress information to support budget 
        deliberations.
  --Building Management.--The Building Management program provides 
        operating funds for the GAO Headquarters building and field 
        office locations, safety and security programs, and asset 
        management. We periodically assess building management 
        components to ensure program economy, efficiency and 
        effectiveness. We are currently 8 percent below the General 
        Services Administration's (GSA) median costs for facilities 
        management. We continue to look for cost-reducing efficiencies 
        in our utility usage. Our electrical costs are currently 25 
        percent below GSA's median cost. With the pending completion of 
        our perimeter security enhancements and an automated agency 
        wide access control system, all major security enhancements 
        will have been completed.
  --Knowledge Services.--As a knowledge-based organization, it is 
        essential for GAO to gather, analyze, disseminate, and archive 
        information. Our Knowledge Services program provides the 
        information assets and services needed to support these 
        efforts. In recent years, we have expanded our use of 
        electronic media for publications and dissemination; enhanced 
        our external Web site, resulting in increased public access to 
        GAO products; and closed our internal print plant and increased 
        the use of external contractors to print GAO products, 
        increasing the efficiency and cost-effectiveness of our 
        printing operation. Due to recent budget constraints, we have 
        curtailed some efforts related to archiving paper records. We 
        currently are implementing an electronic records management 
        system that will facilitate knowledge transfer, as well as 
        document retrieval and archival requirements.
  --Human Capital Operations.--In addition, funds will be allocated to 
        Human Capital Operations and support services to cover 
        outplacement assistance, employee health and counseling, 
        position management and classification, administrative support, 
        and transcription and translation services.
                           concluding remarks
    We appreciate your consideration of our budget request for fiscal 
year 2006 to support the Congress. GAO is uniquely positioned to help 
provide the Congress the timely, objective information it needs to 
discharge its constitutional responsibilities, especially in connection 
with oversight matters. GAO's work covers virtually every area in which 
the federal government is or may become involved anywhere in the world. 
In the years ahead, GAO's support will prove even more critical because 
of the pressures created by our nation's large and growing long-term 
fiscal imbalance.
    This concludes my statement. I would be pleased to answer any 
questions the Members of the Subcommittee may have.
    appendix i: serving the congress--gao's strategic plan framework



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          SOURCES OF GAO WORK

    Senator Allard. Well, thank you for your testimony.
    You talked quite a bit about your staffing levels. You have 
requested fewer staff for 2006, FTEs is 3,215 employees, than 
you had in 2005, which is also down from 2004. At the same 
time, you report that the number of congressional mandates for 
GAO studies has increased by more than 15 percent. How do you 
plan to meet the Congress' increased expectations with fewer 
staff?
    Mr. Walker. Mr. Chairman, first, if you look at the trend 
line over the last 3 years you will see that the number of 
mandates we received and the percentage of staff time spent on 
them has gone up. What this means is that we will have to 
respond more and more to requests from committee and 
subcommittee chairs, such as yourself, and committee and 
subcommittee ranking members. We will have less ability to 
respond to requests from Members who may be on a relevant 
committee of jurisdiction but not in a leadership capacity.
    Basically what happens is that when we have more mandates, 
when we have constrained resources, it limits our ability to be 
able to deal with non-leadership requests. It also can have an 
effect on how long it might take us to get to a particular 
issue. That is the fallout.
    I did say for the record, Mr. Chairman, that we also are 
trying to lead by example on what we are requesting. Since 80 
to 81 percent of our total costs are people costs, to the 
extent that we have funding constraints it very quickly affects 
our people, and our head count, because we do not have a whole 
lot of flexibility in other areas.

                          BACKLOG OF REQUESTS

    Senator Allard. Do you have a backlog in some areas on work 
that is requested from the Congress? Are there some areas where 
you do not have enough flexibility to permit you to initiate 
work on your own? Could you comment on that?
    Mr. Walker. Thank you, Mr. Chairman. As you know, 90 
percent of the work that GAO did in fiscal 2004 was either a 
mandate from the Congress or a written request from the 
Congress, typically a chair or ranking member of a committee or 
subcommittee of jurisdiction. The other 10 percent includes 
about 5 percent that represents events of broad interest to the 
Congress that I do under my own authority as Comptroller 
General because many committees are interested and it is not 
appropriate for one committee to capture it. For example, the 
work that we are doing on Iraq contracting, and the work that 
we are doing with regard to a variety of other issues of broad 
interest to the Congress.
    About 5 percent has to do with items where we may not get a 
request, but relate to significant issues in our strategic plan 
that we know are of interest to the Congress, but they may not 
be an immediate concern. For example, we did work on Social 
Security reform starting several years ago, when Congress was 
not focused on it, so we are well ahead of the curve. We have 
done work on health care reform before Congress was focused on 
it, to be well ahead of the curve. We did work on 
counterterrorism before 9/11 to be ahead of the curve.
    We do have varying backlogs. Our biggest backlog is in 
health care, as you can imagine, Mr. Chairman.
    Senator Allard. Not a surprise.

                          HEALTH CARE BACKLOG

    Mr. Walker. Probably our single biggest domestic policy 
challenge is health care. That has been and continues to be our 
biggest backlog. We are continuing to do the best that we can 
to recruit as many people as possible in the health care area 
to staff up. There is a tremendous amount of demand from other 
organizations. It is a highly competitive marketplace. As a 
result, we continue to work with the relevant committees of 
jurisdiction to try to rebalance the portfolio and reset 
priorities.
    There are some areas where we do not have as large a 
backlog, but that can be explained in part because many times 
committees want us to do work, but they do not necessarily want 
to put their name on it. For example, we do a lot of work in 
the defense area. I can assure you that the work that we do in 
the defense area is highly valued and sought after. At the same 
point in time, from time to time Members do not necessarily 
want to put their name on a request to look at a particular 
weapons system because of the potential implications that that 
might have for employment levels or other issues.
    So we would be happy to provide for the record if you like 
a detail of exactly where our backlogs are and how they are 
trending. But I think we are very actively managing these 
backlogs. As I said, we would not have 96 percent client 
satisfaction unless we were doing a decent job. But it is a 
constant challenge.

                        PERFORMANCE RECOGNITION

    Senator Allard. Well, I do agree that there is a lot of 
good work coming out of the Government Accountability Office. 
You have changed your name a little bit. I have to think about 
it, the Government Accountability Office. And I like your 
approach. I like your pay for performance effort that you are 
implementing.
    Do you think that it has improved the overall performance 
of employees throughout GAO, your results-driven management 
style?
    Mr. Walker. I think the numbers speak loudly, Mr. Chairman. 
If you look at GAO today, we actually have slightly fewer 
people today than we had 5 years ago. But our outcome-based 
results--financial benefits, nonfinancial benefits, client 
feedback, employee feedback, client satisfaction, et cetera--
have gone up dramatically. In fact, with regard to our 
financial results, they have more than doubled during that 5-
year period of time.
    Now, that is for a lot of reasons. Strategic planning. We 
did our first strategic plan in Spring 2000. GAO never had one 
before that. We realigned our organization based on that plan. 
We eliminated a layer of management, reduced the number of 
field offices, reduced the number of units from 35 to 13, 
redeployed resources horizontally and externally. We redefined 
success for GAO as outcomes and developed results-based 
measures. We linked institutional, unit, and individual 
performance measurement and reward systems.
    We did a number of things and the combination of all these 
initiatives, which were done in partnership with my colleagues 
here with me today as well as others, has had a dramatic and 
profound effect, not only on the results but I think, quite 
frankly, on the culture and the reputation of our agency.
    Senator Allard. Well, I think you bring a good news story 
here to the subcommittee and I am delighted to hear what you 
have to say.

                   MAKING A DIFFERENCE IN GOVERNMENT

    Mr. Walker. Gene Dodaro has been with GAO, we like to say, 
since the beginning, since he graduated from college. He might 
be able to give you a little perspective.
    Senator Allard. Okay.
    Mr. Dodaro. Yes, Mr. Chairman. We track why people come to 
GAO to work and then why they stay with us. The basic reason is 
they want to make a difference. They want to make Government 
better, they want to improve the situation. To the extent to 
which we say, we are going to reward you for bringing about 
positive change in Government, either saving money or improving 
programs, public safety, et cetera, they are energized by that. 
They are not here just to produce reports, although at times, 
as you know, for policy issues we give information without 
recommendations to the Congress to help you make decisions.
    We are making more recommendations in our reports, and our 
recommendation implementation rate is at an all-time high--83 
percent of the recommendations we made in fiscal year 2000 got 
implemented within a 4-year timeframe. So it is very important 
to the employees.

                           PERFORMANCE AWARDS

    Senator Allard. Well, thank you. I would suspect an 
important part of your employee motivation is your rewards and 
bonuses. I see where your budget request increases rewards and 
recognition by 8 percent, for a total of $2.6 million. Maybe 
you can explain that.
    Mr. Walker. Mr. Chairman, part of our philosophy is we want 
to be able to have as many people as our budget will allow. But 
it is very, very important that, however many employees we 
have, they be reasonably compensated and rewarded based upon 
results. Consequently, our whole philosophy is that we want a 
market-based and performance-oriented compensation system. We 
want to recognize both team and individual outcome-based 
performance geared toward our strategic plan for serving the 
Congress and the country.
    That means by definition that we need to make sure we have 
adequate funding to be able to recognize and reward people when 
they generate positive results. That is what that budget 
request is.
    Sallyanne, I do not know if you have anything else you want 
to add to that.
    Ms. Harper. We are also implementing this year, Mr. 
Chairman, for the first time pay-for-performance for the 
administrative staff of the agency. They previously were under 
the General Schedule (GS) system and only got the within-grade 
increases based on length of service and, perhaps, a special 
recognition award.
    Mr. Walker. In fact, Mr. Chairman, now virtually all of 
GAO's employees are not only in broadbanding, but also pay-for-
performance systems. So we are a window to the future, I think, 
with regard to the Federal Government.
    Senator Allard. Well, I think you are doing a great job and 
I think you set a good example for the legislative branch. As 
you heard in my previous comments, I think that is important 
when we are setting policy throughout the Government. I think 
it is incumbent on this subcommittee to hold each of the 
agencies accountable so that Members of the Senate and House do 
not get embarrassed because somehow we have a different 
standard here than you have for the rest of the government.
    I know in my own personal office I make an effort to set an 
example so that when you are asking other agencies to be frugal 
that you can show in your own office you are frugal. I think 
the same thing applies here.

                     ADDITIONAL COMMITTEE QUESTIONS

    I compliment you on the way you are running your agency and 
your office. I think that you reflect in a positive way what is 
happening here in the legislative branch and I think that is 
something that all the Members need to appreciate in the 
Senate. So I am going to carry a very positive message as to 
what you are doing to my colleagues, and I thank you for your 
testimony and I thank you for your good work.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
              Questions Submitted by Senator Wayne Allard
    Question. Your report on 21st Century Challenges emphasizes a need 
for dramatic change to federal government programs and policies if we 
are to avoid serious damage to our economy, our standard of living and 
our national security. You say that we need to fundamentally reexamine 
major spending and tax policies and priorities if we are to meet the 
challenges that lie ahead. What role do you believe GAO, and you as the 
Comptroller General of the United States, should play in addressing 
these challenges?
    Answer. In our report and testimony on 21st Century Challenges, we 
stated that nothing less than a fundamental review, reexamination, and 
reprioritization of all major spending and tax policies and programs is 
needed. Given our role in supporting the Congress, we believe that GAO 
has an obligation to provide policymakers in Congress with the support 
they need in identifying issues and options that could help to address 
these fiscal pressures. Of course, while answers to these questions may 
draw on the work of GAO and others, only elected officials can and 
should decide which questions to address and how and when to address 
them.
    GAO and I stand ready to assist the Congress as it develops its 
agenda and to help collect facts, develop options, conduct analyses and 
perform other work in connection with the questions the Congress wishes 
to pursue. The challenges identified in the report are based upon our 
past and pending work, a vast majority of which was performed at the 
direction or request of the Congress. In addition, the reexamination 
questions are based heavily on GAO's issued work, our strategic plan, 
and the institutional knowledge of our staff. However, the size of the 
problem is so large and the programs and issues covered span such a 
wide range that the process of rethinking government programs and 
activities will in all likelihood rely on multiple approaches and 
sources of analysis (e.g., GAO, your staff, other Congressional support 
agencies and OMB) over a period of years.
    GAO and I may also be useful to the Congress by helping to raise 
public awareness of issues and problems thereby preparing the way for 
the Congress to take related actions. Our past and pending work has 
addressed and will continue to address such items, including federal 
spending and tax programs, existing budget processes and financial, 
fiscal, and performance management activities. Inevitably, given the 
breadth of our work, some of our past and current engagements touch on 
many of the reexamination issues and questions, but it is up to the 
Congress to determine the issues and questions that merit GAO's 
resources.
    Question. Is GAO currently structured properly with adequate 
resources in the right places to address the complexities of the issues 
you raise?
    Answer. Yes. We believe we are well positioned to help the Congress 
address these issues. We are currently organized to align our work in 
support of our strategic plan for serving the Congress. This plan 
reflects the same emerging themes discussed in our 21st Century 
Challenges report. Importantly, we can both cover broad cross-cutting 
government-wide issues while providing support to Congressional 
Committees on their specific areas of interest.
    We have worked very hard over the past several years to build and 
modernize the structure that will best address our client's needs and 
make GAO a model for other federal agencies. We believe it is working 
very well. In particular, we are greatly encouraging a risk-based and 
matrix management oriented approach to our work that facilitates and 
motivates staff in different areas to work together to produce analyses 
of very complicated issues. Accordingly, we are not planning to change 
our basic structure at this time. Of course, we will continue to 
monitor our services to the Congress for the benefit of the American 
people and make changes as needed.
    Question. Will the role you envision for GAO require additional 
resources in future years?
    Answer. Yes, but not to any significant extent. We will work with 
our congressional clients to prioritize our work so that we are most 
beneficial to them while assisting them in this reexamination. Also, as 
mentioned above, we envision this to take place over several years and 
involve numerous organizations in addition to the GAO. The most 
challenging issue we may face in accomplishing this is to harness the 
great potential of our new staff, a very sizable portion of our agency, 
and give them the experience they will need. We are working very hard 
to help develop them so that they can make meaningful contributions to 
the Congress for years to come. We do, however, expect that additional 
staff and resources will be necessary when the federal government comes 
closer to being able to receive a qualified opinion on the consolidated 
financial statements.
    Question. Your budget submission shows very little change in the 
distribution of FTE resources among your teams between fiscal year 2005 
and fiscal year 2006. Do you expect that to continue or do you think 
you will need to redistribute to better help the Congress meet the 
challenges you say we are facing?
    Answer. Although small, our fiscal year 2006 request does reflect 
some adjustment to our team FTEs to better meet the Congress' needs. 
Each year we adjust our FTE distribution based on a systematic 
assessment of the workforce that we will need to carry out our work in 
support of the Congress, the American public, and our strategic 
priorities. Our total FTE request, as well as our internal allocation 
of FTEs, is based on a number of factors including: Congressional 
requests and interests, strategic priorities, emerging issues, current 
staffing data, identified skill shortages, succession and knowledge 
retention issues, results achieved with staff resources, and budgetary 
considerations. Based on our analysis of this data, GAO's leadership 
team makes fact-based decisions about our FTE needs and the optimal 
deployment of our staff resources to most efficiently accomplish our 
work. Since 2002, we have used this process to make refinements to our 
unit-specific staffing allocations to reflect shifting strategic 
priorities. For example, as tax policy issues rise to the forefront of 
federal budget and deficit issues, we combined our tax group with other 
areas that address cross-cutting, broad-based fiscal issues. We also 
reallocated existing resources to create the Homeland Security and 
Justice team to focus on these areas after a major realignment of 
executive branch departments and agencies. While we have not finalized 
our fiscal year 2006 workforce plan, we do expect some changes to the 
team allocations, but not of a significant nature.
    In addition to our workforce planning process, we also foster a 
spirit of cooperation throughout GAO whereby staff on several teams 
will work together under a matrix management approach to produce the 
most efficient product. Much of our workforce is now working in this 
manner. This provides flexibility and helps minimize the need for major 
realignments of resources. Of course, we will continue to monitor the 
need for organization structure changes and will notify the Congress of 
any major realignment.
    Question. You mention in your budget materials that over 50 percent 
of your mission support staff resources are contractors and that during 
your tenure you have outsourced many administrative tasks allowing you 
to devote more resources to mission work. Have you found that 
contractors actually cost less than performing the same functions with 
GAO employees or are you adding contract money and moving FTE's and 
salary money to mission units? If you have an analysis of cost 
comparison between in-house and contractor operations could you share 
that analysis with the Subcommittee? What factors other than cost 
savings led you to decide to turn so much of your administrative 
operations over to contractors?
    Answer. In an environment of increasing fiscal restraint, we have 
in recent years reduced our overall FTE staff usage from 3,275 in 
fiscal year 1999 to 3,215 FTEs planned for fiscal years 2005 and 2006. 
Through a number of targeted initiatives, including reengineering, 
technology applications, and contracting out, we have also reduced the 
number of administrative, professional and support (APSS) staff from 21 
percent at the beginning of fiscal year 1999 to less than 18.9 percent. 
Some of this reduction in APSS staff has allowed GAO to devote more 
FTEs and salary funds to core mission operations. Since fiscal year 
1999, we have also leveraged more contractor resources, increasing the 
level of contract funds from $45.7 million to $69.7 million.
    GAO contracts out for many reasons, such as improving service 
delivery, obtaining specialized expertise not readily available within 
GAO or when needed within compressed timeframes, providing technology, 
and minimizing demands on the agency's resources. Contracts provide an 
efficient, flexible vehicle to obtain technical assistance and 
expertise in highly specialized areas, and allow us to better respond 
to fluctuating demands. When GAO contracts-out for cost-effectiveness 
reasons, it is to take advantage of firms with lower cost structures 
than GAO. While direct salary and benefit costs for GAO staff and 
contractor staff in many instances are comparable, contractors do not 
always have lower costs. Contractor costs include management time and 
other fees that make up corporate overhead, equivalent to indirect 
costs an agency would pay to provide supervision, staff development, 
equipment, and other overhead costs. In addition, contractor costs also 
include profit not found in the federal environment. In other 
instances, the federal sector cannot compete with salaries paid by the 
private sector to staff in highly specialized disciplines, such as 
information technology (IT).
    Independent of cost, technical factors specific to the service area 
are identified and assessed to ensure quality services or products are 
obtained. A technical evaluation of contract proposals would assess 
such items as, qualifications and skill levels of the proposed staff, 
contractor's approach to providing services, ability to integrate 
services in GAO's environment, and customer impact. Use of contract 
staff provides the agency the flexibility to maintain operational 
capabilities and obtain specific expertise for a limited duration--
expanding or shrinking the workforce as demands change for specific 
skills--without the constraints of the federal recruitment and 
retention processes. It also allows an agency to focus its own staff on 
core functions, inherently governmental functions, and critical or 
sensitive issues, while managing and overseeing contractor functions to 
ensure accountability. For example, we found that we are able to reduce 
the number of staff working in our financial management area. Vendor 
invoice processing could be performed more cost effectively through a 
cross-servicing arrangement with the Department of Interior's National 
Business Center. In addition, as a result of travel management system 
improvements made in fiscal year 2004, we are able to further reduce 
our staffing requirements in this area. Our new travel management 
system streamlines and expedites transaction processing, reduces 
administrative processing requirements, and reduces the number of 
manual external processes needed by GAO to manage this function.
    A cost benefit analysis is conducted for each situation where GAO 
considers utilizing contract resources. For example, in fiscal year 
2003, GAO conducted a study of its mail operations center. GAO decided 
to retain its in-house operation managed by GAO staff, and supplemented 
by contract services for selected functions, after comparing GAO's 
operation with other federal mail operations and assessing the cost to 
outsource the operations. This decision resulted in a cost-avoidance of 
about $250,000. Nine years ago, the mail center had 19 staff. Through a 
series of changes, the mail operation has been reduced to a small, but 
efficient operation with six staff.
    In the area of library services and records management support, 
however GAO has been able to obtain contract staff at less cost than 
GAO staff. For example, the contract costs of a contract supervisory 
library technician is about $61,000 compared to a salaried employee 
whose fully-loaded cost is about $76,000. As current staff retire or 
separate, we plan to increase our reliance on contract resources, 
especially in the area of interlibrary loan services.
    In the IT area, the costs for contract labor is higher than that of 
salaried GAO staff and reflect the marketplace. Current fully-loaded 
contract costs for an entry-level IT employee are about $30,000 above 
that of an entry level IT salaried GAO employee. Most of our IT 
contracts are GSA schedule contracts. In addition, we further negotiate 
with vendors to obtain best value services and rates. Given the rapidly 
changing IT environment, our contracts are structured to provide GAO 
maximum flexibility to quickly obtain staff with the appropriate skill 
mix to meet both short and long-term needs.
    Question. The Subcommittee applauds GAO's efforts to transform the 
agency to become more results-oriented and to devote more of its 
resources to the agency's core mission. However, we also note that GAO 
is asking for an increase in resources for mission support in fiscal 
year 2006. Why?
    Answer. In developing our fiscal year 2006 budget, we have taken 
into consideration the overall federal budget constraints and the 
committee's desire to lead by example. We have continued to streamline 
our agency, modernize our policies and practices, and leverage 
technology in manners that help us achieve our mission more effectively 
and efficiently. These efficiencies have allowed us to maintain our 
support of the Congress and enhance our overall performance without the 
need for large budgetary increases. In addition, we conducted a 
baseline review of our operating requirements and allocated our 
resources to achieve the greatest return on investment. These actions 
led us to request a modest increase of 4 percent over fiscal year 2005. 
However, in order to keep our request modest, we needed to constrain 
our staffing levels. We will be seeking your commitment and support to 
provide the funding needed to rebuild our staffing levels over the next 
few years. This will be essential when we get closer to the time when 
GAO may be able to render our opinion on the consolidated financial 
statements of the U.S. Government.
    GAO is requesting a 3 percent increase in mission support 
operations costs to support our infrastructure and cover the cost of 
mandatory price-level increases and targeted investments, such as 
information security and building management improvements. This 
increase is less than the total requested increase in our budget 
authority of 4 percent. We have been able to minimize the requested 
increase by conducting base reviews of our support costs and through 
offsets of non-recurring requirements. For example, our facilities 
management program cost estimates assume that a GAO staff person will 
retire and can be replaced by a more junior contract staff person.
    Question. What is the percentage of staff allocated to mission 
support activities?
    Answer. The administrative and professional staff responsible for 
GAO's mission support activities currently comprise less than 18.9 
percent of total staff, down from 21 percent at the beginning of fiscal 
year 1999. We expect this percent to decline to 18.5 percent by the end 
of fiscal year 2006. The staff provides essential services for IT, 
building management, knowledge services, human capital operations and 
other support services. These services are vital to ensuring 
consistency in the delivery of quality products to our clients and 
customers.
    Question. What is the percentage of costs allocated to mission 
support activities? Where do you see these percentages going in the 
next few years? What do you believe is the appropriate level of 
investment in mission support?
    Answer. Administrative and professional support staff and mission 
support operational costs represent about 26 percent of GAO's total 
budget authority. We believe that we have achieved a core level of 
administrative and professional support staff and operating costs 
necessary to provide the appropriate infrastructure for staff to 
conduct their work. While we continue to seek opportunities to 
streamline operations and leverage outsourcing mechanisms for 
efficiency and economy purposes, we believe our investment is the 
appropriate level without sacrificing quality in our administrative and 
professional support services.
    Question. GAO has established a strategic goal of being a model 
agency. Your fiscal year 2004 Performance and Accountability Report 
indicates three major management challenges, human capital, physical 
security, and information security. Why were these areas identified as 
management challenges? What actions have been taken to address these 
challenges? What additional actions and funding are required to address 
current weaknesses in these areas? Are there other areas that you 
consider to be challenged?
    Answer. At GAO, the Comptroller General and the agency's senior 
executives through the agency's strategic planning, management, and 
budgeting processes identify key management challenges. The three 
challenges identified are all areas in which we have, and will continue 
to experience substantial and continual change and challenges. They are 
also areas that significantly impact our ability to support our 
mission. We must focus our efforts and resources on maintaining our 
flexibility to adapt to changing technology and world events, while 
ensuring the security of our information assets and systems, and 
ensuring that our human capital resources are best suited to meet the 
needs of our congressional client. These are all internal challenges. 
Our key external challenge is to assure that Congress adequately funds 
GAO for the benefit of itself and the country.
Human Capital Management
    In the area of human capital management, during the last few years, 
we developed our first formal and comprehensive strategic plan for 
human capital which communicates GAO's strategy for becoming a model 
professional services organization, including how we plan to attract, 
retain, motivate, and reward a high-performing and top-quality 
workforce. We also fully implemented our workforce planning processes, 
addressing the size, deployment, and profile of our staff to ensure we 
have the appropriate resources strategically placed to pursue our goals 
and objectives now and in the future. We continue to build on our 
accomplishments in attracting and retaining a diverse workforce with 
the knowledge, skills, and abilities to meet the new century's 
challenges through succession planning activities and training and 
development. For example, we implemented revised policies to expand the 
use of flexi-place to provide employees additional options. Such 
initiatives are particularly important given our employee profile where 
about 50 percent of our staff are recent hires.
    During fiscal year 2004 we completed establishment of market-based 
and performance-oriented compensation systems and competency-based 
appraisal systems for all our staff, and we began monitoring, 
reviewing, and assessing these systems to identify enhancements that 
may be needed. In fiscal year 2005, a consulting firm assisted us in 
establishing pay rates that are competitive with comparable 
organizations and these rates were used for certain purposes in our 
annual pay for performance process for analysts, specialists, and 
attorneys. We also began implementing policies and processes to 
implement the human capital flexibilities authorized by Congress under 
GAO's Human Capital Flexibilities Act of 2004. Other actions we have 
taken include initiating strategy formulation for the annual adjustment 
of GAO employees' salaries; revising and issuing our regulations on pay 
administration to implement the satisfactory performance requirement 
for GAO analysts and related specialists and attorneys; drafting and 
issuing for review a regulation applicable to employees placed in lower 
grades or bands as a result of workforce restructuring or 
reclassification; revising and issuing for comment our leave policies 
and procedures regulation, which includes the provision permitting 
designated key employees with less than 3 years of federal service to 
earn 6 hours of annual leave; and drafting and issuing for comment our 
regulation implementing the Executive Exchange Program.
    We anticipate that we will implement a number of the human capital 
flexibilities authorized by Congress and for which we are drafting, 
revising, and issuing for comment a number of regulations in fiscal 
year 2005. In addition, we will implement a streamlined, user-friendly 
guide to government and non-government professional development 
opportunities; develop and implement an expedited and coordinated new 
hire process; determine the feasibility of implementing a development 
program for new hires with previous experience; and enhance our 
competency-based performance systems. No additional funding will be 
needed for these actions.
Physical Security
    The challenge to provide a safe and secure work environment for 
employees remains a government-wide issue in light of changing security 
threats, which can have a profound impact on the way GAO conducts 
business in the United States and around the world. Protecting our 
people and our assets is paramount to agency operations. We continue to 
devote time and resources to the assessment of security operations as 
we further enhance GAO's security posture. Within the next few months, 
our perimeter security enhancements will be complete. These 
enhancements include protective barriers, such as installation of walls 
and bollards around the building, vehicle restraints at the garage 
ramps, ballistic-rated security guard booths, and vehicle surveillance 
equipment at the garage entrances. We also plan to install a state-of-
the-art electronic security system during fiscal year 2005.
    During fiscal year 2004, we developed a continuity of operations 
plan and held communications drills to test our plan this fiscal year. 
As part of our plan to ensure our continuity of operations should we 
have to vacate our headquarters because of an emergency, we identified 
an alternative facility to house our continuity-of-operations team. We 
have also updated our Shelter in Place plan and Emergency Response 
Handbook for headquarters and prepared similar plans for the field 
offices. We continue to hold annual security fair seminars to 
disseminate information on security and emergency preparedness at the 
workplace and at home. We have no additional funding requirements at 
this time.
Information Security
    Following the events of September 11, 2001, expanded internet 
access, and global technology, information security remains a 
government wide issue. In the area of information security we 
implemented a centralized reporting system to track audit findings 
through a Plans of Action and Milestones tool; established monthly 
remediation meetings for regular remediation effort tracking; completed 
updates to our security awareness training presentation; began 
performing weekly vulnerability assessments of our information systems 
to ensure our scheduled patching process and configuration management 
practices are working; and installed a firewall and spyware on our 
workstations.
    New initiatives for fiscal year 2006 include establishing annual 
specialized training for various levels of management and IT staff with 
elevated system privileges; and combining the IT Disaster Recovery and 
the Continuity of Operations Plan into an integrated security plan, and 
completing training for these plans. In addition, activities that will 
be completed during fiscal year 2006 include completion of the 
integration of a Web caching proxy and a firewall for Web-based traffic 
into the GAO network architecture to provide additional information 
security protection at the network level; continuing efforts to harden 
our network and desktops with upgraded authentication devices, 
exploring intrusion protection devices and external monitoring services 
for after hours network security monitoring of our intrusion detection 
devices; and completing the information sensitivity program to provide 
system data sensitivity in accordance with FIPS Pub 199 and NIST SP 
800-60. We anticipate additional funding of $487,000 will be needed to 
complete these actions.
    Question. Have you assessed the costs and benefits associated with 
being a ``model'' agency?
    Answer. No. While we have not conducted a formal cost/benefit 
analysis, there is little question that our actions result in enhanced 
value and better cost management. They also serve to enhance GAO's 
image externally and our credibility within the government and the 
accountability profession, both domestically and internationally.
    Question. Your fiscal year 2006 budget request indicates that the 
two main focal points for increased funding and new initiatives in IT 
for fiscal years 2005 and 2006 will be in the areas of IT security and 
business systems development. Please provide the Subcommittee an update 
on your efforts to date in these areas. Please elaborate on the 
opportunities that you have identified to affect economies and 
efficiencies?
    Answer. GAO has redesigned and automated numerous business and work 
processes, as well as taken advantage of numerous electronic tools, to 
foster productivity, improve cost savings and enhance timeliness. As 
reliance on technology has grown, our technology efforts have and will 
continue to directly affect the quality of our mission work and the 
service GAO staff provide to the Congress through audits and analyses. 
Our GAO fiscal year 2004 Performance and Accountability Report 
highlights a number of efforts that have directly affected economies 
and efficiencies while improving the quality, responsiveness, and 
timeliness of GAO services. Several of these initiatives best 
illustrate our efforts.
Acquisition Systems Management (ASM) Weapons Systems Database
    This system has enabled GAO to become Congress' primary source of 
annual evaluations of DOD acquisitions. The system expanded staff's 
ability to query and view information across weapons systems programs, 
perform micro and macro trend analysis, and shortened turnaround times. 
Major benefits of this system include more comprehensive and 
sophisticated analyses and improved multi-year reporting on weapons 
acquisitions practices. The tool has significantly increased staff 
productivity while contributing to recommendations that resulted in 
$1.6 billion in programmatic savings in fiscal year 2004.
Financial Management and Assurance (FMA) Consolidated Financial 
        Statement Audit Database
    This system, whose development is currently underway, documents the 
planning, internal control and testing, and reporting phases of GAO's 
annual audit of the U.S. Government's Consolidated Financial Statements 
(CFS). Major efficiency benefits will include (1) shortened audit cycle 
and ability to perform increased audit work; (2) increased 
functionality and accessibility of audit tool to project users; (3) 
improved reliability of the financial data collected and analyzed; (4) 
improved security and backup capability; (5) increased potential for 
data analysis as needed to improve the reliability of information of 
the U.S. Government; (6) ability to conduct in-depth analyses to 
support rendering opinions on CFS; and (7) ability to document audit 
work performed to support auditor's reports on the CFS. In addition, by 
reducing the staff days required for database maintenance, staff would 
be able to devote more time to analyses and improved service to 
clients. Plans are to also make this system available to the Inspector 
General community for their individual department and/or agency audits.
Staffing Information System
    This subsystem of the Engagement Management System will support 
team decision-making and facilitate matrixing, multitasking, and 
sharing of staff. It will support team decision making by balancing 
staff preferences/development needs and provide real time access to 
staffing data. By integrating data from all related systems, it will 
eliminate staffing cuff systems and reduce the administrative burden on 
teams.
Electronic Records Management System
    This system automates management of GAO's records to leverage 
institutional knowledge within and across agency functions. It 
establishes a foundation for knowledge management in GAO, while 
providing the ability to manage and dispose of records electronically. 
It will also afford a seamless records system for GAO's move to 
electronic business processes. Several significant benefits include: 
Reduced in time spent by mission and administrative staff managing and 
locating records; ready access to and retrieval of GAO records; reduced 
costs for offsite storage, secure destruction, and courier services to 
records centers; and more efficient and effective records management 
processes.
    Question. What savings will you be able to achieve by fiscal year 
2006?
    Answer. IT initiatives enable GAO to increase productivity and 
ensure economy, efficiency, and effectiveness in performing GAO's work. 
Many of the initiatives cited in the previous response are good 
examples of these efforts. In many of our IT projects a residual 
benefit is enabling staff to redirect time once spent on redundant, 
time-consuming, and unproductive activities to more productive, 
mission-related work. For example, the ASM Weapons Systems Database 
enabled staff to shift time once spent on data collection and entry to 
more analyses of greater breath and depth. Prior to this database, ASM 
reviewed about 10 weapon systems programs per year with estimated costs 
of $78.9 billion. In fiscal year 2004, ASM was able to review 60 
programs and report on 51, covering estimated costs of $672 billion. As 
a result, GAO was able to identify for the Congress a total potential 
reduction in funding of $1.5 billion in these programs.
    There are also IT efforts that provide opportunities for cost 
savings in IT and non-IT areas. Remote access improvements are an 
effort that resulted in a reduction in IT operational costs. The 
movement to AT&T remote access services provided local access points 
and eliminated reliance on costly ``800#'' dial-up services. It also 
increased efficiencies by giving staff the ability to access the GAO 
network using a wider range of devices such as DSL and cable modems.
    The videoconferencing expansion project was an IT effort that 
reduced non-IT costs. We provided a second videoconferencing system in 
most field offices and expanded the number of units in headquarters. 
This has resulted in increased communications and matrixing across 
geographic locations and increased staff productivity. It also created 
the potential for reductions in travel time and costs.
    Question. What is the status of your efforts to upgrade your 
financial management system?
    Answer. This year we initiated efforts to replace our financial 
management system by obtaining these services through cross-servicing 
with another government agency. To date we have:
  --Assembled a project team consisting of staff from our Financial 
        Management and Information Systems and Technology Services 
        organizations which has developed a steering committee charter 
        and identified steering committee members and a management team 
        that will oversee requirements definition, system selection, 
        procurement activities and system deployment.
  --Conducted initial rounds of interviews to identify user-specific 
        requirements and major pain points with the current financial 
        management.
  --Developed a Government-off-the-shelf (GOTS) evaluation process 
        methodology.
  --Identified potential cross-service agencies.
    We plan to select a system early in fiscal year 2006 and implement 
the system for operational use in fiscal year 2007.
    Question. Your focus in recent years has been on implementing 
technology improvements and tools that enhance business practices, as 
well as improve staff productivity. Which of these improvements has the 
ability to create efficiencies throughout the legislative branch?
    Answer. Two improvements that could create efficiencies throughout 
the legislative branch for those agencies that utilize the Department 
of Agriculture's National Finance Center (NFC) computer services are 
WebTA and I*CAMS. Both GAO and the Library of Congress are using these 
systems.
    In 2004, GAO deployed WebTA, a user-friendly Web-based time and 
attendance (T&A) system that replaced a costly and inefficient T&A 
process. Benefits of this system include: Elimination of duplicate 
entry of T&A data; an automated interface with NFC; on-line supervisory 
approval; reduced time to process T&As; and decrease of T&A errors.
    The second initiative that could benefit other legislative branch 
agencies is the utilization of a Web-based human capital front-end to 
the NFC personnel/payroll system, I*CAMS (Agriculture's Internet-based 
Combined Administrative Management System). To date GAO has implemented 
the transaction processing system that supports and integrates 
transaction processing, position management, and awards processing. 
There are a variety of benefits agencies may realize: Improved data 
accuracy and timeliness; customized and real-time reports; elimination 
of paper driven and standalone, automated ad hoc systems for tracking 
and supporting transactions; reduced duplicate data entry; and human 
capital portal capability for role-based and personalized access to 
human capital information.
                           healthcare backlog
    Question. Are there some areas in GAO where there is a backlog of 
work requested by Congress and other areas where there is enough 
flexibility to permit you to initiate work on your own? Explain to the 
Subcommittee the process you use to prioritize and address 
congressionally requested work.
    Answer. Yes. GAO has a backlog of congressionally-requested work, 
but it is not uniformly spread across all of our teams. The backlog in 
a few areas like health care and natural resources and the environment 
is particularly large. At any point in time, the backlog may not 
reflect all of the work that our clients would like us to do, as some 
of them prefer not to send requests when they know that we do not have 
the resources to begin the work.
    To ensure adherence to GAO's core values, effective management 
practices, and efficient use of available resources, GAO generally 
initiates work according to the following priorities: Congressional 
mandates; Senior congressional leader and committee leader requests for 
issues within a committee's jurisdiction; and Individual Member 
requests, with additional consideration given to requests from Members 
who are on a committee of jurisdiction.
    After receiving a mandate or a request, GAO will initiate a meeting 
with the committees of jurisdiction staff to gain a better 
understanding of the need for information, the nature of the research 
questions and related timing issues.
    Question. Do you routinely move resources from areas where backlogs 
are small or non-existent to areas where they are significant?
    Answer. Yes, we do move resources, but only to the extent that we 
believe it can be done efficiently and without harming our long-term 
responsibility to serve the entire Congress. We have also reassigned 
work from overbooked areas to others that may be able to address the 
work more quickly. For example, six requesters asked us to do a review 
of the Klamath River Basin Conservation Area Restoration Program. One 
of our teams--Natural Resources and Environment--was unable to do it 
because of their backlog, so we assigned the work to our Financial 
Management and Assurance team. In another case, our Homeland Security 
and Justice team had difficulty staffing a review of reprogramming of 
air marshal program funds, so it was assigned to our Strategic Issues 
team.
    We also work hard to foster matrix management in our work, wherein 
we have staff from one team work with other teams without making a 
permanent reassignment. This allows us to work more efficiently. 
Nonetheless, in some cases, a specific expertise is needed that cannot 
be met through matrixing or by using staff from another area. In those 
cases, we may need to wait for the staff with the proper expertise to 
be available before we can start the work. We also work periodically 
with some committees to have them help prioritize the backlog of work 
attributable to their committees.
    Question. The organization chart in your budget submission shows 13 
teams that perform the substance of GAO's work. Would you please 
provide the Subcommittee with a breakout by team of the number of 
congressionally mandated jobs in fiscal year 2004 and fiscal year 2005, 
the average amount of time that elapsed from receipt of a Congressional 
mandate to when data gathering actually began on the job, and the 
number and age of requests currently on hand for each team?
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                    Fiscal Year    Median Age in
                                    Fiscal Year    2005 Ongoing     Months from      Number of
                                  2004 Completed   and Completed      Request        Requests      Median Age in
              Team                   Mandates/       Mandates/      Receipt to     Pending as of      Months
                                     Requests     Requests as of    Engagement     3/31/2005 \1\
                                                     3/31/2005    Initiation \1\
----------------------------------------------------------------------------------------------------------------
GAO.............................           1,061             894             1.1             278             3.7


   Goal 1--Address Current and
Emerging Challenges to the Well-
 Being and Financial Security of
       the American People

Education, Workforce, and Income              79              79             1.3              16             1.5
 Security.......................
Financial Markets and Community               50              46             1.0              11             3.7
 Investment.....................
Health Care.....................              75              79             2.1          \2\ 48            13.2
Homeland Security and Justice...              83              70             2.3              29             1.9
Natural Resources and                        105             106             3.1          \3\ 55             7.2
 Environment....................
Physical Infrastructure.........              79              64              .5              15             5.4

   Goal 2--Respond to Changing
    Security Threats and the
      Challenges of Global
         Interdependence


Acquisition and Sourcing                      54              46             1.8              28             1.1
 Management.....................
Defense Capabilities and                      92              57              .1              10             2.9
 Management.....................
International Affairs and Trade.              75              46              .5              19             1.6

   Goal 3--Help Transform the
  Federal Government's Role and
  How it Does Business to Meet
     21st Century Challenges

Applied Research and Methods....               8              12              .2  ..............  ..............
Financial Management and                     181             168              .2               5             3.6
 Assurance......................
Information Technology..........              95              58              .4              25             1.0
Strategic Issues................              85              63              .6              17             1.4
----------------------------------------------------------------------------------------------------------------
\1\ These figures exclude legislative mandates and those requests that are dependent on (1) a triggering event
  (e.g. an agency action), (2) a distant future due date that does not require GAO to start too early, and (3)
  sequencing situations where other GAO work must be performed before work can logically be started.
\2\ Ten of these jobs have been started, but the engagement initiation paperwork is pending.
\3\ The team has made steady progress in reducing its backlog. Some requests await staff with appropriate
  clearances; others have been sequenced by requesters. Ten requests are from individual members and are,
  therefore lower in priority and have been in the backlog for some time.

    Question. How much work do you initiate each year that is not 
requested by Congress? How many FTE's and how much money do you spend 
on that work?
    Answer. In fiscal year 2004, about ninety percent of our audit 
resources were spent on congressional requests and legislative 
mandates, and about 10 percent on work performed under the CG's legal 
authority. Importantly, a significant majority of the CG initiated 
requests relate to areas of broad interest to the Congress. Under our 
Congressional protocols, such items, especially when they are 
precipitated by a significant event, can be done under the CG's 
authority in order to facilitate broad sharing of related information 
with the applicable congressional committees, e.g., election reform, 
Iraq contracting. Many requests under the CG's authority represent 
items of interest to Committees and/or Members, but they would prefer 
not to be identified as the requester, e.g., defense related work.
    We have further categorized the ten percent of our audit resources 
initiated under the Comptroller General's authority (CGA). They include
  --Engagements initiated by GAO that provide an opportunity for us to 
        do work on a wide range of issues we believe have particular 
        value but have not been requested (5.5 percent).
  --GAO's High-Risk program, which focuses on selected federal programs 
        that are more vulnerable to waste, fraud, abuse, and 
        mismanagement than other programs or have major challenges with 
        their economy, efficiency, or effectiveness (1.6 percent).
  --Our budget justification reviews that are of considerable help to 
        the Congress in authorizing and appropriating funds for federal 
        programs every year (1.6 percent).
  --Work that addresses the broad interests of the Congress on longer-
        range, crosscutting, and transformational issues; the topics 
        may be heavily requested by numerous Congressional clients, as 
        was the case on some of our most recent work on elections and 
        Iraq (0.6 percent).
  --Presentations and guidance given on GAO's key responsibilities such 
        as the recently revised Government Auditing Standards or 
        accounting issues (0.5 percent).
    The amount of work done under the CGA also varies from team to team 
in GAO as shown in the following table for fiscal year 2004:

------------------------------------------------------------------------
                                            Percent of Fiscal Year 2004
                                               Audit Resources Spent
                  Team                   -------------------------------
                                           Requests and     Engagements
                                             Mandates      Under the CGA
------------------------------------------------------------------------
  Goal 1--Address Current and Emerging
    Challenges to the Well-Being and
   Financial Security of the American
                 People

Education, Workforce, and Income                      85              15
 Security...............................
Financial Markets and Community                       93               7
 Investment.............................
Health Care.............................              99               1
Homeland Security and Justice...........              99               1
Natural Resources and Environment.......              97               3
Physical Infrastructure.................              97               3


  Goal 2--Respond to Changing Security
  Threats and the Challenges of Global
             Interdependence

Acquisition and Sourcing Management.....              75              25
Defense Capabilities and Management.....              68              32
International Affairs and Trade.........              97               3


   Goal 3--Help Transform the Federal
    Government's Role and How it Does
Business to Meet 21st Century Challenges

Applied Research and Methods............              74              26
Financial Management and Assurance......              98               2
Information Technology..................              99               1
Strategic Issues........................              90              10
------------------------------------------------------------------------

    Question. Do you believe that there is a need to maintain a certain 
level of work that is not requested by Congress?
    Answer. Absolutely. This allows the GAO to address significant 
current or emerging issues having broad-based Congressional interest 
that may have a significant effect on the nation's future. Indeed, a 
very significant portion of our financial \1\ and other non-
quantifiable benefits are attributable to work initiated by us and 
eventually used by the Congress. In fact, every engagement initiated by 
us under our CGA relates to our strategic plan and is expected to be of 
significant value to the Congress and the American people.
---------------------------------------------------------------------------
    \1\ In fiscal year 2004, $16.4 billion of the $44 billion in GAO's 
financial benefits (37 percent) flowed directly from our work performed 
under GAO's CGA.
---------------------------------------------------------------------------
    Examples of this work include work assessing: major DOD weapon 
programs, funding for the global war on terrorism, offshoring of 
American jobs, reporting of uncollectible debt to IRS, SBA's 
disposition of disaster assistance applications, the Centers for 
Disease Control and Prevention, factors influencing gasoline prices, 
and issues associated with the future of intercity passenger rail 
transportation.
    Question. How do you decide what that work should cover?
    Answer. The GAO has a comprehensive strategic planning effort that 
lays the foundation for all of the work we do. This effort, which draws 
heavily upon our staff's knowledge of federal programs and issues, is 
also heavily dependent on the views of Congress and others in the 
government and elsewhere who are interested in the work of the GAO. We 
would be pleased to provide additional copies of this plan if needed. 
Our Web site (www.gao.gov) also features this plan.
    Our most senior executives, including the Comptroller General and 
Chief Operating Officer, must approve engagements initiated by the GAO. 
Our senior executives meet every week to discuss new engagements, 
routinely consider each job and the likelihood that it will be of 
significant use to our Congressional clients and produce results such 
as financial benefits to the American people and improvements in the 
management of the nation's government.
    Question. You have been using a pay for performance system for some 
years now. Have you done any analysis to determine whether your system 
costs more than what the rest of the Government is doing? Also, please 
describe your efforts to establish a market-based compensation system. 
Do you have benchmark data available on GAO salaries?
    Answer. No, GAO has not analyzed the cost of the agency's pay for 
performance system in relation to other federal government agencies. 
There are a variety of pay for performance systems operating throughout 
the federal government, so there is no single model which can be used 
for cost comparison. Importantly, in our view, given the operational 
flexibility provided to GAO in 2004, it would be more appropriate to 
consider conducting any such analyses after our pending changes have 
been in effect for several years.
    In July 2004, Watson Wyatt Worldwide, a leading compensation 
consulting firm, assisted us in establishing pay ranges that are 
competitive with comparable organizations including selected 
government, not-for-profit, and professional services entities in the 
labor markets where GAO staff are located. Watson Wyatt worked closely 
with GAO executives and representatives of our Employees' Advisory 
Council to assure that the GAO positions were appropriately matched to 
positions in the numerous published compensation surveys from which 
compensation data were extracted. Watson Wyatt presented their 
recommendations for compensation ranges to GAO's Executive Committee in 
November 2004. After consideration of the unique aspects of the roles 
and responsibilities of some GAO positions in relation to the 
applicable markets, as well as the need to assure internal equity among 
positions doing similar work, the Executive Committee made some minor 
adjustments to the compensation ranges recommended by Watson Wyatt. The 
proposed compensation ranges were presented to all GAO employees in a 
Comptroller General Chat in December 2004. These proposed ranges were 
used for certain purposes in making individualized performance-based 
compensation decisions for fiscal year 2004 performance, but our new 
overall compensation ranges will not be formally adopted and fully 
implemented until January 2006. Initially, we focused on establishing 
competitive pay rates for the analysts, specialists, and attorneys, who 
make up about 77 percent of our workforce, but we will also establish 
competitive pay rates for our administrative and professional support 
staff by the end of 2005.
    The establishment of competitive pay ranges, along with the 
development of a new methodology for making individualized performance-
based compensation decisions, was undertaken as part of a comprehensive 
classification and compensation review that is guided by seven 
principles:
  --Enable GAO to attract, retain, motivate, and reward top talent.
  --Result in equal pay for work of equal value over time.
  --Be reflective of the roles and responsibilities that we expect GAO 
        staff to perform.
  --Be reasonable, competitive, performance-oriented, and based on 
        skills, knowledge, and role.
  --Be affordable and sustainable based on current and expected 
        resource levels.
  --Be in conformity with applicable statutory limits.
  --Try to assure a reasonable consistency in ratings and related 
        compensation results within and between teams.
    Watson Wyatt was able to benchmark 34 of the 36 positions for which 
GAO requested assistance in developing competitive pay rates. We were 
very pleased with this result, which greatly exceeded the 40-60 percent 
of positions that Watson Wyatt indicated would normally be benchmarked 
to the market and gave us increased confidence in the reliability of 
the market matches. GAO's proposed compensation ranges set the 
``competitive rate'' at the 50th percentile relative to our comparable 
organizations. The most robust data was found for positions in the 
Washington, DC market. GAO's 12 field locations are grouped into five 
zones. The salaries for each zone are adjusted using a geographic 
differential that contemplates the cost of labor for that geographic 
location against the market data collected for positions in Washington, 
DC.
    One of the significant findings of the compensation study was that 
the cap for our Band I analysts and specialists should be lowered from 
$81,986 to $74,000. When GAO validated its new competency-based 
performance management system, we found that there were two different 
roles for analysts and specialists at the Band II or ``Senior'' level--
that of an ``individual contributor'' and that of an ``engagement 
leadership.'' In doing the compensation study, we asked Watson Wyatt to 
see if the market made a distinction in how the two roles are 
compensated. They found the market did distinguish between the two 
roles. In fact, the distinction led them to recommend that we increase 
our current pay range for Band IIs from $114,987 to $125,000, but only 
for individuals who are in a leadership role. For individual 
contributors, the market data indicated that the current pay range 
should be lowered from $114,987 to $99,000. Over the next few months, 
as we prepare for the full implementation of these market-based 
compensation ranges, we will be developing the final pay ranges, as 
well as the criteria and a process we will use to make pay range 
placement decisions for our current Band II staff. We recognize the 
importance of assuring that both the criteria and the process are 
objective, transparent and non-discriminatory. We will also assure that 
staff have an opportunity to appeal their placement.
    At the Band III level, the current statutory cap of $135,136 limits 
our ability to fully implement the compensation ranges the market 
indicates would be competitive, especially for attorneys and PhD 
economists, and to a lesser extent, for analysts and specialists with 
management or senior leadership responsibilities. For example, the true 
competitive rate for attorneys is $143,000, which would put the pay 
range maximum at $178,750. That is 32 percent higher than the current 
cap. Even attorneys at the current cap will be below the market rate by 
about 5.4 percent.
    Question. Will changes in your compensation system improve your 
ability to retain staff?
    Answer. Yes, we expect that it will and believe that it will not 
have an adverse effect. As I mentioned earlier, one of the principle 
objectives in undertaking the development of our market-based 
compensation system was to enhance GAO's ability to attract, retain, 
motivate, and reward top talent within current and expected resource 
levels. Individuals generally cite the nature of the work, the 
opportunity to make a difference, and the reputation of the agency as 
primary reasons they choose to work for GAO. While it is true that for 
individuals who choose public service, salary is not the primary 
motivator, it is nonetheless an important factor. Except as I discussed 
above with respect to the limitations the current statutory cap places 
on our ability to adopt market-based pay ranges reflective of the true 
competitive rate for Band IIIs, I am confident that we will be 
competitive with entities that we regularly compete with for talent. I 
believe that our competitive position will over time be enhanced by our 
approach to individualized performance-based compensation that assures 
that top performing staff are identified and well rewarded. I also 
believe that it is important in adopting a market-based compensation 
philosophy that we have reasonable flexibility to implement the 
competitive pay ranges that are applicable to our workforce. As a 
result, I am planning to request legislative authority to exceed the 
GS-15/10 statutory cap when the market-based data indicates a higher 
cap is reasonable and appropriate given the relevant facts and 
circumstances. This will help us to more effectively compete with the 
SEC, banks, regulatory agencies, and other federal entities.
    Question. How will planned changes impact your average annual 
salary?
    Answer. I have made a commitment to our staff that no GAO 
employee's current salary, including accumulated locality pay, will be 
reduced irrespective of their current position, pay, performance, or 
location. I also have made a commitment that they will receive annual 
adjustments that will at least maintain their purchasing power, if they 
are performing at the ``Meets Expectation'' level or above on all of 
the competencies relevant to their band level and if their current 
salary is not in excess of their applicable pay range limit. While 
annually we will review and adjust, as appropriate, our pay ranges to 
reflect changes in labor market rates, the salaries for individuals 
being paid in excess of their pay range limit will be frozen. That 
means that they will not receive an annual salary adjustment until 
their salary falls within the expected pay range. However, they will 
still have an opportunity to earn an annual performance bonus if their 
rating places them in the top 20 percent of their band level within 
their team. This ``floor guarantee'' will be paid as a cash bonus. In 
addition, they will still be eligible for various other incentive 
awards, e.g. spot awards.
    Over time, an employee's average annual salary will be based more 
on the competitive rate for their position and band level, with only 
top performing staff receiving salaries that are above a certain point 
in the pay range (e.g., the 75th percentile) that is referred to as a 
``speed bump''. This is a key aspect of a performance-oriented and 
market-based compensation philosophy and is markedly different from the 
pay philosophy under which GAO and most federal agencies have been 
operating. When GAO went to pay banding in 1989, we adopted pay ranges 
that followed the GS schedule, and we assumed that staff were correctly 
classified. In retrospect, that may not have been the case. However, 
the underlying pay philosophy was that everyone had the right to 
advance to the pay cap in the absence of performance issues--it was not 
a matter of ``if'', but only ``when''. As we transition to a 
performance-oriented and market-based compensation philosophy where pay 
ranges are set to be competitive with entities that compete with GAO 
for talent, everyone has the opportunity to advance to the pay cap--but 
individuals must have performance in excess of a certain level to 
advance beyond ``speed bumps''. That will limit the number of staff who 
will advance to the pay cap. It will also help to assure that the only 
individuals who are paid in excess of the minimum pay rate for the next 
higher level of responsibility are strong performers.
    Within a few years after implementing the market-based compensation 
ranges, I expect that the combined effect of managing salaries around 
the competitive rate and implementing a performance ``speed bump'' will 
result in a lower average annual salary (in today's dollars) as 
compared to what would otherwise occur under our current system. 
However, that won't necessarily translate to a lower average total cash 
compensation because of the impact of our new individualized 
performance-based compensation system, which allocates pay earned on 
the basis of performance between a salary increase and a one-time cash 
bonus payment. Individuals whose current salaries are below the 
competitive rate receive more of their performance pay as a salary 
increase, while individuals whose current salaries are above the 
competitive rate receive more of their performance pay as a one-time 
cash bonus. For 2005 pay adjustments, all Washington, DC-based 
employees received across-the-board and locality increases of 3.71 
percent. In addition, analysts, specialists, attorneys, and economists 
received an average performance-based compensation increase of 1.65 
percent, allocated between salary increase and cash bonus.
    With the flexibilities provided by the GAO Human Capital Reform Act 
of 2004, more of individuals' annual pay adjustments in future years 
will be determined by their performance. The allocation process is a 
key element in managing salaries around the competitive rate, but it is 
also justifiably a source of concern for GAO staff because the portion 
received as cash is not a component of the calculation of an 
individual's ``high-3'' for retirement or of the salary base upon which 
Thrift Savings Plan (TSP) contributions are computed. Therefore, in 
order to address these concerns, I am planning to request legislation 
that would permit calculation of ``high-3'' and TSP contributions on an 
individual's total cash compensation, rather than on base salary plus 
accumulated locality pay as required by current law. I believe such 
authority could significantly facilitate more widespread use of more 
market-based and performance-oriented compensation systems that 
allocate annual performance pay between salary increases and bonus 
payments.
    Question. Please elaborate on the cost savings options that you are 
considering as part of your revised human capital framework.
    Answer. By implementing a more market-based and performance-
oriented compensation system, GAO is continuing to work towards our 
strategic goal of maximizing the agency's value under current and 
expected resource levels. Our compensation initiatives have involved 
the assessment of positions to ensure appropriate classification of 
various career streams and levels of responsibility along with a 
market-based determination of the appropriate salary range for 
positions. Each year as part of the annual performance-based 
compensation process, GAO provides employees with pay adjustments that 
reward performance, are reflective of the market value of positions, 
consider changes in purchasing power, and are financially sustainable. 
For increases effective October 1, 2005, GAO will develop and apply its 
own methodology for annual cost-of-living and locality pay adjustments. 
For example, pay ranges in Washington, DC, and in other cities in which 
GAO employees reside, will be based on the results of an independent, 
market-based compensation study conducted for GAO.
    While cost savings are not the impetus for our market-based, 
performance-oriented compensation system and other human capital 
initiatives, the Congress will likely place increasing emphasis on 
fiscal restraint given large budget deficits and the nation's long-
range fiscal imbalance. GAO is planning for the possibility of 
significant and recurring constraints on the available agency 
resources. Since 80 percent of our budget is composed of people-related 
costs, any serious budget situation will have an impact on our human 
capital policies and practices. Using our recent human capital 
flexibility as a framework, GAO would consider such options as 
conducting early out offers, reviewing our policies and approaches to 
total compensation, delaying or reducing investments in discretionary 
programs that support the workforce, rethinking our current approach to 
hiring, and considering workforce restructuring actions on the basis of 
organizational need and budgetary considerations.
    Question. Can you tell us what the average cost per FTE is for your 
Band II and Band III employees and how that compares to the average 
cost per FTE for GS-13 through GS-15 employees in agencies like OMB and 
OPM? How does the percentage of Band II and Band III employees in GAO 
compare to the percentage of GS-13 through GS-15 in OMB and OPM?
    Answer. The average salary for GAO Band II and Band III employees 
at September 30, 2003, the most recent year when comparable data is 
available, was $98,426. The average salary for GS-13 to GS-15 staff was 
$98,333 for OMB and $112,174 for the SEC. We do not consider OPM 
comparable to GAO since over 72 percent of OPM staff perform clerical, 
administrative and compliance related work which is typically 
compensated at lower salary levels than staff performing work of an 
analytical nature. We believe that work performed by the SEC is more 
comparable to that performed by GAO. The average salary for GS-13 
through GS-15 employees at OPM at September 30, 2003, was $89,099.
    As of September 30, 2003, Band II and III employees accounted for 
51 percent of GAO's staff. OMB and SEC GS-13 through GS-15 employees 
accounted for 54 percent and 55 percent, respectively. At the OPM, the 
percentage of GS-13 through GS-15 employees was 25 percent.
    Question. Does your pay for performance and broad banding system 
cover all GAO employees?
    Answer. No. We have 5 Wage System employees who will not be 
converted to a broad banded pay for performance system and 20 criminal 
investigators who we are in the process of converting to a broad-banded 
system. All GAO employees who are covered by a pay-banding system will 
be eligible for pay for performance.
    Question. Do you believe there is a need to further refine your 
system to make it more effective? If so, what changes do you plan to 
make and how much will they cost? Do you expect these refinements, once 
implemented, to reduce overall compensation costs? If compensation 
costs are reduced, can the savings help you to restore your FTE levels?
    Answer. Yes. After the completion of each performance appraisal 
cycle and performance based compensation process, GAO conducts an 
evaluation by reviewing data and by soliciting feedback from managers 
and employees. As part of our continuous improvement process, we have 
made modifications to the performance appraisal and pay process every 
year based on this evaluation. We are currently analyzing the results 
of our evaluation of the fiscal year 2004 process to determine what, if 
any, modifications will be recommended for next year. Continuous 
improvement costs are minimal, as the majority of changes require minor 
adjustments to the existing system. We do anticipate a review of the 
analyst band structure and the competencies associated with the band 
levels in connection with the implementation of market-based 
compensation ranges. We anticipate the cost of this effort to be 
minimal because the compensation work has already been completed and 
the majority of the work on the competencies was completed when GAO 
initially undertook revising its performance appraisal system.
    While cost savings are not the impetus for our competency-based 
performance management and compensation systems, by implementing a more 
market-based and performance-oriented compensation system, GAO is 
continuing to work towards our strategic goal of maximizing the 
agency's value while managing its costs. Our compensation initiatives 
have involved the assessment of positions to ensure appropriate 
classification of various career streams and levels of responsibility, 
along with a market-based determination of the appropriate salary range 
for positions. Each year as part of the annual performance-based 
compensation process, GAO will provide employees with pay adjustments 
that reward performance, are reflective of the market value of 
positions, consider changes in purchasing power, and are financially 
sustainable. For increases effective on or after October 1, 2005, GAO 
will develop and apply its own methodology for annual cost-of-living 
and locality pay adjustments. For example, pay ranges in Washington, 
DC, and in other cities in which GAO employees reside, will be based on 
the results of an independent market-based compensation study conducted 
for GAO.
    Within a few years after implementing the market-based compensation 
ranges, I expect that the combined effect of managing salaries around 
the competitive rate and implementing a performance ``speed bump'' will 
result in a lower average annual salary (in today's dollars) as 
compared to what otherwise would occur under the current system. 
However, that won't necessarily translate to lower average total cash 
compensation because of the impact of our new individualized 
performance-based compensation system, which allocates pay earned on 
the basis of performance between a salary increase and a one-time cash 
bonus payment. Individuals whose current salaries are below the 
competitive rate, set at the 50th percentile of the compensation ranges 
compared to comparable organizations, will receive more of their 
performance pay as a salary increase, while individuals whose current 
salaries are above the competitive rate will receive more of their 
performance pay as a one-time cash bonus. For 2005 pay adjustments, all 
Washington, DC-based employees received an across-the-board and 
locality increase of 3.71 percent. In addition, analysts, specialists, 
attorneys, and economists received an average performance-based 
compensation increase of 1.65 percent, allocated between salary 
increase and cash bonus. Finally, benefits costs also need to be 
considered when determining total compensation and average compensation 
amounts.
    Question. Could you also explain the process you use to determine 
who gets monetary awards, how many GAO employees received them last 
year and what the amount of the award was for each?
    Answer. GAO employees receiving performance-based compensation are 
eligible for an increase to base pay, a bonus or a combination of the 
two. A summary of the performance-based compensation is as follows:
    Each year, the Comptroller General determines the budgetary 
parameters for performance-based compensation, the methodology by which 
amounts will be calculated and awarded to employees and the effective 
date on which it will be paid. The methodology used to award 
performance based compensation for fiscal year 2004 considered an 
employee's appraisal, current salary and the applicable competitive 
compensation range. Employees' appraisal averages were converted to 
statistically standardized rating scores in order to minimize the 
impact of any variability in raters' applications of the standards. 
Performance based compensation amounts were calculated as a percentage 
of the midpoint of the employee's band. The distribution of the 
compensation amount between a permanent salary increase and a lump sum 
was based on the employee's salary with employees at the lower portion 
of the salary range receiving their awards primarily as base increases 
and those employees at or near the top of the pay range receiving their 
awards as lump sum payments. Performance based compensation is prorated 
for those employees who have less than a full year of service during 
the performance cycle.
    In addition to performance-based compensation, GAO employees are 
eligible for incentive awards. Agency regulations describe the 
categories of incentive awards, the forms the award may take, e.g., 
plaque, money, time off, etc., and the recommendation and approval 
process associated with each category of award.
    GAO-wide honor awards, GAO's highest awards, recognize individuals 
and teams for their noteworthy achievements and extra effort through 
the performance-based compensation system and provide incentives for 
employees to strive for greater achievements. These awards consist of 
plaques and may include monetary recognition for individual recipients 
(not teams) based on annual guidance. Each year, a request for 
nominations is issued agency-wide and a screening committee reviews the 
resulting nominations. The screening committee, which is selected by 
the Executive Committee, comprised of the agency's top management team, 
makes recommendations to the Executive Committee. Two SES level 
employees lead the committee which is comprised of nine other members 
representing mission teams, mission support and field operations. GAO 
provides the following agency-wide honor awards: Comptroller General's 
Award, Distinguished Service Award, Meritorious Service Award, Equal 
Employment Opportunity Award, Customer Service Award, Client Service 
Award, Community Service Award, Integrity Award, Grand Finale Award, 
Big Picture Award and Human Capital Management Award.
    GAO also provides Results through Teamwork Awards, which recognize 
the accomplishment of teams working collaboratively across 
organizational lines beyond what is normally expected and recognized 
through the performance based compensation system. Awards may be 
provided in the form of a monetary, time off, or a certificate award. 
Managing Directors submit team nominations for the Executive 
Committee's review and approval.
    Employees are also eligible for unit awards, which are designed to 
reward deserving individuals or teams for extra effort above and beyond 
what is normally expected and recognized through the performance-based 
compensation system. Rewards may include cash, paid time off, and 
written expressions of appreciation, or combinations thereof. Unit 
awards must be approved by the SES-level unit head and each unit is 
responsible for developing a process to make award decisions that 
ensures that all staff are fairly considered, and that awards are based 
on performance, contributions, and extra effort above and beyond what 
is normally expected and recognized through the performance-based 
compensation system.
    In fiscal year 2004, cash incentive awards were provided as 
follows:
  --Number of Awards: 2,293
  --Average Amount: $471
  --Median Amount: $300
  --Total Cost: $1,080,000.
    Question. The GAO Human Capital Reform Act of 2004 provided you 
with a number of flexibilities in the human capital arena, including 
the ability for the GAO to decouple itself from annual executive branch 
pay adjustments. Please provide the Subcommittee an update on each of 
the provisions of the Act, including expected implementation timeframes 
and outstanding issues.
    Answer. Public Law 108-271 contained various human capital 
flexibilities. As required by section 10 of the act and consistent with 
GAO's long standing practice, the human capital flexibilities 
authorized by sections 2, 3, 4, 6, 7 and 9 are being implemented in 
continuing consultation with GAO's employees and executives. The status 
of each of these flexibilities is as follows:
  --Section 2 amended Public Law 106-303, the GAO Personnel 
        Flexibilities Act of 2000, to permit the Comptroller General to 
        offer voluntary early retirement and voluntary separation 
        incentive payments on a permanent basis. GAO's regulations for 
        offering voluntary early retirement were issued on November 15, 
        2004. Since fiscal year 2002, GAO has held several early 
        retirement opportunities. To give the fullest consideration to 
        all interested employees, any employee may apply for 
        consideration when an early retirement opportunity is 
        announced, even if he or she does not meet the stated criteria. 
        The Comptroller General may also authorize early retirements 
        for applicants on the basis of the institutional needs of GAO 
        subject to certain statutory limits. The following table 
        summarizes data on the voluntary early retirement program.

                                   SUMMARY DATA ON VOLUNTARY EARLY RETIREMENTS
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal   Fiscal   Fiscal   Fiscal
                Applications/Status of applications                    year     year     year     year    Total
                                                                       2002     2003     2004     2005
----------------------------------------------------------------------------------------------------------------
Applicants separated by voluntary early retirement.................       54       28       21        9      112
----------------------------------------------------------------------------------------------------------------

      The amendment in section 2 also removed the December 31, 2003 
        sunset date on the CGA to offer voluntary separation incentive 
        payments. The voluntary separation incentive provision, which 
        is now permanent, has not yet been implemented by regulation. 
        The costs associated with voluntary separation incentives can 
        be considerable. GAO anticipates little, if any, use of this 
        authority because of the associated costs. For this reason, as 
        well as to avoid creating unrealistic employee expectations, 
        GAO has not developed and issued agency regulations to 
        implement this section of the act.
  --Section 3 of the act amended 31 U.S.C. 732(c), which required GAO 
        employees' pay to be adjusted at the same time and to the same 
        extent as the General Schedule and instead authorizes the 
        Comptroller General to determine the amount of annual pay 
        adjustments subject to the factors enumerated in section 3. 
        Additionally, section 3 establishes a requirement that an 
        employee must be performing at a satisfactory level in order to 
        receive an annual pay adjustment.
      The CGA under section 3 is effective for increases on or after 
        October 1, 2005. We are formulating strategies for determining 
        the appropriate methodology for establishing alternatives to 
        the annual adjustment and anticipate the issuance of 
        regulations prior to January 2006--the first opportunity for 
        the Comptroller General to exercise this authority. GAO Order 
        2500.1, Pay Administration in the GAO Regulations, was issued 
        January 4, 2005 and implemented the satisfactory performance 
        requirement for GAO's analysts and related specialist and 
        attorneys. These groups of employees have been covered by 
        validated competency-based appraisal systems for at least one 
        full appraisal cycle. The regulations provided for withholding 
        annual increases from any employee whose performance on any 
        competency was rated as below expectations. Our regulations 
        will be revised to make this requirement applicable to the 
        analysts and related specialists and attorneys prior to the 
        January 2006 annual adjustment. The administrative, 
        professional and support (APSS) staff were recently converted 
        to a pay for performance system. We are continuing to implement 
        components of the APSS system and have not yet determined the 
        methodology for establishing annual adjustments.
  --Section 4 authorizes the Comptroller General to establish pay 
        retention regulations applicable to employees who are placed in 
        lower grades or bands as a result of workforce restructuring, 
        reclassification or other appropriate circumstances. Draft 
        regulations are currently under review. It is our intention to 
        complete the review and consultation process and implement this 
        section prior to January 2006.
  --Section 6 authorizes GAO to provide increased annual leave to key 
        employees. After consultation, GAO Order 2630.1, Leave Policies 
        and Procedures, was issued for employee comment on December 29, 
        2004. These regulations contain a provision permitting 
        designated key employees with less than 3 years of federal 
        service to earn 6 hours of annual leave. The 45-day comment 
        period closed on February 14, 2005 and employees' comments are 
        being analyzed and will be considered by GAO's Executive 
        Committee before finalizing the regulations. We anticipate 
        finalization of the regulations and implementation of this 
        provision on or before June 1, 2005. In addition, in January 
        2005, we updated GAO Order 2317.1, GAO's Senior Executive 
        Service and Senior Level Positions, to allow senior executives 
        and senior level staff to accrue annual leave at the rate of 1 
        day for each full biweekly pay period without regard to the 
        length of their service with the federal government.
  --Section 7 authorized GAO to establish an Executive Exchange 
        Program. Draft regulations implementing the Executive Exchange 
        Program were provided to employees for comment on January 31, 
        2005. The comment period closed on March 4, 2005 and review and 
        analysis of the comments is in process. We anticipate issuing 
        final regulations on or before June 1, 2005, and are 
        concurrently working on the operational implementation of the 
        program.
  --Section 9 amended 31 U.S.C. 732(d) and incorporated additional 
        requirements for GAO's competency-based performance management 
        system. GAO's competency-based performance management system, 
        including its competency-based appraisal systems, addresses all 
        of these factors. However, we conduct an annual review and 
        assessment of our performance appraisal policies and processes 
        as part of ongoing continuous improvement of the system.

                          SUBCOMMITTEE RECESS

    Senator Allard. The subcommittee stands in recess until 
Wednesday, April 27, when we will take testimony from the 
Senate Sergeant at Arms and the Capitol Police Board. Thank you 
very much.
    [Whereupon, at 11:33 a.m., Tuesday, April 19, the 
subcommittee was recessed, to reconvene at 11 a.m., Wednesday, 
April 27.]



















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:02 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. WILLIAM H. PICKLE, SERGEANT AT ARMS 
            AND DOORKEEPER
ACCOMPANIED BY:
        LYNNE HALBROOKS, DEPUTY SERGEANT AT ARMS
        J. GREG HANSON, ASSISTANT SERGEANT AT ARMS AND CHIEF 
            INFORMATION OFFICER
        CHUCK KAYLOR, ASSISTANT SERGEANT AT ARMS FOR SECURITY AND 
            EMERGENCY PREPAREDNESS
        AL CONCORDIA, ASSISTANT SERGEANT AT ARMS FOR POLICE OPERATIONS
        ESTHER GORDON, ASSISTANT SERGEANT AT ARMS FOR OPERATIONS
        RICK EDWARDS, ADMINISTRATIVE ASSISTANT AND ASSISTANT SERGEANT 
            AT ARMS
        NANCY ERICKSON, EXECUTIVE ASSISTANT

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    This morning we will be taking testimony on the fiscal year 
2006 budget request for the Sergeant at Arms and Doorkeeper of 
the Senate, the U.S. Capitol Police, and the Capitol Guide 
Service.
    We welcome our witnesses this morning. First we will hear 
from the Sergeant at Arms and Doorkeeper of the Senate, Bill 
Pickle. Welcome.
    Mr. Pickle. Thank you, sir.
    Senator Allard. Fellow Coloradan, I might add. Mr. Pickle 
is accompanied by his deputy, Lynne Halbrooks, and his Chief 
Financial Officer, Chris Dey.
    The Sergeant at Arms budget request totals $220 million, an 
increase of $42 million, or 24 percent over the current year. 
The Sergeant at Arms takes care of a wide assortment of needs 
here in the Senate, ranging from ensuring our security; 
processing our mail and ensuring its safety; providing us with 
computers, Blackberries, and telephones; and carrying out 
protocol responsibilities for visiting dignitaries.
    The Sergeant at Arms' role has grown significantly since 
September 11 to include many new security and emergency 
preparedness activities. The Sergeant at Arms has accomplished 
a great deal this year, from implementing better mail 
processing protocols following the ricin attack last February, 
to preparing for the Reagan state funeral.
    Thank you for all your hard work and that of your staff, 
Mr. Pickle.
    Mr. Pickle. Thank you.
    Senator Allard. For fiscal year 2006, a large part of the 
increase SAA requests is associated with the need to replace 
our 20-year-old telephone system here in the Senate. I 
understand security needs also account for a significant 
portion of the increase, as well as information technology 
requirements.
    Following the Sergeant at Arms, Mr. Pickle will put on his 
hat as Chairman of the Capitol Police Board and he will be 
joined by fellow board members, House Sergeant at Arms Bill 
Livingood, and Architect of the Capitol Alan Hantman, and the 
Capitol Police Chief, Terry Gainer. So we are going to have 
three panels. You will be the first panel, Mr. Pickle. You will 
be one panel and then we are going to have the Police Board as 
the second panel, and then the Guide Board will be the third 
panel.
    Mr. Pickle. Yes, sir.
    Senator Allard. All right. Now in reference to the Capitol 
Police Board, the Board is requesting $290 million for the 
Capitol Police, an increase of $59.7 million, or 26 percent 
over the current year, excluding any supplemental funds which 
may be provided in the bill which is pending in conference, of 
course. The amount requested would enable the Capitol Police to 
increase sworn officers by 122, for a total of 1,714.
    Also, additional funds are needed to support new security 
equipment and systems installed in recent years.
    The Capitol Police are to be commended for all their hard 
work recently in ensuring that the Presidential inauguration 
went forward without incident.
    Finally, we will again hear from Mr. Pickle, this time as 
Chairman of the Capitol Guide Board, along with Mr. Livingood 
and Mr. Hantman. Also present is Tom Stevens, the very capable 
head of the Capitol Guide Service and a 20-year veteran of the 
Guide Service.
    The Board is requesting $4.1 million for the Guide service. 
This is an increase of $254,000 over the current budget.
    Before turning to my ranking member for his opening 
statement let me say, as I have at the other legislative branch 
hearings, that the increases being sought will be very tough to 
accommodate, as you are probably well aware of. While they may 
be meritorious, we may be left with no choice but to make 
reductions to comply with the budget resolution.
    So I ask each of you to consider carefully what your 
highest priorities might be, and which projects might be 
deferred, and whether you have looked at how to operate most 
efficiently.
    Having made those opening comments, we will now turn to 
you, Mr. Pickle, and we will hear your testimony.

                  OPENING STATEMENT OF WILLIAM PICKLE

    Mr. Pickle. Thank you, Mr. Chairman. I really appreciate 
the opportunity to be here today. It is an honor to serve the 
Senate along with the almost 900 people that we have on the 
Sergeant at Arms staff. I have my senior staff with me today 
and I would like to take just a moment to introduce them to 
you, if I may.
    Lynne Halbrooks is the Deputy Sergeant at Arms. Mr. Greg 
Hanson is the Chief Information Officer and Assistant Sergeant 
at Arms as well. Chuck Kaylor is the Assistant Sergeant at Arms 
for Security and Emergency Preparedness. Al Concordia is the 
Assistant Sergeant at Arms for Police Operations. Esther Gordon 
is our newest Assistant Sergeant at Arms for Operations. Our 
third statutory officer, Mr. Rick Edwards, is the 
Administrative Assistant and Assistant Sergeant at Arms. And 
finally and not least is Nancy Erickson, the Executive 
Assistant, and she represents the Democratic leader.
    We have made significant progress this year, and you 
touched on some of that during your opening remarks. We have 
many established plans to make this place continue to work 
better. As you know, 9/11 changed much of what we do here. It 
has changed dramatically, as many of you who have been here 
much longer than I have realize.
    As you indicated, in 2006 we are asking for $219,968,000. 
This is a substantial increase, Mr. Chairman. It is 23 percent 
more than our 2005 budget. I know it is a large increase. And I 
know how you demand fiscal responsibility, and I know how this 
subcommittee desires to keep spending down. But I think as we 
go into the testimony, and especially our written testimony, if 
we do not get into it in the questions, you will see that our 
budget request is meritorious and will enable us to meet Senate 
requirements. This request is not driven by me or my staff. It 
is driven by the needs of the Senate.
    The request will help us institutionalize many of the 
changes that we have made since 9/11, since the anthrax attack 
in 2001 and since the ricin attack last year. It will help us 
to incorporate many of these changes into our normal business 
practices.
    We are a much more agile and flexible agency since 9/11. We 
have been forced to become so. The leadership has been very 
clear that security is its number one priority for my office, 
and technology is right up there with it. It is demanded that 
we provide state-of-the-art technology to the Senate. And that 
is what we are working to do.
    The changes that we have implemented in both regards really 
ripple across the entire Sergeant at Arms organization. But 
more importantly, they ripple across the entire Senate. Before 
9/11, I would say less than 20 percent of the time spent by the 
Office of the Sergeant at Arms was dedicated to security. Today 
it is probably 50 percent. The large increase that you have 
seen in FTEs since 2001 are almost all dedicated to technology 
or security.
    We do all we can to make this institution safe. And I think 
your office, the subcommittees, and other offices realize that 
and see it. We train. We train. We train. We equip. We equip. 
We equip. And we try to make sure that people know what to do 
in an emergency.
    I am not talking about anything that is classified when I 
say that we are a target. We realize we are a target. It is 
arguable which is the number one target, the White House or the 
Capitol. But we plan for the worst and we certainly hope for 
the best. And that is our goal here, and that is why we have 
such a large budget increase.
    The other part of this budget increase, the 
telecommunications systems which you alluded to, or the 
telephone system, is a very important part of our budget. It is 
one of these expenses that we pay now or we pay later.
    As you know we have a 20-year-old telephone system. This 
system technically could go on, I guess, for many years to 
come. But it does not allow us the flexibility of using the 
voice-over Internet protocol. It does not allow us to have more 
flexibility with voice, data and video.
    There is even a bigger part of this, which I am just going 
to touch on, and that is security. The new telecommunications 
system will provide a very important security benefit to the 
Senate. It will provide redundancy, and in today's environment, 
that is critical.
    Now, can we implement this system in incremental steps? 
Yes, we can. I know that funding is going to be tough to get, 
and we will certainly work with Carrie Apostolou and do the 
best we can to meet your needs and the subcommittee's needs, 
but this project is important.
    Mr. Chairman, I am not going to belabor the point. I would 
be happy to take questions. I have some more testimony I would 
like to introduce for the record.
    Senator Allard. Without objection, we will make your full 
testimony a part of the record.
    Mr. Pickle. Thank you. I would like to end my remarks, 
however, by simply saying that I am so honored to represent the 
almost 900 people who work for the Sergeant at Arms office. 
When you look at the many hundreds of different types of 
services we perform, some people say as many as a hundred 
businesses. When you look at the job that these people do, it 
is truly remarkable. They are dedicated. They are talented. 
Many of them are with me here today. And I am so proud of them. 
And I truly think that the taxpayers get their dollar's worth 
out of these people who work for you here today. Thank you.

                           PREPARED STATEMENT

    Senator Allard. Thank you for your comments. We appreciate 
your testimony.
    [The statement follows:]
           Prepared Statement of Honorable William H. Pickle
                              introduction
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2006, the Sergeant at Arms respectfully requests a 
total budget of $219,968,000, an increase of $42,151,000 (or 23.7 
percent) over the fiscal year 2005 budget. This request will allow us 
to maintain the significant improvements and level of service we 
provided the Senate community over the past year. It will also fund 
several important initiatives including replacement of the Senate 
telephone system, state-office security enhancements, and outfitting 
the Senate space in the Capitol Visitor Center with furniture and 
equipment. Appendix A, accompanying this testimony, elaborates the 
specific components of our fiscal year 2006 budget request.
    Last year I testified before this Committee and reported on our 
progress in accomplishing two priorities: (1) ensuring the United 
States Senate is as secure and prepared for any emergency as possible; 
and (2) providing the Senate outstanding service and support, including 
the enhanced use of technology. These priorities continue to guide my 
office and we are moving forward in a number of crucial areas.
    An outstanding senior management team leads the efforts of the 
dedicated Sergeant at Arms staff. Until recently this team included 
Deputy Sergeant at Arms J. Keith Kennedy, who chose to move to the 
position of Chief of Staff of this esteemed Committee. We miss him, but 
know that his skills already have served this Committee well. I have 
tapped the very capable Lynne Halbrooks to take over as the Deputy 
Sergeant at Arms in his stead. I look forward to a great tenure with 
her. Lynne and I are joined by Administrative Assistant Rick Edwards, 
Assistant Sergeant at Arms for Security and Emergency Preparedness 
Chuck Kaylor, Assistant Sergeant at Arms for Police Operations Al 
Concordia, Assistant Sergeant at Arms and Chief Information Officer J. 
Greg Hanson, and the newly appointed Assistant Sergeant at Arms for 
Operations, Esther Gordon. The many accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment.
                     major events of the past year
    The Office of the Sergeant at Arms faced several challenges this 
past year; some were planned, some were not. In particular, in 2004 we 
faced the ricin attack in February, the Reagan funeral in June, the 
transition to the 109th Congress beginning with the November elections, 
and the recent Inauguration. I am pleased to report that the staff 
performed capably and enabled the Senate to function effectively 
throughout these events.
    Ricin Attack.--The discovery of ricin in the Dirksen Senate Office 
Building on February 2, 2004, tested the emergency planning we had 
undertaken over the past several years. In response to the attack, SAA 
staff coordinated our efforts with those of the United States Capitol 
Police, the Committee on Rules and Administration, the Office of the 
Secretary of the Senate, the Office of the Attending Physician, and 
numerous other agencies and organizations to support Senate operations 
while all three Senate Office Buildings were closed.
    The incident prompted significant revisions to our mail testing 
protocols and modifications to our mail processing facility. The SAA 
Post Office staff adapted to working within a controlled environment 
while wearing personal protective equipment. Over the past year, they 
have opened, tested, and delivered over 12,500,000 articles of United 
States Postal Service mail and over 68,500 packages. To accommodate 
time-sensitive items addressed to Senate offices while maintaining the 
Senate's safety, the Congressional Acceptance Site processed and 
delivered over 98,000 items within our community from 3,200 couriers.
    Reagan Funeral.--During the week beginning June 6, 2004, the United 
States Capitol was the site of the first State Funeral since 1973. On 
Wednesday, June 9, the remains of former President Ronald Wilson Reagan 
arrived on the West Front of the Capitol by a horse-drawn caisson in a 
formal military procession. I had the distinguished, yet somber, honor 
of greeting Mrs. Reagan upon her arrival at the Capitol for the State 
Funeral in the Rotunda.
    The SAA staff played a key role in the preparations for this 
national event and demonstrated tireless dedication to meeting the 
Senate community's needs. The Capitol Facilities staff cleaned and set 
up holding rooms, the Photography and Recording Studios captured the 
event for historical purposes, and others provided behind-the-scenes 
support. We also focused on protocol and security throughout the week. 
The Executive Office staff coordinated attendance at the service in the 
Capitol Rotunda with Senate offices, assisted the Senators and Officers 
who participated in the program, and were responsible for the official 
Senate delegation's attendance at the National Funeral Service that was 
held at the Washington National Cathedral. The SAA security team had a 
continuous presence in the Capitol Police Command Center, and helped 
the Capitol Police, U.S. Secret Service, and other federal agencies 
ensure that Washington, DC was safe. As a result, almost 105,000 
mourners were able to pay their respects to the former President while 
complying with the enhanced security measures added since the last 
State Funeral.
    Transition.--The SAA staff facilitated the transition to the new 
Congress by equipping, staffing, and running the Transition Office for 
newly elected Senators, and by moving and setting up equipment for 
temporary and permanent office suites. They installed equipment in the 
transition office space, and provided administrative and mail services, 
as well as Web sites, documents, and placement services to facilitate 
new Senators' entry to the Senate. The Office of Education and Training 
assisted with in-depth training for new Senators, and provided training 
to their Chiefs of Staff and to Administrative Managers.
    Inauguration.--SAA staff also provided guidance on protocol, 
created the Web site, recorded the video feeds, photographed the 
events, produced documents and posters, helped set up the Capitol, and 
developed and implemented the infrastructure, computers, telephones, 
and applications to support the Inauguration. In addition, as part of 
the Inaugural security team, which also included the Capitol Police, 
the Metropolitan Police Department, the U.S. Secret Service, and the 
Armed Forces, we put effective security measures into place that 
enabled people to participate in Inaugural events, but also ensured 
that the events were safe.
    These examples are representative of how the staff of the SAA 
serves the Senate. This dedication is often unnoticed, but I wanted to 
let you know that it happens, even when there is no emergency.
            continuing emphasis on security and preparedness
    The Senate was in a heightened security posture for much of the 
past year, starting with the increased threat levels of the 2003/2004 
winter holiday season. In addition, the ricin attack in February, 
President Reagan's funeral in June, the 2004 conventions, Senators' 
campaigns, and the Inauguration all increased the demand on the SAA's 
security team and the Capitol Police. These challenges reflect the new 
reality of our security environment; we cannot and have not become 
complacent in our approach to the security of the Senate. The Senate's 
layered security strategy provides a framework that we use to address 
security challenges. In implementing the strategy, we integrate good 
intelligence, threat-driven protective measures, response capabilities, 
comprehensive emergency plans, and an aggressive training and exercise 
program to create comprehensive, Senate-wide security and preparedness. 
I would like to highlight some of our security efforts for you.
The Senate Security Team
    The Senate's security team includes the SAA Offices of Security and 
Emergency Preparedness and of Police Operations, along with the U.S. 
Capitol Police, the Secretary of the Senate, the Architect of the 
Capitol, and other supporting agencies. Together, these groups provide 
the Senate with a security team that is strong and well coordinated. 
Senate Leadership, this Committee, and the Committee on Rules and 
Administration are also strong and supportive members of this team.
Prevent and Protect
    Threat Intelligence Sharing.--The Capitol Police exchange threat 
intelligence information with the law enforcement and intelligence 
communities. Along with the Capitol Police, SAA security experts 
evaluate threats against Senators and certain visitors to the Capitol 
area, and take appropriate measures to eliminate or mitigate those 
threats.
            Personal Safety
    Security for Senators Who Participate in Foreign Congressional 
Delegation (CODEL) Visits.--The Consolidated Appropriations Act, 2005 
authorized Capitol Police officers to travel outside the United States 
in a liaison capacity to coordinate security arrangements for Senators 
traveling individually or as part of a CODEL. SAA staff, the Capitol 
Police, and the Department of State are developing policies and 
procedures to implement this new authority.
    Security for Senators at Special Events.--With the Capitol Police, 
we have created a standard for assigning security resources to Senators 
when they attend special events, whether the events occur on the 
Capitol campus or out of town. Special events include public 
appearances by Members in and out of Washington, DC, off-site 
conferences and policy retreats that Members attend, and offsite 
Committee hearings. This initiative allows us to align our efforts with 
those of other law enforcement agencies and allocate resources to 
ensure Members' safety and security.
            Safety on the Capitol Campus
    Mail, Packages, and Freight.--All mail and packages coming into the 
Senate are tested, whether they come through the U.S. Postal Service or 
from other delivery services. Last year, with guidance from our science 
advisors and Senate Leadership, we improved our mail- and package-
testing and security procedures. With over a year of experience with 
the improved procedures, I can report to you that they are working.
    An outside contractor currently provides the Senate's testing and 
processing service for mail and packages coming into the Senate, but 
this year we will move this service in house and to a larger, less 
costly (per square foot) facility. We expect this change to save the 
Senate $250,000 annually.
    In addition to mail testing and security procedures, we support the 
efforts of the Capitol Police to screen vehicles and freight by using 
technology, K-9 units, and officers. The Capitol Police will implement 
new security measures when they construct and move into a new screening 
facility.
    Perimeter Security.--Significant progress has been made in our 
perimeter security over this past year as we neared completion of 
Capitol Square perimeter security measures and of the bollard line 
along Constitution Avenue next to the Senate Office Buildings. In the 
coming year, this work will continue on Capitol Square and around the 
remainder of the Senate perimeter.
    Vehicle Security.--The Capitol Police implemented vehicle-screening 
checkpoints around the Capitol grounds last summer to counter the 
threat of vehicle-borne explosives. In addition, Senate Leadership 
closed First Street NE between D Street NE and Constitution Avenue, 
based on the strong recommendation of the Capitol Police. Since then, 
the Capitol Police periodically have modified the vehicle-screening 
procedures in response to intelligence and threat information with the 
goal of preventing vehicular attacks.
    Other Initiatives.--The SAA is involved in a number of additional 
ongoing projects that improve security, emergency response, and law 
enforcement across the Capitol campus. We support the efforts of the 
Capitol Police to enhance the physical security of the Senate Chamber, 
improve their response to incidents reported in Senate buildings and on 
the Capitol grounds, revise access control procedures for personnel and 
vehicles, and activate a program of anti-terrorism measures.
            Beyond Capitol Hill
    State Office Security Enhancements.--Over two years ago, the SAA 
began a security enhancement program for Member state offices. Since 
the program started in late 2002, we have completed security 
assessments of over 450 state offices and security enhancements for 60 
offices. We are in the process of delivering enhancements to 150 more 
offices. This accounts for all existing state offices, and we implement 
procedures for assessing new offices as they open. We place the highest 
priority on offices located in commercial properties, but we also have 
strong relationships with the General Services Administration, the 
Federal Protective Service, and the U.S. Marshals Service to support 
offices in federal buildings.
Prepare
    Our emergency preparedness plans and programs encompass emergency 
procedures, office emergency planning, emergency equipment fielded 
throughout the Senate, education and training programs, regular drills, 
and exercises. Combined, these plans and programs provide the Senate 
with the guidelines, equipment, and confidence to react effectively in 
an emergency.
    Evacuation Procedures.--The Senate's security team devoted much of 
this past year to improving the Senate's emergency procedures, its 
emergency procedures training, and its ability to notify staff. One 
item of note is the implementation of evacuation procedures for 
mobility-impaired staff and visitors. We implemented these procedures 
during evacuation drills and worked with offices to provide equipment 
and personal training to all mobility-impaired staff members and their 
supporting buddy teams.
    Emergency Equipment.--Over the past few years, the SAA fielded 
emergency items, such as escape hoods and wireless annunciators, 
throughout the Senate. This year we provided every Senate Member and 
Committee Office with emergency supply kits that contain a variety of 
emergency items. Over 18,000 items of emergency equipment were 
distributed to Senate offices and throughout the Senate Office 
Buildings. Last fall, an inventory of the Senate's emergency equipment 
was conducted to account for all items and to ensure that they function 
properly. I am pleased to report that Senate Offices have kept their 
equipment current and accounted for; we believe this reflects the 
importance offices place on their emergency equipment.
    Planning Support.--To enhance support to Senate offices, we 
recently published a guide for office security planning, the Roadmap to 
Readiness. This document provides concise guidelines, tips, and 
templates, and it directs offices to resources that can help them in 
their security planning. We also established a presence for continuity 
of operations, security, and emergency preparedness on Webster, the 
Senate's intranet, and published a number of brochures on emergency 
equipment and procedures.
    We are working with a small number of state offices on training in 
emergency preparedness and on exercising continuity of operations plans 
to determine how best to support their needs. Our Web-based continuity 
of operations planning tool is available to state offices, and we are 
extending training resources and planning tools to help state office 
staff improve their security awareness and emergency plans.
Practice
    Training and Education.--In the past year, SAA staff conducted over 
300 security-related training sessions for Senate offices and staff. We 
delivered 53 training sessions, including general training courses on 
escape hoods and Office Emergency Coordinator training, and seminars on 
personal preparedness and the District of Columbia's evacuation plans. 
These courses and seminars are part of the regular Office of Education 
and Training curriculum. Over 250 additional training sessions to 
smaller groups on specialized security topics were also delivered. 
Additionally, we offer in-office training on sensitive or office-
specific topics and consulting to office staff on preparing emergency 
action plans and continuity of operations plans. These training and 
education efforts complement the training offered by the Office of the 
Attending Physician on First Aid and CPR and that offered by the 
Capitol Police on security awareness.
    Exercise Program.--Together with the Secretary of the Senate and 
other legislative branch agencies, we have established an aggressive 
plan to rehearse our emergency plans and procedures throughout the 
year. Our exercises range from quarterly evacuation drills and monthly 
communications tests to full-scale exercises of relocation sites 
involving transportation, special communications equipment, and staff. 
An aggressive exercise agenda for the coming year includes joint 
exercises with the House of Representatives.
    Our training and exercise program has enabled the Senate to respond 
effectively to emergencies twice in the past four years. The exercise 
program ensures that we continue to rehearse, evaluate, and improve our 
plans and procedures.
    The SAA's Office of Police Liaison and Office of Security and 
Emergency Preparedness focus on improving our security environment and 
the readiness of the Senate every day. With the support of Senate 
Leadership, this Committee, and the Committee on Rules and 
Administration, we continue to improve the Senate's security 
capabilities.
                         information technology
    The Office of the Sergeant at Arms places special emphasis on using 
technologies to deliver security, emergency preparedness, service, and 
support to the United States Senate. The SAA's CIO organization 
executes our strategic information technology plan to accomplish these 
goals.
    I want to take a minute to thank Assistant Sergeant at Arms and 
Chief Information Officer J. Greg Hanson for the vision and dedication 
with which, over the past two years, he has transformed our already 
fine Information Technology group into a group that offers best-in-
class service and support. Greg ensures that we consistently provide 
the Senate with state-of-the-art technology and service, and he has 
taken a personal interest in his customers. Because of this, Greg was 
named to this year's Federal 100, the one hundred top executives from 
government, industry, and academia who had the greatest impact on the 
government information systems community in 2004. Congratulations, 
Greg.
    Over the past year, our most significant accomplishments in the 
information technology area include:
  --Completion of a state-of-the-art alternate computing facility for 
        continuity of operations and continuity of government;
  --A 13 percent improvement in customer satisfaction, exceeding our 
        internal goal of 10 percent;
  --Implementation of a robust information security awareness program 
        that includes enterprise technology tools, enhanced 
        communication, and technical training;
  --Cost avoidance of at least $2 million by developing an information 
        technology strategic plan, a comprehensive technology level 
        matrix, and a state-of-the-art application for tracking 
        information technology projects and issues; and,
  --An enhanced ability to evaluate and deliver technology solutions to 
        the Senate through teamwork and collaboration with Member 
        Offices, Committees, and steering groups.
Information Technology--The Road Ahead
    Last year's testimony stated, ``Information technology is crucial 
to security in the Senate and to the Senate's ability to accomplish its 
day-to-day activities. With a strong emphasis on providing advanced 
technology capabilities and outstanding customer support to the Senate, 
the SAA is adopting a comprehensive approach to delivering technology 
solutions and services.'' This year we are delivering on these goals 
with a strategic information technology plan that aligns with the 
Senate's business requirements. The plan, titled An IT Vision for 
Security, Customer Service, and Teamwork at the United States Senate 
(or Senate IT Vision) is found in Appendix B of this testimony. The 
Senate IT Vision sets forth: Our strategic technology vision; our 
strategic technology mission; our core values and guiding principles; 
and, five broad information technology strategic goals for the next two 
years.
    The strategic information technology vision is to deliver state-of-
the-art information technology that directly supports efficient, 
effective, secure legislative action, communication, and constituent 
service through our infrastructure, processes, and talented workforce. 
This vision stresses the importance of collaboration and teamwork in 
delivering information technology services and solutions.
    The strategic mission, which supports the vision, is to leverage 
technology so the Senate can function efficiently and effectively to 
serve the American people under any circumstance. We are developing a 
technology team composed of staff members from my office, Member and 
Committee offices, and other Senate offices to work together to provide 
technology options, solutions, and world-class customer service so the 
Senate can accomplish its mission.
    The core values and guiding principles in the strategic plan define 
the CIO organization's culture and ensure that it aligns with the 
Senate's business priorities. The values and principles emphasize 
people, teamwork, leadership, and a relentless pursuit of 
organizational excellence so we can deliver information technology that 
meets the Senate's requirements quickly and effectively.
    The five strategic information technology goals and their 
supporting objectives drive all our information technology programmatic 
and budgetary decisions. The five strategic goals are:
  --1. Secure. A secure Senate information infrastructure.
  --2. Customer Service Focused. A customer-service culture top-to-
        bottom.
  --3. Effective. Information technology solutions driven by business 
        requirements.
  --4. Accessible, Flexible & Reliable. Access to mission-critical 
        information anywhere, anytime, under any circumstance.
  --5. Modern. A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    The five objectives encompass broad-based security, customer 
service, and emerging technology initiatives. The objectives complement 
the vision and mission, which directly tie all information technology 
activities to the business of the Senate. Our accomplishments this past 
year reflect the notable progress we have already made in achieving the 
five objectives.
Security and Continuity Communications
    Alternate Sites.--This year, the SAA technology staff completed the 
information infrastructure that will enable us to replicate all the 
systems housed at the Senate's Washington, DC primary computing 
facility to the alternate computing facility (ACF). Together with the 
Architect of the Capitol, we upgraded the physical infrastructure of 
the ACF by adding a fully redundant backup power system and increasing 
the ACF's primary power capacity. We have also completed and tested all 
mission-critical information systems, and they can be live within a 
matter of hours. During the upcoming year, we will add a satellite-
communications ground station to the ACF, and we plan to offer expanded 
replication and backup capabilities if the Architect of the Capitol 
purchases the facility.
    We will expand the storage area network this year to accommodate 
increased traffic from the enterprise Active Directory and Messaging 
Architecture (ADMA) systems and from new replication options that we 
are offering to Senate Committee and Leadership Offices. We completed 
fiber connectivity to the primary alternate chamber site, systems to 
support the Sergeant at Arms and Secretary of the Senate Emergency 
Operations Centers and Briefing Centers, and the extension of the 
communications infrastructure to backup locations.
    Contingency Communications.--A comprehensive array of 
communications systems and options enable us to communicate under any 
circumstance. This year, we tested new communications technology for 
connectivity between the Senate's primary computing facility and a 
Briefing Center at another location. In addition, both of the state-of-
the-art communications vehicles mentioned in last year's testimony have 
passed initial acceptance testing and have moved into the final 
acceptance testing phases.
    This year, we will complete the in-building wireless 
infrastructure, which will improve signal strength for the major 
cellular telephone and BlackBerry service carriers. With this 
infrastructure, the Senate will have coverage in areas where it was 
previously poor or nonexistent and Senate staff can connect to their 
offices via wireless remote computing. The system will substantially 
pay for itself because the carriers are paying us for the right to use 
it.
    The technology and security groups collaborated during the past 
year to improve the Senate's overall security. The two groups created a 
specialized emergency communications unit with personnel from both 
offices who gather requirements and translate them into integrated, 
highly reliable systems. One result of this partnership is a system for 
Office Emergency Coordinators that we are now moving from prototype to 
production. In an emergency, the system provides the ability to account 
for Senate staff using wireless tablet computers.
    Securing Our Information Infrastructure.--This year, we witnessed 
new, more sophisticated methods of attack with more severe 
consequences. In response, we enhanced and strengthened our defense-in-
depth approach to network and computer security over the past year. We 
continue to see great success in the enterprise-wide anti-virus 
program, with almost 10,000 desktop anti-virus suites installed. We 
perform intrusion detection in house, and we have executed a contract 
to augment our capabilities. The contract helped us contain a 
particularly insidious Randex virus attack. Our information security 
group coordinates with other outside federal agencies to ensure we have 
the most up-to-date information and techniques for combating threats to 
our information infrastructure. These efforts are part of the defense-
in-depth strategy that protects the Senate's infrastructure and reaches 
from the software running on Senate desktops to the edge of our 
networks.
    In the first three months of 2005, nearly 4 million viral events 
have been detected, and nearly 99 percent of them were automatically 
blocked from infecting Senate machines. Our security processes are 
reducing the number of infections per computer per day. In spite of the 
fact that the threat environment is getting worse with more malevolent 
viruses and worms, it is rare that a Senate computer is infected.
    In addition, we introduced a software update services program to 
help offices protect themselves from virus and worm attacks. In 
participating offices, the program automatically installs patches on 
the offices' computers, once we have certified that the patches will 
not adversely affect Senate systems.
    Next year, we will build and begin operating a comprehensive 
security operations center that will monitor the security of Senate 
information systems and detect and combat viruses and other computer-
based attacks. We will continue to coordinate with Leadership 
Organizations, Committees, and groups such as the Joint Security Best 
Policies and Practices Working Group to develop security training, 
policy, and information security processes.
Customer Service
    The SAA continues to measure how well we meet the Senate's 
technology needs. Our second annual CIO Customer Satisfaction survey 
revealed a 13 percent overall improvement against a goal of 10 percent. 
In addition, we saw improvements in every category, with some 
categories up by as much as 26 percent. Our customer satisfaction 
action plan stresses strong communication and relationships, 
introducing modern technology faster, and providing offices options and 
choices of products, solutions, and services.
    Customer Service, Satisfaction, and Communications.--We maintain a 
comprehensive outreach and communication program with information 
technology newsletters, quarterly project status reviews, participation 
in the Majority Leader's Information Technology Working Group, and 
joint monthly project and policy meetings with the Committee on Rules 
and Administration, the Senate System Administrators Association, and 
the Administrative Managers' Working Group.
    In addition to conducting an annual comprehensive survey, we 
monitor our service every day. After service calls, we send customers 
satisfaction surveys. We track survey results and evaluate them for 
service-level-agreement trends. We discuss the results in weekly 
business process and technology review meetings that staff, support 
contractors, and customers all attend. This past year our help desk 
contractor consistently posted customer satisfaction results at or 
above 95 percent and the telecommunications support staff posted 
customer satisfaction results at 98 percent.
    Business Applications.--This past year, we renewed Senate contracts 
that provide research services and resources for Senate offices. We 
also replaced the old Senate News Wire with a state-of-the-art, real-
time, NewsWatch service; outfitted the financial management system 
supporting the Secretary of the Senate's Disbursing Office with a Web-
based interface; and completed new SAA Human Resources and Senate 
Employee Assistance Program Web sites.
    Later this year we will complete a prototype services portal that 
we are developing in conjunction with Senate Leadership and the 
Committee on Rules and Administration. The prototype will serve as a 
modern platform for launching many new Web-based applications Senate-
wide.
    In preparation for modernizing and expanding our constituent 
correspondence management systems, we started gathering formal 
requirements from offices last summer. We will complete the 
requirements analysis this year, and anticipate recompeting the 
correspondence management system contracts in fiscal year 2006.
    Enhanced Communications and Infrastructure.--Several information 
technology projects enhance communications within and between Senate 
offices. An improved network infrastructure features 100 Mbps of 
connectivity for desktop and 1 Gbps connectivity between servers. The 
enterprise fax program replaces stand-alone fax machines with an 
integrated, server-based fax system that eliminates paper.
    Increased frame relay bandwidth to the state offices supports video 
teleconferencing and data replication. The Senate video 
teleconferencing program, with nearly 300 installed endpoints Senate-
wide, allows staffs in Washington, DC offices to conduct video 
conferences with state offices and other remote locations.
    The Senate Telecommunications Modernization Program is a 
comprehensive, multi-year project to replace the Senate telephone 
system with a state-of-the-art telecommunications system that will take 
advantage of the convergence of voice, data, and video traffic on a 
single network. The convergence will provide new services, reduce the 
cost of existing services, and eliminate single-points-of-failure in 
the telephone system. We expect to start implementation in fiscal year 
2006.
    We also anticipate completion of the enterprise tape backup system 
this fiscal year. The system runs over our storage area network, and it 
already automatically backs up over fifty servers located in our 
primary computing facility.
    In addition, the Senate is now the employer of all Capitol Exchange 
Operators. The staff of the Capitol Exchange serves both the Senate and 
the House of Representatives, but as of March 1, 2005, they are all 
employees of the Senate. This change will increase efficiency and 
establish a unified team with common management, benefits, policies, 
and practices.
Modern Technology Aligned With Business Processes
    Process Management & Innovation.--This year, we established a 
Process Management & Innovation organization that aligns our 
information technology, strategies, and solutions with Senate business 
processes. This staff is responsible for technology infusion and for 
tracking relevant emerging technologies against the Senate's 
information technology requirements. Part of this effort is the Senate 
Emerging Technology Conference and Exhibition Program that shows new 
technologies and concepts to Senate staff. The two conferences held 
last year featured knowledge management, communications, and 
information technology best practices. The first-ever emerging 
technologies exposition displayed new, inexpensive products for 
consideration by Senate offices. We held the latest Senate Emerging 
Technology Conference and Exposition on April 14, 2005, and it featured 
new information security technologies and products.
    Modern Information Technology Processes and Performance Metrics.--
In order to deliver new technologies quickly and efficiently, we 
created system development processes tailored to the Senate's needs. 
These processes form the foundation of a state-of-the-art project and 
issue management tracking system called the Dashboard. The Dashboard is 
a Web-based tool that we use to monitor and maintain the status of all 
information technology projects. The tool is useful for both management 
and communications. Next year, we will give our customers access to 
parts of the Dashboard so they can track projects and issues. The next 
phase of the Dashboard, which we will implement later this year, will 
track performance of key infrastructure components and mission-critical 
systems. Completion of the next phase will enable us to track all 
information technology initiatives.
                          operational support
    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our operational 
support. The groups that make up our Operations team continue to 
provide exceptional customer service and support to the Senate 
community.
Capitol Facilities
    Capitol Facilities staff works around the clock to ensure that the 
furniture and furnishings are of the highest quality, cabinetry and 
framing are outstanding, and the environment within the Capitol is 
clean and professional. This past year, we improved our customer 
service by implementing three major initiatives:
  --Performance Management Process.--We implemented a performance 
        management process that helps Capitol Facilities management and 
        staff improve their job performance each year. Using this 
        process, we have been able to improve communication within 
        Capitol Facilities and increase the quality of service we 
        deliver to our customers.
  --Work Order System.--We implemented a Work Order System that tracks 
        requests and automatically sends them to supervisors for 
        immediate scheduling and completion. The system enables 
        Facilities staff to respond to requests promptly, and provides 
        management better information on the resources required to 
        fulfill requests.
  --Computer-Aided Design.--In our Furniture and Furnishings shop, we 
        invested in a Computer-Aided Design, or CAD system. The system 
        serves as a database of construction drawings of historical 
        furniture. This information enables us to reduce the amount of 
        time needed to create custom-built furniture for Capitol 
        offices.
    We undertook these three initiatives because we will soon have a 
significantly larger area to maintain, and we need a more efficient way 
to manage the workload of the Capitol Facilities staff. Specifically, 
the opening of the Capitol Visitor Center will add 66,500 square feet 
of Senate space to the responsibilities of the Capitol Facilities 
group: 41,000 square feet of office space, 8,000 square feet of meeting 
space, and 17,500 square feet of other space. Compared to their current 
obligations, the Environmental Services Division will clean and 
maintain almost one-third more office space and three times more 
meeting space, and the Furnishings Division will need to furnish over 
50 percent more office and meeting space.
Employee Assistance Program
    Over the past year we have enhanced and expanded our Employee 
Assistance Program. The program supports staff across the Senate. It 
improves supervisors' ability to manage troubled employees, enhance the 
work environment, and improve employee job performance. It helps 
employees find the resources they need to address some of the personal 
challenges they face every day. It also coordinates with Security staff 
to train people on reacting to emergencies and to ensure that processes 
are in place to deal with emergencies.
Photo Studio
    We completed the Photo Studio's transition to an entirely digital 
operation. With the new photo browser database, Senate staff can use 
their desktop computers to place orders, download high-resolution 
images, e-mail images, and track the progress of their orders online. 
Staff members from more than 110 Senate offices use the new system, 
which can make digital images available within hours, when necessary. 
This system has improved our service to our customers and increased 
their satisfaction.
Printing, Graphics, and Direct Mail
    During the past five years in Printing, Graphics, and Direct Mail, 
our capital investments and process improvements have enabled us to 
increase production by over 54 percent with 12 percent fewer staff. 
During fiscal year 2004, we provided guidance to Members' staffs on 
addressing outgoing mail in a format that took full advantage of 
postage discounts. As a result, offices saved over $2.2 million in 
postage expenses.
    We also implemented a Web-based system that archives and manages 
documents for Senate offices. The system enables Senate staff members 
to search, view, and print documents from their desktops. In its first 
eight months of operation, we used the system to scan nearly one 
million documents for offices.
    Finally, we are moving forward on a new warehouse facility. SAA 
staff identified a site and they are working with the Architect's 
office to create an effective space for the Senate. The building's 
shell is complete, and we are planning the interior. The lease was 
approved and signed, and we expect the build-out to be completed by 
September of this year. The new facility will provide considerable 
security and operating benefits to the Senate.
Recording Studio
    The Recording Studio records the activity on the Senate floor and 
Committee hearings, and it provides a production studio and rental 
equipment. Last year, it recorded all 1,034 hours and 31 minutes of 
Senate Floor proceedings, and 593 Committee hearings.
    Committee Hearing Room Upgrade.--In 2003, we started a project to 
upgrade and install multimedia equipment in Committee hearing rooms. 
The project included digital signal processing, audio systems, and 
broadcast-quality robotic camera systems.
    To date, we have implemented audio upgrades in three hearing rooms, 
SR-332, SR-301, and SD-106. Three more are scheduled for this calendar 
year. The enhancements include improved speech intelligibility and 
software-based systems that we can configure based on individual 
Committee needs. The system's backup will take over within minutes if 
the main electronics fail, and because the system is networked, staff 
can automatically route audio from one hearing room to other hearing 
rooms to accommodate overflow crowds.
    The project also includes system diagnostic monitoring and 
redundancy that enable Recording Studio staff to detect and resolve 
problems. For example, if a Member is speaking at a relatively low 
volume, the system can automatically raise the volume of that 
microphone; if a Member forgets to turn on a microphone before 
speaking, the Committee clerk can turn it on remotely.
    The project's video upgrades add broadcast-quality television 
cameras on robotic systems to Committee Rooms, and cabinetry to conceal 
the cameras when they are not in use. The cameras can be remotely 
controlled from the Recording Studio. Once this project is completed, 
the Recording Studio will be able to broadcast more Committee hearings 
while simultaneously maintaining production capabilities in the 
television studios.
    Chamber Proceedings and News Programming Browsing System.--For 
years, the Senate has had the ability to search Chamber proceedings by 
text and listen to audio playback from desktop computers; in fact, we 
were a pioneer in this area, and accomplished it in the early years of 
computer browsers. As a major advance, we will replace our audio and 
text browsing systems with a state-of-the-art audio/text/video browsing 
system that will enable Senate staff to search and play back Chamber 
proceedings and news programming from any computer on the Senate LAN.
    This browsing system is the result of a modernization of our 
technical plan for the Senate Recording Studio that incorporates 
technology so new that it is operational in only a handful of 
facilities in the country. This new technology will enable the 
Recording Studio to record, edit, and play proceedings and programming 
without ever using tape machines. It will make the information 
available for simultaneous online searching and streaming.
Education and Training
    The Office of Education and Training provides employee training and 
development opportunities for all Senate staff in Washington, DC and in 
the states. The Technical Training group provides technical training 
support for approved software packages through instructor-led classes, 
one-on-one coaching sessions, specialized vendor-provided training, 
computer-based training, and informal training and support services. 
The Professional Training group delivers courses on management and 
leadership development, human resources issues and staff benefits, 
legislative and staff information, and new staff and intern 
information. The Health Promotion group offers seminars, classes, and 
screening on health-related and wellness issues, and it coordinates one 
annual Health Fair for all Senate employees and four annual blood 
drives.
    This year, we will be undertaking an outside assessment of our 
training program to ensure we are meeting the needs of the Senate 
community.
    Training Classes.--The Education and Training group offered 581 
classes in 2004, with 5,252 Senate employees taking advantage of these 
classes and the registration desk handling 20,467 requests for training 
and documentation.
    Of the above total, the technical training group offered 265 
classes to 1,093 staff members, and provided coaching on various 
software packages and other computer-related subjects to 702 staff 
members. The professional development area offered 316 classes to 4,159 
students, and delivered 40 special training and team building sessions 
to Members and Committees. The professional development group addresses 
team performance, communication, and conflict resolution, and we 
encourage managers and supervisors to request customized training for 
their offices. During the last quarter of the year, staff from the 
professional development group offered training via video 
teleconferencing to two state offices; we plan to continue this 
practice. In the Health promotion area, 1,310 staff members 
participated in the Annual Health Fair held in September, and 708 
participated in Health Promotion activities throughout the year, 
including cancer screening, bone density screening, and seminars on 
health-related topics.
    Together, the Office of Education and Training and the Office of 
Security and Emergency Preparedness provide security training for 
Senate staff. They delivered 53 sessions of Escape Hood and other 
security related training to 1,683 Senate staff in 2004.
    State Training.--Most of the classes we offer are practical only 
for Washington, DC-based staff, but we are expanding our offerings to 
state office staff through the State Training Fair, which began in 
March 2000. In 2004, we offered two sessions of this program to state 
staff, and conducted our annual State Directors Forum for the second 
year. The ``Virtual Classroom,'' an internet-based training library of 
over 300 courses, also enables state office staff to take advantage of 
the Senate's training resources; 396 staff members from state offices 
and Washington, DC have taken advantage of this training option.
                               conclusion
    The SAA staff provides consistent service, and their dedication is 
evident in the number of years people stay with the organization. Last 
year, we had 5 people celebrate 30 years with the SAA, 10 people 
celebrate 25 years, and 23 people celebrate 20 years. These are 
talented people who have devoted their skills to the Senate.
    The Office of the Sergeant at Arms is like dozens of small 
businesses, each with its own primary mission, each with its own 
measures of success, and each with its own culture. It has a fleet of 
vehicles that serves Senate leadership, delivers goods, and provides 
emergency transportation. Our photo studio records historic events, 
takes official Senate portraits, provides the whole range of Capitol 
photography services, and delivered thousands of pictures last year 
alone. The SAA's printing shop provides layout and design, graphics 
development, and production of everything from newsletters to floor 
charts; last year, it printed 13,067,071 sheets of color printing (a 
300 percent increase over the 2003 volume), and it produced 8,521 floor 
charts. The Office of the Sergeant at Arms also operates a page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate work smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and answer questions.
           attachment i.--financial plan for fiscal year 2006
          office of the sergeant at arms--united states senate

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $50,635     $57,743      $7,108         14.0
    Expenses...................................................     $55,725     $67,423     $11,698         21.0
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................    $106,360    $125,166     $18,806         17.7
                                                                ================================================
Mandated Allowances & Allotments...............................     $53,714     $56,452      $2,738          5.1
Capital Investment.............................................     $13,453     $34,399     $20,946        155.7
Nondiscretionary Items.........................................      $4,290      $3,951       ($339)        -7.9
                                                                ------------------------------------------------
      TOTAL....................................................    $177,817    $219,968     $42,151         23.7
                                                                ================================================
Staffing.......................................................         875         893          18          2.1
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2006 
budget request of $219,968,000, an increase of $42,151,000 or 23.7 
percent compared to fiscal year 2005. The salary budget request is 
$57,743,000, an increase of $7,108,000 or 14.0 percent, and the expense 
budget request is $162,225,000, an increase of $35,043,000 or 27.6 
percent. The staffing request is 893, an increase of 18 FTEs.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$57,743,000, an increase of $7,108,000 or 14.0 percent compared to 
fiscal year 2005. The salary budget increase is due to the addition of 
18 FTEs, a 3.9 percent COLA, and merit funding. The additional staff 
will augment our security team, improve operations, expand services, 
and meet new requirements for the Senate community.
    The general operations and maintenance expenses budget request for 
existing and new services is $67,423,000, an increase of $11,698,000 or 
21.0 percent compared to fiscal year 2005. Major factors contributing 
to the expense budget increase are emergency preparedness in security 
operations and planning, $4,572,000; price adjustments and annual 
escalations in the IT support contract, $3,281,000; increased cost of 
expanded intrusion detection monitoring services and software, 
$1,075,000; contract renewal expenses of Senate Information Services 
(SIS) contracts, $303,000; and upgrade of data center equipment in 
Postal Square, $177,000.
    The mandated allowances and allotments budget request is 
$56,452,000, an increase of $2,738,000 or 5.1 percent compared to 
fiscal year 2005. This variance is primarily due to an increase in 
state office security enhancements of $3,600,000, offset by decreases 
in telecommunications and state office lease costs.
    The capital investment budget request is $34,399,000, an increase 
of $20,946,000 or 155.7 percent compared to fiscal year 2005. The 
fiscal year 2006 budget request includes funds for equipment purchases 
and implementation of the replacement of the telephone system, 
$20,950,000; the multimedia equipment for the CVC, $3,700,000; 
replacement of printing production equipment, $2,712,000; CVC Senate 
Expansion Space furniture and equipment, $2,500,000; data network 
engineering, $1,346,000; CMS redesign, $1,000,000; and the Network 
Upgrade project, $971,000.
    The nondiscretionary items budget request is $3,951,000, a decrease 
of $339,000 or 7.9 percent compared to fiscal year 2005. The request 
funds three projects that support the Secretary of the Senate: contract 
maintenance for the Financial Management Information System (FMIS), 
$2,996,000; maintenance and necessary enhancements to the Legislative 
Information System (LIS), $865,000; and maintenance and enhancements to 
the Senate Payroll System, $90,000.
     attachment ii.--fiscal year 2006 budget request by department
    The following is a summary of the SAA fiscal year 2006 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year 2006 vs. Fiscal Year 2005
                                                                 -----------------------------------------------
                                                                    Fiscal      Fiscal                  Percent
                                                                   Year 2005   Year 2006    Amount     Increase/
                                                                    Budget      Request                Decrease
----------------------------------------------------------------------------------------------------------------
Capitol Division................................................     $18,636     $31,898     $13,262        71.2
Operations......................................................     $56,269     $56,507        $238         0.4
Technology Development..........................................     $37,137     $41,370      $4,233        11.4
IT Support Services.............................................     $55,343     $77,507     $22,164        40.0
Staff Offices...................................................     $10,432     $12,686      $2,254        21.6
                                                                 -----------------------------------------------
      TOTAL.....................................................    $177,817    $219,968     $42,151        23.7
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year 2006 vs. Fiscal Year 2005
                                                                 -----------------------------------------------
                                                                    Fiscal      Fiscal                  Percent
                                                                   Year 2005   Year 2006    Amount     Increase/
                                                                    Budget      Request                Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................     $12,816     $14,797      $1,981        15.5
    Expenses....................................................      $5,820      $9,801      $3,981        68.4
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $18,636     $24,598      $5,962        32.0
                                                                 ===============================================
Mandated Allowances & Allotments................................          $0      $3,600      $3,600       100.0
Capital Investment..............................................          $0      $3,700      $3,700       100.0
Nondiscretionary Items..........................................          $0          $0          $0  ..........
                                                                 -----------------------------------------------
      TOTAL.....................................................     $18,636     $31,898     $13,262        71.2
                                                                 ===============================================
Staffing........................................................         271         273           2         0.7
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, the Office of Security and Emergency Preparedness, the
  U.S. Capitol Police Operations Liaison, Post Office, Recording Studio and Media Galleries.

    The general operations and maintenance salaries budget request is 
$14,797,000, an increase of $1,981,000 or 15.5 percent. The salary 
budget increase is due to the addition of two FTEs, COLA and merit 
increases and other adjustments. The Office of Security and Emergency 
Preparedness requires an additional emergency preparedness planner, and 
the Recording Studio will add a broadcast production assistant.
    The general operations and maintenance expenses budget request is 
$9,801,000, an increase of $3,981,000 or 68.4 percent, and will 
primarily will fund security consultants and services required by the 
Office of Security and Emergency Preparedness and the United States 
Capitol Police Liaison.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,600,000.
    The capital investment budget request is $3,700,000, for the 
Recording Studio purchase of multimedia equipment for the CVC.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $14,901     $16,897      $1,996         13.4
    Expenses...................................................      $5,717      $6,026        $309          5.4
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $20,618     $22,923      $2,305         11.2
                                                                ================================================
Mandated Allowances & Allotments...............................     $28,251     $28,002       ($249)        -0.9
Capital Investment.............................................      $7,400      $5,582     ($1,818)       -24.6
Nondiscretionary Items.........................................          $0          $0          $0   ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $56,269     $56,507        $238          0.4
                                                                ================================================
Staffing.......................................................         294         302           8          2.7
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Director/Management, Parking & ID Office,
  Printing, Graphics and Direct Mail, Photo Studio, and Hair Care Services), Facilities, and the Office Support
  Services Group (Director, Customer Support, State Office Liaison, IT Request Processing and Administrative
  Services).

    The general operations and maintenance salaries budget request is 
$16,897,000, an increase of $1,996,000 or 13.4 percent. The salary 
budget increase is due to the addition of 8 FTEs. These increases will 
fund three Parking & ID Office FTEs: administrative support and two 
additional parking attendants due to the increased demands to address 
security and enforcement. Printing, Graphics & Direct Mail will add 
four FTEs: two archival technicians to prepare documents for scanning, 
one production data specialist to scan documents, and an Operations 
Manager for our primary printing facility. The Photo Studio expects to 
add one photographer.
    The general operations and maintenance expenses budget request is 
$6,026,000, an increase of $309,000 or 5.4 percent.
    The mandated allowances and allotments budget request is 
$28,002,000, a decrease of $249,000 or 0.9 percent. This decrease is 
due to projected decreases in commercial and federal office rents.
    The capital investment budget request is $5,582,000, a decrease of 
$1,818,000 or 24.6 percent. Funding is provided to replace printing and 
production equipment in $2,712,000 and furnish and equip the Senate 
Expansion Space, $2,500,000, as well as several smaller initiatives.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................     $10,470     $12,004      $1,534         14.7
    Expenses...................................................     $19,649     $22,948      $3,299         16.8
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $30,119     $34,952      $4,833         16.0
                                                                ================================================
Mandated Allowances & Allotments...............................          $0          $0          $0   ..........
Capital Investment.............................................      $2,728      $2,467       ($261)        -9.6
Nondiscretionary Items.........................................      $4,290      $3,951       ($339)        -7.9
                                                                ------------------------------------------------
      TOTAL....................................................     $37,137     $41,370      $4,233         11.4
                                                                ================================================
Staffing.......................................................         127         134           7          5.5
----------------------------------------------------------------------------------------------------------------
The Technology Development Services includes the Technology Development Director, Network Engineering and
  Management, Enterprise IT Operations, Systems Development Services, Information Systems Security and Internet/
  Intranet Services.

    The general operations and maintenance salaries budget request is 
$12,004,000, an increase of $1,534,000 or 14.7 percent. The salary 
budget increase is due to the addition of seven FTEs, an expected COLA, 
and merit funding for fiscal year 2006. Technology Development Services 
requires seven FTEs to replace more costly contract personnel and to 
eliminate a growing backlog of development projects.
    The general operations and maintenance expense budget request is 
$22,948,000, an increase of $3,299,000 or 16.8 percent. Major factors 
contributing to this increase are increased costs of expanded intrusion 
detection services and software, $1,075,000; increased costs of 
applications supporting the Office of Security and Emergency 
Preparedness, $715,000; and enhancements to the Asset Management 
System, $700,000.
    The capital investment budget request is $2,467,000, a decrease of 
$261,000 or 9.6 percent. Major on-going projects include the Data 
Network Engineering, $1,346,000, and Network Upgrade Project, $971,000.
    The nondiscretionary items budget request is $3,951,000, a decrease 
of $339,000 or 7.9 percent. The request consists of three projects that 
support the Secretary of the Senate: contract maintenance for the 
Financial Management Information System (FMIS), maintenance and 
necessary enhancements to the Legislative Information System (LIS), and 
maintenance and enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2006 vs. Fiscal Year 2005
                                                                ------------------------------------------------
                                                                   Fiscal      Fiscal                   Percent
                                                                  Year 2005   Year 2006     Amount     Increase/
                                                                   Budget      Request                 Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...................................................      $5,198      $5,819        $621         11.9
    Expenses...................................................     $21,607     $24,663      $3,056         14.1
                                                                ------------------------------------------------
      Total General Operations & Maintenance...................     $26,805     $30,482      $3,677         13.7
                                                                ================================================
Mandated Allowances & Allotments...............................     $25,463     $24,850       ($613)        -2.4
Capital Investment.............................................      $3,075     $22,175     $19,100        621.1
Nondiscretionary Items.........................................  ..........  ..........  ...........  ..........
                                                                ------------------------------------------------
      TOTAL....................................................     $55,343     $77,507     $22,164         40.0
                                                                ================================================
Staffing.......................................................          89          89  ...........  ..........
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Director, Office Equipment Services, Telecom Services and
  Desktop/LAN Support branches.

    The general operations and maintenance salaries budget request is 
$5,819,000, an increase of $621,000 or 11.9 percent. The salary budget 
increase is due to an expected 3.9 percent COLA and merit funding for 
fiscal year 2006.
    The general operations and maintenance expenses budget request is 
$24,663,000, an increase of $3,056,000 or 14.1 percent. The most 
significant factors contributing to this increase are expanded services 
and annual escalations in the IT Support Contract.
    The mandated allowances and allotments budget request is 
$24,850,000, a decrease of $613,000 or 2.4 percent. Major factors 
contributing to this budget request are voice and data communications 
for Washington D.C. and state offices, $17,937,000; procurement and 
maintenance of Members' constituent mail systems, $4,255,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $2,857,000; and Appropriations Analysis and Reporting 
System, $100,000.
    The capital investment budget request is $22,175,000, an increase 
of $19,064,000 or 315.0 percent consisting primarily of equipment 
purchases for the replacement of the Capitol Hill telephone system, 
$20,950,000. This major project will fund procurement, implementation 
and documentation, and support the replacement or upgrade of systems as 
identified in the Telecom Modernization study conducted in fiscal year 
2004 and fiscal year 2005.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year 2006 vs. Fiscal Year 2005
                                                                 -----------------------------------------------
                                                                    Fiscal      Fiscal                  Percent
                                                                   Year 2005   Year 2006    Amount     Increase/
                                                                    Budget      Request                Decrease
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries....................................................      $7,250      $8,226        $976        13.5
    Expenses....................................................      $2,932      $3,985      $1,053        35.9
                                                                 -----------------------------------------------
      Total General Operations & Maintenance....................     $10,182     $12,211      $2,029        19.9
                                                                 ===============================================
Mandated Allowances & Allotments................................  ..........  ..........  ..........  ..........
Capital Investment..............................................        $250        $475        $225        90.0
Nondiscretionary Items..........................................  ..........  ..........  ..........       100.0
                                                                 -----------------------------------------------
      TOTAL.....................................................     $10,432     $12,686      $2,254        21.6
                                                                 ===============================================
Staffing........................................................          94          95           1         1.1
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, Employee
  Assistance Program, Process Management & Innovation, and Special Projects.

    The general operations and maintenance salaries budget request is 
$8,226,000, an increase of $976,000 or 13.5 percent. The salary budget 
increase is due to the addition of one FTE, an expected 3.9 percent 
COLA, and merit funding for fiscal year 2006. Financial Management in 
Staff Offices will add one FTE to operate and maintain the document 
management and archive system for the department.
    The general operations and maintenance expenses budget request is 
$3,985,000, an increase of $1,053,000 or 35.9 percent. This increase in 
funding results from Financial Management's funding for consultant 
expenses in support of developing, documenting and maintaining adequate 
procedures and controls, and PMI's professional services and 
consultants in order to support information technology prototypes and 
innovation research and development.
    The capital investment budget request is $475,000, an increase of 
$225,000 or 90.0 percent. This increase is due to two projects: the Web 
Infrastructure Expansion and Video Conferencing Enhancements.
 united states senate information technology strategic plan 2005-2007: 
an it vision for security, customer service and teamwork at the united 
                             states senate
united states senate sergeant at arms, office of the chief information 
                                officer
    A state-of-the-art United States Senate information technology 
organization that directly supports efficient, effective, secure 
legislative action, communication, and constituent service through its 
infrastructure, processes, and talented workforce
                              introduction
    Developing a strategic information technology plan for a 
decentralized organization such as the United States Senate poses 
interesting challenges. The Senate consists of one hundred Senators 
(Members), twenty-four committees, and fourteen officers, leadership 
and support organizations, each with unique needs. Yet, the Senate must 
function as a legislative body under any circumstances. Political 
aspects also provide a unique environment for developing systems, 
solutions, and infrastructure.
    Unique Challenges and Opportunities.--Membership changes and the 
decentralized nature of the Senate result in a great variety of 
requirements. Within the context of satisfying the Members' individual 
business needs and ensuring efficient, effective, and enduring 
operation of the institutional Senate, the challenges include:
  --Developing coherent requirements and managing customer 
        expectations;
  --Providing an information infrastructure for continuity of 
        operations (COOP) and continuity of government (COG);
  --Protecting the information infrastructure from internal and 
        external threats;
  --Providing an agile, customer-focused, information technology 
        organization that is aligned with Senate business requirements;
  --Realizing economies of scale associated with ``enterprise'' 
        solutions while respecting the unique posture of each office 
        and being responsible stewards of American taxpayers' dollars;
  --Keeping the Senate ``on top'' of the rapidly-evolving ``technology 
        curve'';
  --Dealing with issues of information and data privacy and 
        confidentiality; and
  --Effective strategic planning--gaining consensus from all the 
        stakeholders.
    Though the institution is decentralized there are common business 
requirements that drive high-level functional requirements.
    A Common Business Model.--Senate offices share basic business 
goals: (1) Efficient, effective conduct of legislative business, (2) 
Representing constituents' interests, and (3) Being accessible and 
responsive to constituents. The following functional requirements 
spring from the business goals:
  --A need to be informed--ability to track (in near-real-time) current 
        events that affect constituents, the United States, and the 
        world;
  --A secure environment--ability to perform their duties in any 
        circumstances;
  --Ability to communicate among themselves;
  --Ability to communicate externally with the public and other 
        government entities;
  --Ability to operate and communicate among offices and staffs 
        (Washington D.C. and state offices) efficiently and 
        effectively; and
  --Ability to collect, organize, analyze, and present information.
    This United States Senate Information Technology Strategic Plan 
outlines strategic goals to satisfy these functional requirements and 
address challenges presented by the environment. The Office of the 
Assistant Sergeant at Arms and Chief Information Officer (CIO) is 
committed to providing world-class services and solutions and we are 
committed to pursuing innovative solutions and providing our Senate 
customers with technology choices. We are committed to working with 
other groups to erase barriers between organizations and provide 
seamless support. Finally, we are committed to working as team members 
within the larger Senate community whose stakeholders include every 
Member and Officer of the Senate as represented by their administrative 
managers, chief clerks and system administrators, with guidance from 
the Rules Committee on policies and priorities, and the Appropriations 
Committee on funding.
                                 vision
    A state-of-the-art United States Senate information technology 
organization that directly supports efficient, effective, secure 
legislative action, communication, and constituent service through its 
infrastructure, processes, and talented workforce.
                                mission
    Leverage technology so the United States Senate can function 
efficiently and effectively under any circumstances to serve the 
American people. Develop a technology team consisting of SAA, Member/
Committee office staffs, and other Senate Officers' staffs to provide 
technology options, solutions, and world-class customer service 
enabling the United States Senate to accomplish its mission.
                              core values
    Personal attributes expected of every CIO employee:
    Integrity.--``Service Before Self.'' Each of us serves something 
far greater than ourselves. To our nation, we represent the Senate. We 
will faithfully execute the duties and responsibilities entrusted to us 
and we will maintain the highest ethical and professional standards.
    Customer Relationship Focus.--``Customer Care, Top-to-Bottom.'' 
Each of us, regardless of our job title or function in the CIO 
organization, is a customer care specialist first. To best serve our 
customers, when they call for help, we will: Own the problem; work the 
problem; and follow up to ensure their complete satisfaction.
    Organizational Excellence.--``Relentless Pursuit.'' In everything 
we do, we will relentlessly pursue excellence: Every task--respecting 
our customers; building our team--respecting one another; delivering 
solutions; and representing the Senate.
                           guiding principles
    People First.--We will take care of our people. We will strive to 
recruit, retain, and develop top talent. Mutual respect and teamwork 
will be the norm in a friendly workplace where everyone is valued as an 
individual.
    One Team.--We will develop solutions, introduce technologies, and 
attack problems leveraging the best talent from across our 
organization. We will work in concert with the larger Senate 
information technology community including every Member and Officer of 
the Senate as represented by their administrative managers, chief 
clerks and system administrators, with guidance from the Rules 
Committee and the Appropriations Committee.
    Accountable.--We will measure our performance and solicit feedback 
from our customers. We will analyze results, compile lessons learned, 
and incorporate industry and government best-practices to enhance 
performance. We will communicate progress to our customers, operate as 
transparently as possible, and routinely measure our effectiveness.
    Relationships with Customers.--We will know our customers through 
meaningful relationships. We will strive to know and act on their needs 
even before they call on us. We will develop these relationships by 
continual, varied communication and by building bridges to each of 
them.
    Right Tools for the Job.--We will never seek to apply technology 
for technology's sake. Systems we build, solutions we deliver, and 
vendors we select will be directly tied to the business needs of the 
Members, Committees, and Officers of the United States Senate.
    ``Always-On'' Senate.--We will provide technologies, solutions, and 
infrastructures that will enable continuous Senate operations wherever 
and whenever needed.
    Innovate.--We will introduce and apply new concepts and creative 
approaches to meet the challenges of the present and anticipate the 
needs of the future. We will support innovation, agility, and a culture 
of rapid prototyping to identify and deliver viable solutions quickly. 
Above all, we will always strive for improvement.
                          goals and objectives
Secure
    Strategic Goal 1: A secure Senate information infrastructure.--
Provide a secure information infrastructure that protects Members, 
Committees, and Officers' data, respects their privacy, enables 
continuous Senate operations, and supports continuity of operations 
(COOP) and continuity of government (COG). Identify and understand 
threats, assess vulnerabilities, identify failure points and 
bottlenecks and determine potential impacts and remedy them before they 
adversely impact operations. Work as a team with system administrators, 
information technology staffs, security staffs, and training 
organizations to increase vigilance and awareness and be proactive in 
thwarting threats to the Senate information infrastructure.
            Supporting Objectives:
    Objective 1.1: Vigilance, awareness, education--know our systems' 
vulnerabilities and potential threats and work to educate and inform 
Senate system administration and information technology staffs on how 
to avoid them.
    Objective 1.2: Emergency preparedness--be prepared to support any 
and all Senate continuity of operations plans (COOP) and continuity of 
government (COG) plans. Deploy an information infrastructure that is 
flexible and agile enough to respond to adverse events.
    Objective 1.3: Detect threats, defend (defense-in-depth), preempt 
when possible.
Customer Service Focused
    Strategic Goal 2: ``Customer Service Culture'' top-to-bottom.--
Everyone on the CIO team is focused on providing excellent service and 
achieving customer satisfaction in everything we do: introducing new 
technologies, providing support, developing systems, streamlining 
processes, and day-to-day interactions.
            Supporting Objectives:
    Objective 2.1: Develop and nurture an agile CIO team with the 
skills, capabilities, and drive to provide excellent customer service.
    Objective 2.2: Develop and execute a customer care process 
including communications processes, goals, an annual customer 
satisfaction survey, CIO staff training, and a customer satisfaction 
action plan.
    Objective 2.3: Implement systems and solutions focused on 
supporting Senate Members', Committees', and Officers' ability to serve 
their constituents.
Effective
    Strategic Goal 3: Information technology solutions driven by 
business requirement.--In addition to always striving to be more 
efficient (streamlining processes, more output per unit time) and 
continuously searching for ways to be more effective (discovering new 
ways to satisfy requirements, leveraging technology to enable Members, 
Committees, and Officers to expand or enhance their missions and 
capability), the CIO organization will establish information technology 
solutions to enable legislative processes: collaboration, 
communications, and information access.
            Supporting Objectives:
    Objective 3.1: Move business to the web.
    Objective 3.2: A prototyping culture throughout the CIO 
organization.
    Objective 3.3: Modern business processes driven by Senate business 
requirements.
Accessible, Flexible & Reliable
    Strategic Goal 4: Access to mission-critical information anywhere, 
anytime, under any circumstances.--Eliminate bottlenecks and potential 
failure points. Monitor, track, insure system performance and quality 
of service.
            Supporting Objectives:
    Objective 4.1: Reliable state-of-the-art, high-bandwidth wired 
infrastructure supporting Washington D.C. campus, alternate and 
relocation sites, and state offices.
    Objective 4.2: Develop, implement, and operate a comprehensive 
Senate wireless infrastructure.
    Objective 4.3: Telecommunications modernization--a new 
telecommunications infrastructure built on convergence technologies.
    Objective 4.4: All critical data and processing facilities 
replicated and backed up at alternate computing facilities.
    Objective 4.5: Secure remote access capabilities to allow Members, 
Committees, and Officers access to their information resources from any 
location through a variety of secure and reliable devices.
Modern
    Strategic Goal 5: A state-of-the-art information infrastructure 
built on modern, proven technologies.--Keep the Senate on top of the 
``technology curve'' by seeking, testing, and employing leading-edge 
technologies and solutions to help the Senate accomplish its mission. 
On-going investigation and evaluation of new and emerging technologies 
and innovation to provide Members, Committees, and Officers solution 
choices and flexibility within a framework based on Senate business 
requirements and industry best practices.
            Supporting Objectives:
    Objective 5.1: Tie capabilities and solutions to Senate business 
requirements. Through effective two-way communication with Member, 
Committee, and Officer Staffs, identify Senate business needs 
(requirements) that can be met better with technology.
    Objective 5.2: Capabilities, solutions, choices within standards 
coordinated with the Rules and Appropriations Committees.
    Objective 5.3: Architecture, technology roadmap with focus on 
emerging technologies.
    Objective 5.4: An effective new technology infusion process that 
gets modern solutions in the hands of our customers quickly.
                            cio organization
    The CIO is an Assistant Sergeant at Arms (ASAA) charged with 
providing technology vision and leadership for the United States 
Senate. The CIO organization, with approximately 250 full-time Senate 
employees and supplemented by about the same number of contractors 
builds, operates, and supports the Senate's information infrastructure. 
The CIO is also responsible for information security, technology 
infusion, and information technology and office equipment help desk 
functions.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CIO Organizational Structure.--The CIO organization consists of 
three departments--Process Management & Innovation, Technology 
Development Services, and Information Technology Support Services. 
Autonomous from the CIO organization, but critical to its success, are 
the Customer Support Analyst and Technical Training organizations. The 
customer support analysts (CSA) serve as the interface between the 
Sergeant at Arms (SAA) and the Senate (customer) community. CSAs 
translate office requirements to the CIO organization for 
implementation and they ``market'' the CIO organizations' products and 
solutions to the offices. Technical trainers support every CIO 
initiative with focused customer training. They also provide technical 
training and resources to enhance the skills and competencies of the 
CIO organization.
    CIO Functional Structure.--The CIO organization functions as three 
centers of excellence--Innovation, Integration, and Development and 
Support. Systems and solutions pass through a virtual pipeline of these 
functions taking them from concept/idea/proposal to fielded, fully-
supported, operational system. A key component is constant customer 
input and feedback at every stage of the pipeline.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This functional organization approximates the classic system 
development life cycle (SDLC) approach for fielding solutions. 
Technology exploration (rapid prototyping, rapid application 
development, product testing) and new technology infusion occur in the 
Innovation and Integration centers and system development, operation, 
and maintenance (full-scale development) occur in the Development/
Support Centers.
    Agility and Teamwork.--The CIO organization has immense and varied 
talents. To foster innovation and respond to our customers faster we 
will apply those talents and capabilities whenever, and wherever, 
needed. Simply put--the CIO organization will be flexible and agile and 
we will deploy cross-functional teams to address customer requirements. 
Our planning, technology infusion and testing processes, development 
approaches, and responses to unforeseen events will feature teams of 
individuals from some or all our departments working in concert with 
our customers. We will be visible and accessible to our customers. This 
plan features strategic goals and objectives to these ends.
                             implementation
    Aligned With Sergeant at Arms' Priorities.--This two-year, rolling 
United States Senate Information Technology Strategic Plan focuses on 
systems and solutions to directly support the SAA's priorities--
leveraging modern technology to: Ensure the Senate is as secure as 
possible and prepared for an emergency; and provide outstanding 
customer service and support.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Why a Two-Year Rolling Plan.--A prime objective is to field and 
operate a modern, state-of-the-art, information infrastructure. To keep 
pace with technology change and innovation, the plan will be reviewed 
and rewritten annually. Subordinate to this plan are the tactical plans 
and activities that accomplish the goals and objectives set forth here.
    Developing the Plan is a Team Effort.--No strategy for the United 
States Senate can be developed in a vacuum. The entire Senate 
technology team including the Rules Committee, Assistant Sergeants at 
Arms, Appropriations Committee, Secretary of the Senate, and office 
information technology staffs must be actively involved. The initial 
draft of the United States Senate Information Technology Strategic Plan 
will be prepared by the CIO organization in concert with the Rules 
Committee. The completed working draft will then be coordinated and 
validated with the other Assistant Sergeants at Arms and then with the 
office information technology staffs (Chiefs of Staff, Administrative 
Managers, System Administrators) and the Majority Leader's Information 
Technology Working Group. In keeping with a spirit of innovation, this 
activity will be accomplished on-line in a strategic planning 
collaboration area. The final plan will be approved by the Sergeant at 
Arms and will serve as the basis for budget construction and testimony 
before the Appropriations Committee.
    Relationship to Other Plans.--The United States Senate Information 
Technology Strategic Plan reflects the priorities, guidance, and 
directives of the Sergeant at Arms, the Rules Committee, and other 
Senate leadership entities. The strategic goals and objectives herein 
must directly reflect the priorities and business requirements of the 
United States Senate. Similarly, subordinate plans must reflect these 
strategic priorities. All tactical plans, budget requests, enterprise 
architectures, and technology roadmaps must be directly attributable to 
the strategies and objectives laid out here.
                         measuring performance
    The only way to know if we are satisfying our customers is to ask 
them. Accordingly, the CIO organization has a multi-level approach to 
evaluation. We constantly measure performance, assess effectiveness, 
and check to ensure our efforts are aligned with business needs and 
requirements of our customers. We also validate the Senate's technology 
base against industry and government best practices and standards. The 
most frequent and important opportunities to gauge perceptions occur in 
the countless daily service calls, requirements meetings, and casual 
conversations. We view each of these as an opportunity for constructive 
feedback and will aggressively solicit such feedback.
    We Will Fight for Feedback.--Service calls are followed by a 
customer satisfaction survey. These results are tracked and service 
level agreement (SLA) trends evaluated. We discuss results in weekly 
business process and technology review meetings attended by CIO staff, 
CIO support contractors, and customers. Performance against SLAs is one 
method to determine effectiveness of CIO contractors and staff. We also 
solicit customer feedback through an ongoing regular series of 
quarterly project review meetings and daily, weekly, and monthly system 
status reporting. Strategic goals, set forth in this plan, include 
leveraging technologies such as web-based performance reporting to make 
our operations transparent to our customers and provide them 
opportunities for feedback.
    We Will Continuously Self-Evaluate.-- . . . against industry and 
government benchmarks and best practices. We will continue to document 
the Senate's technology position, relative to the state-of-the-art, in 
the United States Senate Technology Level Matrix and validate it with 
leading industry consultants.
    The Annual Customer Satisfaction Survey.--The CIO organization was 
created in June 2003. One of the first actions of the CIO was to 
develop and administer a customer satisfaction survey to baseline the 
organization's performance for future evaluation. The first CIO Annual 
Customer Satisfaction Survey was administered by the CSA organization 
during the fall of 2003 and culminated in the development of a customer 
satisfaction action plan for 2004. The action plan featured the 
following initiatives:
  --Developing and projecting a culture of excellence;
  --One team
    --Everybody in the CIO organization puts customer service first
    --Everybody in the CIO organization accountable for customer 
            service
    --Cooperation and collaboration with the larger Senate information 
            technology community (Rules Committee, Appropriations 
            Committee, Member and Committee office staffs, Secretary of 
            the Senate)
    --Outreach--establishing enduring relationships (``building 
            bridges'');
  --Renewed focus on emerging technologies and innovation; and
  --Developing an agile CIO organization.
    The customer service action plan was executed and the 2004 survey 
completed in October 2004 with the results indicated in the chart 
below:
    Evaluation and Accountability.--Everyone in the organization, 
starting with the CIO, is first and foremost a customer service 
provider. The organization exists solely to deliver excellent products 
and services to the United States Senate to allow the Members to serve 
their customers--American citizens. Accordingly, every member of the 
CIO organization has a common customer service metric written into 
their performance objectives. The fact that there is a common 
organizational metric drives everyone toward the same goal and fosters 
teamwork. The common metric is decided annually by the CIO management 
team based on the results of the previous Annual Customer Satisfaction 
Survey and the desired improvements for the upcoming year.
    Working the Plan.--All of the evaluation tools described here will 
provide input and direction during the annual re-write of this plan. 
Through continuous program assessment and evaluation we will identify 
gaps formed by developing issues and changing circumstances. We will 
refine performance goals based on measures of effectiveness.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             communication
    Communication is the single most important aspect of our success. 
Effective communication forms the bedrock of all the central themes 
presented here--security, customer service, and teamwork. This 
strategic plan is the result of months of intense two-way communication 
with Senate stakeholders, industry leaders, and technology and business 
leaders in other federal government organizations.
    Through credible and effective communication across the Senate 
community, we will seek to understand and address important issues and 
evolving requirements to satisfy their information technology needs. 
With testimony, reports, briefings, newsletters, working groups, 
notices, and information sessions we will inform the Senate community 
of our progress in fulfilling their requirements.

    Senator Allard. My thought is we will go ahead and I will 
ask you some questions pertinent to your testimony, and we will 
follow this after each panel. After the panel has made its 
presentation, we will open it up for questions from the 
subcommittee.

                       TELEPHONE SYSTEMS UPGRADE

    You wrapped up your discussion on the telephone system, and 
I want to start off with some questions on the telephone 
system, because that is where your budget request is most 
costly.
    Mr. Pickle. Sure.
    Senator Allard. I understand we have had it for 20 years. 
There have been a lot of technological changes since then. But 
in view of a tight budget year like we could be facing this 
year, do you think that this is a project that could be 
deferred for another 2 years and still provide the same level 
of service that we are receiving right now?
    Mr. Pickle. I think you would continue to get the same 
service. It would not be state of the art. The longer we wait, 
the greater will be the cost to implement this new system. It 
is compounded by the fact that our contract with the carrier 
that we use expires in 2006.
    Now currently we have some leverage, because we have been 
involved in a very lengthy contract. We would like to leverage 
our position when we negotiate a new contract for services and 
equipment.
    I have talked to our CIO. We can perhaps do some of this 
incrementally, and we could put some of the costs off over the 
years. But we will suffer somewhat and we will fall behind 
technology.
    Senator Allard. Can this be phased in in a way that we 
gradually upgrade the system over time, so that we do not have 
the impact all in the 2006 budget?
    Mr. Pickle. Yes. I think the project will last more than 1 
year. And from that standpoint, the funding could be spread 
out. It just depends upon how we obligate the money and what 
the requirements are from the contractual arrangements we have 
with the vendors.

                      VOICE-OVER INTERNET PROTOCOL

    Senator Allard. I know that some businesses have looked at 
voice-over Internet protocol----
    Mr. Pickle. Yes.
    Senator Allard [continuing]. And are very pleased about the 
way it has operated in the business. Now these are small 
businesses.
    Mr. Pickle. That is true.
    Senator Allard. The report I am getting back, they are 
pleased with the system. But it is resisted by the telephone 
companies, and as a result of that, they have had directory 
problems with the telephone companies, and it put them in an 
adversarial relationship with the telephone company.
    Have you taken a look at this new technology? With what I 
see happening in small businesses, is that something that we 
should consider here, considering the huge cost savings, the 
potential that is there?
    Mr. Pickle. Yes.
    Senator Allard [continuing]. Does it need some more proving 
before we wade into that? Maybe if we wait 1 or 2 years it will 
begin to prove itself a little more.
    Mr. Pickle. Sure. We are looking at it. And we realize it 
is new. And it is going to be part of the architecture for our 
new telecommunications system. I do not know, the degree or the 
extent that it plays in our ability to integrate into our 
communication systems. I know there are some obvious 
advantages.
    Senator Allard. Yes.
    Mr. Pickle. We think it is going to be less expensive for 
us. It gives the Senate offices and the staff here a 
flexibility that they currently do not have. And what I mean by 
that is it takes away the need to contact the SAA folks in many 
cases to transfer calls and to transfer services.
    It has a lot of advantages. I think you are right. I do not 
think anyone knows what the final outcome will be, but we want 
to use this, or have this as an alternative. Certainly, 
initially, we want to take some very measured steps, and baby 
steps, if you will.
    Senator Allard. Well, I am pleased that you are looking at 
it, because that is the new technology out there.
    Mr. Pickle. Oh, it is.
    Senator Allard. And I think it has some potential for us. 
So I am pleased to hear that you have looked at that.

               STAFFING INCREASE FOR THE SERGEANT AT ARMS

    I want to talk a little bit about your staffing increase. 
You have requested 18 additional staff. Now your staffing has 
been increasing, I understand, rather steadily for the last 5 
years, 138 FTEs or 18 percent since around 9/11. Why do you 
need those increases?
    Mr. Pickle. The 18 positions, most of these positions are 
tied to security or technology. A couple of them are tied to 
replacing more costly contract employees that we have. Can we 
re-prioritize and revisit these? Absolutely, we can. Perhaps we 
can re-juggle some of what we are doing.
    But in regard to security and technology, those are pretty 
tough not to replace right now because our role, as you know, 
is going to expand considerably, not only with the alternate 
computing facility, which we have, but also the Capitol Visitor 
Center (CVC), when it comes on line. So those positions are in 
anticipation of supporting in great part, what is going to take 
place over the next year or so.

              CAPITOL VISITOR CENTER EQUIPMENT FURNISHING

    Senator Allard. Okay. Now on the CVC equipment furnishing, 
your budget includes $6.2 million for equipping the Capitol 
Visitor Center, and then providing the furnishings. Now given 
the continued schedule slippage with this project, and a 
probable opening date of fiscal year 2007, I know that they 
wanted to have the construction part by September of next year, 
which hopefully we can make that. But from a practical 
standpoint, it does not look to me like we are going to be in 
the building and operating until 2007. Is this something that 
can be deferred if that slippage continues?
    Mr. Pickle. I think if the slippage continues into the 
latter part of fiscal year 2007, we have some flexibility with 
the $3.7 million or $3.6 million for the Senate Recording 
Studio. There also may be some flexibility, if it goes that 
far, in regard to the furnishings and the equipment for 
facilities and environmental folks.
    I believe the measurement tool they use here is we need 9 
month's leeway. We have to have obligated the funds and start 
down the road 9 months before we open. And that is probably 
the----
    Senator Allard. Okay.
    Mr. Pickle. I know the date keeps slipping. So if we open 
in the summer of 2007, we would need the funds----
    Senator Allard. This year.
    Mr. Pickle. If we open in the summer or fall of 2007, we 
would need the funds in the very early part of the year.

   DISCUSSION ON ADDITIONAL FUNDING FOR CURRENT TECHNOLOGY ALTERNATE 
                           COMPUTING FACILITY

    Now the increase in the use of technology in the Senate has 
had a significant impact on your budget over the years. Do you 
expect this will level off or continue to trend upward in the 
future?
    Mr. Pickle. I think that technology is changing so quickly. 
And we can never----
    Senator Allard. It is.
    Mr. Pickle. It is difficult to stay current. We realize 
that. But we make the best investment we can, given the most 
proven technology out there.
    Our technology costs will continue to grow somewhat because 
of the alternate computing facility (ACF). As you know, that is 
a first-rate facility.
    There will be some increased expenditures in the future 
years there for a number of reasons. Also, the CVC will add 
some costs because you have the communications costs, with 
wiring and other installations that are required, and you have 
the support personnel who will be needed to support these two 
functions or these two sites. With the CVC adding about 38 
percent more square footage to the Senate space, the need to 
support that 38 percent more square footage is going to cause 
some additional increases on our part.

                        UPGRADING PRINTING PRESS

    Senator Allard. Okay. I want to go to your printing press. 
How old is your current press and what improvements will a new 
press bring with that?
    Mr. Pickle. The press that we are requesting to replace in 
this budget is 17 years old. It is an outdated press. It is one 
that only prints in two colors, and the Senate demands more 
than red and black or black and blue. So we will have a 
combination of four colors with the new one if we buy it.
    But more importantly, the current press, I understand it is 
a very labor-intensive process. And when you look at the number 
of copies that this particular press and office print, it is 
pretty phenomenal. In 2004, I believe the number was somewhere 
around 19 million color copies that this office printed. This 
was about a 166 percent increase from the prior year, and we 
anticipate a very large increase this year. The demand for 
color print is certainly going up. So it is a good investment.
    Senator Allard. A lot of technology has changed in 17 
years. I would think that you could find some printing systems 
out there where it would be less labor-intensive.
    Mr. Pickle. Absolutely. And I think this is one that we are 
looking at that would accomplish that.

             UPGRADING MAIL PROCESSING FACILITY AND PACKING

    Senator Allard. On your mail processing facility, you are 
looking for a new processing facility, I understand.
    Mr. Pickle. Yes.
    Senator Allard. And this would enable you to process your 
packages as well as your regular mail. According to your 
testimony, you anticipate that will save us about $250,000 
annually, is that correct?
    Mr. Pickle. I think it will. Yes.
    Senator Allard. And how will those savings be achieved?
    Mr. Pickle. Let me take a step back, if I can, for a 
second.
    Senator Allard. Sure.
    Mr. Pickle. Mail processing at the Senate postal facility 
where we open, screen, and examine mail, is done by Senate 
employees. And we estimate that we can do it for $3 million 
less than our counterparts in the House. This is because we use 
Senate employees, and it is just a better way to do business.
    We currently use a contractor to process the packages, as 
does the House. We have found that the quality of their 
service, while good, many times is not the best. There have 
been some pretty serious failures. We believe that by using 
current Senate employees, about two or three of whom we can 
shift over to the package processing function, we will save 
that huge contract price that we pay out to this vendor.
    Now we do a lot of outsourcing, as you know. And we are all 
for outsourcing. But this is one outsourcing, because of its 
nature both in cost and in security, where we can do better.
    Senator Allard. I am aware that in our ports of entries and 
our major shipping points, lots of times you use gamma and X 
radiation to determine what is in the package. And usually we 
are talking about large shipments that come in. Do we have 
anything like that that we are using here that would move 
things along quicker and maybe reduce labor retention?
    Mr. Pickle. Yes.
    Senator Allard. We do not want to get too much into 
technology where we would tip off people what we are doing.
    Mr. Pickle. Absolutely, sir.
    Senator Allard. My question is: Are we up to standard on 
that?
    Mr. Pickle. We are up to standard. And I would say in 
regards to both packaging and mail that we are state of the art 
in the Senate.

                         WAREHOUSE CONSTRUCTION

    Senator Allard. Okay. Thank you. Just to follow-up here on 
the warehouse, we had extra money in there in fiscal year 2004, 
I understand, and then also in 2005, which is this year. How is 
that coming along and what is the status on that now?
    Mr. Pickle. It is coming along well. We should complete the 
construction of the warehouse by the fall of this year. And we 
hope to be in there shortly thereafter. It is a good investment 
for the Senate.
    As you know, it replaces about five different warehouses, 
which are dispersed throughout this area. And this is a first-
rate, climate controlled warehouse, which is going to be a cost 
savings to us in the out-years.
    Senator Allard. Okay. All right. Let us go ahead and we 
will call this panel's discussion to a close and we will go 
into the next panel.
                          CAPITOL POLICE BOARD

STATEMENT OF HON. WILLIAM H. PICKLE, CHAIRMAN
ACCOMPANIED BY:
        TERRANCE W. GAINER, CHIEF OF POLICE, UNITED STATES CAPITOL 
            POLICE
        HON. W. WILSON LIVINGOOD, HOUSE SERGEANT AT ARMS
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL

                  OPENING STATEMENT OF SENATOR ALLARD

    Senator Allard. And on the next panel we are going to have 
the Capitol Police Board. And so we will have Mr. Pickle, Mr. 
Hantman, Mr. Livingood, and Mr. Gainer. Who is going to give us 
the testimony on this particular panel? Mr. Pickle again?
    Mr. Pickle. I have just a few remarks and then the Chief is 
taking it, sir.
    Senator Allard. Okay. Very good. Proceed, Mr. Pickle.

                     STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. Mr. Chairman, as you indicated, I am joined by 
the Capitol Police Board and Chief of Police, Terrance Gainer. 
The other Board members are Mr. Bill Livingood, the House 
Sergeant at Arms, to my left, and Mr. Alan Hantman, the 
Architect of the Capitol, to my right. And I know you know 
these gentlemen.
    Senator Allard. Yes.
    Mr. Pickle. We, the Board, are very pleased to be here with 
the Chief today and support him on his budget request. I think 
as you step back and look at what this department has 
accomplished, we all find it to be a very remarkable 
department. It is a department that, because of this 
subcommittee in particular, and I mean this subcommittee, it 
has grown and become one of the most professional and one of 
the best departments in this country.
    When you look where this department was 5 years ago, or 
even 4 years ago, and you look where it is today in terms of 
recruitment, retention, training, and the ability to do a very, 
very difficult job in a very complex period of time, they have 
done a great job.
    What makes their job so difficult here on the Hill is this 
department is unlike any other police department in the 
country. We demand that they provide security and protect the 
30,000 people who work here each day on the Hill. We demand 
that they protect the hundreds of thousands of visitors and 
tourists who come here daily; and at the same time, we demand 
that they keep this campus open so that the people's House can 
be enjoyed by all. Nowhere is there such a contradiction in 
this country, and they do such a great job.
    Now many people look at this department and say, ``My gosh, 
it is one of the largest departments in the country.'' Well, 
there is a reason for it. This is also the number one or number 
two target in this country for terrorists. And it is also one 
of the most visited spots in this country.
    We demand so much of them and they do so much for us. As 
you know, the anthrax and ricin attacks and more recently, when 
we were orange alert for the Nation last August, through the 
election, we worked this department 7 days a week, 24 hours a 
day. Many officers had no days off. It cost an awful lot of 
money. And we wish we could find a way to bridge the gap 
between too much and too little security here.

                           PREPARED STATEMENT

    But we have a great deal of confidence in this Chief. We 
support his budget request, and we hope that we can answer some 
of your questions today that will give you and the subcommittee 
confidence that we are spending your dollars wisely. Thank you.
    Senator Allard. Well, very good.
    [The statement follows:]

                Prepared Statement of William H. Pickle

    Mr. Chairman and members of the Committee, we are honored 
to appear before you to discuss the fiscal year 2006 budget 
request for the United States Capitol Police. With me today are 
the other members of the U.S. Capitol Police Board, Mr. Bill 
Livingood, House Sergeant at Arms, Mr. Alan Hantman, Architect 
of the Capitol, and Terrance Gainer, Chief of Police.
    We appreciate this opportunity to present and discuss the 
issues and challenges behind the Capitol Police fiscal year 
2006 budget request. I would like to share, by way of topical 
introduction, some of my observations regarding police overtime 
and staffing levels, and current campus security needs and 
concerns.
    But before I move on to this background information, I 
would like to thank the men and women of the Capitol Police for 
their leadership in coordinating the many organizations, people 
and resources necessary to effect a very successful 2005 
Presidential Inauguration. The Capitol Police, and I say this 
with a depth of gratitude, has a deep bench of seasoned 
Inaugural veterans, skillful crowd managers, and experienced 
officers degreed in patience and diplomacy, who gave this 
Nation a very successful and noteworthy Inauguration. Without 
exaggeration, it is fair to say, the world was watching and 
wondering, with some modicum of anxiety, if some attempted 
disruption might befall the United States' first Presidential 
Inauguration since the September 11 attack. The Capitol Police 
executed well their responsibilities and, without drawing 
attention from the event, allowed the Nation's most celebrated 
tradition of peaceful, democratic government to go off without 
a hitch. Congratulations to the Capitol Police for a job well 
done!
    I have a great respect and admiration for the men and women 
of the Capitol Police. As opportunity permits, I engage the 
officers in conversation and listen to their thoughts. I gladly 
report to you that they have an unmistakable dedication and 
love of country; they are devoted, proud, and dedicated to the 
business of protecting Congress. Many acknowledge it an honor 
to protect, serve, and welcome the Nation's citizenry, who come 
to participate in legislative business, witness the workings of 
democracy, and partake in the history that is this Nation's 
Capitol. These officers are enthusiastic owners of their 
responsibilities, even with the weight of a challenging work 
environment requiring rotating schedules, long hours, and a 
steeled endurance to brave the elements.
    As Chief Gainer's testimony outlines, the Capitol Police 
have assumed, and will continue to be asked to shoulder, 
additional responsibilities. Overtime will continue to be 
needed to meet general campus security and protection 
responsibilities, including the 1st Street NE closure and 
random vehicle inspections, and will be further impacted by the 
CVC opening. And, while the dedicated members of the Capitol 
Police have responded in the past by working overtime when 
needed, we need to ensure we do not overextend these officers.
    Additionally, long duty tours can reduce officer training 
opportunities. Abbreviated training creates a position, where 
officer skills atrophy, endangering the lives of the officers, 
congressional community, and visitors. Hiring sufficient 
numbers of officers, commensurate with the responsibilities 
charged to the Capitol Police, will help us retain a robust, 
healthful, vigorous, and well-trained police force, and avoid 
the risks of atrophied skills.
    The security levels of the Capitol campus are necessary; 
they must be sustained; we must remain vigilant; and we cannot 
let our guard down. Managing the unexpected by preparing and 
guarding against vehicle improvised explosives and suicide 
bombers is a valid mission. There is enough concern to warrant 
our high level of vigilance, and we should not take luxury with 
human life by waiting and reacting to an event. CIA Director, 
Porter J. Goss in February told the Senate Select Committee on 
Intelligence, ``It may be only a matter of time before al Qaeda 
or another group attempts to use chemical, biological, 
radiological and nuclear weapons.'' In the same session, FBI 
Director, Robert S. Mueller III raised concerns about ``al 
Qaeda sleeper cells'' and ``directed efforts this year to 
infiltrate covert operatives into the United States'' as well 
as a ``clear intention to obtain and ultimately use some form 
of chemical, biological, radiological and nuclear or high-
energy explosives material in its attacks against America.''
    The choice we have today is whether Congress is better 
served with officers stretched thin using overtime or by hiring 
additional officers to meet security, protection, vigilance, 
and deterrence levels needed to keep the campus from harm. I 
must strongly recommend, and the Capitol Police Board supports, 
the hiring of additional officers. We have a duty to protect 
human life on this campus, and we have a moral and ethical 
responsibility, in light of current threat levels, to maintain 
a high posture of security.
    The Capitol Police Board has reviewed the fiscal year 2006 
budget and we ask your support for full funding, which will 
provide for the maintenance and operation of all the 
improvements and capabilities funded in recent years. The 
Capitol Police force has been transformed in recent years. It 
is stronger, more responsive, capable, accountable, and 
reliable and better able to serve Congress. We ask your support 
to sustain these improvements throughout the next year and help 
ensure that we do not ask our officers to work unreasonable 
overtime or be denied leave or training opportunities.
    Chief Gainer will address more specific operations and 
plans for the coming fiscal year. I thank you for your time and 
your consideration and am happy to answer any questions.

    Senator Allard. Go ahead, Mr. Gainer.

                 STATEMENT OF CHIEF TERRANCE W. GAINER

    Chief Gainer. Thank you, Mr. Chairman, and members of the 
subcommittee. We appreciate the support that you have given the 
United States Capitol Police. Really, on behalf of all the 
members of this department I would like to acknowledge that 
support.
    We do understand our responsibilities and we do understand 
the limited dollars available. I would like to submit my 
written testimony for the record and just share a few thoughts 
with you now before we answer any questions.
    Senator Allard. We will put in the record the full 
testimony from both you and Mr. Pickle.
    Chief Gainer. Thank you, sir. Mr. Pickle mentioned a couple 
of things we have done. I would just like to put into context 
what has happened in the past 12 months since we sat before 
this subcommittee.
    We did have the ricin attack and we handled it quite 
nicely, and opened the buildings very quickly after that. We 
handled the Reagan state funeral and screened 100,000 visitors 
in 24 hours. We instantly set up a system to inventory people's 
property as they came in, because they were not permitted to 
bring it in the Capitol. This was done on the spur of the 
moment by a group of very dedicated civilian and sworn 
officers.
    We have supported the State of the Union address. We lent 
our support to the two political conventions, where we had 
significant personnel up there, as well as the 2005 
Inauguration. And as Mr. Pickle said, we stood at code orange 
alert through August, September, October, November, and 
December. And over the past year we have screened some 9.5 
million people, a 30 percent increase over what we did the year 
before.
    Since January, for instance, we have now gone to our Tiger 
Teams, and unlike what we were doing earlier in the summer, 
where we were out there every single day at every single 
intersection--14 intersections. We now hit a couple of 
different intersections or places.
    We have screened some 233,000 vehicles; 7,000 of those, 
interestingly enough, are vehicles that we thought needed 
further investigation. We conducted further investigation of 
those 7,000 vehicles resulting in 224 vehicles being denied 
access and 224 vehicles that potentially could have brought 
some harm to us.
    Our officers have conducted 2,700 bomb searches. We have 
called out our HAZMAT Material Response Team some 300 times. We 
have conducted 3,000 special events and dignitary visits. We 
presented to the U.S. attorney 600 cases for their prosecution, 
with nearly a 98 percent approval rating by the U.S. attorney's 
office.
    And this is what we know: we know that terror attacks have 
tripled across the globe, as it is reported this morning. We 
know that terrorists are patient and Americans are not. We know 
terrorists use surveillance techniques. We know that terrorists 
plan ahead and come back to places they have not gotten before.
    We are very, very well aware of what goes on in the area of 
improvised explosive devices, vehicle-borne improvised 
explosive devices and combinations of attacks, and we have 
tried to position our forces to prevent these attacks. And as 
Mr. Pickle indicated, at the same time, we have a very open 
campus for these approximately 9.5 million people.
    The thing that we do not know, and this has been testified 
to numerous times up on the Hill by the head of all the Federal 
agencies, and the CIA, FBI, Homeland Security, is where or when 
an attack might occur, or if, in fact, there are terrorist 
cells in the United States.

                           PREPARED STATEMENT

    We have a mission. We understand our mission. We have a 
vision. We understand our vision. And we have a strategy to get 
there. I would be very happy to try to answer any of your 
questions, sir.
    Senator Allard. Well, thank you very much.
    [The statement follows:]
                Prepared Statement of Terrance W. Gainer
    Mr. Chairman, thank you for the opportunity to appear before the 
Appropriations Committee today.
    I would like to first put some context into our budget request, 
which we recognize is a substantial increase over last year's budget. 
The fight against terrorism led by the United States and its coalition 
partners continues. We know through intelligence reports that 
terrorists have stated their intent to strike another blow on America, 
and we also know that the Capitol and all it stands for is clearly one 
of their targets. We must not let that fact slip from our minds as we 
continue further--albeit safely--away from September 11, 2001. As the 
foremost symbol of democracy, the Congress, its Members, employees, 
visitors, as well as public buildings and operations are a highly 
visible target for individuals and organizations intent on causing harm 
to the United States and disrupting the legislative operations of our 
government. Law enforcement genuinely believes it really is not a 
question of if--rather a question of when we could expect a strike. We 
are the first line of defense and we take our jobs seriously as we put 
our lives on the line each day that we come to work.
    The United States Capitol Police request a fiscal year 2006 
appropriation of $290.1 million, which is $59.7 million greater than 
the fiscal year 2005 appropriation. The Salaries portion of the request 
is $230.2 million to support 2,125 employees including 1,714 police 
officers (122 new officers) and 411 civilian positions supporting 
security, emergency response, technical, professional, and 
administrative functions. The total salaries increase is $28.4 million 
and is a result of three areas: mandatory increases of $15.9 million 
for cost-of-living allowances, health benefits, within-grades, 
promotions, and other benefits, an additional overtime requirement of 
$8.5 million for operational responsibilities, and new salaries of $4 
million to support 122 new police officers.
    The General Expense portion of the request is $59.9 million, which 
is a $31.3 million increase. This increase is explained in three 
spending areas: replacement of the legislative branch escape hoods for 
$8.2 million, hiring and outfitting costs for 122 new officers at $1.9 
million, and finally $20.7 million to support and maintain previously 
provided and implemented equipment, assets, systems, infrastructure, 
more than half of the $20 million slated for physical security and our 
information and communication systems, which cannot be absorbed at 
current funding levels.
    We expect this request with its increase will no doubt invite 
serious discussion, and we are prepared to address any of your 
questions and concerns. While I spoke earlier of the post-9/11 era, it 
is important to step back and take into account the last nearly seven 
years of change. This organization's considerable transformation began 
with the fatal shooting of our two officers in 1998. In response to 
that shooting we received funding to hire more officers, improve 
infrastructure, and implement security technologies. The 9/11 Terrorist 
and Anthrax attacks of 2001 again highlighted the need to further 
``harden the target'' or in other words reduce the campus exposure to 
threats through prevention, detection, vigilance, and deterrence. 
Because of these events and the support of the Appropriations 
Committees, we received funding to improve and add new capabilities to 
the organization. These previously acquired capabilities are detailed 
in our budget request, and it will cost $20.7 million in additional 
funding over current baseline funding to sustain their use, 
effectiveness, performance and reliability. The demands on our 
equipment and technology capabilities will continue for the foreseeable 
future.
    The Ricin Incident, the War in Iraq, six Department of Homeland 
Security code orange alerts, and the constant intelligence assessments 
have given us additional concern and have prompted operational 
adjustments. The top to bottom change of the Capitol Police, set in 
motion in 1998 and accelerated by attacks, events, intelligence, and 
world events, has resulted in a dramatic change in the Department and 
its support. Many of these changes have just recently come to fruition. 
In the same vein, the associated operations and maintenance costs are 
now impacting our General Expense request. The maintenance of these 
systems is the principal driver to the increase in our request--not new 
programs. Our request is to maintain the structure that we have set 
into place, and not to step backwards at the expense of congressional 
community safety or interruption of government. The changes and the 
design of the changes to the Capitol Police were created to sustain 
Congress, within the purview of the mission of the Capitol Police, and 
the result is an extraordinary law enforcement organization, unlike 
other police organizations. In fact, I would like to take just a moment 
to mention some of our accomplishments in the past fiscal year when the 
Department was challenged and successfully conducted several National 
Special Security Events such as the Inauguration; the Democratic and 
Republican conventions, the Ricin incident, the State of the Union and 
the Reagan State Funeral in which the Department screened more than 
100,000 visitors within a 24-hour period.
    In 2004, the USCP greeted and screened more than 9.5 million staff 
and visitors throughout the Capitol Complex as compared to 7 million in 
2003. Our officers screened more than 61,000 visitors to major 
Congressional Concert events; conducted more than 2,700 bomb searches; 
responded to more than 300 hazardous material calls; coordinated more 
than 3,000 Special Events and Dignitary visits; processed nearly 1,000 
illegal demonstrators and violators within our jurisdiction and 
presented nearly 600 cases to the U.S. Attorney's Office. We hired 145 
sworn officers and 154 civilians in our Department in fiscal year 2004. 
Additionally, the Department has implemented a health program as we 
work towards creating and nurturing a fit workforce. The Department 
also has provided educational benefits that work toward providing an 
educated team. One hundred and seven employees are participating in our 
Student Loan Repayment Program.
    The specific needs of Congress, current threat assessments, and 
professional leadership has combined to create a hybrid police agency, 
integrating capabilities for law enforcement, security technologies, 
dignitary protection, intelligence analysis and threat assessment 
specific to the Capitol, crowd management, hazardous materials and 
device response, and physical security barriers, building access 
screening, prevention of vehicles bearing improvised explosive devices 
and the detection and prevention of covert surveillance. These Capitol 
Police capabilities work together to protect 535 Members of Congress, 
congressional leaders, congressional staff of more than 20,000, and the 
historical and political symbols of the Capitol campus.
    The direction that the changes have taken has been influenced by 
best practice matching for law enforcement, professionalization and 
modernization of our administrative and technical support functions. 
This is where we have transitioned from sworn administrative roles to 
professional officer roles by hiring civilian professionals for 
information systems, human resources and financial management and other 
administrative functions. We have also moved to a self-sufficient role 
in the legislative branch no more solely reliable on the House and 
Senate for infrastructure and support. The Department assumed 
responsibilities for all human resource functions requiring systems and 
people to assume these responsibilities. This included building a new 
time and attendance system and hiring professional human resource and 
support staff. The Capitol Police assumed responsibility for a major 
component of information system functions, which were previously 
supported by the Senate Sergeant at Arms. As the personnel growth of 
the Department and the responsibilities of the Department increased it 
became evident that we needed to control, adjust, and build the 
enterprise architecture to meet the specific needs of the Department.
    These changes are significant and are the result of strategic 
leadership choices, events befallen the Capitol campus, congressional 
demands for improvement, rigorous GAO reviews, self-analysis, strategic 
planning, best practice matching, and current threat environments 
through numerous surveys, reviews, audits, and investigations. Through 
these external and internal analyses, we have rebuilt this organization 
into a more qualified, capable, responsible, responsive, agile, 
effective, and efficient organization to serve the legislative branch.
    The entire Capitol campus has undergone an infusion of 
technological improvements, enhancements and new implementations of 
state-of-the-art security to deter, detect, and delay unlawful acts 
using a risk-analysis to determine appropriate application. These 
technologies, workforce multipliers, allow us to monitor the campus, 
and control access to facilities with greater efficiency and 
effectiveness. Other technologies provide greater safety and assurance 
for the Capitol campus through the use of improved x-ray machines, 
magnetometers, itemizer sampling, technologies to scan all incoming 
material shipments in an off-site location, as well as cameras and 
recording systems, monitors, sensors, panic button alarms in Member 
offices, intrusion alarm systems, emergency notification systems, 
emergency call boxes, and measures to detect covert listening devices. 
Responsibilities for security systems and law enforcement have also 
grown with additional building spaces created by the Capitol Visitor 
Center construction, the Alternate Computer Facility, the Botanic 
Garden, and the Fairchild building.
    In the area of command, control and intelligence capabilities we 
have expanded our command center and instituted an Incident Command 
System which is a universally adopted command structure used by first 
responders. The Office of Plans, Operations and Homeland Security is 
now operational. Intelligence gathering, analysis and dissemination has 
been expanded and we have worked diligently to build relationships with 
other federal, state and local entities to improve response 
coordination and capabilities.
    Operational and response capabilities have increased by developing 
a dedicated full time specialized hazardous substance response team to 
develop and manage response capabilities dealing with chemical or 
biological events. Canine capabilities primarily used for bomb 
detection have been increased.
    The Capitol Police is shouldering additional workforce 
responsibilities for the new CVC facility, street closures, various 
technical security implementations, and the truck interdiction program. 
These responsibilities fall upon our officers as additional duty hours; 
and so, we propose an additional 122 new officers, which is a part of 
the total 254 officers required to normalize work schedules. Hiring 
these new officers will allow officers to work 48-hour weeks as opposed 
to much higher levels.
    Despite advances in technology and installation of systems, this 
Department is successful because of its people. Our greatest asset and 
investment is our current professional staff of 1,592 police officers 
and 411 civilian employees responsible for Capitol complex security, 
law enforcement, emergency response, safety, and professional support 
services, which are a 24/7/365 day a year responsibility. To maintain 
the Capitol Police high state of readiness, response, agility, alert 
and vigor, we request these new officers. A request of $1.9 million is 
necessary to recruit, test, hire, and outfit 122 new police officers. 
Given the existing and future staffing requirements, the leadership of 
the Department must continually balance mission needs with training 
needs, leave requests and overtime.
    While the well being of our officers is crucial to good operations, 
we are also recommending for the protection of the congressional 
community and visitors that we replace the aging escape hoods, due to 
expire in 2006. The Capitol Police manage this legislative branch 
program and the life-cycle replacement costs are estimated at $8.2 
million. However, as I indicated earlier the largest portion of our 
requested increase will go toward the operation and maintenance of 
equipment and systems that were installed in recent years.
    As Chief of the Capitol Police, I take great pride in the many 
years of service this Department has provided to the Congress. Building 
on that legacy, we at the USCP look forward to continuing to safeguard 
the Congress, staff, and visitors to the Capitol complex during these 
challenging times. And we look forward to working with the Congress and 
particularly this Committee.
    I thank you for the opportunity to appear here today and am ready 
to address any questions you may have.

    Senator Allard. We have now been joined by Senator Durbin 
and I will ask him if he has any comments that he would like to 
make.
    We are into the second panel, Senator Durbin.

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. No, Mr. Chairman. I apologize. I was in the 
Rules Committee with the markup and could not come earlier. But 
I ask that my opening statement be made part of the record, and 
I will ask a few questions as the hearing progresses.
    Senator Allard. Without objection, we will make your full 
statement a part of the record.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's fiscal year 
2006 budget oversight hearing on the Senate Sergeant at Arms 
and the U.S. Capitol Police Board.
    First of all, I want to thank our witnesses, Mr. Pickle, 
Mr. Livingood, and Chief Gainer for joining us today to review 
your fiscal year 2006 budget requests.
    Mr. Pickle, welcome. I commend you on the job your office 
is doing in providing security resources and technology to the 
Senate Community. Your staff does an excellent job in a 
difficult and challenging environment and we appreciate it. I 
had the opportunity of working pretty closely with your staff 
earlier this year when I moved into the Assistant Democratic 
Leader's office in the Capitol. Skip Rouse of your staff 
coordinated the move and everyone involved did an absolutely 
superb job. My staff and I are extremely grateful.
    You are here today to testify on behalf of the Office of 
the Sergeant of Arms and Doorkeeper of the Senate, the Capitol 
Police Board, and the Capitol Guide Board. It sounds like you 
have been pretty busy.
    The Senate Sergeant at Arms' budget request for fiscal year 
2006 is $219.9 million or an increase of 23.7 percent over the 
fiscal year 2005 enacted level. As you know, this year promises 
to be a tough year budget-wise, so I hope you will help us out 
by prioritizing your request.
    I noticed you have requested $21 million for a new 
telephone system. I hope you will provide us with some details 
about this new system.
    You have also requested funding for several items, such as 
furniture and equipment for the Capitol Visitor Center. The 
Architect of the Capitol, who testified before this 
subcommittee two weeks ago, predicted a September, 2006, 
opening for the CVC. I'd like to know if your fiscal year 2006 
request is based on this timeframe.
    I hope you will address the current status of the perimeter 
security upgrades. I'm interested to know if this project is on 
schedule and on budget.
    I hope you will update us on the status of the state office 
security upgrades.
    I'd also like to know the current status of the Mail 
Processing Facility. I understand you will soon be moving into 
a new, larger facility.
    You have requested 18 new FTE's in your fiscal year 2006 
request. I hope you will tell us what these new employees will 
be doing.
    Finally, I have noticed an increasing number of staff-led 
tours in the Capitol. I understand that during peak season, 
around 6,000 visitors are taken on staff-led tours each day. I 
am curious if the staff-led tours will be reduced or eliminated 
after the Capitol Visitor Center opens.
    Chief Gainer, it is good to see you again. I want to thank 
the men and women of the Capitol Police who put their lives on 
the line every day for us here in the Capitol. This has been a 
busy year for the Capitol Police and I congratulate you and 
your staff on a job well done.
    I see that your fiscal year 2006 budget request is $290 
million, an increase of 26 percent over fiscal year 2005. I 
hope you can prioritize some of the items in your request for 
the subcommittee.
    I note that you are requesting $23 million in the 
Architect's budget this year to construct an off-site delivery 
facility. I hope you will update us on the need for this 
facility and where you plan on locating it.
    You are requesting funding to replace the emergency escape 
hoods in the fiscal year 2006 budget, as you did in fiscal year 
2005. I hope you will update us on the need for these 
replacement hoods.
    In your testimony, you stated that the Department needs a 
total of 254 new officers to normalize work schedules. I hope 
you can tell us why you need so many additional officers at 
this time. I'd also like to hear about how much overtime your 
officers are currently working.
    I notice that you are requesting 62 FTE's for the Capitol 
Visitor Center. As I said to Mr. Pickle, I'd like to know if 
this request is assumes a September, 2006, opening of the CVC.
    Finally, I'd like to know how the merger between the 
Capitol Police and the Library of Congress Police is going 
since the Memorandum of Understanding was signed.
    Thank you Mr. Chairman.

                      ADDITIONAL STAFFING REQUEST

    Senator Allard. And there is no doubt that the Capitol 
Police have been under some unusual situations since 9/11, and 
last year was an unusual year in that time period. And I know 
you had a lot of challenges with the many things that you 
mentioned in your testimony. It was truly unique.
    Now, what is so unique about this next year that has you 
requesting a total of 254 additional officers?
    Chief Gainer. Well, our 2006 budget is actually requesting 
122 officers, and there are some other officers that are part 
of the supplemental----
    Senator Allard. Oh, okay. So it is an additional 254, with 
the supplemental.
    Chief Gainer. The request in the regular budget plus 
supplemental comes up to that, that is correct, Senator.
    Senator Allard. Okay.
    Chief Gainer. Yes.
    And in general, 122 are needed because of the expanded 
mission of the police. So, for instance, with the Capitol 
Visitor Center scheduled to open in 2006, we need to get the 
officers into the pipeline that will augment the security that 
goes there.
    Now that Capitol Visitor Center I think needs some 142 
officers. Some of those will be offset by taking officers who 
are now involved in the construction projects or screening 
elsewhere and put them in there, but ultimately we will need 62 
more people to man the various portals in the CVC.
    We have expanded our dignitary protection and the level of 
protection that we give to the leadership of both the House and 
Senate. And we would need 26 extra personnel there.
    The Senate leadership has directed and the Board approved 
the closure of First Street between Constitution Avenue and D 
Street, and that requires an additional 24 people. Now we have 
been doing that since early August, but we have been doing that 
out of hide and overtime.
    Also, we are still in the midst of the support of the 
Library of Congress. So 10 of those individuals in our 122 
would be dedicated to the attrition we anticipate there. But I 
am also aware that the Library of Congress in their own budget 
has come in and asked for some of their own people. So I think 
we are kind of caught, and the decision has not been made about 
whether our departments are going to merge and who is going to 
get the personnel to fulfill those needs. But that is where the 
122 come from.
    Senator Allard. Okay. Your request then will cover all the 
posts around the Capitol, plus what would be planned for the 
new Capitol Visitor Center, is that correct?
    Chief Gainer. If we receive the full supplemental number of 
132, and these 122, we would be able to cover our posts with 80 
percent of the sworn officers department working on average 8 
hours overtime per week.
    So this request lets us do a couple of things. If we had 
these 254--I will mix both of them.
    Senator Allard. Yes.
    Chief Gainer. If we have the 254, plus 80 percent of the 
department working nearly 16 hours overtime a pay period, that 
would permit the officers an opportunity to take their 
vacations that they have earned; it would let the officers have 
80 hours of training per year, which is really the gold 
standard and what we have been trying to shoot for, and just 
not wear the officers out. That is under the current threat 
environment.

                     SWORN OFFICERS TRAINING NEEDS

    Senator Allard. Okay. How much time do officers now have 
for meeting their individual training needs?
    Chief Gainer. Well, we have provided your staff with some 
of that information. Right now it is getting closer to the 80 
hours. It is somewhere in between the 70 and 80 hours. With the 
lieutenants and above, they are running up an awful lot of 
compensatory time. We are now getting the officers into a 
position where they can take their vacation time and time off. 
But I can say we have done that right now because we have cut 
back in a lot of areas. There are a lot of posts now that we 
would prefer under best practices to cover that we are not 
covering.

                  STAFFING THE CAPITOL VISITOR CENTER

    Senator Allard. Now I bring up the same point that we did 
at a previous panel on the completion date of the visitor 
center. It looks like it will be finally into 2007 before we 
actually have occupancy of that. Are you assuming that we are 
going to be moved in in September 2006?
    Chief Gainer. We did not think we would all be in there in 
September, but we knew that some of the process would begin in 
getting the officers selected, trained, and mentored, and ready 
to take their position; this process takes some time. So 
whether that can slide a month, or two, or three in fiscal year 
2006, it would probably be an ideal situation to have the money 
for the hiring, so that we would not delay the hiring as long 
in order to have the proper amount of officers at their 
portals.

                          FUNDING REQUIREMENTS

    Senator Allard. Now if we are not able to provide your full 
increase or funds in the supplemental, what requirements would 
not be met at all, and what requirements would you only be able 
to partially meet?
    Chief Gainer. Well, there is a whole series of those, 
Senator, and we will be happy to submit our prioritization 
listing.
    Senator Allard. If you could, get that to us.
    [Clerk's Note.--A detailed prioritization listing has been 
provided to the subcommittee.]
    Chief Gainer. But again, we have tightened our belts like 
good military and uniform people do, but we always increase the 
risk if we do not give this full coverage.
    Senator Allard. We understand.
    Chief Gainer. Thank you.
    Senator Allard. Senator Durbin, do you have a question?
    Senator Durbin. Thank you.
    Chief Gainer, thanks for the work that you and your men and 
women do for the Capitol Police, and thank you for the fine 
service. We at least take this opportunity once every year to 
remind all of us who work here and visit here how important 
your job is and how our safety depends on you. And I thank you 
for the fine men and women that you are commanding.
    At this moment, as I understand it, the 1,714 officers, or 
police officers, would include the 122 new officers, is that 
correct?
    Chief Gainer. It would, sir.

                         DISCUSSION OF OVERTIME

    Senator Durbin. It would. And let me ask you this: You 
mentioned earlier that you anticipate that each of the Capitol 
policemen will incur in any given pay period 16 hours' 
overtime?
    Chief Gainer. Eighty percent of the department.
    Senator Durbin. Eighty percent. Explain that to me, if you 
will. If I knew as a manager that I had to have that much 
overtime built into the regular payroll, it would suggest I 
need more employees.
    Chief Gainer. That is correct. In fact, as we did calculate 
this as to how many more employees we would need in order to 
bring the overtime down, and it is a business decision. And at 
first blush, sometimes it seems easier to hire someone in low 
overtime or pay more overtime and have fewer FTEs.
    As I recall, I think the number to bring the overtime down 
closer to zero--441 officers would be that number. The down 
side of even asking for that number, I mean the obvious cost of 
that is your inability to handle peaks and valleys. I mean it 
is still our dream that one day we will not be in as bad a 
situation as we are, and perhaps we will be able to scale back 
some of the security issues in 3, 4, 5, 6, 7 years from now.
    So I think if we grow by this combined total of 254, given 
the current threat environment, the department will be in a 
position to handle its needs. And I also want to suggest that 
we use that target number of 16 hours overtime per pay period 
because it is very consistent in the Federal law enforcement 
environment. Whether it is the Secret Service, or the FBI, or 
ATF, they as a rule are given a fixed amount of money that 
really equates to them working about 14 or 15 hours extra a pay 
period.
    Senator Durbin. What is the difference in pay between 
regular time and overtime?
    Chief Gainer. I would have to get back to you on that, sir.
    Senator Durbin. Is it time-and-a-half? Is it a 50 percent--
--
    Chief Gainer. It is time-and-a-half.
    Senator Durbin. So if I understand this correctly, 80 
percent of your officers will be, in effect, be paid for 20 
percent of their time in overtime, 20 percent, if I did that 
calculation----
    Chief Gainer. Yes, sir.
    Senator Durbin [continuing]. In my head correctly.
    Chief Gainer. Yes, sir.
    Senator Durbin. And we are paying, through your 
appropriation, a premium, this 50 percent add-on, for these 
extra hours, is that correct?
    Chief Gainer. Yes, sir.
    Senator Durbin. Okay. So let me ask you first: What is the 
reaction of your officers to this overtime? Is this something 
they look forward to, that gives them a little extra money, and 
they bank it and are willing to make the sacrifice?
    I know at one point here when they were working 12-hour 
shifts day after day after day, I really felt for them, because 
I thought that the money just was not worth it to some of them, 
but they knew they had to do it. So what impact does that 
overtime have on morale?
    Chief Gainer. Excellent point. And given the amount of 
hours that they work, way beyond 16 a pay period, is indicative 
of the regard with which they hold their job. But we were 
burning them up.
    In my conversations with the union and the officers, we 
think this is within a ballpark of what they can handle. And 
yes, the officers do look forward to having the option of 
working overtime When we actually started scaling back after 
December, there was an interesting little bit of, ``Hey, Chief, 
Christmastime is coming, and we were going to do ``x'' and 
``y'', and I was putting carpeting down, and now you are 
cutting back overtime on us.'' So I think 16 hours is a 
reasonable amount.
    From a cost comparison, and I do not have those numbers in 
front of me, the cost of hiring an officer, training them, 
versus that time-and-a-half overtime pay is really pretty 
close.

                 HIRING AND RETENTION OF SWORN OFFICERS

    Senator Durbin. I remember asking either you or a 
predecessor how many applicants you had to take to actually 
hire one Capitol policeman, and I think the number was 10, or 
something. Or at least interview 10 to find 1 officer. Is that 
still the norm? Is that still the case?
    Chief Gainer. That is close, but I can say that because of 
what Congress has done for this department in the way of 
salary, equipment, overtime, uniforms, training, and I think 
the patriotism of job seekers, we actually have people beating 
down our door. We are in a very good position to keep hiring, 
and the men and women we are hiring now are just very, very 
good.
    Senator Durbin. There was also a time when you were losing 
officers to TSA and other agencies that offered a different 
benefit package, different opportunities, different promotions, 
and such. Is that still the case?
    Chief Gainer. It is not. There is a slight attrition, and 
some of the officers leave to go to other agencies, and we, in 
fact, encourage them to do that if that is good for them and 
their family. But I think by and large we stemmed that tide of 
people walking out of here about 2 years ago. And I think many 
of the officers ascribe to the theory that you neither take nor 
leave a job just for the money.
    Senator Durbin. And what about diversity goals? Do you set 
those for your department?
    Chief Gainer. We do, and we have worked very hard on that. 
Just as an aside, I think we are just under--37 percent of our 
department right now is a minority. And at the last Federal 
analysis I believe we were ranked number two in Federal 
agencies as to the strength of our diversity.
    But probably as important as the diversity ratio are the 
career opportunities we offer. We have built on what previous 
chiefs have done. But what we have been able to do in these 
past 3 years is increase the number of minority officers who 
get into specialty positions, and especially who have been 
promoted to sergeant and lieutenant, and to captain, and now to 
inspector and to deputy chief. And so now we are seeing the 
fruits of the benefits, and that will continue to increase.
    Senator Durbin. I know about one of those personally 
because one of the officers that we have come to know quite 
well from his singing ability, Officer David Nelson, who I 
believe is now a sergeant.
    Chief Gainer. Yes.
    Senator Durbin. I congratulate him on that.
    If I could ask one last question, Mr. Chairman----
    Senator Allard. Yes. Go ahead.

                        MERGER OF POLICE FORCES

    Senator Durbin. I became concerned several years ago about 
the number of different police forces on Capitol Hill. The 
Supreme Court has their own. The Library of Congress had their 
own. Capitol Police had their own. And there are probably some 
of them missing; maybe the Government Printing Office. I am not 
sure.
    So we tried to integrate the Library of Congress into the 
Capitol Police, and it really was not welcomed by the Library 
of Congress. They were not looking for this change, but we were 
trying to move in that direction.
    Are we achieving that goal? I mean are we creating two 
forces where there used to be one? What can you tell me about 
the progress of moving toward an integrated force at the 
Library of Congress to meet their special needs for security, 
which are different than some other places, but also to kind of 
bring them into the Capitol Police family?
    Chief Gainer. Well, there is yin and yang in that, Senator. 
I do think that we have shared a lot of training with each 
other. Some of their sergeants and lieutenants have been in our 
class. We understand communication a bit more. But it has been 
a struggle.
    We now have an inspector who is supervising the Library of 
Congress police officers as well as 23 of our officers serving 
the LOC, and finally, after months of wrangling, the LOC 
permitted us to send a sergeant or lieutenant to help them.
    I still do not think it is widely well regarded by the 
Librarian and his Deputy. I will not try to speak for them. The 
very fact that in their budget that they ask for some 45 
officers and there was no consultation with this department or 
our inspector about the why or the how, again indicates to me 
that it is not their number one priority.
    As I have said before, if we were building law enforcement 
agencies up here, we would not do it as it was done. And I even 
suggested recently to the Librarian, there is an memorandum of 
understanding (MOU) that the committees literally forced 
everybody to sign to try to move this thing along and that MOU 
will expire.
    I would respectfully request that Congress take action on 
the very, very detailed merger plan that we submitted 2 years 
ago, or kill this thing, because it creates more work and 
energy for us than it is turning out to be worth.
    Senator Durbin. I agree with you. It has to be fish or 
fowl. We have to decide where we are going on this. And I just 
have to tell you that the idea and object here was not to 
dramatically increase the number of people guarding the Library 
of Congress, but rather to try to reach some sort of regularity 
here and consistency so that the Capitol Police could be 
involved in this.
    I know there were some different standards on retirement 
and hiring that had to be resolved. Maybe some grandfathers 
that had to be accommodated in the process. But I will, I 
promise you I will look at that, and I will talk to the 
chairman about it. I do not know if this is a new issue for 
him. It might be. But it is something that we need to show some 
leadership on. Thank you.
    Chief Gainer. But, Senator, if I may say, it is not all 
bad. Even if we walked away from the merger they kept our own 
department and we brought our people back, we are both better 
agencies for it, because, again, we are sharing training and 
information. They come each week, by our invitation into our 
intel meetings and our staff meetings, so there is some good 
that has come out of it.
    Senator Durbin. Well, I hope we can have even more good.
    Thank you very much.
    Senator Allard. Senator Durbin, I look to continue to visit 
with you on this particular issue. I just got a look at a 
letter to the editor here in Roll Call, and the issue that was 
brought out is that the Library is viewed by security as a weak 
link. And my question is: How much of a weak link are they? How 
vulnerable do they make the rest of the security system here on 
the Capitol?
    Chief Gainer. Well, there is that corner of the campus, I 
think, that is not doing as well as it could do. And again, I 
think the concept of the merger was to strengthen that. As the 
CVC opens and the tunnel is connected, it could exacerbate 
things. So it is not ideal, Senator.
    Senator Allard. And the testimony we got from this in the 
last hearing is that the head of the Library of Congress had 
not communicated with you on this request.
    Chief Gainer. That is correct.
    Senator Allard. Was there any communication at all, and do 
you feel that he should have had some discussion with you?
    Chief Gainer. Well, I do know this: When we put together 
our budget for both 2006 or the supplemental request, there 
were strong conversations with each Sergeant at Arms in their 
capacity as Sergeants at Arms even aside from the Board. So I 
think there needs to be a very good dialogue with the 
stakeholders so that we understand what the clients want and 
expect in order to determine what is the best way. And I have 
not seen that yet.
    Senator Allard. I think that that is our responsibility, to 
help make sure you get some clear guidance as to where to go in 
that order. So we will be working on that for you.

               FISCAL YEAR 2005 SALARY BUDGET DISCUSSION

    The other issue I wanted to bring up is, again, the 
changing figures that we have seen here lately. Originally, you 
showed a deficit of $10 million or so. Then it was considerably 
less than that. Now I see that you are looking to anticipate 
somewhere around a $25,000 surplus. Do you want to explain why 
those figures have changed?
    Chief Gainer. I sure do, Senator. In the late fall, early 
winter, November, December, the conference committee report was 
very clear to the Capitol Police to live within our budget and 
do not anticipate any supplementals and, obviously, not be in 
violation of the Anti-Deficiency Act. And there was not much 
support for the fact that how much work we were doing and how 
much overtime we had, and the fact that we knew we were going 
to run short of funding.
    So we were doing competing things, trying to work with the 
committees as to what we might need in order to keep up the 
security level at best practice standards, while at the same 
time ensuring no anti-deficiency sometime during this fiscal 
year.
    So I sat down with Jim Rohan, who is the Assistant Chief of 
Police, and Tony Stamilio, who is our Chief Administrative 
Officer, to look at where we could tighten our belt and try to 
provide security and ensure that we have the money to get 
through the year? And by doing that, we forced the operational 
commanders to be much more miserly in the use of overtime and 
to stop doing some things. Since then the amount of overtime 
has declined.
    We also had money in the budget that we are saving to use 
if we had to go to a full-time vehicle interdiction again like 
we did in August, September, October, November, where the 
officers would be out there 24/7 at these intersections, and 
the belt tightening eliminated a significant amount of that 
money.
    But it has been through belt tightening, eliminating 
projects, and stopping some security needs that we have driven 
down the money that we needed. And also during this time there 
were the ongoing conversations about whether we could use what 
had been designated emergency response funds or not, and 
finally the determinations and the directions came to use some 
of that, so that also took away some of the budget projection 
red balances.

             COMPETENCY PERFORMANCE-BASED MANAGEMENT SYSTEM

    Senator Allard. If you have been following some of the 
previous hearings, I am a strong believer in measuring 
performance, the intent of the Government Performance and 
Results Act. And from what I understand has happened, you have 
implemented two new competency performance-based management 
systems, one for senior executives and then another for 
civilian and sworn employees. And then the implementation of 
these systems was put on hold due to your operational demands 
placed on staff, such as preparing for the Presidential 
inauguration.
    Have you reinitiated the implementation of these 
competency-based performance management systems, and if so, 
what progress have you made in that regard?
    Chief Gainer. We have restarted them. The one for the 
executive team at the inspector and civilian director level 
have been implemented, and those personnel do now know their 
goals and objectives, and what is expected of them.
    The system implementation was delayed because of all the 
other operational requirements; we issued the order just in the 
past couple of weeks to start the program. The training is 
going on through the middle of May. So by June and July, people 
will have the renewed job performance appraisal system in 
place.
    Many of the leaders here were as disappointed as any to 
find that some people had not been rated or given any 
evaluations in 6, and 8, and 9 years. We now know that we have 
to concentrate not only on the operational business in 
emergencies, but we also have to keep the administrative and 
infrastructure business running.
    That has improved, because, again, Congress granted, 
especially the administrative side of the House, some 
significant civilian personnel. And our fiscal management, our 
human resources, our IT shops were terribly understaffed. And 
while we grew the sworn numbers by some 333, we just did not 
keep up with the administrative side.
    I am happy to say, with the guidance of the GAO, and they 
have been very helpful in the direction they have given us, and 
with the addition of the civilian staff that I believe we will 
be positioned to do well on our performance system. We have a 
very comprehensive strategic plan, and we are operating from a 
business perspective in the direction we should.

                        OFFSITE DELIVERY CENTER

    Senator Allard. Okay. Now talk a little bit about your 
offsite delivery center. In the pending supplemental you have 
$23 million for that offsite delivery center to replace the 
current facility on P Street.
    Chief Gainer. Yes, sir.
    Senator Allard. I guess I direct this to Mr. Hantman. What 
is the status of moving this project forward, and do you 
believe this amount will be sufficient?
    Mr. Hantman. Mr. Chairman, there have been a series of 
meetings over the last several weeks. What we have tried to do 
is take a look at alternative sites and work with the House and 
the Senate, to find out what sites they find took good 
candidates for it, and then try to lay out the different type 
of operating procedures that might be used at such an offsite.
    One of them would be a transfer type concept, where trucks 
would be brought in and offloaded, and then other in-house vans 
would be loaded, as the White House model does, to bring 
deliveries actually to the Senate side or other locations.
    The other concept is screening trucks as they exist and 
allowing them to make their designated runs throughout the 
campus.
    So those types of studies are being done right now, and the 
amount of money that would be necessary to accommodate either 
one of those profiles would really be determined by the 
individual site that the House and the Senate find best and 
most appropriate, in terms of travel distance to the Capitol. 
And those kinds of evaluations are still being done right now.
    The $23 million that is in the supplemental at this point 
in time and also in the budget of the Architect of the Capitol 
is based on a study that was done several years ago for a 
potential site on New York Avenue, using the cost of land over 
there and the potential construction. So that study needs to be 
updated relative to the particular site that essentially is 
determined as the most appropriate by the House and the Senate, 
and what type of facility goes on it.
    Senator Allard. Mr. Pickle, in regard to the operational 
model for the offsite facility, are we on the right track?
    Mr. Pickle. Mr. Chairman, the Board has unanimously 
approved a particular process that should be utilized for good 
offsite delivery security. We, the Senate, are much better 
prepared because of staffing and other support that we have. We 
are much better prepared to immediately begin that process once 
the offsite is completed.
    The House, for some other reasons, they have many more 
deliveries, they are not equipped either in staffing or other 
equipment resources to begin immediately.
    Senator Allard. They have almost twice as many deliveries 
than we do.
    Mr. Pickle. Yes, they do. We are prepared to move ahead 
immediately. The dilemma is the funding, as I understand it, 
may not be sufficient to build a site that would accommodate 
the correct procedures that the Capitol Police Board have 
approved. The dilemma is pretty much this way.
    We need the flexibility to do what we need to do for the 
Senate, and the House will eventually catch up with us and they 
will also adopt those protocols; this is my understanding. But 
there is no disagreement among Mr. Livingood, or myself, or the 
Chief on that. We know the process that needs to be 
implemented, but we need the funding to make sure that the 
flexibility is there for both the House and Senate to adopt the 
same process.
    Again, the Senate is ready to proceed. The House has some 
more resource issues that they have to focus on with the 
Architect.
    Senator Allard. And your funding request includes that?
    Mr. Pickle. The $23 million funding in the supplemental was 
put in there because that is what, based on the study Mr. 
Hantman just referred to, that would be sufficient to 
accommodate what we both need.
    Senator Allard. Okay.
    Mr. Pickle. We find now that that $23 million may or may 
not do it, simply because the price of real estate has gone up, 
especially since the Washington Nationals baseball team has 
moved into Washington, DC causing real estate prices in the 
area the House would use as an offsite delivery location to go 
up quite a bit.
    I would also like to say that the Senate does not really 
care where this site is, and we have been very clear about 
that. We are prepared to immediately start the process once the 
site is picked. We are just waiting for the funding to match up 
with the results of his study, so we can get moving.

                           MOUNTED HORSE UNIT

    Senator Allard. Okay. I want to bring up the mounted horse 
unit with you, Chief Gainer. Now it has been in place just a 
short period of time.
    Chief Gainer. Just about 1 year.
    Senator Allard. Can you tell me whether you feel it has 
been effective or not, and what specific improvements has it 
brought, and how high a priority do you place in continuing 
this unit?
    Chief Gainer. Through my police career I have seen what 
mounted units have done, and that goes back to the late 
sixties, where I spent the first 20 years of my career on the 
Chicago Police Department. Mounted units are unbelievably 
effective in crowd management, whether that is from a positive 
point of view in just managing a crowd, or disruptive crowds in 
calming them. That was one of the reasons that I first 
approached the Board and then the committees to do that, to 
have a mounted unit.
    The training is rigorous, and we have some great personnel 
riding the horses. And we have used them in crowd control 
exercises up here as recently as yesterday. The officers on 
those horses have also issued tickets. They have found a lost 
child. They have responded to any number of hazardous device 
incidents, where they have helped manage the crowd.
    They are a wonderful PR asset, too. I daresay they are 
probably the most often photographed thing in addition to the 
Capitol Dome, or if you can juxtaposition them against the 
Dome, that would be the most taken picture by visitors.
    And there is something very positive about that----
    Senator Allard. Yes.
    Chief Gainer [continuing]. For people to feel they can 
approach a police officer. Because, again, over my 27 years, 
what we did, we got in squad cars, we rolled the windows up, 
turned the air-conditioners on, and put personal radios on, and 
you did not communicate with the outside.
    The officers are out there. They are visible. They are 
interacting. They can see above the crowd. They can move in 
areas around this campus, where neither cars, nor bikes, nor 
motorcycles can go. So I think they are value added, and I hope 
that we have another year or two out of this to convince the 
Congress that they are value added.
    Senator Allard. And you do not see any increased 
vulnerability to the officer on the horse. In fact, you see 
just the opposite, is that right?
    Chief Gainer. They very much have a calming effect. And 
clearly, what the studies and experience indicate is that a 
mounted rider is equivalent to 10 foot officers. So it is a 
force multiplier, if you will, and when you see them wade into 
a crowd, especially a hostile crowd, you can very easily bring 
peace and tranquility.
    Senator Allard. Now if you are recruiting in the State of 
Colorado, it probably would not be as difficult to find 
somebody who knows how to ride a horse. Are you able to find 
officers who have riding skills that can qualify for the job?
    Chief Gainer. Well, we are finding them. And interestingly 
enough, even again, I will go back to my Chicago days. The 
Chicago Police Department sent their personnel out to the 
United States Park Police, who is considered one of the model 
agencies in training, which is where, when we restarted the 
Metropolitan Police Department's unit I sent the officers and I 
sent our Capitol Police officers there. And you will get most 
trainers to say they would prefer to have someone who does not 
have a lot of riding experience, so you do not have to break 
them of bad habits.
    I can say this: One of our sergeants that went through this 
training, I think he is the oldest individual who has ever 
completed the Park Police training. And we have good men and 
women out there riding horses. That is not a problem.

                CAPITOL VISITOR CENTER SPACE FOR POLICE

    Senator Allard. Good. Thank you. Now how about your space 
in the visitor center? Are there sufficient funds in the budget 
to complete the fit out of the space for the Capitol Police in 
the visitor center?
    Chief Gainer. The Senate, I believe, is allocated funds 
that would take care of what is designated the Senate portion, 
and their share of the police portion. And I think that is in 
the Architect's budget. I think the House is still working on 
their share, if I am not mistaken, to fully fund that. But, 
again, that is part of the interesting issue with the Capitol 
Police department up here, and how, we have an artificial line 
that goes down some offices, and where half belongs to one body 
and half the other, and to figure out how we buy the desk, and 
the paper, and the furniture. It is being worked on, sir.
    Senator Allard. So you are having to kind of divide out 
half furniture, House, half furniture, Senate. Is that where 
you are at right now?
    Chief Gainer. Yes. But we are working with everybody to do 
that.
    Senator Allard. Okay.
    So you will have more to report on that later.
    Chief Gainer. Yes, sir.

                           FAIRCHILD BUILDING

    Senator Allard [continuing]. Okay. Now on the Fairchild 
building, the Architect of the Capitol is leasing and fitting 
out several floors of the Fairchild building for the Capitol 
Police. Can you brief the subcommittee on the status of that 
effort? And when do you feel it will be ready to be occupied, 
and what needs we may have in that facility?
    Chief Gainer. Sure. We think our first--we hope our first--
well, we have some people in there now in swing space, because 
we are moving them out of our headquarters, and there are some 
people in old space in the Fairchild. We think the new 
remodeled space will probably be ready. The target is sometime 
June. I am going to suspect late June, maybe early July, where 
we finally have a finished space where we can move people in 
there.
    The Architect and his staff have been very, very helpful in 
support of--given all the things everybody asks the Architect 
to do. It has been a costly operation. We are seeking funding 
for some of the security mechanisms that would be needed there, 
because we are taking over a large portion of the building, and 
it does not--with some very important units and documents for 
which we have asked for just under $1 million-ish to fund some 
of those security needs. So there are still some needs and 
there some time.
    But again, the whole issue about being in that building 
really revolves, again--Congress was very good in growing the 
department by some 333 sworn since 9/11. But the space that we 
occupy continues to shrink up until these recent moves.
    The Fairchild building was always meant to satisfy a 
temporary issue. And again, we would implore both the House and 
the Senate to consider our requests for a new Capitol Police 
headquarters, ultimately, that we might move into in 5, or 6, 
or 7 years.
    Senator Allard. Okay. Gentlemen, that takes care of my 
questions. And so we will go ahead and call this part of the 
hearing--we will dismiss this panel and then we will call on 
the next panel, which would be the Capitol Guide Board.
    I want to thank you all for your hard work and dedication, 
and all the fine people that you have underneath you, and all 
their fine work. I know they put in long, hard hours, and we 
appreciate that.
    Chief Gainer. Thank you, Senator.
    Senator Allard. Thank you.
                          CAPITOL GUIDE BOARD

STATEMENT OF HON. WILLIAM H. PICKLE, CHAIRMAN
ACCOMPANIED BY:
        BILL LIVINGOOD, HOUSE SERGEANT AT ARMS
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL
    Mr. Pickle. Mr. Chairman, unfortunately, you get to look at 
us a little longer.
    Senator Allard. We now have the Capitol Guide Board, which 
is Mr. Hantman, Mr. Pickle, and Mr. Livingood.
    Mr. Pickle. I think this is kind of unusual. This is the 
first time in a number of years that the Capitol Guide Board 
has testified.
    Senator Allard. New leadership on the subcommittee.

                  OPENING TESTIMONY OF WILLIAM PICKLE

    Mr. Pickle. But the Capitol Guide Service does a wonderful 
job, and by any measure, they are one of the best tour services 
in the world. So far this year they have accommodated more than 
200,000 visitors, and we believe that by October we may 
approach up to 1.5 million.
    The role of the Guide Service has changed quite 
dramatically since 9/11, like so much here. Prior to 9/11, it 
was more for tours and informational services. Since 9/11 they 
have become a very integral part of security. They help the 
police department in such things as emergency evacuation of 
tourists. Most of these visitors have never been in this 
building, and it is absolutely critical, as you have seen 
during some of the evacuations, that we have people who are 
trained to get people out of the building without hurting them 
and without causing more harm.
    We, today, have about 70 guides. And they handle roughly 
1,900 to 2,000 public visitors a day. The numbers are 
compounded by the fact that staff-led tours now total almost 
6,000 people a day. So we keep our tour guides busy not only 
with their own tours, but helping the staff as well.
    Tours are going to become a little more complicated as we 
get into the CVC, because, obviously, the jurisdiction or the 
role of the tour guide service will expand dramatically. To 
what degree, we do not know. That is still up to the governance 
board, and the House and Senate leadership who, as you know, 
are trying to decide just how this is going to be structured.
    But for 2006, we are pretty stable. We are asking for 
$254,000 more in the budget. It is a small 6.6 percent 
increase, and essentially covers COLAs and other minor 
expenses. We are not asking for any more positions this year. 
We believe additional positions for the CVC will be requested 
in next year's budget request.
    To show you the magnitude of what the Capitol Visitor 
Center is going to mean to the Guide Board, a consulting 
company that has been helping for the last several years and 
working with the Architect and that specializes in museums and 
large institutions, has indicated to us that their analysis 
shows we will need 161 guides to manage the CVC and the 
Capitol. This is because there are so many more 
responsibilities that the Guide Service will be required to 
take on in the visitor center. It is going to be a challenging 
year for us as we prepare for the CVC to open.

                           PREPARED STATEMENT

    I have nothing more, but we are here to answer any 
questions you may have, Mr. Chairman.
    [The statement follows:]

                Prepared Statement of William H. Pickle

    Mr. Chairman and Members of the Committee, thank you for 
this opportunity for the Capitol Guide Board to appear before 
the Committee. I am pleased to come before you today to report 
on the operations of the Capitol Guide Service and the 
Congressional Special Services Office (CGS/CSSO). With me today 
are Mr. Wilson Livingood, the House Sergeant at Arms and Mr. 
Alan Hantman, the Architect of the Capitol, who join me as 
Members of the Capitol Guide Board. Mr. Tom Stevens, Director 
of the Capitol Guide Service, is also with me today.
    The primary function of the Capitol Guide Service is to 
provide an enjoyable and accessible visit to the United States 
Capitol for over 1.5 million visitors annually. So far this 
fiscal year, the Guide Service has accommodated more than 
200,000 visitors on public tours alone. Also this year, the 
Guide Service has led approximately 55,000 visitors on Member 
Reserved Group tours, 7,500 on Congressional member tours 
(early-morning tours), 2,500 on Dome tours and more than 1,000 
visitors on adaptive tours for visitors with disabilities. 
Additionally, the Guide Service through its Congressional 
Special Services Office, has provided over 500 hours of sign 
language interpreting services for Congressional business. 
These numbers represent the non-peak season. If current levels 
are an indicator, we may reach 1.5 million visitors to the 
Capitol before October. The Guide Service has also trained over 
1,500 Congressional staff to give tours so far this year. 
During the peak season staff bring approximately 6,000 visitors 
to the Capitol each day.
    The Capitol Guide Service has been in existence since 1876, 
employing five guides when it was established for the 
centennial celebration. The Capitol Guide board--similar in 
composition to the Capitol Police Board (House and Senate 
Sergeants at Arms and Architect of the Capitol)--was 
established in 1970 to formalize the Guide Service as a 
professional entity within the Congress and to supervise and 
direct its operation.\1\ The authorizing legislation in 1970 
called upon the Guide Service, which employed twenty-four 
guides at the time, to ``assist the Capitol Police by providing 
ushering and informational services, and other services not 
directly involving law enforcement, in connection with 
ceremonial occasions in the Capitol or on Capitol Grounds,'' 
among other duties.
---------------------------------------------------------------------------
    \1\ Effective January 3, 1971, Public Law 91-510 made the tour 
guides legislative employees under the jurisdiction of the Capitol 
Guide Board. The first free guided tour was conducted on January 3, 
1971.
---------------------------------------------------------------------------
    The role of the Guide Service in those days--pre 9/11--was 
to provide guided tours and informational guidance to visitors 
to the Capitol. Since then, the role of the Guide Service has 
expanded to include a quasi-security function. Following the 
events of 9/11, we called upon the Guide Service to assist the 
Capitol Police with emergency preparedness. Guide Service 
management is now equipped with emergency radios, providing a 
communications bridge to the Guide Service's own radio system. 
All Guide Service personnel have been trained in evacuation 
procedures. It falls to the Guide Service staff to assist the 
Capitol Police in the evacuation of those on public tours, who 
for the most part, have never been inside the Capitol Building 
before.
    Today, we have seventy guides to perform these services. We 
welcome the opportunity to increase the duties of the Guide 
Service to meet the needs of the Congressional community as we 
transition to the Capitol Visitor Center.
    For fiscal year 2006, the Guide Service is requesting a 
total budget of $4,098,000, which is an increase of $254,000 or 
6.6 percent over the fiscal year 2005 budget. Of that amount, 
$228,000 (90 percent) of this increase over fiscal year 2005 
includes the estimated fiscal year 2006 COLA and increases in 
personnel benefits. The requested increase will enable the 
Guide Service to maintain the level of service currently being 
provided to Members of Congress and their guests based on 
current visitation volume and services provided. While the 
Board anticipates hiring additional staff to operate in the 
CVC, funding for those additional FTE's is included in the CVC 
startup budget, therefore, these positions are not requested in 
this fiscal year 2006 submission.
    The staff of the Capitol Guide Service and its 
Congressional Special Services office has done a tremendous job 
in providing the utmost in visitor services to all who come to 
experience the Capitol. The accomplishments of this office 
would not be possible without the support of this Committee. We 
thank you for your support and the opportunity to present this 
testimony and answer your questions.

    Senator Allard. I wanted to have an opportunity to see what 
the makeup of the Board is and have a chance to visit with you 
a little bit about it. And I realize that it has not been on 
anybody's radar screen, but I also think that this is a unique 
time, with us moving into the new Capitol Visitor Center, and 
would like to have some assurance from you that some thought 
was being given about what I foresaw as some changing dynamics 
in the way those tours may be handled----
    Mr. Pickle. Absolutely.

                            STAFF LED TOURS

    Senator Allard [continuing]. As we move into the new 
Capitol Visitor Center, and perhaps some jurisdictional 
concerns, which you alluded to, as far as the House and the 
Senate are concerned.
    We have 6,000 people led in daily, what we call staff-led 
tours, and then you have 2,000 visitors that come through your 
regular Guide Service. And the staff-led tours, these are staff 
from the individual congressional offices. That is a pretty 
sizeable number that we have our staff doing.
    Do you see a problem with the staff-led tours?
    Mr. Pickle. There is a real problem with staff-led tours, 
and it is that we want the tours to be worthwhile for visitors. 
They should be enjoyable and a learning experience. And quite 
honestly, we do not think we are getting the bang for the buck 
on these tours.
    The Guide Service works hard to train staff members in each 
office and on each committee to give a good tour. But the 
situation is more difficult when you have thousands of people 
in the Capitol.
    As you know, it is tough to walk from one end of the 
Capitol to the other during the middle of the day. Both the 
House and the Senate are working with the Guide Service Board 
now to come up with an alternative plan, or something that will 
make the tours a more enjoyable experience.
    We are sending a letter out on the Senate side today to all 
of the committees and all the offices reminding them of the 
rules for staff-led tours. We are also reminding them that the 
building will only hold so many people, then it becomes unsafe, 
and when we reach that limit, we will be canceling or stopping 
tours for a period of time. Mr. Livingood has been doing that 
for the last several weeks on the House side.
    Senator Allard. I would guess that you have a lot more 
staff-led tours on that side.
    Mr. Pickle. It is considerably more.
    Senator Allard. Do we have an idea of how many of these are 
Senate-led staff tours and how many are House-led staff tours? 
Any idea on that?
    Mr. Pickle. Two-thirds are House--4,000 House, 2,000 
Senate.
    Senator Allard. Okay.
    I think that is all. I just wanted to let you know we are 
looking at and thinking about the tours, and we need to have a 
little public discussion about it. But I think that as a new 
member of this subcommittee and also as its chairman that I 
need to do everything I possibly can to inform myself on the 
workings of the Capitol and the surrounding facilities that we 
have.

                          SUBCOMMITTEE RECESS

    So, again, I want to thank you for all your hard work. And 
the subcommittee stands in recess until May 11, when we will 
take testimony from the Government Printing Office and the 
Congressional Budget Office.
    And thank you, gentlemen, for your hard work.
    Mr. Pickle. Thank you, Mr. Chairman.
    Senator Allard. Thank you.
    [Whereupon, at 12:15 p.m., Wednesday, April 27, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, May 11.]




















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MAY 11, 2005

                                       U.S. Senate,
            Subcommittee of the Committee on Appropriation,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF BRUCE R. JAMES, PUBLIC PRINTER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    This morning, we meet to take testimony from three 
legislative branch agencies, the Government Printing Office 
(GPO), the Congressional Budget Office (CBO), and the Office of 
Compliance. I want to welcome all of our witnesses.
    We will first hear from Mr. Bruce James, Public Printer, 
who will be presenting GPO's budget request for $131 million. 
GPO's budget request is an increase of $11 million over the 
current year, or a 9 percent increase.
    Mr. James, you've made great strides in the past few years 
in improving GPO's operations, including closing the retail 
stores which had been in the red for some time, downsizing the 
workforce to better meet GPO's needs, developing a strategic 
plan, reorganizing the agency to better meet customer needs, 
and seeking opportunities for relocating GPO's facility.
    I would also note that GPO's financial situation has 
improved considerably, generating net income in 2004 for the 
first time since 1999. We look forward to reviewing the status 
of your efforts to make further improvements to modernize the 
Government Printing Office.
    Following GPO, we will hear from Dr. Douglas Holtz-Eakin, 
who is accompanied by his Deputy, Dr. Elizabeth Robinson. The 
CBO's budget request of $36 million is a modest 3.5 percent 
increase over the current year to maintain current operations.
    And then, finally, we will take testimony from the 
Executive Director of the Office of Compliance, Bill Thompson, 
and the Chair of the Board of the Office of Compliance, Susan 
Robfogel. The office is requesting a budget of $2.6 million for 
fiscal year 2006. While this is a 9 percent increase, we 
understand you believe additional funds over the requested 
level may be needed to fully meet your mandate.
    I will turn to my ranking member when he arrives, and in 
the meantime, we will go ahead and take testimony from our 
witnesses. We're going to start with Mr. James, Government 
Printing Office. I appreciate everybody's timeliness this 
morning, because I do like to get started on time, so Mr. 
James, you're up.

                    OPENING STATEMENT OF BRUCE JAMES

    Mr. James. Mr. Chairman, I appreciate the opportunity to 
address you this morning, I have a prepared statement for the 
record, if you'll accept that.
    Senator Allard. We will make that a part of the record.
    Mr. James. Thank you. I'd like to make a few comments. 
First of all, you may observe the room is filled with people, I 
think GPO has more people here this morning than you do, and 
you might assume that I have all these wonderful people here in 
case you ask any tough questions and I need answers, but that's 
not really the reason. This is an opportunity that I think is 
important for our people to see first hand what is on your 
mind, and what it is that we need to be addressing.
    Second, I have with me this morning a couple of our younger 
staff. We put a great deal of effort on recruiting from college 
campuses the best and brightest graduates to come in and join 
our organization, and with me this morning I have one of them, 
Ron Selby, who is a graduate of Cal Poly, and who's working in 
our digital media group, establishing new standards for 
Government information.
    And I also have with me one of our interns, an intern from 
Howard, here in town, Lonnie Stibey, and it's our hope that we 
can attract her when she graduates from school into the 
organization, too.
    I realize, Mr. Chairman, that you're new in this position, 
and we've not had a chance to talk about some of the background 
of the GPO, and if I may, I'd like to use my time here to talk 
about the big picture here for a minute, because I think you'll 
find this useful.
    We're in an interesting situation. We've had a disruptive 
technology thrust upon us, and that disruptive technology is 
the Internet, which is changing forever the way people will do 
business in this country. It's changing the way information's 
going to be handled, and it's changing the ability of Americans 
to access the work of their Government. As you know, the 
Government Printing Office goes back many years. When I was 
sworn into office, I was fortunate to have Justice Kennedy 
swear me in, and he gave me a little 15 minute talk. And during 
that period of time, he didn't talk once about making printing 
presses run faster. What he talked about was my responsibility 
in helping to preserve our democracy, by making certain that 
all Americans have access to information about the work of 
their Government.
    And so, in the past 2 years--and I've been there a little 
over 2 years--what we've been looking at is what are the true 
core requirements of the GPO, not just today, but what are 
those requirements going to be into the future. And we've done 
this by talking with all of the groups involved with the GPO, 
from Congress to librarians to printers, to our customers in 
the executive branch, to get a feeling from them about how 
their requirements are changing and what they're going to need 
in the future.
    And we also talked with universities to see what they were 
working on in their research laboratories, we talked with our 
sister agencies that are involved with information, like the 
Library of Congress, and the Archives of the United States. We 
visited with the major technology companies to see what they're 
working on in the future, and from all of this a pattern 
emerged. And we took last year to come together, and I took 
about 200 people at GPO working in small groups on the 
development of a strategic vision for the agency, published 
that vision in December of last year, and as I say to our 
folks, this is not the final blueprint, this is the music, and 
it's up to them to now fill in the words, but now we've got 
everybody on the same page and I'm pleased to say that we've 
gotten wide acceptance of the strategic plan, or our strategic 
vision, from the various groups, again, that we do business 
with.
    The next thing that we've looked at doing here is to try to 
decide where the funds are going to come from that are going to 
be required to transform the GPO from an analog, print-centric 
organization to a digital information organization, which is 
what's needed in the future. And there will be, literally, 
hundreds of millions of dollars involved in the cost of doing 
this, and so we've looked at this and thought about this as if 
it was business--how would we look at it? Well, we would have 
two choices--perhaps more than two--but we'd have two distinct 
choices.
    One is to turn to the capital markets to raise the money, 
and the other would be doing this from internally generated 
funds. And, in the case of a Government agency, of course, 
Congress is the capital market, we'd have to come to Congress 
for the funds that are necessary to make the investment, and 
continue to refresh the investment, and it's been very clear to 
me in the year, year and a half that I've looked at this, that 
Congress has priorities that are probably higher than the GPO, 
and let me just put it that way, and so I just don't think it's 
realistic to come to you and ask you for hundreds of millions 
of dollars.
    Instead we've looked at this and tried to determine how we 
could do this using our own assets, and I think we've come up 
with a very ingenious plan. It revolves around the facilities 
that we have on North Capitol Street, which are historic, they 
go back to the 1860's. We've acquired in that period of time 
about 80 parcels of land that we've accumulated and built four 
buildings altogether on that land. However, those buildings are 
now obsolete for the purpose that we have today, they're 
totally obsolete. They're very expensive to maintain; we 
estimate that we're spending as much as $35 million a year to 
maintain these obsolete buildings that we wouldn't have to 
spend if we were in proper facilities, properly located, and 
properly equipped.
    So, what we've done is, because we're five blocks from the 
U.S. Capitol, we realize that this land, these facilities could 
be very valuable to the Government in the future. So, we've 
looked at the possibility of doing a deal with the private 
development community wherein we would lease the land in 
exchange for payment coming from them. The payment, in turn, 
would be used to build and equip a new facility, and it also 
would be a continuing cash stream to us to be able to refresh 
our technology without having to make a burden on taxpayers.
    We've been at this for some time. We've engaged one of the 
preeminent real estate advisory firms in the country to help us 
with this, and we've been consulting with Members and staffs in 
both the Senate and the House, and I think we are coming right 
down the road. I hope to be able to institute that this year. 
It is the single-most important thing in front of us.
    The second thing that we're doing that is absolutely 
critical to the future of Government information is the 
development of what we're calling the ``Future Digital 
System,'' sometimes it's referred to as the ``Digital Content 
Management System''. It is a single system that is based on 
what's going to be required to ingest Government documents that 
are created in digital form, and to manage that information 
through a life cycle, and the life cycle in the case of the 
United States of America is in perpetuity. And in trying to get 
our minds around what that is, we realize that's a long time. 
And I guess you, philosophically, can argue whether it's 
forever or not, but in perpetuity's a long time.
    We've had that charge since 1813, of making certain that 
the documents created by the United States Government are not 
only available to the public, but that we keep them for future 
generations. So, we're developing a large system. Again, we're 
looking how to do this with internally generated funds. I 
realize I can't just come to you and ask you to again put tens 
of millions of dollars into this, and we think we have a way of 
doing this and will be coming back to you in the next week or 
two to talk about it. And that is, that we have a revolving 
fund, and as the appropriations come each year--the two major 
appropriations we get, one is for congressional printing and 
binding, the other is for dissemination through the Federal 
depository library program and through the Internet--we have 
accumulated some surpluses from past years. I say they became 
surpluses only because we've become more efficient. That money 
was set aside to do work in the future, going back and taking 
care of documents that were created by Congress and agencies 
that would only be printed in future years, and we've just 
gotten more efficient. And so, we see an opportunity to use 
those funds to support the building of a future digital system. 
And, again, I think it's an ingenious way of using that money, 
it's a terrific investment. And so we'll be coming back to you, 
Mr. Chairman, to talk about that in the next week or 2.

                           PREPARED STATEMENT

    So, those are the major issues that we have here, I think 
that we have proven that we can get our arms around this large 
agency and sort of tame it, and bring it under control. We 
introduced, as you pointed out, a number of practices in the 
agency that now allow us to be able to predict what will 
happen, and measure what we do, and make adjustments as 
necessary to be prudent managers of the enterprise.
    Mr. Chairman, those are my opening remarks, and I will be 
pleased to answer any questions you may have.
    [The statement follows:]
                  Prepared Statement of Bruce R. James
    Mr. Chairman and Members of the Subcommittee Legislative Branch 
Appropriations: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2006.
                              2004 results
    I'm pleased to report that the GPO made significant progress during 
fiscal year 2004--the first full year of our efforts to transform this 
venerable agency from a 19th century printing factory into a 21st 
century digital information factory.
    We restored the GPO's finances to a positive basis for the first 
time in 5 years, broadened the application of best practices throughout 
our operations, prepared for the release of new product and service 
options, and set in motion our plan to relocate to a modern facility. 
With the release of our Strategic Vision for the 21st Century in 
December, we set the GPO on a new course for the future.
    Underscoring our progress are the results of the GAO's widely 
anticipated study of Federal printing and information dissemination 
activities, Government Printing Office: Actions to Strengthen and 
Sustain GPO's Transformation, which was requested originally by this 
committee in 2002 and released in June, 2004. The study validates our 
efforts to redirect the GPO's focus toward information dissemination in 
the digital era.
    We generated consolidated net income in 2004 for the first time 
since fiscal year 1999, reversing a trend that had depleted our 
financial reserves and jeopardized our ability to finance needed 
technological modernization. We also recorded a significant positive 
adjustment to our long-term worker's compensation liability under FECA, 
which further strengthened our finances.
    We implemented plans to achieve savings and improve service 
provision by outsourcing financial and IT support operations. We closed 
our final ailing regional printing plant. A second retirement incentive 
program, authorized by the Joint Committee on Printing, resulted in an 
additional workforce reduction of 250 positions, yielding a cumulative 
workforce reduction of approximately 550 positions, or nearly 20 
percent, since January 2003.
    We established an office to devise new product and service options 
for Congress and Federal agencies. Security documents are gaining 
increased attention throughout the Government--from biometric passports 
to requirements for new security document standards contained in the 
Intelligence Reform and Terrorism Prevention Act of 2004--and we view 
this as a major new opportunity for the application of the GPO's expert 
capabilities. We began reviewing options for developing GPO facilities 
outside of Washington, DC, to enhance security and continuity of 
operations.
    During 2004 we began planning for the development of a Digital 
Content Management System that will allow us to obtain, preserve, and 
provide access to information produced by all three branches of 
Government, and to material currently in the custody of the GPO and 
Federal depository libraries nationwide. The Digital Content Management 
System will enable the GPO's customers to electronically access the 
content they want and allow us to deliver it in the formats they 
desire.
    As we reported to this Committee last year, a key to the GPO's 
future will be relocating from our aging, oversized quarters to modern, 
efficient facilities scaled and equipped to meet our needs in the 21st 
century. Rather than burden the taxpayers with this project, we're 
investigating opportunities to finance it through the redevelopment of 
our current structures. In September 2004, following approval from the 
Joint Committee on Printing, we selected an expert real estate advisory 
firm to help guide us in this process, which we expect to culminate by 
late 2007. We will seek legislative authority for this project and are 
working on this with our oversight committees.
    Because of the relentless scope and pace of changes in information 
technology, the way the Government keeps America informed has been 
forever altered. The GPO's historic mission places us at the very 
epicenter of this change. We can no longer afford simply to react to 
change in information dissemination. Instead, we have to lead it. Late 
in the year we released our Strategic Vision of the 21st Century, which 
positions us to transform the GPO into a 21st century digital 
information service provider.
    The time has come for the GPO to fully assume its responsibilities 
as the Government's primary resource for gathering, cataloging, 
producing, providing, and preserving its published information in all 
forms. This is the GPO's historic mission, tracing its beginning to 
1813, when the antecedents of Federal Depository Library Program was 
first enacted. But to fully assume it, we must embrace our historic 
mission using the technology of the 21st century. Relying on the 
creative energy of our dedicated workforce, and based on the 
achievements we've logged over the past two years, we're well-
positioned to begin making our strategic vision of the GPO a reality.
                        fiscal year 2006 request
    Our fiscal year 2006 request is designed to provide for the: 
continuation of our congressional printing and binding operations at 
required levels; continuation of our information dissemination services 
at required levels; and investment in retraining our workforce to meet 
the demands of technology.
    Our fiscal year 2006 request is consistent with the financial goal 
included in our Strategic Vision, which is to provide the resources 
required to accomplish our vision using the GPO's own operations and 
assets as well as normal appropriations, with the exception of a 
onetime infusion of workforce development and training funds.
                        continuation of services
    For the Congressional Printing and Binding Appropriation, which 
covers printing and information product services for Congress, we are 
requesting $92.3 million. This is a modest rise over the level approved 
by Congress for fiscal year 2005, based on anticipated direct cost 
increases resulting primarily from contractual wage agreements and 
projected changes in congressional workload consistent with second 
session requirements.
    For the Salaries and Expenses Appropriation of the Superintendent 
of Documents, we are requesting $33.8 million, also a modest rise over 
the fiscal year 2005 approved level. This appropriation provides for 
the distribution of Government publications in both tangible and online 
formats to Federal depository and international exchange libraries and 
other recipients authorized by law, as well as the cataloging and 
indexing of Government publications. Today, our online information 
service, GPO Access (www.gpoaccess.gov), makes available free of charge 
more than a quarter of a million titles from all three branches of the 
Federal Government, and is used by the public to retrieve more than 37 
million documents every month.
    Since 1996, consistent with directions from Congress, the GPO has 
been transitioning the Federal Depository Library Program (FDLP) to a 
predominately electronic basis in full cooperation and consultation 
with the library community. This initiative has resulted in an 
exponential expansion of effective public access to Government 
information without substantial increases in funding. At the same time, 
we have continued to provide public access to information in tangible 
formats in accordance with policy established by the Superintendent of 
Documents.
    We value our partnership with Federal depository libraries and 
share their commitment to providing no-fee permanent public access to a 
comprehensive body of official Federal Government information, in print 
and electronic form. We will continue to expand electronic information 
offerings through the FDLP and will continue to provide for 
dissemination of tangible products to depository libraries in 
accordance with existing policy, in full consultation with the library 
community and our oversight committees in Congress.
                     investment in the gpo's future
    For our revolving fund, we are requesting $5 million for 
transitioning the GPO's workforce from traditional manufacturing and 
distribution skills to the capabilities required for managing the life-
cycle of Government information products. These funds will be used to 
define the workforce needed in the immediate future, assess the skills 
of current employees, identify the gaps, and then design and deliver 
targeted, just-in-time training to close those gaps.
    Our Strategic Vision identifies unexpended balances of prior year 
appropriations that have not yet expired as a potential source of funds 
for investment in our signature initiative, the Digital Content 
Management System. This system will serve both the FDLP as well as 
ingest information products produced by Congress for public 
dissemination. Under the language of our appropriations accounts, 
unobligated or unexpended balances in these accounts or accounts for 
similar purposes for preceding fiscal years may be transferred to the 
GPO revolving fund for carrying out the purposes of these 
appropriations subject to the approval of the House and Senate 
Appropriations Committees. The GPO used this legislative provision once 
before, in 2001, with the Committees' approval. For this appropriations 
cycle, and with the approval of the Joint Committee on Printing, we 
will seek the Committees' approval to transfer currently available 
funds to the revolving fund where they would remain available until 
expended in the development of the Digital Content Management System. 
This funding would also be available to liquidate any shortfalls in 
these appropriated accounts that may occur through fiscal year 2006.
    Mr. Chairman and Members of the Appropriations Committee, thank you 
for all the support you have shown for our efforts to bring 
transformation to the GPO. This past year has been one of unparalleled 
accomplishment at the GPO. With your support we can continue that 
record of achievement. I look forward to working with you in your 
review and consideration of our request.

        REDEVELOPMENT OF GOVERNMENT PRINTING OFFICE HEADQUARTERS

    Senator Allard. Mr. James, you have made tremendous strides 
in your efforts to modernize GPO. One of the biggest obstacles 
you face is your current facility on North Capitol Street--4 
buildings and 8.5 acres--far more than GPO needs and costing 
$35 million in operations and maintenance each year. What are 
the options you are exploring to finance a new GPO facility?
    Mr. James. The land that we have at North Capitol and H 
Streets is one of the most valuable pieces of real estate in 
the United States for potential development, and it's because 
of its location, one block from Union Station, and five blocks 
from the Capitol. It's clear that the District government would 
be opposed to tearing down the historic buildings that we have, 
and so we're going to have to preserve those historic 
buildings, however we end up doing this, but we have vacant 
land to go with these historic buildings, and my guess is that 
we'll end up with a mix of offices, retail, residential and 
perhaps, even, a hotel. And from our conversations with the 
District government, they're quite excited about this, because 
this fits into their general development scheme for the area 
quite well. This can be the lynchpin for them in really helping 
to develop that part of the city.
    So, what we've been doing with The Staubach Company, our 
real estate advisory firm, is looking at what would be the 
highest and best use of that land, not just for us, but for the 
city too, what are we going to end up with? Because what we 
want to do is go out to developers and we want to do this on a 
competitive process. We'll probably go through two stages--a 
request for information and a request for proposal. But I don't 
want to go out blind. I want to go out knowing what to expect 
back, so I have an ability to evaluate what we're hearing.
    Now, we've also been working with two other organizations 
that have more real estate experience than we do, and that's 
the General Services Administration, and the Architect of the 
Capitol, both of whom have been very generous in sharing their 
people with us as we set this process up. So, at the end of the 
day, we would expect, through a competitive process, to get the 
highest and best use of the property, and do it on a basis 
where we, the Government, retain the ownership, at least of the 
contiguous parcels on the west side of North Capitol, and at 
some period in the future it reverts back to the Government, so 
that we have a second bite at the apple.
    Senator Allard. According to your strategic plan, GPO 
``expects the terms of any redevelopment to be settled by mid-
2005.'' Are you on schedule?
    Mr. James. Yes, sir. We are. We have been working 
diligently in the last year on this, the final presentation 
from Staubach is due to be made to me next Monday, we have 
identified the issues that we need to work with Congress on, 
we've had preliminary discussions with Congress on this, and 
we'll be back in the next week or 2 asking permission to move 
forward.
    Senator Allard. Is legislation required to implement your 
plan?
    Mr. James. Mr. Chairman, we've looked very carefully at 
this, and under the law, I can probably do quite a bit on my 
own, obviously we wouldn't move without the concurrence of 
Congress, but it looks like we are going to need legislation in 
terms of the ability to keep the proceeds in redevelopment, but 
if we don't have that it looks to us like the proceeds would go 
back to the General Treasury.
    Senator Allard. Have you shared the plan with the 
appropriate committees of Congress?
    Mr. James. We have shared the development of that plan, 
we're getting ready to present the entire plan.
    Senator Allard. When will the Congress be presented with a 
plan?
    Mr. James. Within a week or 2.
    Senator Allard. Is your assumption that a new GPO building 
will be operational in fiscal year 2007 realistic?
    Mr. James. Well, my target is to be in a new facility--
which is separate and distinct from the redevelopment of the 
existing facilities, they can't begin to redevelop the existing 
facilities until we get out--so our goal is to be out and into 
a new facility by December 2007. Now, I caution, that's a very 
aggressive schedule, but I'm used to setting aggressive 
schedules, and trying to get there. It is an aggressive 
schedule.
    Senator Allard. Will any appropriations be required for 
this venture?
    Mr. James. Well, we've had some discussions with your staff 
about the future of appropriations, because we realize this 
isn't just a 1-year deal here, and the economics look to us 
like, quite frankly, we will be able to reduce our 
appropriations requests in the future, not ask for more money, 
and the reason I say that is, so much of what you appropriate 
to use, particularly for congressional printing and binding, 
encompasses the overhead that we have for maintaining this 
ancient facility. And when that overhead is reduced, we should 
be able to produce each page of a document for less money, 
therefore reducing, overall, the costs to the Government.

                          FUTURE COST SAVINGS

    Senator Allard. GPO's budget justification indicates that 
once you have a new plant and equipment, you expect to be able 
to reduce the congressional printing and binding appropriation 
by 30 percent. What is the basis of this projection?
    Mr. James. We estimate that we will be able, on the 
congressional printing and binding portion of the 
appropriation, we think by 2009, our request will be about 30 
percent less than it would be if we maintained ourselves in the 
same building.
    Senator Allard. Where will the savings come from?
    Mr. James. You know, I could probably best answer that 
question by taking you for a 10 minute walk through our 
facility. It was designed and built in the late 19th century 
and early 20th century, and we're maintaining nearly 100 
elevators that are in some cases 100 years old. We're 
maintaining an ancient facility that, at one time, housed 8,500 
people, and today we have less than 2,500 people in the 
facility. As we embrace technology, and do things more 
efficiently, we need fewer people. So, just by reducing those 
costs, we will save about $35 million a year, just from that 
alone.

                       SCHEDULE FOR NEW BUILDING

    Senator Allard. Is your assumption that a new GPO building 
will be operational in 2007 realistic?
    Mr. James. Mr. Chairman, I'm a novice at this, I've only 
been in Washington for 2 years, and of course, everybody tells 
me how slowly things move, and I realize that I don't have the 
same control on the project that I would if this were in the 
private sector, but I see no obstacles at this point that would 
keep us from meeting that aggressive schedule. There may be 
something that comes up, certainly Congress could slow us down 
and there would be other things that could slow us down, too, 
but I think this is a doable schedule, and I think it's 
realistic. It's very important that we have dates like that in 
mind for my planners, the folks that are planning what the new 
operation will look like, because as you might imagine, when we 
move to a new facility, this will be the start of a new 
culture. We will move from being print-centric with large--what 
I call, heavy metal--printing presses, and instead we'll move 
into digital production lines that are very efficient.
    I had a conversation the other day with the Clerk of the 
House about this, about the Congressional Record. I was talking 
to Mr. Trandahl about it, and I said, ``For instance, we no 
longer would have to think about giving each Member a complete 
Record each day. We could, instead, do a customized Record 
based on what their interests are, what their committees are, 
and just custom-make exactly what they need, because the entire 
Record's on the Internet, you can look it up on GPO Access or 
Thomas, so instead, we could save paper, we could save time, we 
could save energy, and make it much more efficient.'' So, we're 
looking at building a platform that will be far more flexible 
for our customers in the future.

                   DIGITAL CONTENT MANAGEMENT SYSTEM

    Senator Allard. According to your statement, GPO will be 
seeking congressional approval this year to reprogram $20 
million from previously appropriated funds to develop a new 
integrated digital content management system. Could you explain 
what this is and why it is necessary?
    Mr. James. Well, it's necessary because technology has 
changed. Twelve years ago, the Government didn't have any 
documents on the Internet. Last month, we estimate that 50 
percent of all Government documents were born digital, to never 
be printed by the Government. This doesn't relieve the 
Government of the responsibility of having that information 
available to citizens, and our web portal, GPO Access, is the 
Government's principle point for citizens to enter and look at 
the documents of Government. We have about 256,000 documents 
available for citizens on GPO Access, we have about 1 million 
downloads a day of Government documents. This didn't exist 10 
years ago. So, we need to have a system that's robust enough to 
handle that--and if I may add, if I may just extend that remark 
slightly--there are profound changes coming down the road.
    The Internet that we have today is nothing like what the 
Internet 5 years from now is going to look like. The Internet 5 
years from now will be running at 20,000 times the speed of 
today's Internet. The way the Government gathers information 
and the way we present information is going to change. We're 
going to make far heavier use of video and audio, and what we 
need to do is prepare the way, so that when you're ready to 
introduce new ways of doing things, we have the support 
mechanism in place.

                       LEASE OF CURRENT FACILITY

    Senator Allard. If you're planning to lease the current 
facility, are you counting on whoever leases it to maintain the 
buildings, or will GPO need to do that, and is GPO going to 
have a surplus out of this lease arrangement in order to pay 
for the other building?
    Mr. James. We won't be doing the maintenance, Mr. Chairman. 
The developer that we pick together will be doing this.
    Senator Allard. And the Government will continue to own 
those buildings?
    Mr. James. Yes, sir.
    Senator Allard. And the land, too?
    Mr. James. Yes, sir.
    Senator Allard. And, have you got some figures on what it's 
going to cost to maintain and operate the lease site?
    Mr. James. We're not going to know that until we go out for 
proposals from developers. And again, this is not our money, 
this is not taxpayer's money that we're putting into this 
development project. This will be capital the developer raises 
and brings to the project. The developer's the one who will be 
responsible for building anything, changing anything, with his 
own funds, and for paying the cost of maintaining it, paying 
the costs of leasing it, collecting the rents, doing all the 
things that would normally be done. We simply sit there with a 
lease that is guaranteed, of course, by the fact that we own 
the land, and the buildings, we own those, so that's our 
guarantee, and we will get then, each year, or each month or 
however the arrangement is made, we will get a sum of money 
paid to us.
    Senator Allard. You had a number of developers who were 
interested in this project, is that right?
    Mr. James. I believe we have gone through the steps of 
making certain that the world's premier developers are aware of 
this. We believe that we will have great interest in this 
project, from the best developers in the world.
    Senator Allard. At this point in time, how would you 
characterize the interest in this venture? High, medium or low?
    Mr. James. Very high.

                          DIGITIZATION EFFORT

    Senator Allard. Okay. One of the efforts you had was to 
digitize and authenticate all known Federal documents. How far 
along are you in that goal?
    Mr. James. Today any document that is possible to digitize, 
we're digitizing, every new document coming along, and we've 
been doing that for some time. But, of course, we have a lot of 
documents that have been issued over the years, going back to 
1789 and even before that that are considered Federal 
documents, that are available only in paper, and therefore 
they're in just a few locations around the country. Scholars 
have access to those documents but the general public doesn't 
have access to that information. And so we think to have a 
truly usable database of Federal information, that it's going 
to be important to go back and digitize those documents, to 
find them and digitize them. The good news is that we already 
own those documents, we the Government own those documents, and 
they're maintained at Federal depository libraries in 
partnership with the Government. Fifty-three of those 
libraries, called regional depositories, have very extensive 
collections, and we've talked with several of them that would 
be interested in participating with us in this project in 
furnishing those documents back to us.
    We are looking right now at building a new business unit at 
the GPO that we'll call the digital media group, and we're 
setting the standards, we're getting our arms around that 
project right now. And this is going to become a very important 
part of retraining our workforce. We have a lot of people with 
skills in platemaking, printing, and binding that won't be 
needed in the future. Instead, it will be people with digital 
skills, and so what we'll be doing is transforming those jobs 
from the old world into the new world as we establish the 
digital media group.
    We've talked with our customers, and we have roughly 500 
agencies in the Government who are our customers, many of whom 
have requirements to digitize documents. We've discussed with 
them the possibility of building this enterprise of digitizing 
Federal documents in the depository library system, and also 
offering services to other Government agencies, and we've 
received a lot of interest in that.
    Senator Allard. Are you far enough along to have an idea as 
to how long it will take to do this and what the cost might be?
    Mr. James. If we do this smartly, there isn't going to be 
any additional burden of cost, and I say that because we're 
taking people that are already on our payroll that we're 
already paying, and we're going to move them from the job 
they're doing today into this new area. So, it's not going to 
be additional cost. My goal is to have 70 percent of all the 
retrospective documents into a digital system by the end of 
2007. We think that's a realistic and practical goal.

                      TRANSITIONING THE WORKFORCE

    Senator Allard. Okay, now along with this transition that 
you're talking about, going into the digital age, you've 
requested in your budget $5 million that has been defined as 
``transitioning the GPO workforce.'' What will be the impact if 
we're unable to provide this appropriation?
    Mr. James. Well, it would probably cost the jobs of 400 or 
500 Government workers, and we'd probably get back to you, 
talking about the fact that we're going to have to terminate 
those workers, because they wouldn't have the skills that we 
need for the new world. We think this $5 million is a really 
modest investment in taking people who have proven their 
ability to be good employees, and who have been dedicated and 
loyal to the Government, many of them for more than 30 years, 
and give them the benefit of acquiring new skills, and this is 
the right thing to do.

                             SMART PASSPORT

    Senator Allard. Let me move over to your working with the 
State Department on what's been referred to as a ``Smart 
Passport.'' What's the status of that effort, and what impact 
will this activity have on GPO's future?
    Mr. James. As we've looked at the future, it's very clear, 
Mr. Chairman, that security and intelligent documents are going 
to become more and more important to the GPO. It's going to 
comprise a significant portion of our business 5 years down the 
road. The start of it is the putting of an electronic chip and 
antenna into the new U.S. passport.
    We've been at work on this project with our customer, the 
State Department, for nearly 1\1/2\ years. We've been looking 
at the various possibilities, how we're going to do this, how 
this chip is going to be included in the passport. We 
manufactured the very first electronic passport about 3 months 
ago as a test, and my understanding is that the State 
Department is going to be rolling out the electronic passport, 
which we produce, later this summer in an official version--the 
version that you would carry or diplomats would carry--to test 
it. We know what happens with a traditional passport when it 
goes through a washing machine, we know what happens to the old 
passports. What we don't know is what happens with the new 
electronic passport if you leave it in the trunk of your car. 
So, we'd like to get some information, the State Department 
would, before they begin to issue those to general citizens, 
but they expect that early next calendar year they'll be 
rolling out those passports.

                      FEDERAL DEPOSITORY LIBRARIES

    Senator Allard. On the Federal depository library system, 
is the depository library community satisfied with your 
approach, going to the electronic dissemination of information?
    Mr. James. Well, there are thousands of people involved in 
the Federal depository library community. As my opening remarks 
indicated, we have experienced a very disruptive technology. 
It's not only disrupted our lives and your lives, but it 
certainly is having a profound effect on libraries. I think we 
have general concurrence throughout the community of the 
importance of building the digital database of all U.S. 
Government documents from the beginning of time until now, and 
keeping that current. We're 100 percent on the same page.
    Our instructions from the Appropriations Committees over 
the years have been to transform the depository library system 
from a paper system to an electronic delivery system. And we've 
been doing that and today, most of the documents we deliver are 
in electronic form, we no longer print them.
    But there's certainly documents left that we are printing, 
and there are certain communities within the Federal depository 
library system that still have a need for paper documents, and 
we're going to have to find a way to continue to provide those 
paper documents as long as they need them. And every day we 
work on this issue with the depository libraries.

                GOVERNMENT PRINTING OFFICE FIELD OFFICES

    Senator Allard. GPO has 20 field offices for print 
procurement. What is the status of any effort to realign any of 
those offices?
    Mr. James. Mr. Chairman, they are more than just offices 
that purchase printing. As I'm sure you know, the GPO doesn't 
print only in our own plant. Most of the Government's 
requirements are placed into private sector. Last year we sent 
work to 2,568 printers around the country. We buy printing very 
efficiently. Now our regional offices help us in buying 
printing efficiently, and in making certain that printing is 
widely distributed throughout the United States.
    However, they also work with our customers, our customers 
being the agencies of Government, and there are very few people 
who run programs in other Government agencies that have skills 
and knowledge about information, how it's created, how it's 
processed, and how it's used. Today, of course, it's always 
digital as well as printing, so our people have those skills, 
and we work with our agency customers in helping them to 
accomplish their mission.
    Now, whether or not we need 20 offices is the question, and 
we are continuing to examine that and look at whether there is 
a more efficient way of providing a high level of service to 
our customers.

                           INTERNAL CONTROLS

    Senator Allard. One final question, the Inspector General 
has suggested that perhaps there needed to be improvement in 
the contracting processes, particularly on your internal 
controls. His concern was it would help prevent the potential 
for waste, fraud and abuse. What steps are you taking to meet 
those concerns?
    Mr. James. I could not agree more with them. We did not 
have, when I arrived, the proper methods, the proper 
techniques, the proper technology to efficiently and 
effectively manage this contracting. And we've taken very 
aggressive steps to make the investments necessary to get this 
under control, and I can report to you that I completely agree 
with the Inspector General, and we are moving on this as 
promptly as we possibly can.
    Senator Allard. That's all the questions I have, Mr. James, 
and we need to move forward because I think we've got a vote 
scheduled for 11:30.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will perhaps be some other questions from the 
subcommittee and I think perhaps Senator Durbin might have some 
questions from that side of the aisle, and I ask that you could 
respond promptly when you get those questions. Is 10 days a 
reasonable time period?
    Mr. James. Absolutely.
    Senator Allard. We thank you for your testimony, and then 
we'll move on to the next panel. Thank you, Mr. James.
    Mr. James. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
    Question.. Mr. James, what changes does GPO plan on making with 
regard to the production of U. S. passports?
    Answer. In cooperation with the State Department and other Federal 
agencies, a major effort is underway at the GPO that will lead to the 
introduction of an electronic passport in 2005.
    The new electronic passport will enhance the security of millions 
of Americans traveling around the world and facilitate the movement of 
travelers at ports of entry. The electronic passport will contain an 
embedded computer chip that complies with the recommendations of the 
International Civil Aviation Organization (ICAO) and will be consistent 
with the provisions of the Enhanced Border Security and Visa Entry 
Reform Act of 2002. The electronic passport is a significant step 
forward in the utilization of advanced information technology to meet 
the requirements of one of our most important customers, the State 
Department.
    The development and production of the electronic passport will be a 
three-phase project:
  --The GPO will produce test passports using chip solutions provided 
        by commercial vendors that manufacture this technology. The 
        National Institute of Standards and Technology will then test 
        the electronic passports for their ability to meet durability, 
        security, and electronic requirements.
  --Once testing results are completed and the final vendor(s) 
        selected, the State Department will conduct an operational 
        field test, and then begin issuing electronic passports to 
        Federal employees. The current timeline for these activities is 
        in the summer and fall of 2005.
  --The first electronic passports are currently expected to be issued 
        to the general public later this year, with full deployment at 
        all Department of State passport agencies in 2006.
    Question. Where are you considering locating your GPO continuity of 
operations facilities outside of the Washington, DC, area?
    Answer. As provided for in the GPO's Strategic Vision for the 21st 
Century, submitted to Congress in December 2004, we are reviewing 
options to establish an ancillary facility outside of Washington, DC, 
for the production of U.S. passports and other security and intelligent 
documents. In view of the events of September 11, 2001, and the 
subsequent anthrax and ricin attacks on U.S. Capitol buildings, we 
believe it is essential that a geographically separate facility be 
established to produce these essential products in the event that 
current capabilities at the GPO become unavailable.
    We are currently discussing location options and capabilities with 
officials of the State Department. Optimally, this facility would be 
located at the Nevada Test Site, which can provide a maximum level of 
security for these important documents. However, we are prepared to 
work with the State Department and our oversight committees to fully 
review the cost and benefits of alternative location options.
    Question. You have conducted two buyouts since 2003, both of which 
substantially reduced your workforce. Do you have the staffing to 
ensure that GPO is able to carry out its mission successfully?
    Answer. The buyouts we conducted in 2003 and 2004, with the 
approval of the Joint Committee on Printing as required by our 
retirement incentive legislation, reduced our workforce by 
approximately 550 positions, or 20 percent, yielding annual savings of 
about $38 million. The buyouts were conducted at a time when nearly 
half of GPO's workforce was retirement-eligible. Also, many of the 
positions that were reduced came from our publication sales program 
area, which was unable to continue supporting a personnel 
infrastructure of its previous size. With reorganization of our 
functions, over the past year we were able to meet our mission 
requirements while continuing to carry out transformation activities to 
prepare GPO to meet the requirements of the 21st century. We are 
closely monitoring our mission performance and taking all necessary 
actions to manage customer expectations from Congress, Federal 
agencies, and the public.
    Question. Your Strategic Vision document outlines a new 
organization for the GPO. Can you please explain it for us?
    Answer. To better address the many challenges and opportunities 
posed by the 21st century publishing environment, GPO will reconfigure 
its organizational structure around six business lines. These new 
Business Units will be phased in over the next two years in the 
following order:
  --Security and Intelligent Documents.--This line of business will 
        work with Federal agencies to assist in the safe and secure 
        design, production, and distribution of security and 
        intelligent documents, many of which will incorporate 
        electronic and other fraud and counterfeit protection features.
  --Digital Media Services.--This unit will develop and maintain the 
        resources necessary to provide services to Federal agencies and 
        the Federal Depository Library Program (FDLP), to allow them to 
        both add content to GPO's Digital Content Management System, 
        and to withdraw or receive content to produce specific products 
        and services. It will also house GPO's creative capabilities 
        for customers.
  --Customer Services.--This is an existing GPO business unit that will 
        be organized around its customers, with a team of GPO employees 
        assigned to each principal agency customer. Each team will have 
        a manager whose responsibility it is to become an authority on 
        the mission of their customer agency and will be supported by a 
        national account manager whose responsibility it is to develop 
        new business from the agency and to visit the agency's 
        principal locations on a regular basis to consult with program 
        managers.
  --Library Services and Content Management.--This unit will continue 
        to manage the FDLP under the direction of Congress to ensure 
        equitable, secure, convenient, and permanent public access to 
        Government information in tangible and digital forms. It will 
        oversee the development of processes and standards to ensure 
        the timely inclusion of all past, present and future Government 
        publications, whether born digital or created through 
        digitization of print material, into the GPO Digital Content 
        Management System to create a complete FDLP digital information 
        collection that can be authenticated and preserved for future 
        generations.
  --Publication and Information Sales Program.--This unit will develop 
        a capability to fulfill customer orders through other 
        booksellers. GPO will continue to provide subscription services 
        for Government periodical publications that can be fulfilled 
        directly from the printer or its mail house, and that are 
        economically viable. Back copies will be provided by a contract 
        vendor employing on-demand printing technology to back a modest 
        inventory. It will also focus on developing unique collections 
        of digital information, which will be ``pushed'' over the 
        Internet to primarily business customers on a subscription 
        basis.
  --Official Journals of Government.--This business line will continue 
        to meet congressional and agency needs for these types of 
        traditional products while at the same time ensuring the proper 
        coordination of their digital versions with other GPO business 
        operations and meeting GPO's electronic information 
        dissemination mandate.
    Question. Tell us what you see as the future of the Federal 
Depository Library Program.
    Answer. As stated in our Strategic Vision, it is clear that all 
future Government information, including text and graphics, still and 
moving images, and sound, will either be born digital or transformed 
into digital structure for manipulation, storage and delivery to end 
users. It is the convergence of text, still and moving images, and 
sound, into a single electronic content database that will 
revolutionize future communications.
    The Federal Depository Library Program (FDLP) will determine the 
content of GPO's new Digital Content System, set standards for Federal 
documents, authenticate documents, catalog and manage the content, and 
determine the standards for preservation of the content for future 
generations. This will be done in context with the development of our 
proposed the Digital Content Management System.
    The FDLP will also set the standards for digitizing retrospective 
tangible documents, acquire both the tangible documents and digitizing 
services and provide quality assurance for the content. The goal is to 
digitize all retrospective documents that can be authenticated back to 
the Federalist Papers. We expect to complete 70 percent of this task by 
December 2007.
    Our proposed Digital Content Management System is under development 
by GPO's Office of Innovation and New Technology, in collaboration with 
other business units, and is scheduled for full implementation by 
December 2007. The hardware and software associated with the system 
will be managed by GPO's Office of Information Technology and Systems.
    Question. What actions have you taken in fiscal year 2005 to 
provide incentives for depository libraries to remain in the Federal 
Depository Library Program?
    Answer. GPO has been in continuous communication with the 
depository library community about the incentives to remain in the 
FDLP. Many of the incentives suggested by the community have been 
documented in a report available at http://www.access.gpo.gov/su_docs/
fdlp/pubs/proceedings/incentives_progress_
oct2004.pdf. A number of these suggestions have been or are being 
implemented:
  --GPO is launching the first phase of its new integrated library 
        system (ILS) later this month. This system allows GPO to share 
        cataloging information about Government publications with all 
        members of the depository library program and reduces the need 
        for individual libraries to invest local resources to create 
        cataloging information or pay fees to obtain this information 
        from others. The ILS will also allow the GPO to deliver 
        customized information to each of the member libraries based on 
        their individual library profile and generate electronic 
        shipping lists and other useful reports that the libraries have 
        requested.
  --GPO plans to expand its ability to connect citizens who are 
        searching the Internet for Government documents to depository 
        libraries who hold the documents by using the OCLC world 
        catalog of electronic library records, called WorldCat. 
        Currently, this access is available through the GPO Access web 
        site at http://www.gpoaccess.gov/libraries.html and access is 
        based on the current depository library item selections.
  --The GPO staff responsible for FDLP planning recently completed 
        research and prepared a white paper on the special needs and 
        concerns of public libraries as members of the FDLP. This 
        paper, which will be issued later this summer, was prepared in 
        response to concerns voiced in a breakout session for public 
        libraries during the recent Federal Depository Library Council 
        Meeting in Albuquerque, NM. The study helps GPO to understand 
        the issues public libraries currently face, so it can better 
        meet the needs of these FDLP partners. GPO will work through 
        regional depository libraries to develop strategies to support 
        public libraries that participate in the FDLP.
  --Federal agencies are producing over 90 percent of their new 
        publications in electronic format. Many of these publications 
        are posted on agency web sites and never sent to GPO, or 
        elsewhere, for printing. The depository community has asked GPO 
        to takes steps to ensure that this born digital content is 
        captured as part of the FDLP. Harvesting such electronic 
        documents is part of our proposed Digital Content Management 
        System. Additional information about the Digital Content 
        Management System can be found at http://www.gpo.gov/projects/
        fdsys.htm.
  --In accordance with our Strategic Vision, and with the approval of 
        the Joint Committee on Printing, our new Library Services and 
        Content Management business unit will support the Federal 
        depository library community in its efforts to create a 
        reasonable number of comprehensive collections of tangible 
        Government publications in view of changing library resources 
        and technology. GPO will also develop two complete collections, 
        as last resorts, that will store both tangible and digital 
        versions of all publications.
  --GPO is developing an electronic depository library manual in a 
        collaborative effort with volunteers from the depository 
        library community http://www.access.gpo.gov/su_docs/fdlp/pubs/
        im_volunteer_reg.html. This manual consolidates and updates 
        existing policies and allows for best practices and lessons 
        learned to be shared across the FDLP. It is intended to 
        simplify and clarify the instructions, policies and procedures 
        to make it easier to administer the FDLP.
  --At the 2005 Spring Federal Depository Library Council meeting, GPO 
        offered training to support new and experienced depository 
        librarians in learning more about the FDLP. Specifically 
        designed to respond to community requests, GPO offered 
        educational sessions aimed to introduce novice depository 
        librarians to the FDLP. In response to requests from the 
        attendees at these sessions, the educational programs will be 
        repeated at the 2005 Fall Federal Depository Library Conference 
        to ensure this basic training is made widely available to the 
        community.
  --Beginning with the 2003 Spring Federal Depository Library Council 
        meeting, GPO has hosted a series of breakout sessions for the 
        segments of the FDLP community. The breakout sessions are 
        organized by the type of library to make sure that the unique 
        concerns of each type and size of library are identified. These 
        listening sessions are informal gatherings that allow community 
        members to raise concerns and issues confronting their 
        community and library. FDLP members can communicate directly 
        with GPO staff about their particular concerns. A number of GPO 
        staff attend each session and compile lists of community 
        concerns so GPO can develop policies and strategies which 
        present viable solutions to these problems.
  --Beginning in February 1, 2005, GPO added information to the records 
        in OCLC's world catalog of library documents, known as 
        WorldCat. The goal of the project is to allow Government 
        documents in 30 regional depository libraries to be more easily 
        found by citizens. GPO created an automated loading process for 
        OCLC to improve the visibility of documents that may be found 
        in depository libraries. This service will enable citizens to 
        more easily locate Government documents and increase the 
        circulation and interlibrary loans of Government publications. 
        It was discussed in the February 15, 2005 issue of GPO's 
        Federal Depository Library Program newsletter, ``Administrative 
        Notes'', at http://www.access.gpo.gov/su_docs/fdlp/pubs/
        adnotes/ad02_031505.html#8.
  --In 2004, GPO established a special web site called ``Resources for 
        Federal Depository Library Directors''. Because many directors 
        have unique challenges balancing local needs and national 
        responsibilities as depositories, a web site that offers 
        consolidated depository resources was viewed as beneficial to 
        that specific part of the community. The web site home page is 
        linked from the FDLP Desktop, specifically at http://
        www.access.gpo.gov/su_docs/fdlp/directors/index.html.
  --GPO recognizes the contributions individual libraries make to the 
        FDLP by the annual awarding of the Federal Depository Library 
        of the Year. The award, made by the Public Printer, provides 
        special recognition for a depository library that furthers the 
        goals of the FDLP by ensuring that the American public has free 
        access to its Government's information. Criteria for the award 
        includes outstanding public services, such as significant 
        promotion of the Government documents and services in the 
        library and in the community, substantial cooperative efforts 
        with other depository and non-depository libraries to share 
        knowledge and Government information resources with a larger 
        community, access to a well-defined collection of depository 
        tangible and electronic resources to meet the needs of the 
        library's service area; and exceptional care and preservation 
        of the depository collection. Nominations for the 2005 Federal 
        Depository Library of the Year Award can be submitted at http:/
        /www.access.gpo.gov/su_docs/fdlp/fdlofyear/application05.html. 
        Nominations for the award are solicited every summer and the 
        award is presented at the Fall Conference by the Public 
        Printer. The Representatives and Senators who represent the 
        state and district from which the winning library is located 
        are invited to attend the awards ceremony to also recognize the 
        depository.
  --GPO promotes the FDLP and individual libraries in other ways. GPO 
        creates mass marketing literature, CD-ROM's, bookmarks, logos, 
        graphics, posters, and print/radio public service announcements 
        about libraries in the FDLP are received by public radio and 
        newspapers in their local communities. On a daily basis, the 
        support staff at GPO create educational and promotional 
        materials for the FDLP to enhance the visibility of the 
        depository library community and the services they provide.
    Question. Can you update the subcommittee on your efforts to 
relocate the GPO?
    Answer. Since arriving at the GPO a little more than two years ago, 
I have made the future of the GPO's buildings and productive assets my 
highest priority. In view of my longstanding experience in the printing 
and publishing industries, as well as my discussions about the matter 
with officials from the Office of Management and Budget, the General 
Services Administration, and the Office of the Architect of the 
Capitol, it is clear to me that the GPO's current structures are too 
large, too antiquated, and too inefficient to serve our needs or those 
of our customers in Congress, Federal agencies, and the public.
    Other Public Printers over the past half-century reached similar 
conclusions and tried without success to obtain right-sized, modern 
facilities. Over the past generation, as the GPO's workforce has 
declined from a high of nearly 8,500 to about 2,400 today and new 
technology has become available, the problems posed by our current 
structures have only grown more acute. Our buildings now present an 
economic and functional impediment to our future, especially as we move 
to transform this venerable agency into a digital processing facility 
for the 21st century.
    Our central office complex comprises approximately 1.5 million 
square feet of office and industrial space distributed among four 
multistory buildings constructed between 65 and 100 years ago. Other 
than infrequent direct appropriations for large scale building 
projects, the operating, maintenance, and repair (OMR) costs of our 
facilities must be recovered through the prices we charge Congress, 
Federal agencies, and the public for the printing and information 
dissemination work we are required to perform.
    Because of the age and inefficiency of our buildings, the OMR 
component of our prices has become enormously burdensome, today 
totaling approximately $35 million annually, or about 12 percent of our 
costs, without taking into account any capital expenditures for new 
equipment or for the upgrading or replacement of our buildings or their 
systems. These costs will only increase if we stay here. Over the next 
5 to 10 years, we estimate that the GPO will need to spend between $275 
million and $350 million to maintain, repair, and secure our current 
facilities. These are costs that can and should be avoided. Spending at 
this rate will drain our reserves of funds needed for essential 
investment in information technologies and drive the GPO into 
functional obsolescence in the not-too-distant future. I truly believe 
that our historic mission to provide for the information needs of 
Congress, Federal agencies, and the American people is much too 
important to have our future sacrificed to the upkeep of facilities 
that are no longer suited to our needs.
    As a solution, we propose the adoption of an innovative public-
private partnership approach under which we would relocate to a modern, 
in-line facility in the Washington, DC, area that would be equipped 
with technologies appropriate to our current and future mission. 
Instead of taxpayer-supported appropriations, we propose to use the 
value of the GPO's current real estate assets to underwrite this 
project. Under our proposal, we would leverage the aggregate net 
present values of the reduced OMR costs available in a new facility, 
currently estimated at approximately $148 million, and the 
redevelopment value of the GPO's current real estate holdings, 
currently estimated at approximately $236 million, through lease or 
other arrangements with one or more private developers. As a result, 
this approach will have direct impacts that will satisfy the 
requirements of our Strategic Vision for the 21st Century:
  --The proceeds from the transactions will be sufficient to pay all 
        costs associated with the new structure and equipment and 
        moving expenses;
  --The new operating environment will permit us to avoid having to 
        incur OMR costs at the currently wasteful rate, resulting in a 
        savings stream over each year of our occupancy of our new 
        building that will directly lower our future requests from 
        Congress for the Congressional Printing and Binding 
        Appropriation and the Salaries and Expenses Appropriation of 
        the Superintendent of Documents; and
  --A sufficient cash flow will be generated by the lease (or similar) 
        arrangement on our existing site to meet capital requirements 
        for investment in and replenishment of evolving information 
        technologies to support the needs of congressional and agency 
        customers as well as the information dissemination programs 
        covered by the Superintendent of Documents' Salaries and 
        Expenses Appropriation.
    On May 24, 2005, I transmitted a plan to the GPO's oversight 
committees on how these goals can be attained. It was developed by The 
Staubach Company, one of the foremost real estate advisory firms in the 
Nation, selected competitively for this purpose by the GPO with the 
participation and assistance of the General Services Administration and 
the Office of the Architect of the Capitol, and working under a 
contract approved by the Joint Committee on Printing in September 2004. 
At its core, the plan relies on making a strategic, innovative use of 
the ``lazy asset'' that the GPO's current structures have become to 
underwrite our relocation and reduce the future costs of our products 
and services.
    The plan supplements draft legislative language that would 
authorize us to carry out our relocation/redevelopment partnerships, 
which has been supplied to the Senate Rules and Administration 
Committee and the House Administration Committee for review. We are 
preparing to provide our oversight committees with briefings on the 
Staubach plan as well as any additional information they need in their 
consideration of our draft legislative language.
    Question. Are you consulting closely with the all members of the 
depository library community about the new directions for the GPO?
    Answer. GPO has been in continuous communication and consultation 
with the depository library community about our Strategic Vision, 
important planning documents, and various policy statements in numerous 
ways:
  --Regular meetings with the Depository Library Council and a 
        significant population of the FDLP librarians at the Federal 
        Depository Conference/Fall Council Meeting and Spring Council 
        Meeting.
  --Hosting biweekly conference and telephone calls and maintaining 
        routine e-mail communication with the Depository Library 
        Council members throughout the year.
  --Routinely posting important announcements and issue updates to 
        FDLP-L, GPO's broadcast email announcement service http://
        www.access.gpo.gov/su_docs/fdlp/tools/fdlplist.html.
  --Routinely posting proposed policy changes and planning documents to 
        the GPO web sites in order to gather public comments. Postings 
        are typically made to the FDLP Desktop in such places as News 
        and Updates http://www.access.gpo.gov/su_docs/fdlp/. Comments 
        are always solicited through FDLP-L and other discussion lists.
  --Monitoring and responding to postings on the Government documents 
        discussion list and other related Government information 
        discussion lists.
  --Regularly briefing and soliciting input at major professional 
        library conferences (American Library Association, Special 
        Libraries Association, American Association of Law Libraries, 
        Association of College and Research Libraries, various state 
        library association meetings).
  --Regularly briefing and collaborating at special events and on 
        special projects (Federal CIO Council working groups, Library 
        of Congress, Federal Library and Information Center, and the 
        Center for Networked Information).
    Question. Does your Salaries and Expenses request for fiscal year 
2006 ensure that important Government materials will continue to be 
distributed in print, as determined by the depository library 
community?
    Answer. At the level we have requested, and in combination with 
adjustments we are currently making to spending under this account, our 
fiscal year 2006 Salaries and Expenses Appropriation submission will 
cover the distribution of tangible products required by the depository 
library community.
    Question. It is my understanding that GPO is facing a shortfall in 
fiscal year 2005 in the Salaries and Expenses account. What is the 
magnitude of the shortfall and when did GPO first become aware of the 
shortfall? What has GPO done to date to mitigate this shortfall?
    Answer. Earlier this year, following consultation with our 
oversight committees, the Superintendent of Documents issued a 
statement pledging to continue the distribution of tangible products to 
Federal depository libraries consistent with the needs of the 
depository library community. Accordingly, we are making necessary 
adjustments to spending under the Salaries and Expenses Appropriation 
to cover the anticipated volume of tangible product distribution work, 
which at this point in time is projected to require an estimated $2.6 
million more than was originally budgeted for this purpose. As a result 
of these adjustments, staffing changes, and adjustments to overhead 
cost allocations, we project that spending for fiscal year 2005 
Salaries and Expenses requirements will be completely within the amount 
appropriated.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS HOLTZ-EAKIN, DIRECTOR
    Senator Allard. The next panel is the Congressional Budget 
office. Dr. Holtz-Eakin, it's good to see you again.
    Mr. Holtz-Eakin. It's good to see you, sir.
    Senator Allard. I get to hear from you from time to time 
since I serve on the Budget Committee. Proceed with your 
testimony when you're ready.
    Mr. Holtz-Eakin. Mr. Chairman, the CBO's pleased to be here 
today and we do have a written statement which we've submitted 
for the record, I will be brief.
    I want to begin by thanking this subcommittee for its 
support in the past, most recently in our fiscal year 2005 
appropriation and some reprogramming we did with the 2004 
funds, and going forward, we have what we believe is a fairly 
plain, vanilla request. As you noted at the outset, it's a 
request for a bit under $36 million, a rise of $1.2 million 
over last year, or 3.5 percent. The strategy in putting that 
together was to fully fund the personnel costs in the CBO 
budget, that's about 90 percent of our budget. They will rise, 
between paying benefits, a bit over 5 percent per year, and 
we'll hit the top line 3.5 percent rise by cutting back, most 
notably, in IT expenditures where things will fall by another 
19 percent, and a bit in other areas as well.
    We are able to do this by taking advantage of past efforts 
in cost-saving technologies, our budget analysis data system, 
moving that from a mainframe to a server platform, online 
application techniques, extensive use of our website for 
distributing documents to the public instead of printing and 
mailing them out. We also benefit from partnering with other 
congressional agencies. Our new financial management system, in 
partnership with the Library of Congress is in the National 
Finance Center for payroll, so we don't have to use the capital 
for facilities, so we have the ability to do this, and the 
bottom line, of course, is performance. And as we put in our 
written testimony and traditionally included in our budget 
submission operating plans, the CBO is providing the Congress 
good service for this money, and it represents a good buy, 
that's been true in the past, we hope to continue that in the 
future.
    I thank you for the chance to be here today.
    [The statement follows:]
               Prepared Statement of Douglas Holtz-Eakin
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2006 budget request for the Congressional 
Budget Office (CBO).
    CBO is a small legislative support agency. Its mission is to 
provide the Congress with timely, objective, nonpartisan analyses of 
the budget and the economy and to furnish the information and cost 
estimates required for the Congressional budget process. That mission 
is its single ``program.'' Approximately 90 percent of CBO's 
appropriation is devoted to personnel, and the remaining 10 percent, to 
information technology, equipment, supplies, and other small purchases.
    Appreciating the need for fiscal restraint, CBO has attempted to 
maintain its existing level of personnel by saving money in, and 
through, information technology and through other measures. CBO's 
proposed budget for fiscal year 2006 represents slightly less than a 
``current services'' request, in which the increases from 2005 are 
solely to cover estimated increases in pay, benefits, and general 
inflation. The request totals $35,853,000--a $1.2 million, or 3.5 
percent, increase over the appropriation for fiscal year 2005 (after 
the 0.8 percent rescission).
    The requested increase is dominated by $1.6 million for increases 
in staff salaries and benefits, which are estimated to grow by 5.2 
percent in 2006. CBO's information technology accounts will decrease by 
$354,000, or 19 percent, which has been made possible by an adjustment 
to the replacement cycle for equipment and savings from converting the 
Budget Analysis Data System from a mainframe platform to 21st century 
technology. The remainder of CBO's nonpersonnel budget will decrease by 
1.1 percent. CBO will generate savings in printing, storage, and 
postage costs by increasingly relying on online distribution of its 
publications.
    With the requested funds for 2006, CBO plans to continue to support 
the Congress in exercising its responsibilities for the budget of the 
U.S. government. CBO supports the Congressional budget process by 
providing analyses required by law or requested by the Committees on 
the Budget, the Committees on Appropriations, the Senate Committee on 
Finance, the House Committee on Ways and Means, other committees, and 
individual Members. Contributing in various forms, CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year;
  --Analyzes the likely effects of the President's budgetary proposals 
        on federal spending and revenues;
  --Estimates the costs of legislative proposals, including formal cost 
        estimates for all bills reported by committees of the House and 
        Senate and statements about federal mandates on states, 
        localities, and the private sector;
  --Prepares Monthly Budget Reviews, annual reviews of unauthorized 
        appropriations and expiring authorizations, and the biannual 
        volume Budget Options;
  --Conducts policy studies of governmental activities having major 
        economic and budgetary impacts; and
  --Constructs analytic models to project short- and long-term costs 
        and receipts of government programs.
    In fiscal year 2006, CBO's request will allow the agency to build 
on current efforts--specifically, to do the following:
  --Increase the number and reduce the preparation time of reports and 
        in-depth analyses for the Congress. The request will support a 
        workload of approximately 2,000 formal legislative and mandate 
        cost estimates as well as more than 100 analytical reports, 
        about 70 other publications and products, and a robust schedule 
        of Congressional testimony.
  --Support 235 FTEs (full-time-equivalent positions), the same number 
        as in 2005, including an across-the-board pay adjustment of 3.1 
        percent for staff earning a salary of $100,000 or less. That 
        adjustment is consistent with the ones requested by other 
        legislative branch agencies. The budget also reflects a 
        projected increase of 7 percent for benefits, and funds a 
        combination of promotions and merit increases for all staff, 
        including those whose salary exceeds $100,000 and who therefore 
        do not receive an automatic annual increase;
  --Provide for CBO's share of the Federal Accounting Standards 
        Advisory Board's budget ($430,000);
  --Continue support for telecommunications services to the Alternate 
        Computing Facility ($75,000);
  --Maintain and expand CBO's disaster recovery capabilities ($60,000);
  --Maintain and enhance the Budget Analysis Data System, the agency's 
        mission critical system for developing and maintaining 
        scorekeeping data and budget projections for use by the 
        appropriations and budget committees ($20,000); and
  --Sustain and develop CBO's financial management system, Momentum 
        ($100,000).
    Before I close, I would like to point out a few ways in which CBO 
has streamlined some operations, as well as mention cross-servicing 
arrangements and management improvements that CBO has undertaken or 
expanded upon over the past several years.
    First, in terms of streamlining, CBO: Reduced the footprint and 
staff of its library by 50 percent by increasingly relying on the print 
and online services provided by the Library of Congress; and eliminated 
storage services and reduced printing and mailing costs, as the 
agency's Web site has become the primary vehicle for disseminating CBO 
publications.
    Second, pursuing cross servicing, CBO does the following:
  --Coordinates with the Library of Congress for financial management, 
        reporting, travel, and other related financial and accounting 
        services--including using the same contractor that the Library 
        does for audit services. (CBO received a clean opinion on its 
        first audit of its financial statements this year.)
  --Partners with the Library for implementation and maintenance of an 
        integrated financial management and procurement system 
        (Momentum) that provides accurate, relevant, and timely 
        information to management for decisionmaking.
  --Utilizes the National Finance Center for payroll processing.
  --Receives support from the House Information Resources office for 
        CBO's computer data center.
  --Receives maintenance services from the Architect of the Capitol for 
        CBO's work space.
  --Contracts with the Government Printing Office for printing 
        services.
    Last, CBO's management improvements include these:
  --Expanding the use of information technology to develop an improved 
        report production system, an electronic distribution system for 
        publications and cost estimates (relying on the Web), an online 
        job announcement system, an online job application system, a 
        resume tracking system, and a property management inventory 
        system.
  --Discontinuing contracting for mainframe computing services by 
        reprogramming the Budget Analysis Data System to run on CBO-
        maintained servers. That conversion alone will save CBO 
        approximately $200,000 a year in its future budget submissions.
    As reflected in CBO's fiscal year 2006 budget request, those 
ongoing efforts have allowed CBO to keep cost increases to a minimum.
    Finally, I would like to thank the Subcommittee for its support of 
CBO's 2005 budget request. The funding provided this year will allow 
CBO to continue providing the Congress with vital analyses as well as 
enable the agency to make smart investments in core areas, which will 
enhance productivity and reduce costs.

    Senator Allard. Well, thank you. You're accompanied by Dr. 
Robinson at the table. I appreciate the modesty of your budget. 
It's important that CBO set an example. I try to set an example 
in my office, returning unspent dollars, and I'm glad to see 
that you have put together a modest budget here to meet your 
needs.

                         RESOURCE REQUIREMENTS

    Some of the questions that might come up--is it enough? You 
do have some big issues that you're working on--Social 
Security, Medicare, health insurance, prescription drugs--these 
are not easy programs to work with, and do you have the 
resources you need to meet your core mission?
    Mr. Holtz-Eakin. For this submission, we believe we do. 
Further cuts would jeopardize the core mission, because it 
would have to come from pay and personnel--we don't have the 
flexibility to put it somewhere else, and in the end, those are 
the resources that are most central for addressing those 
issues.
    Going forward, I echo your views that we must be cognizant 
of the need for spending discipline. Our ability to replicate 
3.5 percent per year on an ongoing basis is really limited, 
benefits are going up faster than that, and we are 90 percent 
personnel, and we cannot continually go back to the other small 
pieces of our budget and find the savings necessary to keep it 
that low, but for the moment, this submission will do the job.

                           BUDGET FORECASTING

    Senator Allard. Two years ago, CBO requested and received 
two additional staff.
    Mr. Holtz-Eakin. We did, and we thank you, for the support 
there, it helped us to undertake the dynamic scoring of the 
President's budget which was a new initiative when I arrived. 
We, at the moment, believe we have the right FTEs to do the job 
we're being asked.
    Senator Allard. I'm one of the members pushing for dynamic 
scoring.
    What has been your accuracy, your track record for coming 
up with the right figures that over time, proved out? Can you 
show a record of improvement in forecasting?
    Mr. Holtz-Eakin. We believe it's important for the Congress 
to know exactly what they're getting, and we have, on the 
website, and we can provide to you in great detail, the track 
record of our accuracy both in economic forecasting, and most 
importantly, budget forecasting, from the perspective both of 
spending, and revenues. I believe that most people would like 
us to do better, that includes us as well, but we have a track 
record that's comparable to any agency in the Government and 
any company in the private sector that attempts to do this.
    Senator Allard. Well, it's not easy.
    Mr. Holtz-Eakin. I'm glad you said that.
    Senator Allard. It's so unpredictable, and there's no way 
you have of knowing what those incidents might be that might 
have an impact on budget projections.
    Mr. Holtz-Eakin. The most important part of the budget 
projection has traditionally been forecasting receipts, and 
there the central issue is having accurate, up to date 
information about the structure of income tax returns, what--in 
particular--the high income individuals who pay the vast 
majority of individual income taxes are doing, and the fact 
that we receive--as does everyone else--income tax information 
about 2 years after it's actually filed, is one of the real big 
problems. We first have to actually forecast where we are, and 
then make a forecast for the future, and that is the one area 
where we have mentioned to all the departments in the fiscal 
agencies, that getting that data out more quickly would be 
helpful.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. That's all the questions I have. Again, I 
would ask you the same as I did the previous panel, we'd like 
to have a prompt response to any questions we may submit to you 
from this subcommittee. Would 10 days be a reasonable time to 
expect you to be able to get back to us?
    Mr. Holtz-Eakin. That would be fine, we look forward to any 
questions you might have.
    Senator Allard. That's all we have, and thank you very much 
for your testimony, and I think you're doing a good job.
    Mr. Holtz-Eakin. Well, thank you, and I appreciate the 
chance to be here.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                Questions Submitted by Senator J. Durbin
      coordinating efforts with other legislative branch agencies
    Question. How do you coordinate with other Legislative Branch 
agencies including GAO and CRS to ensure that there is not duplication 
in the work that each agency does?
    Answer. There are a number of actions undertaken by CBO and other 
legislative branch agencies to ensure there is not duplication in the 
work that we each do. On a continuing basis, the heads of each agency 
meet to discuss mutual challenges, share experiences, share information 
on key areas of work, and identify opportunities for collaboration as 
well as ensure there is no duplication of work between the agencies. 
Additionally, senior executives from each of our agencies meet through 
various forums to discuss work and collaborative efforts. The Chief 
Administrative Officers (CAO) Council currently is meeting monthly to 
better integrate and collaborate efforts on emergency preparedness and 
continuity of operations planning; the Chief Financial Officers (CFO) 
Council meets at least quarterly to share information on internal 
budget and financial management matters; a Chief Information Officers 
(CIO) Council has just been formed for the legislative branch agency IT 
employees to share information; and, for several years now, 
representatives from GAO, CRS and CBO have been meeting quarterly to 
discuss work efforts and ensure there is appropriate communication 
between the agencies on pending assignments.
    It should also be emphasized that several actions have already 
taken place to coordinate major activities between CBO and other 
legislative branch agencies. For example, we have had a long-standing 
agreement with the Library of Congress for the Library to provide 
support to CBO on a finance and accounting system. Together with the 
Library, we recently completed a transition to a new finance and 
accounting system (Momentum) and the Library and CBO have worked very 
closely together to ensure a successful transition to the new system. 
CBO also shares an IT data center with the House of Representatives, 
and we receive building support from the Architect of the Capitol in 
the Ford House Office Building.
                 elimination of certain staff positions
    Question. CBO reported that it has eliminated the need for certain 
staff positions (e.g., library services, publications) by adopting best 
practices in document distribution and information services. What are 
these best practices and how can other agencies use them to achieve 
savings? What additional opportunities exist across the agency to 
streamline positions?
    Answer. CBO eliminated a position in its library by increasingly 
relying on the print and online services provided by the Library of 
Congress. CBO also eliminated the position of printing assistant and 
transferred the person occupying that position to the agency's IT 
(information technology) group to help meet responsibilities there. The 
change was made possible by decreasing CBO's printing and distribution 
of hard copies of publications and relying even more than in the past 
on e-mail dissemination and the agency's Web site to provide access to 
publications and cost estimates. To bolster that approach, CBO improved 
its new-document notification system by adding an option for 
subscribers to receive instantaneous notification as each document in a 
selected area of interest is released. (Previously, the only option was 
to receive a next-day summary.) Those changes met the need of 
interested parties on the Hill and in the press for quick and reliable 
access (at no marginal cost to CBO). The Agency will continue to review 
library and publication distribution services to identify other areas 
of possible streamlining.
                      document distribution system
    Question. CBO is currently reviewing its document distribution 
system, with an aim toward streamlining. Has CBO undertaken any efforts 
to coordinate the streamlining of document distribution with other 
legislative branch agencies? What actions are being considered and how 
significant are the expected results, including cost savings?
    Answer. CBO contracts with the Government Printing Office (GPO) for 
printing and periodically coordinates with that agency to ensure that 
GPO's distribution of CBO's publications to the depository libraries is 
appropriate. Otherwise, CBO has not coordinated its document 
distribution with other legislative branch agencies, primarily because 
its distribution of hard copies is modest and time-sensitive.
    CBO is printing and mailing fewer publications. First, it has cut 
the numbers generally. It has also eliminated any automatic 
distribution to members of the public. Whereas CBO used to send copies 
of a few of its publications automatically to members of the public who 
expressed a general interest, it now awaits their specific requests. 
Moreover, the agency's reliance on electronic distribution is allowing 
it to dispense with its outside storage facility and, instead, maintain 
a small inventory in its basement storage room in the Ford House Office 
Building. The savings from reduced printing and mailing have not yet 
been realized, so precise figures are not available, but CBO is aiming 
for savings of up to 30 percent, or in the tens of thousands of 
dollars. The recurring annual savings from eliminating the outside 
storage facility is about $20,000.
                        library staff reductions
    Question. CBO reported that in recent years, it has successfully 
reduced the footprint and staff of its library by one-half by 
increasingly relying on the print and on-line services provided by the 
Library of Congress (LOC). What additional opportunities exist to rely 
on the services provided by LOC or other agencies?
    Answer. We believe that opportunities exist to better coordinate 
our needs for journals and books with the Library of Congress and/or 
other agencies' libraries. At CBO, we are increasingly relying on the 
availability of on-line journals, periodicals, subscriptions, etc. 
Either through our own contacts with vendors or through collaborative 
efforts with the Library, we have been able to meet most of our needs 
for journals and periodicals through on-line services. However, we've 
discovered that a number of scholarly and academic books needed by CBO 
employees are not yet available on-line. In these instances, we rely on 
the availability of these publications in the Library, or we purchase 
them directly for CBO. We are currently reviewing how we obtain 
journals and books for CBO employees, and are looking at options for 
agreements with the Library of Congress or other agencies' libraries to 
better meet our needs. Although we have not yet identified specific 
ways to rely on these services of other organizations, we expect that 
our review will help us in this effort.
                  property management inventory system
    Question. CBO reported that it had recently implemented a new 
property management inventory system. How is the new property 
management system being used to strengthen internal control and improve 
the safeguarding of assets? Can you describe the benefits, in both 
qualitative and quantitative terms, what CBO expects from the new 
property management system?
    Answer. The new property management system has strengthened 
internal control and improved the safeguarding of assets by providing a 
documented, standardized process for asset control and the tools 
necessary to track our inventory from cradle to grave. The software 
uses a common database for both Inventory Control and Asset Management 
to eliminate the possibility of equipment appearing in one database but 
not the other. However, for control purposes, employees responsible for 
inventory control do not have access to the asset management interface 
or vice-versa.
    All assets are bar coded and entered into the system upon receipt. 
They are tracked through their life. At disposal, all equipment is 
documented on a property disposal form, cross-checked by individuals in 
different units, and approved for excessing by the Assistant Director 
for Management, Business, and Information Systems. All capital assets 
are inventoried on an annual basis. As an additional safeguard, an 
independent auditor physically sees each piece of capital equipment and 
also verifies its financial data.
    Since CBO is a small agency with less than 5,000 physical assets we 
were able to select a low-cost, off-the-shelf, commercial property 
management system. The total cost for this new system was $17,000. 
Annual maintenance and support is approximately $4,000. If CBO 
developed a custom product in-house or contracted out development, the 
cost would have been ten to twenty times more. The new system is 
significantly easier to use than the prior one, both for inventory 
control and for asset management. This has reduced training costs as 
well as staff time in entering and maintaining asset data. It has 
proven extremely helpful in planning computer and monitor buys and in 
better managing equipment replacement cycles. In the old system, CBO 
largely used spreadsheets and an extremely manual process for asset 
management, particularly depreciation calculations. Since the new 
system combines inventory and asset management in one application, we 
are very near our goal of eliminating separate record keeping and 
reporting for asset management. This will reduce the likelihood of 
errors and result in a substantial time savings.
                   audit of cbo financial statements
    Question. CBO reported that it is working towards an independent 
audit of all CBO financial statements. Only a balance sheet audit was 
performed in fiscal year 2003. What is the expected timeline for having 
an audit of all CBO financial statements? In requesting proposals for 
audit work, what efforts have been made to minimize costs by 
coordinating with other Legislative Branch agencies regarding lessons 
learned from their first audits?
    Answer. CBO is under contract with Kearney and Company (auditing 
firm) to have all fiscal year 2004 financial statements audited by 
August 31, 2005. In order to streamline costs, CBO made a conscious 
decision to contract with the same auditing firm as the Library of 
Congress (LOC), since LOC provides CBO with financial management 
support. Given this fact, CBO was able to incorporate lessons learned 
from LOC's previous audits as well as reduce costs of the contract 
because audit work performed on LOC's financial management processes 
and systems are the same or very similar in nature to that of CBO.
                 automated financial management system
    Question. CBO reported the recent implementation of a new automated 
financial management system ``in cooperation with the Library of 
Congress.'' How is CBO using the new financial management system to 
improve performance and streamline operations? Can you describe the 
benefits, in both qualitative and quantitative terms, which CBO expects 
from the new financial management system?
    Answer. CBO is using its new automated financial management system 
to provide end-to-end acquisition and financial management. This system 
has eliminated redundancies in fiscal and acquisition operations. For 
example, CBO has been able to eliminate manually maintained 
spreadsheets as well as eliminate manual hard copy certification 
functions. These actions have streamlined the coordination processing 
time and reduced the error rate because information is not duplicated 
in various systems. This timesaving will provide acquisition and 
financial managers with more time to analyze and interpret resource 
data in order to further reduce costs though enhanced acquisition 
planning and resource management. Also, this new system will strengthen 
internal management control procedures, since the system is designed to 
provide electronic authentication of system users throughout the 
approval and certification process. The checks and balances maintained 
in this system will ensure clean auditable financial statements. In 
addition, CBO plans to provide management with real-time and near real-
time reporting capability to aid CBO decision makers in making sound 
short and long- term investment decisions.
                          OFFICE OF COMPLIANCE

STATEMENT OF WILLIAM W. THOMPSON, II, EXECUTIVE 
            DIRECTOR
ACCOMPANIED BY SUSAN S. ROBFOGEL, ESQUIRE, CHAIR, BOARD OF DIRECTORS

    Senator Allard. I'm going to call on the next panel now, 
which is the Office of Compliance. Here is Mr. Bill Thompson, 
and you have with you, Chair of the Board, Susan Robfogel.
    Proceed to your testimony when you're ready, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, we're pleased to be 
here this morning, and we both prepared statements that we 
would like submitted for the record.
    I'm going to cut to the chase here because of the time. The 
office has, essentially, three functions, the first of which is 
operating a dispute resolution program that handles everything 
from sexual harassment to disputes about paying overtime. That 
program proceeds very quietly and efficiently; we are not here 
today about any issue with the funding there.
    Secondarily, we're doing education. We're doing a lot with 
a little; we've revamped our website recently, and I think it's 
been considered by people we've talked to as one of the better 
websites they've seen from a regulatory agency.
    The third area that we're responsible for is occupational 
safety, public accommodation and access, and there we are not 
faring so well. As you may recall, about 1 year ago there was a 
report that recommended that we needed additional funds in 
order to be able to satisfy our mandatory requirement of 
complete inspections of the entire campus every 2 years. The 
GAO report also recommended that we change our methodology to 
be more complete in both our inspections and our interactions 
with the agencies which we are inspecting. We have done that, 
and the result of the experience that we've had is that the 
process is much more time consuming than we thought previously.
    At the time we made our initial request for the fiscal year 
2006 budget--which has a 9 percent increase--most of that, 
other than the COLA, was for one full-time position for an 
inspector of Occupational Safety and Health. In the months that 
have passed since then, as we got further into this new 
inspection process, it's become clear to us that we need 
additional funding. As a consequence, we are in the process of 
submitting an amended budget request. With that, I'll turn it 
over to Susan Robfogel.
    [The statement follows:]
             Prepared Statement of William W. Thompson, II
    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to appear before you today in support of the fiscal year 
2006 budget request of the Office of Compliance.
    With me today are Susan S. Robfogel, Esq., Chair of the Board of 
Directors of the Office, General Counsel Peter Ames Eveleth, Deputy 
Executive Director Alma Candelaria, and Administrative and Budget 
Officer Beth Hughes Brown.
    We present you for the second time a completely zero based budget. 
The accuracy of this year's largest budget cost allocation--staff 
time--has significantly improved because we have conducted periodic 
sampling to account for staff time needed to carry out each of our 
major function categories.
    This calendar year also marks the 10th anniversary of the passage 
of the Congressional Accountability Act of 1995. As we end the agency's 
first decade, we can look back at much progress, and some rough patches 
along the way. In February, 2004, the Government Accountability Office 
issued its major Report ``Office of Compliance: Status of Management 
Control Efforts to Improve Effectiveness'' GAO-04-400. At approximately 
the same time, the Office issued its first comprehensive Strategic Plan 
for fiscal years 2004-2006. Both of these documents reflect the 
continuing improvement in the Office's focus on its core missions, and 
its growing engagement with Congress and Legislative Branch agencies in 
collaborative initiatives to enhance our services in the mandated areas 
of dispute resolution, safety and health enforcement, and education and 
outreach to our regulated community.
    As recommended in the 2004 GAO Report, we are continuing to shift 
our focus in providing these services to a more interactive approach, 
enabling regulated employers to achieve greater voluntary compliance 
with the requirements of the Congressional Accountability Act. In light 
of the employment, security and safety challenges Legislative Branch 
agencies and employees face, one of our primary goals is to enable the 
regulated community to achieve substantial compliance with all 
requirements of the Act. And, we are doing all of this with a current 
budget of less than $2.5 million.
                           dispute resolution
    The Office's day-to-day employment dispute resolution function 
involving controversies under ten different laws, everything from 
alleged discrimination to the failure to pay required overtime, 
proceeds efficiently--although largely unnoticed--because of the 
confidential nature of the vast bulk of these cases. Hundreds of 
disputes in nearly all Legislative Branch agencies, as well as in 
offices of Members and committees of both chambers have quietly moved 
through the administrative dispute resolution system. The assistance to 
employing offices and employees provided by this discreet service is 
perhaps one of the great untold success stories of the past decade 
regarding the quality of Congress's internal operations.
                     safety and health enforcement
    However, the current situation regarding the Office's ability to 
carry out the Accountability Act's mandate in the areas of Occupational 
Safety and Health and public accommodation for the disabled is 
substantially more challenging. The Office has successfully encouraged 
major strides by the Office of the Architect and the other responsible 
agencies in improving conditions across the campus. However, GAO's 2004 
Report ``Office of Compliance: Status of Management Control Efforts to 
Improve Effectiveness'' GAO-04-400 confirmed the necessity of the 
Office's repeated budget requests for additional OSH staff and 
resources. GAO found that ``In contrast to most other CAA requirements, 
OOC is not fully in compliance with the CAA requirement that it 
`conduct periodic inspections of all facilities' of the agencies 
covered by the provision.'' GAO also found a ``dramatic increase'' in 
the number of health and safety inspections requested by employing 
offices and covered employees, and observed that the Office's resources 
``have not kept pace with this growth.''
    We have pointed out this structural shortfall in several past 
several budget requests, but we do not have resources at the level 
necessary to enable us to biennially assess the health, safety, and 
emergency response situation across the entire campus in a complete or 
timely manner. Under the Office's current General Counsel, the care and 
quality of our inspections has improved dramatically. However, doing a 
more interactive and thorough job of inspecting requires substantially 
more resources and more time.
    In response to the requirements of the CAA and GAO's 
recommendation, the Office is now in the midst of a definitive effort 
to establish the required authoritative and comprehensive OSH base line 
for all 17 million square feet of covered space in the D.C. metro area. 
Our General Counsel, who was appointed late in fiscal year 2003, has 
determined that the completion of the much more thorough, comprehensive 
and consultative biennial base line inspection mandated by the CAA and 
underscored in GAO's report will be substantially more time consuming 
and resource intensive than we had anticipated even as late as our 
fiscal year 2006 budget request. Even with the additional inspector FTE 
we have requested for fiscal year 2006, the General Counsel will not be 
able to complete a timely, comprehensive picture of the current safety, 
health and emergency response dangers across the entire campus. 
Hazards, some of which may be serious, remain unidentified.
                       educating our constituency
    The Office is also mandated by Congress to ``carry out a program of 
education for Members of Congress and other employing authorities of 
the Legislative Branch of the Federal Government respecting the laws 
made applicable to them and a program to inform individuals of their 
rights under laws made applicable to the Legislative Branch of the 
Federal Government. . . .'' 2 U.S.C. 1381(h)(1). While the Office 
continues to carry out this core mandate of the Act through various 
educational and outreach activities, we have been testing the limits of 
our capacity to become more pro-active in this area. Various additional 
outreach initiatives, such as further upgrading of educational products 
and a planned mediation workshop are occurring this year, but our long 
term ability to build on the momentum expected from these and previous 
enhancements will ultimately be dependent upon additional resources and 
information infrastructure access.
                               conclusion
    On behalf of the Board of Directors the appointees and the entire 
staff of the Office of Compliance, I respectfully request that the 
Committee respond favorably to the Office's fiscal year 2006 budget 
request. We will be happy to respond to any further questions which you 
may have.
                  appendix--the congressional mandate
    The Office of Compliance was established to administer and enforce 
the Congressional Accountability Act of 1995, 2 U.S.C. 1301, et seq. 
The Congressional Accountability Act applies 12 workplace, employment, 
and safety laws to Congress and other agencies and Instrumentalities of 
the Legislative Branch. These laws include: the Occupational Safety and 
Health Act of 1970; the Federal Service Labor Management Relations Act; 
Title VII of the Civil Rights Act of 1964; the Americans with 
Disabilities Act; the Rehabilitation Act of 1970; the Family Medical 
Leave Act; the Fair Labor Standards Act; the Age Discrimination in 
Employment Act; the Worker Adjustment and Retraining Notification Act; 
the Employee Polygraph Protection Act; and veteran's employment and 
reemployment rights at Chapter 43 of Title 38 of the U.S. Code. The Act 
was amended in 1998 to apply the Veterans Employment Opportunities Act.
    Currently, the Office has regulatory responsibility for employers 
in the Legislative Branch employing approximately 30,500 employees. The 
Office is also charged by the Act to make recommendations to Congress 
as to whether additional employment and public services and 
accommodations laws should be made applicable to the employing offices 
within the Legislative Branch.
    Under the direction of the Executive Director, the Office 
administers a dispute resolution system to resolve disputes and 
complaints arising under the Act, and carries out an education and 
training program for the regulated community on the rights and 
responsibilities under the Act.
    The General Counsel has independent investigatory and enforcement 
authority with respect to certain of the laws administered under the 
Act and represents the Office in all judicial proceedings under the 
Act.
                    the board of directors and staff
    The Office has a five-member, non-partisan Board of Directors 
appointed by the Majority and Minority Leaders of both houses of 
Congress. The Board members, who serve five-year terms, come from 
across the United States, and are chosen for their expertise in the 
laws administered under the Act. In a major vote of confidence in the 
current leadership of the Office, Congress enacted legislation in 2004 
granting authority to appoint the current chair and members of the 
Board to a second 5 year term in office. The Board acts as an 
adjudicative body in reviewing appeals by parties aggrieved by 
decisions of Hearing Officers on complaints filed with the Office and 
advises Congress on needed changes and amendments to the Act.
    The Office of Compliance currently has 16 full-time employees and 
pays the part-time Board members on a ``when-actually-employed'' basis. 
Our employee complement performs a multiplicity of functions, 
including: administrative dispute resolution, occupational safety and 
health and disability access enforcement, labor relations regulatory 
activity, education, Congressional relations, professional support for 
the Board of Directors, and general administrative and fiscal 
functions. The Office performs the functions of multiple agencies in 
and for the Executive Branch, including but not limited to, the Equal 
Employment Opportunity Commission, Occupational Safety and Health 
Administration, Occupational Safety and Health Review Commission and 
the Federal Labor Relations Authority. The Office regularly contracts 
for the part-time, as-needed services of approximately 25 other 
individuals as mediators, Hearing Officers, and safety and health 
investigators. The Office's senior full-time safety and health 
investigator is on permanent detail from the Department of Labor's 
Occupational Safety and Health Administration.
                 incomplete biennial osh-ada inspection
    During fiscal year 2004, our Office of the General Counsel (OGC) 
was able to inspect only about 4 million square feet within 25 
Legislative Branch facilities (some with multiple buildings). The 
General Counsel was unable despite best efforts to examine all 
Legislative Branch facilities during the 108th Congress biennial cycle 
of inspections, including large areas within the House and Senate 
Office Buildings and the U.S. Capitol Building space used for Member 
offices, Committee staff offices, and other non-AOC spaces as required 
by the Congressional Accountability Act. Therefore, it is certain that 
many hazards remain unidentified at this time.
    The total amount of covered premises in the metropolitan Washington 
region is in excess of 17 million square feet. Because of the 
comprehensive thoroughness with which the fiscal year 2004 inspections 
were carried out, as was encouraged by GAO's February 2004 Report, over 
2,300 serious hazards were identified in the 25 facilities inspected, 
as compared to 360 violations discovered in the same facilities and 
areas during the 107th Congress biennial inspection.
    As part of the revamped inspection regimen, the Office is now 
utilizing a widely recognized risk assessment code (RAC) to classify 
all hazards found to exist in the ongoing inspections. The time and 
costs required to conduct more interactive and comprehensive 
inspections, and the nearly seven-fold increase in the number of 
violations identified just during 2004 has made manifest that the 
Office's current level of resources are completely inadequate to 
complete the ongoing inspection of all covered facilities in the D.C. 
metro area in the foreseeable future or to timely respond to requests 
for inspections by employing offices and employees.
                   more consultation and collegiality
    GAO also recommended that ``OOC should establish congressional and 
agency protocols . . . between the Congress, legislative branch 
agencies, and OOC on what can be expected as OOC carries out its 
work.'' (GAO Report, Introduction) The Office of Compliance is 
developing new approaches to OSH regulatory activities which involve 
greater consultation, coordination, and transparency in both the 
investigatory and enforcement phases. This effort requires partnerships 
with employing offices and employees and a concomitant educational and 
training initiative to improve management and employee understanding of 
best practices. These activities are focused on fostering more 
cooperative efforts at achieving compliance with standards but they do 
not negate the statutory mandate to enforce the law.
    As we have mentioned, the fiscal year 2004 OSH inspection regimen 
was undertaken with much greater consultation with stakeholders. More 
interactive methods are more resource and labor intensive, and have 
further contributed to the Office's inability timely to complete the 
biennial inspection of the entire campus.
                      strains on agency resources
    During the past two fiscal years, the Office has reallocated 
significant resources toward OSH investigations at the expense of other 
mandates. For example, 0.5 FTE has been temporarily reallocated within 
the Office of General Counsel from legal support to contract 
investigation just to maintain the current level of inspections. In 
addition, one FTE has also been moved from the administrative dispute 
resolution support staff to provide administrative assistance to the 
Office of General Counsel. Contractor funds have been reprogrammed to 
provide additional resources for increasing the use of contracted OSH 
inspectors. Further withdrawal of resources from the other dispute 
resolution and educational mandates of the Act will substantially 
impact the Office's ability to maintain a dispute resolution program 
which ensures that employees and employing offices in the House of 
Representatives, Senate and other Legislative Branch Instrumentalities 
receive the quality of mediation and hearing services which the 
Congress expects.
    Since I was appointed in fiscal year 2002, the Office has 
consistently asked for an additional FTE and other funding for safety 
and health inspections and enforcement, as well as major increases for 
other underfunded mandates. The Office's responsibility in this area 
has assumed even more critical importance in the wake of 9/11. While 
appropriations have increased, the underlying structural shortcomings 
in our funding base make our ability to fully and timely implement the 
Congressional inspection and enforcement mandate impossible. The Office 
has been criticized by appropriators for the size of its requested 
budget increases over the past several years. However, as the Office 
still operates with a smaller budget than it had in fiscal year 1997, 
we respectfully submit that the requested increases have been made in 
large part in order to regain lost resources necessary for this agency 
adequately to respond to the Congressional mandate in the Act.

    Senator Allard. Ms. Robfogel.
    Ms. Robfogel. Mr. Chairman, my purpose in being here today 
is to speak on behalf of the Board, and to let you know that 
the Board fully endorses the request as it's been articulated 
by our Executive Director. Although we are a part-time Board--
we all have other occupations--we take our responsibility for 
health and safety very, very seriously. It's an awesome 
responsibility that we have, and we've spent a great deal of 
time discussing this issue with our executive staff and we are 
fully convinced that every possible dollar has been reallocated 
to the safety and health inspection area that can possible be 
reallocated. That means if we cut expenditures for any other 
part of the Office any more than we already have, the Office 
would not be able to function. And I thought it was important 
that you hear that from us, as well. We think this is the only 
way that we will be able to accomplish the mandate for safety 
that falls to us.
    [The statement follows:]
             Prepared Statement of Susan S. Robfogel, Esq.
    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to appear with Executive Director Thompson before you today 
in support of the fiscal year 2006 budget request of the Office of 
Compliance.
    The Board is acutely aware of its awesome responsibility for the 
health and safety of those who work on or visit the Capitol Hill 
campus.
    To protect the men and women who come to the Capitol, we must have 
enough inspectors to inspect the buildings, help to remediate noted 
deficiencies and reinspect to ensure compliance.
    Currently we are functioning with only one staff inspector who is 
on assignment from the Department of Labor. In addition, we employ 
contract inspectors, as funds permit. Simply put, it is not enough 
manpower to inspect the entire Capitol Hill campus in a two year 
period.
    As a Board, we have questioned our executive staff and we are fully 
satisfied that they are doing everything they can do to support the 
inspection mandate, including reassigning staff and resources from 
other functions to meet the need for inspectors.
    We need more people either through direct hiring or by assigning 
additional inspectors to us from DOL.
    We need your help to keep us all safe.
    We will be happy to respond to any questions which you may have.

    Senator Allard. Thank you very much for your testimony. I 
was one of those that promoted the idea that Congress live 
under the same laws as everybody else, and pushed the idea that 
we needed to get those provisions that traditionally Congress 
has been exempted from, and bring them into the operation of 
our own legislative branch. Then members will gain a greater 
appreciation of the total impact. If you live under the laws 
that you pass, it makes a better person out of you, and I think 
it makes a better legislator out of you. I think that's what 
James Madison had in mind when he got up and talked about a 
citizen legislator, somebody who lived under the laws that they 
passed.

                     HEALTH AND SAFETY INSPECTIONS

    One of the areas that is a little bit troublesome is in the 
health and safety inspection area, you alluded to that in your 
statement. We've got an article here from by The Hill newspaper 
on April 19 of this year, which discussed the hazards of the 
Capitol. It says we had 2,666 citations, and this is much 
higher than what we had in the 2002 inspection. Was that the 
last inspection before you had this inspection?
    Mr. Thompson. That was the last comprehensive inspection. 
The 107th Congress was done in 2002, and this is the same 
square footage that we had in 2004.
    Most of the violations that we had in 2002, a lot of 
progress is being made on. The new violations spread across the 
spectrum of very serious to the not so serious, but the 
inspection experience was that there are still more serious 
violations that we are trying to get after.
    Senator Allard. Now, on these violations, what kind of 
follow up is there? Is the follow up fairly immediate after you 
discovered the violations? How are they abated, and how are we 
doing on correcting health and safety violations?
    Mr. Thompson. Under our new regimen, Mr. Chairman, we make 
every effort to have the agency actually accompany our 
inspectors, so they see what our inspectors see at the same 
time. To the extent that there are clear and simple fixes, we 
actually have had experiences where the changes were made as we 
went.
    For those things that are not being fixed immediately, they 
need to be thought about before we can decide exactly what 
we've got. We follow up as quickly as possible with the agency, 
both orally and in writing, listing the violations and a 
description of what we found.
    With regard to follow up inspections, that's a very 
significant part of what we've been doing since the 2004 
inspection. Our inspectors go out and the agencies' inspectors 
fix the things that they can fix, and we also are having a lot 
of interaction with the agencies.
    Senator Allard. In the 108th Congress, you were not able to 
complete your inspection, is that correct?
    Mr. Thompson. We were not able to complete the inspection, 
I'm sad to say, Senator. For the inspections going forward, 
that is something we are absolutely bound and determined not to 
happen this time around, which is the reason for our increased 
request.
    Senator Allard. Okay, and the additional resources that you 
need to finish and complete your final inspection for this 
Congress is how much?
    Mr. Thompson. We have given your staff two options, the FTE 
option with cost over a 2 year period--fiscal year 2006 and 
fiscal year 2007--approximately $570,000. In the contractor 
version of the same, we use contractors to do the inspection. 
The cost is approximately $475,000, so there's a savings by 
using the contractors.
    Senator Allard. Do you have to bring on new people?
    Mr. Thompson. We have a stable of contractors that we've 
been using, I don't know that we'd be able to use them for that 
many hours, but the community out there has a very good 
selection.

GOVERNMENT ACCOUNTABILITY OFFICE REPORT ON THE STATUS OF MANAGEMENT IN 
                        THE OFFICE OF COMPLIANCE

    Senator Allard. The GAO issued a report and recommendations 
regarding the status of management in your agency. How are you 
doing in responding to their recommendations, and developing 
quantifiable measures to record progress toward goals? I would 
think that it would be easy for you to set goals and objectives 
that are measurable.
    Mr. Thompson. Yes, thank you for asking that question, 
because that's a core effort we're making right now.
    We see the GAO engagement as more than simply oversight. We 
have embraced the GAO as a consultant. They made 15 
recommendations in their report last year. Of those 15 
recommendations, we've been able to accomplish about half thus 
far, and are working on all of them. There are a few that we 
are sort of stymied on with regard to the lack of funds, but I 
can report to you that as late as last month, we met with the 
GAO for two purposes: one, to report to them on how we're doing 
with regard to all of their recommendations, and two, to 
develop with them some preliminary measures, some quantifiable 
measures that we are working on as the first step toward our 
next strategic plan.

                            RISING CASELOAD

    Senator Allard. You had a rising caseload in alternative 
dispute resolutions, is that right and if so, why?
    Mr. Thompson. The caseload at the office is increasing. If 
you correct the figures as the GAO suggested that we do for two 
large files that go back to 2000, there are about 300 people 
involved in the two cases. If you back those numbers out, 
essentially I'm just going to run five numbers here, for each 
step of our process, counseling, mediation, complaints, appeals 
to the Board of Directors, Appeals to the Federal circuit. If 
you take the average over the 10 years we've been in the system 
versus the average over the last few years, what you get is 
numbers like this: 82 for the old average, 88 for the new 
average, 65 versus 73, 9 versus 11, 4 versus 6 and for appeals 
to the Federal circuit, the old average is 2, now we're running 
at 7, so we have a significant increase in the caseload.
    I think the reasons for that--but there's no way to 
scientifically confirm this--our best educated guess is that it 
is a combination of things. One is people knowing more about 
the office, since as time goes by we're doing a much better job 
of educating the community. Number two, I think the workforce 
is becoming more sophisticated in general. And number three, 
frankly, I think there was a period of time when I first got 
here where you would hear stories that, ``Well, that Office of 
Compliance is just for show,'' and I think over time the 
quality of what we've been doing, the quality of the Board's 
decisionmaking have demonstrated our worth.
    Senator Allard. Now, the 200 and 300 complaints that you 
had come in, can you explain in more detail what that was all 
about?
    Mr. Thompson. Yes, there were two large cases, one was a 
group of female cleaning people who were sponsored, I believe, 
if my recollection is correct, by their collective bargaining 
representative, and they were claiming sex discrimination.
    The second group was the Black Capitol Police Officer's 
Association which came into the office about 4 days after I got 
there as the new Executive Director. Their claim was racial 
discrimination through the hiring and promotion of Capitol 
Police, that case is now a case in the Federal court, it's 
still at the trial level, and the Architect's cases were also 
in court.

            CHANGES IN THE CONGRESSIONAL ACCOUNTABILITY ACT

    Senator Allard. Based on your experience, your staff's 
experience, how would you assess the effectiveness of the 
Congressional Accountability Act, and are there any changes to 
the law that you'd recommend to improve its effectiveness?
    Mr. Thompson. I would say the law is quite effective in 
that there is a place for all employees to go with regard to 12 
different statutes. I think we educate people on their rights 
and responsibilities under the laws, and with regard to the 
improvements, the Board of Directors has submitted, as required 
by the statute last year, 2004, a formal report and 
recommendation which includes a number of changes to the Act 
itself and some additional laws. There was inconclusive 
evidence to determine whether other agencies needed that, and 
we will make available that formal report to you and your 
staff.
    Senator Allard. We'd appreciate that. Thank you very much. 
I don't have anything else. Go ahead.
    Ms. Robfogel. Mr. Chairman, there's one other change to our 
statute that our Board has recommended and that was recommended 
in the GAO analysis that I think it's important you be aware 
of. When our statute was passed, it was passed with term 
limits, the Board would be appointed for a single, 5-year term, 
and our executive staff would be appointed for a single 5-year 
term. The GAO has recognized that it is very difficult to 
accomplish continuity, and to accomplish the purposes for which 
the statute is established if the whole office turns over that 
frequently. Congress last year amended the statute to permit 
the Board members to be reappointed for an additional term. We 
are hoping very much that the legislation will be amended to 
also permit the reappointment of the executive staff so that 
all of the work that is currently in process will be able to 
continue.
    Senator Allard. So, we have term limits on the executive 
staff?
    Ms. Robfogel. Currently that is the situation.
    The term limits with respect to the Board have essentially 
been eliminated, at least to the extent of permitting three 
members of the Board whose terms expired to be reappointed, and 
we have been told that the other two members of the Board, 
whose terms will be over in the next month, that they will also 
have their term limits lifted.
    Senator Allard. So, we have staggered terms now for the 
Board members?
    Ms. Robfogel. By just several months, yes.
    Senator Allard. I think we may need to look at that closer, 
we should stagger Board member terms out over several years.
    Ms. Robfogel. That would be a massive improvement, and we 
also think there needs to be some relief on the executive staff 
side.
    Senator Allard. But they serve at your pleasure, you have 
oversight on the executive board, you hire----
    Ms. Robfogel. They serve at my pleasure, actually.
    Senator Allard. As Chairman of the Board.
    Ms. Robfogel. Yes.
    Senator Allard. So, even though they've performed well over 
a certain period of time, you cannot reappoint them?
    Ms. Robfogel. I can not reappoint them, and I can not move 
people from one position in the office to another position in 
the office. Once someone has served on the executive staff, 
he's got to leave at the end of the 5 years.
    Senator Allard. We're going to take a close look at why 
that provision is there, see if we can figure out congressional 
intent, apparently Government Affairs has oversight on that.
    Ms. Robfogel. They do.
    Senator Allard. So, maybe we'll communicate with them a 
little bit and see what their views are on this issue.
    Ms. Robfogel. I would appreciate that, Mr. Chairman.

                         CONCLUSION OF HEARINGS

    Senator Allard. I will now put this subcommittee in recess 
until May 17 when we take testimony regarding the Capitol 
Visitor Center. Thank you for your testimony, this has been a 
good, helpful morning with testimony from all panels, and we 
thank you all.
    [Whereupon, at 11:30 a.m., Wednesday, May 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
at 10:30 a.m., Tuesday, May 17.]




















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    MATERIAL SUBMITTED BY AGENCIES NOT APPEARING FOR FORMAL HEARINGS

    [Clerk's Note.--The following agencies of the Subcommittee 
on the Legislative Branch did not appear before the 
subcommittee this year. Chairman Allard requested these 
agencies to submit testimony in support of their fiscal year 
2006 budget request. Those statements submitted by the chairman 
follow:]
                      JOINT COMMITTEE ON TAXATION
           Prepared Statement of William M. Thomas, Chairman
    Mr. Chairman and members of the Subcommittee, it is my honor to 
submit the written testimony of the Joint Committee on Taxation 
(``Joint Committee'') with respect to the fiscal year 2006 
appropriation request for the Joint Committee.
    Mr. Chairman, the request of the Joint Committee represents the 
minimum amount necessary to fund the operations of the Joint Committee 
during fiscal year 2006. The following summarizes the main components 
of the Joint Committee's request.
  --The Joint Committee is requesting an increase of $330,000 for 
        fiscal year 2006 to cover cost-of-living adjustments and a 1-
        percent meritorious increase in personnel compensation 
        expenses.
  --The Joint Committee is requesting an increase of $3,000 for fiscal 
        year 2006 to cover increased utilization of the MetroChek 
        program of transit benefits.
  --The Joint Committee is requesting an increase of $67,464 for fiscal 
        year 2006 for equipment purchases. This amount represents the 
        amount rescinded from the Joint Committee fiscal year 2005 
        appropriation request.
  --The Joint Committee is requesting an increase in nonpersonnel 
        expenses of $15,000 for fiscal year 2006 to cover cost-of-
        living adjustments.
    The following discussion provides (1) detailed information on the 
Joint Committee appropriation request for fiscal year 2006, (2) a 
review of Joint Committee operations during calendar year 2004, and (3) 
a description of the anticipated workload of the Joint Committee during 
calendar year 2005.
           summary of fiscal year 2006 appropriation request
    The following table summarizes the Joint Committee's appropriation 
request for fiscal year 2006 relative to the fiscal year 2005 
appropriation.

------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                               2005            2006
------------------------------------------------------------------------
Personnel Costs:
    Personnel compensation..............      $7,653,000      $7,983,000
    Transit benefits....................          20,000          23,000
Nonpersonnel Funding:
    Travel..............................          12,000          12,000
    Rent, communications, and utilities.          35,000          36,000
    Printing............................           6,000           6,000
    Other services......................         125,000         127,000
    Supplies and materials..............         185,000         189,000
    Equipment...........................         329,536         405,000
                                         -------------------------------
      Total fiscal year 2005               \1\ 8,365,536  ..............
       appropriation....................
      Total fiscal year 2006 request....       8,781,000  ..............
------------------------------------------------------------------------
\1\ After reduction for rescission amount of $67,464.

           details of fiscal year 2006 appropriation request
Personnel expenses
            Details of appropriation request
    The Joint Committee's appropriation for fiscal year 2006 relative 
to fiscal year 2005 requests $333,000 for increased personnel costs 
which includes personnel compensation and transit benefits. This 
increase is attributable to the following amounts, which have been 
calculated pursuant to information supplied by the House Office of 
Finance:
    Fiscal year 2005 cost-of-living adjustment annualized.--The Joint 
Committee requests $72,000 to fund 3 months of the 3.7 percent cost-of-
living adjustment for calendar year 2005.\1\
---------------------------------------------------------------------------
    \1\ The $72,000 amount reflects an increase of $5,000 over the 
amount included in the original JCT budget request of November 15, 2004 
and supporting schedules. The increase reflects an updated COLA for 
calendar year 2005 which affects the first quarter of the fiscal year 
2006 request (i.e., Oct. 1, 2005-Dec. 31, 2005). This COLA postdated 
the original JCT budget submission and was unilaterally added to the 
original JCT budget request by the House Finance Office.
---------------------------------------------------------------------------
    Fiscal year 2006 cost-of-living adjustment annualized.--The Joint 
Committee requests $179,000 to fund 9 months of the projected 3.1 
percent cost-of-living adjustment for calendar year 2006.
    Meritorious increases.--The Joint Committee requests $79,000 for 1-
percent meritorious increases for fiscal year 2006.
    Transit benefits.--The Joint Committee requests $3,000 for 
additional Metro benefits.
            Need for adequate funding for personnel expenses
    The funding of adequate amounts for personnel costs is critical to 
the continued ability of the Joint Committee to attract and retain 
qualified professional staff.
    Joint Committee professional staff include tax lawyers, certified 
public accountants, Ph.D. economists, and highly trained computer 
specialists. In order to provide the highly technical services required 
by Joint Committee lawyers and certified public accountants, the Joint 
Committee generally requires such professionals to have a minimum of 3-
4 years of private practice or comparable experience. It is becoming 
increasingly difficult to attract such individuals to public service 
and retain them for significant periods given the disparity between 
private sector salaries and the salaries the Joint Committee can pay.
    A similar problem arises with Joint Committee staff economists. The 
Joint Committee typically hires economists who are just completing 
their Ph.D. programs. It generally takes an entry-level economist 2-3 
years of training to become proficient in the unique skills required to 
prepare revenue estimates for proposed tax legislation. Once this 
training period is complete, these economists have highly marketable 
skills and the private sector firms that attempt to duplicate the work 
of the Joint Committee offer significant salary increases to attract 
Joint Committee economists.
    At this time, the Joint Committee is actively recruiting to fill 
open staff positions that have resulted from staff attrition during the 
last Congress. However, unless adequate amounts are funded for 
personnel expenses for fiscal year 2006, the Joint Committee will not 
be able to fill all of its open positions. Failure to fill open 
positions may result in a reduced level of service to the Congress.
Nonpersonnel expenses
            In general
    The Joint Committee is requesting $15,000 to cover cost-of-living 
adjustments in nonpersonnel expenses for fiscal year 2006. In addition, 
the Joint Committee is requesting an additional $67,464 for equipment 
for fiscal year 2006. The additional money for equipment, which 
represents the amount rescinded from the fiscal year 2005 request, is 
requested for the combination of ongoing computer upgrades and the 
additional cost of equipment to provide for necessary alternative 
computing capabilities.
            Travel
    The Joint Committee requests $12,000 for travel during fiscal year 
2006. This amount will be used to pay travel expenses of Joint 
Committee consultants and Joint Committee staff attending educational 
conferences.
            Rent, communications, and utilities
    The Joint Committee requests $36,000 for fiscal year 2006 to cover 
anticipated expenses for communications and utilities.
            Printing
    The Joint Committee requests $6,000 to cover anticipated printing 
expenses for fiscal year 2006.
            Other services
    The Joint Committee requests $127,000 for other services for fiscal 
year 2006. The Joint Committee utilizes consultants and other service 
providers to perform functions that the Joint Committee staff does not 
have the time or expertise to perform. Most of these services relate to 
the revenue estimating work of the Joint Committee, including the 
preparation of macroeconomic analysis. As the graph in Attachment C to 
this statement demonstrates, the number of revenue estimating requests 
received by the Joint Committee continues to increase. The needs of the 
Members for immediate responses to requests for revenue estimates and 
the substantial volume of requests that the Joint Committee staff 
receives each year places limitations on the ability of the Joint 
Committee staff to perform certain work, such as the manipulation of 
new data sets, that improves the quality of Joint Committee revenue 
estimates. The Joint Committee staff has found that it is more cost 
efficient to contract some of this work to outside consultants.
            Supplies and materials
    The Joint Committee requests $189,000 for supplies and materials 
for fiscal year 2006. The largest expense in this category is a 
projected $150,000 for subscriptions and publications to keep up with 
current developments in tax law.
            Equipment
    The Joint Committee requests $405,000 for equipment for fiscal year 
2006. The Joint Committee staff anticipates expending approximately 
$230,000 for replacement of servers and for storage upgrades for the 
Joint Committee's computing needs, which include large-scale economic 
modeling, macroeconomic modeling and simulation, case tracking, 
statistical analysis, and general functions such as word processing, 
spreadsheets and graphing. In addition, Xerox maintenance and usage 
costs are projected to be approximately $50,000, and hardware and 
software maintenance are estimated to be $125,000.
 review of joint committee on taxation operations during calendar year 
                                  2004
In general
    Attachments A through E provide a summary of the activity of the 
Joint Committee staff for calendar year 2004. The attachments include 
the following information:
    Attachment A--information relating to the legislative tax reports 
(Committee and Conference Reports) drafted by Joint Committee staff for 
the revenue-related legislation considered by the House Committee on 
Ways and Means and/or the Senate Committee on Finance and public laws 
involving the Joint Committee staff during 2004.
    Attachment B--a listing of all documents published by the Joint 
Committee staff during 2004.
    Attachment C--a graph showing the number of requests received by 
the Joint Committee from revenue estimates and other assistance during 
the period 1986 through 2004.
    Attachment D--a table providing information on revenue estimate 
requests and Joint Committee staff responses to various categories of 
requesting Members for 2004.
    (5) Attachment E--information relating to the Joint Committee 
staff's statutorily mandated duty to review large income tax refunds.
Tax legislative reports
    The Joint Committee staff assisted in the preparation of 10 
Committee and Conference reports relating to tax legislation considered 
by the Congress in 2004 and provided assistance on two income tax 
treaty Committee reports. A complete listing of these reports is 
included at Attachment A. In addition the Joint Committee staff worked 
on 17 bills signed into law during 2004.
Joint Committee staff publications
    In addition to its work on committee and conference reports, the 
Joint Committee staff published 74 documents during 2004, including 
pamphlets and other documents prepared for committee hearings and 
markups and conference action (see Attachment B). All Joint Committee 
staff publications are accessible from the Joint Committee's web page 
(http://www.house.gov/jct).
Revenue estimates and related analysis
    Attachments C and D show data relating to the Joint Committee 
staff's revenue estimating activity. Attachment C shows the number of 
revenue estimate requests received by the Joint Committee staff each 
year from 1986 through 2004.
    Attachment D also shows information on revenue estimate requests 
and Joint Committee staff responses to various categories of Members 
requesting revenue estimates for 2004. The Joint Committee staff is 
cognizant of its responsibility to provide service to all Members who 
request it and attempts to be as responsive to non-tax-writing 
Committee Members as it is to the tax-writing Committee Members.
    The Joint Committee staff has been developing a capacity to analyze 
the effects of major tax legislation on the economy. Several 
macroeconomic simulation models are used in this analysis, including 
the staff's Macroeconomic Equilibrium Growth model, and commercially 
available econometric and overlapping generation models requiring 
outside contracts. In addition, the staff is working on an in-house 
neoclassical growth model that can incorporate people's expectations 
about future policy to provide additional perspective on proposals 
involving phase-ins, phase-outs, and sunsets of tax policy. 
Developmental work is being done in connection with anticipated 
analyses of tax reform and social security reform.
JCT staff studies, investigations, and refund review
            Refund review
    An ongoing, statutorily mandated function of the Joint Committee is 
the review of IRS refunds or credits of income tax, estate and gift 
tax, or any tax on public charities, foundations, pension plans, or 
real estate investment trusts in excess of $2 million. The Joint 
Committee staff reviews and reports on such refund cases and makes 
comments or recommendations with respect to the proposed refund case to 
the IRS. Attachment E contains information concerning the Joint 
Committee staff refund review work. During fiscal year 2004, the Joint 
Committee refund staff reviewed 1,163 cases involving $22.97 billion in 
proposed refunds and 64 large deficiency cases. The Joint Committee 
staff raised concerns in 56 refund cases. Errors identified by the 
Joint Committee staff produced a net reduction in refunds of $61 
million in fiscal year 2004. The average annual reduction in refunds 
for the last 10 years is $38.8 million.
 anticipated workload of the joint committee on taxation for calendar 
                               year 2005
    During 2005, the Joint Committee expects an increase in workload 
over 2004. The Joint Committee staff will provide support to the 
Congress and the tax-writing committees as broad-based and other tax 
relief proposals, including President Bush's fiscal year 2006 budget 
proposals, are considered by the Congress. The Joint Committee staff is 
preparing for legislative action as a result of the President's 
Commission on broad based tax reform as well as the President's 
initiative to reform the Social Security system. In addition, the Joint 
Committee is preparing for Congressional consideration of legislation 
to extend various expiring tax provisions and to reform the laws 
relating to employer-provided retirement plans. As part of the 
legislative process, the Joint Committee staff will (1) develop 
legislative proposals, (2) assist in the drafting of such proposals, 
(3) provide revenue estimates for numerous legislative options and 
amendments, (4) prepare markup documents and committee reports, and (5) 
provide additional economic analysis to the Members.
    In addition to this anticipated legislative activity, the Joint 
Committee staff will continue to satisfy its responsibilities under the 
IRS Restructuring and Reform Act of 1998. Thus, the Joint Committee 
staff will prepare a complexity analysis for inclusion in Committee and 
Conference reports for all revenue legislation. In addition, the Joint 
Committee staff has also organized the joint review in 2005 relating to 
the operations of the Internal Revenue Service and prepared materials 
for the use of the Congress in connection with that review.
    The Joint Committee will continue to satisfy its statutory 
responsibility to review large refund cases submitted to it by the IRS.
    The Joint Committee staff expects to assist the Senate Committee on 
Foreign Relations with respect to its work to review proposed tax 
treaties.
    The Joint Committee staff anticipates that requests from Members 
for revenue estimates for proposed legislation will increase in 2005, 
relative to 2004. In addition, the Joint Committee staff will continue 
to work to develop a macroeconomic model that will provide information 
on the possible effects on the economy of major tax legislation.
                                summary
    Mr. Chairman, the Joint Committee has a reputation for providing 
timely, high quality service to the Congress with respect to proposed 
revenue legislation. However, the highly technical nature of the Joint 
Committee's work makes it imperative that the Joint Committee be able 
to hire and retain qualified tax professionals. If the Joint 
Committee's appropriation request is not approved, the Joint Committee 
will not have adequate resources to fill all of its open staff 
positions.
    I respectfully request that the Subcommittee approve the 
appropriation request of the Joint Committee on Taxation for fiscal 
year 2006. This request is the minimum amount necessary to fund the 
operations of the Joint Committee during fiscal year 2006. If the 
requested funding is not provided, difficult decisions will be required 
concerning what staff activities can and should be funded.
  Attachment A.--Committee and Conference Reports on Which the Joint 
   Committee on Taxation Staff Provided Assistance, and Public Laws 
            Involving the Joint Committee Staff During 2004
House Committee on Ways and Means
    108-444--Highway Reauthorization Tax Act of 2004, March 23, 2004
    108-548--American Jobs Creation Act of 2004, June 16, 2004
    108-472--The Jamestown 400th Anniversary Commemorative Coin Act of 
2003, July 6, 2004
    108-473--John Marshall Commemorative Coin Act, July 6, 2004
    108-474--Marine Corps 230th Anniversary Commemorative Coin Act, 
July 6, 2004
Senate Committee on Finance
    108-257--Tax Administration Good Government Act, May 4, 2004
    108-266--National Employee Savings and Trust Equity Guarantee Act, 
May 14, 2004
Conference Committee Reports
    108-457--Pension Funding Equity Act of 2004, April 1, 2004
    108-696--Working Families Tax Relief Act of 2004, September 23, 
2004
    108-755--American Jobs Creation Act of 2004, October 7, 2004
Senate Committee on Foreign Relations
    108-9--Tax Convention with the Government of Japan
    108-11--Tax Convention and Protocol with the Government of Sri 
Lanka
Public Laws Involving Joint Committee on Taxation
    108-202--Surface Transportation Extension Act of 2004, February 29, 
2004
    108-203--Social Security Protection Act of 2004, March 2, 2004
    108-218--Pension Funding Equity Act of 2004, April 10, 2004
    108-224--Surface Transportation Extension Act of 2004, Part II, 
April 30, 2004
    108-263--Surface Transportation Extension Act of 2004, Part III, 
June 30, 2004
    108-280--Surface Transportation Extension Act of 2004, Part IV, 
July 30, 2004
    108-289--Jamestown 400th Anniversary Commemorative Coin Act of 
2004, August 6, 2004
    108-290--John Marshall Commemorative Coin Act, August 6, 2004
    108-291--Marine Corps 230th Anniversary Commemorative Coin Act, 
August 6, 2004
    108-310--Surface Transportation Extension Act of 2004, Part V, 
September 30, 2004
    108-311--Working Families Tax Relief Act of 2004, October 4, 2004
    108-357--American Jobs Creation Act of 2004, October 22, 2004
    108-375--Ronald W. Reagan Defense Authorization Act for Fiscal Year 
2005, October 28, 2004
    108-429--Miscellaneous Trade and Technical Corrections Act, 
December 3, 2004
    108-447--Consolidated Appropriations Act, 2005, December 8, 2004
    108-476--YMCA Retirement Fund, December 21, 2004
    108-493--Modification to the Taxation of Arrow Components, December 
23, 2004
               Attachment B.--Joint Committee on Taxation
                            jcs-04 documents
    JCS-1-04--Explanation Of Proposed Income Tax Treaty Between The 
United States And Japan Scheduled for a Hearing Before the Committee on 
Foreign Relations United States Senate on February 25, 2004. February 
19, 2004
    JCS-2-04--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Democratic Socialist Republic Of Sri Lanka 
Scheduled for a Hearing Before the Committee on Foreign Relations 
United States Senate on February 25, 2004. February 19, 2004
    JCS-3-04--Description Of Revenue Provisions Contained In The 
President's Fiscal Year 2005 Budget Proposal. February 2004
                            jcx-04 documents
    JCX-1-04--List Of Expired And Expiring Federal Tax Provisions. 
January 21, 2004
    JCX-2-04--Description Of The Chairman's Mark Of The ``Tax 
Administration Good Government Act Of 2004'' Scheduled for Markup by 
the Senate Committee on Finance on February 2, 2004. January 29, 2004
    JCX-3-04--Estimated Revenue Effects Of The Chairman's Mark Of The 
``Tax Administration Good Government Act Of 2004,'' Scheduled For 
Markup By The Committee On Finance On February 2, 2004. January 29, 
2004
    JCX-4-04--Description Of Chairman's Modification To The ``National 
Employee Savings And Trust Equity Guarantee Act Of 2003'' As Marked Up 
September 17, 2003, As Scheduled For Markup By The Senate Committee On 
Finance On February 2, 2004. January 29, 2004
    JCX-5-04--Description Of The ``Highway Reauthorization And Excise 
Tax Simplification Act Of 2004'' Scheduled for Markup by the Senate 
Committee on Finance on February 2, 2004. January 29, 2004
    JCX-6-04--Estimated Revenue Effects Of The ``Highway 
Reauthorization And Excise Tax Simplification Act Of 2004,'' Scheduled 
For Markup By The Committee On Finance On February 2, 2004. January 30, 
2004
    JCX-7-04--Estimated Revenue Effects Of Tax And Pension Provisions 
Of H.R. 3108, The ``Pension Stability Act,'' As Passed By The Senate On 
January 28, 2004. January 30, 2004
    JCX-8-04--Description Of Additional Chairman's Modifications To The 
``National Employee Savings And Trust Equity Guarantee Act Of 2003'' As 
Marked Up September 17, 2003, Scheduled For Markup By The Senate 
Committee On Finance On February 2, 2004. February 2, 2004
    JCX-9-04--Estimated Budget Effects Of The ``National Employee 
Savings And Trust Equity Guarantee Act,'' As Ordered Reported By The 
Committee On Finance On September 17, 2003, And As Proposed To Be 
Modified On February 2, 2004. February 2, 2004
    JCX-10-04--Modification Of The Chairman's Mark On The ``Highway 
Reauthorization And Excise Tax Simplification Act Of 2004'' Scheduled 
for Markup by the Senate Committee on Finance on February 2, 2004. 
February 2, 2004
    JCX-11-04--Estimated Revenue Effects Of The Chairman's 
Modifications To The ``Highway Reauthorization And Excise Tax 
Simplification Act Of 2004,'' Scheduled For Markup By The Committee On 
Finance On February 2, 2004. February 2, 2004
    JCX-12-04--Technical Explanation Of The Tax And Pension Provisions 
Of H.R. 3108, The ``Pension Stability Act,'' As Passed By The Senate On 
January 28, 2004. February 9, 2004
    JCX-13-04--Testimony Of The Staff Of The Joint Committee On 
Taxation Before The Senate Committee On Foreign Relations Hearing On 
The Proposed Tax Treaties With Japan And Sri Lanka. February 23, 2004
    JCX-14-04--Estimated Budget Effects Of Revenue Provisions Contained 
In The President's Fiscal Year 2005 Budget Proposal. February 27, 2004
    JCX-15-04--Updated Estimated Budget Effects Of S. 1637, The 
``Jumpstart Our Business Strength (`JOBS') Act,'' As Reported By The 
Committee On Finance. March 3, 2004
    JCX-16-04--Present Law And Background Relating To Individual 
Taxpayer Identification Numbers (``ITNS'') Scheduled for a Joint 
Hearing Before the Subcommittee on Oversight and the Subcommittee on 
Social Security of the House Committee on Ways and Means on March 10, 
2004. March 5, 2004
    JCX-17-04--Comparison Of The Tax And Pension Provisions Of H.R. 
3108, As Passed By The House And The Senate. March 5, 2004
    JCX-18-04--Comparison Of The Estimated Revenue Effects Of The Tax 
And Pension Provisions Of H.R. 3108, The ``Pension Funding Equity Act 
Of 2003,'' As Passed By The House Of Representatives And H.R. 3108, The 
``Pension Stability Act,'' As Passed By The Senate. March 5, 2004
    JCX-19-04--Estimated Revenue Effects Of Certain Tax Provisions 
Contained In S. 1072, The ``Safe, Accountable, Flexible, And Efficient 
Transportation Equity Act Of 2004,'' As Passed By The Senate. March 12, 
2004
    JCX-20-04--Description Of ``The Highway Reauthorization Tax Act Of 
2004'' Scheduled for Markup by the House Committee on Ways and Means on 
March 17, 2004. March 15, 2004
    JCX-21-04--Estimated Revenue Effects Of H.R. 3971, The ``Highway 
Reauthorization Tax Act Of 2004,'' Scheduled For Markup By The 
Committee On Ways And Means On March 17, 2004. March 17, 2004
    JCX-22-04--Estimated Trust Fund And General Fund Effects Of Certain 
Tax Provisions Contained In H.R. 3971, The ``Highway Reauthorization 
Tax Act Of 2004,'' Scheduled For Markup By The Committee On Ways And 
Means On March 17, 2004. March 17, 2004
    JCX-23-04--Description Of Chairman's Amendment In The Nature Of A 
Substitute To H.R. 3971 The ``Highway Reauthorization Tax Act Of 
2004''. March 17, 2004
    JCX-24-04--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To H.R. 3971, The ``Highway Reauthorization 
Tax Act Of 2004,'' Scheduled For Markup By The Committee On Ways And 
Means On March 17, 2004. March 17, 2004
    JCX-25-04--Estimated Trust Fund And General Fund Effects Of Certain 
Tax Provisions Contained In The Chairman's Amendment In The Nature Of A 
Substitute To H.R. 3971, The ``Highway Reauthorization Tax Act Of 
2004,'' Scheduled For Markup By The Committee On Ways And Means On 
March 17, 2004. March 17, 2004
    JCX-26-04--Estimated Trust Fund And General Fund Effects Of Certain 
Provisions In The ``Highway Reauthorization And Excise Tax 
Simplification Act Of 2004,'' As Passed By The Senate. March 26, 2004
    JCX-27-04--Estimated Revenue Effects Of Title IX Of H.R. 3550, The 
``Highway Reauthorization Tax Act Of 2004,'' Scheduled For 
Consideration On The House Floor. April 1, 2004
    JCX-28-04--Estimated Revenue Effects Of The Tax And Pension 
Provisions Contained In The Conference Agreement For H.R. 3108, The 
``Pension Funding Equity Act Of 2004''. April 2, 2004
    JCX-29-04--Revised Disclosure Report For Public Inspection Pursuant 
To Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 2002. 
April 6, 2004
    JCX-30-04--Disclosure Report For Public Inspection Pursuant To 
Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 2003. 
April 6, 2004
    JCX-31-04--Estimated Revenue Effects Of H.R. 4181, Scheduled For 
Consideration On The House Floor. April 28, 2004
    JCX-32-04--Estimated Revenue Effects Of H.R. 4227, For 
Consideration By The House Committee On Rules. May 5, 2004
    JCX-33-04--Estimated Revenue Effects Of The Revenue Provisions 
Contained In H.R. 4279, As Passed By The House Of Representatives. May 
14, 2004
    JCX-34-04--Estimated Revenue Effects Of H.R. 4275, As Passed By The 
House Of Representatives. May 14, 2004
    JCX-35-04--Estimated Budget Effects Of H.R. 1528, The ``Tax 
Administration Good Government Act,'' As Passed By The Senate On May 
19, 2004. May 20, 2004
    JCX-36-04--Estimated Revenue Effects Of S. 1637, The ``Jumpstart 
Our Business Strength (`JOBS') Act,'' As Passed By The Senate. May 20, 
2004
    JCX-37-04--Estimated Revenue Effects Of H.R. 4359, The ``Child 
Credit Preservation And Expansion Act Of 2004,'' As Passed By The House 
Of Representatives. May 21, 2004
    JCX-38-04--Estimated Revenue Effects Of H.R. 4520, The ``American 
Jobs Creation Act Of 2004,'' Scheduled For Markup By The Committee On 
Ways And Means On June 10, 2004. June 8, 2004
    JCX-39-04--Comparison Of The Estimated Revenue Effects Of The Tax 
Provisions Contained In H.R. 3550, The ``Transportation Equity Act: A 
Legacy For Users,'' As Passed By The House Of Representatives, And H.R. 
3550, The ``Safe, Accountable, Flexible, And Efficient Transportation 
Equity Act Of 2004,'' As Amended By The Senate. June 9, 2004
    JCX-40-04--Comparison Of The Estimated Trust Fund And General Fund 
Effects Of Certain Tax Provisions Contained In H.R. 3550, The 
``Transportation Equity Act: A Legacy For Users,'' As Passed By The 
House Of Representatives, And H.R. 3550, The ``Safe, Accountable, 
Flexible, And Efficient Transportation Equity Act Of 2004,'' As Amended 
By The Senate. June 9, 2004
    JCX-41-04--Description Of H.R. 4520, The ``American Jobs Creation 
Act Of 2004'' Scheduled for Markup by the House Committee on Ways and 
Means on June 14, 2004. June 10, 2004
    JCX-42-04--Description Of The Chairman's Amendment In The Nature Of 
A Substitute To The Provisions Of H.R. 4520, The ``American Jobs 
Creation Act Of 2004''. June 10, 2004
    JCX-43-04--Estimated Revenue Effects Of The Chairman's Amendment In 
The Nature Of A Substitute To H.R. 4520, The ``American Jobs Creation 
Act Of 2004,'' Scheduled For Markup By The Committee On Ways & Means On 
June 14, 2004. June 10, 2004
    JCX-44-04--Description Of Present Law Relating To Charitable And 
Other Exempt Organizations And Statistical Information Regarding Growth 
And Oversight Of The Tax-Exempt Sector Scheduled for a Public Hearing 
Before the Senate Committee on Finance on June 22, 2004. June 22, 2004
    JCX-45-04--Estimated Revenue Effects Of H.R. 4520, The ``American 
Jobs Creation Act Of 2004,'' As Passed By The House Of Representatives. 
June 22, 2004
    JCX-46-04--Description Of The Chairman's Amendment To H.R. 1914, 
The ``Jamestown 400th Anniversary Commemorative Coin Act Of 2003,'' 
H.R. 2768, The ``John Marshall Commemorative Coin Act,'' And H.R. 3277, 
The ``Marine Corps 230th Anniversary Commemorative Coin Act''. June 22, 
2004
    JCX-47-04--Comparison Of The Tax Provisions Contained In H.R. 3550, 
The ``Transportation Equity Act: A Legacy For Users,'' As Passed By The 
House Of Representatives, And H.R. 3550, The ``Safe, Accountable, 
Flexible, And Efficient Transportation Equity Act Of 2004,'' As Amended 
By The Senate. June 25, 2004
    JCX-48-04--Present Law And Background Relating To The Tax Treatment 
Of Tip Income. July 13, 2004
    JCX-49-04--Description Of H.R. 982, A Bill ``To Clarify The Tax 
Treatment Of Bonds And Other Obligations Issued By The Government Of 
American Samoa''. July 16, 2004
    JCX-50-04--Estimated Revenue Effects Of H.R. 4841, The ``Tax 
Simplification For Americans Act Of 2004,'' As Amended, And Scheduled 
For Consideration By The House Of Representatives. July 21, 2004
    JCX-51-04--Estimated Revenue Effects Of H.R. 4840, The ``Tax 
Simplification For America's Job Creators Act Of 2004,'' Scheduled For 
Consideration By The House Of Representatives. July 21, 2004
    JCX-52-04--Present Law And Analysis Relating To Tax Benefits For 
Higher Education Scheduled for a Public Hearing Before the Senate 
Committee on Finance on July 22, 2004. July 21, 2004
    JCX-53-04--Comparison Of The Estimated Budget Effects Of H.R. 4520, 
The ``American Jobs Creation Act Of 2004,'' As Passed By The House Of 
Representatives, And H.R. 4520, The ``Jumpstart Our Business Strength 
(`JOBS') Act, As Amended By The Senate. July 23, 2004
    JCX-54-04--Explanation Of Proposed Protocol To The Income Tax 
Treaty Between The United States And The Netherlands Scheduled for a 
Hearing Before the Committee on Foreign Relations United States Senate 
on September 24, 2004. September 16, 2004
    JCX-55-04--Explanation Of Proposed Protocol To The Income Tax 
Treaty Between The United States And Barbados Scheduled for a Hearing 
Before the Committee on Foreign Relations United States Senate on 
September 24, 2004. September 16, 2004
    JCX-56-04--Present Law And Background Relating To Tax-Exempt 
Financing Of Indian Tribal Prisons Scheduled for a Public Hearing 
Before the Senate Committee on Finance on September 21, 2004. September 
20, 2004
    JCX-57-04--Comparison Of Provisions Contained In H.R. 1308, The 
``All-American Tax Relief Act Of 2003,'' As Passed By The House Of 
Representatives On June 12, 2003, And H.R. 1308, The ``Relief For 
Working Families Tax Act Of 2003,'' As Passed By The Senate On June 5, 
2003. September 21, 2004
    JCX-58-04--Testimony Of The Staff Of The Joint Committee On 
Taxation Before The Senate Committee On Foreign Relations Hearing On 
The Proposed Tax Protocols With Barbados And The Netherlands. September 
22, 2004
    JCX-59-04--Estimated Revenue Effects Of H.R. 1057, The ``Adoption 
Tax Relief Guarantee Act,'' Scheduled For Consideration By The House Of 
Representatives. September 22, 2004
    JCX-60-04--Estimated Revenue Effects Of The Conference Agreement 
For H.R. 1308, The ``Working Families Tax Relief Act Of 2004''. 
September 23, 2004
    JCX-61-04--Comparison Of Certain Provisions Of H.R. 4520 As Passed 
By The House Of Representatives And As Amended By The Senate: 
Provisions Relating To The Repeal Of The Exclusion For Extraterritorial 
Income, Domestic Production, And The Corporate Income Tax Rates 
Applicable To Small Corporations. September 29, 2004
    JCX-62-04--Comparison Of Certain Provisions Of H.R. 4520 As Passed 
By The House Of Representatives And As Amended By The Senate: Job 
Creation Tax Incentives For Manufacturing, Small Business, And Farming. 
September 29, 2004
    JCX-63-04--Comparison Of Certain Provisions Of H.R. 4520 As Passed 
By The House Of Representatives And As Amended By The Senate: 
Provisions Relating To International Tax Reform And Simplification For 
United States Businesses. September 29, 2004
    JCX-64-04--Comparison Of Certain Provisions Of H.R. 4520 As Passed 
By The House Of Representatives And As Amended By The Senate: Revenue 
Provisions. September 29, 2004
    JCX-65-04--Comparison Of Certain Provisions Of H.R. 4520 As Passed 
By The House Of Representatives And As Amended By The Senate: Alcohol 
Fuels And Fuel Fraud Provisions. September 29, 2004
    JCX-66-04--Comparison Of Certain Provisions Of H.R. 4520 As Passed 
By The House Of Representatives And As Amended By The Senate: Expiring 
Provisions. September 29, 2004
    JCX-67-04--Budget Impact Of The Proposed Protocols To The Income 
Tax Treaties Between The United States And The Netherlands And Between 
The United States And Barbados. September 30, 2004
    JCX-68-04R--Estimated Budget Effects Of The Chairman's Mark 
Relating To H.R. 4520, The ``American Jobs Creation Act Of 2004,'' 
Scheduled For Consideration By The House And Senate Conferees 
Continuing On October 5, 2004. October 5, 2004
    JCX-69-04--Estimated Budget Effects Of The Conference Agreement For 
H.R. 4520, The ``American Jobs Creation Act Of 2004''. October 7, 2004
    JCX-70-04--Description Of The Tax Technical Corrections Act Of 
2004. November 19, 2004
    JCX-71-04--List Of Expiring Federal Tax Provisions 2004-2014. 
December 23, 2004

  ATTACHMENT C.--JOINT COMMITTEE ON TAXATION REVENUE ESTIMATE REQUESTS
------------------------------------------------------------------------
                                                                 No. of
                        Calendar year                           requests
------------------------------------------------------------------------
1986.........................................................        474
1987.........................................................        420
1988.........................................................        900
1989.........................................................      1,290
1990.........................................................      1,286
1991.........................................................      1,461
1992.........................................................      2,350
1993.........................................................      2,380
1994.........................................................      1,259
1995.........................................................      2,278
1996.........................................................      1,792
1997.........................................................      2,079
1998.........................................................      2,729
1999.........................................................      4,150
2000.........................................................      2,807
2001.........................................................      4,491
2002.........................................................      3,583
2003.........................................................      4,839
2004.........................................................      3,580
------------------------------------------------------------------------


  ATTACHMENT D.--REQUEST DATA RELATING TO THE 2ND SESSION OF THE 108TH
                              CONGRESS \1\
                          [Calendar Year 2004]
------------------------------------------------------------------------
                               Requests   Requests   Requests   Percent
         Requestors            Received   Pending     Closed     Closed
------------------------------------------------------------------------
Ways and Means Committee:
    Republicans.............        842         66        776       92.2
    Democrats...............        188         19        169       89.9
Senate Finance Committee:
    Republicans.............        933         91        842       90.2
    Democrats...............      1,162         97      1,065       91.7
Non-Ways and Means
 Committee:
    Republicans.............         71          7         64       90.1
    Democrats/Independent...         78         10         68       87.2
Non-Senate Finance
 Committee:
    Republicans.............         81         10         71       87.7
    Democrats...............        131         10        121       92.4
Others......................         94          9         85       90.4
                             -------------------------------------------
      Total.................      3,580        319      3,261       91.1
------------------------------------------------------------------------
\1\ Totals include both revenue and non-revenue requests.

                       Attachment E.--Memorandum
                                                  December 8, 2004.
TO: Chief of Staff, Joint Committee on Taxation
FROM: Senior Refund Counsel
SUBJECT: Refund Section--Operations Report October 1, 2003 through 
September 30, 2004

    This is a report on the more significant developments in this 
Office during this period.
                                summary
    Volume--Refund Cases.--1,163 reports were received during this 
period. The total dollar amount of refunds was $22,977,809,443.

----------------------------------------------------------------------------------------------------------------
                          Reports Received                             2000     2001     2002     2003     2004
----------------------------------------------------------------------------------------------------------------
Examination Division...............................................      550      406      487      555    1,058
Appeals Division...................................................       99       76       95       82       92
Department of Justice..............................................       10       14        4        7        9
Chief Counsel......................................................        5        6        2        5        4
                                                                    --------------------------------------------
      Total........................................................      664      502      588      649    1,163
                                                                    ============================================
Concerns \1\.......................................................       49       51       41       39       56
----------------------------------------------------------------------------------------------------------------
\1\ Includes 0 post review deficiency cases for 2000, 4 for 2001, 0 for 2002, 1 for 2003 and 2 for 2004.

    Post Review.--The Service reports 64 large deficiency cases to us 
on an annual basis.
    Other Action.--We made recommendations that the Service publish 
guidance in certain areas we also made five legislative 
recommendations.
    Exhibits and Appendices provide detailed information on most of the 
foregoing.
    Errors identified by us in fiscal year 2004 and prior years, and 
settled in fiscal year 2004 produced a net reduction in refunds or an 
increase in deficiencies of $61 million. The average annual reduction 
for the last ten years is $38.8 million. Such corrections also reduced 
NOLs by $9.8 million; reduced credits by $133,000 reduced AMT NOLs by 
$103.2 million and decreased basis and amortization by $31 million.
    We hope that we are satisfactorily accomplishing our assigned 
portion of the Committee's mission and meeting your expectations. We 
look forward to a productive, challenging year.
  Appendix A.--Proposals for Statutory, Ruling, Manual and Regulatory 
                                Changes
    Raised the possibility of legislation to amend section 305(c) to 
reference section 1272(d). (NB)
    Suggested the IRS review procedures for reporting section 835(d) 
credits to Joint Committee in view of recent failure to timely report 
credit. (RG)
    Raised for future reference the issue of longer carryback periods 
from certain years, and the problem that arises when taxpayers file for 
a change in period to obtain more than one tax year ending in the 
relevant year. (NB)
    Raised the issue of the characterization issue of licenses in the 
section 367/351 contexts. (NB)
    Raised the fact that section 172(h) has never been amended to 
conform to the 5-year periods contained in 172(b)(1)(H). (RG)
    Amend section 1033 to clarify that merger termination fees do not 
qualify. (NB & RG)
    Suggested the IRS review two compensation rulings. (CS & NF)

                EXHIBIT I.--REPORTS TO JC AS REQUIRED BY IRS CODE SECTION 6405--FISCAL YEAR 2004
----------------------------------------------------------------------------------------------------------------
                                          No. of                  Cumulative
                Month                     Cases      Cumulative    Monthly     Dollar Receipts     Cumulative
                                         Received      Total       Average                       Dollar Receipts
----------------------------------------------------------------------------------------------------------------
October..............................           73           73           73    $2,004,276,357    $2,004,276,357
November.............................           43          116           58       488,511,179     2,492,787,536
December.............................           52          168           56     1,290,914,965     3,783,702,501
January..............................           65          233           58     1,010,727,485     4,794,429,986
February.............................          119          352           70     4,214,438,769     9,008,868,755
March................................          109          461           77     1,114,379,529    10,123,248,284
April................................          109          570           81     1,395,622,914    11,518,871,198
May..................................          168          738           92     5,487,895,592    17,006,766,790
June.................................          105          843           94     1,278,596,373    18,285,363,163
July.................................          109          952           95     2,007,877,685    20,293,240,848
August...............................          121        1,073           98     1,696,776,685    21,990,017,533
September............................           90        1,163           97       987,791,779    22,977,809,312
----------------------------------------------------------------------------------------------------------------


          EXHIBIT II.--JOINT COMMITTEE CASES RECEIVED BY TYPES OF TAXPAYER AND SOURCE--FISCAL YEAR 2004
----------------------------------------------------------------------------------------------------------------
                                            Amount    Percent                                  Amount    Percent
----------------------------------------------------------------------------------------------------------------
            TYPES OF TAXPAYERS                                        SOURCE OF REPORTS
Individuals..............................        40       3.4   Compliance..................     1,058      91.0
Estates..................................         5        .4   Appeals.....................        92       7.9
Trusts...................................         4        .3   Justice.....................         9        .8
Corporations.............................     1,114      95.9   Tax Court...................         4        .3
                                          ---------------------                              -------------------
      Total..............................     1,163     100.0         Total.................     1,163     100.0
----------------------------------------------------------------------------------------------------------------


  EXHIBIT III.--JOINT COMMITTEE MONTHLY RECEIPTS--REFUND REPORTS FROM COMPLIANCE AND APPEALS--FISCAL YEAR 2004
----------------------------------------------------------------------------------------------------------------
                      Month                         Compliance      Cumulative        Appeals       Cumulative
----------------------------------------------------------------------------------------------------------------
October.........................................              69              69               3               3
November........................................              39             108               4               7
December........................................              48             156               3              10
January.........................................              57             213               8              18
February........................................             105             318              11              29
March...........................................             102             420               5              34
April...........................................             105             525               4              38
May.............................................             153             678              13              51
June............................................              91             769              13              64
July............................................              98             867              10              74
August..........................................             109             976              10              84
September.......................................              82           1,058               8              92
----------------------------------------------------------------------------------------------------------------


  EXHIBIT IV.--JOINT COMMITTEE ON TAXATION CONCERNS ON REFUND REPORTS--
                            FISCAL YEAR 2004
------------------------------------------------------------------------
                                             Number of     Percentage of
                                             Concerns     Total Concerns
                                              Issued          Issued
------------------------------------------------------------------------
Compliance..............................              48              85
Appeals.................................               7              13
Tax Court...............................               1               2
                                         -------------------------------
      Total.............................              56             100
------------------------------------------------------------------------


                         TOTAL REPORTS RECEIVED
------------------------------------------------------------------------
                                                                No.
------------------------------------------------------------------------
CMP.....................................................           1,058
AP......................................................              92
TC......................................................               4
J.......................................................               9
                                                         ---------------
      Total.............................................           1,163
------------------------------------------------------------------------

                                 ______
                                 
                        JOINT ECONOMIC COMMITTEE
               Prepared Statement of Jim Saxton, Chairman
    Mr. Chairman and members of the Committee, it is a pleasure to 
express my strong support for the fiscal year 2006 budget request of 
the Joint Economic Committee (JEC).
    This budget request will support the JEC's focus on quality 
research and economic analysis needed by Congress and the public. The 
Committee's research and activities are substantive and credible, and 
have been cited in the Financial Times, Wall Street Journal, Forbes, 
Time, Washington Post, New York Times, Institutional Investor, and many 
other publications.
    As you know, the Committee's research covers a broad array of issue 
areas including both domestic and international economic policies. In 
addition, the Committee closely monitors and analyzes current economic, 
financial, and employment conditions. The Committee has several ongoing 
research programs including fiscal and monetary policy, tax policy, 
insurance reform, and reform of the International Monetary Fund (IMF) 
and the World Bank.
    One of our research programs, for example, focuses on recent 
Federal Reserve monetary policy. A series of JEC research papers and 
hearings continues to explore the specific features of the most 
successful monetary policy in U.S. history. Our research in this area 
indicates that the Federal Reserve has essentially been conducting 
informal inflation targeting for a number of years.
    Since this monetary policy has proved so effective and beneficial 
to the economy, it is important to provide Congress with an explanation 
of inflation targeting and how it works. Inflation targets are usually 
ranges setting permissible changes in some broad price index. For 
example, one might choose to set a formal inflation target of 1 to 3 
percent in such an index. Monetary policy is then geared to achieve 
this inflation target over a designated timeframe.
    A number of JEC research papers also have documented that many 
other nations have successfully implemented inflation targeting, with 
very positive effects. I continue to believe that it would be 
beneficial for the United States to set more formal inflation targets 
and to institutionalize this approach to monetary policy.
    In the area of taxation, a number of JEC studies have analyzed 
various tax provisions in light of their impact on capital formation. 
These studies examine how various features of the income tax can 
undermine incentives for saving and investment. Other JEC related 
research reviews U.S. tax policy and compares it to the tax policies of 
other nations. Another research project demonstrates the deficiencies 
in commonly used tax distribution tables.
    An additional research program involves reform of the International 
Monetary Fund (IMF) and the World Bank. Some of this JEC research has 
resulted in legislation changing IMF lending policies, producing 
taxpayer savings of many millions of dollars. More recent JEC research 
has exposed hundreds of millions in hidden taxpayer subsidies that 
could result from new IMF proposals currently under consideration.
    In recent weeks, the JEC has expanded its international research 
program to include a review of allegations concerning accounting 
irregularities at the World Bank. The Committee has verified that 
accounting errors of tens of millions of dollars did in fact occur and 
were not effectively addressed by World Bank management in a timely 
manner. While many of these accounting problems occurred several years 
ago, some of the problems are much more recent. We will continue to 
explore these World Bank accounting issues in coming months.
    Insurance reform is another ongoing research program of the 
Committee. A number of Committee studies examine policy issues related 
to terrorism insurance, medical liability reform, and tort reform.
    In closing, I would like to emphasize that the quality and 
productivity of Committee research products will continue in the 109th 
Congress as we execute an aggressive research agenda. I would also like 
to thank the Members of this Committee as well as other Members of 
Congress for their support of the work of the Joint Economic Committee.
                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements of those 
submitting written testimony are as follows:]

  Prepared Statement of the Association of Research Libraries and the 
              Council on Library and Information Resources

    This statement is submitted on behalf of the Association of 
Research Libraries (ARL) and the Council on Library and 
Information Resources (CLIR) in support of the fiscal year 2006 
budget request of $627,802,000 for the Library of Congress 
(LC).
    The funding request for fiscal year 2006 will allow the 
Library to fund ongoing operational activities while at the 
same time, support a number of key activities of interest to 
the library community and the Nation. Importantly, several of 
these initiatives focus on enhancing preservation of and access 
to the Library's collections. These projects include the 
National Audio-Visual Conservation Center (NAVCC), the National 
Digital Information Infrastructure and Preservation Program 
(NDIIPP), digitization and deacidification initiatives.
    The National Audio-Visual Conservation Center (NAVCC) in 
Culpeper, Virginia will serve as the central storage and 
conservation facility for the Library's audiovisual collections 
and will also be home to specialized preservation laboratories 
for audiovisual media. This project was put on a five-year plan 
three years ago and progress is moving according to schedule. 
The fiscal year 2006 funding request for this project is $16.17 
million. This facility will provide sufficient capacities and 
capabilities for the Library to store, preserve and provide 
access to its collections of moving images and recorded sound 
for well over the next 25 years. ARL and CLIR support the 
Library's fiscal year 2006 request of $16.17 million for 
collections relocation, digital preservation activities, and 
more relating to the NAVCC.
    To preserve our past, libraries have established 
collaborative programs to protect millions of books and other 
materials, much of which is becoming unreadable due to the 
acidic paper on which they are printed. This is a national 
crisis and our response must be sustained over many years. ARL 
and CLIR thank the Congress for your continuing support of the 
Library's deacidification and related preservation efforts. We 
support the request for $3.375 million to preserve an 
additional 4.5 million items.
    The library community supports many preservation 
initiatives. ARL recently released a paper, ``Recognizing 
Digitization as a Preservation Reformatting Method,'' (http://
www.arl.org/preserv/digit_final.html) that supports 
digitization as a viable preservation reformatting strategy. 
CLIR and the Coalition for Networked Information (CNI) endorsed 
this paper and approach. This paper is but a first step in 
building community support and facilitating the development of 
policies, standards, guidelines, and best practices. It is 
recognized that there are many methods available to preserve 
paper-based materials with digitization becoming more widely 
accepted by many communities.
    ARL and CLIR support the mission of the National Digital 
Information Infrastructure and Preservation Program (NDIIPP) to 
develop a national strategy to collect, archive, catalog, and 
preserve the rapidly increasing amount of digital content for 
current and future generations, especially materials that are 
created only in digital formats. Libraries throughout the 
United States are investing in comparable initiatives, thus 
cooperation among institutions will be fundamental to the 
success of these endeavors. ARL and CLIR support the request to 
extend by five years, the securing of commitments by other 
organizations and entities to partner in the NDIIPP. In 2004, 
the Library awarded more than $13.9 million to eight U.S. 
institutions to collect and preserve digital materials under 
the NDIIPP.
    The Library created the National Film Preservation 
Foundation (NFPF) in 1996 to preserve American films, such as 
documentaries, silent-era films, avant-garde works, ethnic 
films, newsreels, home movies and independent works. In 
addition to protecting films from disintegration, NFPF 
organizes, obtains funding, and manages collaborative projects 
that enable film archives to work together on national 
preservation initiatives. These are important activities and 
merit Congress' full support. Indeed, ARL supported legislation 
before Congress to reauthorize these important activities.
    Funding to assist the Library in its long-term preservation 
and access initiatives is critical to ensuring that the 
American public benefits from our Nation's cultural resources 
as well as from the Library's global resources. We look forward 
to working with members of the Subcommittee on Legislative 
Branch and very much appreciate the Subcommittee's continued 
support for the Library of Congress and its programs.
                                ------                                


  Prepared Statement of the Association of Research Libraries and the 
              Council on Library and Information Resources

    On behalf of the Association of Research Libraries (ARL) 
and the Council on Library and Information Resources (CLIR), we 
write in support of the fiscal year 2006 appropriations request 
for the U.S. Government Printing Office (GPO). We request your 
support for GPO's fiscal year 2006 budget request of 
$131,120,000 and in particular the request of $33,837,000 for 
the Salaries and Expenses (S&E) Appropriation of the 
Superintendent of Documents. This appropriation supports the 
Federal Depository Library Program (FDLP), the cataloging and 
indexing of government publications, the distribution of 
government publications to the International Exchange Program 
and more. We commend GPO for investing in technologies and 
systems to support enhanced access to electronic government 
information and in programs to ensure the authenticity and 
preservation of this information.
    The FDLP is a long-standing partnership between the Federal 
Government, the library community and the public. The FDLP 
provides the American public with access to a wide array of 
Federal information. GPO Access provides the public with access 
to information in an increasingly electronic environment. In 
addition to Congress, the White House, approximately 130 
Federal departments and agencies, and the courts rely on GPO's 
services to create and disseminate government information 
through the World Wide Web.
    The GPO and the participating Federal Depository Libraries 
(FDLs) are undergoing an exciting transformation. This 
transformation is a result of the new capabilities and 
opportunities that are possible with the adoption of digital 
technologies and the explosive growth of the Internet. 
Researchers, students and members of the public can engage in 
sophisticated searching and manipulation of information and 
data including ready access to data, image files and more. 
Increasingly, the data and information available is both 
current and historical as many libraries and others digitize 
special collections that are rich in the cultural and political 
history of our Nation.
    As noted by the Pew Internet and American Life Project, 
``the Internet has reached into, and in some cases, reshaped 
just about every realm of modern life.'' This shift to the 
adoption and use of electronic information resources reflects 
the interests and activities of the public. According to a 
recent Nielsen/NR survey (March 2005), there are 200,933,147 
Internet users in the United States or 67.8 percent of the 
population. This represents an increase in usage of the 
Internet of 104.9 percent between 2000-2005. These statistics 
demonstrate how the American public is now engaging in online 
activities--education, e-commerce, politics and a wide range of 
other activities. The findings of the Electronic Publishing 
Initiative (EPIC) at Columbia University are illustrative of 
this change. EPIC found that electronic resources have become 
the most used tool for information gathering by students. In 
particular, undergraduate students rely upon the World Wide Web 
and graduate students are more dependent upon library 
electronic services. The GPO Strategic Vision for the 21st 
Century clearly recognizes how the American public depends upon 
E-services and how they use information.
    Research libraries, indeed all libraries, are experiencing 
an explosive growth in the acquisition and use of electronic 
resources. As a result, there is a dramatic rise in digital 
services in libraries and in teaching, learning and research 
applications. The acceleration to electronic services is due in 
large part to the new opportunities to provide access to 
information more effectively. Data collected by ARL members 
over the past decade indicate that the portion of the library 
materials budget that is spent on electronic resources is 
growing rapidly. The percentage of the average library budget 
that is spent on electronic materials has increased more than 
eightfold, from an estimated 3.6 percent in 1992-93 to 25 
percent in 2002-03.
    Since the early 1990's, the library community has actively 
advocated for the inclusion of electronic government 
information in the FDLP. Congress, with guidance from this 
Committee, has supported this move to an increasingly 
electronic FDLP. This direction recognized the enhanced 
capabilities that electronic services provide to users of 
government information.
    Most recently, the move to electronic delivery of 
information in the FDLP has increased at a fast pace. By 
October-November 2004, 95 percent of the titles in the FDLP 
were available electronically (even if tangible forms were also 
available) and only 5 percent had no electronic counterpart.
    The shift to a predominantly electronic FDLP signals a 
change in nature of the Program. The FDLP is moving from a 
collection-based program to a service-based program and from 
print-based to electronic. The focus of the program is on 
expertise and access to the information resources, not on the 
physical collection. In addition, the future of the FDLP will 
be in building shared collections where resources are managed 
and interoperated. These may also include print collections 
that are digitized. It is expected that different models of 
shared repositories are likely to emerge and diversity is 
desirable and encouraged.
    Participating libraries make significant local 
contributions to ensure effective public access to government 
information. For example, as a participating regional federal 
depository library (since 1879), the University of Colorado-
Boulder Library spends approximately $675,000 for staff, 
material purchases, equipment and a variety of projects that 
enhance public access to government information. In addition, 
the Colorado State University selects approximately 60 percent 
of materials available via the FDLP and spends $200,000 on 
staff. The average yearly cost for 6 academic FDL's in Illinois 
is $348,107 and all select over 78 percent of the government 
information available via the program.
    One hundred and eight ARL members are federal depository 
libraries located in congressional districts throughout the 
United States. Of the 108 participating ARL libraries, 22 are 
regional depositories that collect and maintain all information 
available via the FDLP. As of the fall of 2003, the average 
annual investment in the program by ARL selective FDLs was 
$352,680 and was $386,251 for ARL regional FDLs. Moreover, a 
recent survey of ARL FDLs and non-ARL regional libraries 
reports a jump in the reliance upon no-fee government E-
resources as well as an increase in the licensing of commercial 
E-resources. Finally, 99 percent of ARL selective FDLs report 
links to electronic government information in their online 
catalogs and 100 percent of all regional FDLs link to 
government E-resources. Clearly, many participating FDLs have 
embraced the use of electronic products and services.
    The GPO fiscal year 2006 funding request, including that 
for Salaries and Expenses, includes key initiatives that focus 
on ensuring that GPO is well positioned to provide needed 
information services in the evolving networked environment. GPO 
is investing in new strategic initiatives that define its and 
the FDLP's future. For example, GPO is supporting the 
development of authentication services, preservation planning 
and implementation, improvements to GPO Access, web harvesting, 
and reallocation of resources to manage the electronic 
collection. The Salaries and Expenses request of $33,837,000 
supports several critically important programs such as the 
FDLP, the Cataloging and Indexing Program, and the 
International Exchange Program. This amount includes necessary 
increases to support the continued operation of the FDLP, and 
the increased demands upon GPO Access. In particular, we 
strongly support the request of $1 million in support of 
digitization of government information. We urge you to approve 
the full Salaries and Expenses appropriations request for 
fiscal year 2006.
    ARL recently released a paper, ``Recognizing Digitization 
as a Preservation Reformatting Method,'' (http://www.arl.org/
preserv/digit_final.html) that supports digitization as a 
viable preservation reformatting strategy. CLIR and the 
Coalition for Networked Information (CNI) endorsed this paper 
and approach. This paper is but a first step in building 
community support and facilitating the development of policies, 
standards, guidelines, and best practices. It is recognized 
that there are many methods available to preserve paper-based 
materials with digitization becoming more widely accepted by 
many communities.
    In closing Mr. Chairman, we very much appreciate your and 
the Subcommittee's support of GPO and the FDLP over the course 
of many years. The continuing investment in systems and 
services to provide the public with effective access to 
government information will ensure that valuable electronic 
government information will be available and preserved for 
future generations. We respectfully ask for your continued 
support by approving the Government Printing Office's fiscal 
year 2006 appropriations request in its entirety. We also ask 
that this statement be included as part of the hearing record.
    Thank you very much for your consideration of this request.


















       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Allard, Senator Wayne, U.S. Senator From Colorado:
    Opening Statements of.........................1, 121, 209, 241, 265
    Questions Submitted by...........................101, 103, 164, 191
Association of Research Libraries and the Council on Library and 
  Information Resources, Prepared Statements of................317, 318

Billington, James H., Ph.D., The Librarian of Congress, Library 
  of Congress....................................................   121
    Prepared Statements of.....................................124, 129

Concordia, Al, Assistant Sergeant at Arms for Police Operations, 
  Office of the Sergeant at Arms and Doorkeeper, U.S. Senate.....   209
Czerwinski, Stan, Controller, Government Accountability Office...   169

Dodaro, Gene, Chief Operating Officer, Government Accountability 
  Office.........................................................   169
Durbin, Senator Richard J., U.S. Senator From Illinois:
    Opening Statement of.........................................   247
    Prepared Statements of......................................78, 247
    Questions Submitted by................................114, 278, 289
     Statement of................................................    78

Edwards, Rick, Administrative Assistant and Assistant Sergeant at 
  Arms, Office of the Sergeant at Arms and Doorkeeper, U.S. 
  Senate.........................................................   209
Erickson, Nancy, Executive Assistant, Office of the Sergeant at 
  Arms and Doorkeeper, U.S. Senate...............................   209

Forrest, Bruce, Interim Chief Copyright Royalty Judge, Library of 
  Congress, Prepared Statement of................................   145

Gainer, Terrance W., Chief of Police, United States Capitol 
  Police, Capitol Police Board...................................   241
    Prepared Statement of........................................   244
    Statement of.................................................   243
Gordon, Esther, Assistant Sergeant at Arms for Operations, Office 
  of the Sergeant at Arms and Doorkeeper, U.S. Senate............   209

Halbrooks, Lynne, Deputy Sergeant at Arms, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................   209
Hanson, J. Greg, Assistant Sergeant at Arms and Chief Information 
  Officer, Office of the Sergeant at Arms and Doorkeeper, U.S. 
  Senate.........................................................   209
Hantman, Alan, FAIA, Architect of the Capitol..............71, 241, 261
    Prepared Statement of........................................    73
    Questions Submitted to.......................................   103
Harper, Sallyanne, Chief Administrative Officer, Government 
  Accountability Office..........................................   169
Holtz-Eakin, Douglas, Director, Congressional Budget Office......   285
    Prepared Statement of........................................   285

James, Bruce R., Public Printer, Government Printing Office......   265
    Opening Statement of.........................................   266
    Prepared Statement of........................................   269
Johnson, Senator Tim, U.S. Senator From South Dakota:
    Prepared Statement of........................................   147
    Statement of.................................................   147
Jones, Mary Suit, Assistant Secretary of the Senate, Office of 
  the Secretary, U.S. Senate.....................................     1

Kaylor, Chuck, Assistant Sergeant at Arms for Security and 
  Emergency Preparedness, Office of the Sergeant at Arms and 
  Doorkeeper, U.S. Senate........................................   209

Livingood, Hon. W. Wilson, House Sergeant at Arms..............241, 261

Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................   121
    Prepared Statement of........................................   158
    Statement of.................................................   157

Peters, Mary Beth, Register of Copyrights, Library of Congress...   121
    Prepared Statement of........................................   141
Pickle, Hon. William H., Sergeant at Arms and Doorkeeper, Office 
  of the Sergeant at Arms and Doorkeeper, U.S. Senate.....209, 241, 261
    Opening Statement of.........................................   211
    Opening Testimony of.........................................   261
    Prepared Statements of................................213, 242, 262
    Statement of.................................................   241

Reynolds, Emily, Secretary of the Senate, Office of the 
  Secretary, U.S. Sen- 
  ate............................................................     1
    Opening Statement of.........................................     3
    Prepared Statement of........................................     6
    Questions Submitted to.......................................   101

Robfogel, Susan S., Esquire, Chair, Board of Directors, Office of 
  Compliance.....................................................   293
    Prepared Statement of........................................   297

Saxton, Jim, Chairman, Joint Economic Committee, Prepared 
  Statement of...................................................   314
Scott, General Donald L., Deputy Librarian of Congress, Library 
  of Con- 
  gress..........................................................   121

Thomas, William M., Chairman, Joint Committee on Taxation, 
  Prepared Statement of..........................................   303
Thompson, William W., II, Executive Director, Office of 
  Compliance.....................................................   293
    Prepared Statement of........................................   293

Walker, David M., Comptroller General of the United States, 
  Government Accountability Office...............................   169
     Prepared Statement of.......................................   171
Wineman, Tim, Financial Clerk of the Senate, Office of the 
  Secretary, U.S. Senate.........................................     1

















                             SUBJECT INDEX

                              ----------                              
                                                                   Page

                        ARCHITECT OF THE CAPITOL

Additional Committee Questions...................................   101
Annual Projects Budget...........................................    73
Architect of the Capitol:
    Management...................................................    97
    Strategic Plan...............................................    71
Budget...........................................................   103
    And Capital Improvements Plan (CIP) Process..................    86
Capital Projects Budget..........................................    74
Capitol:
    Building.....................................................    75
    Police Off-site Delivery Facility............................   109
    Power Plant.................................................75, 108
    Visitor Center.........................................85, 111, 114
        Budget...................................................    74
        Completion and Operations................................    92
        Construction.............................................   112
            Management...........................................    94
        Cost Changes.............................................    90
        Exhibition Space.........................................    96
        FTEs.....................................................    91
        Government Accountability Office Report..................    98
        Schedule.................................................    95
        Utility Tunnel...........................................   112
Chief Operating Officer Position.................................   104
Employee:
    Feedback Program.............................................    72
    Safety.......................................................    76
Financial Management Reforms.....................................   119
Fire and Life Safety Projects....................................   108
Fiscal Year 2006 Major Projects..................................    71
Fort Meade Storage Modules.......................................   109
GAO Management Review............................................   110
Human Capital/Organizational Excellence..........................    76
Master Plan and Facility Condition Assessment....................   107
Operating Budget.................................................    73
Organizational:
    Issues.......................................................   114
    Structure....................................................   112
Overview of Budget Request.......................................    73
Perimeter Security..............................................76, 107
Personnel Controls...............................................   119
Privatization....................................................   109
Procurement Irregularities.......................................   117
Project:
    Delivery.....................................................    76
    Management.................................................105, 113
Senate Office Building Improvements..............................    75
Strategic Plan...................................................   103
    Needed.......................................................    92
Strategic Planning...............................................    73

                          CAPITOL GUIDE BOARD

Staff Led Tours..................................................   263

                          CAPITOL POLICE BOARD

Additional Staffing Request......................................   248
Capitol Visitor Center Space for Police..........................   258
Competency Performance-Based Management System...................   255
Discussion of Overtime...........................................   250
Fairchild Building...............................................   259
Fiscal Year 2005 Salary Budget Discussion........................   254
Funding Requirements.............................................   250
Hiring and Retention of Sworn Officers...........................   251
Merger of Police Forces..........................................   252
Mounted Horse Unit...............................................   257
Offsite Delivery Center..........................................   255
Staffing the Capitol Visitor Center..............................   249
Sworn Officers Training Needs....................................   249

                      CONGRESSIONAL BUDGET OFFICE

Additional Committee Questions...................................   288
Audit of CBO Financial Statements................................   290
Automated Financial Management System............................   291
Budget Forecasting...............................................   287
Coordinating Efforts With Other Legislative Branch Agencies......   289
Document Distribution System.....................................   289
Elimination of Certain Staff Positions...........................   289
Library Staff Reductions.........................................   290
Property Management Inventory System.............................   290
Resource Requirements............................................   287

                    GOVERNMENT ACCOUNTABILITY OFFICE

Additional Committee Questions...................................   191
Backlog of Requests..............................................   188
Fiscal Year 2004 Performance and Results.........................   172
GAO's Fiscal Year 2006 Request to Support the Congress...........   184
Health Care Backlog............................................188, 198
Making a Difference in Government................................   190
Measuring Success................................................   170
Performance:
    Awards.......................................................   190
    Recognition..................................................   189
Sources of GAO Work..............................................   187
Streamlining and Management Improvement Efforts..................   182

                       GOVERNMENT PRINTING OFFICE

Additional Committee Questions...................................   277
Continuation of Services.........................................   270
Digital Content Management System................................   273
Digitization Effort..............................................   274
Federal Depository Libraries.....................................   276
Fiscal Year 2006 Request.........................................   270
Future Cost Savings..............................................   272
Government Printing Office Field Offices.........................   277
Internal Controls................................................   277
Investment in the GPO's Future...................................   270
Lease of Current Facility........................................   274
Redevelopment of Government Printing Office Headquarters.........   271
Schedule for New Building........................................   273
Smart Passport...................................................   276
Transitioning the Workforce......................................   275
2004 Results.....................................................   269

                          LIBRARY OF CONGRESS

Accomplishments..................................................   124
Additional Committee Questions...................................   163
Assessment of Proposed Open World Expansion Into Afghanistan and 
  Pakistan.......................................................   140
Board of Trustees................................................   130
Books for the Blind and Physically Handicapped...................   165
Building a 21st Century Library..................................   125
CVC Tunnel.......................................................   164
Congressional Research Service...................................   157
    Performance Measurement......................................   162
    Research Materials...........................................   160
    Response Time................................................   161
Copyright:
    Reengineering..............................................123, 154
    Registration Process.........................................   155
Fiscal Year 2006 Budget Request............126, 130, 135, 144, 146, 159
Fort Meade:
    Project......................................................   123
    Storage......................................................   149
Funding Priorities and Challenges................................   147
Impact of Technology.............................................   164
Library of Congress Performance Measurement......................   163
Library's Fiscal Year 2006 Plan..................................   125
Major:
    Library-wide Projects........................................   127
    Projects.....................................................   126
Management Initiatives...........................................   161
NAVCC--Culpeper................................................123, 148
National Digital Information Infrastructure and Preservation 
  Program........................................................   165
Open World Leadership Center...................................129, 156
    Delegate Quotations..........................................   136
Opening Statement of the Librarian...............................   122
Other Program Contributions......................................   136
Other Projects...................................................   128
Outsourcing......................................................   166
Performance Management...........................................   162
Police Merger....................................................   152
Program Objectives...............................................   130
Proposed Changes to Legislative Language.........................   129
Review of Copyright Office Work and Accomplishments............141, 146
Staff Capacity...................................................   159
Strategic:
    Decisions....................................................   131
    Goals........................................................   131
Sustaining Staff Capacity........................................   128
The Library Today................................................   124
Unfunded Mandates................................................   126
What the Investment Has Yielded..................................   132

                          OFFICE OF COMPLIANCE

Changes in the Congressional Accountability Act..................   300
Dispute Resolution...............................................   294
Educating our Constituency.......................................   295
Government Accountability Office Report on the Status of 
  Management in the Office of Compliance.........................   299
Health and Safety Inspections....................................   298
Rising Caseload..................................................   299
Safety and Health Enforcement....................................   294

                              U.S. SENATE

                        Office of the Secretary

Administrative Offices...........................................    34
Capitol Visitor Center...........................................     9
Changing Technologies............................................    80
Continuity of Operations and Emergency Preparedness Planning.....     9
Curatorial Advisory Board and Preservation Board of Trustees.....    80
Disbursing Office Information Technology.........................    27
Financial Operations: Disbursing Office..........................    18
Implementing Mandated Systems....................................     7
Inaugural Address Efforts........................................    79
Legislative Information System (LIS) Project.....................    67
Legislative Offices..............................................    10
Maintaining and Improving Current and Historic Legislative, 
  Financial and Administrative Services..........................    10
Presenting the Fiscal Year 2006 Budget Request...................     6
Retention and Recruitment........................................    82
Senate Clerks....................................................    81
Student Loan Repayment Program...................................    82
The Senate Disbursing Office, ``The Front Counter''..............    83
Capitol Visitor Center Exhibition Space..........................    96

             Office of the Sergeant at Arms and Doorkeeper

Capitol Visitor Center Equipment Furnishing......................   237
Continuing Emphasis on Security and Preparedness.................   214
Discussion on Additional Funding for Current Technology Alternate 
  Computing Facility.............................................   238
Information Technology...........................................   216
Major Events of the Past Year....................................   213
Operational Support..............................................   220
Staffing Increase for the Sergeant at Arms.......................   237
Telephone Systems Upgrade........................................   235
Upgrading:
    Mail Processing Facility and Packing.........................   238
    Printing Press...............................................   238
Voice-over Internet Protocol.....................................   236
Warehouse Construction...........................................   239

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
